                   U.S. Department of Agriculture

                      Office of Inspector General
                       Financial & IT Operations




         Audit Report

 U.S. Department of Agriculture’s
Consolidated Financial Statements
  for Fiscal Years 2007 and 2006




                         Report No. 50401-62-FM
                                 November 2007
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                   Washington, D.C. 20250


November 15, 2007



REPLY TO
ATTN OF: 50401-62-FM

TO:          Charles R. Christopherson, Jr.
             Chief Financial Officer
             Office of the Chief Financial Officer

ATTN:        Kathy Donaldson
             Audit Liaison Officer
             Office of the Chief Financial Officer
             Planning and Accountability Division

FROM:        Phyllis K. Fong       /s/
             Inspector General

SUBJECT: U.S. Department of Agriculture’s Consolidated Financial Statements
         for Fiscal Years 2007 and 2006


This report presents the results of our audits of the U.S. Department of Agriculture’s
consolidated financial statements for the fiscal years ending September 30, 2007, and
2006. The report contains a qualified opinion and the results of our assessment of the
Department’s internal control over financial reporting and compliance with laws and
regulations.

In accordance with Departmental Regulation 1720-1, please furnish a reply within
60 days describing the corrective actions taken or planned, including the timeframes, on
our recommendations. Please note that the regulation requires a management decision to
be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us during the audits.
Executive Summary
U.S. Department of Agriculture’s Consolidated Financial Statements for Fiscal Years
2007 and 2006 (Audit Report No. 50401-62-FM)

Purpose             Our audit objectives were to determine whether (1) the consolidated financial
                    statements present fairly, in all material respects, in accordance with
                    generally accepted accounting principles, the assets, liabilities, and net
                    position, net costs, changes in net position, and related combined statements
                    of budgetary resources; (2) the internal control objectives over financial
                    reporting were met; (3) the Department complied with laws and regulations
                    for those transactions and events that could have a direct and material effect
                    on the consolidated financial statements; and (4) the information in the
                    Performance and Accountability Report was materially consistent with the
                    information in the consolidated financial statements.

                    We conducted our audits at the financial offices of various U.S. Department
                    of Agriculture (USDA) agencies and the Office of the Chief Financial Officer
                    (OCFO) located in Washington, D.C., and its National Finance Center
                    located in New Orleans, Louisiana. We also performed site visits to selected
                    agencies’ field offices.

Results in Brief    During fiscal year 2007, Rural Development, a reporting component of
                    USDA, made significant revisions to its credit reform processes related to the
                    Single Family Housing Program cash flow model and subsidy reestimates.
                    We were unable to obtain sufficient, appropriate evidence to support USDA’s
                    financial statement amounts as of September 30, 2007, for estimated
                    allowances for subsidy costs associated with Direct Loans and Loan
                    Guarantees, Net; Other Liabilities, Intragovernmental; and Cumulative
                    Results of Operations reflected on the balance sheet and related note
                    disclosures. We were also unable to obtain sufficient, appropriate evidence
                    to support USDA’s financial statement amounts for the fiscal year ended
                    September 30, 2007, for loan subsidy expenses and earned revenue
                    associated with Loan Cost Subsidies and Earned Revenues in the statement of
                    net cost, and Transfers in/out without Reimbursement, Net Cost of
                    Operations, Cumulative Results of Operations, and Net Position on the
                    statement of changes in net position and the related note disclosures. In
                    addition, we attempted to, but were unable to satisfy ourselves as to the
                    amounts of these line items or related note disclosures by alternate auditing
                    procedures.

                    We have also issued reports on our consideration of USDA’s internal control
                    over financial reporting and its compliance with certain provisions of laws
                    and regulations.



USDA/OIG-A/50401-62-FM                                                                      Page i
                   For internal control over financial reporting, we identified three significant
                   deficiencies as follows:

                     •   improvements needed in overall financial management;
                     •   improvements needed in information technology (IT) security and
                         controls; and
                     •   improvements needed in certain financial management practices and
                         processes.

                   We believe that the first two deficiencies are material weaknesses. Our
                   report on compliance with laws and regulations discusses three instances of
                   noncompliance relating to the Federal Financial Management Improvement
                   Act, the Anti-Deficiency Act, and Managerial Cost Accounting practices.

                   As discussed in Notes 1, 29, and 30 to the consolidated financial statements,
                   USDA changed its method of accounting and reporting for allocation
                   transfers (parent-child relationships) and its method of reporting the
                   reconciliation of budgetary resources obligated to the net cost of operations in
                   fiscal year 2007 to adopt the provisions of OMB Circular No. A-136,
                   Financial Reporting Requirements.
Key
Recommendations    OCFO has immediate and long term plans to address most of the weaknesses
                   discussed in the report. The key recommendations in this report were limited
                   to additional improvements needed in financial management.




USDA/OIG-A/50401-62-FM                                                                      Page ii
Abbreviations Used in This Report


ADA               Anti-Deficiency Act
C&A               certification and accreditation
CCC               Commodity Credit Corporation
CFO               Chief Financial Officer
DR                Departmental Regulation
FFIS              Foundation Financial Information System
FMFIA             Federal Managers' Financial Integrity Act of 1982
FFMI              Financial Management Modernization Initiative
FFMIA             Federal Financial Management Improvement Act of 1996
FFMSR             Federal Financial Management Systems Requirements
FISMA             Federal Information Security Management Act of 2002
FSA               Farm Service Agency
FS                Forest Service
GAO               U.S. Government Accountability Office
GSM               General Sales Manager
IT                information technology
MCA               Managerial Cost Accounting
NFC               National Finance Center
NITC              National Information Technology Center
NRCS              Natural Resources Conservation Service
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OGC               Office of General Counsel
OIG               Office of Inspector General
OMB               Office of Management and Budget
PL                Public Law
POA&M             plan of action & milestones
RSI               Required Supplementary Information
RSSI              Required Supplemental Stewardship Information
SFFAS             Statement of Federal Financial Accounting Standard
SFH               Single Family Housing
SGL               U.S. Government Standard General Ledger
SoF               Statement of Financing
SV                Standard Voucher
WCF               Working Capital Fund
USDA              U.S. Department of Agriculture




USDA/OIG-A/50401-62-FM                                                   Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Report of the Office of Inspector General ............................................................................................ 1

Report of the Office of Inspector General on Internal Control Over Financial Reporting............. 4

Report of the Office of Inspector General on Compliance With Laws and Regulations ................. 6

Findings and Recommendations............................................................................................................ 8

    Section 1. Internal Control Over Financial Reporting – Material Weaknesses........................ 8

        Finding 1             Improvements Needed in Overall Financial Management...................................... 8
                                  Recommendation 1 ........................................................................................ 11
        Finding 2             Improvements Needed in Information Technology (IT) Security and
                              Controls ................................................................................................................. 11

    Section 2. Internal Control Over Financial Reporting – Significant Deficiency..................... 14

        Finding 3             Improvements Needed in Certain Financial Management Practices and
                              Processes ............................................................................................................... 14
                                  Recommendation 2 ........................................................................................ 15

    Section 3. Compliance With Laws and Regulations .................................................................. 16

     Finding 4     Lack of Substantial Compliance With FFMIA Requirements .............................. 16
     Finding 5     Anti-Deficiency Act Violations ............................................................................ 17
     Finding 6     Managerial Cost Accounting (MCA) Practices .................................................... 18
Exhibit A – Audit Reports Related to the Fiscal Year 2007 Financial Statements......................... 20
Exhibit B – Summary of Prior Year Recommendations................................................................... 21
Exhibit C – Performance and Accountability Report ....................................................................... 24




USDA/OIG-A/50401-62-FM                                                                                                                          Page iv
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




Report of the Office of Inspector General

To:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Agriculture (USDA) as of September 30, 2007, and 2006, and the related consolidated statements
of net cost; changes in net position; and the combined statements of budgetary resources
(hereinafter referred to as the “consolidated financial statements”) for the fiscal years then ended.
The consolidated financial statements are the responsibility of USDA’s management. Our
responsibility is to express an opinion on the consolidated financial statements based on our audit.

Except as discussed in the following paragraph, we conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards issued by the Comptroller General of
the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements. Those standards and OMB Bulletin No. 07-04
require that we plan and perform the audits to obtain reasonable assurance that the consolidated
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the consolidated financial statements.
An audit also includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audit provides a reasonable basis for our opinion.

During fiscal year 2007, Rural Development, a reporting component of USDA, made significant
revisions to its credit reform processes related to the Single Family Housing Program cash flow
model and subsidy reestimates. We were unable to obtain sufficient, appropriate evidence to
support USDA’s financial statement amounts as of September 30, 2007, for estimated allowances
for subsidy costs associated with Direct Loans and Loan Guarantees, Net; Other Liabilities,
Intragovernmental; and Cumulative Results of Operations reflected on the balance sheet and
related note disclosures. We were also unable to obtain sufficient, appropriate evidence to support
USDA’s financial statement amounts for the fiscal year ended September 30, 2007, for loan
subsidy expenses and earned revenue associated with Loan Cost Subsidies and Earned Revenues in
the statement of net cost, and Transfers in/out without Reimbursement, Net Cost of Operations,
Cumulative Results of Operations, and Net Position on the statement of changes in net position
and the related note disclosures. In addition, we attempted to, but were unable to satisfy ourselves
as to the amounts of these line items or related note disclosures by alternate auditing procedures.




USDA/OIG-A/50401-62-FM                                                                            Page 1
In our opinion, except for the effects of such adjustments, if any, as might have been necessary had
we been able to assess the reasonableness of the consolidated balance sheet, statement of net cost,
and statement of changes in net position, and all impacted financial statement line items and
related note disclosures referred to in the preceding paragraph, the consolidated financial
statements referred to in the first paragraph, present fairly, in all material respects, the financial
position of USDA as of September 30, 2007, and 2006; and its net costs, changes in net position,
and budgetary resources for the years then ended, in conformity with accounting principles
generally accepted in the United States of America.

As discussed in Notes 1, 29, and 30 to the consolidated financial statements, USDA changed its
method of accounting and reporting for allocation transfers (parent-child relationships) and its
method of reporting the reconciliation of budgetary resources obligated to the net cost of
operations in fiscal year 2007 to adopt the provisions of OMB Circular No. A-136, Financial
Reporting Requirements.

Except for the sections containing the financial statements and related notes, the information in the
Performance and Accountability Report is not a required part of the consolidated financial
statements, but is supplemental information required by accounting principles generally accepted
in the United States of America and OMB Circular No. A-136. We attempted to apply certain
limited procedures, which consisted principally of inquiries of management regarding the methods
of measurement and presentation of this information. However, in fiscal year 2006, we were not
provided the information in time to review and we noted in our current review that information
was not always consistent with similar information from the prior year. We believe that the
Required Supplementary Information related to heritage assets, stewardship land, and deferred
maintenance may not be consistently prepared across all USDA and controls have not been
effectively designed to ensure the accuracy, completeness, and timeliness of the reported
information. We did not audit this information and, accordingly, we express no opinion on it.

We have also issued reports on our consideration of USDA’s internal control over financial
reporting and its compliance with certain provisions of laws and regulations. These reports are an
integral part of an audit performed in accordance with Government Auditing Standards and, in
considering the results of the audit, should be read in conjunction with this report. For internal
control over financial reporting, we identified three significant deficiencies as follows:

   •   improvements needed in overall financial management;
   •   improvements needed in information technology (IT) security and controls; and
   •   improvements needed in certain financial management practices and processes.

We believe that the first two deficiencies are material weaknesses.

Our report on compliance with laws and regulations discusses three instances of noncompliance
relating to the Federal Financial Management Improvement Act of 1996, the Anti-Deficiency Act,
and Managerial Cost Accounting practices.




USDA/OIG-A/50401-62-FM                                                                           Page 2
This report is intended solely for the information of the management of USDA, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General


November 15, 2007




USDA/OIG-A/50401-62-FM                                                                      Page 3
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                         Washington, D.C. 20250



Report of the Office of Inspector General on
Internal Control Over Financial Reporting

To:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the accompanying consolidated balance sheets of the U.S. Department of
Agriculture (USDA) as of September 30, 2007, and 2006, and the related consolidated statements
of net cost; changes in net position; and the combined statements of budgetary resources
(hereinafter referred to as the “consolidated financial statements”) for the fiscal years then ended
and have issued our report thereon, dated November 15, 2007. Except as discussed in our opinion,
we conducted our audits in accordance with auditing standards generally accepted in the United
States of America; the standards applicable to financial audits contained in Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

In planning and performing our audits, we considered USDA’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk, and
performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin No. 07-04
and Government Auditing Standards. We did not test all internal controls as defined by the
Federal Managers’ Financial Integrity Act (FMFIA) of 1982. The objective of our audits was not
to provide assurance on USDA’s internal control. Consequently, we do not provide an opinion on
internal control over financial reporting.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be significant deficiencies.
Under standards issued by the American Institute of Certified Public Accountants significant
deficiencies are deficiencies in internal control, or a combination of deficiencies, that adversely
affect USDA’s ability to initiate, authorize, record, process, or report financial data reliably and in
accordance with accounting principles generally accepted in the United States of America such
that there is more than a remote likelihood that a misstatement of the financial statements being
audited that is more than inconsequential will not be prevented or detected. Material weaknesses
are significant deficiencies, or combinations of significant deficiencies, that result in more than a
remote likelihood that material misstatements in relation to the consolidated financial statements
being audited will not be prevented or detected. Because of inherent limitations in any internal
control, misstatements due to error or fraud may occur and not be detected.


USDA/OIG-A/50401-62-FM                                                                          Page 4
We noted certain matters described in the “Findings and Recommendations” involving the internal
control over financial reporting and its operation that we consider to be significant deficiencies as
follows:

      •   improvements needed in overall financial management (Section 1);
      •   improvements needed in information technology (IT) security and controls (Section 1); and
      •   improvement needed in certain financial management practices and processes (Section 2).

We believe that the first two deficiencies are material weaknesses.

Additional Other Procedures

As required by OMB Bulletin No. 07-04, we considered USDA’s internal controls over Required
Supplementary Information (RSI) and Required Supplemental Stewardship Information (RSSI) by
obtaining an understanding of the internal controls, determining whether these internal controls
had been placed in operation, assessing control risk, and performing tests of controls. Our
procedures were not designed to provide assurance on internal controls over such, RSI and RSSI;
accordingly, we do not provide an opinion on such controls. As a result of such limited
procedures, we believe that the RSI related to deferred maintenance, heritage assets, and
stewardship land may not be consistently prepared across all USDA locations and controls have
not been effectively designed to ensure the accuracy, completeness, and timeliness of the reported
information.

As further required by OMB Bulletin No. 07-04, with respect to internal control related to
performance measures determined by management to be key and reported in the Management’s
Discussion and Analysis section of the Performance and Accountability Report, we obtained an
understanding of the design of significant internal controls relating to the existence and
completeness assertions and determined whether they had been placed in operation. Our
procedures were not designed to provide assurance on internal control over reported performance
measures; accordingly, we do not provide an opinion on such controls.

We did not identify any material weaknesses that were not disclosed in USDA’s FMFIA report.

This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 15, 2007


USDA/OIG-A/50401-62-FM                                                                        Page 5
                          UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL

                                          Washington, D.C. 20250




Report of the Office of Inspector General on
Compliance With Laws and Regulations

To:    Charles R. Christopherson, Jr.
       Chief Financial Officer
       Office of the Chief Financial Officer

We have audited the consolidated balance sheets of the U.S. Department of Agriculture (USDA) as of
September 30, 2007, and 2006, and the related consolidated statements of net cost; changes in net
position; the combined statements of budgetary resources (hereinafter referred to as the “consolidated
financial statements”) for the fiscal years then ended and have issued our report thereon, dated
November 15, 2007. Except as discussed in our opinion on the consolidated financial statements, we
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The management of USDA is responsible for complying with applicable laws and regulations. As part
of obtaining reasonable assurance about whether the consolidated financial statements are free of
material misstatement, we performed tests of USDA’s compliance with certain provisions of laws and
regulations, contracts and agreements, and Governmentwide policy requirements, noncompliance with
which could have a direct and material effect on the determination of the consolidated financial
statement amounts. We also obtained reasonable assurance that USDA complied with certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including requirements
referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA), except for those
that, in our judgment, were clearly inconsequential. We noted no reportable instances of
noncompliance with these laws and regulations, except as disclosed in this report. We limited our tests
of compliance to the provisions described in the preceding sentence and did not test compliance with
all laws and regulations applicable to USDA. However, providing an opinion on compliance with laws
and regulations was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed two instances of noncompliance with laws and
regulations discussed in the second paragraph of this report, exclusive of FFMIA, that are required to
be reported under Government Auditing Standards and OMB Bulletin No. 07-04. Specifically, we
reported noncompliance with the Anti-Deficiency Act and Managerial Cost Accounting practices.




USDA/OIG-A/50401-62-FM                                                                          Page 6
This report is intended solely for the information and use of the management of USDA, OMB, and
Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.


/s/

Phyllis K. Fong
Inspector General

November 15, 2007




USDA/OIG-A/50401-62-FM                                                                        Page 7
Findings and Recommendations
Section 1.   Internal Control Over Financial Reporting – Material Weaknesses

                     Material weaknesses are significant deficiencies, or combinations of
                     significant deficiencies, that result in more than a remote likelihood that
                     material misstatements in relation to the consolidated financial statements
                     being audited will not be prevented or detected. Because of inherent
                     limitations in any internal control, misstatements due to error or fraud may
                     occur and not be detected. We believe that the findings discussed in this
                     section are material internal control weaknesses.


Finding 1            Improvements Needed in Overall Financial Management

                     Our review disclosed that improvements were needed in overall financial
                     management processes across the Department. Information recorded in the
                     general ledger was not always accurate and significant corrections were made
                     after September 30, 2007, in order to correct the data. In some instances, the
                     auditors performed the quality control reviews that financial managers should
                     have performed. Some examples where quality control needs to be improved
                     and/or established follow.

                        •   We identified deficiencies in Rural Development’s credit reform
                            processes related to the revision of its cash flow models and the
                            accuracy of the data used in the models. We attributed these
                            deficiencies to a lack of management oversight and/or quality control
                            of the processes. As a result, Rural Development revised its fiscal
                            year 2007 reestimates as initially provided to the Office of Inspector
                            General (OIG) for review by over $3.7 billion and recorded 5 quarters
                            of Federal Financing Bank interest expense during fiscal year 2007 to
                            include $281 million that was inappropriately excluded from the
                            fourth quarter expenses of fiscal year 2006. The pervasiveness and
                            the materiality of the errors throughout the cash flow data inputs used
                            by Rural Development to perform the credit reform reestimates
                            prevented us from relying on the internal controls over the
                            reestimates. Further, we were not provided the revised Single Family
                            Housing (SFH) model and reestimates until fiscal yearend. This
                            prevented us from performing a comprehensive review of the model
                            and adequately reviewing the underlying data associated with the
                            model to ascertain the sufficiency and appropriateness of the evidence
                            supporting the SFH reestimates.



USDA/OIG-A/50401-62-FM                                                                      Page 8
                         Our qualified opinion was based on a scope limitation and, as such,
                         we could not determine whether the financial statements’ presentation
                         of the related accounts identified in our opinion were free of material
                         misstatement.

                     •   During the audit of the Commodity Credit Corporation’s (CCC)
                         methodology for calculating the projected future cash flows, we
                         continued to note functionality issues related to the calculation of the
                         Public Law (PL) 480 program prepayments, default amounts, and
                         offsetting entries. As a result, certain prepayment amounts were
                         incorrectly calculated. In addition, we noted that the calculation year
                         used in the model that drives the cash flow projections for the PL 480
                         program, was incorrectly based on the budget year (i.e., 2009) as
                         opposed to the financial reporting year (i.e., 2007). This issue was
                         not identified by CCC management in a timely manner. As a result,
                         the cash flow output submitted for audit was incorrect, which required
                         CCC to rerun the Consolidated Subsidy Calculator 2 tool and record a
                         post-closing adjusting entry in the amount of $331 million. Further,
                         CCC used the incorrect OMB default rates, which resulted in an
                         unrecorded audit difference in the amount of $53 million. We also
                         noted during our review of CCC’s calculation of the PL 480 and
                         General Sales Manager (GSM) liquidating fund reserves (i.e., pre-
                         1992 Credit Reform programs), that a required discounting factor
                         (i.e., the Treasury rate for securities with similar maturities) was not
                         included as an assumption used to project future cash flows. The
                         calculation errors were not identified by management’s review of the
                         model outputs or the related journal entries; nor were the errors
                         identified during management’s analytical review of the
                         reasonableness of account balance amounts. As a result, the loan
                         receivable balances initially recorded for the pre-Credit Reform PL
                         480 and GSM programs were overstated by $945 million and $40
                         million, respectively.

                     •   Our audit at the Farm Service Agency (FSA) disclosed that pivot
                         tables used to create cash flow reestimates were not always accurate.
                         For the material guaranteed programs, the pivot tables contained
                         errors exceeding $26 million. We received three revisions of the cash
                         flow reestimates created by FSA. The revisions were a result of
                         errors identified by OIG in the submissions dated October 5, 7, and
                         10, 2007. These errors and omissions were a direct result of FSA
                         incorrectly interpreting and applying approved policy from the Office
                         of Management and Budget (OMB).

                     In its fiscal year 2007 Federal Managers’ Financial Integrity Act
                     (FMFIA) of 1982 report, the Department noted that controls were lacking
                     over credit reform. Specifically, the quality assurance process to ensure
USDA/OIG-A/50401-62-FM                                                                    Page 9
                                      that the cash flow models, data inputs, estimates, and reestimates for
                                      financial reporting were not subject to appropriate controls and
                                      management oversight. As a result, additional resources were needed to
                                      correct the credit reform information in the financial statements and
                                      related disclosures. The FMFIA report further stated that the U.S.
                                      Department of Agriculture (USDA) plans to perform and document
                                      independent quality assurance reviews of model changes, data extracts,
                                      and reestimates processes in the future before delivery to external parties.

                                      •    We again noted that obligations were not always valid because
                                           agencies were not effectively reviewing all unliquidated (open or
                                           active) obligations and taking appropriate actions (de-obligating). 1
                                           Invalid obligations increase the risk that funds may be inappropriately
                                           diverted for purposes other than what Congress intended. The
                                           Department of the Treasury’s (Treasury) annual closing guidance
                                           (Treasury Bulletin No. 2007-08, Yearend Closing, dated July 17,
                                           2007) requires an annual review of unliquidated obligations.
                                           Departmental Regulation (DR) 2230-1, Reviews of Unliquidated
                                           Obligations, dated August 22, 2006, requires annual reviews and
                                           certifications from agency Chief Financial Officers (CFO) that the
                                           annual reviews were performed and unliquidated obligations were
                                           valid based on the reviews.

                                               •    Last year, we selected 61 unliquidated obligations from 11
                                                    agencies for which no activity had occurred for over 2 years.
                                                    We noted that 32 of 61 (52 percent) of the obligations
                                                    reviewed were invalid and agencies indicated the items would
                                                    be de-obligated. This year, we selected a similar nonstatistical
                                                    sample of 60 obligations from 11 agencies and found that 29
                                                    (48 percent) of the obligations reviewed were invalid and
                                                    agencies planned to de-obligate the items. (Our sample was
                                                    selected from activity as of May 31, 2007, and the annual
                                                    certification was required to be complete by July 31, 2007.
                                                    Therefore, we recognize that some of the items may have
                                                    ultimately been resolved.)

                                               •    During fiscal year 2007, the Natural Resources Conservation
                                                    Service (NRCS) performed a comprehensive internal review
                                                    of its unliquidated obligations. As a result, NRCS indicated it
                                                    had de-obligated more than $560 million in obligations that
                                                    were determined to be invalid.



1
  An obligation is a binding agreement that will result in outlays, immediately or in the future. Budgetary resources must be available
before obligations can be incurred legally.
USDA/OIG-A/50401-62-FM                                                                                                      Page 10
                                          In its FMFIA report for 2007, USDA reported that it assessed the controls
                                          for reviewing unliquidated obligations and determined there was an
                                          overall lack of a comprehensive review of unliquidated obligations at
                                          several component agencies. As a result, accounts were not being de-
                                          obligated on a timely basis as required by Departmental regulations and
                                          procedures. The FMFIA report further noted that agencies need to
                                          implement effective and sustainable control procedures over the review
                                          and certification of unliquidated obligations.

Recommendation 1

                                     Implement an effective quality control review process throughout the
                                     Department for credit reform processes that, at a minimum, includes
                                     independent quality assurance reviews of model changes, data extracts, and
                                     reestimates.




Finding 2                            Improvements Needed in Information Technology (IT) Security
                                     and Controls

                                     We performed an independent evaluation of the Department’s IT security
                                     program and practices as required by the Federal Information Security
                                     Management Act of 2002 (FISMA). We also performed reviews of the
                                     general control structure of the Office of the Chief Information
                                     Officer/National Information Technology Center (OCIO/NITC) and the
                                     Office of the Chief Financial Officer/National Finance Center (OCFO/NFC),
                                     located in Kansas City, Missouri, and New Orleans, Louisiana, respectively. 2

                                     We noted that the efforts of the USDA’s OCIO and OIG in the past several
                                     years have heightened program management’s awareness of the need to plan
                                     and implement effective IT security. For example, OCIO/NITC sustained its
                                     unqualified opinion on the general control environment and the OCFO/NFC
                                     sustained its unqualified opinion on the design of its general control structure.
                                     However, our opinion on the operating effectiveness of OCFO/NFC controls
                                     remained qualified. Our review disclosed OCFO/NFC controls had not
                                     operated effectively in the areas of access control, awareness and training,
                                     audit and accountability, configuration management, contingency planning,
                                     and personnel security.

                                     The continuing material IT control weaknesses within the Department are
                                     due to the lack of an effective overall Departmentwide plan. The Department
                                     needs to coordinate with all of its agencies, determine the overall risks,
2
    See exhibit A for information regarding the cited reports.
USDA/OIG-A/50401-62-FM                                                                                       Page 11
                   prioritize the risks, and develop and implement a time-phased plan to
                   systematically mitigate risks. With agency cooperation and acceptance
                   improvements could be made.

                   The following summarizes the key matters.

                     •    Agencies that had contractor systems attached to their networks
                          could not provide documentation to validate that sufficient oversight
                          and evaluation activities were in place to ensure information systems
                          used or operated by a contractor of the agency, or other organization
                          on behalf of the agency, met the requirements of FISMA, OMB, and
                          the National Institute of Standards and Technology guidelines.

                     •    While OCIO made significant improvements in its oversight of the
                          Departmental inventory records, the process did not include tracking
                          system interfaces or contractor systems.

                     •    The Department made improvements in its plan of action and
                          milestones (POA&M) recording, tracking, and closures. However,
                          individual agencies were responsible for accurately inputting,
                          tracking, and closing POA&Ms. Based upon our work during the
                          fiscal year, we had limited assurance that agencies were
                          appropriately entering, tracking, and closing POA&Ms.

                     •    The Department did not always provide adequate oversight of system
                          categorization. Without a proper risk level assignment, the agencies
                          cannot design their security programs to ensure the appropriate
                          security controls are in place to protect the confidentiality, integrity,
                          and availability of their systems.

                     •    We noted that the certification and accreditation (C&A) process
                          within the Department was not adequate. While the Department had
                          implemented a concurrency review (quality assurance program) of
                          agency C&A submissions prior to accreditation, the reviews were not
                          providing adequate oversight to ensure that agency controls were
                          properly safeguarding agency systems and data.

                     •    The Department’s Privacy Information Act implementation needed
                          improvements.

                     •    An adequate Departmental configuration policy did not exist with
                          checklists for each operating system. Agencies were not reporting
                          accurate security postures in the scorecards and OCIO was not
                          validating the information when received.


USDA/OIG-A/50401-62-FM                                                                    Page 12
                     •    OCIO made progress in tracking incident responses. However, we
                          found policies and procedures for incident handling were not being
                          followed and that incidents were not closed properly or timely, or
                          were not reported to necessary authorities.

                   Due to the significance of these issues, IT security remained a material
                   internal control weakness for the Department. The Department and its
                   agencies are in the process of addressing the above weaknesses by
                   implementing recommendations made in other audit reports. Therefore, we
                   are making no additional recommendations in this report.




USDA/OIG-A/50401-62-FM                                                              Page 13
Section 2.       Internal Control Over Financial Reporting – Significant Deficiency

                            Significant deficiencies are matters coming to our attention that, in our
                            judgment, should be communicated because they represent deficiencies that
                            adversely affect the organization’s ability to initiate, authorize, record,
                            process, or report financial data reliably in accordance with generally accepted
                            accounting principles such that there is more than a remote likelihood that a
                            misstatement in relation to the consolidated financial statements being audited,
                            that is more than inconsequential, will not be prevented or detected.


Finding 3                   Improvements Needed in Certain Financial Management Practices
                            and Processes

                            Our review disclosed additional areas where financial management practices
                            and processes could be improved. These represent a significant deficiency.
                            Details follow:

                                 •   The Foundation Financial Information System (FFIS) uses Standard
                                     Vouchers (SV) to process adjustments to the general ledger. SVs use
                                     predefined debits and credits based on business rules. We reviewed
                                     142 SVs processed during fiscal year 2007 but prior to fiscal yearend
                                     close. Our review disclosed that the supporting documentation was
                                     inadequate for 41 SVs. We also noted that 21 of the SVs reviewed
                                     were needed due to a systemic weakness and 47 were processed to
                                     compensate for a control weakness (including correcting a previous
                                     SV). The types of problems that we found could have been avoided
                                     had the agencies effectively implemented the controls outlined in
                                     applicable FFIS Bulletins. 3

                                     In addition, we reviewed 60 documents processed after September 30,
                                     2007, as part of the closing process. These were needed to correct
                                     account balances for financial reporting. Many of the documents
                                     reviewed impacted cash and/or budgetary accounts. We noted that 37
                                     of the documents were processed to (1) correct a prior adjustment, (2)
                                     compensate for a control weakness, and/or (3) correct a systemic
                                     weakness.




3
 FFIS Bulletins 06-03 and 06-04, Internal Controls Over Standard Vouchers in the FFIS, and Internal Controls Over Balanced
Vouchers, issued August 1, 2006.
USDA/OIG-A/50401-62-FM                                                                                          Page 14
                                     •    Last year, we reported that agencies had not adequately monitored
                                          overrides of document errors. 4 We recommended that the Department
                                          ensure that agencies adequately monitor overrides of potential
                                          document errors by providing a standard method for monitoring and
                                          reviewing overrides and taking appropriate remedial action. During
                                          fiscal year 2007, the Department stated that, it had analyzed FFIS to
                                          determine any needed system software changes to better track and
                                          monitor overrides of document errors. It also developed a retrieval and
                                          report tool for agencies to use in order to perform monthly reviews of
                                          overrides of document errors.

                                     •    Our review disclosed that agencies were inappropriately posting
                                          activity to accounts specified as exempt from apportionment. We
                                          reviewed 25 Treasury symbols from 11 agencies with activity recorded
                                          as exempt from apportionment, as of June 30, 2007. We found that 12
                                          (48 percent) of the Treasury symbols reviewed were subject to
                                          apportionment and agencies indicated the balances would be adjusted.
                                          Additionally, four agencies were unable to provide evidence to support
                                          the exempt status for five Treasury symbols with activity recorded as
                                          exempt from apportionment, totaling $42 million.

                                     •    We also noted that within USDA abnormal balances existed at yearend
                                          without being fully researched and corrected. As of fiscal yearend,
                                          over 26 abnormal account balances existed, totaling over $129 million.
                                          According to the Department, the existence of an abnormal balance
                                          indicates that transactions or adjustments may have been posted in
                                          error.

Recommendation 2

                                         Ensure that agencies verify the exempt status of Treasury symbols prior
                                         to recording activity and maintain appropriate supporting documentation
                                         of the exemption.




4
 The FFIS system has edits for processing documents that can be overridden by authorized users. For example, funds control edits may
give an error message if the obligation entered exceeds the amount allotted to that particular fund. An authorized user can override this
error message to process the document.
USDA/OIG-A/50401-62-FM                                                                                                        Page 15
Section 3.   Compliance With Laws and Regulations

                    The management of USDA is responsible for complying with applicable laws
                    and regulations. As part of obtaining reasonable assurance about whether the
                    consolidated financial statements are free of material misstatement, we
                    performed tests of USDA’s compliance with certain provisions of laws,
                    regulations, contracts and agreements, and Governmentwide policy
                    requirements, noncompliance with which could have a direct and material
                    effect on the determination of the consolidated financial statement amounts.
                    We also obtained reasonable assurance that USDA complied with certain
                    provisions of other laws and regulations specified in OMB Bulletin No. 07-04,
                    including requirements referred to in the Federal Financial Management
                    Improvement Act (FFMIA), except for those that, in our judgment, were
                    clearly inconsequential. We noted noncompliance with certain aspects of
                    FFMIA, the Anti-Deficiency Act (ADA), and Managerial Cost Accounting
                    (MCA) practices.


Finding 4           Lack of Substantial Compliance With FFMIA Requirements

                    FFMIA requires agencies to annually assess whether their financial
                    management systems comply substantially with (1) Federal Financial
                    Management Systems Requirements (FFMSR), (2) applicable Federal
                    accounting standards, and (3) the U.S. Government Standard General Ledger
                    (SGL) at the transaction level. In addition, FISMA requires each agency to
                    report significant information security deficiencies, relating to financial
                    management systems, as a lack of substantial compliance under FFMIA.
                    FFMIA also requires auditors to report in their CFO Act financial statement
                    audit reports whether the financial management systems substantially comply
                    with FFMIA’s systems requirements.

                    During fiscal year 2007, USDA evaluated its financial management systems to
                    assess compliance with FFMIA. The Department reported that it was not
                    substantially compliant with FFMSR, the SGL at the transaction level, and
                    FISMA requirements. As part of its financial systems strategy, USDA
                    indicated that its agencies are working to meet FFMIA and FISMA objectives,
                    and that the Department had made substantial progress in addressing its IT
                    weaknesses. However, the Department noted that additional effort is needed
                    to achieve substantial compliance. These noncompliances are discussed in
                    detail in Section 1, “Internal Control Over Financial Reporting – Material
                    Weaknesses,” of this report.




USDA/OIG-A/50401-62-FM                                                                   Page 16
                  The Department plans to continue its effort to achieve compliance with the
                  FFMIA requirements. OCFO indicated that all scheduled completion dates
                  have been targeted for completion by fiscal yearend 2009.

                  Improving Federal financial management systems is critical to increasing the
                  accountability of financial program managers, providing better information for
                  decision-making, and increasing the efficiency and effectiveness of services
                  provided by the Federal Government.




Finding 5         Anti-Deficiency Act Violations

                  In our previous year’s audit, we reported that USDA discussed two potential
                  ADA violations in its statement of assurance. The Office of General Counsel
                  (OGC) opined that the ADA violations had occurred and, since that time, the
                  two violations were reported to the President, Congress, and OMB. Details
                  follow:

                     •   On September 24, 2007, Forest Service (FS) reported that OGC had
                         determined that in fiscal year 2006, the FS had violated the section of
                         the ADA pertaining to apportionments. FS explained that OMB
                         appropriated funds with a footnote that stipulated that not more than
                         $100 million was available for the acquisition of aviation resources.
                         The OGC opinion concluded that exceeding the apportionment
                         footnote in the amount of $18 million was an ADA violation. FS has
                         also requested an opinion from the U.S. Government Accountability
                         Office (GAO) as to whether exceeding a footnote limitation constitutes
                         an ADA violation.

                     •   On November 1, 2007, USDA reported an ADA violation in the
                         amount of $8,170,875 occurred in fiscal year 2003 in connection with
                         CCC managers authorizing the donation of 24.7 million pounds of non-
                         fat dry milk to a private feed mill. At the agency’s request, OIG had
                         performed the audit which identified the violation. The three
                         individuals named in the violation no longer work for the agency.
                         USDA concluded that there was no willful or knowing violation of the
                         ADA, so no administrative discipline was imposed. The agency
                         implemented corrective actions to ensure proper disposition of CCC
                         commodities in the future and implemented apportionment
                         requirements for commodity transportation and handling costs.




USDA/OIG-A/50401-62-FM                                                                  Page 17
Finding 6                        Managerial Cost Accounting (MCA) Practices

                                 The CFO Act of 1990 5 contains several provisions pertaining to MCA, one of
                                 which states that an agency’s CFO should develop and maintain an integrated
                                 accounting and financial management system that provides for the
                                 development and reporting of cost information. Statement of Federal
                                 Financial Accounting Standards No. 4, Managerial Cost Accounting Concepts
                                 and Standards for the Federal Government, established accounting standards
                                 and system requirements for MCA information at Federal agencies. The
                                 FFMIA 6 built on this foundation and required, among other things, CFO Act
                                 agencies to comply substantially with Federal accounting standards and
                                 FFMSR.

                                 GAO issued a report addressing USDA’s MCA practices. 7 It found that
                                 USDA had not shown strong leadership to promote, guide, and monitor MCA
                                 implementation. It noted that USDA did not have a Departmentwide MCA
                                 system in place and, instead, had delegated responsibility for MCA
                                 implementation to the component agencies. Moreover, USDA did not have
                                 procedures in place to monitor component agency MCA initiatives and had
                                 only limited information on the status of MCA implementation at its
                                 component agencies.

                                 USDA’s current financial system, FFIS, was not designed to provide in-depth
                                 MCA information. FFIS analysis and reporting functions and its related data
                                 warehouses allow users to conduct inquiries and execute ad hoc reports on, for
                                 instance, the status of funds and open obligations. These analyses, however,
                                 do not integrate nonfinancial data with financial data to provide the cost of
                                 activities or outputs on an ongoing basis.

                                 According to USDA officials, the Financial Management Modernization
                                 Initiative (FMMI) system is scheduled to replace FFIS by the end of fiscal
                                 year 2012. FMMI is expected to include a cost accounting module that
                                 officials said will incorporate MCA functionalities required by the Office of
                                 Federal Financial Management at OMB.

                                 OCFO believed that USDA was using MCA practices to a great extent;
                                 however, it recognized that the Department needed to demonstrate how MCA
                                 processes were being used and understand what more can be done to increase
                                 and enhance its use. One of the first steps in responding to this
                                 recommendation was to survey all mission areas and agencies to determine the

5
    Public Law No. 101-576, 104 Stat. 2838 (November 15, 1990).
6
    Public Law No. 104-208, div. A., 101 (f), title VIII, 110 Stat. 3009, 3009-389 (September 30, 1996).
7
    GAO-06-1002R, Managerial Cost Accounting Practices, dated September 21, 2006.
USDA/OIG-A/50401-62-FM                                                                                     Page 18
                  current status of their MCA systems. OCFO would then evaluate what
                  progress had been made and use the data as well as the data requested about
                  financial and mixed systems cost to develop a plan of action to expand the
                  Department’s efforts in MCA practices. The data collected from the survey
                  have not yet undergone a complete analysis.

                  In addition, the Working Capital Fund (WCF) employed standard reporting
                  formats for activity centers to use in documenting business lines and
                  associated cost recovery metrics. The standard reporting format served as a
                  critical factor in reviewing and evaluating WCF activity center operating
                  budget estimates, and will be a permanent requirement for budget formulation
                  purposes.     As a result of these efforts, we are making no further
                  recommendation in this report.




USDA/OIG-A/50401-62-FM                                                                Page 19
Exhibit A – Audit Reports Related to the Fiscal Year 2007 Financial
Statements




     AUDIT                        AUDIT TITLE                            RELEASE
    NUMBER                                                                DATE
                Federal Crop Insurance Corporation/Risk
  05401-16-FM   Management Agency’s Financial Statements for            November 2007
                Fiscal Years 2007 and 2006
                Commodity Credit Corporation’s Financial
  06401-22-FM                                                           November 2007
                Statements for Fiscal Years 2007 and 2006
                Forest Service’s Financial Statement Audit for Fiscal
  08401-8-FM                                                            November 2007
                Years 2007 and 2006
                Fiscal Year 2007 Review of the National Finance
  11401-26-FM                                                           September 2007
                Center General Controls
                Food and Nutrition Service’s Financial Statements
  27401-32-HY                                                           November 2007
                for Fiscal Years 2007 and 2006
                Fiscal Year 2007 Federal Information Security
  50501-11-FM                                                           September 2007
                Management Act Report
                Rural Development’s Financial Statements for Fiscal
  85401-14-FM                                                           November 2007
                Years 2007 & 2006
                General Controls Review – Fiscal Year 2006
  88501-7-FM    Office of Chief Information Officer – Information        March 2007
                Technology Services
                National Information Technology Center General
  88501-10-FM                                                           September 2007
                Controls Review-Fiscal Year 2007




USDA/OIG-A/50401-62-FM                                                                   Page 20
    Exhibit B – Summary of Prior Year Recommendations
                                                                                                            Exhibit Page 1 of 3

                                 PRIOR YEAR OF RECOMMENDATION 8

     NUMBER         RECOMMENDATION                           DEPARTMENTAL STATUS                              OIG RESULTS


       1        Ensure that agencies comply         During fiscal year 2007, the Department analyzed      As discussed in Finding
                with FFIS Bulletin 02-12 by         FFIS to determine any needed system software          3, the Department’s
                providing a standard and            changes to better track and monitor overrides of      corrective actions were
                effective method of monitoring      document errors. It also developed a retrieval and    still in process as of the
                and reviewing overrides and         report tool for agencies to use in order to perform   end of the fiscal year
                taking remedial action to address   monthly reviews of overrides of document errors.      2007.
                inappropriate overrides or          Additionally, the Department drafted revisions to
                develop other compensating          FFIS Bulletin 02-12, dated October 1, 2002,
                controls.                           “Policy for Agencies to Implement a Monthly
                                                    Review of the Override Logging Table to Track
                                                    and Monitor Users Overriding Document Errors
                                                    in FFIS”. The Department plans for corrective
                                                    actions to be completed by November 30, 2007.




8
   Recommendation was made in Audit Report No. 50401-59-FM, U.S. Department of Agriculture’s Consolidated
Financial Statements for Fiscal Years 2006 and 2005, issued November 14, 2006.


USDA/OIG-A/50401-62-FM                                                                                                      Page 21
     Exhibit B – Summary of Prior Year Recommendations
                                                                                                                 Exhibit Page 2 of 3

                                         PRIOR YEAR RECOMMENDATIONS 9

        NUMBER            RECOMMENDATION                            DEPARTMENTAL STATUS                           OIG RESULTS

            1         Finalize supporting                  The Department agreed to document the                OIG reviewed actions
                      documentation for any required       rationale used to prepare the SoF, (published        taken and resolved
                      manual adjustments to the            November 15, 2005 for both the Department and        this recommendation
                      Statement of Financing (SoF).        FS) and noted that the compilation was               during its audit of the
                      The SoF compilation should be        supported by transactions and account balances       fiscal year 2006
                      supported by transactions and        traceable to the general ledger. Subsequently,       financial statements.
                      account balances that are            sufficient, evidential matter was provided to the
                      traceable to the general ledger.     FS auditors to substantiate the fair presentation
                                                           of certain line items within the FS fiscal year
                                                           2005 SoF. The FS audit report was then re-
                                                           issued December 21, 2005, with a revised
                                                           unqualified opinion. The Department considered
                                                           corrective action completed with the re-issuance
                                                           of the FS financial statement audit report.

            2         Provide additional training on the   The Department agreed and planned to conduct         OIG reviewed actions
                      relationship of the SoF to the       training sessions on the compilation process for     taken and resolved
                      statements of budgetary resources    the SoF for all USDA agencies. The training          this recommendation
                      and net cost.                        was conducted in May and June 2006. Thus, the        during its audit of the
                                                           Department indicated corrective action was           fiscal year 2006
                                                           completed June 30, 2006.                             financial statements.

            3         Continue to assess the overall       The Department agreed and planned to take            Last year we noted
                      process used to compile the SoF      several actions: perform an independent review       that CCC did not
                      in order to identify approaches      of crosswalk used to create the SoF, review of       always follow
                      and techniques that provide for a    the crosswalk in conjunction with the audit of the   applicable guidance
                      more efficient, accurate, and        FS financial statements (conducted by an             in preparing its SoF
                      consistent compilation process.      independent public accounting firm), and re-         and provided no
                      The compilation should be            convene the financial statement crosswalk            evidence of a
                      subjected to a secondary review      committee (which includes all mission areas) to      technical review by
                      by a trained manager who is          review, analyze and approve the mapping of           management of the
                      independent of the financial         current and future accounting entries affecting      compilation process.
                      statement preparation process. In    the SoF. The Department indicated that the final     During fiscal year
                      addition to reviewing specific       corrective action was completed September 1,         2007, CCC prepared
                      support for the compilation, the     2006.                                                the SoF (now a
                      review should also include an                                                             footnote)
                      analytical analysis of the                                                                appropriately.
                      relationships among balances.

            4         Provide oversight to the lending     The Department agreed and planned several            As discussed in
                      agencies to ensure that cash flow    actions to provide oversight through (1)             Finding 1 and the
                      models and data inputs as well as    monitoring agency progress via bi-weekly credit      Department’s FMFIA
                      estimates and reestimates are        reform working group meetings; (2) issuance of       report, improvements
                      subject to appropriate controls,     guidance to standardize the methodology and          are needed in the
                      including management oversight       internal controls over cash flow model               quality control
                      review.                              development and changes; (3) completion of           review process
                                                                                                                related to cash flow
                                                                                                                models, data inputs,

9
  Recommendations were made in Audit Report No. 50401-56-FM, U.S. Department of Agriculture’s Consolidated Financial
Statements for Fiscal Years 2005 and 2004, issued November 15, 2005.
USDA/OIG-A/50401-62-FM                                                                                                     Page 22
                                                                                                         and estimates and

   Exhibit B – Summary of Prior Year Recommendations
                                                                                                     Exhibit Page 3 of 3

                                                   fiscal year 2007 cash flow model changes in           reestimates for
                                                   accordance with the new guidance; and (4)             financial reporting.
                                                   issuance of guidance to standardize the
                                                   management oversight review process to be used
                                                   for reestimates. The Department indicated these
                                                   actions were completed as of August 9, 2006.

        5     Ensure that agencies adhere to       The Department agreed and planned to take the         As discussed in
              FFIS Bulletin No. 02-06,             following three actions: (1) review all agencies’     Finding 3, our review
              “Internal Controls Over SVs in       SV forms and approval process, (2) reduce the         of SVs in fiscal year
              the FFIS.”                           universe of available SVs (by removing inactive       2007 disclosed that
                                                   and noncompliant posting models from                  agencies did not
                                                   applicable FFIS tables), and (3) update and           consistently adhere to
                                                   expand FFIS Bulletin No. 02-06. The                   the requirements of
                                                   Department advised us that these actions were         applicable FFIS
                                                   completed August 4, 2006.                             bulletins.

        6     Ensure that agency approval of       The Department agreed that sensitive documents,       OIG reviewed action
              appropriate significant documents    as defined by OMB Circular No. A-123 should           taken and resolved
              is required prior to processing.     require secondary approval. The functionality         this recommendation
                                                   for such approval is involved by table settings       during its audit of the
                                                   controlled by the agencies. The Department            fiscal year 2006
                                                   provided oversight to ensure that agencies set the    financial statements.
                                                   approval flag correctly as part of a project to
                                                   standardize table settings. The Department
                                                   indicated the table settings for secondary
                                                   approvals were implemented September 1, 2006.

        7     Provide oversight to ensure that     The Department agreed and revised DR-2230-            As discussed in
              general ledgers reflect valid        01, “Improvement of Management Controls               Finding 1, in both
              obligations and that agencies        Over Unliquidated Obligations.” Additionally,         fiscal years 2007 and
              perform the required reviews of      the Department developed a report to obtain           2006, we continued
              unliquidated obligations             information about each agency’s unliquidated          to note invalid
              appropriately and effectively.       obligations without activity in the past two years    obligations during
              Additionally, ensure that agencies   and then use the new report to obtain                 our reviews. (Our
              maintain evidence of the reviews.    justification for each unliquidated obligation or     reviews were based
                                                   agency action to liquidate. In accordance with        on data as of May
                                                   the revised policy, agency CFOs have certified        31.) USDA’s fiscal
                                                   that staff ran aged unliquidated obligation reports   year 2007 FMFIA
                                                   and de-obligated obligations as needed as of          report notes that its
                                                   August 31, 2007.                                      agencies need to
                                                                                                         implement effective
                                                                                                         and sustainable
                                                                                                         control procedures
                                                                                                         over the review and
                                                                                                         certification of
                                                                                                         unliquidated
                                                                                                         obligations.




USDA/OIG-A/50401-62-FM                                                                                              Page 23
Exhibit C – Performance and Accountability Report




 USDA Performance and Accountability Report
            for Fiscal Year 2007



                         (Prepared by USDA)




USDA/OIG-A/50401-62-FM                              Page 24
                                                   Table of Contents
Message from the Secretary ........................................................................................... ii
About this Report ........................................................................................................ iv
I.     Management’s Discussion and Analysis ................................................................ 1
        An Overview of the United States Department of Agriculture .................................................................. 1
        Resources .................................................................................................................................................... 5
        Performance Goals, Objectives and Results................................................................................................ 7
        Management Challenges ............................................................................................................................ 9
        Future Demands, Risks, Uncertainties, Events, Conditions and Trends ................................................. 17
        USDA’s Results Agenda—Implementing Federal Management Initiatives ............................................ 17
        Financial Statement Highlights................................................................................................................ 31
        Systems, Controls and Legal Compliance ................................................................................................ 34
             Management Assurances.................................................................................................................. 34
             Federal Managers’ Financial Integrity Act Report on Management Control ................................. 35
             Federal Financial Management Improvement Act Report on Financial Management Systems..... 39
             Management’s Report on Audit Follow-Up.................................................................................... 43
II.    Annual Performance Report ............................................................................... 46
        Strategic Goal 1: Enhance International Competitiveness of American Agriculture............................... 47
        Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies........ 59
        Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life In
        Rural America ........................................................................................................................................... 70
        Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply............. 80
        Strategic Goal 5: Improve the Nation’s Nutrition and Health ................................................................. 90
        Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment............ 100
        Program Assessment Rating Tool (PART) Evaluations ........................................................................ 118
        Program Evaluations............................................................................................................................... 121
III. Financial Statements, Notes, Supplemental and Other Accompanying
     Information ......................................................................................................127
        Message from the Chief Financial Officer ............................................................................................. 127
        Report of the Office of Inspector General.............................................................................................. 129
        Consolidated Balance Sheet.................................................................................................................... 129
IV.    Other Accompanying Information.....................................................................220
        Appendix A—Management Challenges................................................................................................. 220
        Appendix B—Improper Payment and Recovery Auditing Details......................................................... 253
        Appendix C—Table of Exhibits ............................................................................................................. 281
        Appendix D—Acronyms ........................................................................................................................ 283




                                                                                    i
                                                    FY 2007 Performance and Accountability Report
                             Message from the Secretary
The United States Department of Agriculture (USDA) appreciates this opportunity to
share with all Americans, Congress, and the Executive Branch information on the
progress made on your behalf during the past year.

From enhancing economic opportunities for agricultural producers, to protecting the
Nation’s food supply, to improving nutrition and health, to protecting the Nation’s
natural resources and environment, USDA has a proud record of accomplishment in FY
2007. We are pleased to share the highlights of our efforts in this FY 2007 Performance
and Accountability Report.

USDA and its more than 100,000 employees touch the lives of every American every
day. The 144-year-old USDA is one of the most complex departments in the Federal
Government, with more than 300 programs. Annually, we spend more than $75 billion
of our fellow Americans’ money. In 2007, these resources helped:

   Aid U.S. agricultural producers battered by severe weather conditions;
   Expand economic opportunities and security for farmers, ranchers, and rural communities by implementing the Farm
    Security and Rural Investment Act of 2002;
   Provide access to a healthy diet for needy households;
   Improve the health of low-income pregnant and postpartum women, infants, and children;
   Enhance U.S. farm export opportunities by advancing America’s commitment to free trade;
   Implement the President’s Healthy Forests Initiative;
   Protect public safety, homes, and resources during a severe fire season;
   Support the increased use of renewable fuels, such as ethanol and biodiesel, to provide new revenues to farmers while
    reducing our Nation’s dependence on foreign fuel;
   Improve and expand conservation programs;
   Invest in infrastructure that can bring new economic opportunities and jobs to rural areas;
   Modernize the nutrition guidance we give the Nation to reflect the latest scientific information and combat our
    country’s growing obesity epidemic;
   Further advance food safety and protect U.S. agriculture from both existing and emerging threats; and
   Leverage technology to ensure that the resources provided to us by Congress and the American people reach those
    who need them, with minimal expense and maximum impact.




                                                               ii
                                          FY 2007 Performance and Accountability Report
To help USDA become more successful, program performance must be measured and we must place an even greater focus
on accountability. To assist in this effort, the Department created the USDA Senior Management Control Council to
oversee and administer the Department’s assessment of internal controls for our programs, financial systems, and financial
reporting relating to the Federal Managers’ Financial Integrity Act (FMFIA) and the Federal Financial Management
Improvement Act (FFMIA). Through the work of the Council, valuable information on the state of our systems allows
us to provide a reasonable assurance that the content of this report is based on sound, accurate data.

I am proud to report that USDA fully implemented the requirements to assess and report on internal control for financial
reporting this year—a significant accomplishment given the scope of our activities and the complexity of our operations.
Our assessment identified areas within our financial reporting controls that have improved since our last report and areas
in which continued improvement is needed—for which we have already begun executing corrective action plans. As such,
I provide a qualified assurance that, except for the areas in need of improvement as described in the Management
Assurances section of this report, USDA management controls, financial systems, and financial reporting controls meet
the objectives of FMFIA and FFMIA. The financial and performance information presented herein is complete and
accurate, and in accordance with Office of Management and Budget guidance and the Reports Consolidation Act of
2000.

USDA was first called “the people’s department” by President Abraham Lincoln. I believe we still live up to that title. I
am proud of our employees and the positive impact their diverse efforts have had on American life during the past year. I
also want to thank you for your interest in USDA and its work. I am pleased to share this information with all of our
stakeholders, and I look forward to reporting even more progress in the year ahead.




Charles F. Conner
Acting Secretary of Agriculture
November 15, 2007




                                                               iii
                                          FY 2007 Performance and Accountability Report
                                         About this Report
The Government Performance and Results Act of 1993 requires all Federal agencies to engage in a strategic planning
process that directly aligns resources with results, and enhances the accountability of all government endeavors to the
American taxpayers who finance them.

This results-oriented process includes the development and implementation of a five-year strategic plan, as well as annual
reporting that sets specific, measurable targets for performance at the beginning of each fiscal year, and then offers a
concrete, data-based assessment at year-end of the success of these endeavors.

This FY 2007 Performance and Accountability Report is the year-end progress report of the United States Department of
Agriculture (USDA). It reviews the strategic goals and objectives the Department set for itself at the beginning of the
fiscal year and compares initial targets to actual performance. The data used by USDA to measure actual performance is
collected using standardized methodology that has been vetted by Federally employed scientists and policymakers and,
ultimately, by the undersecretaries of the respective mission areas, all of whom attest to the completeness, reliability and
quality of the data.
In addition to promoting accountability and enhancing the management of USDA programs, this reporting also helps
illuminate the strategic allocation of resources in the future by directly linking program performance to budgetary
decisions.

This report aims to inform the decisions of policymakers who make critical choices that impact USDA programs. It also
strives to provide transparency to all Americans interested in the workings of their government and USDA’s ability to
“manage for results” in performing its many vital public functions.




                                                               iv
                                          FY 2007 Performance and Accountability Report
       I.




                       Management’s Discussion and Analysis

An Overview of the United States Department of Agriculture
The United States Department of Agriculture (USDA) is               rapidly diversifying and highly competitive business
a diverse and complex organization with programs that               environment that is driven by sophisticated consumers.
touch the lives of all Americans every day. More than
                                                                    This report provides information on USDA’s core
100,000 employees deliver more than $75 billion in public
                                                                    performance measures as described in its Strategic Plan for
services through USDA’s more than 300 programs
                                                                    FY 2005-2010. They are:
worldwide, leveraging an extensive network of Federal,
State and local cooperators.                                           To enhance international competitiveness of American
                                                                        agriculture;
Founded by President Abraham Lincoln in 1862, when
more than half of the Nation’s population lived and                    To enhance the competitiveness and sustainability of
worked on farms, USDA’s role has evolved with the                       rural and farm economies;
economy. Today, USDA improves the Nation’s economy                     To support increased economic opportunities and
and quality of life by:                                                 improved quality of life in rural America;
   Enhancing economic opportunities for U.S. farmers                  To enhance protection and safety of the Nation’s
    and ranchers;                                                       agriculture and food supply;
   Ensuring a safe, affordable, nutritious and accessible             To improve the Nation’s nutrition and health; and
    food supply;                                                       To protect and enhance the Nation’s natural resource
   Caring for public lands and helping people care for                 base and environment.
    private lands;
                                                                    These six goals mirror USDA’s commitment to provide
   Supporting the sound, sustainable development of                first-class service, state-of-the-art science and consistent
    rural communities;                                              management excellence across the broad responsibilities of
   Expanding global markets for agricultural and forest            the Department. USDA uses the Program Assessment
    products and services; and                                      Rating Tool (PART) to assess and improve program
   Working to reduce hunger and improve America’s                  performance so that the Department can achieve better
    health through good nutrition.                                  results. The PART identifies how well and efficiently a
                                                                    program is working and what specific actions can be taken
Addressing these timeless concerns in the modern era                to improve its performance. PART ratings and analysis for
presents its share of challenges. America’s food and fiber          all Federal Government programs can be found on the
producers operate in a global, technologically advanced,


                                                                1
                                           FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS




Web at ExpectMore.gov. Other internal and external                    Further develop alternative markets for agriculture
program evaluations related to the measures and conducted              products and activities;
during fiscal year (FY) 2007 are included in this document.           Providing financing needed to help expand job
Although change has been a constant in the evolution of                opportunities and improve housing, utilities and
the U.S. farm and food sector, the new century brings                  infrastructure in rural America;
growing importance to consumer preferences and the reach              Enhance food safety by taking steps to reduce the
of global markets. USDA’s objectives reflect this. Through             prevalence of foodborne hazards from farm to table
these objectives, USDA will strive to:                                 and safeguard agriculture from natural and intentional
                                                                       threats;
   Expand international trade for agricultural products
    and support international economic development;                   Improve nutrition by providing food assistance and
                                                                       nutrition education and promotion; and
   Expand domestic marketing opportunities for
    agricultural products and strengthen risk management,             Manage and protect America’s public and private lands
    the use of financial tools and the provision of sound              working cooperatively with other levels of Government
    information to help farmers and ranchers in their                  and the private sector.
    decision-making process;




                                                               2
                                          FY 2007 Performance and Accountability Report
                                         MANAGEMENT’S DISCUSSION AND ANALYSIS




Exhibit 1:   Headquarters Organization                                  Donating $50 million worth of Government-owned
                                                                         bulk commodities to U.S. food processors in exchange
                                                                         for further processed agricultural products to be
                                                                         distributed through the Department’s domestic and
                                                                         international food-assistance programs; and
                                                                        Awarding nearly $4 million in grants to 14 tribal
                                                                         colleges in seven States. The funding will help the
                                                                         colleges purchase equipment, build or renovate
                                                                         classrooms, make needed repairs and finance
                                                                         infrastructure improvements.

                                                                     MISSION AREAS
                                                                     To ensure that USDA’s efforts focus squarely on meeting
                                                                     its real world objectives, the Department’s work is
                                                                     organized by mission areas, which are a collection of
                                                                     agencies that work together to achieve USDA’s
USDA’s FY 2007 key milestones include:
                                                                     aforementioned strategic goals. A description of USDA’s
    Awarding $19.25 million to create or retain jobs for            seven mission areas follows.
     businesses located in rural communities;
    Aiding thousands of disabled farmers in 21 States by            Natural Resources and Environment
     providing education and assistance to continue farming          The Natural Resources and Environment (NRE) mission
     through the funding of more than $3.7 million for               area consists of the Forest Service (FS) and the Natural
     “AgrAbility” projects. AgrAbility is a consumer-                Resources Conservation Service (NRCS). These agencies
     driven, USDA-funded program that provides vital                 work to ensure the health of the land through sustainable
     education, assistance and support to farmers and                management. FS manages 193 million acres of national
     ranchers with disabilities;                                     forests and grasslands for the American people. NRCS
    Donating nearly $35 million to 11 States to fund 12             assists farmers, ranchers and other private landowners in
     special projects designed to protect threatened and             managing their acreage for environmental and economic
     endangered species, and enhance wildlife habitat on             sustainability. Both agencies work in partnership with
     wetlands.                                                       Tribal, State and local Governments, communities, related
    Partnering with the American Angus Association to               groups and other Federal agencies to protect the Nation’s
     facilitate the registration of up to 15,400 new premises        soils, watersheds and ecosystems.
     as part of the National Animal Identification System.
     This move will ensure the availability of a nationwide          Farm and Foreign Agricultural Services
     communications network to assist livestock owners               The Farm and Foreign Agricultural Services (FFAS)
     and animal health officials in the event of an animal           mission area is comprised of the Farm Service Agency
     disease event.                                                  (FSA), which delivers most traditional farm programs, the
    Resuming the sign-up for the Emergency Forestry                 Foreign Agricultural Service (FAS), which assists with
     Conservation Reserve Program (EFCRP). EFCRP                     U.S. agricultural exports, and the Risk Management
     helps landowners and operators restore and enhance              Agency (RMA), which predominately handles programs
     the approximately 5.6 million acres of forestland               that help farmers and ranchers address the unavoidable
     damaged by the hurricanes of 2005;                              challenges inherent in agriculture, such as natural disasters.




                                                                 3
                                            FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



This mission area also includes two Government-owned                Food Safety
corporations. The Commodity Credit Corporation (CCC)                USDA’s Food Safety and Inspection Service (FSIS) is the
works to stabilize farm income and prices to help ensure an         public health agency responsible for ensuring that the
adequate, affordable supply of food and fiber. This                 Nation’s commercial supply of meat, poultry and egg
corporation is the financial mechanism by which                     products is safe, wholesome and labeled and packaged
agricultural commodity, credit, export, conservation,               correctly.
disaster and emergency assistance is provided. The Federal
Crop Insurance Corporation (FCIC) improves the                      Research, Education and Economics
economic stability of agriculture through a sound system of
                                                                    The Research, Education and Economics (REE) mission
crop insurance.
                                                                    area brings together all of the efforts underway throughout
Rural Development                                                   USDA to advance a safe, sustainable and competitive U.S.
The Rural Development (RD) mission area focuses on                  food and fiber system through science and the translation
creating economic opportunities and improving the quality           of science into real-world results. This mission area is
of life in rural America. This mission area unites a variety        integrally involved with every aspect of USDA’s work.
of valuable programs including housing programs and                 REE is comprised of the Agricultural Research Service
economic development initiatives. Rural infrastructure              (ARS), the Cooperative State Research, Education and
projects that finance the delivery of everything from safe,         Extension Service (CSREES), the Economic Research
running water to high-speed Internet access also come               Service (ERS), the National Agricultural Statistics Service
together in this mission area. Collectively, these programs         (NASS), and the National Agricultural Library.
demonstrate core Federal efforts to ensure that rural
communities are full participants in modern America.                Marketing and Regulatory Programs
                                                                    The Marketing and Regulatory Programs (MRP) mission
Food, Nutrition and Consumer Services
                                                                    area is made up of the Agricultural Marketing Service
The Food, Nutrition and Consumer Services (FNCS)                    (AMS), the Animal and Plant Health Inspection Service
mission area is comprised of the Food and Nutrition                 (APHIS) and the Grain Inspection, Packers and
Service (FNS), which administers Federal nutrition                  Stockyards Administration (GIPSA). This mission area
programs, and the Center for Nutrition Policy and                   facilitates the domestic and international marketing of
Promotion (CNPP), which provides science-based dietary              U.S. agricultural products, including food and fiber,
guidance to the Nation. USDA’s 15 Federal nutrition                 livestock and grain through a wide variety of efforts,
assistance programs include the Food Stamp Program,                 including the development of domestic and foreign
Child Nutrition Programs, such as school lunches and                agricultural trade standards via Federal, State and foreign
breakfasts, and the Special Supplemental Nutrition                  cooperation. This mission area also conducts increasingly
Program for Women, Infants and Children. These                      critical and sophisticated efforts to protect U.S. agriculture
programs provide vital access to nutritious food and                from plant and animal health-related threats, and ensures
support for better dietary habits for one in five Americans.        the humane treatment of animals.
USDA’s nutrition research and promotion efforts aid all
Americans by linking cutting-edge scientific research to            DEPARTMENTAL OFFICES
the nutritional needs of consumers.
                                                                    Department-level offices provide centralized leadership,
                                                                    coordination and support for USDA’s policy and
                                                                    administrative functions. Their efforts maximize the
                                                                    energy and resources agencies devote to the delivery of
                                                                    services to USDA customers and stakeholders.




                                                                4
                                           FY 2007 Performance and Accountability Report
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




Resources
Congressional appropriations are the primary funding source for USDA operations. FY 2007 program obligations totaled
$127.9 billion, a decrease of $14.5 billion compared to FY 2006. These are current year obligations from unexpired funds.
They do not include prior year upward or downward obligation adjustments.
Exhibit 2:   FY 2006 and 2005 USDA Program Obligations Dedicated to Strategic Goals


                                        USDA Program Obligations Dedicated to Strategic Goals
                                                 FY 2007 Actual Program Obligations
                                                                Enhance International
                                                                Competitiveness of American
                                                                Agriculture— 3%

                 Protect and Enhance the
                                                                                       Enhance the
                 Nation’s Natural Resource
                                                                                       Competitiveness and
                 Base and Environment — 8%
                                                                                       Sustainability of Rural and
                                                                                       Farm Economies — 32%



                                                                                                 Support Increased
                                                                                                 Economic Opportunities and
                                                                                                 Improved Quality of Life in
                   Improve the                                                                   Rural America — 12%
                   Nation’s Nutrition
                   and Health — 42%
                                                                                     Enhance Protection
                                                                                     and Safety of the
                                                                                     Nation’s Agriculture
                                                                                     and Food Supply — 2%


                                                 FY 2006 Actual Program Obligations
                                                                 Enhance International
                                                                 Competitiveness of American
                                                                 Agriculture— 3%
               Protect and Enhance the
               Nation’s Natural Resource                                                 Enhance the
               Base and Environment — 9%                                                 Competitiveness and
                                                                                         Sustainability of Rural and
                                                                                         Farm Economies — 29%


                                                                                                   Support Increased
                                                                                                   Economic Opportunities and
                                                                                                   Improved Quality of Life in
                                                                                                   Rural America — 12%
                      Improve the
                      Nation’s Nutrition
                      and Health — 45%                                                         Enhance Protection
                                                                                               and Safety of the
                                                                                               Nation’s Agriculture
                                                                                               and Food Supply — 2%




                                                                    5
                                               FY 2007 Performance and Accountability Report
                                               MANAGEMENT’S DISCUSSION AND ANALYSIS



Exhibit 3:   FY 2006 and 2005 USDA Staff Years Dedicated to Strategic Goals


                                                  USDA Staff Dedicated to Strategic Goals
                                                         FY 2007 Actual Staff Years
                      Enhance Protection
                      and Safety of the
                      Nation’s Agriculture                                            Improve the
                      and Food Supply — 18%                                           Nation’s Nutrition
                                                                                      and Health — 45%


              Support Increased
              Economic Opportunities and
              Improved Quality of Life in
              Rural America — 6%


                                                                                                         Protect and Enhance the
                                                                                                         Nation’s Natural Resource
               Enhance the                                                                               Base and Environment —
               Competitiveness and                                                                       50%
               Sustainability of Rural and
               Farm Economies — 22%



                                Enhance International
                                Competitiveness of American
                                Agriculture— 2%

                                                         FY 2006 Actual Staff Years
                                                                              Improve the
                          Enhance Protection
                                                                              Nation’s Nutrition
                          and Safety of the
                                                                              and Health — 45%
                          Nation’s Agriculture
                          and Food Supply — 19%



              Support Increased
              Economic Opportunities and
              Improved Quality of Life in
              Rural America — 6%


                                                                                                         Protect and Enhance the
                                                                                                         Nation’s Natural Resource
                 Enhance the                                                                             Base and Environment —
                 Competitiveness and                                                                     50%
                 Sustainability of Rural and
                 Farm Economies — 19%



                                                                           Enhance International
                                                                           Competitiveness of American
                                                                           Agriculture— 1%




                                                                       6
                                                  FY 2007 Performance and Accountability Report
                                                MANAGEMENT’S DISCUSSION AND ANALYSIS




Performance Goals, Objectives and Results
Of the 34 performance goals contained in USDA’s FY 2008 and Revised FY 2007 Budget Summary and Annual
Performance Plan, 28 were met or exceeded, 1 was reported as deferred and 5 were unmet. The following Performance
Scorecard table, organized by USDA’s strategic goals and objectives, provides a summary of the Department’s
performance results. Additional analyses of these results can be found in the Performance Section of this report.
Exhibit 4:     USDA Scorecard for FY 2007


                                                      Performance Scorecard for FY 2007
                    Objectives                                                 Annual Performance Goals                                  Result
                          Strategic Goal 1: Enhance International Competitiveness of American Agriculture
 1.1    Expand and Maintain International Export       1.1.1   Dollar value of agricultural trade expanded through trade agreement       Unmet
        Opportunities                                          negotiation, monitoring, and enforcement (Non-Sanitary and
                                                               Phytosanitary)
 1.2    Support International Economic                 1.2.1   Food Aid Targeting Effectiveness Ratio                                     Met
        Development and Trade Capacity Building
                                                       1.2.2   Number of countries in which substantive improvements are made in          Met
                                                               national trade policy and regulatory frameworks that increase market
                                                               access
 1.3    Improved Sanitary and Phytosanitary (SPS)      1.3.1   Value of trade preserved annually through USDA staff interventions       Exceeded
        System to Facilitate Agricultural Trade                leading to resolution of barriers created by SPS or TBT measures
                                                               (Sanitary and Phytosanitary) ($ in millions)
                  Strategic Goal 2: Enhance the Competitiveness and Sustainability of Rural and Farm Economies
 2.1    Expand Domestic Market Opportunities           2.1.1   Increase the number of products designated under the BioPreferred         Unmet
                                                               Program
 2.2    Increase the Efficiency of Domestic            2.2.1   Timeliness – Percent of time official reports are released on the date     Met
        Agricultural Production and Marketing                  and time pre-specified to data users
        Systems
                                                       2.2.2   Percent of market-identified quality attributes for which USDA has         Met
                                                               provided standardization (percent)
 2.3    Provide Risk Management and Financial          2.3.1   Normalized value of FCIC risk protection coverage provided through         Met
        Tools to Farmers and Ranchers                          FCIC sponsored insurance
                                                       2.3.2   Percentage of eligible crops with NAP coverage                             Met

                                                       2.3.3   Increase percentage of beginning farmers, racial and ethnic minority       Met
                                                               farmers, and women farmers financed by FSA
             Strategic Goal 3: Support Increased Economic Opportunities and Improved Quality of Life in Rural America
 3.1    Expand Economic Opportunities by Using         3.1.1   Number of jobs created or saved through USDA financing of businesses       Met
        USDA Financial Resources to Leverage
        Private Sector Resources and Create
        Opportunities for Growth
 3.2    Improve the Quality of Life Through USDA       3.2.1   Homeownership opportunities provided                                       Met
        Financing of Quality Housing, Modern           3.2.2   Number of borrowers/subscribers receiving new or improved service        Exceeded
        Utilities, and Needed Community Facilities             from agency funded water facility (millions)
                                                       3.2.3   Percentage of customers who are provided access to new and/or            Exceeded
                                                               improved essential community health facilities
                                                       3.2.4   Percentage of customers who are provided access to new and/or            Exceeded
                                                               improved essential community public safety services
                                                       3.2.5   Number of program borrowers/subscribers receiving new or improved          Met
                                                               electric service
                                                       3.2.6   Number of program borrowers/subscribers receiving new or improved        Exceeded
                                                               telecommunications service




                                                                           7
                                                     FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS




                                                  Performance Scorecard for FY 2006
                 Objectives                                                 Annual Performance Goals                                   Result
                                                         Strategic Goal 3 (Cont’d)
                 Strategic Goal 4: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply
4.1   Reduce the Incidence of Foodborne          4.1.1   Reduce overall public exposure to generic Salmonella from broiler             Exceeded
      Illnesses Related to Meat, Poultry, and            carcasses using existing scientific standards (percentage of industry in
      Egg Products in the U.S.                           Category 1 i.e., low risk for presence of Salmonella)
                                                 4.1.2   Reduce the percentage of ready-to-eat meat and poultry products testing       Exceeded
                                                         positive for Listeria monocytogenes
                                                 4.1.3   Reduce the prevalence of E. coli O157:H7 on ground beef                         Met
4.2   Reduce the Number and Severity of          4.2.1   The cumulative number of specific plant diseases labs are prepared to           Met
      Agricultural Pest and Disease Outbreaks            detect
                                                 4.2.2   The cumulative number of specific animal diseases labs are prepared to          Met
                                                         detect
                                                 4.2.3   Number of significant introductions of foreign animal diseases and pests        Met
                                                         that spread beyond the original area of introduction and cause severe
                                                         economic or environmental damage, or damage to the health of animals
                                       Strategic Goal 5: Improve the Nation’s Nutrition and Health
5.1   Improve Access to Nutritious Food          5.1.1   Participation levels for the major Federal nutrition assistance programs        Met
                                                         (millions per month): Food Stamp Program, National School Lunch
                                                         Program, School Breakfast Program, Special Supplemental Nutrition
                                                         Program for Women, Infants and Children
5.2   Promote Healthier Eating Habits and        5.2.1   Application and usage level of nutrition guidance tools (billions pieces of   Exceeded
      Lifestyles                                         nutrition guidance distributed)
5.3   Improve Nutrition Assistance Program       5.3.1   Increase Food Stamp payment accuracy rate                                     Deferred
      Management and Customer Service
                 Strategic Goal 6: Protect and Enhance the Nation’s Natural Resource Base and Environment
6.1   Protect Watershed Health to Ensure         6.1.1   Comprehensive nutrient management plans applied (number of plans)              Unmet
      Clean and Abundant Water                              Conservation Technical Assistance
                                                            Environmental Quality Incentives Program
                                                 6.1.2   Increase Conservation Reserve Program (CRP) acres of riparian and              Unmet
                                                         grass buffers
6.2   Enhance Soil Quality to Maintain           6.2.1   Cropland with conservation applied to improve soil quality                      Met
      Productive Working Cropland                          Conservation Technical Assistance Program
                                                            Environmental Quality Incentives Program
                                                            Conservation Security Program
6.3   Protect Forests and Grasslands             6.3.1   Number of acres of hazardous fuel treated that are in the wildland urban        Met
                                                         interface
                                                 6.3.2   Number of acres of hazardous fuel treated that are in condition Classes 2      Unmet
                                                         or 3 in Fire Regimes 1, 2 or 3 outside the wildland-urban interface
                                                 6.3.3   Number of acres in condition classes 2 or 3 in Fire Regimes 1, 2 or 3           Met
                                                         treated by all land management activities that improve condition class
                                                 6.3.4   Grazing land and forest land with conservation applied to protect and         Exceeded
                                                         improve the resource base (millions of acres)
                                                            Conservation Technical Assistance Program
                                                            Environmental Quality Incentives Program
                                                            Conservation Security Program
6.4   Protect and Enhance Wildlife Habitat to    6.4.1   Wetlands created, restored or enhanced                                          Met
      Benefit Desired, At-Risk And Declining                Conservation Technical Assistance
      Species
                                                            Wetlands Reserve Program




                                                                        8
                                                 FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS



ACTIONS ON UNMET AND DEFERRED GOALS                                          management challenges identified in USDA
                                                                             (Appendix A). These challenges have been identified as
USDA continuously works to improve its performance                           potential issues that could hamper the delivery of
across all of its strategic goals and objectives. Sometimes                  Department programs and services. To mitigate these
circumstances arise that result in the Department falling                    challenges, USDA management provides accomplishments
short of its goals. At other times, the Department                           for the current fiscal year and/or planned actions for the
consciously alters its approach in ways that enhance its                     upcoming one. Most of the challenges identified in FY
service to the public, but that make a specific performance                  2006 remain for FY 2007. Three new challenges were
goal a less effective indicator of real progress. The Annual                 added. Additionally, the civil rights management and
Performance Report section of this report offers further                     complaint processing within USDA was reinstated this
discussion of the Department’s actions on its goals.                         fiscal year as a major management issue. OIG removed one
                                                                             FY 2006 challenge and certain issues associated with other
Management Challenges
                                                                             challenges because of USDA improvements. The
Annually, the Office of Inspector General (OIG) prepares                     following table summarizes those challenges that changed
a report for the Secretary on the most significant                           from FY 2006 to FY 2007.


   FY 2006 Management Challenges                                                    FY 2007 Changes
 Challenge #1—Interagency Communication,                     Issue Removed—Improve communication and strengthen controls for beef
 Coordination and Program Integration Need                   exported to Japan.
 Improvement
 Challenge #2—Implementation of Strong, Integrated           Issue Added—Develop Rural Housing Service controls over administering
 Management Control (Internal Control) Systems Still         disaster housing assistance programs to ensure aid is provided to those in need
 Needed                                                      and avoid benefit duplication.
 Challenge #3—Implementation of Improper Payments            Issue Removed—Strengthen program risk assessment methodology to identify
 Information Act Requirements Needs Improvement              and test the critical internal controls over program payments totaling more than
                                                             $100 billion.
 Challenge #4—Departmental Efforts and Initiatives in        Issue Removed—Develop an information system to track noncompliance
 Homeland Security Need to be Maintained                     violations related to specified risk materials better.
                                                             Issue Removed—Improve security and accountability of explosives and
                                                             munitions.
 Challenge #5—Department wide Efforts and                    Challenge was incorporated into a new global trade challenge
 Initiatives on Genetically Engineered Organisms
 Need to be Strengthened
 Challenge #6—USDA’s Response to the 2005                    Challenge Removed
 Hurricanes Needs Ongoing Oversight
                                                             New Challenge—USDA Needs to develop a Proactive, Integrated Strategy to
                                                             Assess American Producers to Meet the Global Trade Challenge
                                                             •   Continue to strengthen genetically engineered organism field testing
                                                                 controls to prevent inadvertent genetic mixing with agricultural crops for
                                                                 export.
                                                             •    Develop a global market strategy.
                                                             •    Strengthen trade promotion operations.
                                                             New Challenge—Better Forest Service Management and Community Action
                                                             Needed to Improve the Health of the National Forests and Reduce the Costs of
                                                             Fighting Fires
                                                             •    Develop methods to improve forest health.
                                                             •    Establish criteria to reduce the threat of wildland fires.




                                                                         9
                                                   FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS



     FY 2006 Management Challenges                                                          FY 2007 Changes
                                                               New Challenge—Improved Controls Needed for Food Safety Inspection Systems
                                                               •   Complete corrective actions on prior recommendations.
                                                               •   Develop a time-phased plan to complete assessments of establishment’s
                                                                     food safety system control plans and production processes, including a
                                                                     review program that includes periodic reassessment.
                                                               •     Develop a process to accumulate, review and analyze all data available to
                                                                     assess the adequacy of food safety systems.
                                                               •     Improve the accuracy of data available in the systems.
                                                               •     Continue to develop and implement a strategy for hiring and training
                                                                     inspectors.
                                                               Challenge Reinstated—Material Weaknesses Continue to Persist in Civil Rights
                                                               Control Structure and Environment
                                                               •   Develop a plan to process complaints timely and effectively.
                                                               •     Ensure integrity of complaint data in the system.
                                                               •     Develop procedures to control and monitor case file documentation and
                                                                     organization.



The following table includes FY 2007 accomplishments and/or FY 2008 planned actions.
USDA’s Management Challenges

 1) Interagency Communications, Coordination, and Program Integration Need Improvement
 •    Integrate the management information systems used to implement the crop insurance, conservation and farm programs; and
 •    Increase organizational communication and understanding among the agencies that administer the farm and conservation programs.
      Fiscal Year 2007 Accomplishments
      −   Initiated Departmental clearance to publish the Routine Uses for System of Records in the Federal Register to allow producer and
          member information to be disclosed to RMA and, subsequently, approve insurance providers, their agents and loss adjusters under
          contract with RMA;
      −   Established future common reporting requirements for producer, State and county offices based on recommendations from
          RMA/FSA working group; and
      −   FSA and RMA initiated reconciling differences between crop data definitions.
      Planned Actions for Fiscal Year 2008
      −   Continue to pilot a Comprehensive Information Management System (CIMS) Managers’ Report to identify differences in information
          provided by producers to RMA and FSA;
      −   Incorporate RMA and FSA production data and Common Land Unit data into the CIMS database;
      −   Develop a single acreage reporting process for insured producers to reduce the burden of duplicating reporting requirements for
          producers for common elements, which would eliminate the need for reconciliation;
      −   Publish Routine Uses for System of Record for CIMS in the Federal Register to share data with insurance providers;
      −   Finalize reconciliation of differences between crop data definitions;
      −   Develop procedures for accessing and utilizing CIMS Projects;
      −   Meet monthly to identify and resolve Geospatial data issues (FSA, RMA and NRCS);
      −   Will consult on program procedures common to FSA and NRCS before directives are issued to field offices;
      −   Developing the Lean Six Sigma Grants Process to better integrate the management of grants and financial assistance programs
          better. The process will include cost share, easements, stewardship, emergency landscapes and traditional grants;
      −   Develop enhanced standard programmatic reports to isolate and resolve eligibility and vendor issues, or other data anomalies that
          might lead to improper payments efficiently;
      −   Improve automated member eligibility verification, which will prevent clients from entering into new contracts or modifying existing
          contracts; and
      −   Enhance NRCS Easement Business Tool to data mine and data share between USDA agencies.




                                                                           10
                                                    FY 2007 Performance and Accountability Report
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




2) Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed.
•   Develop Rural Housing Service controls over administering disaster housing assistance programs to ensure aid is provided to those in
    need and avoid benefit duplication.
    Planned Actions for Fiscal Year 2008
    −   Establish procedures to compare Federal Emergency Management Agency (FEMA) numbers for duplication after a disaster and
        upgrade the Multi-Family Information System to reject duplicate FEMA numbers.
    −   Develop procedures to monitor owners and management agents immediately following a disaster.
•   Strengthen quality control, publish sanction procedure and perform required reconciliation in the Federal Crop Insurance Program.
    Fiscal Year 2007 Accomplishments
    −   Reviewed selected RMA Approved Insurance Providers operations to determine their compliance with quality control guidelines
        outlines outlined in the Standard Reinsurance Agreement and associated Appendix IV.
    Planned Actions for Fiscal Year 2008
    −   Continue reviews of selected Approved Insurance Providers operations to determine compliance with qualify control guideline
        outlined in the Standard Reinsurance Agreement and associated Appendix IV.
•   Improve FS internal controls and management accountability to manage its resources, measure its progress towards goals and
    objectives, and accurately report its accomplishments effectively.
    Planned Actions for Fiscal Year 2008
    −   Complete corrective actions to successfully implement Government Performance and Results Act;
    −   Improve oversight within FS of national firefighting contract crews by implementing corrective actions in response to OIG audit
        reports;
    −   Conduct annual internal control risk assessment throughout FS and develop plans to address identified risks;
    −   Perform an annual systems assessment of all Forest Service financial/mixed financial systems;
    −   Conduct oversight reviews on performance accountability within various regions;
    −   Continue to implement corrective actions identified through the OMB Circular A-123, Appendix A , OIG/ GAO audits; and
    −   Implement corrective action steps that address the FISMA plan of action and milestones.
•   Capitalize on Farm Service Agency compliance activities to improve program integrity.
    Fiscal Year 2007 Accomplishments
    −   Implemented Compliance Task Force recommendations;
    −   Monitored review of progress for short term, medium-term and long-term solutions to resolve control weaknesses identified during
        OMB A-123, Appendix A assessment; and
    −   Implemented recommendations for training methods to improve internal controls and reduce/eliminate improper payments.
    Planned Actions for Fiscal Year 2008
    −   Monitor the Web-based National Compliance Review database for compliance reviews and spot check results, and take necessary
        actions to correct identified internal control weaknesses;
    −   Continue to implement corrective actions identified through OMB Circular A-123, Appendix A; and
    −   Continue to implement recommendations to improve internal control and reduce/eliminate improper payments.




                                                                       11
                                                 FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS




3) Continuing Improvements Needed in Information Technology (IT) Security.
•   Emphasize security program planning and management oversight and monitoring.
    Fiscal Year 2007 Accomplishments
    −    Enhanced Cyber Security Scorecard reporting requirements to reflect security components of the Privacy Act, OMB Circular A-123,
         Appendix A and the President’s Management Agenda;
    −    Established a Cyber Security Service program with level one personnel to handle routine service questions and the technical
         questions handled by a number of subject matter experts;
    −    Established database to track the number and types of questions fielded by the Cyber Security Service Program;
    −    Provided a weekly report to management on the status of ticket closures processed at the Cyber Security Communication Center;
         and
    −    Continued to yield significant improvements to Cyber Security internal process and program improvement processes.
    Planned Actions for Fiscal Year 2008
    −    Continue to use the FISMA Cyber Security Scorecard and issue monthly to Senior IT leadership and executive management within
         the Department; and
    −    Implement the Department of Justice’s Cyber Security Assessment and Management for FISMA reporting, Plan of Action and
         Milestones (POA&M) tracking and general security program management tool.
•   Establish an internal control program throughout the systems’ lifecycle.
    Fiscal Year 2007 Accomplishments
    −    Coordinated with USDA agencies through the IT Executive Steering Committee to mitigate IT control weaknesses identified in
         FISMA and A-123 assessment reviews;
    −    Implemented a quality assurance group to ensure existing OIG audit findings and POA&Ms that contribute to the Department’s
         material weakness are resolved to prevent reoccurrence;
    −    Identified security risks by using a vulnerability scanner tool; and
    −    Finalized contract for the procurement of SafeBoot for laptop and desktop file encryption.
    Planned Actions for Fiscal Year 2008
    −    Integrate OMB Circular, A-123 and FISMA program elements into a system’s life cycle; and
    −    Continue with policy and procedure updates and implement new scorecard reporting elements, as needed.
•   Identify, test and mitigate IT security vulnerabilities (risk assessments).
    Fiscal Year 2007 Accomplishments
    −    Implemented the ASSERT tool to ensure that risk ratings are properly assigned and risk assessment performed;
    −    Reviewed POA&M closures; and
    −    Hired contractor services to assist in OCIO’s concurrency review of Certification and Accreditation packages.
    Planned Actions for Fiscal Year 2008
    −    Ensure that risk ratings are properly assigned, system self-assessments are performed, POA&Ms are generated, and tasks and
         milestones are managed appropriately;
    −    Review risk ratings (systems categorizations) early in the certification and accreditation process to ensure security testing and
         evaluations are performed for the appropriate level;
    −    Conduct reviews on POA&M closure documentation and control testing;
    −    Initiate policy gap analysis and revise the Access Control and Configuration Management policies and procedures; and
    −    Publish revised policy and procedures for Access Control;




                                                                            12
                                                    FY 2007 Performance and Accountability Report
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS




•   Improve access controls.
    Fiscal Year 2007 Accomplishments
    −   Prepared a list of common/core controls using National Institute of Standards and Technology guidance to monitor agency
        compliance with access controls for IT systems;
    −   Completed a FISMA security policy gap analysis to improve review of access controls; and
    −   Issued a memorandum on “Wireless Network Security” to USDA agencies to provide guidance on access controls.
    Planned Actions for Fiscal Year 2008
    −   Conduct security reviews and implement policy and procedures on securing wireless devices;
    −   Complete configuration guidelines for all operating systems; and
    −   Monitor security status using the Cyber Security Scorecard.
•   Implement appropriate application and system software change control.
    Fiscal Year 2007 Accomplishments
    −   Monitored Configuration Control Board activities as part of OCIO’s monthly security scorecard.
    Planned Actions for Fiscal Year 2008
    −   Monitor this challenge during security compliance reviews.
•   Develop disaster contingency (service continuity) plans.
    Fiscal Year 2007 Accomplishments
    −   Reviewed USDA agency’s contingency plans for completeness and compliance with National Institute of Standards and Technology
        guidelines.
    Planned Actions for Fiscal Year 2008
    −   Test successfully all USDA agency’s Continuity of Operations plans;
    −   Ensure that disaster recovery plans are in the Enterprise Contingency Planning Program System and all systems are accounted for
        through a comprehensive inventory process; and
    −   Monitor USDA agencies’ compliance with disaster recovery plan testing through the Cyber Security Scorecard, and the Certification
        and Accreditation concurrency process.



4) Implementation of Improper Payments Information Act Requirements Needs Improvement.
•   Provide management oversight at all levels, programmatically within agencies and operationally at the State offices, in the improper
    payments elimination process.
•   Develop a supportable methodology/process to detect and estimate the extent of improper payments.
•   Develop and implement a corrective action plan to reduce the amount of these payments.
    Fiscal Year 2007 Accomplishments
    −   Completed all scheduled risk assessments and provided the results to OMB for review;
    −   Finalized sampling for specific high risk programs and developed corrective action plans and set targets for the next year for OMB
        review;
    −   Submitted component rates and corrective action plans for the Special Supplemental Nutrition Program for Women, Infants and
        Children, and the Child & Adult Care Food Program;
    −   Prepared an error rate for School Lunch/Breakfast Program and developed a corrective action plan ;
    −   Gathered statistical sampling results and identified actions needed by service centers to reduce future findings;
    −   Updated field operation and program managers’ performance plans to include improper payment as a performance element; and
    −   Developed plans to measure improper payments for high risk programs and provided the results to OMB for review.




                                                                        13
                                                  FY 2007 Performance and Accountability Report
                                            MANAGEMENT’S DISCUSSION AND ANALYSIS




    Planned Actions for Fiscal Year 2008
    −    Continue to complete sampling for high risk programs;
    −    Review and validate the results of the statistical sampling of the high risk programs;
    −    Monitor the development of action plans to ensure areas of weakness are mitigated; and
    −    Update managers and employees performance standards to include improper payment as a performance element.



5) Departmental Efforts and Initiatives in Homeland Security Need to be Maintained.
•   Continue vulnerability and risk assessments to determine adequate food safety and security over agricultural commodities that the
    Department manages, transports, stores and distributes;
•   Continue to work with other USDA agencies to ensure effective coordination and implementation of Homeland Security Presidential
    Directive (HSPD) 9; e.g., develop animal and plant diagnostic and tracking networks; and
•   Continue efforts to coordinate with the U.S. Department of Homeland Security in implementing effective control systems to ensure the
    safety and security of agricultural products entering the country.
•
    Fiscal Year 2007 Accomplishments
    −    Jointly with the Federal Bureau of Investigation, the Department of Homeland Security, the Food and Drug Administration, and other
         USDA agencies, conducted a Strategic Partnership Protection Agro-terrorism facility vulnerability assessment to determine
         appropriate levels of security needed for USDA-owned agricultural commodities, including bulk grain, oilseeds, rice and processed
         commodities.
    Planned Actions for Fiscal Year 2008
    −    Analyze risk assessment findings and identify changes needed to existing policies and procedures to address weaknesses found.
•   Continue to strengthen controls over select agents and toxins
    Fiscal Year 2007 Accomplishments and Planned Actions for Fiscal Year 2008
    −    Implemented procedures for inspecting registered organizations in possession of select agents. The new procedures verify that
         organizations conduct and document annual performance tests of their security plans. These procedures also will be implemented
         during Fiscal Year 2008.
•   Work with States in preparing for and handling avian influenza occurrences in live bird markets or other “off-farm” environments
    Fiscal Year 2007 Accomplishments and Planned Actions for Fiscal Year 2008
    −    Implemented a Memorandum of Understanding between APHIS and FSA that provides a further understanding of each agency’s
         cooperation, expectations, and responsibilities to control and eradicate avian influenza and other foreign diseases of livestock; and
    −    Implemented national avian influenza surveillance activities to be undertaken by Federal and States agencies, and the commercial
         poultry industry in the event of an outbreak.




6) Material Weaknesses Continue to Persist in Civil Rights Control Structure and Environment.
•   Develop a plan to process complaints timely and effectively.
    Planned Actions for Fiscal Year 2008
    −    Develop automated intake report for pending complaints;
    −    Establish formal procedures for prompt resolution of complaints not processed timely;
    −    Develop automated adjudication reports for pending complaints;
    −    Reassess performance standards for Specialists in the Employment Complaints Division to include timely completion of assigned
         cases;
    −    Require contract agreements for investigations to include a standard provision for timely and quality services; and
    −    Request EEOC to conduct training and provide technical assistance with investigations and processing of complaints.




                                                                          14
                                                   FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS




•   Ensure integrity of complaint data in the system.
    Planned Actions for Fiscal Year 2008
    −   Finalize formal plan for business rules;
    −   Create audit procedures for reviewing sample cases for data integrity ;
    −   Create automated quality control tool; and
    −   Conduct audit of sample cases.
•   Develop procedures to control and monitor case file documentation and organization.
    Planned Actions for Fiscal Year 2008
    −   Develop comprehensive records management procedures for EEO case files;
    −   Implement procedures for transferring and safeguarding documents part of an EEO complaint file; and
    −   Obtain services of an external contractor to inventory and review EEO case files and establish record retention procedures.




7) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge.
•   Continue to strengthen genetically engineered organism field testing controls to prevent inadvertent genetic mixing with agricultural crops
    for export.
•   Develop a global market strategy.
    Fiscal Year 2007 Accomplishments
    −   Created the Office of Country and Regional Affairs at FSA to develop and oversee country, regional and cross-cutting strategies;
    −   Developed a tracking system to monitor foreign trading partners’ compliance with U.S. bilateral, regional and multilateral trade
        agreements covering agricultural products.
    Planned Actions for Fiscal Year 2008
    −   Finalize development of 14 initial coordinated country and regional marketing strategies;
    −   Develop processes and systems to monitor USDA global strategy for maximizing market access opportunities for U.S. agricultural
        exports;
    −   Develop a comprehensive strategy for monitoring and enforcing noncompliance issues related to trade agreements;

    −   Analyze and assess methods to increase the effectiveness and alignment of FAS international programs that effect USDA
        operations;
    −   Develop integrated strategies for key crosscutting trade issues within USDA, such as avian influenza, biofuels, food security and
        new technologies/biotech; and
    −   Continue bilateral and multilateral activities to provide continuity and sustained presence needed to assure market access for U.S.
        agricultural exports, and foster the global acceptance of agricultural biotechnology, as well as targeting new activities in support of
        free trade discussions.
•   Strengthen trade promotion operations.
    Planned Actions for Fiscal Year 2008
    −   Analyze and reassess market development programs by coordinating industry trade partners’ program initiatives with USDA
        functional area efforts;
    −   Review USDA outreach efforts, including assessment of USDA and FAS Web sites in consultation with stakeholders and partners;
    −   Continue development of new program management software and ongoing efforts to streamline program administration;
    −   Further develop evaluation criteria and processes to demonstrate effectiveness of market development program administration and
        funding allocations; and
    −   Conduct annual review/reassessment of FAS outreach effort.




                                                                         15
                                                   FY 2007 Performance and Accountability Report
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS




8) Better Forest Service Management and Community Action Needed to Improve the Health of the National Forests and Reduce the
Cost of Fighting Fires.
•   Develop methods to improve forest health; and
•   Establish criteria to reduce the threat of wildland fires.
    Planned Actions for Fiscal Year 2008
    −    Develop national guidance for the regions to use in assessing the risks from wildfires;
    −    Monitor the effectiveness of hazardous fuel treatments and restoration projects;
    −    Obtain clarification on both FS and States’ protection responsibilities in the wildland urban interface and on other private properties
         threatened by wildfires;
    −    Develop partnerships with States and counties to develop and deliver fire prevention ordinances for use in planning and zoning in
         wildland urban interface areas; and
    −    Conduct large fire cost reviews.




9) Improved Controls Needed for Food Safety Inspection Systems.
•   Develop a time-phased plan to complete assessments of establishment food safety system control plans and production processes,
    including a review program that includes periodic reassessment; and
•   Continue to develop and implement a strategy for hiring and training inspectors.
    Fiscal Year 2007 Accomplishments
    −    Conducted food safety assessment training;
    −    Maintained data and information systems infrastructure adequate to support inspection activities; and
    −    Developed an FSIS Enterprise Architecture Blueprint to document, assess and improve the lines of business processes.
    Planned Actions for Fiscal Year 2008
    −    Continue to implement modernization efforts to improve the security, quality and sustainability of system infrastructure.
•   Develop a process to accumulate, review and analyze all data available to assess the adequacy of food safety system; and
•   Improve the accuracy of data available in the systems.
    Fiscal Year 2007 Accomplishments
    −    Developed the Enterprise Architecture Blueprint to provide the foundation for documenting, assessing and improving the lines of
         agency business processes, and ensuring they are properly aligned to the system’s capabilities and needs. The blueprint also
         provides the mechanism to align and improve system data capture and automation capabilities further; and
    −    Developed the Public Health Information Consolidation Projects (PHICP) and the Public Health Data Communication Infrastructure
         Systems (PHDCIS) to plan, track and report on the IT operational and development activities better. PHICP tracks and reports the
         development of information systems for FSIS. PHDCIS contains the operational, maintenance, and infrastructure hardware and
         activities.
    Planned Actions for Fiscal Year 2008
    −    Implement a modernization effort to continue to improve the security, quality and sustainability of the system infrastructure.




                                                                          16
                                                     FY 2007 Performance and Accountability Report
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS




Future Demands, Risks, Uncertainties, Events,                           Potential exposure to hazardous substances, which may
                                                                         threaten human health and the environment, and the
Conditions and Trends
                                                                         ability of the public and private sectors to collaborate
USDA is influenced by many of the same forces that shape                 effectively on food safety, security and related
the American economy—globalization of markets,                           emergency preparedness efforts;
scientific advances and fundamental changes in the
Nation’s family structure and workforce. U.S. farmers and               The risk of catastrophic fire is dependent on weather,
food companies operate in highly competitive markets                     drought conditions and the expanding number of
with constantly changing demand for high quality food                    communities in the wildland-urban interface; and
with a variety of characteristics, including convenience,               Efforts to reduce hunger and improve dietary
taste and nutrition.                                                     behaviors depend on strong coordination between
Additionally, homeland security is a significant, ongoing                USDA and a wide array of Federal, State and local
priority for USDA. The Department is working with the                    partners.
U.S. Department of Homeland Security to help protect
agriculture from intentional and accidental acts that might          USDA’s Results Agenda—Implementing Federal
affect America’s food supply or natural resources.                   Management Initiatives
External factors that challenge USDA’s ability to achieve            USDA works to strengthen its focus on results through
its desired outcomes include:                                        vigorous execution of the President’s Management Agenda
                                                                     (PMA). This agenda focuses on management
   Weather-related hardships and other uncontrollable
                                                                     improvements that help USDA consistently deliver more
    events at home and abroad;
                                                                     efficient and effective programs to its stakeholders. This
   Domestic and foreign macroeconomic factors,                      process is designed to improve customer service and
    including consumer purchasing power, the strength of             provide more effective stewardship of taxpayer funds. As
    the U.S. dollar, and political changes abroad that can           discussed in the Department’s Strategic Plan for FY 2005-
    impact domestic and global markets greatly at any                2010, USDA plans to:
    time;
                                                                        Ensure an efficient, high-performing, diverse
   The availability of funds for financial assistance                   workforce, aligned with mission priorities and working
    provided by Congress and the local and national                      cooperatively with partners and the private sector;
    economies;
                                                                        Enhance internal controls, data integrity, management
   Sharp fluctuations in farm prices, interest rates and                information and program and policy improvements as
    unemployment also impact the ability of farmers, other               reflected by an unqualified audit opinion;
    rural residents, communities and businesses to qualify
                                                                        Reduce spending and burden on citizens, partners and
    for credit and manage their debts;
                                                                         employees by simplifying access to the Department’s
   The impact of future economic conditions and actions                 information. This enhancement is added by
    by a variety of Federal, State and local Governments                 implementing business processes and information
    that will influence the sustainability of rural                      technology needed to make its services available
    infrastructure;                                                      electronically;
   The increased movement of people and goods, which                   Link budget decisions and program priorities more
    provides the opportunity for crop and animal pests and               closely with program performance and consider the full
    diseases, such as avian influenza and bovine                         cost of programs and activities;
    spongiform encephalopathy, to move quickly across                   Reduce improper payments by developing targets and
    national and foreign boundaries;                                     implemented corrective action plans;



                                                                17
                                           FY 2007 Performance and Accountability Report
                                       MANAGEMENT’S DISCUSSION AND ANALYSIS



    Efficiently and effectively manage its real property;                objectives, and integrated into strategic plans,
    Transform IT enterprise infrastructure to be cost                    performance plans and budgets;
     effective and consistent across all agencies and                    Leaders and managers effectively manage people,
     geographic regions;                                                  ensure continuity of leadership and sustain a learning
    Improve its research and development investments by                  environment that drives continuous improvements;
     using objective criteria; and                                       Skills, knowledge and competency gaps/deficiencies in
    Support the essential work of faith-based and                        mission-critical occupations have been closed, and
     community organizations.                                             meaningful progress toward closing skills, knowledge
                                                                          and competency gaps/deficiencies in all agency
USDA employees are charged with executing these                           occupations has been made;
management initiatives, which they do with an emphasis
                                                                         The workforce is diverse, results-oriented, high-
on customer service. The PMA calls for the U.S. Office of
Management and Budget (OMB) to score departments on                       performing, and the performance management system
each initiative. Green indicates success; yellow indicates                differentiates between high and low levels of
mixed results and red indicates an unsatisfactory score.                  performance, and links individual/team/unit
There are two scores awarded. “Status” indicates that a                   performance to organizational goals and desired results
department is meeting the standards established for                       effectively; and
success. “Progress” indicates that it is progressing                     Human capital management decisions are guided by a
adequately in meeting established deliverables and                        data-drive, results-oriented planning and
timelines. The arrows next to the scores indicate whether                 accountability system.
the score has improved ↑, declined ↓ or remained the
same ↔ compared to FY 2006.
                                                                      To attract a diverse, highly skilled workforce, USDA has
                                                                      marketed itself as the “Employer of Choice” in the Federal
                                                                      Government. Through the use of targeted recruitment
    Status                                         Progress
                                                                      efforts and automated hiring systems, USDA has achieved
                   HUMAN CAPITAL                                      some of the best hiring timelines in the Federal
     ↔                                                 ↔              Government. For its general schedule positions,
                                                                      employment offers are made within 21 days, on average.
The PMA challenges Federal Government leaders to think                Offers for Senior Executives come within 39 days. The GS
boldly and strategically to improve the management and                timeframe is less than half of the 45-day metric established
performance of Government. Nowhere is this challenge                  by the Office of Personnel Management (OPM) and the
more important than in the strategic management of                    Senior Executive timeframe is consistently the best in
human capital.                                                        government.
Building upon its success in completing the human capital             USDA has implemented OPM’s Career Pattern strategies
initiatives and objectives set forth in its 2004 Human                aggressively when recruiting for its mission critical
Capital Strategic Plan, USDA developed a Strategic                    occupations. By identifying appropriate applicant pools
Human Capital Plan in December 2006. The plan                         and their attractors, building environments suitable for
incorporates Human Capital Accountability into its                    those attractors and designing vacancy announcements
framework. USDA’s Strategic Human Capital Plan                        highlighting the attractors, the Department has attracted a
established five strategic goals that drive USDA’s human              broader pool of highly skilled applicants successfully. More
capital initiatives:                                                  specifically, the Agricultural Research Service (ARS)
    Human capital management strategies are aligned with             identified a critical shortage of DVM/PhD candidates for
     the Department’s mission, goals and organizational               Veterinary Medical Officer positions. ARS developed a



                                                                 18
                                            FY 2007 Performance and Accountability Report
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



competitive education program whereby candidates                         Continue implementing the improvement plan for its
become full-time paid employees while enrolled in a full-                 expanded performance management Beta site;
time PhD program. ARS pays for tuition, books and lab                    Continue reviewing opportunities for greater
fees in exchange for a three-year work commitment from                    organizational and operational efficiencies within
the student.                                                              selected USDA mission areas;
Through the adoption of a strategic goal focusing solely on              Complete its scheduled accountability reviews and
accountability, USDA has demonstrated its commitment                      report; and
to excellence. The Department progressed substantially in                Develop and maintained a diverse, talented workforce
completing its accountability reviews. By the end of the                  capable of achieving the USDA mission.
fiscal year, it will have conducted all required reviews.
Implementation of the resulting recommendations has                      Status                                        Progress
strengthened all human resources processes throughout                                      COMPETITIVE
USDA. In concert with OPM, USDA is enhancing its                          ↔                 SOURCING                      ↔
accountability program further by institutionalizing and
standardizing the delegated examining review process.
                                                                     The Office of the Chief Financial Officer oversees
Through more consistent and timely internal reviews,
                                                                     USDA’s Competitive Sourcing initiative. The Department
USDA can focus additional accountability resources on
                                                                     is implementing competitive sourcing reasonably and
strategic and workforce planning, leadership and
                                                                     rationally to achieve significant cost savings, improved
knowledge management, and talent management.
                                                                     performance and a better alignment of the agency’s
Additionally, in achieving its “green” status, USDA has:             workforce to its mission. This initiative is aimed at
   Conducted a Department-wide leadership and human                 improving organizations through efficient and effective
    resources skills gap analysis;                                   competition between public and private sources. USDA
   Updated its information technology skills gap analysis           will continue to simplify and improve the procedures for
    and developed an improvement plan;                               evaluating resources.
   Developed an action plan to address the results of the           The Department requires that a feasibility study, including
    Federal Human Capital Survey; and                                cost-benefit analysis, be completed prior to conducting a
   Continued Department-wide implementation of its                  competitive sourcing study. This strategy ensures that
    automated human resources enterprise system,                     functions selected for public-private sector competitions
    EmpowHR.                                                         result in an organization implemented with lower costs and
USDA will continue to work with its human capital                    increased management efficiencies. Studies continue to be
partners to create programs that will enhance employee               linked to agency human capital plans to ensure that
development. These programs will also increase the use of            workforce planning and restructuring, and retention goals
human capital flexibilities for managers in recruitment and          are met while achieving cost savings.
retention, streamline processes for more efficient and faster        USDA continues to evaluate its positions to identify those
service, and ensure that the Department workforce has the            that can be studied to achieve efficiency and/or quality
skills to meet the challenging demands of the 21st century.          improvement.
USDA is committed to leading by example and serving as
the vanguard of the Federal Government’s overall human               The Department has earned a yellow for status and a red
capital transformation efforts. Specifically, the Department         for progress largely because of the impact of legislative
                                                                     restrictions on planned feasibility studies.
will:




                                                                19
                                           FY 2007 Performance and Accountability Report
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS



Competitive Sourcing results are reported to Congress                   from completing studies in accordance with the
annually on December 31 for the preceding fiscal year.                  approved green plan.
The results provided in this report are for FY 2006 as
                                                                       Farm Service Agency and Rural Development Legislative
reported to Congress on December 31, 2006.
                                                                        Restriction—The Appropriations Act prohibits funds to
Actions taken by USDA include:                                          be used to study, complete a study of, or enter into a
   Completed competitions to improve productivity and                  contract with a private party to execute a competitive
    produce annual savings:                                             sourcing activity of the Secretary of Agriculture
     The Natural Resources Conservation Service                        without a subsequent Act of Congress. This act covers
        completed a study on 34 full-time employees                     USDA support personnel relating to rural
        (FTEs) in FY 2006. Estimated gross savings is                   development or farm loan programs; and
        $2.8 million through 5 years with annualized                   The Office of the Chief Information Officer
        savings of $550,000 for the competitive sourcing                competition covering desktop infrastructure, data
        study completed in FY 2006. Actual savings on                   center, telecommunications and cyber security could
        the studies completed in FY 2006 totaled                        not be conducted in the original scope due to the
        $568,000;                                                       legislative restrictions cited previously.
     Planned feasibility studies covering more than
        2,500 FTEs. When the results of feasibility studies            Status                                       Progress
                                                                                           FINANCIAL
        indicate a favorable return on investment and
        market research shows potential qualified vendors               ↔                PERFORMANCE
                                                                                                                         ↔
        exist, an A-76 competition is conducted. If the
        results are unfavorable, competitions are not              OCFO oversees USDA’s Financial Performance. The
        conducted; and                                             office works with all USDA agencies and staff offices to
                                                                   ensure the Department’s financial management reflects
     Announced two competitive sourcing studies.
                                                                   sound business practices. The PMA requires all Federal
   Conducted training on the Office of Management and             agencies to obtain an unqualified financial statement audit
    Budget’s Competitive Sourcing Tracking and                     opinion. The FY 2007 opinion was qualified because
    Workforce Inventory Tracking systems and the FAIR              improvements are needed in internal controls over
    Act Inventory; and                                             financial reporting related to the credit reform process.
   Convened a Department-wide group to review                     USDA financial managers have focused significant
    function codes used in the FAIR Act inventory to               attention on enhancing internal controls, improving asset
    reduce redundancy and replace old function code                management, implementing a standard accounting system
    definitions with USDA specific definitions.                    and improving related corporate administrative systems
                                                                   Department-wide.
Challenges
                                                                   Effectively managing the use of taxpayer dollars is a
   Forest Service (FS) Legislative Restrictions—House
                                                                   fundamental Federal responsibility. USDA intends to
    Appropriations Committee’s Interior, Environment
                                                                   ensure that all funds spent are accounted for properly to
    and Related Agencies Subcommittee limitations on
                                                                   taxpayers, Congress and the Government Accountability
    competitive sourcing. Proposed language in the U.S.
                                                                   Office. OCFO works to improve financial management in
    Department of Interior FY 2008 Appropriations Bill
                                                                   partnership with agency chief financial officers as a core
    places a one-year moratorium on FS’ Competitive
                                                                   attribute of the Department’s operating culture. OCFO is
    Sourcing activities. That moratorium will prevent FS
                                                                   working closely with USDA agencies to eliminate all
                                                                   material weaknesses.



                                                              20
                                         FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



OCFO will lead efforts to improve financial management                 Compliance with the Federal Financial Management
information by helping USDA’s agencies develop and                      Improvement Act (FFMIA), including Federal
access useful and timely information. This information                  financial management system requirements, applicable
includes monthly financial reports, on-line access to real-             Federal accounting standards and U.S. Government
time information and program cost reporting. By                         Standard General Ledger at the transaction level.
enhancing the integrity of financial and administrative
                                                                    Reducing the Number of Financial System Feeders—USDA’s
data, the Department will protect corporate assets and
                                                                    current financial management system portfolio uses
conserve scarce resources.
                                                                    administrative systems to “feed” data into and provide an
Financial Management Modernization Initiative (FMMI)—               integrated financial system solution. Until the legacy
FMMI’s primary objective is to improve financial                    applications are retired and replaced, they will be kept
management performance. It accomplishes the objective by            compliant with the Financial Systems Integration Office
efficiently providing USDA agencies with a modern, core             core financial systems requirements.
financial management system. This system complies with
                                                                    The Department began to modernize and retire the legacy
Federal accounting and systems standards, and provides
                                                                    administrative systems in FY 2003. USDA has retired
maximum support to the USDA mission. FMMI targets
                                                                    several of the legacy applications. Others are to be retired
the replacement of the Foundation Financial Information
                                                                    and replaced by a different portfolio and investment within
System (FFIS) and the legacy financial and program
                                                                    the next two fiscal years.
ledgers used in the USDA programs. Replacing FFIS, the
core financial management system and program                        FSA/CCC MIDAS (Modernize and Innovate the Delivery of
ledgers with a modern, Web-based core financial                     Agricultural Systems)—MIDAS will transform the delivery
management system is also expected to eliminate the need            of farmer benefits through a direct linkage with USDA’s
to operate and maintain many of USDA’s legacy feeder                FMMI system. This link will help reduce erroneous
systems and the financial statements data warehouse                 payments. MIDAS will increase staff productivity through
currently required to produce timely external financial             streamlined and automated farm program procedures.
statements.                                                         Fewer staff will be needed to handle the current program
                                                                    volume. MIDAS will free staff from cumbersome manual
The FMMI investment has the following key attributes:
                                                                    processing, duplicative data entry and daily system
   Integration with such existing and emerging                     maintenance activities required by the legacy environment.
    eGovernment initiatives as eGovernment Travel                   County office employees can focus on serving the customer
    Services, ePayroll, Grants.gov, and eLoans; current             while meeting program requirements. MIDAS also
    corporate solutions for which financial results must be         leverages modern technology to enable Web-user interface
    reflected in the budgetary and general ledger accounts          and strengthens USDA’s considerable investment in
    of the Department (e.g., asset management and                   geospatial technology. It will provide automated real-time
    procurement) and program-specific systems that                  centralized payment eligibility determination, thorough
    support the general ledger (e.g., programmatic loan             documentation of business ownership/participation and
    systems);                                                       automated adjustments to payments for outstanding
                                                                    producer obligations. This will reduce timeframes from
   Integration with performance management and
                                                                    application to receipt of benefits, add self-service channels
    budgeting, allowing USDA to meet the PMA and
                                                                    via the Internet and store data centrally so that the
    Government and Performance Results Act
                                                                    customer is not bound to a single service center.
    requirements; and
                                                                    Additionally, the computer system will provide a
                                                                    repository of data and legal transaction records. This



                                                               21
                                          FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



repository will accept real-time queries to support the             Actions taken by USDA in FY 2007 to achieve these
needs of Congress, USDA headquarters, the Office of                 results include:
Management and Budget and other Federal agencies and                   Held monthly meetings with agency CFOs to discuss
organizations.                                                          financial management policy, information systems and
                                                                        quality assurance issues and initiatives. At these
FFMIA Financial System Strategy—USDA has evaluated its
                                                                        meetings, agencies are provided with financial
financial management systems to assess FFMIA
                                                                        indicator data to provide focus for financial reporting
compliance. Currently, the Department is not compliant                  quality control activities;
with the Federal Financial Management System
                                                                       Improved agencies’ financial performance measures,
requirements and Federal Information Security
                                                                        targets and milestones as part of their efforts to expand
Management Act (FISMA) requirement. USDA’s
                                                                        the use of financial information for decision-making;
financial systems strategy is to continue working in FY
2008 to meet FFMIA and FISMA objectives. The Office                    Developed significant initiatives using the Lean Six
of Inspector General identified material weaknesses for                 Sigma Transaction Process (LSTP). LSTP originated
USDA’s information technology security and controls in                  in manufacturing industries during a time of great
FY 2007. The Department added new initiatives with                      demand for quality and speed. One initiative OCFO
several milestones to improve the controls over the                     developed with the Forest Service is automating the
Commodity Credit Corporation’s information security                     processing of contract invoices. This move was
program and financial management systems and reporting,                 designed to improve efficiency and shorten the time
and its application controls for the Program Contracts                  required for issuing payments, which will save interest.
System (ProTracts). ProTracts is a Web-based program                    LSTP is expected to be completed in FY 2008;
designed to manage conservation program applications and               Continued partnership with the U.S. Department of
cost-share agreements. While USDA has completed many                    Veterans Affairs Financial Services Center in Austin,
of the FY 2007 initiatives to comply with statutory                     Texas, to process USDA telephone and utility bills
requirements, it will continue monitoring progress on                   through the Electronic Data Interchange (EDI)
plans to improve its financial management systems. The                  process. This new process will allow for the invoices to
Department will also work to comply fully with FISMA                    be received electronically rather than by mail in a paper
requirements.                                                           invoice form. More than 250,000 bills will be
                                                                        processed annually through EDI; and
USDA’s plans to improve financial management include:
                                                                       Completed all in-scope cycle risk assessments,
   Obtain an unqualified audit opinion on its financial
                                                                        flowcharts and narratives, Information Technology
    statements;
                                                                        (IT) information-gathering questionnaires, risk and
   Continuing to work toward eliminating all material                  control matrices, entity-level controls questionnaires,
    weaknesses;                                                         general computer control matrices, process and IT test
   Improving financial reporting procedures and systems;               plans and results as required to implement A-123
    and                                                                 Appendix A, “Internal Control over Financial
   Increasing the use of financial information in day-to-              Reporting.” USDA agencies have finalized corrective
    day decision-making.                                                action plans to address significant deficiencies and
                                                                        material weaknesses. The Department will track
USDA scored red for status and green for progress on the                critical path milestones related to its assessment of
September 30, 2007, scorecard.                                          internal control over financial reporting and maintain
                                                                        monthly status reports on progress toward correcting
                                                                        material weaknesses.



                                                               22
                                          FY 2007 Performance and Accountability Report
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



                                                                         Established a hotline to report lost/stolen IT
    Status                                         Progress
                      EXPANDING                                           equipment to facilitate incidence response;
     ↔              E-GOVERNMENT
                                                       ↔                 Blocked access to gaming, auction, and social
                                                                          networking sites. USDA also began an aggressive,
USDA continues its commitment to leadership in                            proactive approach to eliminate peer-to-peer activity
Expanding Electronic Government under PMA and using                       with the network. The result was an approximate 64-
IT to help respond more directly and effectively to its                   percent reduction in virus activity (350,000 monthly
stakeholders. These stakeholders include farmers and
                                                                          reduced to 120,000 monthly) for the Department;
producers, families, school children, and rural
communities. The Department implements a sound and                       Increased outreach efforts for information security
integrated enterprise architecture and manages secure IT                  through a series of "Best Practices" seminars. Speakers
investments that perform on schedule and within budget.                   have been from the National Institute of Standards
USDA also participates in 30 Presidential Initiatives and                 and Technology and Department of Justice on security
Lines of Business.                                                        content automation and certification and accreditation;
USDA activities for FY 2007 support the following goals:                 Established a monthly cyber security scorecard to focus
    Provide customers with single points of access to                    management attention on key areas important to such
     information and shared services;                                     external reviewers as OMB and Congress;
    Simplify and unify business processes spanning                      Offered USDA’s eAuthentication Service as one of the
     multiple agencies;                                                   General Services Administration-certified, Security
    Establish information and service-delivery standards;                Assertion Markup Language-compliant, Government-
     and                                                                  wide credential service providers. This certification
    Consolidate redundant IT services and systems                        enables USDA to provide Level 2 credentials to other
     through shared USDA or Government-wide services.                     Federal agencies;
USDA scored yellow for status and red for progress on the                Integrated with 251 business applications - exceeding
September 30, 2007, scorecard.                                            the FY 2007 target of 200 for the USDA
Actions taken by USDA in FY 2007 include:                                 eAuthentication Service;
    Implemented an Integrated IT Governance Process                     Authorized more than 95,000 employees and 160,000
     (IGP). IGP combines Capital Planning, Security and                   customers for USDA's eAuthentication Service;
     Privacy, Enterprise Architecture, Earned Value                      Continued the promotion of AgLearn as USDA’s
     Management, and Portfolio Analysis to plan, manage                   official training system. AgLearn is the Department’s
     and control the Department’s IT investment portfolio                 implementation of the eTraining Presidential
     more effectively. By integrating these disciplines in one            eGovernment Initiative. In a typical month in
     process, USDA can guarantee a secure, reliable,                      FY 2007, 46,500 employees completed 760 different
     consistent and efficient IT infrastructure, identify                 courses on AgLearn;
     innovative new ways to deliver services to citizens and             Supported more than 140,000 users and more than
     implement cost savings by combining similar                          1,400 Agency AgLearn Administrators with more
     initiatives Department-wide;                                         than 1.1 million course completions;
    Expanded the Enterprise Architecture (EA)                           Provided Department-wide, agency-specific
     information base to support more robust analysis used                mandatory training, including security, privacy and
     to inform and guide the decision making process. EA                  ethics training, through AgLearn;
     establishes the enterprise-wide roadmap to support the
     Capital Planning and Investment Control process;


                                                                 23
                                            FY 2007 Performance and Accountability Report
                                    MANAGEMENT’S DISCUSSION AND ANALYSIS



   Launched campaign to initiate Department-wide use                  Status            PERFORMANCE                 Progress
    of the SF-182 request for training form through                                      IMPROVEMENT
    AgLearn;                                                            ↔                  INITIATIVE                   ↔
   Commissioned an independent operational analysis
    that found AgLearn well on track to meeting the                USDA continues to improve how it integrates
    original goals and costing $1.5M less annually than            performance information into its budget decisions and
    projected in the 2004 Business Case;                           throughout the budget process. This integration includes
   Secured enterprise SkillSoft license for more than             the use of the Program Assessment Rating Tool (PART).
                                                                   PART is designed to assess and improve program
    2,500 courses now available to USDA employees for a
                                                                   performance and efficiency to achieve better results.
    little more than $7 annually per user through
                                                                   USDA establishes its budget priorities based on the
    AgLearn. Previously, agencies were separately paying           strategic goals and desired outcomes included in its
    more than twice as much for these same courses. Also           strategic plan. The Department continues to improve its
    included in this cost is access to hundreds of high-           ability to measure performance with an emphasis on
    quality leadership videos available to USDA senior             measuring gains in efficiency.
    managers and individuals in agency-emerging
    leadership programs;                                           USDA plans to:
                                                                       Continue using performance information during all
   Continued to expand the Enterprise Correspondence
    Management Module (ECMM). ECMM is designed                          stages of the budget process;
    to track incoming correspondence from public,                      Systematically evaluate programs and integrate the
    private, or political inquiries. The Secretary’s                    results of those evaluations into the budget decision-
    correspondence is now handled exclusively through                   making process, i.e., rely upon PART assessments in
    ECMM;                                                               budget formulation;
   Converted more than 965,000 Staff Action documents                 Improve measurement of program performance and
    to ECMM. More than 220,000 documents have been                      efficiency improvements; and
    created since ECMM launched at the beginning of FY                 Develop the Department’s budget focusing on
    2006. Staff Action is USDA’s current correspondence-                achieving the goals and outcomes contained in the new
    management system;                                                  strategic plan.
   Moved 49 business applications to the Enterprise
                                                                   USDA scored green for status and progress on the
    Shared Services platform provided by USDA’s
    National Information Technology Center (NITC)                  September 30, 2007, scorecard. Actions taken by USDA in
    with more than 50 other applications in various stages         FY 2007 to achieve these results include:
    of development. NITC operates 24 hours a day, 7 days               Worked with OMB, the Department conducted 10
    a week, offers Level 4 security clearances and hosts                PART assessments. Of the 11 PARTs, one rated
    GovBenefits.gov;                                                    “Effective,” two rated “Moderately Effective,” six rated
   Offered USDA’s customers the option to apply online                 “Adequate” and two rated “Results Not Demonstrated
    for all of its discretionary and competitive grant                  (RND).” Based on actual funding levels for FY 2007, a
    opportunities through Grants.gov; and                               little more than three percent of funding for USDA
   Moved all rulemaking agencies to the Federal Docket                 programs is associated with programs that have PART
    Management System (FDMS) in partnership with the                    ratings of RND. Additionally, no USDA programs
    E-Rulemaking Presidential Initiative. FDMS allows                   scored an “Ineffective” rating;
    the public to view and comment easily on information
    pertaining to Federal regulations published by USDA.




                                                              24
                                         FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



    Worked with agencies to ensure that the specific plans         implementing Federal real property management reforms.
     and milestones developed to address PART                       Based on this policy, Department agencies recognize the
     recommendations are reasonable and detailed enough             importance of real property resources through increased
     to address them fully. The Department uses the                 management attention, the establishment of clear goals
     internal scorecard process to track agency progress            and objectives, improved policies and levels of
     toward meeting performance targets and addressing              accountability, and other appropriate actions. As the
     PART recommendations;                                          foundation of USDA’s real property asset management
    Developed budget requests and making budget                    program, the following strategic objectives will be used for
     decisions supported by sound and thorough analysis.            real property management improvement:
     This analysis considered the effects of funding
     decisions on costs and performance. These budget                      USDA Real Property Asset Management Strategic
     decisions were presented and justified to Congress and                                 Objectives
     others using performance information;                           1.  Department’s holdings support agency missions and strategic
                                                                         goals and objectives
    Defined targets for improvements in performance and             2. Maximize facility utilization by co-locating agency operations
     efficiency, and action plans to achieve targets. The                when possible
                                                                     3. Accurately inventory and describe real property assets using the
     Deputy Secretary, subcabinet and other senior                       Corporate Property Automated Information System
     managers continue to receive and discuss the Quarterly          4. Use performance measures as part of the asset management
     Budget and Performance Tracking Report. They use                    decision process
     the report to monitor progress in achieving planned             5. Employ life-cycle, cost-benefit analysis in the real property
                                                                         decision-making process
     performance and efficiency gains, and take action
                                                                     6. Provide appropriate levels of investment
     where needed to ensure targets are met. All PARTed              7. Eliminate unneeded assets
     USDA programs have at least one efficiency measure              8. Use appropriate public and commercial benchmarks and best
     that indicates programmatic strides in cost-                        practices to improve asset management
     effectiveness; and                                              9. Advance customer satisfaction
                                                                     10. Provide for safe, secure and healthy workplaces
    Continued to use the Management Initiatives
                                                                    USDA’s plans include:
     Tracking System (MITS) PART module to enable
     more active and efficient participation by senior                   Updated the USDA Asset Management Plan (AMP)
     Department officials during the PART process. MITS                   and accompanying agency building block plans, which
     also provides managers with the ability to track the                 feature policies and methodologies for maintaining
     implementation of PART improvement plans and                         property holdings in an amount and type according to
     achievement of performance targets.                                  agency budget and mission. AMP presents the
                                                                          Department’s strategic vision and plan of action for
                                                                          compliance with the Government-wide real property
    Status                                       Progress
                                                                          management initiative;
                   REAL PROPERTY
      ↑                                              ↔                   Implemented the approved USDA AMP and
                                                                          accompanying agency building block plans (BBPs);
Executive Order 13327, Federal Real Property Asset                       Revised draft interim-year targets and out-year goals
Management, establishes the framework for improved use                    for asset management performance measures;
and management of real property owned, leased or                         Completed a strategy for addressing the backlog of
managed by the Federal Government. It is USDA policy                      deferred maintenance;
to promote the efficient and economical use of its real
property assets and assure management accountability for



                                                               25
                                          FY 2007 Performance and Accountability Report
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



   Ensured that agencies close any remaining data gaps                   Ensured that USDA agencies continued closing data
    for constructed asset-level reporting and developing an                gaps in constructed asset-level reporting and requiring
    expanded data validation and verification process;                     that agencies validate and verify data accuracy;
   Maintained a comprehensive inventory and profile of                   Maintained a comprehensive inventory and profile of
    agency real property, and providing timely and                         agency real property and providing timely and accurate
    accurate information for inclusion into the                            information for inclusion into the Government-wide
    Government-wide real property inventory database;                      real property inventory database;
   Developed a final draft interagency agreement between                 Submitted a final draft interagency agreement between
    USDA and the U.S. Departments of Interior and                          USDA and the U.S. Departments of Interior and
    Labor regarding Job Corps Centers;                                     Labor regarding Job Corps Centers;
   Developed the Capital Programming and Investment                      Developed and publishing the Capital Programming
    Process to ensure scarce resources are directed to                     and Investment Process to ensure scarce resources are
    highest priority asset needs;                                          directed to highest priority asset needs; and
   Completed the Asset Management Initiatives and                        Completed the Asset Management Initiatives and
    Three Year Timeline document for meeting goals and                     Three Year Timeline document for meeting goals and
    objectives of the AMP and BBPs; and                                    objectives of the AMP and BBPs. The timeline
   Actively participated in such Government-wide                          includes a list of assets for disposition and an
    management vehicles as the Federal Real Property                       investment prioritization list for mission critical and
    Council (FRPC). FRPC provides a forum to address                       dependent assets.
    critical real estate and workplace issues challenging all
    Federal agencies.                                                     Status        RESEARCH AND                    Progress
                                                                                        DEVELOPMENT
                                                                           ↔                                               ↔
USDA scored yellow for status and green for progress on
the July 31, 2007, scorecard.                                                        INVESTMENT CRITERIA
Actions taken by USDA in FY 2007 to achieve these
                                                                      This program initiative calls for Federal research agencies
results include:
                                                                      to use the three criteria of relevance, quality and
   Revised the comprehensive AMP, including agency-                  performance systematically in planning and managing
    specific BBPs, with the latest policies, practices and            programs, and developing budgets. USDA’s principle
    procedures. These are designed to optimize the level of           research and development agencies—the Agricultural
    real property operating, maintenance and security                 Research Service (ARS); Cooperative State Research,
    costs;                                                            Education and Extension Service (CSREES); Economic
   Implemented the revised USDA AMP and agency                       Research Service (ERS); and Forest Service Research and
    BBPs and requiring agencies to supply examples of                 Development (FS R&D)—continue to integrate criteria
    improved management practices resulting from AMP                  into their program planning and management processes
    and BBP implementation;                                           aggressively. In particular, the agencies are using the
   Finalized draft interim-year targets and out-year goals           criteria to frame external expert program reviews to obtain
    for asset management performance measures;                        objective assessments of current programs and
                                                                      recommendations for future program planning. Using the
   Completed a strategy for addressing the backlog of
                                                                      criteria ensures that programs are addressing the right
    deferred maintenance that targets available resources to
                                                                      issues, meeting high-quality standards and accomplishing
    the highest priority assets;
                                                                      their identified goals.



                                                                 26
                                            FY 2007 Performance and Accountability Report
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



USDA’s plans include:                                                The Improper Payments Information Act (IPIA) was
    Continuing to integrate the use of the investment               implemented in FY 2004 and became a President’s
     criteria in program planning, management and                    Management Agenda (PMA) initiative in FY 2005. IPIA
                                                                     requires that agencies measure their improper payments
     assessment;
                                                                     annually, develop improvement targets and corrective
    Promoting collaboration among research agencies to              action plans and track the results annually to ensure that
     promote common criteria and performance measures                the corrective actions are effective. The Office of the Chief
     when appropriate; and                                           Financial Officer (OCFO) issued specific policy guidance
    Using the results of program assessments to inform all          including templates and timelines for implementing IPIA
     aspects of program management.                                  and meeting the goals of the PMA initiative.

USDA scored green for status and progress on the                     USDA scored “yellow” for status and “green” for progress
September 30, 2007, scorecard.                                       on the September 30, 2007, scorecard. The Department’s
                                                                     overall goal is to achieve “green” in FY 2008 and “green” in
Actions taken by USDA in FY 2007 to achieve these                    FY 2009.
results include:
    Classified programs into portfolios, being subjected to         The Office of Management and Budget (OMB) reported
     rigorous external reviews. Subsequent annual internal           that Federal agencies made more than $40 billion in
     reviews are being conducted to assess progress in               improper payments during FY 2006, down from $45
     responding to the external review recommendations;              billion in FY 2004.
    Reached the halfway mark of its program assessments             For FY 2007, USDA identified 16 programs that are at
     with the completion of four of the eight external peer          risk for improper payments. USDA’s sampling of these
     reviews of its programs. The results of the completed           programs estimated that the Department’s improper
     program reviews are being used in planning and                  payments totaled $4.4 billion (improper payment rate of
     management;                                                     6.1%), down from the FY 2006 amount of $4.6 billion
    Created a new science quality staff charged with                (improper payment rate of 7.0%). Of the FY 2007
     providing leadership in performance accountability,             improper payments amount, $3.9 billion was due to
     science application, information management,                    incorrect disbursement and $460 million was due to
     education and strategic planning;                               incomplete paperwork. In FY 2006 USDA reported
    Completed its first two program reviews and is                  improper payments due to incorrect disbursements of $2.0
     drawing on them and recommendations to enhance                  billion and incomplete paperwork of $2.6 billion.
     the programs. Preparation for a third review is                 This is the first year USDA measured all of its high risk
     complete and will be implemented in the fall of 2007;           programs. The Food and Nutrition Service’s (FNS)
     and                                                             National School Lunch and School Breakfast programs
    Completed four national program assessments in FY               reported improper payment rates for the first time in
     2007. The data from the assessment was fed into the             FY 2007. The estimated amounts of improper payments
     next program cycle, incorporated into the research              were $1.4 billion (improper payment rate of 16.3%) for the
     program action plans and used in the budgeting                  School Lunch program and $520 million (improper
     process.                                                        payment rate of 24.9%) for the School Breakfast program.
                                                                     Corrective action plans were developed for each program
                                                  Progress
                                                                     addressing the causes and identifying initiatives to reduce
    Status
               ELIMINATE IMPROPER                                    improper payments. FNS’ Women, Infant and Children
                                                                     program and Child and Adult Care Food program
     ↔              PAYMENTS                          ↔              reported component rates in FY 2007 as they did for
                                                                     FY 2006.


                                                                27
                                           FY 2007 Performance and Accountability Report
                                       MANAGEMENT’S DISCUSSION AND ANALYSIS



The seven Farm Service Agency (FSA) programs reported                 Actions taken by USDA in FY 2007 include:
significant improvement in FY 2007. FSA’s estimated                       Provided an Improper Payments and Internal Controls
improper payments for FY 2007 were $563 million                            Overview for USDA agency executives;
(improper payment rate of 2.5%), down from $2.9 billion
                                                                          Provided a comprehensive Improper Payments and
(improper payment rate of 11.2%) for FY 2006. The FSA
                                                                           Internal Controls Training Session for USDA agency
reductions came from improvements in the quality of its
                                                                           personnel;
risk assessments and statistical sampling. The improved
statistical sampling focused on verifying program eligibility             Provided Improper Payments breakout sessions at the
and uncovered administrative weaknesses that prevent                       annual USDA Financial Management Training;
FSA from determining if payments are proper. Aggressive                   Consolidated small and similar programs together for
corrective action plans were developed to improve the                      improved focus in the risk assessment process. USDA
quality of documentation for program eligibility.                          moved from 146 programs in FY 2006 to 138
                                                                           programs in FY 2007;
USDA’s plans include:
                                                                          Performed an inherent risk survey to better evaluate
   Achieving the overall status of green by July 1, 2008;
                                                                           which programs need more frequent or robust risk
   Developing and implementing policies, controls and                     assessments;
    procedures at the Department, agency and field levels
                                                                          Revised risk assessment guidance to require that test of
    to reduce the number of improper payments;
                                                                           transactions sampling be statistical;
   Setting and meeting appropriate reduction targets;
                                                                          Sampled all 16 programs determined to be high risk by
   Setting and meeting appropriate recovery targets;                      statistical or other approved methods. The results of
   Demonstrating that the documentation and internal                      these tests are shown in Appendix B of this report; and
    control failures at the field level have been corrected;              Developed corrective actions for all high risk programs
   Revising sampling methodologies to provide improper                    and set reduction and recovery targets for programs
    payment rates nearer the time of payment, leading to                   where appropriate.
    more timely corrective actions;
   Creating aggressive correction plans with measured                    Status            IMPROVED CREDIT               Progress
    performance;                                                                               PROGRAM
   Recovering, where possible, overpayments made to                       ↔                  MANAGEMENT                      ↑
    individuals and organizations;
   Reporting and prosecuting fraud;                                  Improved Credit Program Management is a new initiative
                                                                      under the President’s Management Agenda. Beginning in
   Training field personnel on key controls and teaching
                                                                      FY 2006, this initiative required USDA to:
    the importance of control procedures and the potential
    risks of noncompliance;                                               Develop risk factors for predicting the cost of loan
                                                                           programs;
   Increasing accountability at all levels by integrating the
    employee’s individual results into his or her annual                  Require that guaranteed lending partners have
    performance rating; and                                                effective loan-portfolio management and loss recovery
                                                                           rates;
   Enhancing program controls and reiterate current
    program policies regarding program compliance                         Verify that lending partners have established quality
    through notices to field personnel.                                    collateral valuation processes;




                                                                 28
                                            FY 2007 Performance and Accountability Report
                                      MANAGEMENT’S DISCUSSION AND ANALYSIS



   Calculate the cost of originating, servicing and                       exceptions to underwriting standards, concentrations
    liquidating loans; and                                                 of credit risk, delinquency and default rates, rating
                                                                           changes, problem loans, and charge offs, and using
   Comply with all relevant provisions of the Debt
                                                                           such information to improve program results;
    Collection Improvement Act of 1996.
                                                                          Establishing mutually agreeable goals that can be
USDA’s loan portfolio is approximately $100 billion in                     justified by comparisons to relevant programs to
outstanding public debt. It represents nearly one-third of                 control the total cost of originating, servicing and
all debt in the Federal Government. USDA often is the                      liquidating loans and improve the rate of debt
lender of last resort, making many loans to borrowers who                  recovery; and
are at a higher risk for default.                                         Complying with all relevant provisions of the Debt
                                                                           Collection Improvement Act.
USDA is committed to achieving the goals of its credit
programs while effectively managing its portfolio’s                   Actions taken by USDA in FY 2007 include:
performance. USDA’s scorecard rating as of September 30,
                                                                          Issued guidance for writing-off or justifying loans
2007, was “Red” for status and “Green” for progress. The
                                                                           delinquent more than two years in order to comply
Department is developing plans to meet the initiative’s
                                                                           with OMB Circular A-129;
goals. The Department’s target is to achieve “Green” in FY
                                                                          Reconciled and documented that all delinquent debt
2009.
                                                                           over two years affected by this initiative were written-
USDA’s plans include:                                                      off or fully justified at the end of the 2nd Quarter, FY
   Setting goals related to reaching target borrowers and                 2007;
    reducing deviation from risk standards;                               Established workgroups to identify existing and
   Setting goals to reduce the total cost of servicing and                potential risk indicators; and
    liquidating loans, and improve the debt-recovery rate;                Conducted presentations for OMB on guaranteed
   Establishing customer satisfaction ratings that meet or                lender and collateral management by major USDA
    exceed industry standards;                                             credit areas highlighting leadership, sound lending
   Defining its target borrower segments clearly, regularly               policies and procedures, loan portfolio management
    assessing whether its borrowers meet that definition                   and loss recovery, and monitoring and evaluation of
    and whether such borrowers comprise an acceptable                      lenders.
    risk that can be managed effectively;
   Establishing or verifying that partner lenders have                   Status                                          Progress
                                                                                       FAITH-BASED AND
    established sound lending policies and procedures
    implemented in effective transaction-approval                          ↔         COMMUNITY INITIATIVE                    ↔
    processes, loan portfolio management and loss
    recovery;
                                                                      The Faith-Based and Community Initiative is working to
   Establishing or verifying that partner lenders have               create a more open and competitive awards process. This
    created collateral valuation processes with clear policies        helps ensure that the Federal Government partners with
    and procedures ensuring independence in appraisals                the organizations most capable of meeting the needs of the
    and valuations, and adequate monitoring of appraisers’
                                                                      poor.
    quality and certification;
   Maintaining a reasonable level of risk and productivity           For years, USDA partnered with faith-based and
    of taxpayer cash used in lending programs through                 community organizations to help deliver food and other
    effective management information reporting. This                  vital assistance to those in need. The initiative works to
    reporting includes indicators of loan volume,


                                                                 29
                                            FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



strengthen these existing partnerships and create new ones          Actions taken by USDA in FY 2007 to achieve these
to reach even more people in need. Faith-based and                  results include:
community groups already work with the individuals that
                                                                       Conducted 3,678 outreach and technical assistance
the Department's assistance programs serve. These groups
                                                                        activities to strengthen the ability of faith-based and
are valuable to USDA’s efforts in reaching more people
                                                                        community organizations to serve those in need;
with its programs, and being more successful in alleviating
hunger and building stronger communities.                              Held 440 educational activities for State and local
                                                                        Government agencies and faith-based and community
The Initiative works to:                                                groups on equal treatment principles;
   Promote opportunities and build the capacity of faith-             Developed additional Web-based resources for faith-
    based and community organizations through outreach
                                                                        based and community groups to enhance their
    and technical-assistance activities;
                                                                        knowledge about partnership opportunities and
   Identify and eliminate barriers that impede the full                funding applications;
    participation of faith-based and community
    organizations in the Federal grants process;                       Reduced barriers to access for faith-based and
                                                                        community organizations applying for Federal funds;
   Ensure that equal treatment principles are understood
    at the Federal, State and local levels of Government,              Created new program partnership opportunities for
    and, in turn, educate faith-based and community                     faith-based and community groups; and
    organizations receiving Federal funds on their                     Expanded data collection on State-administered
    responsibilities; and                                               programs to measure the creation of new partnerships
   Develop and launch pilot programs to test new                       and study the implementation of equal treatment
    strategies and strengthen the partnership between                   principles better.
    faith-based and community organizations, and the
    Federal Government.
USDA scored green for both status and progress on the
September 30, 2007, scorecard.




                                                               30
                                          FY 2007 Performance and Accountability Report
                                              MANAGEMENT’S DISCUSSION AND ANALYSIS




Financial Statement Highlights                                                Appropriations
BUDGETARY RESOURCES                                                           Appropriations decreased $1.4 billion in FY 2007. This
                                                                              decrease is primarily due to a $2.2 billion decrease at CCC
USDA receives most of its funding from appropriations                         for its prior year realized losses and a $2.5 billion decrease
authorized by Congress and administered by the U.S.                           at FNS for the Food Stamp program, offset by a $2.8
Department of the Treasury. Total resources consist of the                    billion increase at FSA for disaster assistance programs and
balance at the beginning of the year, appropriations                          a $1.1 billion increase at RMA for crop insurance
received during the year, spending authority from                             programs.
offsetting collections and other budgetary resources.
                                                                              Obligations Incurred And Net Outlays
                                                               %              Obligations Incurred decreased $16 billion in FY 2007.
                                     2007          2006      Change           This decrease is primarily due to a $12.2 billion decrease at
 Appropriations                    $108,428    $109,856        -1%            CCC due to favorable market conditions for commodities
 Obligations Incurred              $129,414    $145,458        -11%           and a $1.6 billion decrease at RD due to the dissolution of
 Net Outlays                        $89,883        $99,674     -10%           the Rural Telephone Bank.
 Data in millions
                                                                              Net Outlays decreased $9.8 billion in FY 2007, primarily
                                                                              due to the decrease in obligations incurred as described
                                                                              above.

BALANCE SHEET
                                                      CONDENSED BALANCE SHEET DATA
                                                       As of September 30, 2007 and 2006
                                                                   (in millions)

                                                                                                                %
                                                                                   FY 2007          FY 2006   CHANGE
                        Fund Balance with Treasury                                 $47,433          $42,191     12%
                        Accounts Receivable, Net                                     9,706            8,881       9%
                        Direct Loan and Loan Guarantees, Net                        80,756           77,791       4%
                        General Property, Plant, and Equipment, Net                  2,846            4,905     -42%
                        Other                                                          716             461      55%
                        Total Assets                                               141,457          134,229       5%
                        Debt                                                        75,191           83,447     -10%
                        Loan Guarantee Liability                                     1,277            1,296      -1%
                        Other                                                       38,523           39,210      -2%
                        Total Liabilities                                          114,991          123,953      -7%
                        Unexpended Appropriations                                   30,621           26,385     16%
                        Cumulative Results of Operations                            -4,155          -16,109     74%
                        Total Net Position                                          26,466           10,276    158%
                        Total Liabilities and Net Position                        $141,457      $134,229          5%




                                                                         31
                                                    FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



Total Assets                                                         Total Liabilities
Total assets increased $7.2 billion in FY 2007. This                 Total liabilities decreased $9.0 billion in FY 2007. This
increase is primarily due to a $5.2 billion increase in Fund         decrease is primarily due to an $8.3 billion decrease in
Balance with Treasury and a $2.9 billion increase in Direct          Debt and a $.7 billion decrease in other liabilities.
Loan and Loan Guarantees, Net offset by a $2 billion
                                                                     Debt represents amounts owed to Treasury primarily by
decrease in General Property, Plant and Equipment, Net.
                                                                     CCC and RD. For CCC, the debt primarily represents
The increase in Fund Balance with Treasury is primarily              financing to support Direct and Counter Cyclical, Crop
due to FSA and FNS. FSA received $2.8 billion for                    Disaster and Loan Deficiency programs. For RD, the debt
disaster assistance programs and borrowed $1 billion from            primarily represents financing to support Single and Multi
Treasury for credit program financing. FNS retained $2.5             Family Housing loan programs. The decrease in debt is
billion from the prior year for the Food Stamp program.              primarily due to repayment by CCC of $13.1 billion loan
CCC repaid Treasury $1.4 billion in loan principal and               interest and principal on its credit programs, and
interest.                                                            additional borrowing by RD and FSA for their credit
                                                                     programs of $3.8 billion and $1 billion, respectively.
Direct Loan and Loan Guarantees, Net is the single
largest asset on the USDA Balance Sheet. RD offers both              Other liabilities mainly consist of $12.5 billion in excess
direct and guaranteed loan products for rural housing and            liquidating funds payable to Treasury, $11.5 billion for the
rural business infrastructure. These represent 84 percent of         Conservation Reserve and Tobacco Transition Payment
the total USDA loan programs. Commodity loans and                    programs, and $4.5 billion related to crop insurance
credit programs administered by CCC represent 8 percent              programs.
of the total. CCC’s loans are used to improve economic
                                                                     Other liabilities decreased primarily due to the return of
stability and provide an adequate supply of agricultural
                                                                     $.6 billion from the Foreign Credit Liquidating Funds to
commodities. CCC credit programs provide foreign food
                                                                     Treasury by CCC. Liquidating funds primarily serve to
assistance, expand foreign markets, and provide domestic
                                                                     collect principal and interest payments resulting from pre-
low-cost financing to protect farm income and prices. The
                                                                     credit reform loans.
remaining 8 percent of loan programs are the direct and
guaranteed loan programs administered by the FSA,                    Total Net Position
providing support to farmers who are temporarily unable
                                                                     Total net position increased $16.2 billion in FY 2007.
to obtain private, commercial credit. The increase in
                                                                     This increae consists of a $4.2 billion increase in
Direct Loan and Loan Guarantees, Net is primarily due to
                                                                     unexpended appropriations and $12 billion increase in
growth in electric programs at RD.
                                                                     cumulative results of operations. The increase in
The decrease in General Property Plant and Equipment,                unexpended appropriations is primarily due to the $2.8
Net is primarily due to a change in accounting for road              billion additional funding for diaster assistance programs
prism assets by the FS to more accurately reflect the                received by FSA late in the fiscal year. The increase in
stewardship nature of these assets, consistent with other            cumulative results of operations is primarily due to an
federal land management agencies. This change removes                increase at CCC of $13.6 billion as a result of favorable
capitalized road prism assets with a net book value of               market conditions for commodities which reduced
$2,147 million as of September 30, 2006.                             program costs.




                                                                32
                                           FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



NET COST OF OPERATIONS

                                            CONDENSED STATEMENT OF NET COST
                                      For the Years Ended September 30, 2007 and 2006
                                                          (in million)

                                                                                              %
                                                               FY 2007      FY 2006         CHANGE
                                 Goal 1: Enhance
                                 International
                                 Competitiveness of
                                 American Agriculture:           $587         $404           45%
                                 Goal 2: Enhance the
                                 Competitiveness and
                                 Sustainability of Rural and
                                 Farm Economies:                14,986      24,458           -39%
                                 Goal 3: Support
                                 Increased Economic
                                 Opportunities and
                                 Improved Quality of Life in
                                 Rural America:                  2,439       3,068           -21%
                                 Goal 4: Enhance
                                 Protection and Safety of
                                 the Nation’s Agriculture
                                 and Food Supply:                2,516       2,980           -16%
                                 Goal 5: Improve the
                                 Nation’s Nutrition and
                                 Health:                        53,942      53,028            2%
                                 Goal 6: Protect and
                                 Enhance the Nation’s
                                 Natural Resource Base
                                 and Environment:               11,309      11,488            -2%
                                 Net Cost of Operations        $85,779     $95,426           -10%



Net Cost of Operations

Net cost of operations decreased $9.6 billion in FY 2007. This decrease is primarliy due to reduced program costs of $10
billion at CCC in support of Goal 2: Enhance the Competiviness and Sustainability of Rural and Farm Economies. The
FY 2006 Statement of Net Cost was reclassified to reflect the six strategic goals outlined in USDA’s Strategic Plan for FY
2005-2010.




                                                                 33
                                            FY 2007 Performance and Accountability Report
                                  MANAGEMENT’S DISCUSSION AND ANALYSIS




Systems, Controls and Legal Compliance
Management Assurances
STATEMENT OF ASSURANCE

      The United States Department of Agriculture’s (USDA) management is responsible for establishing and
      maintaining effective management control, financial management systems and internal control over
      financial reporting that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA).
      USDA provides a qualified statement of assurance that management control, financial management
      systems and internal controls over financial reporting meet the objectives of FMFIA, with the exception
      of four material weaknesses and one financial system non-compliance. The details of the exceptions are
      provided in the FMFIA and the Federal Financial Management Improvement Act (FFMIA) sections of
      this report.

      USDA conducted its assessment of the financial management systems and internal control over 1) the
      effectiveness and efficiency of operations and compliance with applicable laws and regulations as of
      September 30, 2007, and 2) financial reporting as of June 30, 2007, which includes safeguarding of assets
      and compliance with applicable laws and regulations, in accordance with the requirements of the Office of
      Management and Budget Circular A-123, “Management’s Responsibility for Internal Control.” Based on
      the results of these evaluations, USDA reduced its existing material weaknesses under financial reporting
      from four to two. The Department’s remediation activities and the fiscal year (FY) 2007 A-123,
      Appendix A testing resulted in the FY 2006 “USDA County Office Operations” being downgraded to a
      significant deficiency and the Financial Accounting and Reporting/Accrual material weakness being
      resolved. Additionally, two new material weaknesses under financial reporting were identified for a total
      of four material weaknesses reported in FY 2007.
      Other than the exceptions noted in the FMFIA and FFMIA sections, financial management systems
      conform substantially with the objectives of FMFIA and the internal controls were operating effectively
      and no other material weaknesses were found in the design or operation of the internal control over 1) the
      effectiveness and efficiency of operations and compliance with applicable laws and regulations as of
      September 30, 2007, and 2) financial reporting as of June 30, 2007. However, the Departmental
      management identified prior year violations of the Anti-Deficiency Act that were not considered chronic
      or significant. These violations relate to restrictions on the use of funds to combat forest fires and
      transportation costs for donated food commodities. The latter transactions also violated the Commodity
      Credit Corporation Charter Act.




      Charles F. Conner
      Acting Secretary of Agriculture
      November 15, 2007




                                                             34
                                        FY 2007 Performance and Accountability Report
                                     MANAGEMENT’S DISCUSSION AND ANALYSIS



Federal Managers’ Financial Integrity Act Report on                 USDA conducts its annual evaluation of internal controls
                                                                    over financial reporting in accordance with OMB Circular
Management Control
                                                                    A-123, “Management’s Responsibility for Internal
BACKGROUND                                                          Control,” Appendix A. Assessment results are reviewed
                                                                    and analyzed by the USDA Senior Assessment Team.
The Federal Managers’ Financial Integrity Act of 1982               Final assessment results are reviewed and approved by the
(FMFIA) requires ongoing evaluations of internal control            Senior Management Control Council.
and financial management systems culminating in an
annual statement of assurance by the agency head that:              USDA operates a comprehensive internal control program
   Obligations and costs comply with applicable laws and           to ensure compliance with FMFIA requirements and other
    regulations;                                                    laws, and OMB Circulars A–123 and A–127, “Financial
                                                                    Management Systems.” All USDA managers are
   Federal assets are safeguarded against fraud, waste and         responsible for ensuring that their programs operate
    mismanagement;                                                  efficiently and effectively and comply with relevant laws.
   Transactions are accounted for and properly recorded;           They must also ensure that financial management systems
    and                                                             conform to applicable laws, standards, principles and
   Financial management systems conform to standards,              related requirements. In conjunction with OIG and
    principles and other requirements to ensure that                GAO, USDA management works aggressively to
    Federal managers have timely, relevant and consistent           determine the root causes of its material weaknesses to
    financial information for decision-making purposes.             promptly and efficiently correct them.

Furthermore, FMFIA provides the authority for the Office            USDA remains committed to reducing and eliminating
of Management and Budget (OMB), in consultation with                the risks associated with its deficiencies and efficiently and
the Government Accountability Office (GAO), to                      effectively operating its programs in compliance with
periodically establish and revise the guidance to be used by        FMFIA.
Federal agencies in executing the law.                              FY 2007 Results
In addition to FMFIA, the Federal Information Security              In FY 2006, USDA identified four material weaknesses:
Management Act (FISMA) requires agencies to report any              Information Technology (IT), Financial Accounting and
significant deficiency in information security policy,              Reporting/Accruals, County Office Operations (COO)
procedure or practice identified (in agency reporting):             and Funds Control. During FY 2007, USDA reduced
                                                                    these four material weaknesses to two. However, two new
   As a material weakness in reporting under FMFIA;
                                                                    material weaknesses related to unliquidated obligations and
    and
                                                                    credit reform quality control processes were added in FY
   If relating to financial management systems, as an              2007. USDA now has a total of four material weaknesses.
    instance of a lack of substantial compliance under the          Therefore, the “Secretary’s Statement of Assurance”
    Federal Financial Management Improvement Act                    provides qualified assurance that USDA’s system of
    (FFMIA). (See the FFMIA Report on Financial                     internal control complies with FMFIA’s objectives. The
    Management Systems.)                                            following Exhibit provides a summary of the material
                                                                    weaknesses.




                                                               35
                                          FY 2007 Performance and Accountability Report
                                                MANAGEMENT’S DISCUSSION AND ANALYSIS



Exhibit 5: Summary of Material Weaknesses


                                                           Internal Control (FMFIA Section 2)

                Statement of Assurance                                                     Qualified Statement of Assurance

                                                                  Beginning                                                                     Ending
                   Material Weakness                               Balance          New      Resolved     Consolidated      Reassessed          Balance
  USDA Information Technology                                         1                                                                            1
  Financial Accounting and Reporting/Accruals                         1                          (1)                                               0
  USDA County Offices Operations                                      1                                                          (1)               0
  Funds Control Management¹                                           1                                                                            1
  Financial Reporting – Unliquidated Obligations                                     1                                                             1
  (New)
  Financial Reporting – Credit Reform (New)                                          1                                                              1
  TOTAL MATERIAL WEAKNESSES                                              4           2           (1)            0                (2)                4

                                                Financial Management Systems (FMFIA Section 4)

                Statement of Assurance                                                     Qualified Statement of Assurance

                                                                  Beginning                                                                     Ending
                     Non-Conformance                               Balance          New      Resolved     Consolidated      Reassessed          Balance
  Funds Control Management¹                                              0                                                        1                 1

  TOTAL NON-CONFORMANCES                                                 0           0           0              0                 1                 1
  ¹ Funds Control Management was identified as a Section 2 FMFIA material weakness in FY 2006.
                                                                                            The material weakness was addressed in FY 2007; however, the
  financial management system non-compliance remains. (See FFMIA Report on Financial Management Systems.)



Required Reporting
Exhibit Numbers 6 and 7 are provided to meet the reporting requirements of OMB Circular A-136, “Financial Reporting
Requirements” and include a breakdown by various categories related to the Financial Statement Audit and
Management’s Statement of Assurance for FMFIA and FFMIA.
Exhibit 6: Summary of Management Assurances

                                    Effectiveness of Internal Control Over Financial Reporting (FMFIA § 2)
              Statement of Assurance                                                                    Qualified

                                                                Beginning                                                                       Ending
                 Material Weakness                               Balance            New      Resolved     Consolidated      Reassessed          Balance
  USDA Information Technology                                       1                                                                              1
  Financial Accounting and Reporting/Accruals                       1                            (1)                                               0
  USDA County Offices Operations                                    1                                                            (1)               0
  Funds Control Management                                          1                                                                              1
  Financial Reporting – Unliquidated Obligations (New)                               1                                                             1
  Financial Reporting – Credit Reform (New)                                          1                                                             1
  TOTAL MATERIAL WEAKNESSES                                          4               2           (1)            0                (1)                4




                                                                               36
                                                       FY 2007 Performance and Accountability Report
                                            MANAGEMENT’S DISCUSSION AND ANALYSIS



                                      Effectiveness of Internal Control Over Operations (FMFIA § 2)
              Statement of Assurance                                                        Unqualified

                                                         Beginning                                                             Ending
                  Material Weakness                       Balance           New      Resolved     Consolidated   Reassessed    Balance
                                                             0                                                                    0
    TOTAL MATERIAL WEAKNESSES                                 0                                                                   0
                              Conformance with Financial Management System Requirements (FMFIA § 4)
              Statement of Assurance                                                            Qualified

                                                         Beginning                                                             Ending
                  Material Weakness                       Balance           New      Resolved     Consolidated   Reassessed    Balance
    Funds Control Management                                 0                                                       1            1
    TOTAL Non-Conformances                                    0                                                      1            1
                               Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                       Agency                                      Auditor
             Overall Substantial Compliance                              No                                          No
    1. System Requirements                                               No
    2. Accounting Standards                                             Yes
    3. USSGL at Transaction Level                                        No
    4. Information security policies, procedures and                     No
    practices


                                                                                 Enhanced the analytical review of program operations
MATERIAL WEAKNESSES REASSESSED OR RESOLVED                                        prior to posting accruals;
USDA reassessed or resolved two of its four existing                             Developed the Obligation and Accruals Guidance
material weaknesses in FY 2007.                                                   Report to document trigger points for recording
                                                                                  account activity; and
Financial Accounting and Reporting/Accruals — This material
weakness has been resolved. The Forest Service (FS) and                          Improved the managerial review process for accrual
the Commodity Credit Corporation (CCC) management                                 entries recorded at year-end.
had reported a lack of effective preventive and defective
                                                                            Additionally, this weakness included CCC’s Statement of
controls around the completeness, accuracy and validity of
accrual estimate calculations. Both FS and CCC have                         Financing process, which has been resolved. They have:
taken action to remediate this weakness as follows:                              Enhanced the methodology used in the compilation of
                                                                                  the Statement of Financing, the mapping logic, and
FS:                                                                               the treatment of transactions for specific lines items;
     Utilized a statistical model for estimating field                          Documented the deviations from Treasury’s crosswalk
      accruals;                                                                   and Implementation Guide; and
     Incorporated a seasonality adjustment into the accrual                     Implemented an “audit task force” approach to
      calculations; and                                                           perform effective technical reviews of the financial
     Refined the queries and database used to calculate the                      statement compilation process.
      regressions.
                                                                            USDA County Office Operations — This weakness was
CCC:                                                                        reassessed and downgraded to a significant deficiency.
                                                                            During FY 2007, FSA underwent a rigorous effort to
     Strengthened the program account analysis process for
                                                                            identify and document the processes and controls existing
      monitoring the accounting events for each program;
                                                                            at USDA county offices related to program enrollment,



                                                                       37
                                                  FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS



payment calculations, disbursements, receipts, reporting                         review of unliquidated obligations at several component
and monitoring. The results of this comprehensive                                agencies. As a result, accounts were not being deobligated
assessment confirmed that mitigating factors are in place                        on a timely basis as required by Department regulation and
to reduce the risk of a material misstatement occurring in                       procedures. USDA agencies need to implement effective
the financial statements. Controls were strengthened by                          and sustainable control procedures over the review and
no longer accepting cash receipts in one-person offices and                      certification of unliquidated obligations.
centralizing password maintenance/access to county office
systems.                                                                         Financial Reporting – Credit Reform
                                                                                 USDA determined that controls were lacking in the Credit
NEW MATERIAL WEAKNESSES                                                          Reform quality assurance process to ensure that the cash
                                                                                 flow models, data inputs, estimates and reestimates for
USDA identified two new material weaknesses under
                                                                                 financial reporting were subject to appropriate controls and
Financial Reporting related to unliquidated obligations
                                                                                 management oversight. As a result, additional resources
and improvements needed in the Credit Reform quality
                                                                                 were needed to correct the credit reform information in the
control process.
                                                                                 financial statements and related disclosures. USDA plans
Financial Reporting – Unliquidated Obligations                                   to perform and document independent quality assurance
                                                                                 reviews of model changes, data extracts and the reestimates
USDA assessed the controls for reviewing unliquidated
                                                                                 process before delivery to external parties.
obligations and determined there was a lack of consistent


SUMMARY OF OUTSTANDING MATERIAL WEAKNESSES

 Material Weakness       1. USDA Information Technology                                Overall Estimated Completion Date          FY 2008
 Existing                Internal control design and operating effectiveness deficiencies in the four areas: software change control, disaster
                         recovery, logical access controls, and physical access that aggregate to an overall IT material weakness.

 FY 2007 Accomplishments:                                                    Planned Actions:
 •   Implemented the required National Institute of Standards and            •     Standardize and streamline FISMA and A-123 testing;
     Technology controls for IT throughout USDA and other policy             •     Fully implement FISMA compliance tool throughout USDA;
     guidance;
                                                                             •     Execute internal control education plan for all levels and agencies
 •   Instituted a quality assurance process to ensure that deficiencies            throughout USDA;
     are resolved at root causes and operating effectively;
 •   Implemented the Inter-Agency Planning, Assessing and
                                                                             •     Remediate the IT material weakness; and
     Remediating Controls group to identify clear responsibilities for       •     Continue monitoring progress through the Information Technology
     internal control in agencies sharing IT systems and networks                  Executive Steering Committee.
     reducing combined agency resources required for internal control
     efforts while improving the effectiveness of internal controls;
 •   Consolidated the A-123 and FISMA efforts so that agencies would
     only have to document and test internal control and IT security
     weaknesses once, by one methodology; and
 •   Selected a Department of Justice tool to aid USDA agencies in
     tracking and documenting IT controls, policies, procedures and
     standardizing testing. Streamlined process facilitates the annual A-
     123 and FISMA reviews and tests, reducing agency resources
     required for these efforts.




                                                                            38
                                                   FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS




 Material Weakness        2. Funds Control Management                                 Overall Estimated Completion Date        FY 2008
 Existing                 Improvements needed in funds control processes.


 FY 2007 Accomplishments:                                                    Planned Actions:
 •    Monthly reviews and analysis of CCC obligation status with fund  • Document CCC obligation business events and develop solutions
      managers;                                                          for providing pre-authorization of funds.
 •    Quarterly certification of CCC obligations by fund managers;
 •    Institutionalized monthly and quarterly review and certification
      processes; and
 •    Strengthened the program account analysis process.
Note: Funds Control Management is also classified as an FFMIA system non-compliance for FY2007.


 Material Weakness        3. Financial Reporting – Unliquidated                       Overall Estimated Completion Date        FY 2008
                          Obligations
 New
                          Lack of consistent review of unliquidated obligations.


            Planned Actions:
 •     Implement effective and sustainable control procedures over the
       review and certification of unliquidated obligations at the
       component level.


 Material Weakness        4. Financial Reporting – Credit Reform                      Overall Estimated Completion Date        FY 2008
 New                      Controls are lacking in the Credit Reform quality assurance process to ensure that cash flow models, data inputs,
                          estimates and reestimates are subject to appropriate management oversight.

            Planned Actions:
 •     Ensure proper monitoring and reporting of change control process; and
 •     Perform and document independent quality assurance reviews of model changes, data extracts and the reestimate process before delivery to
       external parties.




Federal Financial Management Improvement Act Report
on Financial Management Systems
BACKGROUND
                                                                               systems must also comply substantially with: (1) Federal
The Federal Financial Management Improvement Act                               financial management system requirements; (2) applicable
(FFMIA) is designed to improve financial and program                           Federal accounting standards; and (3) the Standard
managers’ accountability, provide better information for                       General Ledger at the transaction level. Additionally, the
decision-making and improve the efficiency and                                 Federal Information Security Management Act (FISMA)
effectiveness of Federal programs. FFMIA requires that                         requires that there be no significant weaknesses in
financial management systems provide reliable, consistent                      information security policies, procedures or practices to be
disclosure of financial data in accordance with generally                      substantially compliant with FFMIA (referred to as
accepted accounting principles and standards. These                            Section 4 in the accompanying table).




                                                                          39
                                                    FY 2007 Performance and Accountability Report
                                                MANAGEMENT’S DISCUSSION AND ANALYSIS



Exhibit 7:   Initiatives To Be Completed


                                              Outstanding Initiatives to Achieve FFMIA Compliance
                                                                                    Section of                                        Target
                                   Initiative                                   Non-compliance                   Agency           Completion Date
              Information Technology¹                                       1 and 4                              Multiple           9/30/2008
              Funds Control Management                                      Section 1                             CCC               9/30/2009
                                                                            Section 3                              FS               9/30/2008
              Sections:
              FFMIA:                                                                   FISMA:
              1 – Federal financial management system requirements.                    4 – Information security policies, procedures or practices.
              3 – Standard general ledger at the transaction level
              ¹ The information technology material weakness, which is reported in the Federal Managers’ Financial Integrity Act Report on Management
              Control, is comprised of four initiatives: Software Change Control; Disaster Recovery; Logical Access Controls; and Physical Access
              Controls.




FY 2007 RESULTS                                                                      reporting, and funds control initiatives reported in FY
                                                                                     2006 are included in the FMFIA section of this report.
During FY 2007, USDA evaluated its financial
management systems to assess substantial compliance with                             Auditor-identified deficiencies at the USDA Forest
the Act. In assessing FFMIA compliance, USDA                                         Service related to the requirement to record obligations in
considered all the information available. This information                           the standard general ledger at the transaction level were
included the auditor’s opinions on component agencies’                               identified in FY 2007. Transactions were not obligated as
financial statements, the work of independent contractors                            required by appropriation law prior to payment. The
and progress made in addressing the material weaknesses                              transactions include temporary travel, grants and other
identified in the FY 2006 Performance and Accountability
                                                                                     reoccurring utility type transactions. Posting models are
Report – Report on Management Control section.
                                                                                     needed at the transaction level to accommodate transfers of
The Department is not substantially compliant with                                   stewardship land acquisitions and to record exchange
Federal financial management system requirements and                                 review transactions to the proper general ledger accounts.
the standard general ledger at the transaction level.                                Corrective action plans will be developed to address these
Additionally, as reported in the FMFIA section of this                               deficiencies.
report, USDA continues to have weaknesses in
                                                                                     The financial management system non-compliance portion
information technology controls that results in non-
                                                                                     of the CCC FY 2006 Funds Control material weakness is
compliance with the FISMA requirement. As part of the
                                                                                     now being reported under FFMIA. While additional work
financial systems strategy, USDA agencies continue to
                                                                                     remains, CCC has made progress toward implementation
work to meet FFMIA and FISMA objectives. The
                                                                                     of a funds control system to remediate the financial system
Information Technology Executive Steering Committee
                                                                                     noncompliance.
continues to monitor the correction of information
technology weaknesses in USDA’s financial systems. The                               Federal Financial Management System Requirements/Funds
Department made substantial progress in addressing its                               Control Management
information technology weakness. However, additional                                 In FY 2007, CCC began to address the need for a fully
effort is required to comply substantially with the Act’s                            integrated funds control system within the financial
requirements.                                                                        management system that is capable of interfacing with
The descriptions of corrective actions taken to address the                          CCC’s general ledger system at the transaction level and
information technology, financial accounting and                                     provides management with timely information to



                                                                                40
                                                       FY 2007 Performance and Accountability Report
                                        MANAGEMENT’S DISCUSSION AND ANALYSIS



periodically monitor and control the status of budgetary                For audits with disallowed costs that achieved final action
resources recorded in the general ledger. FY 2007                       in FY 2007, OIG and management agreed to collect
accomplishments include:                                                $17,799,418. Adjustments were made totaling $7,231,206
    Developed the to-be process design; and                            (41 percent of the total) because of: 1) changes in
                                                                        management decision; 2) legal decisions; 3) write-offs; 4)
    Developed the business case for the Modernize and
                                                                        USDA agencies’ ability to provide sufficient
     Innovate the Delivery of Agricultural Systems
                                                                        documentation to substantiate disallowed costs; and 5)
     (MIDAS).
                                                                        agency discovery. Management recovered the remaining
In FY 2008, CCC will:                                                   $10,568,212.
    Document CCC obligation business events and                        Exhibit 9:       Inventory of Audits with Disallowed Costs1
     develop solutions for providing pre-authorization of
     funds;                                                                  Audits with Disallowed Costs                    # of         Amount ($)
                                                                                                                            Audits
    Prepare system requirements documentation;                             Beginning of the Period                            62          112,382,569
    Select software solution; and                                            Plus: New Management Decisions                   11           10,659,481
                                                                               Total Audits Pending Collection of              73          123,042,050
    Begin to implement the software solution.                                 Disallowed Costs
                                                                               Adjustments                                                  (7,231,206)
In FY 2009, CCC will:                                                          Revised Subtotal                                            115,810,844
                                                                               Less: Final Actions (Recoveries)*               21          (10,568,212)
    Develop a fully integrated funds control system; and                   Audits with DC Requiring Final Action              52          105,242,632
                                                                            at the End of the Period
    Continue implementation of the software package.
                                                                            *Recoveries do not include $104,557 interest collected.
Exhibit 8:   Decrease in Total Open Audit Inventory
                                                                        Exhibit 10:      Distribution of Adjustments to Disallowed Costs


                                                                                           Category                                   Amount ($)
                                                                            Changes in Management Decision                                  136,018
                                                                            Legal Decisions                                                 681,004
                                                                            Write-Offs                                                    4,751,352
                                                                            Agency Documentation                                          1,750,966
                                                                            Agency Discovery                                                -88,134
                                                                            Total                                                         7,231,206


                                                                        Final action occurred on 5 audits that involved FTBU
                                                                        amounts. USDA projects more efficient use for 99.9
                                                                        percent of the amount identified based on the corrective
                                                                        actions implemented. The number of FTBU audits
Beginning and Ending Inventory for Audits with Disallowed
                                                                        remaining in the inventory to date is 23 with a monetary
Costs (DC) and Funds to Be Put to Better Use (FTBU)1
                                                                        value of $68,450,878.
Of the 64 audits that achieved final action during the fiscal
year, 21 contained disallowed costs (DC). The number of
DC audits remaining in the inventory at the end of the
fiscal year is 52 with a monetary value of $105,242,632.                1
                                                                         Exhibit 4 and Exhibit 6 include only those open audits with disallowed
                                                                        costs and funds to be put to better use, respectively. Additionally, some
                                                                        audits contain both DC and FTBU amounts. For these reasons, the
                                                                        number of audits shown as the ending balances in Exhibit 4 and Exhibit 6
                                                                        will not equal the total resolved audit inventory balance in Exhibit 1.



                                                                   41
                                              FY 2007 Performance and Accountability Report
                                             MANAGEMENT’S DISCUSSION AND ANALYSIS



Exhibit 11:   Inventory of Audits with Funds To Be Put to Better           Two audits are proceeding as scheduled, 78 are behind
              Use
                                                                           schedule and agencies have completed corrective actions on
                                                                           33 audits that are pending collection of associated
    Audits with Funds to be            # of
      Put to Better Use               Audits       Amount ($)              disallowed costs. While an additional 7 audits were
  Beginning of the Period               22           224,199,709           scheduled for completion by September 30, 2007, final
       Plus: New Management              6             6,378,639           action documentation was not evaluated during this
       Decisions
                                                                           reporting period.
       Total Audits Pending             28           230,578,348
        Less: Final Actions              5           162,127,470           Audits without final action one or more years past the
  Audits with FTBU Requiring            23            68,450,878
  Final Action at the End of the
                                                                           management decision date and behind schedule are listed
  Period                                                                   individually in the table that follows. They are categorized
  Disposition of Funds to Be Put to                                        by the reason final action has not occurred. More detailed
  Better Use:
  FTBU Implemented                                   161,926,675
                                                                           information on audits on schedule and audits under
  FTBU Not Implemented                                   200,795           collection is available from OCFO.
  Total FTBU Amounts for Final
                                                     162,127,470           The categories are pending the following activities:
  Action Audits

                                                                              Issuance of policy/guidance;
Audits Open One or More Years Past the Management                             Conclusion of investigation, negotiation or
Decision Date                                                                  administrative appeal;
                                                                              Completion of IT system security weaknesses, systems
The number of audits open one or more years without
final action decreased from 123 to 113 audits. USDA                            development, implementation, reconciliation or
agencies continue to pursue compensating controls that                         enhancement;
address many of the underlying issues identified in these                     Results of internal monitoring or program review;
older audits. Although there were more audits added to                        Results of agency request for change in management
this category of audits in FY 07, final action was                             decision;
completed on 24 percent of last year’s open audit
                                                                              Office of the General Counsel or OIG advice;
inventory. These closures represent 47 percent (30 of 64)
of all the audits closed for the FY.                                          Conclusion of external action; and

Exhibit 12:   Decrease in Audits Open One or More Years Past                  Administrative action.
              Management Decision Date




                                                                      42
                                                 FY 2007 Performance and Accountability Report
                                           MANAGEMENT’S DISCUSSION AND ANALYSIS



Exhibit 13:   Distribution of Audits Open One or More Years Past the Management Decision Date, Disallowed Costs and FTBU


                                Audits On Schedule              Audits Behind Schedule                Audits Under Collection
               Agency     No.      DC($)        FTBU ($)      No.       DC ($)         FTBU ($)     No.       DC ($)        FTBU ($)
               Totals      2         0             0          78      25,745,752       28,134,584   33       48,347,563     33,937,655



Management’s Report on Audit Follow-Up
Exhibit 14:   Audits Open One Year or More Past the Management Decision Date and Behind Schedule

                                    Revised                                                                            Monetary Amount
                       Date        Completion
      Audits          Issued         Date                                Audit Title                                DC               FTBU
 (33) Pending issuance of policy/guidance
 05600-1-TE         09/28/89       9/30/07        RMA Crop Year 1988 Insurance Contracts with Claims                   -                 -
 04801-4-CH         02/12/99      10/31/07        RHS Evaluation of Rural Rental Housing Tenant Income                 -                 -
                                                  Verification Process
 04801-6-KC          12/18/00       10/31/07      RHS Rural Rental Housing Program Insurance Expenses,           $1,029,999         $9,000
                                                  Phase I
 08601-38-SF          9/23/04       3/31/08       FS Review of Firefighting Safety Program                           -                   -
 08601-41-SF         113/2006       3/31/08       FS Collaborative Ventures and Partnerships with Non-            $37,890                -
                                                  Federal Entities
 10099-10-KC         09/30/03       12/30/07      NRCS Homeland Security Protection of Federal Assets                -                -
 13001-3-TE           8/16/04        4/30/08      CSREES Implementation of Agricultural Research,                   $3             $482,400
                                                  Extension, and Education Reform Act of 1998
 24099-3-HY           6/21/00       10/31/07      FSIS Imported Meat and Poultry Inspection Process                    -                 -
 24099-4-HY          02/25/03       10/31/07      FSIS Imported Meat and Poultry Inspection Process,                   -                 -
                                                  Phase II
 24501-1-FM          11/24/04       6/30/08       FSIS Application Controls Review of FSIS’ Performance                -                 -
                                                  Based Inspection Service System
 24601-2-HY           6/9/04        6/30/08       FSIS Oversight of the Listeria Outbreak in the Northeast             -                 -
                                                  U.S.
 24601-6-CH           3/15/06       10/31/07      FSIS Review of Food Safety Inspection Service's In-Plant             -                 -
                                                  Performance Systems (IPPS)
 27601-3-CH          03/22/96       03/31/08      FNS Food Stamp Program—Disqualified Recipient System                 -                 -
 27601-27-CH         04/30/02       03/31/08      FNS Food Service Management Companies                                -                 -
 27601-35-CH          7/14/06        5/31/09      FNS Child and Adult Care Food Program, Supper Meals                  -                 -
                                                  Served in Schools
 33099-5-CH           4/20/05       9/30/08       APHIS National Cooperative State/Federal Bovine                      -                 -
                                                  Tuberculosis Eradication Program
 34099-2-AT          09/14/01       10/31/07      RBS Business and Industry Loan Program, Omnivest               $4,052,351              -
                                                  Resources, Inc.
 34601-1-HY          07/22/98       10/31/07      RBS Business and Industry Loan Program—Morgantown,                   -                 -
                                                  West Virginia
 34601-3-CH          03/11/03       10/31/07      RBS Processing of Loan Guarantees to Members of the                  -                 -
                                                  Western Sugar Cooperative
 34601-7-SF          12/04/02       10/31/07      RBS B&I Liquidation of Loans to the Pacific Northwest                -          $14,000,000
                                                  Sugar Company in Washington State
 34601-8-SF           9/30/03       10/31/07      RBS Liquidation of Business and Industry Guaranteed             $45,246          $598,112
                                                  Loans
 34601-15-TE         09/30/03       10/31/07      RBS National Report on the Business and Industry Loan                -                 -
                                                  Program




                                                                       43
                                                  FY 2007 Performance and Accountability Report
                                        MANAGEMENT’S DISCUSSION AND ANALYSIS



                                Revised                                                                     Monetary Amount
                     Date      Completion
    Audits          Issued        Date                                Audit Title                          DC          FTBU
50099-17-KC        2/17/05      03/31/08      CSREES Biosecurity Grant Funding Controls over                -          $4,318
                                              Biosecurity Grants Funds Usage
50601-2-HY          9/9/05       11/30/07     DA/OHCM Review of Management Oversight of Federal             -            -
                                              Employees’ Compensation Act Operations
50601-6-TE         03/04/04      12/30/07     ARS Controls Over Plan Variety Protection and                 -            -
                                              Germplasm Storage
50601-9-AT         3/24/04       11/30/08     DA/OPPM (HS) Controls Over Chemical and Radioactive           -            -
                                              Materials at U.S. Department of Agriculture Facilities
50601-10-AT         3/8/04       12/31/07     HS Follow-up Report on the Security of Biological Agents      -            -
                                              at USDA Laboratories
50801-2-HQ         2/27/97       9/30/08      OCRE Evaluation Report for the Secretary on Civil Rights      -            -
                                              Issues, Phase I
50801-12-AT         9/9/02       11/30/07     DA Management of Hazardous Materials Management               -        $1,813,809
                                              Funds
60801-1-HQ         9/30/98       9/30/08      OCRE Evaluation of the Office of Civil Rights Efforts to      -            -
                                              Reduce Complaints Backlog
60801-2-HQ         3/24/99       9/30/08      OCRE Evaluation of the Office of Civil Rights Management      -            -
                                              of Settlements Agreements
60801-3-HQ         3/10/00       9/30/08      OCRE Evaluation Report for the Secretary on Civil Rights      -            -
                                              Issues (Phase 7)
60801-4-HQ         3/10/00       9/30/08        OCRE Status of Recommendations Made in Prior                -            -
                                                Evaluations of Program Complaints
(2) Pending conclusion of investigation, negotiation or administrative appeal
04801-3-KC         03/31/99       10/31/07      RHS Bosley Management, Inc. – Sheridan, Wyoming          $146,690     $85,516
34004-5-HY         02/18/00      10/31/07      RBS Audit of Procurement Operations, Virginia State       -               -
                                               Office, Richmond, Virginia
(19) Pending completion of IT system security weaknesses, systems development, implementation, or enhancement
03099-27-TE        5/24/01        10/01/07     FSA Payment Limitations – Majority Stockholders of        -               -
                                               Corporations
06401-17-FM         11/5/04      09/30/09     CCC Financial Statements for FY 2004                          -            -
08099-6-SF         03/27/01      09/30/08     FS Security Over USDA Information Technology                  -            -
                                              Resources
08401-2-FM         02/28/03      09/30/08     FS Audit of FY 2002 Financial Statements – Summary of         -            -
                                              Information Technology Findings
08601-40-SF         7/6/05        3/31/08     FS Emergency Equipment Rental Agreements Audit                -            -
10099-1-TE         02/01/02      12/31/07     NRCS Security Over IT Resources                               -            -
11099-44-FM        12/14/06      11/30/08     Potential Improper Payments/Purchase Card Management          -            -
                                              System
24099-1-FM         08/11/03      10/31/07     FSIS Security Over Information Technology Resources at        -            -
                                              FSIS
24601-3-CH          9/30/04      10/31/07     FSIS Review of the Food Safety Information Systems            -            -
24601-3-HY          6/29/04      10/31/07     FSIS Effectiveness Checks for the Pilgrim’s Pride Recall      -            -
33099-4-CH         03/03/04       9/30/08     APHIS Management and Security of Information                  -            -
                                              Technology Resources
33501-1-CH         03/31/05      12/31/07     APHIS Review of Application Controls for the Import           -            -
                                              Tracking System
33601-1-HY         2/14/05       6/30/08      APHIS (FSIS) Oversight of the Importation of Beef             -            -
                                              Products from Canada
33601-4-CH         03/31/03      9/14/07      APHIS Controls Over Permits to Import Biohazardous            -            -
                                              Materials
50501-4-FM         10/21/05      9/30/07      OCIO Review of the U.S. Department of Agriculture’s
                                              Certification and Accreditation Efforts




                                                                    44
                                              FY 2007 Performance and Accountability Report
                                         MANAGEMENT’S DISCUSSION AND ANALYSIS



                                 Revised                                                                       Monetary Amount
                     Date       Completion
    Audits          Issued         Date                               Audit Title                             DC            FTBU
50401-53-FM        11/15/04       9/30/07       OCFO (OCIO) USDA Consolidated Financial Statements             -              -
                                                FY 2004 and FY 2003
50401-56-FM        11/15/05       9/30/07       OCFO USDA Consolidated Financial Statements FY 2004            -              -
                                                and 2005
60016-01-HY          9/8/05       9/30/08       OCRE Follow up on the Recommendations Made to the              -              -
                                                Office of Civil Rights for Program and Employment
85401-9-FM           11/7/03      10/31/07       RD Financial Statements for FY 2003 and 2002                  -              -
(8) Pending results of internal monitoring or program review
06401-4-KC           2/26/02       6/30/08       CCC Financial Statements for FY 2001                          -           $19,586
13501-1-HY            7/8/05      12/31/07       CSREES Application Controls Review of the Cooperative         -              -
                                                 Research Education and Extension Management System
08601-1-HY          3/31/05        3/31/08     FS Implementation of the Government Performance and             -              -
                                               Results Act
08401-4-FM          11/10/04        9/30/07    FS Audit of Fiscal Year 2004 Financial Statements               -              -
08601-30-SF         03/31/03        3/31/08    FS Review of FS Security Over                                   -              -
                                               Explosives/Munitions/Magazines Located Within the
                                               National Forest System
08601-42-SF          3/14/06        3/31/08    FS Firefighting Contract Crews                                  -              -
08601-45-SF           8/8/06        3/31/08    FS Follow-up Review of FS Security Over                         -              -
                                               Explosives/Munitions Magazines Located within the
                                               National Forest System
33099-11-HY        6/12/06          9/30/07    APHIS Oversight of the Avian Flu Outbreak                       -              -
(1) Pending results of request for change in management decision
10501-5-SF           7/24/06       12/31/07    NRCS Application Controls Program Contracts System              -              -
(2) Pending Office of General Counsel (OGC) or OIG advice
23801-1-HQ          08/20/98     11/30/07     OO Review of Office of Operations Contract with B&G              -          $249,866
                                              Maintenance, Inc.
85001-1-HY           4/25/06     10/31/07     RD Review of Shenandoah Valley Electric Cooperative’s        $8,000,000         -
                                              Grant
(3) External Action Required
08003-5-SF          12/15/00      3/31/08       FS Land Acquisitions and Urban Lot Management Program          -         $10,329,300
24601-1-CH          06/21/00     10/31/07       FSIS Laboratory Testing of Meat and Poultry Products           -              -
27099-60-AT         12/23/05      6/30/08       FNS Special Wages Incentives Program in Puerto Rico       $11,780,275         -
(10) Pending Administrative Action
05099-18-KC          6/1/04        6/2/08       RMA Management and Security of Information Technology          -              -
                                                Resources
05099-109-KC        1/27/05       9/30/10       RMA Activities to Renegotiate the Standard reinsurance         -              -
                                                Agreement
06401-15-FM        12/26/02       09/30/09      CCC Financial Statements for FY 2002                           -              -
06401-16-FM         11/7/03       12/31/07      CCC Financial Statements for FY 2003
10601-7-TE           6/7/06       12/31/07      NRCS Controls Over Vehicle Maintenance Costs                   -              -
33601-1-AT         09/14/04        9/30/08      APHIS Security Over Owned and Leased Aircraft                  -              -
50099-11-HY        03/31/05       12/30/07      REE Implementation of Federal Research Misconduct              -              -
                                                Policy in the U.S. Department of Agriculture
50099-13-AT        03/29/02       12/31/07      Multi-Agency Audit Oversight and Security of Biological        -              -
                                                Agents at Laboratories Operated by USDA
50601-5-AT          9/30/98       12/31/07      CSREES Managing Facilities Construction Grants             $653,298       $542,677
50601-10-KC         1/25/06        9/30/07      APHIS Monitoring BSE Expanded Surveillance Program            -              -
                                                Implementation Phase II
Total Number Audits (78)                        Total                                                     $25,745,752   $28,134,584




                                                                    45
                                               FY 2007 Performance and Accountability Report
              II.




                                                    Annual Performance Report



    T
     he United States Department of Agriculture’s                                       Ensuring the safety and protection of the Nation’s
     (USDA) mission is to provide leadership on food,                                    food supply;
     agriculture, natural resources and related issues based
                                                                                        Helping millions of low-income households and most
on sound public policy, the best available science and
                                                                                         of America’s children improve their health and diets
efficient management. The Department executed this
                                                                                         via targeted nutrition assistance programs;
mission in FY 2007 through activities such as:
                                                                                        Fostering better nutrition and health with dietary
     Completing new free trade agreements, opening new
                                                                                         guidance and promotion;
      international markets and maintaining existing
      markets;                                                                          Fighting potential pest and disease outbreaks;
     Meeting with experts from around the globe to discuss                             Working to ensure the health and protection of the
      current and emerging economic opportunities;                                       environment; and
     Providing farmers and ranchers with risk management                               Providing aid to those impacted by severe weather and
      and financial tools;                                                               other disasters.
     Expanding economic opportunities by improving the
      quality of life through financing housing, utilities and
      community facilities in rural areas;

Exhibit 15:    Key Performance Measures


                     2007 Key Performance Measures                                                    2006 Key Performance Measures
                                    Data Not                                                                      Data Not
                                    Available — 1                                                                 Available — 1



          Not
                                                                                        Not Met — 5
          Met — 5




                                                            Met or
                                                                                                                                            Met or
                                                            Exceeded — 28
                                                                                                                                            Exceeded — 33




    Note: Performance measures are refined based on Program Assessment Rating Tool (PART) reviews. The PART is a method of measuring program success.




                                                                               46
                                                        FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



USDA’s public performance management reporting                      Strategic Goal 1: Enhance International
process includes:
   A strategic plan that contains the Department’s long-
                                                                    Competitiveness of American Agriculture
    term goals and strategies (www.ocfo.usda.gov);
   An annual budget summary and performance plan that
    outlines strategies and targets for achieving USDA’s
    long-term goals (www.obpa.usda.gov); and
   A performance and accountability report that
    illustrates to the American people and Congress how
    well the Department did in reaching its goals
    (http://www.ocfo.usda.gov/usdarpt/usdarpt.htm).

Most of USDA’s programs and activities are represented in
specific performance goals and targets, which are described
in this section. The performance measures report data
through the third quarter of FY 2007, and use projections           A prosperous food and agricultural sector contributes to
for the fourth quarter. FY 2007 data using actual fourth            the Nation’s economic vitality and standard of living. The
quarter figures will be reported in the FY 2008 Planning            sector’s success depends on the ability to expand into new
and Accountability Report.                                          markets, raise capital, protect itself against financial risk
The Department also conducts and supports a broad range             and adjust to changing market conditions. Increasing the
of research, educational and statistical activities that            efficiency of the agricultural sector and developing new
                                                                    uses for agricultural products are critical to the Nation’s
contribute to the achievement of its goals. The
                                                                    economic health.
Department’s success depends on creating and enhancing
knowledge at the frontiers of physical and social sciences,         Expanding global markets for agricultural products is
and providing that knowledge to agriculture, forestry,              critical for the long-term economic health and prosperity
consumers and rural America. Accordingly, selected                  of the domestic food and agricultural sector. America’s
accomplishments in research are presented throughout this           natural resources, technologies and infrastructure enable
report. Data collection methodology is standardized and             agricultural production beyond domestic needs. Expansion
transparent and is vetted by scientists, policymakers and           of global markets will increase demand for agricultural
the Department’s senior management.                                 products and contribute directly to economic stability and
                                                                    prosperity for America’s ranchers and farmers.
When he created the USDA, it was President Abraham
Lincoln’s hope “that by the best cultivation in the physical        To expand overseas markets and facilitate trade, USDA
world, beneath and around us, and the intellectual and              assists in the negotiation, monitoring and enforcement of
moral world within us, we shall secure an individual, social        trade agreements. Working with producers and
and political prosperity and happiness, whose course shall          commodity trade associations, USDA administers an array
be onward and upward, and which, while the earth                    of market development and export promotion programs
endures, will not pass away.” The following chapters of the         designed to build long-term markets abroad. The
                                                                    Department helps expand trade opportunities through
USDA Performance and Accountability Report show how the
                                                                    technical assistance and training programs. These tools
Department committed itself to keeping President
                                                                    support agricultural development and growth in
Lincoln’s dream alive during FY 2007.
                                                                    developing countries. They also help these countries
                                                                    participate in, and benefit from, international trade.



                                                               47
                                          FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



USDA works to facilitate trade by adopting science-based              In 2007, the free trade agreement (FTA) with the
regulatory systems and standards.                                     Dominican Republic (DR) took effect. The DR joins El
                                                                      Salvador, Guatemala, Honduras and Nicaragua, all of
OBJECTIVE 1.1: EXPAND AND MAINTAIN INTERNATIONAL                      which had implemented the Dominican Republic-Central
EXPORT OPPORTUNITIES                                                  American Free Trade Agreement (DR-CAFTA) in the
                                                                      preceding year. The remaining DR-CAFTA partner,
Overview                                                              Costa Rica, ratified the accord through a referendum, and
United States agricultural exports were $79 billion in FY             will implement it in 2008.
2007, up $10.4 billion from FY 2006 and the second
                                                                      In addition, the United States has successfully completed
highest annual increase ever. Record sales are expected in
                                                                      FTA negotiations with Peru, Colombia, Panama and
every major product category except cotton. Two-thirds of
                                                                      South Korea. These agreements now await ratification by
the overall export increase this year is because of more sales
                                                                      the Congress.
of grains and oilseeds with sales up an estimated $4.7
billion and $2.4 billion, respectively. Large exportable              Discussions on a FTA with Malaysia are ongoing.
supplies, tight markets and rising unit value raised corn             However, renewal of Trade Promotion Authority (TPA)
exports $2.5 billion, while soybeans rose $1.7 billion and            by the Congress will be required in order for that initiative,
wheat another $1.5 billion. Other developments unrelated              or any other future FTA initiative, to be brought to a
to tight grain and oilseed markets contributed to one of the          favorable conclusion.
largest increases of U.S. agricultural exports in history.
                                                                      USDA also continues to monitor the impact of earlier
                                                                      FTAs. One such agreement is the North American Free
                        Key Outcome                                   Trade Agreement (NAFTA), a comprehensive trade-
       Increased Access to Global Markets for U.S.                    liberalization regime between the United States, Canada
           Agricultural Producers and Exporters                       and Mexico, which will be fully implemented by January
                                                                      2008. Supported by NAFTA, U.S. agricultural exports to
                                                                      Canada and Mexico continue to expand at an accelerated
Horticultural exports jumped $1.1 billion to a record $17.8           rate, setting new records year after year. Canada remains
billion supported by a competitive dollar, strong foreign             the largest market with U.S. agricultural sales forecast at a
demand and higher prices for some products. Animal                    record $13.1 billion in FY 2007. Canada is a major market
product exports rose $900 million with gains for beef,                for U.S. fresh and processed fruits and vegetables, snack
pork, broiler meat, hides and dairy products. Beef exports            foods, wine and many other consumer-ready products.
to Asian markets rose, pork exports remain at record levels,          Mexico remains the 2nd largest market with FY 2007
and increased shipments and high global prices pushed                 exports forecast at a record $12.6 billion. Mexico’s demand
U.S. dairy exports to record highs.                                   for U.S. agricultural products continues to grow. Higher
                                                                      prices are leading to record U.S. coarse grains sales to
The World Trade Organization (WTO) is charged with
                                                                      Mexico and a large increase for soybeans this year. Mexico
administering trade rules among its 150 member countries
                                                                      is a large buyer of U.S. coarse grains, soybeans, cotton and
and customs areas. The goal of reaching an agreement on
                                                                      wheat, but higher-value consumer foods are increasingly
the outline of a new multilateral trade agreement by the
                                                                      important as well. U.S. meat exports have rapidly grown in
expiration of the United States’ Trade Promotion
                                                                      the past few years, and larger increases are expected this
Authority (TPA) on June 30 was not reached mainly due
                                                                      year for fresh vegetables, dairy products, poultry meat and
to disagreement among members on disciplines for non-
                                                                      sweeteners.
agricultural market access. Still, efforts to obtain
agreement are ongoing as USDA continues to work with                  Another example is a specific Morocco FTA issue in
the Office of the U.S. Trade Representative (USTR) to                 which aggressive monitoring of this agreement identified a
reach that goal. The USTR is the lead trade negotiator for            compliance issue with Morocco’s implementation of the
the U.S. Government.                                                  wheat tariff rate quota (TRQ). United States and


                                                                 48
                                            FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



Moroccan officials have had several bilateral discussions to         has become an important poultry and meat market. Sales
address issues of timeliness and transparency. Morocco’s             are rising for fresh fruit, processed fruits, vegetables, tree
administration of wheat TRQ has improved, facilitating               nuts and many other consumer foods. China’s trade
increased U.S. exports of wheat.                                     barriers are being reduced through its WTO membership,
                                                                     producing dividends which will continue for the next
United States agricultural exports to Japan are forecast at          several years.
$9.3 billion, making it the 3rd largest agricultural export
market. About 60 percent of sales to Japan consists of bulk          USDA works closely with the USTR and other
and intermediate commodities, mainly coarse grains,                  Government agencies to pursue new trade agreements. In
soybeans, wheat and animal feeds. Again, higher unit                 FY 2007, Vietnam gained membership to the WTO,
values result in large value gains for U.S. corn and                 following 11 years of negotiation. As part of the WTO
soybeans. The rest of the sales are high-value consumer-             negotiations, Vietnam signed a WTO bilateral trade
ready foods, mainly pork, fresh and processed fruits and             agreement with the United States. Additionally, while
vegetables, tree nuts and pet foods. Despite continued               Russia is still working toward multilateral consensus on its
import restrictions on beef due to fears involving a chronic         WTO accession, after nearly 15 years, the United States
central nervous system disease found in cattle, Bovine               and Russia concluded a bilateral agreement in connection
Spongiform Encephalopathy (BSE), U.S. beef exports                   with its pending accession. Furthermore, the United States
showed signs of recovery in 2007. During the first nine              continues to work on accession agreements with several
months of FY 2007 (October 2006 – June 2007), beef                   other countries.
shipments rose to 28,113 metric tons valued at $142
million.                                                             USDA and the USTR also work to enforce the provisions
                                                                     of existing agreements, providing U.S. exporters and
The European Union (EU) remains the fourth largest                   consumers with the full economic benefit of trade
market for U.S. agricultural products. Exports to the EU             agreements and rules. USDA also works to maintain
were $7.7 billion in FY 2007. The EU is an important                 effective government-to-government relationships that
market for soybeans, tobacco, animal feeds and live                  support open trade that will lead to increased export
animals. It is the largest market for tree nuts, and an              opportunities for U.S. farmers and agribusinesses. The
important market for other selected consumer foods and               Department’s industry partners promote trade and
beverages, most notably wine and fresh fruit. The                    outreach activities to educate producers, processors and
importance of the EU market for U.S. suppliers continues             exporters on emerging market opportunities as a result of
to decline with fewer opportunities in most categories due           trade agreements. To capitalize on trade opportunities,
to sanitary and phytosanitary (SPS) restrictions,                    USDA offers market intelligence, supply and demand
restrictions on biotech crops, and highly restrictive food           forecasts and sales-development assistance to enhance U.S.
laws that limit market access, domestic supports that keep           exporters’ success in the highly competitive global
production high and highly-competitive processed food                marketplace.
industries. (SPS refers to measures imposed by
governments to protect human, animal and plant health                Challenges for the Future
from foreign pests, diseases and contaminants.)                      USDA can increase export opportunities for the United
                                                                     States through a WTO agreement providing new rules for
U.S. agricultural exports to China, the fifth largest market,
are forecast at a record $7.6 billion in FY 2007. Exports to         agricultural trade as well as through other bilateral and
China have risen rapidly in the past few years because of            regional FTAs. New WTO rules would eliminate export
China’s strong economic growth and record U.S. soybean               subsidies, decrease trade-distorting domestic support and
and cotton sales. China is also the largest market for U.S.          reduce market-access barriers around the world.
animal hides. U.S. consumer food sales remain modest due             Agriculture is a central theme for this round of WTO
to very high tariffs and large foreign investment flows              negotiations and a sensitive issue for most developing
impacting domestic production capacity. However, China               countries. In these countries, the food and agriculture



                                                                49
                                           FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT



sector is the dominant economic driver. With numerous                                 yet ratified the Peru, Colombia, Panama and South Korea
successful FTAs in the Western Hemisphere, a new                                      FTAs. There were no large, unexpected threats addressed
agreement with Korea will open access to critical markets                             under Department monitoring and enforcement activities
in Asia. If TPA is reinstated, USDA will be able to engage                            except for those related to sanitary and phytosanitary (SPS)
in even more market-opening activities. TPA is designed                               barriers, which are accounted for separately under
                                                                                      Objective 1.3 in this report. The number of trade
to enable U.S. negotiators to lead the way in completing
                                                                                      maintenance issues and their potential impact on U.S.
major new trade agreements that advance the global
                                                                                      exports depends primarily on foreign governmental action.
interests of the United States, including agricultural                                Both the problems and the solutions are highly
interests. USDA will also continue to monitor the                                     unpredictable. Solutions can range from a quick agreement
implementation of existing agreements to preserve existing                            with officials at the port of entry to a long negotiation
trade and expand markets.                                                             process followed by a lengthy regulatory or legislative
                                                                                      process. The cost of an action can range from a few
      Selected Results in Research, Extension and Statistics                          thousand to billions of dollars.
   USDA Assists in Improving Russian Agricultural Statistics.                         USDA’s selection of this performance measure
   Through the U.S. Department of State’s Emerging Markets Program,                   demonstrates the critical role that the negotiation and
   USDA has been collaborating with the Russian State Statistics Service              enforcement of trade agreements play in expanding and
   (ROSSTAT) to improve that country’s agricultural statistics. The
                                                                                      maintaining export opportunities. As the U.S. continues to
   Department helped organize Russia’s 2006 agricultural census, the
   first since 1920. In recognition of this support, the ROSSTAT                      negotiate new bilateral, regional and multilateral trade
   presented gold medals to the Department’s International Programs                   agreements, the challenge will be to monitor and enforce
   Office staff for “Distinguished Service.” The medals were the first                compliance. Monitoring will ensure that U.S. agriculture
   presented to foreigners by the ROSSTAT.                                            receives full benefits from negotiated reductions in tariff
   China in 21st Century Agricultural Markets. China is one of the top                barriers.
   10 markets for U.S. agricultural exports and the world’s largest
   producer and exporter of many commodities. USDA continues to                       The exact value of new markets opened through trade
   investigate how policy and economic developments in China affect                   agreements is difficult to determine using traditional
   global agricultural markets. In one recent article entitled: “Food Safety          economic models. In a new market, there are little data to
   Improvements Underway in China,” Department analysts examined                      estimate consumer demand. Market development takes
   the growing concern by consumers, both domestically and
                                                                                      time and centers on consumer and wholesaler education to
   internationally, for safer food. The report discusses China’s initial steps
   to overhaul its food system to meet international food safety                      create a desire to purchase U.S. products, rather than those
   standards.                                                                         of competitors. Therefore, it is difficult for USDA to
                                                                                      estimate the impact of monitoring and enforcement
   Macroeconomic Linkages to Agriculture. The USDA publication
   “Weaker Dollar Strengthens US Agriculture,” reports that the                       efforts. Instead, the Department tracks only instances in
   depreciating U.S. dollar combined with strong economic growth in                   which there is a clearly defined and imminent threat,
   developing countries has increased the competitive advantage of U.S.               which is then acted upon.
   agriculture and stimulated foreign demand for U.S. agricultural
   products.                                                                          The figures in the accompanying exhibit reflect the
                                                                                      uncertainty of trade negotiations and disruptions. Next
                                                                                      steps include completion of the Doha Round of WTO
Analysis of Results                                                                   negotiations, various bilateral and regional free trade
USDA did not reach its performance goal of preserving                                 agreements and continued monitoring and enforcement of
$900 million of agricultural trade through trade agreement                            existing agreements that affect U.S. agriculture. (The
negotiation, monitoring and enforcement largely because                               Doha Round refers to multilateral negotiations to
not all successfully negotiated FTAs have been                                        liberalize trade conducted under the auspices of the
implemented. Costa Rica is scheduled to hold a                                        WTO.)
referendum on ratification and the U.S. Congress has not



                                                                                 50
                                                          FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT




Exhibit 16:   Increase U.S. Export Opportunities

                                                                                                                Fiscal Year 2007
                          Annual Performance Goals and Indicators                                    Target              Actual            Result
              1.1.1    Dollar value of agricultural trade preserved through trade                      $900               $670             Unmet
                       agreement negotiation, monitoring and enforcement (Non-SPS)
                       ($ Mil)



Exhibit 17:   Trends in Expanding and Retaining Market Access

                                                                                                        Fiscal Year 2007
                                        Trends                                   2003          2004           2005            2006           2007
              1.1.1    Dollar value of agricultural trade preserved             $2,713        $3,950           $800            $14            $670
                       through trade agreement negotiation,
                       monitoring and enforcement
                       ($ Mil) Baseline: 1999 = $2,567
              FYs 2003 - 2004 data is based on SPS and non-SPS related trade barriers. FY 2005, 2006 and 2007 data is based on non-SPS trade barriers.




                                                                                51
                                                        FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



OBJECTIVE 1.2: SUPPORT INTERNATIONAL ECONOMIC                        USDA currently administers two international food
DEVELOPMENT AND TRADE CAPACITY BUILDING                              assistance grant programs: the McGovern-Dole
                                                                     International Food for Education and Child Nutrition
Overview                                                             Program, and the Food for Progress program. Under the
The ultimate goal for supporting developing countries is to          McGovern-Dole program, the primary beneficiaries of
help them become economically stable and capable of                  USDA food assistance in developing countries are school
supporting their populations. USDA participates in this              children and their mothers. The program provides for the
effort by providing food assistance and trade and                    donation of U.S. agricultural commodities and associated
development programs. The Department supports these                  financial and technical assistance for pre-school and
programs along with other Federal agencies such as the               school-based feeding programs. McGovern-Dole also
U.S. Agency for International Development (USAID).                   authorizes the support of maternal, infant and child
USDA’s technical assistance and training play a vital role
                                                                     nutrition programs. Its purpose is to support a healthy
in helping developing countries meet their WTO
                                                                     young population necessary for a stable society and a
obligations, strengthen policy and regulatory frameworks
and avoid or eliminate unjustified trade barriers. Assistance        capable workforce. A healthy and literate workforce
in trade capacity building also supports market-                     attracts jobs, supports a sustainable economy and helps
infrastructure development. This development assistance              establish a secure food supply through domestic
includes market information, agricultural grades and                 production and imports.
standards and the cold-chain technology by which
                                                                     All private voluntary organizations that offer food aid
perishables are kept cold until they reach consumers. The
assistance also helps increase capacity to purchase U.S.             through McGovern-Dole conduct extensive operational
exports. In combination with food assistance that covers             and results surveys. USDA evaluates the results to
gaps in supplies and keeps the population healthy, USDA              determine the programs’ effectiveness. Additionally, semi-
deploys its unique resources and expertise in agricultural           annual reports share results and challenges.
development activities. These activities help advance
                                                                     The Food for Progress program provides for the donation
market-based policies and institutions, develop sustainable
agricultural systems and strengthen agricultural research            of U.S. agricultural commodities to developing countries
and education in developing countries. Assistance focuses            and emerging democracies committed to introducing and
on improving agricultural productivity and markets as the            expanding free enterprise in the agricultural sector. Priority
engines for economic growth. The Department also helps               is given to countries, with the greatest need for food, that
developing countries increase trade and integrate the                are making efforts to improve food security and
agricultural sector into the global economy through                  agricultural development, alleviate poverty and promote
regulatory reform. Other priorities include reducing                 broad-based, equitable and sustainable development.
hunger and malnutrition with sustainable, productivity-
enhancing technologies and supporting agricultural                   The 2002 National Security Strategy of the United States
reconstruction in post-conflict or disaster areas.                   recognizes that the root cause of foreign threats can be the
                                                                     lack of economic development, which often results in
                                                                     political instability. The National Security Strategy is
                       Key Outcome                                   prepared periodically by the President for Congress and
        Improved Ability in Developing Countries to                  outlines the major national security concerns of the U.S.,
        Sustain Economic Growth and Benefit from
                                                                     and how the administration plans to deal with them. For
                   International Trade
                                                                     most developing countries, a productive and sustainable
                                                                     agricultural sector bolsters economic well-being. Thus,
                                                                     agricultural development is crucial to the National Security




                                                                52
                                           FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



Strategy. In developing and transitioning economies,                 development of agricultural biotechnology, especially for
USDA focuses on:                                                     maize and cotton. The two activities involved over 50
   Eliminating trade and investment barriers to stimulate           leaders from 10 countries.
    economic growth;                                                 Another example is USDA assistance to Iraq through the
   Raising agricultural productivity in a sustainable               Iraq Agricultural Extension Revitalization Project (IAER)
    environment to boost food availability and improve               and provision of expert advisors to the Ministry of
    nutrition through scientific and technological                   Agriculture and Provincial Reconstruction Teams (PRTs).
    advancement;                                                     PRTs are units led by the U.S. Department of State with
   Institution building to strengthen sustainable                   military support, charged with fostering security and
    agriculture, market infrastructure and the development           stability, while facilitating economic reconstruction. The
    of market-information systems;                                   USDA advisors focus on rehabilitating agricultural
                                                                     infrastructure, both physical and institutional. More
   Working with international standard-setting bodies to
                                                                     USDA advisors have been recruited and are being cleared
    adopt science-based rules and policies; and
                                                                     for deployment. At the Iraqi Ministry of Agriculture in
   Providing food assistance to support social stability            Baghdad, advisors are working to strengthen agricultural
    and enhance economic development.                                strategy, food safety, soil science and agricultural extension
                                                                     and education. In addition, a consortium of land-grant
                                                                     universities, led by USDA, is further bolstering extension
                                                                     efforts by providing training and technical assistance to
                                                                     Iraqi universities under the IAER Project. Funding for the
                                                                     effort is provided by the U.S. Department of State.
                                                                     Under the U.S.-India Agricultural Knowledge Initiative
                                                                     (AKI) of 2005, USDA is helping to revitalize the strong
                                                                     partnership in agriculture born of the Green Revolution in
                                                                     the 1960s. Projects are focusing on human capacity
                                                                     building, biotechnology, food processing and marketing
                                                                     and water resources management. The AKI is also helping
                                                                     to build a sound policy and regulatory environment in
                                                                     India that promotes trade and investment while
Recent examples of the above actions include two                     reinvigorating U.S.-India agricultural-university
biotechnology technical assistance activities designed for           partnerships with new collaborative activities. A notable
farmers. The first workshop was conducted in the                     AKI accomplishment is support for approval of imported
Philippines where 20 farm leaders—representing the                   Indian mangos for the U.S. market by the Animal and
Philippines, Indonesia, Thailand, Vietnam, Malaysia and              Plant Health Inspection Service with benefits for the
China—held discussions on acceptance and market access               Indian economy and new opportunities for U.S.
for biotechnology crops and supported the organizational             agricultural products to be introduced into Indian markets.
sustainability of the Asian Farmers Regional Network.
The second was a farmer-to-farmer workshop conducted
in South Africa in which thirty agricultural officials and
seed-industry and farmer-organizations from Kenya,
Uganda, Tanzania and Mali participated. They discussed
practical options for promoting the acceptance and



                                                                53
                                           FY 2007 Performance and Accountability Report
                                                            ANNUAL PERFORMANCE REPORT



                                                                                    TCB is critical in addressing the many technical barriers
                                                                                    that impede access for U.S. agricultural products in global
      Selected Results in Research, Extension and Statistics                        markets. By helping countries develop transparent,
   Laying the Ground Work for Future International Development                      science-based regulations and increasing understanding of
   and Trade. Through a USDA International Science and Education                    the U.S. regulatory system, TCB can expand access for
   grant, 50 Cornell University students and 25 Indian students from                U.S. agricultural products. Likewise, this assistance enables
   several universities completed the course requirements for Agriculture
                                                                                    recipient countries to access other world markets.
   in Developing Nations in the field of International Agriculture and Rural
   Development. The grant is designed to increase cross-cultural
                                                                                    The U.S. is the world’s leader in food aid, providing more
   understanding and agribusiness networks between the U.S. and India.
   The course included a 20-day field study trip to sites in India. It              than half of total worldwide assistance to combat
   enabled the development of long-term collaboration among                         malnutrition. U.S. food-aid programs are a joint effort
   partnership institutions. Additionally, Indian students were able to             across several Federal departments. USDA works with
   apply for graduate studies in leading U.S. land grant universities.              USAID, private voluntary relief and development
                                                                                    organizations, American universities, Federal agencies and
Challenges for the Future                                                           the WFP to provide targeted food aid and assistance where
Hunger and malnutrition still impact much of the world.                             it is needed most. Economic development activities aimed
USDA works closely with the United Nations’ World                                   at market-capacity building for both domestic and
Food Program (WFP) and private voluntary relief and                                 international trade are supported through the provision of
development organizations. WFP offers food assistance to                            food assistance.
natural disaster victims, the displaced and the world’s
                                                                                    These activities combined with USDA technical assistance
hungry and poor.
                                                                                    and training foster stable societies, economic growth and
Trade-capacity building (TCB), or trade-related technical                           market-infrastructure development. Consequently,
assistance, helps strengthen developing countries’                                  recipient countries are able to boost domestic production
agricultural institutions and regulatory systems, encourages                        and, in turn, reduce their dependence on food aid. The
compliance with international norms and fosters the                                 activities aid recipient countries in building sound
adoption of U.S. approaches to agricultural policy and                              economic policies that support sustainable development
regulatory procedures. TCB also supports the President’s                            and participation in global agricultural trade.
national security strategy by assisting nations in developing
                                                                                    Analysis of Results
economic stability through free trade and open markets.
                                                                                    The food aid targeting effectiveness ratio is a long-term
A key USDA trade policy priority — a successful                                     measure which has been developed to gauge the
conclusion to the Doha Round — recognizes the                                       effectiveness of USDA food aid programs in improving
importance of trade to developing countries. TCB
                                                                                    food security in low income countries. The ratio measures
opportunities give developing countries an incentive to
                                                                                    how effective the targeting of USDA food aid programs is
participate in the Doha process. By helping countries
                                                                                    in addressing the food distribution gap in the most food
joining WTO understand and meet their new
commitments, TCB builds markets for the future by                                   insecure countries. The USDA Economic Research
fostering economic growth.                                                          Service calculates the ratio using its food security
                                                                                    assessment model which measures food security based on
The United States is concluding a growing number of                                 estimations of food gaps in 70 of the world’s poorest
FTAs with developing countries. In addition to promoting                            countries. Food gaps represent the difference between
market access, such agreements encourage economic                                   projected food availability and targeted food consumption.
growth and closer political ties with countries important to                        The performance goal for supporting improvements in
U.S. national security. Because of these linkages, technical
                                                                                    foreign trade policies was exceeded, with impacts in
assistance is an integral part of the negotiating package.
                                                                                    thirteen countries.



                                                                               54
                                                         FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



Under the DR-CAFTA, USDA trade capacity building                    by strengthening links with national plant protection
efforts have led to mutually beneficial accomplishments in          organizations, fostering increased regional collaboration,
Central America. Over the past year, notifications to the           supporting greater activity in international organizations
Sanitary and Phytosanitary Committee of the WTO                     and providing targeted technical training on phytosanitary
increased from zero to 16 in the Dominican Republic, and            issues. Four final rules have been published in the Federal
from four to 16 in Nicaragua. These notifications allow             Register, establishing the conditions for importation of
U.S. exporters to better understand regulatory changes              commodities—Zambian baby corn and baby carrots,
affecting their goods prior to shipment overseas. In                Kenyan peas and Namibian table grapes—into the United
addition, Costa Rica, El Salvador, Guatemala, Honduras              States, setting the stage for trade in fresh produce from
and Nicaragua partially harmonized their official                   Sub-Saharan Africa. Additionally, 36 PRAs (including
emergency response systems for all avian pathological               four regional PRAs), the precursors to import rules, are in
diseases to better coordinate regionally in the event of an         various stages of development. At this year’s AGOA
avian influenza outbreak, thus reducing the potential of            Forum, USDA committed to further streamline the
disease reaching the United States border. In addition,             regulatory process for PRAs.
Costa Rica, Dominican Republic, El Salvador, Guatemala,
                                                                    USDA technical assistance was also provided to Sub-
Honduras and Nicaragua committed to regionally
                                                                    Saharan African countries for understanding complexities
harmonize laboratory testing procedures as well as to
                                                                    of Codex Alimentarius, the international organization for
develop a regional reference laboratory system.
                                                                    setting food standards worldwide. Adoption of Codex
Harmonized laboratory testing procedures that are
                                                                    standards by U.S. trading partners provides regulatory
consistent with U.S. testing methodology across the DR-
                                                                    measures within legal parameters of WTO agreements.
CAFTA countries reduces the potential for U.S. exports to
                                                                    African countries have begun to participate more
be rejected.
                                                                    frequently in Codex meetings, but these meetings often
USDA hosted a workshop in El Salvador in November                   involve complex technical issues that have been under
2006 for Central American plant-health officials to gain            discussion for years, leaving novice delegates at a clear
knowledge of new USDA rules for mitigation of pests and             disadvantage. To address this gap, USDA hosted a
diseases related to the export of peppers and tomatoes to           technical assistance workshop in Mozambique, a seminar
the United States. Developing strategic relationships with          for African Codex contact points in Washington, D.C.
officials attending the workshop has improved USDA’s                and a colloquium on key Codex issues in Ghana. As a
ability to access information on phytosanitary conditions in        result, African delegates have a better understanding of the
Central America. Central American countries are also                issues that will be negotiated at upcoming Codex
benefiting from new market opportunities introduced in              Committee and Commission meetings. SSA delegates are
the workshop.                                                       also building coalitions both within the continent and with
                                                                    the United States and, in January 2007, created a regional
In support of the African Growth and Opportunity Act
                                                                    strategy for the Codex Committee for Africa to be
(AGOA) that significantly enhances U.S. market access
                                                                    implemented over the next five years.
for 38 Sub-Saharan African (SSA) countries, USDA’s Pest
Risk Assessment (PRA) project with USAID has trained                USDA is helping Egypt develop its regulatory framework
over 200 persons from 35 countries in SSA on a wide                 for agricultural biotechnology. These efforts include an
variety of issues related to phytosanitary protocols. When          environmental risk assessment workshop for ministry
the project began in 2003, PRAs had been submitted to               officials and the National Biosafety Committee and
USDA for only two products from Sub-Saharan Africa.                 ongoing expert consultations to the Ministry of
Since then, USDA’s efforts have improved overall                    Agriculture in developing an authorization system for field
phytosanitary capabilities throughout Sub-Saharan Africa            trials for commercialization of genetically modified crops.


                                                               55
                                          FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT



As a result, this year Egypt has—for the first time—                                       Protection Center (IPPC). This will help Serbia to meet
approved permits for field trials for several agricultural                                 reporting requirements established by the IPPC and the
biotechnology products.                                                                    European and Mediterranean Plant Protection
                                                                                           Organization (EPPO) for international agricultural trade.
Following USDA assistance in achieving greater
                                                                                           Moreover, it will help to facilitate expansion of trade
consistency and transparency in international standards,
                                                                                           between Serbia and the United States.
Armenia passed a new food safety law in January 2007 that
incorporates science-based processes and international                                     The Department of Agriculture of the Philippines (DA)
standards established by Codex Alimentarius. This new                                      used USDA training to develop food safety regulations
law will also help facilitate U.S. exports to that country.                                that mirror those of the United States, improve the
                                                                                           consultative process during the development of food
USDA has provided training for personnel from the
                                                                                           policies and regulations and formulate more WTO-
Serbian Ministry of Agriculture extension service and from
                                                                                           consistent food regulations regarding quarantine,
universities in pest management, including identification,
                                                                                           inspection and customs clearance. The positive working
diagnosis, risk assessment, risk management, monitoring
                                                                                           relationship between the DA and USDA has helped
and international standards. As a follow-up, in May 2007
                                                                                           resolve key market access issues, such as maintaining the
staff from USDA’s Center for Integrated Pest
                                                                                           market in the Philippines for U.S. beef and lifting the
Management installed and provided training in Serbia on
                                                                                           temporary ban on U.S. beef offal.
basic software modules that USDA’s Animal and Plant
Health Inspection Service uses to meet U.S. phytosanitary
requirements and those of the International Plant
Exhibit 18:   Support Foreign Food Assistance


                                                                                                               Fiscal Year 2007
                          Annual Performance Goals and Indicators                                     Target         Actual       Result
                                                                                                       45%            45%           Met
               1.2.1    Food Aid Targeting Effectiveness ratio

               Note: This is a new measure; thus, trend information is unavailable.



Exhibit 19:   Support Foreign Food Assistance


                                                                                                               Fiscal Year 2007
                          Annual Performance Goals and Indicators                                     Target         Actual       Result
               1.2.2    Number of countries in which substantive improvements have                      7              13           Met
                        been made in national trade policy and regulatory frameworks
                        that increase market access
               Note: This is a new measure; thus, trend information is unavailable.




                                                                                      56
                                                          FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



OBJECTIVE 1.3: IMPROVED SANITARY AND PHYTOSANITARY                   more than 800 annual notifications of intent to alter or
(SPS) SYSTEM TO FACILITATE AGRICULTURAL TRADE                        create import requirements related to food safety or plant
                                                                     and animal health. USDA maintains the official U.S.
Overview                                                             Enquiry Point and Notification Authority to track and
Sanitary and Phytosanitary (SPS) measures are those                  respond to these notifications. The Department reacts
imposed by governments to protect human, animal and                  aggressively to restrictive measures. USDA maintains a
plant health from pests, diseases and contaminants. These            monitoring system that allows it to address problems
measures often hinder trade, intentionally or                        quickly.
unintentionally, reasonably or unreasonably. USDA
agencies work with other Federal agencies to address and
mitigate SPS measures imposed by foreign governments.

                        Key Outcome
           An Improved Global SPS System for
              Facilitating Agricultural Trade


The negative impact of some SPS measures is growing due
to increasing trade in food and agricultural products. This
is apparent in the growth of trade in consumer-ready
products such as meats, fruits, vegetables and processed
foods. The problem is compounded by the emergence of
threats like BSE, poor regulatory infrastructure in many             While some of the issues are difficult to resolve, USDA
developing countries and political pressures that cause              can pursue long-term solutions. BSE is a good example. In
foreign governments to implement stricter-than-needed                FY 2007, USDA submitted documentation on BSE risk
SPS measures.                                                        factors and BSE risk mitigation measures to the World
                                                                     Organization for Animal Health (OIE) and received a
In response, USDA works closely with other Federal                   formal “Controlled Risk” categorization that will provide
agencies to strengthen regulatory coordination, address              additional scientific rationale to our efforts to expand
SPS measures and other technical barriers to trade and               market access in key markets already open to U.S. beef
encourage trading partners to use sound science and risk             exports (such Japan, Korea, Taiwan and Mexico) and to
management principles in regulatory decision making.                 reopen those markets (such as China and Russia) that have
USDA leads Federal efforts to monitor adherence to the               been closed to U.S. beef since the initial case of BSE was
SPS Agreement of the WTO and helps lead enforcement                  detected in December 2003. The Department also strives
of the agreement. USDA also works through international              to hold countries accountable for complying with their
organizations to develop stronger science-based standards            trade agreements. This will continue to be a top priority
to facilitate trade. Additionally, USDA conducts                     for USDA as it seeks to reopen markets for U.S. beef.
regulatory capacity-building activities with selected trading
partners. These activities protect the life and health of
humans, animals and plants around the world. They also
facilitate trade through efficient regulation.
USDA has several tools to help monitor international
regulatory activities. For example, WTO members submit



                                                                57
                                           FY 2007 Performance and Accountability Report
                                                         ANNUAL PERFORMANCE REPORT



                                                                                 They also help support U.S.-based technical experts who
                                                                                 develop science-based protocols and health certification
      Selected Results in Research, Extension and Statistics                     procedures for exporting food and agricultural products.
   Food Safety Improvements Underway in China. With the expansion
   in food imports, there are growing concerns about food safety                 Analysis of Results
   practices in countries that export to the U.S. For example, there is a        USDA met its performance goal of preserving $2.2 billion
   gap between Chinese and international food safety standards. A
                                                                                 of trade in 2007 through USDA staff interventions leading
   November 2006 article in Amber Waves, a newsletter produced by the
   Economic Research Service, reviews the challenges for Chinese food            to resolutions of issues created by SPS barriers or TBT
   safety and Government programs to improve standards. Only a small             measures. This was accomplished through monitoring and
   portion of Chinese production meets the new Government standards              compliance enforcement, overseas advocacy and
   for safer food.                                                               negotiations of technical protocols. The two most
                                                                                 important successes were regaining commercially viable
                                                                                 access to the Korea market for U.S. beef and lifting a
Challenges for the Future                                                        detaining order Mexico placed on imports of U.S. rice not
                                                                                 accompanied by a “GMO-free” certificate.
Given the increasing global flow of food and agricultural
products, the ability of foreign countries to develop and                        Trade issues and their impact on U.S. exports depend
implement sound, science-based regulatory systems is vital                       primarily on foreign action, sometimes in response to
to the long-term safety of U.S. agriculture and our food                         events in the U.S., such as a livestock disease outbreak.
supply. U.S. agriculture benefits greatly from the                               Both the problems and the solutions are unpredictable.
development of regulatory frameworks in other countries.                         Solutions can range from a quick agreement with officials
These frameworks can address technical trade barriers and                        at the port of entry to a long negotiation process followed
SPS measures in a transparent and scientifically based                           by a lengthy regulatory or legislative process in the country
manner. Besides monitoring and enforcing its rights under                        in question. The impact of an action can range from a few
the WTO SPS agreement, USDA is working to support                                thousand dollars to billions of dollars. While USDA can
the development and adoption of science-based                                    establish priorities in advance for known constraints,
international standards and SPS regulatory systems. These                        unforeseen events will occur that require realigning
efforts are critical to the Department’s ability to bring                        priorities.
developing countries into the global trading system so that
they support further liberalization through multilateral                         USDA’s selection of this performance measure
trade negotiations.                                                              demonstrates the growing importance of addressing SPS
                                                                                 barriers to maintain or expand trade. As the U.S.
USDA works closely with the USTR and other                                       Government continues to negotiate new bilateral, regional
Government agencies to pursue and enforce trade                                  and multilateral trade agreements, the challenge will be to
agreements. These agreements include provisions to ensure                        monitor and enforce compliance with both trade and
that technical regulations and measures designed to                              technical commitments. This monitoring will ensure that
enhance food safety and protect plant and animal health do                       U.S. agriculture receives full benefits from negotiated
not become barriers to trade. USDA staff in more than 90                         reductions in tariff rates by preventing needless SPS trade
countries helps open, retain and expand international                            barriers.
markets for U.S. food and agricultural products. This staff
includes veterinarians, economists, marketing experts,                           The figures reflect the uncertainty of trade disruptions.
plant pathologists and others. While this group represents                       Just weeks after Japan resumed imports of beef in
USDA overseas as its key supplier of market intelligence, it                     December 2005, it re-imposed the ban after finding beef
also helps solve minor trade threats before they become                          that violated the recently agreed-upon technical protocol.
substantial disruptions. Staff members do this by being                          After U.S. negotiations and inspection of processing
able to speak knowledgeably with foreign decision makers.                        facilities, the Japanese market reopened in June 2006.




                                                                            58
                                                      FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT



Exhibit 20:   Increase U.S. Export Opportunities


                                                                                                                  Fiscal Year 2007
                           Annual Performance Goals and Indicators                                     Target             Actual            Result
               1.3.1      Value of trade preserved annually through USDA staff                          $2.2               $2.457          Exceeded
                          interventions leading to resolutions of barriers created by SPS
                          or TBT measures. ($ Bil)



Exhibit 21:   Trends in Expanding and Retaining Market Access


                                                                                                        Fiscal Year 20071
                                          Trends                                2003           2004             2005          2006            2007
               1.3.1       Value of trade preserved annually through            $2,713        $3,950           $2,000        $2,600          $2,457
                           USDA staff interventions leading to
                           resolutions of barriers created by SPS or
                           TBT measures. ($ Mil) Baseline: 1999 =
                           $2,567
               1
                   FYs 2003 - 2004 data is based on SPS and non-SPS related trade barriers. FY 2005, 2006 and 2007 data is based on SPS trade barriers.


                                                                                       procurement of biobased products that fall under items
Strategic Goal 2: Enhance the Competitiveness and
                                                                                       (generic groupings of products) designated by rulemaking.
Sustainability of Rural and Farm Economies
Rural America is of critical importance to the Nation’s
                                                                                                                        Key Outcome
prosperity and technological advancement. USDA
                                                                                               Increased use of biobased products throughout
enhances the competitiveness and sustainability of rural
                                                                                                           the agricultural sector
and farm economies by expanding domestic market
opportunities, increasing the efficiency of domestic
agricultural production and marketing systems and                                      In October 2006, FB4P was renamed as “BioPreferred.”
providing risk management and financial tools to farmers                               The funding level for FY 2007 is $1 million in mandated
and ranchers.                                                                          Commodity Credit Corporation funds and $1.5 million in
OBJECTIVE 2.1: EXPAND DOMESTIC MARKET OPPORTUNITIES                                    appropriated funding. The Office of Energy Policy and
                                                                                       New Uses (OEPNU) implements it through successive
Overview                                                                               rulemakings. Creating a demand for biobased products
Biobased products are commercial or industrial products                                supports the farm and rural sectors by expanding and
(other than food or feed) composed mainly of biological                                stabilizing the demand for agricultural commodities. To
products such as renewable agricultural materials (plant,                              designate by rulemaking, USDA must provide information
animal and marine materials) or forestry materials. Using                              on the product’s environmental and health effects, and life-
biobased products lessens national dependence on foreign                               cycle costs. The Department also can set a minimum
oil. It also promotes economic development by creating                                 biobased content for the item. USDA identifies products
new jobs in rural communities and providing new markets                                and manufacturers and must gain their voluntary support
for farm commodities. Section 9002 of the Farm Security                                in providing test information on those products to enable
and Rural Investment Act of 2002 (FSRIA) authorized the                                designation. Also under BioPreferred, OEPNU expects to
Federal Biobased Products Preferred Procurement                                        publish a proposed rule regarding a voluntary labeling
Program (FB4P). FB4P authorizes the preferred                                          program. Under the program, manufacturers of qualifying




                                                                                  59
                                                          FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



products will be permitted to carry the USDA Certified                    metalworking fluids, sorbents, and graffiti and grease
Biobased Product label and logo.                                          removers;

Congress created BioPreferred to achieve the following                   Round 3 — 2-Cycle engine oils, lip care products,
objectives:                                                               nondurable films, stationary equipment hydraulic
                                                                          fluids, disposable cutlery, glass cleaners, food grade
   Spur demand growth for new biobased products;
                                                                          greases, multipurpose greases, rail track greases, truck
   Increase domestic demand for agricultural                             greases, greases not classified elsewhere, dust
    commodities;                                                          suppressants, carpets, and carpet and upholstery
   Encourage the development of processing and                           cleaners; and
    manufacturing in rural communities;                                  Round 4 — Bathroom and spa cleaners, clothing
   Capture environmental benefits; and                                   products, concrete and asphalt release fluids, general
                                                                          purpose de-icers, durable films, general purpose
   Enhance the Nation’s energy security.
                                                                          firearm lubricants, cold weather firearm lubricants,
FSRIA calls for Federal agencies to purchase biobased                     floor strippers, pretreatment/spot removers, laundry
products over their petroleum-based counterparts, as long                 products, metalworking fluids—straight oils, and wood
as the biobased materials are reasonably available and                    and concrete sealers.
priced, and comparable in performance. As the country’s
                                                                      Technical information to support each proposed rule is
single largest consumer, purchasing roughly $400 billion
                                                                      available at the BioPreferred Web site at
annually in goods and service, the Federal Government’s
                                                                      www.biobased.oce.usda.gov.
preferred use of biobased resources will help achieve the
above stated objectives.                                              The proposed rules for rounds 2, 3, and 4 are part of a
                                                                      series of rules that will be issued designating biobased
A series of rules to designate items for preferred
                                                                      items. USDA has identified about 170 items for which it is
procurement have been published. Manufacturers of
                                                                      collecting test data needed for the additional designations
products falling under those items have posted product and
                                                                      of items. These designations will extend preferred
contact information on a BioPreferred electronic catalog
                                                                      procurement status to include all qualifying biobased
for qualifying products under designated items.
                                                                      products.
The first final rule (round 1), was published on March 16,
                                                                      Previously, USDA had developed a model procurement
2006. Three more proposed rules (rounds 2, 3 and 4) were
                                                                      program of training and education to help Federal
subsequently published in the Federal Register. Once
                                                                      procurement officials and biobased product users identify
finalized these rules will add 30 designated items. The
                                                                      and purchase the qualifying materials. Information on the
items by round include:
                                                                      guidelines and the model program are available at
   Round 1 — mobile equipment hydraulic fluids,                      http://www.usda.gov/biobased.
    biobased roof coatings, water-tank coatings, diesel fuel
    additives, penetrating lubricants, bedding, bed linens            The benefits of this BioPreferred are broad. Some accrue
    and towels;                                                       directly to the private sector through the program’s
                                                                      operation. Others may accrue indirectly via the public
   Round 2 — Adhesive and mastic removers, plastic
                                                                      sector.
    insulating foam for residential and commercial
    construction, hand cleaners and sanitizers, composite             For Federal agencies, the BioPreferred program
    panels, fluid-filled transformers, disposable containers,         encourages the purchase of more environmentally
    fertilizers, soluble, semi-synthetic, and synthetic               sustainable products. It also helps agencies identify those



                                                                 60
                                            FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



products, increases the availability and diversity of                     the material and data necessary to test and evaluate the
biobased products and helps agencies reduce                               biobased content, environmental attributes and life-
environmental footprint.                                                  cycle costs required for the Department to designate
                                                                          generic groupings of products for preferred
For manufacturers and vendors, the BioPreferred program                   procurement within the program; and
creates a preferred market for biobased products, provides               The willingness of manufacturers and vendors of
large-scale demonstration of biobased products’                           biobased products designated by rulemaking for
performance in use, spurs development of new biobased                     preferred procurement within the program to
products and develops alternatives to fossil energy based                 cooperate with USDA in publicizing their availability.
products.
                                                                      This can be done by vendors voluntarily posting product
Collectively, the benefits from BioPreferred create an                and contact information on the program Web site at
information database that both the private and public                 www.biobased.oce.usda.gov. This will allow Federal
sectors can use to evaluate designated items to make an               agencies to find biobased products for procurement.
informed purchasing/procurement decision. This                        In response to these challenges, USDA is creating
information also helps reduce the dependence on                       regulations and operating procedures for the Bioenergy
petroleum-based products and reduce environmental                     Program and the BioPreferred program. The Department
impacts. BioPreferred increases the demand for processing             is continuing to shape a model procurement program for
facilities in rural areas. It also boosts the demand for              Federal agencies to help them meet their responsibilities
biomass material from agricultural, marine and forest                 within the program’s parameters. This model will educate
sources.                                                              and train Federal agencies about procurement and how to
                                                                      use related informational resources. It will also allow
Challenges for the Future                                             manufacturers and vendors to identify and evaluate
USDA is looking for ways to develop an infrastructure to              biobased products available in the marketplace for their
support the efficient and economically viable development             use. This model procurement program will make an
of biobased products. Other challenges include:                       important contribution toward creating market-based
                                                                      opportunities to produce and consume increased amounts
   Informing rural America about the benefits of                     of biobased products.
    biodiesel fuel use and helping farmers transition to a
    new style of operating;                                           Analysis of Results
   Developing public policies supporting biobased                    Rules are being issued designating multiple biobased items
    products;                                                         that will receive a preference in Federal procurements; they
   The need for public education about the                           were not published on schedule and the goal is unmet. The
    environmental, performance and energy-security                    rulemaking process took longer than expected.
    benefits of using biobased products, and managing the             The BioPreferred program is expected to significantly
    carbon cycle more effectively;                                    increase the use of biobased products within the Federal
   The development and evaluation of measures that                   Government. This increased usage, in turn, will encourage
    identify and assess the benefits of the increased usage           the production of biobased products for that market. The
    of biobased products, including benefits internal to the          program calls for Federal agencies to give preference to
    seller and user of the products, and external benefits            designated biobased products in Government purchases
    that affect society and the environment;                          within one year of publication of the final rule.
   The willingness of manufacturers and vendors of
    biobased products, working with USDA, to provide




                                                                 61
                                            FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT



Exhibit 22:   Increase the Use of Biobased Products


                                                                                                                  Fiscal Year 2007
                          Annual Performance Goals and Indicators                                  Target               Actual        Result
                                                                                                   Publish 16         Published 6     Unmet
               2.1.1    Increase the number of products designated under the
                                                                                                 items in Final      items in Final
                        BioPreferred Program
                                                                                                     Rule                Rule
               Note: This measure changes annually; thus, trend information is not available.




OBJECTIVE 2.2: INCREASE THE EFFICIENCY OF DOMESTIC                                      information. USDA then analyzes, compiles and
AGRICULTURAL PRODUCTION AND MARKETING SYSTEMS                                           disseminates the information immediately to all interested
                                                                                        parties.
Overview
                                                                                        Market News provides agricultural producers access to the
                                                                                        necessary information for determining contract values,
                               Key Outcome                                              dispute resolution and reporting under trade agreements.
       Agricultural Producers Who Compete Effectively                                   Market News reports are used in judicial proceedings and
                    in the Economic Market                                              when the International Trade Commission is considering
                                                                                        dumping allegations with respect to agricultural
USDA improves market competitiveness and increases the                                  commodities and products entering the country. U.S.
efficiency of agricultural marketing systems. For example,                              Customs and Border Protection use USDA price data to
the Department provided greatly enhanced access to                                      assess the value of imports. Agricultural commodity and
marketing information for producers and marketers of                                    product contracts are routinely linked to prices reported by
farm products, and those in related industries, by initiating                           Market News. The Market News portal provides a Web-
the Market News portal. The portal provides electronic                                  based search engine that allows users to find market
access and custom report capability on current market data                              information and tailor reports by commodity, variety,
for fruits and vegetables, livestock and grain. Additional                              shipping point and destination market.
reporting capabilities also have been added for ethanol
                                                                                        USDA worked closely with the rapidly expanding organic
prices and agricultural energy updates. The portal is being
                                                                                        agriculture industry to refine the definitions and
modified to provide organic price reporting information.
                                                                                        requirements for organic production and labeling. USDA’s
Market News is the only nationwide mechanism for
                                                                                        National Organic Program participated in an industry
gathering and publishing price data on specific agricultural
                                                                                        meeting to discuss the services available to U.S. farmers
commodities. This timely, accurate and unbiased market
                                                                                        and agricultural processors. The Department plans to
information covers local, regional, national and
                                                                                        enhance and expand the use of production and handling
international markets. The information is designed to help
                                                                                        standards for certified organic products.
traders of U.S. agricultural products decide where and
when to sell, and at what price. USDA also distributes                                  The Organic Foods Production Act of 1990 created the
Market News which reports current data on supply,                                       National Organic Program. It is designed to establish
movement, contractual agreements, inventories and prices                                national standards governing the marketing of agricultural
for many agricultural commodities. It does this by                                      products as organically produced. These standards assure
collecting, analyzing and disseminating market                                          consumers that organically produced products meet a
information for numerous agricultural commodities.                                      consistent standard. They also facilitate commerce in fresh
Electronic access and e-mail subscriptions for all                                      and processed food that is produced organically. Before the
commodities are available at http://marketnews.usda.gov/.                               program’s creation, individual States established their own
Federal and cooperating State reporters obtain market                                   organic production and labeling requirements. The


                                                                                   62
                                                          FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



nationwide program provides a more efficient and
competitive system for the marketing of organic
agricultural products within the U.S. and for exports.                   Selected Results in Research, Extension and Statistics
                                                                      Increasing the Nutritional Value of Wheat. USDA-supported
USDA continued its Farmers Market Promotion Program,                  researchers cloned a gene, GPC-B1, from wild wheat. The gene
revised the Farmers Market Resource Guide, maintained a               increases the protein, zinc and iron content in the grain. This finding
close working relationship with the Farmers Market                    offers a potential solution to nutritional deficiencies affecting hundreds
                                                                      of millions of children around the world. The researchers found that all
Consortium, updated the Web site on Farmers Market                    commercial pasta and bread wheat varieties analyzed so far have a
resources and participated in the Farmers Market                      nonfunctional copy of the GPC gene. This suggests that the gene was
Coalition. More information on all of these activities is             lost during wheat domestication. Reintroducing the functional gene
                                                                      into commercial wheat varieties could increase their nutritional value.
available at http://www.ams.usda.gov/farmersmarkets/.
The program’s marketing experts provide technical advice              Protecting the Honeybee. A microarray, a device that can measure
                                                                      thousands of genes simultaneously, was developed and distributed by
and assistance to States and municipalities interested in
                                                                      USDA-supported researchers. The device, among myriad other uses,
creating or upgrading wholesale market facilities, auction            will allow scientists to study honeybee genes. American Foul Brood
and collection markets and retail farmers markets. They               (AFB), a disease caused by bacteria, attacks bee larvae and can kill
also conduct feasibility studies in cooperation with the              entire honeybee colonies. The microarray lets researchers look at how
                                                                      AFB is affecting the bee, what genes are involved in the process and,
private sector, not-for-profit organizations and other                more importantly, determine an appropriate immune response to
Government agencies to evaluate and suggest efficient                 promote honey bee health. The microarray is also a potentially
ways to handle and market agricultural commodities.                   powerful tool for research into the Collapsing Colony Disorder (CCD)
USDA researches marketplace changes to assist States,                 of honeybees. CCD threatens pollination, honey production and the
                                                                      production of crops dependent on bees for pollination. Without
localities, market managers/operators and growers in                  pollination, most plant fruits will not develop.
making strategic decisions for future business
                                                                      Ethanol Co-Products Used for Livestock Feed. Important co-
development.                                                          products result when corn is converted to ethanol. The co-products,
                                                                      also called distillers grains (DDG) or corn gluten feed, can be fed to
The program facilitates distribution of U.S. agricultural             livestock. USDA and the Nebraska Corn Development, Utilization and
products, identifies marketing opportunities, provides                Marketing Board conducted a 12-State study to determine the extent
analysis to help take advantage of those opportunities and            to which co-products are used by livestock operations and to identify
develops and evaluates solutions. Marketing solutions                 concerns and barriers which prevent operations from using co-
include improving farmers markets and other direct-to-                products. The survey, the most extensive of its kind, should provide a
                                                                      good baseline for tracking ethanol co-product feeding trends in the
consumer marketing activities, researching and developing
                                                                      future.
marketing channels, providing information and education,
encouraging the adoption of improved post-harvest                     The First Decade of Genetically Engineered Crop in the United
                                                                      States. Ten years after the first generation of genetically engineered
technology and designing market facilities. The program
                                                                      (GE) varieties became available commercially, their adoption by U.S.
benefits agricultural producers by providing solutions to             farmers is widespread. Despite the benefits to farmers, such as higher
marketing problems so that they can remain financially                yields, time-management savings and lower pesticide costs,
viable. Consumers benefit from increased availability and             environmental and consumer concerns may have limited acceptance
alternative, cost-efficient sources.                                  of GE crops, particularly in Europe. The USDA report, The First
                                                                      Decade of Genetically Engineered Crop in the United States, focuses
USDA also provided assistance, both directly to farmers               on GE crops and their domestic adoption during the past decade. The
and through local and State organizations, to help small              report found that (1) the pace of research and development by
                                                                      producers of GE seed has been rapid, (2) farmers have adopted some
farmers in marketing their products. Areas of support
                                                                      GE varieties widely and rapidly, and benefited from such adoption, and
focused on training, the development of good agricultural             (3) the level of consumer concerns about foods that contain GE
practices, market research and crop diversification.                  ingredients varies by country, with European consumers being most
                                                                      concerned.




                                                               63
                                          FY 2007 Performance and Accountability Report
                                                       ANNUAL PERFORMANCE REPORT



In addition, the Agricultural Statistics Board (ASB)                            Analysis of Results
prepares and issues official national and State forecasts and                   USDA strives to release its ASB reports on time 100
estimates relating to crop production, stocks of agricultural                   percent of the time each year. It is imperative to deliver
commodities, livestock products, dairy products, poultry                        high-quality, objective, relevant, timely and accurate
products, agricultural prices, agricultural wage rates,                         statistics to producers and other data users. Such statistics
chemical usage and other related subjects. The calendar                         allow users to make sound decisions. Official agricultural
lists release dates and specified times for USDA’s national                     statistics promote a level playing field in production
agricultural statistics reports. These reports cover more                       agriculture with impartial information available to all at a
than 120 crops and 45 livestock items. All of the                               publicized time. These data, provided throughout the year,
agricultural statistics reports scheduled by ASB were                           are important to the commodity and agricultural markets.
released on-time to achieve the 100 percent performance                         They help provide a fair and equitable environment. The
target in FY 2007.                                                              data are also used by public officials to make informed
                                                                                decisions. USDA policymakers and Congress use this
                                                                                information to help build a strong, sustainable U.S. farm
                                                                                economy.
Exhibit 23:   Agricultural Statistics Reports Released On-Time


                                                                                                           Fiscal Year 2006
                        Annual Performance Goals and Indicators                                 Target             Actual        Result
               2.2.1   Agricultural Statistics Board reports are released on time 100       Agricultural         Agricultural     Met
                       percent of the time                                                Statistics Board        Statistics
                                                                                             reports are        Board reports
                                                                                            released on         were released
                                                                                              time 100           on time 100
                                                                                           percent of the       percent of the
                                                                                                 time                time




Exhibit 24:   Trends in Agricultural Statistics Reports Released On-Time


                                                                                                 Fiscal Year 2007
                                     Trends                              2003           2004             2005         2006       2007
               2.2.1   Agricultural Statistics Board reports are        100.0%          99.2%          99.8%         100.0%      100.0%
                       released on time 100 percent of the time




Exhibit 25:   Percent of Market-Identified Quality Attributes for which USDA Has Provided Standardization


                                                                                                           Fiscal Year 2007
                        Annual Performance Goals and Indicators                                 Target             Actual        Result
               2.2.2   Percent of market-identified quality attributes for which USDA            97%                97%           Met
                       has provided standardization (percent)




                                                                           64
                                                    FY 2007 Performance and Accountability Report
                                                    ANNUAL PERFORMANCE REPORT



Exhibit 26:   Trends in Market-Identified Quality Attributes for which AMS/GIPSA Has Provided Standardization


                                                                                         Fiscal Year 2007
                                    Trends                           2003         2004            2005      2006      2007
               2.2.2   Percent of market-identified quality           96%         96%             96%       97%       97%
                       attributes for which USDA has provided
                       standardization (percent)



Overview                                                                    reviews the financial records of these entities to promote
USDA facilitates the marketing of agricultural products in                  the financial integrity of the livestock, meat, and poultry
domestic and international markets, while ensuring fair                     industries.
trading practices and promoting a competitive and efficient                 Analysis of Results
marketplace, to the benefit of producers, traders, and
                                                                            USDA accomplished its goal for FY 2007 partly by
consumers of U.S. food and fiber products. Programs
                                                                            developing two additional quality attribute standards.
promote a strategic marketing perspective that adapts
                                                                            These standards were grades of peppers (other than sweet
product and marketing decisions to consumer demands,
                                                                            peppers) and a revised standard for turkey meat.
changing domestic and international marketing practices,
and new technology.                                                         At a meeting of the Fruit and Vegetable Industry Advisory
                                                                            Committee, USDA was asked to identify fresh fruit and
                           Key Outcome                                      vegetables that may be better served if grade standards
                                                                            were developed. USDA identified pepper varieties that
                Economically Sound Agricultural
                     Production Sector                                      could not be certified to a U.S. grade as possibly in need of
                                                                            official grade standards, because they were not included in
                                                                            the current United States Standards for Grades of Sweet
A variety of programs enhance the marketing and                             Peppers. Such standards are used by the fresh produce
distribution of agricultural products. Activities include the               industry to describe the product they are trading, thus
dissemination of market information; surveillance of egg                    facilitating the marketing of the product.
handling operations; development of commodity grade
                                                                            Prior to undertaking research and other work associated to
standards; protection of producers from unfair marketing
                                                                            develop the standards, USDA published a notice in the
practices; statistical sampling of commodities for pesticide
                                                                            Federal Register soliciting comments on the possible
residues; development of organic standards; research and
                                                                            development of United States Standards for Grades of
technical assistance aimed at improving efficiency of food
                                                                            Peppers (Other Than Sweet Peppers). In response to the
marketing and distribution; and pesticide recordkeeping.
                                                                            request for comments, USDA received two comments; one
USDA also establishes the official U.S. standards for grain,                comment was from an industry group, and another one
conducts official weighing and grain inspection activities,                 was from a pepper shipper. Both comments were in
and grades rice, dry beans and peas, processed grain                        support of developing the standards.
products, and hops. USDA regulates and monitors the
                                                                            The adoption of the U.S. grade standards will provide the
activities of dealers, market agencies, stockyard owners,
                                                                            pepper (other than sweet peppers) industry with U.S.
live poultry dealers, packer buyers, packers, and swine
                                                                            grade standards similar to those extensively in use by the
contractors in order to detect prohibited unfair, unjust
                                                                            fresh produce industry to assist in the orderly marketing of
discriminatory or deceptive, and anti-competitive practices
                                                                            other commodities. Accordingly, USDA adopted the
in the livestock, meat and poultry industries. USDA also



                                                                       65
                                                  FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



United States Standards for Grades of Peppers (Other               OBJECTIVE 2.3: PROVIDE RISK MANAGEMENT AND
Than Sweet Peppers). The effective date of the standard            FINANCIAL TOOLS TO FARMERS AND RANCHERS
was March 7, 2007.
                                                                   USDA is committed to enhancing the competitiveness of
In April 2007, the United Nations Economic Commission              the American agricultural economy. Farmers and ranchers
for Europe (UNECE) adopted the revised standard for                must have timely and accurate information to stay ahead in
turkey meat developed by USDA’s poultry programs. For              an increasingly global market and reduce the risks inherent
the past several years, a USDA official has chaired the            in agriculture. USDA provides the risk-management and
Specialized Section in the process of revising the poultry         financial tools needed to minimize losses and maximize the
standards of the UNECE. From 2004 through 2007,                    efficiencies of agricultural operations. Vital to the
USDA led the standard through the process of gaining               economic well-being of farmers and ranchers is their
consensus from UNECE delegates to adoption by the                  ability to increase production, maintain their farms and
Working Party on Agricultural Quality Standards, the               equipment and lessen risks in the production process.
official standards body of UNECE.
                                                                   Agricultural producers often face economic losses due to
The purpose of the turkey meat standard is to facilitate           causes beyond their control, such as low prices and reduced
global trade by providing an international language for use        yields due to drought, excessive moisture, insects and other
between buyers and sellers. The language describes turkey          natural disasters. Production agriculture is characterized by
meat items commonly traded in international commerce,              small profit margins and ever-changing cycles of good and
and it defines a coding system for each item that supports         bad yields. USDA provides and supports cost-effective risk
electronic commerce and communications. In addition to             management for farmers. This assistance is designed to
the language, the standard provides photos that correspond         improve the economic stability of agriculture by developing
with the text descriptions of each item.                           risk management tools. Tools range from yield-based
Those who benefit from the development and use of this             insurance products that protect individual crops against
standard include U.S. producers, processors and marketers          loss of yield to products that protect an entire operation
of turkey and turkey products. This segment of U.S.                against loss. Providing risk management tools to farmers
agriculture can use the standard to expand markets and             and ranchers helps them protect their livelihood in times
increase global trading of turkey and turkey products.             of disasters. USDA uses the value of risk protection to
                                                                   measure the effectiveness of risk management. The value
USDA also amended the U.S. Standards for Soybeans and              of risk protection denotes the amount of insurance in force
offered a rapid, field-based test for Ochratoxin, a                protecting and stabilizing the agricultural economy. It also
mycotoxin which can occur in corn and wheat. USDA                  illustrates the acceptance of these products by producers
amended the soybean standard and established a new                 and indicates a broadening of economic stability across the
milling yield standard for Medium Grain Rice produced in           agricultural spectrum.
the western United States. Efforts to offer a rapid field-
based test for Ochratoxin were delayed due to substandard          Overview
commercial test kit performance.
                                                                                          Key Outcome
                                                                        Increased Value of Risk Protection Provided to
                                                                        Agricultural Producers through FCIC-Sponsored
                                                                                           Insurance




                                                              66
                                         FY 2007 Performance and Accountability Report
                                           ANNUAL PERFORMANCE REPORT



The USDA Federal crop insurance program provides an
actuarially sound risk management program to reduce
                                                                         Selected Results in Research, Extension and Statistics
agricultural producers’ economic losses due to natural
disasters. Recently, USDA has seen dramatic growth in                 Plant Disease Early-Warning Systems. The most valuable early-
                                                                      warning systems provide timely forecasts that farmers can use to
this program. In 1998, the program insured 181.8 million              make informed pest management decisions. To evaluate the value of
acres. Insured acreage has since grown steadily, reaching             early-warning systems, USDA examined its coordinated system for
206.4 million acres by 2000, 217.4 million acres by 2003,             soybean rust surveillance, reporting, prediction and management. The
and 261.7 million acres by 2007. Since 2000, insured                  Department estimated that the information provided by the framework
                                                                      increased U.S. soybean producers’ profits by as much as $299 million
acreage in the program has increased by 55.3 million acres,           in 2005 ($4.12 per acre), the year in which it was developed.
for an overall increase of 27.0 percent. Federal crop
                                                                      Valuing Counter-Cyclical Payments: Implications for Producer
insurance is available to producers solely through private            Risk Management and Program Administration. A new model
insurance companies that market and provide full service              improved USDA’s original method of estimating counter-cyclical
on policies upon which they share the risk with USDA.                 payment rates. The model accounted for the variability in market price
                                                                      forecast errors. This enhanced method produced more accurate
Principally, the Standard Reinsurance Agreement (SRA)
                                                                      estimates. Forecasters and producers can use the model to calculate
defines the amount of risk they share. The SRA calls for              the probabilities of repayment. Producers can reduce the probability of
insurance providers to deliver risk-management insurance              repayment by using commodity futures contracts to hedge against
products to eligible entities under certain terms and                 losses in expected counter-cyclical payments.
conditions. Providers are responsible for all aspects of
customer service and guarantee payment of producer                 Challenges for the Future
premiums to the Federal Crop Insurance Corporation
(FCIC). In return, FCIC reinsures the policies and                 USDA’s challenge is to continue expanding and improving
provides premium subsidy to producers and reimbursement            coverage, particularly for underserved States, areas,
for private insurance companies’ administrative and                communities and commodities. To do this, the
operating expenses. FCIC is a wholly-owned Government              Department needs to address the information technology
corporation created in 1936 to provide a comprehensive             cost increase associated with maintaining and upgrading
Nationwide crop insurance program.                                 data needs.
                                                                   USDA is researching how to deliver more products to
In 2005, FCIC renegotiated the SRA. The changes
                                                                   cover specialty crops with unique agronomic and economic
promote policy sales in less profitable areas and reduce
                                                                   characteristics, including reviewing and approving private-
program fraud, waste and abuse. During 2007, 16
                                                                   sector insurance products reinsured by FCIC that are
companies participated. Most of these companies have               targeted to the unique needs of underserved areas and
requested authorization to increase the amount of                  various specialty crops. The Department also continues to
premium they underwrite and the number of States they              evaluate the delivery of other risk management products to
intend to serve. USDA continues to receive inquiries from          agricultural producers as well as to provide education,
additional insurance companies interested in joining the           outreach and non-insurance risk management assistance
program. The value of risk protection provided to                  initiatives and tools through partnerships. Today,
agricultural producers through FCIC-sponsored insurance            approximately 79 percent of the acreage planted in major
exceeded $50 billion in 2007. As recently as 1998, the             crops is covered by Federal crop insurance. Coverage is
value of this risk protection was less than $28 billion.           routinely expanded by providing existing crop insurance
                                                                   programs in new counties and States. It also occurs
                                                                   through the development of new types of coverage, such as
                                                                   the market-based coverage for livestock, pasture,
                                                                   rangeland, and forage (PRF) and revenue protection.
                                                                   These programs, along with diversified production,


                                                              67
                                         FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



marketing, and the use of futures and options, allow each             to save money by preventing cases of fraud, waste and
producer to customize his or her risk management strategy.            abuse. USDA’s Risk Management Agency (RMA) and
These products help producers protect themselves from                 USDA’s Farm Service Agency (FSA) continue to work on
yield or market risks.                                                the Comprehensive Information Management System
To meet producer needs, USDA continues to seek out                    (CIMS). This project is designed to identify common and
actuarially sound and innovative risk management                      unique producer and crop information reported to both
solutions for providing coverage suited for a diverse                 agencies; develop services to access the information; and
agriculture. For example, a new plan of insurance for PRF             reduce the reporting burdens of farmers, ranchers,
uses an index consisting of a satellite-based vegetative              producers, RMA, FSA, and crop insurance providers.
index and a proxy crop, paired with a Temperature
Constrained Normalized Difference Vegetation Index                    USDA continues to assess producers’ needs and private
(NDVI). Another PRF solution uses a Rainfall Index,                   risk-management tools to ensure that new and innovative
which uses a weighted warm season/cool season indexing                alternatives are available.
period and the National Oceanic and Atmospheric                       Analysis of Results
Administration rainfall data system.
                                                                      USDA exceeded its target by $9.9 billion in FY06, and is
FCIC improves economic stability within agriculture by                on target in FY07. During the 2006 crop year, the
ensuring that new and innovative risk management                      economic risk of American agricultural producers was
alternatives are available to agricultural producers and their        reduced by approximately $49.9 billion through Federal
lenders. The increased value of risk protection provided to           crop insurance coverage. The performance measure
agricultural producers through FCIC-sponsored insurance               illustrates the dollar value of FCIC insurance in force
illustrates the acceptance of these products by producers. It         within the agricultural economy. It also shows the amount
also shows the broadening of tools to ensure greater                  of potential collateral provided to qualify for commercial
economic stability across the agricultural spectrum.                  loans. Since the 1999 crop year, the value has increased by
                                                                      approximately $19 billion. While there are a number of
USDA continued to strengthen its procedures for the                   factors that influence these figures, including market-price
evaluation of the plans of operation that are submitted by            increases and inflation, they still represent a major growth
insurance companies to be eligible for an SRA with FCIC.              in the amount of the agricultural economy insured via the
The evaluation includes analysis of financial solvency and            FCIC-sponsored insurance.
operational capacity to ensure that the insurance
companies are able to adequately sell and service Federal             USDA has enhanced the value of risk protection
                                                                      significantly through FCIC-sponsored insurance since
crop insurance. USDA continues to conduct in-depth
                                                                      FY 2000. The Department continues to work closely with
review and analysis of all reinsurance arrangements, plans
                                                                      insurance companies that market and provide full service
of operations and support contracts such as data processing
                                                                      for the crop insurance policies, as well as researches and
agreements.
                                                                      develops new products that address the needs of producers.
USDA expanded its strategic data acquisition and analysis             USDA has partnered with State departments of
efforts by adding remote sensing and geospatial analyses to           agriculture, universities and farm organizations to deliver
its data warehousing and data mining initiative. The data             regionalized risk management education programs for
warehouse was extended to include the compilation of                  producers in the historically underserved States and for
detailed geospatial NEXRAD radar data. The application                specialty crop producers. Due to these efforts, the Federal
of these data and analysis tools were then increased to               crop insurance program should continue to provide
include underwriting and program integrity issues                     actuarially sound risk management solutions to strengthen
                                                                      and preserve the economic stability of American
throughout the program. Data mining activities continue
                                                                      agricultural producers.



                                                                 68
                                            FY 2007 Performance and Accountability Report
                                                                      ANNUAL PERFORMANCE REPORT



The Non-insured Crop Disaster Assistance Program                                               ethnic minority farmers and women are especially
(NAP) provides financial assistance to producers of crops                                      susceptible to these barriers because of their limited
for which there is no available crop insurance when low                                        resources. Access to loan funds can be an important tool in
yields, loss of inventory, or prevented planting occur                                         overcoming the barriers and allowing these groups to begin
because of a natural disaster. FSA/CCC has met its FY                                          or maintain a farming operation.
2007 target for increasing the percentage of eligible crops
                                                                                               USDA accomplished its goal of providing increased
with NAP coverage to 11.76%. The NAP program set a
                                                                                               assistance to minorities, women and beginning farmers in
performance threshold to meet its annual goal of a range
                                                                                               FY 2007. These results continue the trend of increased
from 11.5% to 14.5%. The target and threshold represents
                                                                                               lending to the targeted groups.
the value of crops participating in the program compared
to the universe of the value of crops eligible to participate                                  Because of the volatile nature of the market and the
in the NAP program. While the participation rate may                                           unpredictability of natural disasters, USDA regularly
fluctuate from year to year, the program remains on track                                      reviews its NAP and other farm support programs. These
towards meeting its long term target of 13.9% in FY                                            reviews help provide effective, customer-focused programs.
2010.                                                                                          Additionally, information technology and infrastructure
                                                                                               modernization represent an ongoing challenge to the
USDA provides direct and guaranteed farm operating and
                                                                                               Department. Significant costs are associated with
ownership loans to farmers and ranchers temporarily
                                                                                               providing adequate technical assistance to support USDA
unable to obtain credit from a commercial lender, Farm
                                                                                               programs and management.
Credit System institution or other lender at reasonable
rates and terms. The Farm Credit Program is designed to                                        The structure of U.S. agriculture continues to change.
maintain and improve the quality of life in rural America                                      Most farms have grown larger and increasingly dependent
and on the farm through constant commitment to                                                 on technology. These changes resulted in increased capital
competitive lending, expert financial services and advice.                                     needed to gain entry into farming. The costs of operating a
USDA assistance is particularly important to minorities,                                       farm also continue to increase because of higher input
women and beginning farmers who typically have limited                                         costs. These issues create major challenges for the
financial assets or limited farming experience.                                                Department. To keep pace, USDA will continue efforts to
                                                                                               modernize the program delivery system and refine and
Barriers to entering production agriculture include such
                                                                                               adjust program requirements to maximize opportunities for
factors as the initial capital investment, high land values
                                                                                               minority, women and beginning farmers.
and increasing input costs. Beginning farmers, racial and

Exhibit 27:       Providing Tools to Help Farmers and Ranchers Stay Economically Viable


                                                                                                                     Fiscal Year 2007
                              Annual Performance Goals and Indicators                                       Target         Actual       Result
                                                                                                                                   †           †
              2.3.1      Normalized value of FCIC risk protection coverage provided through                  $50.7         $48.9         Met
                         FCIC sponsored insurance ($ Bil)
              2.3.2      Percentage of eligible crops with Non Insured Crop Disaster                        13.00%         11.76%        Met*
                         Assistance Payments (NAP) coverage
              2.3.3      Increase percentage of beginning farmers, racial and ethnic minority               16.00%         15.9 %*        Met
                         farmers, and women farmers financed by FSA
              †
               Value meets the performance threshold for “met.”
              *Values in the range 11.5-14.5% meet the performance threshold for “met.”




                                                                                          69
                                                                   FY 2007 Performance and Accountability Report
                                                        ANNUAL PERFORMANCE REPORT



Exhibit 28:    Trends in Providing Tools To Keep Farmers and Ranchers Economically Viable


                                                                                                 Fiscal Year 2007
                                       Trends                               2003        2004         2005           2006    2007
              2.3.1   Normalized value of FCIC risk protection coverage     $40.7       $41.5        $44.7          $48.1   $50.7
                      provided through FCIC sponsored insurance ($ Bil)
                      Baseline: 1999 = $30.9
              2.3.2   Percentage of eligible crops with Non Insured Crop    6.66%       11.12%       12.82%     12.70%      11.76%
                      Disaster Assistance Payments (NAP) coverage
              2.3.3   Increase percentage of beginning farmers, racial     14.20%       14.50%       15.00%     15.50%      16.00%
                      and ethnic minority farmers, and women farmers
                      financed by FSA



Strategic Goal 3: Support Increased Economic                                    The Internet-based economy provides unique
                                                                                opportunities for rural America. A rural broadband
Opportunities and Improved Quality of Life In Rural                             infrastructure can help overcome many limitations on rural
America                                                                         business development caused by geographic distance and a
                                                                                small local customer base. Thus, USDA is providing
OBJECTIVE 3.1: EXPAND ECONOMIC OPPORTUNITIES BY                                 capital to finance access to broadband service for rural
USING USDA FINANCIAL RESOURCES TO LEVERAGE PRIVATE                              communities. Internet access is critical to enabling rural
SECTOR RESOURCES AND CREATE OPPORTUNITIES FOR                                   businesses to participate in the developing global economy.
GROWTH
                                                                                USDA’s Business and Industry (B&I) Guaranteed Loan
                                                                                Program provides up to a 90 percent guarantee to
Overview
                                                                                commercial lenders. In California, for example, an $8.5
USDA’s programs support low-interest financing of rural                         million B&I loan financed a new, state-of-the-art rice
businesses to leverage limited private sector financial                         processing facility in a rural county with an unemployment
resources. Its funds promote opportunities for economic                         rate almost double the State average (9.3 percent versus 5
growth as measured by jobs created and saved.                                   percent). USDA financially supported a locally owned,
One of USDA’s core missions is to ensure that rural                             family-run business employing 90 people.
residents enjoy the same economic opportunities as that of                      In Louisiana, a $2.5 million B&I loan was used to
other Americans. Credit limitations and other market                            restructure existing debt, purchase equipment and provide
imperfections can hurt rural economies. Job growth is                           working capital for a food products company. B&I
limited and incomes are insufficient for rural families to                      guaranteed loan funds helped create 42 jobs and save 75
thrive and rural youth to stay in local communities. USDA                       others. They also expanded this business’ market nationally
programs, therefore, serve as capital enhancement tools for                     for such Cajun food products as sausage links, dressing
rural America. They provide affordable access to capital for                    mix, roux and other Cajun culture products.
investment in businesses and economic infrastructure.
Long-standing Department programs and the more                                  In Ohio, $3.6 million in B&I loans to a hardwood floor
recently implemented energy-related and value-added                             manufacturer helped finance construction of drying kilns
programs greatly facilitate the expansion of economic                           for green lumber and processing equipment for flooring
opportunities in rural areas.                                                   products. Funds were also used to refinance debt. The
                                                                                USDA loans helped increase the number of jobs from 44
                              Key Outcome                                       to 82.
               Enhanced Capital Formation for Rural                             In Arizona, a $3.1 million B&I loan to a Native American
                         Communities                                            housing authority financed the construction of a 30,000-
                                                                                square-foot block plant. The plant now produces aerated


                                                                           70
                                                     FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



concrete products including various size blocks and roof              In Connecticut, a group of nine dairy producers formed a
and floor flat panels through a product known as                      limited-liability company to develop and market a value-
“FlexCrete.” Experts say that, while FlexCrete possesses              added, producer-owned brand of milk and milk products
concrete-like qualities, it is lightweight with a high                exclusively from local dairy farms. Initially, the group
insulation value.                                                     received a value-added planning grant. It, then, was
                                                                      awarded a working-capital grant to help launch operations.
A Michigan specialty-paper manufacturer used a $2.5
                                                                      The group’s high-quality products can now be found in
million B&I loan to purchase and install 21 energy
                                                                      many large New England supermarkets. Cooperative
stations. The manufacturer used the stations to operate a
                                                                      ownership assures profits are returned to those in the rural
heat-recovery system designed to supplement the paper
                                                                      community.
mill’s energy sources. Monthly energy savings is projected
to be near $180,000. The company employs 198 people.
USDA also uses revolving loan programs to make small
grants and loans to local, not-for-profit organizations for
re-lending to other rural businesses. Typically, these
businesses are small or beginning operations that are sole
proprietorships or family partnerships. Recipients may
have insufficient credit histories to qualify for commercial
loans or may need loan terms not offered on a traditional
commercial basis. Intermediary organizations participating
in these programs can provide business-education
consulting services and marketing support along with
loans. Typically, these are working capital loans to
entrepreneurs trying to provide new services or goods. For            These programs also improve employment opportunities in
instance, in a 9-county area of southern Kentucky, start-up           rural areas. Whether a $20,000 grant is used to improve
funds were used to purchase medical equipment for an                  small town lighting or provide targeted training to attract a
outpatient home infusion therapy center employing 24                  prospective business operator, all rural residents benefit
people.                                                               from these investments. A USDA loan or grant to a rural
The USDA Value Added Producer Grant Program has                       business for expansion, modernization or start-up,
allowed many rural producers to enhance their share of                enhances the local job market mix and improves the local
revenues received for their processed products. For                   tax base. The overall local rural economy is stimulated, jobs
example, 27 producers in Monticello, Kentucky invested in             are created and the quality life improves for most citizens.
a regional soybean mill. A value-added grant coupled with
                                                                      Challenges for the Future
a loan from the State’s agricultural development fund
allowed the group to purchase a local feed facility to install        Rural economies face challenges different from those of
soybean extrusion equipment. Today, the mill produces a               urban and suburban areas. These challenges include:
high-quality product and continues to improve production                 Historical dependence on local natural resources and
and marketing capacity. Extruded soybean meal is a high-                  farm commodities that are subject to cyclical trends
energy natural product sold as animal feed for chickens,                  and changing regulatory standards and oversight;
hogs and cattle. Soybean oil is food-grade unrefined oil                 Low profit margins on local commodity sales yet
that can be made into bio-diesel fuel and cattle feed or                  strong competition from foreign commodities;
used for cooking products. Soy hulls are sold as ingredients
for cattle feed. The owners now have production control                  Large-scale changes in technology without
and can capture revenues that would have gone to others                   corresponding skills in rural areas; and
most likely outside the region.                                          Inaccessibility and low-density populations resulting in
                                                                          limited foot traffic for retail establishments and smaller


                                                                 71
                                            FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



    discretionary budgets for business improvements,                 economic gains can increase the tax base to improve public
    upgrades and modernization.                                      infrastructure.
Additionally, rural areas typically have underdeveloped              Renewable energy projects funded by USDA loans and
public services that make it difficult to attract or retain          grants improve the local economy through new jobs at the
businesses. The lack of public funding for amenities                 energy plants, enhanced tax base and local profits. Recent
typically offered in urban areas, such as dedicated business         funds allowed many small business owners to decrease
parks or expanded transportation links, represents                   their energy consumption; thus, their profit margins
additional challenges. Education, health care and                    increase.
entertainment typically are perceived to be marginally
acceptable in rural areas. However, recent proposals
                                                                           Selected Results in Research, Extension and Statistics
provide funding for Rural Critical Access facilities. These
proposals, coupled with existing community facilities                  USDA studies rural economic development by collecting statistics,
programs for rural healthcare will improve rural healthcare            conducting research and providing technical assistance to the
                                                                       Nation’s 2,500 agricultural cooperatives. The Department uses the
quality. In reality, every rural area has unique issues.               data to analyze cooperative operating statistics. The statistics are then
                                                                       used to help rural businesses refine their operating models to remain
USDA State and area staff work with regional and State                 financially sound employers. With more than 175,000 employees
entities to make the best use of Department dollars and                nationwide generating $120 billion in sales, rural cooperatives often are
other public and private funds. While some areas need                  the largest employers in local rural communities and vital to a region’s
more jobs, others are being defined by new industries or               economy.
commodities. USDA tries to be sensitive to these varying               USDA distributes more than 6,500 cooperative related publications
needs.                                                                 annually and provides internet access to more than 200 publications
                                                                       through its Web site at
The Department’s grant programs provide funds to under-                http://www.rurdev.usda.gov/rbs/pub/NEWPUB.htm. Cooperative business
resourced rural communities to improve their local                     publications address issues ranging from start-up to addressing economic
                                                                       imperfections in the marketplace. Rural Cooperatives Magazine examines
infrastructure or expertise to be more attractive to new               current hot topics related to the recent rural renaissance, such as the role
businesses and maintain appeal to local residents. For                 of information technology in the ethanol industry.
example, while city improvements are usually funded by
                                                                       The Department’s programs help improve rural communities by providing
special local business tax assessments, they may not be                technical assistance to limited resource farmers. For example, the Bogue
affordable in a marginally viable rural area. Frequently,              Sound Watermelon Growers Association is a new farming cooperative in
companies looking for a new location need special skill                North Carolina. It began with 20 farmers in a rural, 3-county region of
sets. USDA grants can fund small, targeted job-training                southeastern North Carolina. In their first season, the farmers marketed
                                                                       19 truckloads of watermelons. They wanted to add to that success and
programs. In Oklahoma, for example, a grant provided to a              improve economic returns. The farmers looked to establish their
local university funded the development of a center for the            watermelons as a premium-quality item both locally and nationally. USDA
arts. This grant allowed students to participate in a                  conducted a feasibility study on the potential for expanding watermelon
hospitality-training program. The center also serves as the            sales. Staff examined such factors as production practices, marketing,
                                                                       management and projected financial performance. Recent operations
anchor for a downtown revitalization strategy. The strategy            have been very successful. Robust sales have brought prices two-to-
targeted local artisans and attracted both tourists and local          three cents per pound higher than market price and volume has
buyers. The grant will result in job training, business                increased fourfold.
enhancement and market creation.                                       USDA Increases Access to Historic Census of Agriculture Data. The
                                                                       Department is working to digitize and provide access to the entire
All rural residents benefit when the local economy                     Censuses of Agriculture. Historical information has been made available
prospers. More and better jobs, and more services, such as             for many censuses, including the first ever agricultural census, conducted
health care facilities, shopping, cultural activities, and             in 1840. These historic data can be accessed at
recreational amenities, and the availability of electronic             http://www.agcensus.usda.gov/Publications/Historical_Publications/index.
                                                                       asp. Additional census results will be posted to this site as they are
communications improve the quality of life and encourage               converted to electronic files.
young people to settle and stay. Additionally, even small




                                                                72
                                           FY 2007 Performance and Accountability Report
                                                    ANNUAL PERFORMANCE REPORT



Analysis of Results                                                         USDA funds have long-lasting, intangible direct and
The number of jobs created or saved is linked directly to                   indirect economic impacts. Thus, the Department looks to
the amount of total available USDA business program                         estimate the overall economic impact of scarce budget
funding, amounts obligated and disbursed to awardees and                    funds on rural areas.
local economic conditions. Annual job targets are based on                  USDA has developed the Socio-Economic Benefit
historical program operations, subsidy rates and annual                     Assessment System (SEBAS) to enhance the ability to
appropriations. The target job numbers assume a level                       estimate net program–investment effectiveness. SEBAS
funding horizon and timely allocations of funds without                     uses detailed information about Department loan or grant
regard to the potential impact of major natural disasters.                  funds in conjunction with other available Federal data
Annual budget authorities’ subsidy rates and program                        resources. This process enables estimates of the direct and
levels vary annually. Recently, they resulted in general                    indirect impacts of program assistance on local and
decline in annual job numbers. Although FY 2007 targets                     regional economic performance. It also affects the quality
and results decreased, they met expectations given the level                of life in rural areas. SEBAS is being tested with various
of budget authority, subsidy rate, timing and availability of               USDA programs. It will allow the Department to analyze
program funds. Remaining program funds will carry over                      data internally to measure program effectiveness. USDA
into FY 2008 and continue to provide benefits to rural                      will also be able to use the findings to help develop
communities in the next fiscal year.                                        strategies to enhance program efficiency and performance.
USDA business loan and grant programs go hand-in-hand                       Future results will measure program effectiveness in many
with the expansion of economic opportunity as measured                      ways. They will also serve as management tools to help
by jobs created and saved. Despite this relationship,                       improve program efficiency and performance with limited
                                                                            resources.

Exhibit 29:   Strengthen Rural Businesses

                                                                                                     Fiscal Year 2007
                        Annual Performance Goals and Indicators                           Target           Actual       Result
               3.1.1   Jobs Created or Saved                                              65,100           66,000        Met



Exhibit 30:   Trends in Creating or Saving Jobs

                                                                                           Fiscal Year 2007
                                    Trends                           2003         2004             2005       2006      2007
               3.1.1   Jobs Created or Saved                        87,619       81,030        73,617        73,072     66,000




                                                                       73
                                                  FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



OBJECTIVE 3.2: IMPROVE THE QUALITY OF LIFE THROUGH                  If new businesses are to operate in a rural community, that
USDA FINANCING OF QUALITY HOUSING, MODERN                           community must possess basic infrastructure and the
                                                                    amenities these firms require and employees desire. These
UTILITIES, AND NEEDED COMMUNITY FACILITIES
                                                                    amenities include clean water, adequate housing, reliable
Overview                                                            electricity and telecommunications, and such essential
USDA successfully improved the quality of life in rural             needs as quality education, health care, daycare, public
America during FY 2007. The Department financed:                    safety services and cultural activities. If a community
                                                                    cannot meet the public’s essential needs, young people
   Quality homes for 33,264 guaranteed loan and 10,700
                                                                    neither will stay in nor migrate to rural areas. USDA is an
    direct loan home buyers;
                                                                    important source of credit and technical assistance for
   New/improved water and waste disposal facilities for            developing the economic infrastructure of rural America.
    1,457,000 subscribers;                                          These resources are essential if rural residents and
   New or upgraded electric service for 1.6 million                communities are to improve their quality of life through
    consumers;                                                      increased economic opportunity.
   Broadband telecommunications in 749 counties for                Providing reliable, affordable electricity is essential to the
    1,205,212 subscribers; and                                      economic well-being and quality of life for all of the
   Improved community facilities for 15.5 million rural            Nation’s rural residents. The electric programs provide
    residents.                                                      capital to upgrade, expand, maintain and replace America’s
                                                                    vast rural electric infrastructure. They also provide
                       Key Outcome                                  leadership, guidance and other benefits.
         Improved Rural Quality of Life Through
      Homeownership, New and/or Improved Water
                                                                    In FY 2007, USDA provided funds to construct, renovate
      and/or Waste Disposal Facilities, New and/or                  or improve 1,200 essential community facilities. Rural
       Improved Electric Facilities and/or New or                   Americans had new or improved services available from 95
        Improved Telecommunications Facilities                      health care facilities, 393 public safety facilities, 65
                                                                    educational/cultural facilities, 5 energy-related facilities,
                                                                    175 public buildings and improvements and a number of
The availability of adequate housing is critical to a               other essential community facilities. In this period, more
community’s well-being. Ensuring that low-income                    than 15.5 million rural residents had new or improved
families have access to decent and safe housing is a major          services available to them through these facilities.
concern in every area whether urban or rural. USDA
provides financing for low- and moderate-income rural               Water and sewer facilities impact the economic
families who cannot obtain credit from other sources to             infrastructure of communities. By investing in water and
help them own homes. Owning a home provides stability               sewer facilities, communities can:
for families and gives them the opportunity to strengthen              Save or create jobs;
their financial condition by accumulating equity. The
                                                                       Leverage funds with the private sector and local and
President has expressed his desire to increase
                                                                        state agencies;
homeownership, particularly among minorities. He
established a major initiative to increase minority                    Attract Federal funds from other agencies; and
homeownership nationwide. USDA is aggressively                         Enlarge the property tax base.
implementing an action plan to support the President’s
goal.                                                               USDA leveraged $525,865,257 from other sources with
                                                                    $1.45 billion of Department funds. Investments in water



                                                               74
                                          FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



and sewer facilities are critical in encouraging economic                Besides area residents, the plant will also serve several
growth. The following examples of projects demonstrate                   small businesses and major manufacturers. In the
the potential economic impacts on project beneficiaries:                 county seat of Lawrence County, Walnut Ridge, a
   Holly Ridge, North Carolina, a coastal community,                    small hospital, nursing homes, a public school, a small
    faced a crisis with its sewer system. The town operated              four-year college and an old airport with some
    under a special order of consent from the State                      manufacturing facilities will all benefit. The plant will
    Department of Environment and Natural Resources.                     be designed so that it expands easily. This project will
    The order barred it from adding any new sewer users.                 provide a safe, dependable supply of surface water to a
    Additionally, the discharge into the rivers from the                 large area of Northeast Arkansas. It is expected that
    existing sewer system did not meet the permit’s                      the plant will be in full production in the summer of
    requirements. USDA provided a $1,350,000 loan and                    2009.
    a $2,183,000 grant to upgrade the existing plant,                   In April 2007, USDA electric programs approved a
    expand and improve the collection system and add a                   loan to Earth Resources, Inc., of Carnesville, Georgia.
    land application spraying field to eliminate the                     The loan funds were used to finance a 20-megawatt
    discharge of treated effluent into rivers and streams.               generating facility fueled by 80 percent wood waste
    The upgraded sewer system created several immediate                  and biomass and 20 percent chicken litter. This plant
    benefits. Eliminating the river discharge improved the               is the first in the State to use a gasification system to
    environment. Approximately 150 residents, many with                  convert poultry litter into a useful product—electricity.
    failing septic tanks, were added to the system after                 This facility will generate enough energy annually to
    project completion. A major Holly Ridge company                      meet the needs of more than 15,000 homes. The
    expanded and continued operations, saving 75 jobs.                   plant’s use of wood waste, biomass and chicken litter
    An additional 250 residential customers have been                    provides an attractive solution to the problem of
    added to the sewer system. Today, the town has 25                    disposing of these items. Gasification technology also
    commercial customers. The Holly Ridge community                      produces lower emissions and less reliance on fossil
    continues to grow naturally and more consistently with               fuels.
    environmental concerns.
                                                                     USDA broadband access loans fund the deployment of
   The Northeast Arkansas Public Water Authority was                high-speed Internet services in rural America. The
    created to develop a regional water treatment plant to           following two examples are representative of recent
    serve the cities of Hoxie, Walnut Ridge and Alicia and           successful projects.
    the Lawrence County Regional Water District. These
                                                                        Before USDA’s loan, Greenville, Alabama, a small city
    communities serve around 3,800 residential and
                                                                         in Butler County with a population around 7,100,
    business customers in the Delta Region of Arkansas,
                                                                         relied on slow dial-up Internet service—even for city
    the total population of which exceeds 8,200. USDA
                                                                         services. A rural broadband access loan to Camellia
    has assisted the water authority in obtaining leveraged
                                                                         Communications now funds service to Greenville and
    funds from the Arkansas Natural Resource
                                                                         other rural communities. It also funds high-speed
    Commission and the Delta Regional Authority for
                                                                         broadband service to Greenville’s local Government
    capital improvements. In addition to the water
                                                                         and police, fire and public works department. The city
    treatment plant, there will also be a major water
                                                                         clerk reports broadband Internet service has been a
    transmission line to deliver the water to the cities. The
                                                                         huge advantage helping improve productivity and
    total funding package is $11,500,000.
                                                                         efficiency. The emergency operation center now is able




                                                                75
                                           FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



    to monitor the weather regularly for up-to-date                  sector banks, not-for-profit agencies and State housing
    information and disaster preparedness purposes.                  finance agencies.
   In Kansas, the Phillipsburg County economic                      The capital made available through electric programs
    development director noted that the broadband loan to            ensures that low-cost, reliable electric power is available to
    Nex-Tech has helped create a predominant change in               rural consumers, businesses, schools, health facilities and
    the business atmosphere in the county and                        other consumers. The consumer density in rural areas is a
    surrounding area. The new technology helps promote               fraction of that in urban areas. This difference necessitates
    business growth and expansion. It also helps local               access to lower cost capital to provide a comparable level of
    employers entice, hire and train more work force from            service. The electric program finances the construction of
    within and around the area. The area population is               electric generation, transmission and distribution facilities
    increasing as evidenced by new home construction and             serving 39 million rural residents in 2,480 of the country’s
    a growing demand for rental properties. Community                3,100 counties. While rural electric cooperatives deliver
    development activity within Phillips County has risen            about 10 percent of the total kilowatt hours sold in the
    sharply, with town leaders looking at community                  country, they serve 75 percent of the landmass.
    beautification, infrastructure improvements and new              Cooperatives service 7 consumers per mile of distribution
    housing projects. Although these benefits may not all            line compared to 35 for investor-owned utilities and 47 for
    be due to Nex-Tech’s fiber broadband deployment, the             municipal-owned systems. Cooperatives also generate
    essence of having a strong business base to draw a               revenue per mile of line of only $8,558, compared to
    work force (i.e., residents) into an area starts with the        $58,981 for investor-owned utilities and $72,146 for
    premise of a viable infrastructure for business growth.          municipal-owned utilities.
Challenges for the Future                                            USDA is committed to bringing affordable broadband to
Challenges continue to be rising building costs, which               all rural Americans. Broadband is a transformative
results in fewer homes, community facilities and water and           technology. It allows rural communities to enhance the
waste systems. Also, droughts, limited water resources,              quality of health care and education dramatically.
extreme temperatures and other environmental factors                 Broadband offers every rural business access to regional
present unique problems in developing utility systems.               national and international markets. It reduces barriers of
Solutions are expensive, resulting in the need for additional        time and distance, levels the playing field and makes rural
grant funds to develop projects.                                     communities better places to live, work and raise a family.
                                                                     Demand for the broadband loan program continues to be
USDA single-family housing programs assist low- and
                                                                     strong. USDA has provided financing for broadband
moderate-income rural residents in becoming
                                                                     deployment in excess of $2.1 billion under the Rural
homeowners. These programs are designed to strengthen
                                                                     Broadband Access Loan and Loan Guarantee Program.
families and communities, enhance wealth creation and
                                                                     The program provides loans, loan guarantees and grants
contribute to a more broadly based ownership society.
                                                                     for the construction, improvement and acquisition of
USDA housing program assistance provides direct and                  facilities and equipment for broadband service in eligible
guaranteed loans to help rural households achieve                    rural communities. Additionally, all telecommunications
homeownership. More than 22,000 low-income rural                     facilities financed through the traditional
Americans achieved the dream of homeownership through                telecommunications loan program must be broadband
these programs in FY 2007. These programs specifically               capable. Supplementing these two programs, the Distance
attempt to increase the number of minority homeowners.               Learning and Telemedicine Loan and Grant Program
To stretch resources, the programs’ loans and loan                   provides financing for advanced telecommunications
guarantees are supplemented with resources from private-             services for health and education applications to hospitals,


                                                                76
                                           FY 2007 Performance and Accountability Report
                                                        ANNUAL PERFORMANCE REPORT



clinics, schools, universities and not-for-profit                                Analysis of Results
organizations across rural America.                                              The targets were selected based on USDA’s expectations
Water programs are a leading source of credit for water                          for loan obligations. The expectations were based on the
and waste projects in rural America. They provide low-                           anticipated price of housing and the probable continuation
interest loans and guaranteed loans, grants and technical                        of the low interest rate environment prevalent in 2004 and
assistance to rural communities to develop essential water                       2005.
and waste infrastructure. With dependable infrastructure,                        While the Section 502 Guaranteed Loan Program
communities can sustain economic development or                                  obligated more funding than last year, the actual number
improve the quality of life for their residents. Rural                           of new homeowners is less than anticipated. The lower
Americans may enjoy the same high standards of living                            number is attributed to escalating home prices and rising
and full participation in the global economy as their urban                      interest rates making housing less affordable for low- and
or suburban counterparts. Thus, water programs are                               moderate-income borrowers, who also have trouble
designed to make funds available to small communities                            qualifying for loans. Those who do qualify need larger
most in need of drinkable water, and ensure that facilities                      loans to purchase their homes; thus, more funding was
used to deliver drinking water are safe and affordable.                          obligated than last year despite a lower number of new
                                                                                 homeowners.
In FY 2007, the programs invested more than $1.46
billion in direct and guaranteed loans and grants to help                        The President’s 2008 Budget proposes the reallocation of
rural communities develop 1,275 water and waste disposal                         resources from direct lending to guaranteed lending. The
facilities. These facilities provided new or improved water                      502 guaranteed loan program will experience an increase in
and waste disposal services to 1,457,000 subscribers.                            resource while direct lending will be eliminated. Rural
                                                                                 Development is working to develop a subsidized 502

      Selected Results in Research, Extension and Statistics                     guaranteed program to benefit the very low income rural
                                                                                 residents who traditionally look to USDA direct funding
  Extension Instrumental in the Recovery Effort from Hurricane
  Katrina. Since Hurricanes Katrina and Rita, USDA’s Children, Youth,            for assistance.
  and Families at Risk Program (CYFAR) has been helping recovery
  efforts in Louisiana. Through CYFAR, the Department allocates funding          The water program far exceeded this year’s goal because of
  to land-grant university extension services for community-based                various factors both internal and external to the agency.
  programs for at-risk children and their families. Focusing on helping          Demand was much stronger than expected. The loan-to-
  families, the CYFAR team responded by adapting existing resources
  from CYFARnet and other extension services. Recovery fact sheets
                                                                                 grant ratio also increased over last year. This increase
  were developed and made available to field agents to distribute at             allowed more loans to be made. Another reason the goal
  shelters, businesses, schools, churches and disaster recovery centers.         was exceeded was because USDA State offices funded
  Hurricane recovery resource kits were developed for agents to                  more projects.
  reproduce as needed in their local parishes. Specially developed Storm
  Recovery Guides for homeowners and renters were distributed to                 The community facilities program exceeded its goal to
  families in need. Teachers across Louisiana were provided 15,000 “After
  the Storm” booklets and 10,000 “How Am I?” booklets for children               provide needed community facilities to rural Americans
  impacted by the hurricanes. Hundreds of teachers were also provided            because of the division’s emphasis on public safety and
  additional “Hurricane Recovery Educator Resource Kits” to use with             health care facilities. USDA staff has provided outreach at
  elementary school-aged children.
                                                                                 national, State and regional conferences, emphasizing its
                                                                                 ability to provide facilities at reasonable rates and terms for
                                                                                 rural Americans. The electric programs fully utilized its
                                                                                 loan lending authority for FY 2007. Target performance
                                                                                 measures were met or exceeded. The telecommunications



                                                                            77
                                                      FY 2007 Performance and Accountability Report
                                                    ANNUAL PERFORMANCE REPORT



program also exceeded its target for borrowers’ subscribers                 customers, the residents and businesses that they serve. In
receiving new or improved service. The                                      some cases, the financing provided by USDA reduces the
telecommunications loan lending authority was utilized                      operating and capital costs of the borrower, without a
fully.                                                                      direct increase in the number of subscribers. Thus, the
                                                                            number of customers served by new or improved
USDA continues to fund the deployment of advanced
                                                                            telecommunications facilities has fluctuated over the last
telecommunications facilities in rural America. This
                                                                            few years. Despite the fluctuation, a substantial number of
continued investment results in many financial and
                                                                            customers continue to benefit from these investments in
technical benefits for the borrowers. One result is the
                                                                            infrastructure made possible by USDA’s rural development
availability of new or improved service for the borrowers’
                                                                            programs.

Exhibit 31:   Improving Rural Quality of Life Through Homeownership Opportunities


                                                                                                      Fiscal Year 2007
                        Annual Performance Goals and Indicators                            Target           Actual       Result
               3.2.1   Homeownership opportunities provided                                37,578           43,900         Met



Exhibit 32:   Trends in Rural Home Ownership


                                                                                            Fiscal Year 2007
                                    Trends                           2003          2004             2005       2006       2007
               3.2.1   Homeownership opportunities provided          44,130       48,894        43,224        40,517      43,900


Exhibit 33:   Improving Rural Quality of Life Through Water and Waste Disposal Facilities


                                                                                                      Fiscal Year 2007
                        Annual Performance Goals and Indicators                            Target           Actual       Result
               3.2.2   Number of program borrowers/subscribers receiving new or           557,000          1,457,000     Exceeded
                       improved service from Agency funded water facility


Exhibit 34:   Trends in Water and Waste Disposal Service


                                                                                            Fiscal Year 2007
                                    Trends                           2003          2004             2005       2006       2007
               3.2.2   Number of program borrowers/subscribers      593,582       965,780      1,325,000     1,637,554   1,457,000
                       receiving new or improved service from
                       Agency funded water facility




                                                                       78
                                                  FY 2007 Performance and Accountability Report
                                                      ANNUAL PERFORMANCE REPORT




Exhibit 35:   Improving Rural Quality of Life Through Community Facilities


                                                                                                        Fiscal Year 2007
                         Annual Performance Goals and Indicators                             Target              Actual         Result
               3.2.3    Percentage of customers who are provided access to new                1.0%                4.25%         Exceeded
                        and/or improved essential community health facilities
               3.2.4    Percentage of customers who are provided access to new                1.3%                2.87%         Exceeded
                        and/or improved essential community public safety services


Exhibit 36:   Trends in Community Facilities


                                                                                              Fiscal Year 2007
                                     Trends                            2003           2004            2005           2006         2007
               3.2.3    Percentage of customers who are provided         NA            NA              3.5%          3.8%         4.25%
                        access to new and/or improved essential
                        community health facilities
               3.2.4    Percentage of customers who are provided         NA            NA              4.1%          3.8%         2.87%
                        access to new and/or improved essential
                        community public safety services


Exhibit 37:   Improving Rural Quality of Life Through Electric Facilities


                                                                                                         Fiscal Year 2007
                        Annual Performance Goals and Indicators                              Target               Actual         Result
               3.2.5   Number of program borrowers/subscribers receiving new or             8,000,000          8,000,000           Met
                       improved electric service


Exhibit 38:   Trends in Electric Facilities


                                                                                              Fiscal Year 2007
                                    Trends                             2003           2004              2005          2006         2007
              3.2.5    Number of program borrowers/subscribers       3,745,559       4,325,559       2,360,477      8,183,649    8,000,000
                       receiving new or improved electric service



Exhibit 39:   Improving Rural Quality of Life Through Telecommunications Facilities


                                                                                                         Fiscal Year 2007
                        Annual Performance Goals and Indicators                              Target               Actual         Result
               3.2.6   Number of program borrowers/subscribers receiving new or              250,000             1,205,000      Exceeded
                       improved telecommunications service




                                                                         79
                                                    FY 2007 Performance and Accountability Report
                                                   ANNUAL PERFORMANCE REPORT




Exhibit 40:   Trends in Telecommunications Facilities


                                                                                          Fiscal Year 2007
                                   Trends                           2003         2004            2005        2006      2007
               3.2.6   Number of program borrowers/subscribers     382,229      373,813       240,000       297,027   1,205,000
                       receiving new or improved
                       telecommunications service



Strategic Goal 4: Enhance Protection and Safety of                         OBJECTIVE 4.1: REDUCE THE INCIDENCE OF FOODBORNE
the Nation’s Agriculture and Food Supply                                   ILLNESSES RELATED TO MEAT, POULTRY, AND EGG PRODUCTS
USDA ensures a secure agricultural production system and                   IN THE U.S.
healthy food supply to consumers. The Department                           Overview
accomplishes this task by protecting the food supply
against pests and diseases, minimizing production losses,                  Protecting the Nation’s food supply is a formidable task
maintaining market viability and containing environmental                  and requires sound science. There is heightened
damage. USDA also ensures that the commercial supply of                    apprehension that terrorists could target the Nation’s food
meat, poultry and egg products moving in interstate                        supply as well as the potential for new and emerging
commerce or exported to other countries is safe,                           microbial hazards. Thus, the Department must assess and
wholesome and labeled and packaged correctly.                              update its food safety systems continually. USDA
Additionally, the Department ensures that meat, poultry                    continues to eliminate foodborne illness through testing,
and egg products imported from other countries are                         risk assessments, partnerships with its stakeholders and
produced by a system equivalent to its own.                                policy decisions based on sound science.
Ensuring the safety of America’s meat, poultry and egg
products requires a strong infrastructure. Thus, USDA has                                               Key Outcome
stationed public-health servants throughout the country
and in laboratories, plants and import houses. The                               Reduction in Foodborne Illness Associated with
                                                                                   the Consumption of Meat, Poultry and Egg
Department continues an enhanced, risk-based approach
                                                                                                   Products
to inspection. Through these efforts, the Department
reallocates its resources to focus more closely on food-
safety systems and preventing public health problems                       USDA conducted approximately 1,300 Food Safety
before they occur. This initiative advances a coordinated
                                                                           Assessments (FSA) in FY 2007. An FSA evaluates an
national and international food safety, risk management
                                                                           establishment’s sanitation controls and compliance with
system from farm to table. A significant contribution to
the risk-based approach to inspection is the development                   microbiological performance criteria. It also reviews the
of a public health infrastructure. This infrastructure                     adequacy of slaughterhouse and processing plant Hazard
includes:                                                                  Analysis and Critical Control Point (HACCP) systems.
                                                                           HACCP refers to the design and operation of an
    Improvements to public health data analysis and
     information exchange;                                                 establishment’s prerequisite programs, and its response to
                                                                           food-safety control deviations. Enforcement, investigation
    Advanced surveillance and detection systems;
                                                                           and analysis officers and public health veterinarians trained
    A well-trained workforce;                                             in FSA methodology conduct these assessments. Officials
    Swift, secure and multi-directional communications;                   often conduct FSAs “for cause,” such as in response to a
     and                                                                   pathogen-positive product sample or other events that
    Disaster preparedness and response capability.


                                                                      80
                                                 FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



indicate possible food safety concerns. FSAs are also                 frequent food safety information. They generally lack the
conducted randomly or on a cyclical basis.                            resources to monitor food safety developments from the
                                                                      Department, academia or trade associations. To address
Challenges for the Future                                             this challenge, USDA has initiated efforts to work with
Unfortunately, meat, poultry and egg products can become              these plants, including another 2,400 (approximately)
compromised after USDA inspection and prior to                        under State inspections, to overcome these issues. The
consumption. Thus, the Department is assessing how to                 Department has implemented an action plan to deliver
limit or prevent accidental or intentional contamination.             outreach assistance to promote risk-based food safety and
                                                                      food defense systems for small and very small plants.
Additional challenges faced by USDA include protecting                While the reaction to these initial steps has been positive,
at-risk groups, namely the very young, pregnant women,                data show that additional effort is needed.
older adults, people with chronic diseases and those with
weakened immune systems.                                              The Technical Service Center (TSC) serves as the agency’s
                                                                      center for technical assistance, advice and guidance
USDA will continue to rely heavily on data to allow                   regarding the implementation of national food safety
proactive decisions affecting food safety and public health.          policies, programs, systems and procedures. The TSC
The Department will enhance data management and                       created a customer-service guarantee which ensures that all
delivery via information technology to quickly respond to             plants that contact TSC receive uniform, consistent and
indications of risk to human health.                                  prompt answers. It can be found at
                                                                      www.fsis.usda.gov/PDF/TSC_Response_to_Calls_&_EM
To ensure rapid and effective communication between
                                                                      ails.pdf .
Federal and State agencies in responding to emergency
incidents, USDA is working with the U.S. Food and Drug
Administration and other agencies to conduct vulnerability                  Selected Results in Research, Extension and Statistics
assessments on both legally and illegally imported foods.
Protocols have been developed to respond to products that               A Step in Reducing Foodborne Disease by Poultry.
                                                                        Campylobacteriosis is a leading foodborne disease in developed
have entered the country illegally.                                     countries, including the U.S. While birds, primarily chickens and turkeys,
                                                                        are considered the primary reservoir of C. jejuni, transmission among
USDA trains newly hired inspection personnel, and
                                                                        poultry flocks and farms is poorly understood. C. jejuni is the pathogen
provides refresher training to existing field inspection                that causes Campylobacteriosis and is the leading cause of food
personnel through the Food Safety Regulatory Essentials                 poisoning in the U.S. A USDA-sponsored study showed that house flies
(FSRE) program. FSRE outlines inspection                                may be one risk factor in the pathogen’s transmission among poultry.
responsibilities in relation to the HACCP/Pathogen                      Other environmental factors, such as ventilation, water and litter are also
                                                                        important.
Reduction regulation. The occupational groups receiving
this training include food and consumer safety inspectors,              Rapid Detection of Biohazards. USDA-supported scientists have
public health veterinarians, program and import inspectors,             developed a cloth that has the potential to detect bacteria, viruses and
                                                                        other biohazards. The cloth evolved with the development of
and enforcement investigations and analysis officers.
                                                                        nanotechnology. It can be used as an easy-to-handle swab or wiper
                                                                        capable of picking up and identifying biohazards on surfaces or in
In January, USDA began inspecting 4,458 small and very
                                                                        liquids.
small meat and poultry slaughter and processing plants
with Federal inspectors, based on its Performance-Based                 Portable Inspection Devices That Detect Food-Safety and Quality
                                                                        Problems. Portable inspection devices have the potential to significantly
Inspection System (PBIS) records of 2007. PBIS schedules                increase the accuracy and efficiency of food safety inspection in meat,
inspection procedures the same way in all processing                    poultry and perhaps eventually fruits and vegetables. USDA scientists
plants, regardless of the particular food safety hazard                 have developed prototype portable inspection devices by adapting
                                                                        optical technology used for remote sensing of Earth. Prototypes include
associated with the products produced or processes                      binoculars with lenses that detect fecal matter on meat, produce or
performed at one plant versus another. The businesses that              processing equipment. The lenses can also detect diseases or quality
fall into this category have a particular need for current and          defects.




                                                                 81
                                            FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



Salmonella — USDA categorizes processing plants as                   Listeria monocytogenes—USDA has met the performance
Category 1, Category 2 or Category 3 based on their                  goal of decreasing the overall percent positive rate for
consistency in process control for Salmonella reduction,             Listeria monocytogenes (Lm) in ready-to-eat products in
with Category 1 being the most consistent. USDA has                  2007. The annual target of 0.65 percent was significantly
exceeded the performance goal of increasing the                      exceeded. The goal’s purpose is to reduce the overall public
percentage of industry in Category 1 from 46 percent in              exposure to Lm in ready-to-eat meat and poultry products,
2006 to 71 percent in 2007. The U.S. Department of                   which reduces the incidence of foodborne listeriosis. The
Health and Human Services has incorporated the target of             Healthy People goals for national health promotion and
6.8 cases of salmonellosis/100,000 persons into its Healthy          disease prevention called on Federal food safety agencies to
People 2010 objectives. USDA recognizes these objectives             reduce foodborne listeriosis to the level of 0.25
as appropriate guidance for its strategy to strengthen public        cases/100,000 by the year 2010. USDA contributes to this
health protection. For these reasons, the Department                 goal by:
decided to redirect its Salmonella verification sampling                Issuing a Listeria interim final rule to control Lm in
program to encourage establishments to reassess their food               ready-to-eat meat and poultry products, Lm
safety systems to achieve and maintain consistent process                verification sampling and reporting;
control.
                                                                        Conducting FSAs in establishments with product that
As more establishments attain Category 1 status, USDA                    tests positive for Lm;
believes that fewer people will be exposed to Salmonella
                                                                        Issuing compliance guidelines to provide industry with
from raw classes of Department-regulated products.
                                                                         guidance on steps to control Lm; and
Consequently, as more establishments gain greater control
over Salmonella, the goal of halving the number of people               Reacting to product recalls to ensure that consumers
infected with Salmonella from all sources, including                     are alerted and that product testing positive for Lm is
broilers, is more likely to be achieved. The Department is               removed from the marketplace.
particularly focused on the boiler industry because of a
three-year upward trend in the percentage of Salmonella-             USDA’s risk-based verification program for Lm samples
positive samples in its regulatory tests. Broilers are of            higher risk establishments more frequently than lower risk
particular interest because of all the classes of carcasses          establishments. The Department doubled the number of
(e.g., beef, hogs, broilers), the percentage of positive             ready-to-eat products sampled. It focused its sampling
broiler samples is more than four times that of the next             program on establishments that use sanitation only or
highest class (hog carcasses) based on the most recent               sanitation combined with antimicrobial agents or processes
calendar year data. To ensure that the broiler industry              as their primary methods to control for Lm. When positive
adequately increases its control for the presence of                 Lm samples are found in the establishment, USDA
Salmonella by 2010, the Department further stated that the           investigates using the FSA. Testing of product, food
timeframe for broiler establishments to gain better control          contact and environmental surfaces is repeated until the
would be expedited.                                                  establishment’s products test negative. The Department
The Department is establishing the baseline year as                  has developed a checklist to determine the rigor of
calendar year 2006, which is 46 percent of plants in                 establishments’ validation of their Lm control program;
Category 1. Each year thereafter, until 2010, an additional          inspection personnel use the list every time they conduct
percentage (in the range of 10 percent) of establishments            an FSA. Results from the completed checklist will be
must achieve and maintain Category 1 status to reach at              included in the risk ranking of establishments.
least 90 percent of all establishments in Category 1 by
2010.                                                                Information about the causes of positive tests will be
                                                                     incorporated into compliance guidelines, which will be
                                                                     shared with industry through regulatory education


                                                                82
                                           FY 2007 Performance and Accountability Report
                                                       ANNUAL PERFORMANCE REPORT



sessions. USDA is issuing supplementary guidance to the                       instituted programs to test for E. coli O157:H7. The
industry on the application of antimicrobial programs. The                    Department is also increasing sample size and adopting
Department will also issue guidance to inspection program                     new and more sensitive testing methods. USDA also
personnel on evaluating these programs. USDA will                             conducts FSAs in establishments with positive tests for E.
continue its strategies to reduce the overall public exposure                 coli O157:H7, issues compliance guidelines to industry and
to Lm and reduce the incidence of foodborne illness related                   reacts to product recalls to ensure consumers are alerted
to ready-to-eat products.                                                     and contaminated products are removed from the
                                                                              marketplace.
E. coli O157:H7—USDA has met the performance goal of
decreasing the overall positive rate for E. coli O157:H7 on                   In FY 2007, USDA issued two notices to expand its E. coli
food products in 2007. The Healthy People 2010 goals for                      O157:H7 testing program: USDA Notice 17-07, Follow-
national health promotion and disease prevention called on                    Up Sampling of Certain Ground Beef Products After an
Federal food safety agencies to reduce E. coli O157:H7                        FSIS Verification Sample Tests Positive for E. coli
illness to the level of 1.0 cases/100,000 by 2010. The                        O157:H7, and USDA Notice 18-07, Routine Testing of
Department began a microbiological testing program to                         Beef Manufacturing Trimmings Intended for Use in Raw
detect E. coli O157:H7 in raw ground beef. The program is                     Ground Beef. The Department is also reviewing
also designed to stimulate industry action. Since the                         information from recent recalls. USDA will conduct more
initiation of the USDA testing program, many grinders                         follow-up sampling in response to positive test results.
and suppliers of raw ground beef components have

Exhibit 41:   Pathogen Reduction (Food Inspection)

                                                                                                      Fiscal Year 2007

                        Annual Performance Goals and Indicators                            Target           Actual         Result

               4.1.1   Reduce overall public exposure to generic Salmonella from      55% of industry        71%           Exceeded
                       broiler carcasses using existing scientific standards           in Category 1

               4.1.2   Decrease the percentage of ready-to-eat meat and poultry             0.65%           0.31%          Exceeded
                       products testing positive for Listeria Monocytogenes
               4.1.3   Reduce the prevalence of E. coli O157:H7 on ground beef              0.20%           0.21%            Met



Exhibit 42:   Trends in Pathogen Reduction (Food Inspection)

                                                                                             Fiscal Year 2007

                                     Trends                             2003        2004            2005        2006         2007

               4.1.1   Reduce overall public exposure to generic         NA          NA              NA        45% of        71% of
                       Salmonella from broiler carcasses using                                               industry in   industry in
                       existing scientific standards                                                         Category 1    Category 1

               4.1.2   Decrease the percentage of ready-to-eat          0.90%       0.89%           0.70%       0.60%        0.31%
                       meat and poultry products testing positive for
                       Listeria Monocytogenes
               4.1.3   Reduce the prevalence of E. coli O157:H7 on      0.37%       0.19%           0.17%       0.16%        0.21%
                       ground beef




                                                                         83
                                                    FY 2007 Performance and Accountability Report
                                               ANNUAL PERFORMANCE REPORT



OBJECTIVE 4.2: REDUCE THE NUMBER AND SEVERITY OF                        plants. Huanglongbing (citrus greening) causes infected
AGRICULTURAL PEST AND DISEASE OUTBREAKS                                 citrus trees to yellow, decline, and possibly die within a few
                                                                        years of infection.

Overview                                                                Animal disease-detection criteria have been developed for
The National Animal Diagnostic Network and Plant                        the following eight high-consequence diseases. Foot-and-
Diagnostic Network Centers ensure timely disease                        Mouth Disease is a severe, highly contagious viral disease of
detection. They also enhance the process of producing and               cattle and swine. Exotic Newcastle disease is a contagious
maintaining a timely, comprehensive database of pest and                and fatal viral disease affecting all birds. Classical Swine
disease outbreak occurrences. Accurately identifying new                Fever, or hog cholera, is a highly contagious viral disease of
or uncommon pests and diseases will allow USDA, in                      swine. Highly Pathogenic avian influenza and Low
conjunction with the States, to expedite initial control                Pathogenic avian influenza are viruses that can cause
responses, verify the physical boundaries of an outbreak                varying amounts of clinical illness in poultry. In 2006, the
and initiate regional or national containment strategies.               National Animal Health Laboratory Network (NAHLN)
The ultimate performance measure for these networks is                  worked with National Research Initiative funded wild bird
their disease-detection preparation. The networks will                  sampling and other wildlife surveillance efforts to provide
continue to study new diseases regularly to protect the                 additional cooperative detection capabilities for various
Nation from accidental or deliberate introduction of                    strains of the two aforementioned viruses. NAHLN is part
diseases.                                                               of a national strategy to coordinate the Nation’s Federal,
                                                                        State and university laboratory resources. Bovine spongiform
                         Key Outcome                                    encephalopathy is a chronic degenerative disease that affects
           Improve Animal and Plant Diagnostic                          the central nervous system of cattle. Scrapie is a fatal,
                 Laboratory Capabilities                                degenerative disease affecting the central nervous system of
                                                                        sheep and goats. Chronic wasting disease attacks the central
                                                                        nervous system of deer and elk.
Analysis of Results
The performance goal was met. Limited trend data are                    USDA agencies partner with State agencies and
available since the effort began in FY 2003 (plant) and FY              universities to achieve a high level of agricultural
2004 (animal). Detection criteria have been developed for               biosecurity. This process is done through the early
soybean rust, sudden oak death, Ralstonia stem rot, plum pox            detection, response and containment of outbreaks of pests
virus, pink hibiscus mealybug, potato wart and huanglongbing            and diseases. The diagnostic laboratories, adequately
(citrus greening). Soybean rust is a fungal disease that attacks        staffed and stocked with cutting-edge technology, are
the foliage of a soybean plant, causing its leaves to drop              essential to accomplishing this mission.
prematurely. Sudden oak death is a plant disease that attacks           Future challenges to improving laboratory capabilities
many types of plants and trees common to the Pacific                    include making non-Federal funding available. This
Northwest. Plum pox virus browns the flesh and deforms                  funding could be used to expand laboratory links in each
stone fruit, making it unmarketable. Pink hibiscus mealybug             State, increase the number of screened diseases and their
is a serious insect threat to agricultural, ornamental and              detection criteria and ensure that more strategically located
horticultural plants in tropical and sub-tropical areas.                laboratories are prepared to deal with geographically
Potato wart creates ugly, warty outgrowths on potato                    relevant disease threats.




                                                                   84
                                             FY 2007 Performance and Accountability Report
                                                      ANNUAL PERFORMANCE REPORT




Exhibit 43:   Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved


                                                                                                            Fiscal Year 2007
                              Annual Performance Goals and Indicators                              Target       Actual         Result
              4.2.1    The cumulative number of specific plant diseases labs are prepared to          7            7            Met
                       detect
              4.2.2    The cumulative number of specific animal diseases labs are prepared to         8            8            Met
                       detect


Exhibit 44:   Trends Improving the Capabilities of Diagnostic Laboratories


                                                                                               Fiscal Year 2007
                                    Trends                             2003         2004            2005          2006         2007
               4.2.1   The cumulative number of specific plant           2            3              5             6            7
                       diseases labs are prepared to detect
               4.2.2   The cumulative number of specific animal          NA           6              7             8            8
                       diseases labs are prepared to detect
               NA = Not Available




                                                                         85
                                                    FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT




                                                                                         Developing and applying scientific methods that
        Selected Results in Research, Extension and Statistics                            benefit agricultural producers and consumers, protect
    Increasing a Plant’s Resistance to Parasites. Root-knot nematodes,                    the health of animal and plant resources, and sustain
    the world’s most economically important group of plant-parasitic                      agricultural ecosystems.
    nematodes, attack nearly every food and fiber crop grown. USDA-
    supported scientists identified a gene in the root-knot nematode
    essential for it to infect crops. The researchers turned the nematode’s                                  Key Outcome
    biology against itself, creating a process that shuts down the specific
                                                                                               A Secure Agricultural Production System
    gene when the nematode begins to feed on the plant’s roots. It disrupts
    the nematode’s ability to infect the plant. Thus, the modified plant
                                                                                                      and Healthy Food Supply
    becomes resistant to the nematode. The resistance gene is effective
    against the four most common species of root-knot nematodes.
                                                                                      USDA’s efforts in FY 2007 prevented the introduction of
    A Rift Valley Fever Outbreak Successfully Predicted. In October
    2006, USDA research predicted that Rift Valley fever would strike within
                                                                                      foreign animal diseases which could have spread beyond
    three months in sub-Saharan Africa, the first such prediction. Rift Valley        the original area of introduction or become established
    fever is transmitted by mosquitoes produced during periods of heavy               across the country. Such a spread could cause severe
    rainfall. It causes disease and death in domestic animals and humans. A           economic or environmental damage, threaten animal
    warning was sent to the United Nations Food and Agriculture and World             health or even compromise public health.
    Health Organizations, which passed the warning to Kenya, Ethiopia,
    Tanzania, Uganda and Somalia. The early warning allowed the countries             The Department’s programs are designed to reduce the
    most likely to be in harm’s way to step up surveillance and control of            number and severity of pest and disease outbreaks in plants
    insect vectors for the disease. The model can also predict outbreaks of
    other diseases of livestock and people, such as malaria and cholera.
                                                                                      and animals. They also contribute to the good life
                                                                                      Americans enjoy. Due in part to the protection afforded by
    Substance From Catnip Could Help Growers Guard Crops and                          these programs, U.S. consumers receive an abundance of
    Gardens Against Aphids and Mites. USDA scientists have developed
    a method to extract a key compound from catnip oil. The compound
                                                                                      food and fiber. Consumers also remain relatively free of
    naturally attracts lacewings, a beneficial predator that eats destructive         diseases that may be transmitted by animals or other pests.
    aphids and mites. The method offers an economical way to make large
    amounts of this insect “cologne.” A commercial formulation of the                 Protecting the Nation’s plant and animal resources
    compound could eliminate the need for farmers to repeatedly buy and               provides many Americans with employment in the
    release beneficial insect larvae.                                                 agricultural sector. It also gives them a livelihood serving
                                                                                      farmers with needed tools, supplies, technical knowledge
                                                                                      and money. USDA’s efforts help to ensure that such allied
Overview                                                                              industries as the food-processing and pharmaceutical
USDA works to provide a secure agricultural production                                industries, and grocery distributors receive the raw
system and healthy food supply for U.S. consumers. This                               materials they need to produce their products and services.
work is designed to reduce the number and severity of                                 Its efforts also help maintain public and private
agricultural pest and disease outbreaks. It includes:                                 landholders’ investments. By protecting U.S. plant and
                                                                                      animal resources from pest and disease outbreaks, USDA
    Safeguarding animal and plant resources against the                              ensures domestic agricultural resources can move in
     introduction of foreign agricultural pests and diseases,                         international trade. The North American ecosystem
     while meeting international trade obligations;                                   depends in part on USDA’s efforts to reduce the number
    Detecting and quickly responding to new invasive                                 and severity of pest and disease outbreaks. The global
     pests and diseases, and emerging agricultural health                             ecosystem depends upon international efforts to minimize
                                                                                      the movement of harmful species. USDA participates in
     situations;
                                                                                      these efforts as a world leader, benefiting citizens in many
    Managing existing agricultural pests and diseases and                            countries.
     wildlife damage effectively; and



                                                                                 86
                                                          FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



Challenges for the Future                                           A final challenge is to minimize the economic impact of
USDA faces important challenges in its efforts to reduce            specific harmful diseases and pests where eradication is
the number of pest and disease outbreaks. One is to                 either not feasible or will take many years to achieve. To
prevent harmful pests and diseases from entering the                address this challenge, USDA monitors endemic diseases
country. If such pests and diseases enter, USDA must                and pests through surveys. The Department also conducts
know early enough to reduce their spread and eradicate              inspections to prevent their spread into non-infested parts
them before they do damage. The Department creates and              of the country. Additionally, USDA works to prevent the
continually updates pest and disease information and                spread of diseases that can be passed by animals, such as
monitors and conducts surveys in cooperation with States            rabies. It also protects American agriculture from
and industry. Survey data are essential for initiating and          detrimental predators through identification,
directing programs. They also result in better pest and             demonstration and application of the most appropriate
disease management. USDA will continue monitoring and               control methods.
surveillance activities. This will include identifying              USDA has several groups of programs that focus on
potential pathways for animal and plant pests and diseases.         reducing the number and severity of pest and disease
In addition to early detection, the spread of animal and            outbreaks. As indicators of success in reducing the number
plant pests and diseases can be prevented by regulatory             and severity of these outbreaks, USDA has selected two
enforcement.                                                        key performance measures to represent the entire range of
Once foreign pest or disease is reported, USDA responds             activities conducted by these programs (see the Annual
immediately by investigating and taking emergency action,           Performance Goals and Indicators exhibit below).
if necessary. Substantial costs are incurred, but USDA              The Animal Health Monitoring and Surveillance
seeks to reduce these costs through enhanced, science-              (AHMS) Program conducts monitoring and surveillance
based, early-detection and rapid-response efforts.                  activities. These activities are designed to detect incursions
USDA continues to enhance emergency-coordination                    of foreign and emerging diseases rapidly, evaluate and
efforts and emergency-response capabilities. USDA                   enhance surveillance for current disease control and
agencies are also participating with a Government-wide              eradication programs, monitor domestic and international
team created to develop and implement an avian influenza            disease trends and threats and provide timely and accurate
(AI) response plan. AI is a virus that infects wild birds           animal health information.
(such as ducks, gulls and shorebirds) and domestic poultry          The Emerging Plant Pest (EPP) Program maintains
(such as chickens, turkeys, ducks and geese).                       USDA’s ability to respond quickly to any emerging plant
                                                                    pest problem. This program targeted a variety of pests and
                                                                    plant diseases during FY 2007, which will be discussed
                                                                    below.

                                                                    Analysis of Results
                                                                    USDA met the target related to animal disease outbreaks
                                                                    in FY 2007 because of the successful effort of AHMS
                                                                    program components. This continued a record of six years
                                                                    of success, broken only by the outbreak of Exotic Newcastle
                                                                    Disease (END), a contagious and fatal viral disease
                                                                    affecting all species of birds and which is considered one of
                                                                    the world’s most infectious poultry diseases. By meeting



                                                               87
                                          FY 2007 Performance and Accountability Report
                                                       ANNUAL PERFORMANCE REPORT



these goals, the Department provided for a continually                          Security Presidential Directive 9 (HSPD-9). The Animal
secure agricultural production system and healthy food                          Health Safeguarding Review provides a foundation for
supply for consumers, minimized production losses and                           USDA to build a national safeguarding system for the
maintained market viability for U.S. livestock.                                 health of domestic animals. HSPD-9 establishes a national
                                                                                policy to defend the agriculture and food system against
An example of successful AHMS program efforts involve
                                                                                terrorist attacks, major disasters and other emergencies. In
the discovery of contagious equine metritis (CEM) found in
                                                                                FY 2007, the Department continued to work with other
three Lipizzaner stallions. CEM is a highly contagious
                                                                                Federal agencies and coordinate with States to prepare for
venereal disease of horses that results typically in aborted
                                                                                a potential AI outbreak. USDA also continued to focus on
pregnancies. This finding marked the first U.S. detection
                                                                                developing efficient and effective targeted surveillance
of the disease outside a CEM quarantine facility in more
                                                                                plans. Following these targeted plans allows Federal and
than 20 years. State and USDA officials traced all possible
                                                                                State officials to document the health status of domestic
exposed animals and high-risk materials. They successfully
                                                                                livestock and poultry populations efficiently and effectively.
contained the outbreak and closed the case before the
                                                                                As an example, USDA has completed a draft swine
disease caused severe economic damage.
                                                                                surveillance plan that, once finalized, will be used to
Another example of successful AHMS program efforts is                           modify future comprehensive swine surveillance programs
seen in the National Animal Health Surveillance System                          implemented in cooperation with State and industry
(NAHSS). NAHSS strives to meet the requirements of                              partners.
the Animal Health Safeguarding Review and Homeland


Exhibit 45:   Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems


                                                                                                            Fiscal Year 2007
                             Annual Performance Goals and Indicators                              Target        Actual         Result
              4.2.3    Number of significant introductions of foreign animal diseases and pests       0           0             Met
                       that spread beyond the original area of introduction and cause severe
                       economic or environmental damage, or damage to the health of animals
              4.2.4    Number of emerging plant pest (EPP) programs where an outbreak has           1 of 5       1 of 5         Met
                       not been contained within the quarantine area                              programs     programs



Exhibit 46:   Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and Detection Systems


                                                                                              Fiscal Year 2007
                                     Trends                              2003         2004           2005        2006          2007
                 4.2.3 Number of significant introductions of foreign      0            0             1           0              0
                       animal diseases and pests that spread
                       beyond the original area of introduction and
                       cause severe economic or environmental
                       damage, or damage to the health of animals
                 4.2.4 Number of emerging plant pest (EPP)                 4            3             2           3          1 of 5
                       programs where an outbreak has not been                                                             programs
                       contained within the quarantine area




                                                                          88
                                                     FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



USDA continued to focus on the National Veterinary                   in the Brooklyn, Queens, Prall’s Island and Staten Island
Accreditation Program (NVAP) and certifying private                  areas of New York City. The detections in Prall’s Island
veterinary practitioners to work cooperatively with Federal          and Staten Island occurred outside of previously
veterinarians and State animal health officials. Accredited          quarantined areas. While they caused concern, the
veterinarians greatly enhance Federal and State surveillance         detections did not constitute a significant outbreak based
efforts, especially in identifying foreign or emerging animal        on their size or economic and environmental impacts.
diseases. Currently, the Department is finalizing a                  USDA and cooperators took appropriate action to ease
proposed rule on veterinary accreditation. The rule will             ALB’s impact and spread, including additional surveys,
provide the option of two categories of accreditation based          tree removal, quarantines and treatments.
on animal species expertise. It will also require an
                                                                     GWSS carries the bacterium Xylella fastidios. This
established amount of supplemental education to maintain
                                                                     bacterium causes a variety of plant diseases that affect such
accredited status. USDA has also been partnering with a
                                                                     economically valuable crops as citrus and grapes. Recently,
variety of stakeholders in animal health surveillance,
                                                                     two GWSS adults were detected in a trap less than a mile
emergency response and public health to develop online
                                                                     outside of the quarantined area. While these detections
training modules that will provide accredited veterinarians
                                                                     raised concern, they did not cause a significant outbreak
easily accessible information needed to maintain their
                                                                     based on their size or economic and environmental
accredited status.
                                                                     impacts. In response, area-wide treatments were applied
The National Animal Identification System (NAIS)                     within the affected area. This treatment included a half-
became a fully operational system in FY07. NAIS will                 mile buffer beyond the detection sites to suppress GWSS
allow USDA to work with States and the private sector to             populations. This treatment area covered approximately
determine more quickly and effectively the scope of a                2,064 acres of citrus. State-regulated inspections of nursery
disease or animal health event, and locate infected animals.         stock for GWSS continue to be conducted to prevent the
                                                                     artificial movement of the pest via host nursery plants.
USDA also met its FY 2007 target related to EPP
                                                                     These inspections are conducted both in the county of the
programs. These programs cover Asian Longhorned Beetle
                                                                     nursery stock’s origin and in the destination county.
(ALB), Glassy-winged Sharpshooter (GWSS), the Citrus
                                                                     Throughout FY 2007, GWSS interceptions among
Health Response Plan (CHRP), P. ramorum and Emerald
                                                                     nursery shipments helped prevent the artificial spread of
Ash Borer (EAB). The ALB, GWSS, CHRP, and P.
                                                                     this pest and related diseases.
ramorum programs prevented significant pest outbreaks
beyond quarantine areas at the beginning of FY 2007. The             Citrus canker is a highly contagious bacterial disease of
EAB program did not meet its target.                                 citrus trees. It has become so widespread throughout
                                                                     Florida that the entire State is quarantined for the disease.
ALB infests such hardwood tree species as maple, birch,
                                                                     Despite the quarantine, USDA worked with State
horse chestnut, poplar, willow, elm and ash. The beetle can
                                                                     regulatory agencies and citrus scientists to develop CHRP.
kill host tree species and, if left unchecked, will threaten
                                                                     This program is designed to protect other citrus-producing
North America’s forests, parks, cities and trade. Overall,
                                                                     States from the disease and all domestic production from
the Department’s ALB program successfully contained and
                                                                     other harmful citrus pests and diseases. CHRP coordinates
is moving towards eradicating infestations in Illinois, New
                                                                     multiple pest survey and detection programs within citrus-
Jersey and New York in FY 2007. In Illinois, ALB
                                                                     producing States. It promotes citrus-production practices
detections have not occurred in the Chicago area since
                                                                     that lower citrus pest and disease risks. In FY 2007, the
November 2003. Additionally, none of the State is
                                                                     administration of the CHRP and the Federal regulatory
regulated for the pest. While New Jersey has had no
                                                                     framework effectively prevented outbreaks of citrus pests
detections since August 2006, ALB detections took place
                                                                     and diseases in U.S. citrus-producing States outside of


                                                                89
                                           FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



Florida. For example, CHRP funds were used to conduct                USDA is working with Federal, State, local, Tribal and
citrus commodity surveys for several exotic citrus pests and         industry cooperators to enforce regulatory restrictions on
diseases in Arizona, California, Hawaii, Louisiana and               the movement of EAB host wood products and materials,
Texas. CHRP resources also were used to support                      especially firewood. They also look to raise public
diagnostic screenings for citrus greening in all U.S. citrus-        awareness about their potential to spread the pest further.
producing States.
                                                                     Strategic Goal 5: Improve the Nation’s Nutrition
P. ramorum is a pathogen that causes sudden oak death in
                                                                     and Health
oak trees. It also causes diseases in a wide variety of other
plant species. P. ramorum has killed oak trees in 14                 USDA made strides in promoting access to a nutritious
California and 1 Oregon counties. Currently, all of these            diet and healthy eating behaviors for everyone in the U.S.
counties are under quarantine. P. ramorum also threatens             Through its leadership of Federal nutrition-assistance
many other plant species in California, Oregon and, within           programs, the Department made a healthier diet available
nursery venues, Washington. USDA establishes and                     for millions of children and low-income families. The
implements domestic quarantines on counties upon disease             Center for Nutrition Policy and Promotion used
detection. Thus far, these regulations have prevented the            interactive tools to motivate Americans to make positive
artificial establishment of P. ramorum and its occurrence            dietary behavioral changes. These interactive tools were
outside the quarantined areas on the West Coast. An                  designed to help consumers establish and maintain healthy
exception to this success occurred in early March 2007               diets and lifestyles, consistent with the Dietary Guidelines
when the Oregon Department of Agriculture identified an              for Americans and the President’s HealthierUS initiative.
outbreak of P. ramorum approximately 1.5 miles north of              Key 2007 accomplishments include:
the quarantine area in Curry County, Oregon. A State                    Promoting Access to the Food Stamp Program (FSP)—Food
quarantine was established, covering a 24.25-square-mile                 stamp benefits help low-income families and
area in Curry County. USDA and the State of Oregon are                   individuals purchase nutritious food. FSP also provides
working together to eradicate the detection. This detection              nutrition education to help influence healthy food
is not a significant outbreak based on its size or overall               choices and more active lives. It is the Nation’s largest
economic and environmental impact.                                       nutrition assistance program, serving more than 26
                                                                         million people monthly in FY 2007.
EAB is an exotic beetle that feeds on the inner bark of ash
trees. The beetle disrupts the tree’s ability to transport              Promoting the MyPyramid Food Guidance System—
water and nutrients, which can kill it. EAB threatens U.S.               MyPyramid offers the American public an
ash tree resources, potentially impacting the Nation’s                   individualized approach to nutritional well-being and
nursery, landscaping, timber, recreation and tourism                     active living. MyPyramid.gov’s Web-based educational
industries. EAB infests more than 175,000 square miles in                tools help Americans assess and personalize their diet
the U.S. On June 26, 2007, USDA confirmed EAB                            and physical activity plans. Consumers continue to
detection in the Cranberry Township of Butler County,                    respond enthusiastically to this educational approach.
Pennsylvania. Department personnel discovered it while                   To date, there have been more than 3.5 billion visits to
inspecting for ash decline along Pennsylvania’s Interstate               MyPyramid.gov. Additionally, there have been more
76 corridor in proximity to the Ohio border. This                        than 2.7 million registrations on the MyPyramid
discovery followed the June 20, 2007, confirmed detection                Tracker; and
of EAB five miles into the Ohio side of the border. This is             Continuing to ensure that Food Stamp Benefits are Accurately
the first EAB detection to occur in Pennsylvania. EAB’s                  Issued—The FSP payment accuracy rate for FY
extension beyond USDA’s quarantine boundaries as of the                  2006—the most recent year for which data is
beginning of FY 2007 is significant and continuing.                      available—was 94.01 percent. This figure marks the


                                                                90
                                           FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



    third straight year the accuracy rate has been greater            people in the U.S. during FY 2007. They promote better
    than 94 percent. This strong performance reflects                 health, support the transition to self-sufficiency for low-
    effective partnerships with State administering                   income working families and support children’s readiness
    agencies. It also shows the extensive use of policy               to learn in school. A well-nourished population is
    options provided in the 2002 Farm Bill that streamline            healthier, more productive and better able to fulfill its
    program administration while improving access for                 potential.
    working families.
                                                                      By working in partnership with States, USDA continues
USDA continued to improve the quality of Americans’                   to implement effective nutrition assistance programs and
diets through research-based enhancements to the                      deliver program benefits to eligible participants. The
Nation’s food supply. The Department also pushed for                  programs ensure access to a nutritious food for those with
better knowledge and education to promote healthier food              little income and few resources. For a variety of reasons,
choices. Four of the top 10 causes of death in the U.S.               many individuals and families eligible to participate in
(cardiovascular disease, cancer, stroke and diabetes) are             these programs do not. In FY 2007, USDA focused on
associated with diet quality—those too high in calories,              increasing the rate of participation among people eligible
total fat, saturated fat and cholesterol, or too low in fruits        for food stamps and expanding access to the School
and vegetables, whole grains and fiber. The Nation is                 Breakfast Program (SBP). SBP is not as widely available as
experiencing an obesity epidemic due to a number of                   the National School Lunch Program.
causes. These causes include a “more is better” mindset, a
                                                                      The Department continued to work with States to
sedentary lifestyle and the ready availability of fat- and
                                                                      implement FSP provisions from the 2002 Farm Bill. These
sugar-laden, high-calorie foods. Consumers are looking for
                                                                      provisions provide States with options to simplify
foods that taste good, offer nutrition and other health
                                                                      administration of the program. USDA also continued to
benefits, and are convenient to prepare and consume.
                                                                      implement outreach efforts to educate eligible low-income
Science-based dietary guidance and promotion can help
                                                                      populations—especially seniors, legal immigrants and the
them integrate these choices into a diet that promotes
                                                                      working poor—about the benefits of food stamps. USDA
long-term health. USDA pursued national policies and
                                                                      continued a media campaign to inform low-income people
programs to ensure that everyone has access to a healthy
                                                                      of their potential eligibility. Additionally, the Department
diet regardless of income, and that the information is
                                                                      provided technical assistance, outreach and participation
available to support and encourage good nutrition choices.
                                                                      grants and guidance to faith- and community-based
The Department’s success in promoting public health                   organizations to encourage FSP participation.
through good nutrition and the effectiveness of its
nutrition programs relies heavily on research. The research
reveals what consumers should eat to stay healthy and how
the public can be educated in a manner that leads to
dietary changes. Research also supports development of
new food products.

OBJECTIVE 5.1: IMPROVE ACCESS TO NUTRITIOUS FOOD
Overview
USDA’s nutrition assistance programs represent the
Federal Government’s core effort to reduce hunger and
improve nutrition. These programs aided one in five



                                                                 91
                                            FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT



Under SBP, USDA continued to provide cash assistance                                 and define the molecular mechanisms that regulate nutrients in plant-
to States to operate breakfast programs in schools and                               based foods. A particular gene—dubbed Or for the color orange—
residential child care institutions. On an average school                            induces high levels of beta-carotene in food crops. Beta-carotene is a
                                                                                     pigment found in animal fat and some plants that humans convert into
day, while more than 49 million children have access to                              vitamin A. USDA scientists worked with Cornell University colleagues to
school lunch and nearly 30 million children chose to eat a                           isolate Or in the cauliflower. The research could potentially resolve the
program lunch, only about 10 million children received a                             vitamin A deficiency reported to affect some 250 million children
                                                                                     worldwide. In cauliflower, Or promotes high beta-carotene accumulation
school breakfast. The Department identified opportunities
                                                                                     in various plant tissues that normally do not have the aforementioned
to promote SBP by raising awareness of the program’s                                 pigment.
availability with State and civic leaders, and supporting and                        Watermelon an Excellent Source of the Amino Acid Citrulline.
celebrating National School Breakfast Week. Each year,                               USDA scientists have shown that watermelon stores abundant and
USDA recognizes National School Breakfast Week to                                    readily usable citrulline. The human body uses citrulline to make another
                                                                                     important amino acid—arginine—which plays a key role in cell division,
highlight SBP’s benefits through events, posters and
                                                                                     wound healing and the removal of ammonia from the body. Medical
student activities that show the importance of a good                                researchers are evaluating arginine as a possible treatment for high
breakfast—either at home or served through the                                       blood pressure, elevated glucose levels and the vascular complications
program—in being ready for school.                                                   associated with sickle-cell disease. Sickle-cell disease is a form of
                                                                                     anemia found mostly in blacks.
The Department continued to serve those eligible for the
Special Supplemental Nutrition Program for Women,                                  Challenges for the Future
Infants and Children Program (WIC) who wish to                                     Studies and analyses show that there continue to be large
participate within authorized funding levels. WIC helps                            numbers of eligible people who do not participate in
safeguard the health of low-income women, infants and                              Federal nutrition assistance programs. While recent
children up to age 5 who are at nutritional risk. The                              changes in FSP have made more low-income people
program provides nutritious foods to supplement diets,                             eligible, many may remain unaware of the opportunity to
information on healthy eating and referrals to health care.                        receive these benefits. USDA looks to improve access to
About 8.2 million pregnant women, new mothers and                                  and promote awareness of these programs with continued
their young children benefited monthly from WIC.                                   outreach and information strategies.
USDA also continues to partner with a variety of faith-                            USDA’s ability to achieve this objective depends partly on
based and community organizations to deliver program                               adequate legislative authority for policies and program
benefits and services, and encourage access to the                                 initiatives. These initiatives would promote effective access
programs.                                                                          to nutrition assistance and funding to support program
                                                                                   participation for all eligible people who seek service. The
                                                                                   quality of program delivery by third parties—hundreds of
      Selected Results in Research, Extension and Statistics                       thousands of State and local Government workers and
  Healthier Food Research. Recent USDA-supported studies have linked               their cooperators—is critical to Department efforts to
  greater soy intake with lower breast cancer risk for women. One                  reduce hunger and improve nutrition. Economic changes
  interpretation has attributed this link to higher production of cancer-          can affect both the number of people eligible and the
  preventative substances when a woman consumes more soy.
  Conjugated inoleic acid is a fatty acid found in soy. It is anti-
                                                                                   ability of cooperators to provide services.
  carcinogenic, or prevents or inhibits cancer, at far lower dosages than
  many other anti-carcinogens that occur naturally. The ultimate goal of
  this research is to improve human dietary patterns and reduce the risk of
                                                                                                                 Key Outcome
  disease.                                                                                      Reduce hunger and improve nutrition
  Using Orange Cauliflower to Make Other Food Crops More
  Nutritious. Scientists are using an unusual cauliflower to identify genes




                                                                              92
                                                        FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



USDA is committed to providing access to nutritious food                 information materials in nearly 3 dozen languages
through the major nutrition assistance programs for all                  continued to be available;
eligible people who wish to participate. Average FSP and                Continuing to support a toll-free number which
WIC participation reached expected levels. While it was                  provides general information about food stamp
slightly lower than expected in the school meals programs,               benefits in English and Spanish;
participation remained well within performance
                                                                        Maintaining a pre-screening tool in English and
thresholds.
                                                                         Spanish which allows users to obtain an estimate of
Analysis of Results                                                      their eligibility and benefit amount; and
In general, nutrition assistance program participation                  Supporting the Food Stamp Outreach Coalition which
reached projected levels. As program participation is                    serves as a way to convene national, State and local
voluntary, participation projections are estimates based on              leaders to share ideas. The coalition continued to
economic and other factors that impact the likely behavior               support the annual Hunger Champions competition.
of eligible populations. An analysis of the most recent                  This competition recognizes local food stamp offices
information available follows.                                           that excel in customer service and outreach. The
                                                                         coalition also launched the Golden Grocer Program to
Food Stamp Program—The program served approximately 26
                                                                         recognize authorized retailers who engage in outreach.
million participants monthly, a decrease of almost 1.5
percent from the FY 2006 average. Despite the decrease, it           USDA also measured the number of people eligible for the
should be noted that the FY 2006 average was increased               program to determine the rate at which eligible people are
substantially by heavy participation early in the year due to        participating. The most recent data indicate that
the ongoing impact of Gulf hurricanes and disaster                   approximately 25 million of the 38 million individuals
response. USDA efforts to support and encourage food                 eligible for food stamp benefits in an average month in
stamp participation in FY 2007 included:                             2005 participated— a 65 percent participation rate (2005 is
   Awarding food stamp outreach grants totaling $1                  the most recent year for which such figures are available.).
    million to 14 community and faith-based                          National School Lunch Program (NSLP)—NSLP participation
    organizations to implement and study effective food              levels reached 30.6 million in FY 2007, up slightly from
    stamp outreach strategies;                                       FY 2006 and continuing the trend of increases in recent
   Continuing the national media campaign with English              years. NSLP provides nutritious meals to millions of
    and Spanish radio ads in dozens of locations                     children at school. Approximately 95,000 schools operated
    promoting the benefits of food stamps, and a Spanish             the program.
    television ad in 9 locations;
                                                                     School Breakfast Program (SBP)—SBP participation levels
   Launching an effort to implement community-based                 reached 10.1 million in FY 2007, up 3 percent from a year
    food stamp outreach activities in Spanish and promote            ago and continuing a trend of recent increases. The
    the use of Spanish public service announcements;                 program makes healthy, nutritious meals available to
   Making materials and resources available to State and            millions of children each school day. More than 80,000
    local cooperators to assist them in food stamp                   institutions operated the program in FY 2007. USDA
    outreach. These materials include posters, brochures,            continued to support and encourage SBP participation in
    copyright free photographs, radio and television public          FY 2007 by:
    service announcements, and tool kits with easy-to–                  Promoting it through such activities as School
    follow, step-by-step instructions, sample materials and              Breakfast Week;
    templates to customize. Additionally, food stamp



                                                                93
                                           FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



   Working with various organizations and partners to                  Providing training and technical assistance to States in
    help develop strategies for program expansion;                       implementing the Value-Enhanced Nutrition
   Developing school breakfast outreach materials for                   Assessment (VENA) initiative. VENA provides a
    schools and parents; and                                             process for completing a comprehensive WIC
                                                                         nutrition assessment, including the content of such an
   Continuing to advance the implementation of the
                                                                         assessment and an outline of the necessary staff
    Child Nutrition/WIC Reauthorization Act of 2004.
                                                                         competencies. USDA initiated the development of a
    This act requires all schools participating in School
                                                                         6-hour, train-the trainer DVD and 3 on-line training
    Lunch and School Breakfast Programs to establish
                                                                         modules;
    wellness policies. Such policies establish appropriate
    goals for nutrition education, physical activity and                Continuing to support the State Agency Model
    other school-based activities designed to promoted                   (SAM), an initiative to develop model WIC
    student wellness.                                                    information systems (IS) through multiple State
                                                                         agency consortia. SAM also transfers these models to
Trend data also indicate that the proportion of children                 other WIC State agencies to eliminate duplication and
enrolled in schools who participate in SBP has risen slowly              streamline the IS procurement process. SAM is
but steadily in recent years. This growth reflects USDA’s                consistent with USDA’s 5-year technology plan to
continuing efforts to encourage schools to operate the                   improve WIC system functionality by replacing
program.                                                                 automated legacy systems; and
Women, Infants and Children (WIC)—In FY 2007,                           Providing technical assistance to State agencies in
approximately 8.2 million participants received WIC                      implementing cost containment strategies. Savings
benefits. USDA addresses the health and nutritional needs                generated by actions such as competitive bidding,
of at risk, low-income pregnant, breastfeeding and                       rebates, least-cost brands and use of economically-
postpartum women, and those with infants and children                    priced package sizes are used by State agencies to
up to 5 years old. The Department provides them with                     provide benefits to more participants using the same
supplemental food packages, nutrition education and                      budget. Due to cost saving measures, average-per-
health and social services referrals. USDA continued to                  person WIC food costs have grown much more slowly
support and encourage WIC participation and improve                      than general food inflation during the last 16 years—
benefits and services by:                                                the average monthly food cost has increased by
                                                                         approximately 23 percent since FY 1990, while general
   Continuing work on regulatory changes to amend the
                                                                         food inflation as measured by the Thrifty Food Plan
    WIC food packages based on recommendations from
                                                                         (TFP) has increased 53 percent. TFP serves as a
    the Institute of Medicine in its report, WIC Food
                                                                         national standard for a nutritious diet at minimal cost.
    Packages: Time For A Change. USDA analyzed more
                                                                         It is intended as a guide to food shopping for low-
    than 46,000 comments received in response to the
                                                                         income households.
    proposed rule published in August 2006. The
    Department is working to develop an interim final rule
    that will be published in the fall of 2007;




                                                                94
                                           FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT




Exhibit 47:      Improve Access to Nutritious Food
                                                                                                             Fiscal Year 2007
                           Annual Performance Goals and Indicators                                Target             Actual     Result
              5.1.1   Improve Access to Nutritious Food:
                        Food Stamp Program Avg. Monthly Participation (millions of
                                                                                                   26.3               26.3
                      people)
                       National School Lunch Program Avg. Daily Participation (millions           31.0               30.6
                      of people)
                                                                                                                                 Met
                        School Breakfast Program Avg. Daily Participation (millions of
                                                                                                   10.4               10.1*
                      people)
                       Special Supplemental Nutrition Program for Women, Infants and              8.2                 8.2
                      Children (WIC) Monthly Participation (millions of people)
                          *The performance threshold allows for a “met” finding in the 9.8 to 10.9 million range.



Exhibit 48:     Trends in Improving Access to Nutritious Food


                                                                                                   Fiscal Year 2007
                                        Trends                               2003          2004           2005         2006     2007
              5.1.1   Improve Access to Nutritious Food:
                         Food Stamp Program Avg. Monthly
                                                                             21.3          23.9            25.7         26.7     26.3
                      Participation (mil)
                       National School Lunch Program Avg. Daily             28.3          28.9            29.6         30.0     30.6
                      Participation
                         School Breakfast Program Avg. Daily
                                                                              8.4          8.9             9.3          9.8      10.1
                      Participation (mil)
                         WIC Program Monthly Participation (mil)             7.6          7.9             8.0          8.1      8.2




OBJECTIVE 5.2: PROMOTE HEALTHIER EATING HABITS AND                               educational tools to help Americans take the necessary
                                                                                 “Steps to a Healthier You.” These steps are part of a
LIFESTYLES
                                                                                 concept that offers a personalized eating plan with the
Overview                                                                         foods and amounts that are right for a given individual.
Healthful eating is vital to reducing the risk of death or
disability due to heart disease, certain cancers, diabetes,                                                      Key Outcome
stroke, osteoporosis and other chronic illnesses. Despite                                 Promote More Healthful Eating and Physical
this, a large gap remains between recommended dietary                                             Activity across the Nation
patterns and what people in the U.S. actually eat. USDA
uses Federal nutrition policy and nutrition education, both
for the general public and those served by the nutrition                         Diet-related health conditions such as being overweight or
assistance programs, to provide scientifically based                             obese are serious risk factors for premature death and
information about healthful diets and lifestyles. The                            disability in the U.S. Improved diets can help with weight
Department uses, for example, the Dietary Guidelines for                         management and reduce the risk of chronic diseases
Americans and MyPyramid to help people in the U.S. make                          including certain types of cancers and type 2 diabetes.
wise choices related to food and physical activity. The                          Thus, USDA’s efforts focus on updating nutrition policy,
Guidelines provide advice about food choices that promote                        providing information and promoting behavioral changes
health and prevent disease. MyPyramid provides the



                                                                            95
                                                      FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



that can help to prevent and, over time, reduce obesity and          messages in their shops, or school teachers who tell their
other diet-related health conditions.                                students important information they have learned about
                                                                     nutrition.). Promotional materials will be used both within
Science has established strong links between diet and                Federal nutrition-assistance programs and with the general
health. Researchers attribute about 300,000 premature                public.
deaths annually to poor diets. The total costs attributed to
overweight and obesity are estimated to be nearly $120               More broadly, attaining performance outcomes in this area
billion annually. Even small improvements in the average             depends partly on the emphasis that the Nation places on
diet would yield large health and economic benefits to               healthier eating, including products and practices in the
individuals and society as a whole.                                  food marketplace. Additionally, physical activity and other
The Department will continue promoting diets and                     lifestyle issues significantly impact body weight and health.
behaviors as a vital public-health issue. The Dietary                USDA promotes healthful eating through its
Guidelines for Americans is the cornerstone of Federal
                                                                     comprehensive nutrition assistance research and education
nutrition guidance. USDA uses the 2005 Dietary
                                                                     programs. Efforts are targeted to nutrition assistance
Guidelines and MyPyramid, the Guidelines’ educational
                                                                     program participants and the general public. For each
tool, to continue its leadership role of providing advice
                                                                     target audience, the challenge is to find effective ways to
people in the U.S. can follow to improve overall health
through proper nutrition.                                            translate research into working knowledge to understand
                                                                     what people eat, and to find effective strategies to reach
Challenges for the Future                                            target populations with promotional information and
While USDA’s goal of reducing obesity levels begins with             messages.
understanding what constitutes a healthy diet and the                USDA tracks its annual performance in promoting
appropriate balance of exercise, success requires individuals        healthful eating and physical activity by monitoring its
to change their diets by modifying their eating behavior.
                                                                     annual distribution of nutrition education materials. Over
Crafting more effective messages and nutrition education
                                                                     the longer term, USDA assesses the effect of these efforts
programs to help people make better food choices requires
                                                                     with the Healthy Eating Index (HEI), a summary measure
understanding their current choices and the relationships
                                                                     of diet quality developed by USDA’s Center for Nutrition
between these choices and their attitudes, knowledge and
awareness of diet/health links. Accomplishing this                   Policy and Promotion. The Department sets targets for
understanding requires data that link behavior and                   improvement in the HEI both for the U.S. population as a
consumption decisions for diverse individuals. While data            whole and among people with incomes at or below 130
exist nationally, current survey sample sizes do not yield           percent of poverty.
reliable information for population subgroups.                       Analysis of Results
While updated Federal nutrition guidance is an important             To meet the needs of the general population, USDA
step in helping Americans develop and maintain healthier             continued its leadership role in the promotion of nutrition
diets and lifestyles, using this guidance to motivate                guidance through educational tools designed to motivate
Americans to change remains challenging because of the               people to live healthier:
limited resources available for nutrition promotion. USDA
will continue to explore ways to devote significant long-               Usage level of nutrition guidance tools was substantial,
term resources to develop consumer-friendly and cost-                    with more than 2 billion pieces of nutrition guidance
effective nutrition education materials. The Department                  materials distributed via the Web and print materials.
will also use partnerships and “information multipliers” to              Additionally, registrations continue to increase for the
maximize the reach and impact of these materials                         MyPyramid Tracker, an on-line diet and physical
(“Information multipliers” are people used to share                      activity assessment tool. The tracker has logged 2.7
information, such as shopkeepers who post public service                 million registrations since 2005; and



                                                                96
                                           FY 2007 Performance and Accountability Report
                                                            ANNUAL PERFORMANCE REPORT



    Consumers using the MyPyramid Food Guidance                                             prompted them to take action regarding their health.
     System personalize the information they receive via the                                 These actions included changing their diet or their
     electronic educational tools at MyPyramid.gov. For                                      family’s diet, monitoring what they ate, reducing
     example, throughout the year, 61 to 77 percent of the                                   unhealthful eating practices, obtaining a personalized
     consumers who responded to a satisfaction                                               eating plan or setting a physical activity goal.
     questionnaire at the site indicated that its information

Exhibit 49:   Promoting Healthier Eating Habits and Lifestyles


                                                                                                              Fiscal Year 2007
                       Annual Performance Goals and Indicators                                     Target               Actual          Result
                                                                                                              2
               5.2.1    Application and usage level of nutrition guidance tools             2.0 billion pieces of      2.6 billion      Exceeded
                        pieces* of nutrition guidance distributed                            nutrition guidance
                                                                                                 distributed
               *Represents number of hits to MyPyramid.gov links and number of print materials distributed.



Exhibit 50:   Trends to Promote Healthier Eating Habits and Lifestyles


                                                                                                         Fiscal Year 2006
                                         Trends                                  2003           2004          2005          2006          2007
               5.2.1     Application and usage level of nutrition
                                                                                  NA             NA               NA      1.5 billion   2.6 billion
                         guidance tools




2
 Represents number of e-hits to MyPyramid.gov links and number of print materials distributed.




                                                                                  97
                                                         FY 2007 Performance and Accountability Report
                                                        ANNUAL PERFORMANCE REPORT



                                                                                 and local Governments also bear direct responsibility for
                                                                                 delivering the programs. Thus, the Department must work
      Selected Results in Research, Extension and Statistics
                                                                                 with these groups to address improper payment problems
  Possible Implications for U.S. Agriculture From Adoption of Select             through monitoring and technical assistance. This
  Dietary Guidelines. To help Americans meet nutritional requirements
  while staying within caloric recommendations, USDA’s 2005 Dietary
                                                                                 approach requires adequate numbers of trained staff
  Guidelines for Americans encourage consumption of fruits, vegetables,          supported by a modernized information technology
  whole-grain products, and fat-free or low-fat milk or milk products. A         infrastructure to ensure full compliance with national
  November 2006 Department report provides one view of the potential             program standards and prevent or minimize error, waste
  implications for U.S. agriculture if Americans changed their current
  consumption patterns to meet some of those guidelines. For Americans           and abuse.
  to meet the fruit, vegetable and whole-grain recommendations, domestic
  crop acreage would need to increase by an estimated 7.4 million                To meet the challenge of continued improvements in Food
  harvested acres, or 1.7 percent of total U.S. cropland in 2002. To meet        Stamp Program payment accuracy, USDA continues to
  the dairy guidelines, consumption of milk and milk products would have         dedicate resources to this area. Despite this strategy, two
  to increase by 66 percent. An increase of that magnitude likely would
                                                                                 significant challenges will impact future success.
  require an increase in the number of dairy cows, feed grains and,
  possibly, acreage devoted to dairy production.                                 Congressional action has changed the quality control
                                                                                 process, lowering the risk of penalties for poor State
                                                                                 agency performance. However, State agencies have, for the
                                                                                 most part, risen to the challenge and continue to achieve a
OBJECTIVE 5.3: IMPROVE FOOD PROGRAM MANAGEMENT
                                                                                 high level of payment accuracy. Additionally, State budgets
AND CUSTOMER SERVICE
                                                                                 have been and will continue to be extremely tight. This
Overview                                                                         factor could hurt State performance in payment-accuracy.
                                                                                 USDA will continue to provide technical assistance and
USDA is committed to ensuring that nutrition-assistance
                                                                                 support to maintain payment accuracy in the context of
programs serve those in need at the lowest possible costs
                                                                                 this changing program environment.
and contain a high level of customer service. Managing
Federal funds for nutrition assistance effectively, including                    While 2007 data are not yet available, food stamp payment
prevention of program error and fraud, is a key component                        accuracy remained strong in 2006. This factor reflects
of the President’s Management Agenda. The Department                             State and Federal efforts helping to reduce errors
focused on maintaining strong performance in the food                            significantly during the past several years. Even small
stamp payment-accuracy rate as its key performance goal                          changes in the food stamp error rate can save millions of
in this area.                                                                    dollars.

                             Key Outcome                                               Selected Results in Research, Extension and Statistics
           Maintain a High Level of Integrity in the                               A New Economic Model of Monthly Income Dynamics. Reporting
               Nutrition Assistance Programs                                       requirements and recertification periods are important tools for
                                                                                   managing the Food Stamp Program (FSP) caseload. These tools
                                                                                   provide access for eligible households while minimizing participation by
Challenges for the Future                                                          ineligible households at a reasonable administrative cost. This project
                                                                                   expands capabilities for examining month-to-month effects of policy
Some improper payment risks are inherent to the
                                                                                   options on reporting and recertification. It develops a new economic
legislatively mandated program structure. This structure is                        model that follows a panel of households over time. The project also
intended and designed to be easily accessible to people in                         examines their interaction with FSP to help assess tradeoffs between
special circumstances and settings. USDA must shape its                            participation and administrative activities. The first output from the
                                                                                   project, The MID-SIPP Model: A Simulation Approach for Projecting
management approach in light of the need to make                                   Impacts of Changes in the Food Stamp Program, introduces the Monthly
services convenient and accessible to participants. State


                                                                            98
                                                      FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT




    Income Dynamics, Survey of Income and Program Participation (MID-                  Such USDA efforts as an enhanced Partner Web (an
    SIPP) model. MID-SIPP was developed to simulate the effects of rule                Intranet for State Food Stamp agencies) and the National
    changes in FSP eligibility, participation and cost. The model also tracks          Payment Accuracy Work Group (consisting of
    administrative activity associated with certification and reporting
    requirements. The simulation indicated that total FSP benefits paid                representatives from USDA headquarters and regional
    quarterly would be $17.1 billion, or $1 billion more than through monthly          offices) contributed significantly to this success. The group
    reporting. Quarterly reporting results in an estimated 37 percent                  is comprised of program experts to ensure continued error
    reduction in the total number of administrative reports.
                                                                                       reduction through increased monitoring and analysis of
                                                                                       error rate data, improvements in State corrective actions,
Analysis of Results                                                                    and increased technical assistance to States. These efforts
The FY 2007 Food Stamp Payment Accuracy Rate will                                      made timely and useful payment accuracy-related
become available in June 2008. It will be reported in the                              information and tools available across the country.
FY 2008 Performance and Accountability Report.                                         Additionally, the Department continued to use an early
                                                                                       detection system to target States that may be experiencing
The FY 2006 Food Stamp Payment Accuracy Rate was                                       a higher incidence of errors based on preliminary quality
94.01 percent, the third consecutive year of a payment                                 control (QC) data. Actions then are taken by regional
accuracy rate greater than 94 percent. Performance                                     offices to address these situations in the individual States.
highlights include:
                                                                                       USDA’s close working relationship with its State partners
    Twenty-five States with a payment accuracy rate                                   during the last several years, along with program changes
     greater than 94 percent; and                                                      to simplify rules and reduce the potential for error, has
      The number of top-performing States and their                                   resulted in consistent increases in the Food Stamp
           performance level increased between 2005 and                                Payment Accuracy Rate. One of the most important
           2006:                                                                       factors in maintaining improved performance in this area is
      In 2006, 13 States had payment accuracy rate                                    the need for State partners to continue and renew their
           greater than 96 percent—a more than 50 percent                              leadership commitment to excellence in payment accuracy.
           increase from 2005, when only 8 States reached                              To support State improvement, the Department will
           that level; and                                                             continue efforts with the National Payment Accuracy
                                                                                       Work Group to share best-practice methods and
    The lowest State performance level that merited a
                                                                                       strategies. USDA will also continue to resolve QC
     performance bonus for best payment accuracy in FY
                                                                                       liabilities through settlements, which require States to
     2006 was 96.6 percent. This figure is an increase from
                                                                                       invest in specific program improvements.
     the FY 2005 “cutoff” level of 95.6 percent, reflecting a
     greater concentration of high-performing States at the
     very highest accuracy rates.

Exhibit 51:   Increase Efficiency in Food Management


                                                                                                                Fiscal Year 2007
                             Annual Performance Goals and Indicators                                  Target          Actual       Result
                5.3.1    Improve Food Program Management and Customer Service
                              Increase Food Stamp Payment Accuracy Rate                               94.2%            NA         Deferred*
                *Food Stamp data will become available in June 2008. Results will be reported in the FY08PAR.




                                                                                  99
                                                          FY 2007 Performance and Accountability Report
                                                          ANNUAL PERFORMANCE REPORT




Exhibit 52:   Trends in Increased Efficiency in Food Management


                                                                                                      Fiscal Year 2007
                                       Trends                                 2003           2004              2005      2006    2007
               5.3.1    Increase Food Stamp Payment Accuracy
                                                                              93.4%          94.1%             94.2%     94.0%   NA*
                        Rate
               *Food Stamp data will become available in June 2008. Results will be reported in the FY08PAR.


                                                                                     environment bear the consequences and the costs for
Strategic Goal 6: Protect and Enhance the Nation’s
                                                                                     degraded water quality.
Natural Resource Base and Environment
                                                                                     The quality of water resources can be protected by
OBJECTIVE 6.1: PROTECT WATERSHED HEALTH TO ENSURE                                    preventing the movement of sediments, nutrients and
CLEAN AND ABUNDANT WATER                                                             chemicals from agricultural lands. Conservation practices
Overview                                                                             designed to prevent the transport of these materials from
                                                                                     farmland can significantly reduce the movement of
Agricultural land and forest land produce food, feed, fiber,
                                                                                     pollutants into groundwater, rivers, and lakes. These
forest products and energy necessary to supply the Nation’s
                                                                                     include conservation practices that reduce topsoil erosion,
needs. Proper management of agricultural and forest land
                                                                                     manage nutrients, and control runoff. In addition,
is important. Without proper management, water
                                                                                     vegetated buffers between farmland and water sources
resources may become degraded. Application of
                                                                                     improve water quality and habitat for fish and wildlife
conservation systems enables both productive use of
                                                                                     populations by intercepting sediment, nitrogen and
natural resources and protection of natural resource quality.
                                                                                     phosphorus in runoff before these pollutants enter lakes,
                                                                                     ponds, wetlands, and waterways. Forested buffers also
                              Key Outcome                                            provide shade—thereby cooling streams and rivers—and
                    Clean and Abundant Water                                         provide conservation cover and improved wildlife habitats.

                                                                                     Good management of water by agricultural producers is
Many production practices have the potential to cause                                important to water supply as well as water quality.
damage if they are not well managed. For example, tilling                            Agricultural irrigation accounts for a third of the water
the soil and leaving it without plant cover for extended                             withdrawn from surface water and groundwater. USDA
periods can accelerate soil erosion. Residues of chemical                            helps agricultural producers develop environmentally
fertilizers and pesticides may wash off the field into                               sound management practices for irrigation water
streams or leach through the soil into groundwater.                                  management. The assistance includes information on soil
Irrigation can move salt and other dissolved minerals to                             quality, water management and quality, plant materials,
surface water. Livestock operations produce large amounts                            resource management and wildlife habitat. The
of manure which, if not managed properly, can threaten                               Department provided assistance to producers to improve
human health and contribute to excess nutrient problems                              irrigation water management on over 2.0 million acres in
in wells, streams, rivers, lakes, and estuaries. When                                FY 2007.
pollutants impair water quality, ecosystems are degraded                             The Department provides technical and financial
and costs are imposed on those who rely on water for                                 assistance to agricultural producers to promote good
drinking and household use, recreational opportunities and                           stewardship of agricultural land. In addition to assistance
economic livelihoods. Individuals, communities and the                               on working lands, financial assistance includes payments to



                                                                               100
                                                        FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



agricultural producers for taking environmentally sensitive           worked with agricultural producers to develop
land out of production and planting it to long-term                   comprehensive nutrient management plans (CNMPs) on
resource-conserving groundcover. Land owners and                      more than 5,200 livestock operations and to complete
managers who receive technical assistance and cost-share              implementation of plans on 4,400 livestock operations.
or incentive payments are more likely to plan, apply and              These plans include considerations for the collection,
maintain conservation systems that support agricultural               storage, and handling of wastes; nutrient management;
production and environmental quality as compatible goals.             land treatment practices for erosion control; and vegetated
                                                                      buffers to protect water bodies.
In addition to assistance to producers, USDA helps
communities work together to protect community natural                The environmental benefits of USDA’s efforts to protect
resources. USDA assistance focuses on areas where                     watersheds by controlling and managing agricultural runoff
conservation is expected to have the greatest positive effect.        include healthier streams, rivers, estuaries, and lakes.
Assistance includes advice on drought and flood control               These benefits also lead to improved ecosystems and
management, collection and dissemination of natural                   wildlife habitats. Studies about the benefits of water-
resource data, and cost-share and technical guidelines. The           pollution reduction suggest that the annual benefits from
assistance provided to State and local government entities,           improving water quality could total tens of billions of
Tribes and private-sector organizations helps them protect            dollars. According to a 2003 USDA report on agricultural
the environment and improve the standard of living and                resources and environmental indicators, water-quality
quality of life for the people they represent.                        benefits from erosion control on cropland alone could total
                                                                      more than $4 billion annually. Improved water resources
USDA provides a portfolio of services to help protect and
                                                                      reduce water treatment costs and mean safer drinking
enhance the Nation’s water resources. The portfolio
                                                                      water supplies for communities.
includes technical assistance in planning and applying
conservation, technical information on water resources,               During FY 2007, USDA provided assistance to local
and financial assistance to apply conservation practices.             groups and governments to develop watershed and area-
                                                                      wide plans. These plans address a wide range of water
In 2007, USDA conservation experts assisted people in
                                                                      resources concerns. The Department also helped local
writing or updating conservation plans on private land for
                                                                      communities complete the installation of 200 flood-
more than 15.4 million acres of working cropland and 26.5
                                                                      prevention or mitigation measures. In addition, the 13
million acres of grazing lands. Conservation plans provide
                                                                      dams determined to be at or nearing the end of their 50-
producers with information on the capability of their soil,
                                                                      year design life were rehabilitated or removed. Upgrading
condition of their grazing lands and woodlands, irrigation
                                                                      and removing these dams eliminated threats to life and
water management, wildlife habitat needs, and measures to
                                                                      property, mitigated flood damages, enhanced wetlands and
improve or protect soil, water and air quality. These plans
                                                                      wildlife, and created recreational benefits.
serve as a land-use management tool to support healthy
soil, water, plant, animal, and human communities. The                USDA also provided producers with financial assistance.
Department assisted agricultural producers with                       These incentives helped offset the cost of installing
implementing planned practices on 15.9 million acres of               conservation practices and riparian and grassland buffers
cropland and 28.0 million acres of grazing lands. Of these            and maintained sound conservation. Major programs
acres, more than 32 million acres benefited from                      providing financial assistance for water resources included:
conservation practices selected to improve water quality.
                                                                         Environmental Quality Incentives Program (EQIP)
Much of USDA’s assistance for water quality is directed                   provided nearly $453 million in cost-share and
towards livestock producers to reduce the risk of nutrients               incentives for water conservation and water quality in
entering waterways from animal operations. USDA                           FY 2007. EQIP assistance is provided for improving


                                                                101
                                            FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



    management on working land. In addition, EQIP                    USDA provides essential information about water supply
    funded grants to help partners identify and solve                in the western states. Users accessed the National Water
    regional, State and local natural resources concerns;            and Climate Center Web site millions of times. The site,
   Conservation Reserve Program (CRP) is the nation’s               http://www.wcc.nrcs.usda.gov/, hosts data on snowpack,
    largest private-lands conservation financial assistance          hydroclimate, and soil moisture, which helps agricultural
    program, with over 36 million acres enrolled.                    producers effectively use limited water supplies for
    Producers enrolled in the program plant long-term,               agricultural production. The data also assist Federal, State
    resource-conserving covers such as grasses and trees. In         and local agencies to manage water compacts and treaties,
    return, USDA provides participants with rental                   and mitigate drought and flood damages. Officials from
    payments and cost-share assistance. Producers enter              municipalities can visit the site for information on
    into 10-to-15-year contracts. The program gives equal            operating reservoirs and supporting fish and wildlife-
    consideration for soil erosion, water quality, and               management activities associated with species protection.
    wildlife concerns, providing environmental and                   This site also provides data to the scientific community.
    economic benefits both on and off the farm.                      USDA’s Web-based energy awareness tools continue to
Reduced soil erosion and fertilizer applications on CRP              attract farmers, ranchers, and others from across the U.S.
enrolled acreage improve water quality. Permanent                    and around the world. These tools are designed to help
vegetative cover reduces runoff, while conservation buffers          agricultural producers reduce energy costs and assist
filter runoff. By reducing water runoff and filtering                producers in identifying ways to manage their operations
nutrients and sediment, CRP enrolled acreage protects                more efficiently. In FY 2007, USDA released the Energy
groundwater and helps improve the condition of lakes,                Estimator for Animal Housing, which helps producers
rivers, ponds and streams. A study by the Food and                   estimate energy savings for poultry, swine, and dairy
Agricultural Policy Research Institute estimated the                 operations. This new tool joins the Energy Estimator for
impact of CRP enrollment on nitrogen, phosphorus and                 Tillage, Energy Estimator for Nitrogen Fertilizer and
erosion leaving field edge and root zones and showed                 Energy Estimator for Irrigation, which were released in
significant reductions. These reductions mean that fewer             FY 2006. These tools help protect water resources and
pollutants enter water resources. CRP also assists in                reduce energy costs.
reversing the loss of wetlands, grassland and wildlife
habitat that has occurred historically as lands were
converted to agricultural use.                                             Selected Results in Research, Extension and Statistics
A key USDA strategy for increasing conservation is                     Diet Change in Animals Can Reduce Air and Water Pollution.
                                                                       Agriculture is the primary source of ammonia in the atmosphere in the
facilitating the growth of market-based opportunities that             U.S. Once in the atmosphere, ammonia can be converted to fine
encourage the private sector to invest in conservation on              particulate matter, one of the six U.S. Environmental Protection Agency
private lands. In FY 2007, USDA entered into a                         criteria pollutants. It can pollute bodies of water, as well. A study
partnership agreement with the U.S. Environmental                      evaluated the effect on air emissions of feeding swine and broiler
                                                                       chickens reduced crude protein diets. The impact was a 40-to-50
Protection Agency to establish and promote water quality               percent reduction in ammonia emissions with no negative performance
credit trading markets through cooperative conservation.               effects in either species.
The agreement features a pilot project within the                      Less Greenhouse Gas—and More Carbon Credits Per Pig. This
Chesapeake Bay basin to showcase the effectiveness of                  achievement marks the latest environment-friendly benefits being
environmental markets. Water quality credit trading uses a             credited to an innovative hog waste-management system invented by
                                                                       USDA scientists in South Carolina. The system turns hog waste into
market-based approach that offers incentives to farmers
                                                                       material for soil amendments and fertilizers. Simultaneously, the process
and ranchers who implement conservation practices that
improve water quality.


                                                               102
                                           FY 2007 Performance and Accountability Report
                                                          ANNUAL PERFORMANCE REPORT




  removes almost all suspended solids, phosphorus and ammonia from                  In FY2007 targets were set for the Conservation Technical
  wastewater. The researchers found that replacing conventional                     Assistance Program (CTA) and Environmental Quality
  anaerobic lagoon practices with the new system reduced greenhouse                 Incentives Program (EQIP) for helping livestock
  gas emissions by 97 percent. In turn, this reduction cut annual emissions
  from 4,972 tons of carbon dioxide equivalents to just 153 tons. These             producers apply comprehensive nutrient management
  numbers indicate that the system may assist the fledgling carbon dioxide          plans (CNMPs). These systems include conservation
  trading market. Farmers then would be able to earn money based on                 practices implemented for waste collection and storage,
  how much carbon dioxide and other greenhouse gases they can prevent
                                                                                    nutrient management, land treatment practices for erosion
  from entering the atmosphere using alternative technologies.
                                                                                    control, and vegetated buffers to protect water bodies.
  Online Cropland Data Layers (CDL). CDL combines remote sensing
                                                                                    These actions enable agriculture to meet long-term goals
  imagery and USDA survey data to produce supplemental acreage
  estimates for a given State’s major commodities. The entire CDL                   for clean water. USDA met its FY 2007 target for CTA,
  inventory produced by the Department was posted on its GeoSpatial                 but did not meet its target for EQIP. CNMPs are complex
  Gateway at http://datagateway.nrcs.usda.gov/GatewayHome.html.                     systems that require substantial investment of technical
  There, interested users will be able to browse, query and download the
  CDL inventory. In the past, the data have been used for watershed and
                                                                                    assistance, financial resources, and management. As animal
  water quality monitoring, grain transportation and storage planning, crop         agriculture has become more concentrated, public concern
  rotation pattern analysis across years, quality control for other                 has increased about the potential for damage to the
  Government or commercial land use categorizations, prairie water                  environment. USDA has focused on helping producers
  pothole monitoring, and agribusiness planning for processing plant
  location. Data users include commercial entities, such as crop                    comply with State and local regulations and minimize the
  insurance, seed, fertilizer and chemical and equipment companies.                 potential that their operations might damage water or air
  Educational institutions, Governmental agencies and not-for-profits also          resources. However, uncertainty over the Concentrated
  use the information.
                                                                                    Animal Feeding Operation Rule may have had an impact
                                                                                    on the implementation of CNMPs.

Challenges for the Future                                                           The long-term goal for USDA conservation programs is to
                                                                                    protect and enhance the Nation’s natural resources and
External factors present challenges to accomplishing the
                                                                                    environment to meet the needs of current and future
conservation goals set by USDA. If market prices are
                                                                                    generations. The USDA Strategic Plan for FY 2005-2010
favorable, agricultural producers may be enticed into
                                                                                    set a strategy of helping producers increase the number of
leaving targeted, environmentally sensitive cropland in
                                                                                    riparian and grass buffers on agricultural lands. These
crop production rather than establishing long-term
                                                                                    buffer areas intercept sediment and nutrients before they
conservation covers or buffers. High fuel prices affect
                                                                                    reach surface waters. As one indicator of its performance in
farmers and ranchers by increasing overhead costs.
                                                                                    achieving this strategy, USDA monitors acreage of
Landowners may be more reluctant to enroll in new
                                                                                    agricultural lands to be enrolled as buffer zones in CRP.
programs, implement new conservation practices or adopt
                                                                                    During the past five years, the number of acres set aside as
new technologies that could decrease their bottom line.
                                                                                    buffer areas under the CRP program has increased
Additionally, natural disasters and prolonged drought
                                                                                    steadily. However, the performance target of 2 million
conditions may also reduce the effectiveness of USDA’s
                                                                                    acres was missed by approximately .05 million acres this
conservation programs.
                                                                                    fiscal year. One main reason for the missed target was the
Analysis of Results                                                                 dramatic increase in commodity prices in recent months.
In FY 2007, USDA made significant progress towards                                  For example, in November 2006, prices for corn, wheat,
protecting watershed health to ensure clean and abundant                            and soybeans increased 96, 25, and 15 percent respectively.
water.                                                                              These higher values have increased what farmers can get
                                                                                    for their crops and reduced the incentive to take their
                                                                                    farmland out of production and enroll it into the CRP.



                                                                              103
                                                       FY 2007 Performance and Accountability Report
                                                               ANNUAL PERFORMANCE REPORT



Additionally, expected land rental rate adjustments are                                    favorable, agricultural producers may choose to continue to
creating some market uncertainty leading eligible                                          crop environmentally sensitive land rather than
producers to delay enrollment in the program. Currently,                                   establishing long-term conservation covers or buffers.
producers have set aside approximately 1.95 million acres                                  High fuel prices affect farmers and ranchers by increasing
as CRP buffer areas. Total CRP enrollment now stands at                                    overhead costs. Landowners may be more reluctant to
36.7 million acres. The last available data indicate that the                              participate in new programs, implement new conservation
program has assisted in reducing soil erosion by 454                                       practices or adopt new technologies that could affect their
million tons annually, reducing nitrogen, phosphorus and                                   bottom line. Natural disasters and prolonged drought
sediment leaving the field by more than 85 percent, and                                    conditions may also reduce producers’ ability to participate
sequestering more than 48 million metric tons of carbon.                                   in USDA’s conservation programs.

External factors present challenges to accomplishing the
conservation goals set by USDA. If market prices are

Exhibit 53:   Healthy Watersheds, High Quality Soils and Sustainable Ecosystems


                                                                                                                           Fiscal Year 2007
                                Annual Performance Goals and Indicators                                       Target           Actual          Result
                   6.1.1     Number of Comprehensive Nutrients Management Plans applied
                              Conservation Technical Assistance                                               1,900            1,911
                                                                                                                                      1
                                                                                                                                                Met
                              Environmental Quality Incentives Program                                        3,000            2,490
                                                                                                                                       2
                                                                                                                                               Unmet
                   6.1.2     Increase Conservation Reserve Program (CRP) acres of riparian                   2.0 million      1.95 million     Unmet
                                                                                                                      3                3
                             and grass buffers                                                                 acres             acres
                   1
                     Data assessment metrics to meet the target allow for an actual number in the range 1,710 - 2,090.
                   2
                     Data assessment metrics to meet the target allow for an actual number in the range 2,700 – 3,300.
                   3
                     Cumulative.


Exhibit 54:   Trends in Application of Comprehensive Nutrient Management Plans and CRP Riparian and Grass Buffers


                                                                                                         Fiscal Year Actual
                                       Trends                                   2003             2004              2005            2006           2007
              6.1.1        Number of Comprehensive Nutrient
                           Management Plans applied
                            Conservation Technical Assistance                  2,132            2,372             2,420           2,269          1,911
                            Environmental Quality Incentives                    948             1,055             2,032           2,774          2,490
                           Program
              6.1.2        Increase Conservation Reserve Program            1.45 million      1.65 million     1.75 million     1.86 million   1.95 million
                                                                                     1                 1                1                1              1
                           (CRP) acres of riparian and grass buffers           acres             acres            acres            acres          acres
              1
                  Cumulative.




                                                                                     104
                                                             FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



Objective 6.2: Enhance Soil Quality to Maintain Productive            USDA helps producers plan and apply conservation
Working Cropland                                                      practices to enhance soil health. The most widely applied
Overview                                                              practices were conservation crop rotations and residue-
                                                                      tillage management. These practices protect soil quality by
High quality soils are the foundation of productive
                                                                      reducing erosion and increasing organic matter and carbon.
croplands, forest lands and grasslands. Soil quality
management focuses on sustaining and enhancing soil                   Land managers who receive the Department’s technical
condition to provide both agricultural and environmental              assistance are more likely to plan, apply and maintain
benefits. Intensively used soils, such as those used for the          conservation systems that support agricultural production
production of annual crops, are most vulnerable to                    and environmental quality as compatible goals. Thus,
degradation.                                                          producers can be good stewards of the Nation’s resource
                                                                      base. Their good management ensures that the Nation will
                                                                      continue to have a quality soil-resource base. Such a
                        Key Outcome
                                                                      resource base enables the sustained production of a safe,
           Enhanced Soil Quality
                                                                      healthy and abundant food supply.

                                                                      High quality soils support the efficient production of crops
High quality soils are also the foundation of a healthy               for food, fiber and energy. Proper soil management
environment, benefiting water, air, plants and animals. In            maximizes agricultural production and improves the
terms of water quality, soils provide for the efficient cycling       environment. By helping producers reduce erosion,
of nutrients and breakdown of pesticides, preventing                  minimize compaction and increase soil organic matter,
unwanted materials from entering surface and ground                   USDA helps producers enhance the quality of cropland
water. Healthy soils also sequester carbon. This process              soils.
reduces atmospheric carbon dioxide levels that contribute
to climate change. High quality soils also sustain plant and          Information on soil properties is the essential basis for
animal life through increased water holding capacity and              protecting and enhancing soil quality. In FY 2007, USDA
improved filtration ― reducing the negative impacts of                mapped or updated soil surveys for 36.4 million acres.
drought, flood and disease.                                           Additionally, 96 legacy surveys were published, covering
                                                                      about 52 million acres. The surveys are available at
Soil quality is affected by management—it can be                      http://websoilsurvey.nrcs.usda.gov/app/WebSoilSurvey.asp
degraded by poor management or maintained and even                    x. A recent customer-satisfaction poll ranks the Web soil
improved by good management. Conservation practices,                  survey as a top Internet destination. The site boasts almost
such as residue-tillage management, cover crops, crop                 24,000 visits per week. Soil surveys offer local information
rotations, strip-cropping and irrigation-water management             on the capabilities and conservation treatment needs of
reduce soil erosion and compaction, increase soil organic             soils within a given region. They provide basic information
matter and improve its water-holding capacity.                        for conservation planning. The surveys also represent the
USDA has set a long-term objective for improving                      foundation to sound land use planning and agricultural
cropland soil condition. The soils most vulnerable to                 production. USDA provides the scientific expertise to
damage are those in such intensive uses as annual                     enable a uniform system of mapping and assessing soil
cropping. In 2003, 60 percent of the Nation’s cropland was            resources across the Nation. Historically, the Department
farmed under systems that maintained or improved soil                 has produced soil surveys along geo-political boundaries.
condition and its capacity to sequester carbon. By 2010,              Future efforts will be directed toward developing dynamic,
the goal is to increase that number to 70 percent.                    seamless national soil survey coverage.




                                                                105
                                            FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



USDA helped producers develop or update conservation                economically feasible practices such as residue-tillage
plans covering 15.4 million acres of cropland and 24.3              management. USDA exceeded the target for assistance
million acres of grazing land recorded in its national              provided with CTA. EQIP provides cost shares for
conservation plan database. Additionally, technical                 capital-intensive practices needed to solve difficult
consultations helped land managers with other decisions             problems on environmentally sensitive land or comply with
not recorded as a final plan in the database. To develop            local or State regulations. Small acreages also are protected
plans for good stewardship of soil resources, Department            through other programs. Because conservation plans and
conservation planners helped land managers work through             practices may be applied with assistance from more than
a structured process to analyze and work with complex               one program, some acres reported for one program also
natural processes in definable and measurable terms.                may be included in those reported for another program.
Conservation plans for individual fields and farms are
                                                                    The Conservation Security Program (CSP) is a voluntary
designed in the context of the larger landscape. They
                                                                    program that provides financial and technical assistance to
enable the producer to meet economic and environmental              promote conservation on working agricultural lands. The
goals.                                                              CSP supports ongoing natural resource stewardship by
USDA helps producers implement conservation practices               identifying and rewarding those farmers and ranchers
                                                                    meeting the very highest standards of conservation and
on their land that meet established technical standards and
                                                                    creating powerful incentives for other producers to meet
specifications. Most quantitative performance measures
                                                                    those same standards. CSP provides payments for
that the Department has established for its conservation            enhancement activities, which are management measures
programs are for practices implemented. Implementation              that exceed the sustainability level for a given resource,
feeds directly into achieving long-term outcome goals. In           concern, or go beyond the minimum requirements of a
FY 2007, USDA assisted in applying conservation                     management practice. Performance measures for CSP
practices on 14.2 million acres of cropland.                        reflect new conservation enhancement activities applied on
                                                                    cropland. In FY2007 USDA met its CSP targets.
USDA provides financial assistance to encourage
producers to adopt land treatment practices proven to               Application of conservation practices that improve soil
provide significant public benefits. In FY 2007, financial          quality is considered the best indicator of accomplishments
assistance for practices applied primarily to address soil          that link directly to the long-term objective of increasing
quality issues included $349 million in Environmental               the acreage under soil-enhancing management. Farming is
Quality Incentives Program (EQIP) cost-shares, or                   dynamic because producers frequently change crops,
                                                                    equipment and management practices. Thus, they need
incentives for adopting structural measures or management
                                                                    help in adjusting conservation systems even on land well
practices to reduce erosion and protect cropland.
                                                                    protected through the previous system. The Department
Analysis of Results                                                 helped producers apply conservation practices in plans
                                                                    covering 15.9 million acres of cropland and 23.6 million
USDA met its targets for helping producers apply                    acres of grazing land. The majority of this basic soil
conservation practices to improve soil quality on cropland.         protection was planned through CTA and applied with
This performance measure includes all cropland and hay              assistance through the program and EQIP.
land on which USDA-assisted producers apply
conservation measures to maintain or enhance soil quality,          Economics and weather can impact producers’ willingness
and enable sustained production of safe, healthy and                to adopt conservation measures that improve soil condition
                                                                    on cropland. Market conditions and rising energy costs
abundant food supply. Targets are set only for the
                                                                    could affect producers’ abilities to invest their own funds
Conservation Technical Assistance Program (CTA) and
                                                                    and willingness to take any risk associated with changing
the Environmental Quality Incentives Program (EQIP).                management. Natural disasters and prolonged unfavorable
CTA provides assistance for the most widely-used,                   weather conditions also could reduce the opportunities for


                                                              106
                                          FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT



producers to implement conservation practices. As it
relates to the soil data collection and dissemination, budget
and staffing constraints in partnering Federal and State
agencies and universities could reduce the number of acres
mapped and the total number of soil surveys updated.
USDA, in cooperation with other Federal, State, Tribal
and local agencies, and private organizations, will work to
provide producers with information and other resources
they need to adopt applicable conservation measures.
USDA will face challenges associated with soil data
collection and dissemination. The Department will seek to
strengthen partnerships and form new ones with entities
having common interests. It will also use technology to
improve data-collection efficiency.

Exhibit 55:   Enhanced Soil Quality


                                                                                                                    Fiscal Year 2007
                             Annual Performance Goals and Indicators                                    Target           Actual           Result
                6.2.1    Cropland with conservation applied to improve soil quality, millions                                               Met
                         of acres
                            Conservation Technical Assistance Program                                     6.0              7.3
                            Environmental Quality Incentives Program                                      5.0              5.3
                            Conservation Security Program                                                0.14             0.14



Exhibit 56:   Trends in Soil Quality Protection

                                                                                                     Fiscal Year Actual
                                      Trends                                 2003            2004           2005            2006           2007
                6.2.1    Cropland with conservation applied to
                         improve soil quality, millions of acres
                            Conservation Technical Assistance                N/A
                                                                                  1
                                                                                             N/A
                                                                                                 1
                                                                                                              6.0            6.4             7.3
                            Environmental Quality Incentives                 N/A
                                                                                  1
                                                                                             N/A
                                                                                                 1
                                                                                                              2.2            3.4             5.3
                             Program
                            Conservation Security Program                    N/A             1.3             7.2            1.4            0.14
                1
                 This measure is new for the Department in FY 2007, but relates to the prior year measure for Cropland Soils Protected from Excessive
                Erosion. The measure has been designed to provide a better indicator of soil quality and includes all cropland and hay land on which
                USDA assisted producers to apply conservation measures to maintain or enhance soil quality and enable sustained production of safe,
                healthy, and abundant food supply. Performance data for FY2006 and FY2005 have been provided to indicate the prior year performance
                had this measure been employed at that time.




                                                                               107
                                                        FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT




                                                                                    include prescribed grazing, integrated pest management,
      Selected Results in Research, Extension and Statistics                        brush management, forest stand improvement and tree
  Improving Wine Grapes by Measuring Soil Moisture. Thanks to a                     planting. These practices, alone and in combination, create
  USDA-supported research project, ground-penetrating radar was used to             and maintain productive and environmentally beneficial
  map soil moisture down to a one-centimeter grid to varying depths in a            landscapes.
  commercial vineyard. This allows vineyard operators to refine their
  irrigation strategies to improve grape quality. Wine grapes are                   Four serious threats pose an increasing risk to the values,
  dependent on slight water stress. This new technology could increase
  both yield and quality, factors often inversely related in wine making,
                                                                                    goods and services provided by public and private
  while also saving water.                                                          forestland and grassland. These threats include wildland
  Sustaining the Soil for Shallow-rooted Vegetable Crop Systems.
                                                                                    fire, invasive species, loss of open space and unmanaged
  Heavily fertilized crops with shallow roots, such as potatoes, that leave         outdoor recreation. In many areas, especially in the West,
  small amounts of crop residue are susceptible to erosion and nitrate              most watersheds and landscapes include public land
  leaching. Studies by USDA scientists determined that nitrate leaching             managed by several Federal agencies and private, State and
  was minimized and soil nitrogen recovery improved significantly when a
  shallow-rooted crop was followed with a deep-rooted winter cover crop             Tribal lands. Protecting the natural resources in these areas
  like winter rye, malting barley or winter wheat.                                  requires cooperation among a large number of
                                                                                    stakeholders, with a focus on the whole landscape.

OBJECTIVE 6.3: PROTECT FORESTS AND GRASSLANDS                                       USDA’s forest protection performance measure focuses on
                                                                                    reducing the risks of catastrophic wildland fire. Its
Overview                                                                            performance measure for grazing land and non-Federal
                                                                                    forestland focuses on increasing the amount of land under
                              Key Outcome                                           conservation management that will protect ecosystem
ustainable Forest and Grassland Ecosystems                                          health and reduce susceptibility to damage by drought,
                                                                                    invasive species and wildfire.
Healthy forests and grasslands are essential to our quality                         Challenges for the Future
of life. Comprising half of the Nation’s land, these areas
provide timber and livestock forage. They also contribute                           Challenges include ensuring public and firefighter safety
to the health and well-being of the Nation’s water supply,                          while protecting public lands and assets still threatened by
air and wildlife. To ensure these resources are protected,                          fire in forests dense with ever-increasing vegetation and
USDA looks to reduce fire danger, minimize the threat of                            fuel. Additional challenges are the continued drought
invasive species and apply conservation practices that                              conditions throughout much of the Nation and the
reduce erosion and improve water quality.                                           expansion of communities into previously uninhabited
                                                                                    wildlands. This expansion makes up what is known as the
USDA serves as an active manager of 193 million acres of                            wildland urban interface. The historical trend shows
national forests and grasslands and a technical assistance                          increasing impact from wildland fire. As drought continues
provider on non-Federal forests and grasslands. The latter                          and communities expand into forested areas, the potential
comprises almost half of the continental U.S. As an active                          increases for even more deadly and damaging fires.
manager of Federal lands, the Department protects and                               Another challenge is the cost of containing wildfires.
manages national forests and grasslands so they support
multiple uses. Using technical and financial assistance,                            The 2002 coarse scale assessment of wildland fuels
USDA also helps landowners and operators address the                                determined that approximately 56 percent of all acres
risks on privately owned land, using conservation practices.                        managed by USDA have missed 2 or more expected fire
Conservation practices applied with Department assistance                           cycles and are at elevated risk from wildland fire. The finer



                                                                              108
                                                        FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



scale data available from LANDFIRE is expected to show               provide producers with information and other resources
an even greater departure from expected conditions in the            they need to adopt applicable conservation measures.
Nation’s forests and woodlands. Commercial utilization of
excess vegetation has been identified as one way to lower
                                                                     Reducing the Risk of Wildfire
the cost of Government forest fuel-reduction and                     More than 21 million acres of National Forest lands
restoration treatments. A barrier to expanding forest                burned during the FY 2007 fire season. Nationwide,
biomass utilization is the limited market for this material          wildfires consumed more than 9 million acres of public and
because of reduced forest products processing capacity in            private land. USDA and the U.S. Department of the
many Western States. Much of this material is small                  Interior (DOI) are using tools and authorities provided by
diameter and non-traditional species. This factor presents           the President’s Healthy Forests Initiative (HFI) and the
a further barrier to utilization where forest products               HFRA to promote project planning and implementation
processing capacity remains. Title II of Healthy Forests             to reduce fire hazards and restore forests and grasslands.
Restoration Act of 2003 (HFRA) authorizes measures to                HFI was launched in 2002 to reduce administrative
further commercial use of biomass. A significant challenge           process delays. HFRA provides improved statutory
for USDA and DOI is to expand the acreage of hazardous               processes for hazardous fuel reduction projects. It also
fuel and restoration treatments with available funding by            provides other authorities direction to help reduce
increasing the commercial utilization of hazardous fuel.             hazardous fuel and restore healthy forest and rangeland
The Departments are developing a strategy to encourage               conditions on lands of all ownerships. The USDA-DOI
greater biomass utilization, including as a domestic source          projects largely consist of removing excess vegetation and
of energy.                                                           prescribed burning (collectively, hazardous fuel reduction)
                                                                     to reduce the risk from wildfires.
With regard to private land, producers’ willingness and
ability to implement the conservation measures that would            Removing excess vegetation decreases fire hazards, which
achieve this outcome are affected by economic conditions,            improves firefighter and public safety. USDA treated more
drought and invasive species. Much of USDA’s activities              than 3 million acres to remove excess vegetation.
on private forestland and rangeland are taken in                     Approximately 1.7 million of these acres were treated
cooperation with State agencies. Thus, State-level budget            specifically to reduce hazardous fuels. On an additional 0.8
constraints that limited the assistance available from State         million acres, hazardous fuel levels were reduced through
programs would hamper USDA efforts to meet the goal                  watershed restoration and wildlife habitat rehabilitation
for non-Federal grazing land.                                        treatments. The Department also achieved management
                                                                     objectives on more than 250,000 acres when naturally
Both forest and grasslands are subject to land                       ignited fires met management prescriptions.
fragmentation pressures. Private forest land is the major
source of newly developed acres. Increasing fragmentation            USDA’s efforts to reduce the risks of wildfire are
of forest and grassland landscapes will increase the risk of         conducted in collaboration with Federal, State, tribal and
invasive species and wildfires. It may also threaten the             local Governments, and non-Governmental organizations.
overall health of forest and grassland ecosystems. To                USDA participated actively in Cooperative Conservation,
minimize problems, USDA will make more information                   promoting full partnership in the conservation of natural
and better planning tools available to local communities.            resources and the environment. Cooperative Conservation
This assistance will help them plan comprehensively for              is a voluntary program established to foster conservation
growth and resource protection.                                      partnerships that focus technical and financial resources on
                                                                     conservation priorities in watersheds and airsheds of
USDA, in cooperation with other Federal, State, Tribal               special significance. The Department is working with
and local agencies and private organizations, will work to           communities to develop Community Wildfire Protection



                                                               109
                                           FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



Plans (CWPP). CWPPs identify wildland fire hazards in                    data across a wide range of emphasis areas, from
areas within and surrounding communities. They also                      wildfire potential to wildland-urban interface areas at
identify high-priority hazardous fuels to treat for USDA.                risk from catastrophic wildfires; and
Additionally, CWPPs assist private citizens in                          Developing a Fire Program Analysis prototype. This
understanding better the role fire plays in ecosystem                    prototype incorporates initial response simulation and
health, interacting positively with Federal land managers                large fire statistical models with a decision support
and creating business opportunities.                                     system to be used to assist managers allocate fire
In addition to working on CWPPs, the Department has                      preparedness funding.
updated the National Fire Plan’s 10-year Comprehensive               Protecting communities and restoring forests and
Strategy Implementation Plan, in cooperation with DOI,               grasslands involves the integration of several key USDA
State and local Governments, and non-Governmental                    programs that manage vegetation. The hazardous fuel
partners. This plan identifies a collaborative approach for          reduction program is a key piece of this effort, along with
reducing wildland fire risks to communities and the                  treatments to improve timber and range productivity,
environment. Goals established in the original 10-Year               wildlife habitat, forest health, and watershed quality.
Comprehensive Strategy Implementation Plan were met in               USDA and DOI are working together to implement a
FY 2006, just five years after the National Fire Plan’s              seven-step framework for the Strategic Placement of
establishment.                                                       Treatments (SPOTS). This approach to designing
Other 2007 accomplishments in addressing hazardous fuel              treatment patterns at landscape scales specifically to reduce
conditions and reducing the impacts of wildfire include:             fire size and severity and alter problem fire behavior while
                                                                     also benefiting other resources is a way to leverage funds
   Developing new fire and fuels performance measures
                                                                     and align multiple management objectives into a single
    to more effectively measure the impact of treatments
                                                                     plan for interventions tailored to site-specific needs and
    on the landscape;
                                                                     challenges. SPOTS approaches will support and increase
   Investing more than 60 percent of the dollars available          the Department’s ability to protect communities and
    for hazardous fuel treatments in the wildland urban              resources through active management of forests and
    interface near communities;                                      rangelands.
   Continuing development of LANDFIRE, an
                                                                     Improving Grazing Land Condition
    interagency landscape-scale fire, ecosystem and
    vegetation-mapping project, and completed mapping                Non-Federal lands in forest and grassland ecosystems
    the western United States. LANDFIRE is designed to               make up almost half of the continental United States.
    help land managers make informed decisions for                   USDA helped landowners apply conservation practices on
    treatments to reduce wildland fire risks across                  more than 27 million acres of privately managed grazing
    landscapes;                                                      and forest lands. The practices protect soil quality, prevent
                                                                     soil erosion and provide sustainable forage and cover for
   Increasing wildland fire use (allowing natural ignitions
                                                                     livestock and wildlife.
    to burn to meet resource objectives in areas designated
    in Fire Management Plans if they meet predetermined              To help achieve the targets for non-Federal forestland and
    conditions) on more than 250,000 acres;                          grazing lands, USDA provided a portfolio of products and
   Enhancing the Hazardous Fuel Prioritization and                  services, including:
    Allocation System to help USDA managers identify                    Conservation Planning and Technical Consultation—
    and display national priorities geographically. This                 USDA helped producers develop or update
    system incorporates Geographic Information System                    conservation plans covering 26.5 million acres of



                                                               110
                                          FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT



     grazing lands. The Department also provided technical                          Analysis of Results
     advice to Tribes, communities and other Federal land                           USDA exceeded its performance goals for protecting the
     management agencies;                                                           health of the Nation’s forests and grasslands against the
    Conservation Implementation—USDA assisted in                                   risk of fire in all but one performance measure.
     applying conservation practices on almost 28.0 million                         Adjustments made in the third quarter of the fiscal year
     acres of non-Federal grazing lands. These lands                                allowed managers to address potential shortfalls in many
                                                                                    parts of the country due to resources redirected to wildfire
     included rangeland, pastureland, grazed forest and
                                                                                    suppression activities. In Florida and Georgia, for example,
     native pasture; and
                                                                                    USDA support of suppression operations in the
    Financial Assistance—The Department provided                                   Okefenokee Swamp fire limited prescribed fire operations
     financial assistance to encourage producers to adopt                           elsewhere in the region.
     land treatment practices proven to benefit the public.
                                                                                    USDA tracked hazardous fuel treatment with a single
     Financial assistance for practices applied primarily to
                                                                                    performance measure for all treatment activities prior to
     protect and enhance grazing land and forestland                                FY 2001 and the National Fire Plan’s launch. In FY 2003,
     included $113 million in Environmental Quality                                 an additional performance measure based on fire regime
     Incentives Program (EQIP) cost-shares or incentives                            condition class was established to track treatment on
     for adoption of structural measures or management                              forests more susceptible to catastrophic wildland fire
     practices. EQIP provide a voluntary conservation                               because of excess vegetation resulting from fire exclusion.
     program for farmers and ranchers that promotes
                                                                                    Nationwide drought conditions, community expansion
     agricultural production and environmental quality as
                                                                                    into previously uninhabited wildlands and densely
     compatible national goals.
                                                                                    vegetated forests increases the chances of more deadly and
                                                                                    damaging wildfires. The 2002 coarse scale assessment of
                                                                                    wildland fuels determined that approximately 56 percent of
        Selected Results in Research, Extension and Statistics                      all acres managed by USDA have missed 2 or more
    Protecting Grasslands and Pastures from Invasive Weeds. In                      expected fire cycles. It also showed that the acres are at
    Oregon, a conservative estimate of the economic impact of the State’s           elevated risk from wildland fire. The finer scale data
    12 worst noxious weeds is $67 million annually. Through USDA-                   available from LANDFIRE is expected to show an even
    supported research, ragwort (Senecio jacobaea), a weed of roadsides,            greater departure from expected conditions in the Nation’s
    pastures and grasslands, has been successfully controlled by biological
                                                                                    forests and woodlands.
    methods. Assuming that at least half of the benefits calculated for
    controlling ragwort at its peak can be attributed to this research, the         Another challenge is the cost of containing wildfires.
    annual benefits to Oregon growers and livestock producers amount to
    $3 million.
                                                                                    Commercial utilization of excess vegetation has been
                                                                                    identified as one way to lower the cost of Government
    Plant Can Remove Cadmium and Other Heavy Metals from                            forest fuel-reduction and restoration treatments. A barrier
    Contaminated Soils. USDA scientists have shown that a simple plant
    called alpine pennycress (Thlaspi caerulescens) can remove cadmium
                                                                                    to expanding forest biomass utilization is the limited
    and other heavy metals from contaminated soils. This soil-remediation           market for this material. This barrier is attributed to the
    process is known as phytoextraction. The Department has led the way in          reduced capacity of forest product processing in many
    using metal-accumulating plants to clean contaminated soil. Scientists          western States. Even where processing capacity exists,
    demonstrated that the plant genus T. caerulescens can concentrate up            utilization is limited because much of this material is of
    to about 8,000 parts-per-million of toxic cadmium in its leaves.
                                                                                    small diameter and is from non-traditional species. Title II
    Harvesting the aboveground vegetation annually makes it possible to
    reduce the concentration of cadmium in soil to safe levels in 3 to 10           of HFRA authorizes measures to further commercial use
    years. Phytoextraction costs about $250 to $1,000 per acre per year,            of biomass. USDA and DOI are developing a strategy to
    while the alternative clean-up method—removal and replacement with              encourage greater biomass utilization, including as a
    clean soil—costs about $1 million per acre.                                     domestic source of energy.




                                                                              111
                                                        FY 2007 Performance and Accountability Report
                                            ANNUAL PERFORMANCE REPORT



Protecting communities and restoring forests and                    ambient air quality standards, reduction of soil erosion
grasslands involves combining several key USDA programs             below the tolerable rate and the promotion of habitat for
that manage vegetation. These programs include                      at-risk species. EQIP provided financial and technical
hazardous fuel reduction and treatments to improve timber           assistance in implementing capital-intensive measures.
and range productivity, wildlife habitat, forest health and         Conservation Technical Assistance was provided for
watershed quality. USDA and DOI are working together                measures that producers financed entirely with their own
to implement a seven-step framework for the Strategic               funds or with assistance from non-USDA sources.
Placement of Treatments (SPOTS). This approach
involves designing treatment patterns at landscape scales           A key component of the assistance USDA provided was
specifically to reduce fire size and severity. It also would        expertise to develop comprehensive site-specific
alter problem fire behavior while also benefiting other             conservation plans. These plans are designed to enable
resources. SPOTS can leverage funds and align multiple              producers to meet their economic and environmental
management objectives into a single plan for interventions          goals. Department technical assistance for planning
tailored to site-specific needs and challenges. Its                 enables resource managers to focus on the natural systems
approaches will support and increase the Department’s               and ecological processes that maintain the natural resource
ability to protect communities and resources through active         base. This comprehensive approach considers all of the
management of forests and rangelands.                               aspects of a site and sees it as a part of a larger landscape.
                                                                    The approach is essential to the sustainable, productive use
USDA exceeded its 2007 targets for CTA and EQIP for                 of natural resources.
assisting in the protection and enhancement of non-
Federal grazing land. USDA met its targets for the CSP.             To increase the effectiveness of its ongoing efforts to help
In 2000, an estimated 288 million acres of non-Federal              people protect and enhance plant and animal communities,
grazing land were in minimal or degrading condition. The            USDA is working to improve the technology for
Department’s long-term goal is to reduce that by 100                measuring conditions. The Department also is projecting
million acres by 2010. The measure of acres of grazing              the results of management options on grazing lands.
land treated is an indicator of progress toward the goal of         Activities include accelerating the development of
improved condition. A surrogate annual measure is needed            methodologies to measure and monitor grazing land
because improvement in condition resulting from                     health, developing plants with a natural resistance to pests
improved management generally happens slowly.                       and working with partners to address grazing land health,
                                                                    including efforts to control invasive species.
Response to changed management is slow because the
moisture available to support plant growth is limited in            With regard to private land, producers’ willingness and
rangeland ecosystems. The measure includes all land on              ability to implement the conservation measures that would
which producers applied a conservation practice in the              achieve this outcome are affected by economic conditions,
fiscal year with USDA technical or financial assistance.            drought and invasive species. USDA, in cooperation with
The conservation applied includes a wide range of practices         other Federal, State, Tribal and local agencies and private
tailored to the resource conditions and producer’s                  organizations, will work to provide producers with
operation and goals on the specific site. The conservation          information and other resources they need to adopt needed
practices applied help protect the resource base against on-        conservation measures.
site damage. They also prevent damage to off-site soil,             Since much of USDA’s activities on private forestland and
water and air. High priority was given to activities to             rangeland occur in cooperation with State agencies, State-
achieve the reduction of non-point source pollution in              level budget constraints may hamper USDA efforts to
impaired watersheds, reduction of emissions to meet                 meet the goal for non-Federal grazing land.




                                                              112
                                          FY 2007 Performance and Accountability Report
                                                             ANNUAL PERFORMANCE REPORT




Exhibit 57:    Hazardous Fuel Reduction


                                                                                                                Fiscal Year 2007
                             Annual Performance Goals and Indicators                                 Target              Actual        Result
              6.3.1      Number of acres of hazardous fuel treated that are in the wildland         1,400,000           1,139,000       Unmet*
                         urban interface
              6.3.2      Number of acres of hazardous fuel treated that are in condition             350,000            528,000        Exceeded
                         Classes 2 or 3 in Fire Regimes I, II, or III outside the wildland-
                         urban interface
              6.3.3      Number of acres in Condition Class 2 or 3 in Fire Regimes I, II, or        1,100,000           1,301,000      Exceeded
                         III treated by all land management activities that improve Condition
                         Class
              Actual accomplishments are as of the close of FY 2007 for these measures


Exhibit 58:    Trends in Treatment of Hazardous Fuel


                                                                                               Fiscal Year Actual (thousand acres)
                                            Trends                                     2003        2004         2005           2006      2007
              6.3.1      Number of acres of hazardous fuel treated that are in         1,114       1,311        1,094          1,045     1,139
                         the wildland urban interface
              6.3.2      Number of acres of hazardous fuel treated that are in          339         492          470            409       528
                         condition Classes 2 or 3 in Fire Regimes I, II, or III
                         outside the wildland-urban interface
              6.3.3      Number of acres in Condition Class 2 or 3 in Fire              N/A         758         1,058          1,093     1,301
                         Regimes I, II, or III treated by all land management
                         activities that improve Condition Class


Exhibit 59:    Sustainable Forests and Grasslands


                                                                                                                 Fiscal Year 2007
                            Annual Performance Goals and Indicators                                 Target             Actual           Result
         6.3.4        Grazing and forest land with conservation applied to protect and                                                 Exceeded
                      improve the resource base, millions of acres
                     Conservation Technical Assistance                                               8.0               14.2
                     Environmental Quality Incentives Program                                        13.0              16.5
                     Conservation Security Program                                                   0.06              0.07




                                                                                113
                                                          FY 2007 Performance and Accountability Report
                                                            ANNUAL PERFORMANCE REPORT




Exhibit 60:   Trends in Protection of Non-federal Forests and Grasslands


                                                                                                                Fiscal Year Actual
                                       Trends                                          2003           2004            2005           2006            2007
         6.3.4    Grazing lands and forestland with conservation applied
                  to protect the resource base and environment,
                  Conservation Technical Assistance, millions of acres
                      Conservation Technical Assistance                               N/A
                                                                                             1
                                                                                                      N/A
                                                                                                            1
                                                                                                                       7.5            11.8            14.2
                      Environmental Quality Incentives Program                        N/A
                                                                                             1
                                                                                                      N/A
                                                                                                            1
                                                                                                                       8.0            12.2            16.5
                      Conservation Security Program                                   N/A             0.40            2.30           1.30            0.07
         1
          This measure has been re-defined and expanded in FY 2007 to include all private grazing or forest land on which the Department assisted producers to
         apply conservation measures to maintain or improve long-term vegetative condition and protect the resource base. Lands on which conservation
         measures may be applied include grazed range, grazed forest, native and naturalized pasture, and forest. Non-federal grazing and forest land accounts
         for the majority of the Nation’s private lands. The conservation applied includes a wide range of practices tailored to the resource conditions and
         producer’s operation and goals on the land unit. The conservation practices applied help to protect the resource base against damage on-site and
         prevent damage to soil, water, and air off-site. Performance data for FY2006 and FY2005 have been provided to indicate the prior year performance had
         this measure been employed at that time.




OBJECTIVE 6.4: PROTECT AND ENHANCE WILDLIFE HABITAT                                                                    Key Outcome
TO BENEFIT DESIRED, AT-RISK AND DECLINING SPECIES                                    Wildlife Habitat Quality Supporting Desired Species and
                                                                                                          Species of Concern
Overview                                                                                            (At-Risk and Declining Species)
Protecting the Nation’s wildlife requires overseeing the
interacting relationships between plant and animal species                             USDA’s efforts to improve habitat on private lands include
within a given ecosystem. It also requires sustaining the                              providing technical and financial assistance to landowners
health and vigor of such a system. Protecting specific                                 and managers. This assistance helps them manage working
ecosystems and landscapes ― including wetlands, riparian                               lands and waters to sustain wildlife, aquatic species and
areas, grasslands, floodplains, open water areas and certain                           plant communities. The Department also acquires and
types of forests ― can help support wildlife and aquatic                               manages easements to improve and restore grassland,
species and provide economic and recreational benefits to                              rangeland and forest ecosystems, and wetlands and their
people. Fragmentation and loss of habitat resulting from                               associated upland buffers. These actions are designed to
urban and suburban development and intensive agricultural                              create productive, diverse and resilient habitat.
uses have contributed to the population declines of many
species. Invasive species are second only to habitat                                   USDA assisted individuals and groups to apply
destruction as the cause of native species declines.                                   management that will maintain or improve habitat on 14
Improving the habitat for declining and at-risk species is                             million acres of non-Federal land. The land treated
key to preventing further declines. It also ensures the                                included 13.5 million acres of upland wildlife habitat
continued survival of those species and the overall health of                          management and more than 500,000 acres of wetland
the ecosystems to which they belong.                                                   wildlife habitat management. Department conservationists
                                                                                       provide on-site assistance to producers and other
                                                                                       landowners in controlling invasive species, adopting
                                                                                       practices to improve grassland or forest habitat and
                                                                                       managing water levels in wetlands to control vegetation.
                                                                                       These plans consider wildlife needs for shelter, access to
                                                                                       water, food in proper amounts, locations and times to
                                                                                       sustain wildlife populations that inhabit the area during a


                                                                                 114
                                                         FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



portion of their life cycle. Actions to sustain and enhance          USDA, in cooperation with other Federal, State, Tribal
aquatic habitat include applying conservation practices that         and local agencies, and private organizations, will work to
filter potential pollutants and moderate stream                      provide producers with information and other resources to
temperatures. USDA is supporting efforts to achieve the              adopt applicable conservation measures. USDA will also
President’s goal to restore, create, enhance and protect 3           facilitate the development and implementation of
million acres of wetlands by 2010. The Department                    landscape-scale habitat protection plans that provide at-
assisted in creating, restoring or enhancing 285,000                 risk and declining species access to water, food, shelter and
wetland acres on non-Federal lands. Its goal is to address           corridors for seasonal migration.
1.5 million acres by 2010.
                                                                     Analysis of Results
Fragmentation and loss of habitat have contributed to                USDA did not meet its target for the creation, restoration
declines in populations of many terrestrial and aquatic              or enhancement of wetlands. The performance measure for
species. Invasive species are second only to habitat                 wetlands includes land on which conservation practices
destruction as the cause of native species declines. These           were applied to Department standards with USDA
adverse landscape impacts negatively affect both human               assistance in FY 2007. It does not indicate the cumulative
and wildlife populations. Loss of habitat means fewer                total of wetland acres enrolled in USDA programs
wildlife recreational opportunities for humans, less open            contracts. For this performance measure, targets were set
space and poorer air and water quality. The development              for USDA’s Conservation Technical Assistance (CTA),
that fragments wildlife habitat can result in a landscape            Wetlands Reserve (WRP) and Conservation Reserve
with a greater susceptibility to flooding. The frequency and         (CRP) Programs. On wetlands where USDA provided
severity of drought conditions also may increase.                    technical assistance through CTA, no financial assistance
Improving watershed health for wildlife species also                 was provided by Department programs. In some cases,
improves conditions for the human population. Humans                 financial assistance may have been provided through non-
will benefit from improved water and air quality, control of         USDA sources.
invasive species, reduced flood damage, more open space              WRP and CRP are voluntary conservation programs that
and an increased opportunity for educational recreation.             offer landowners the means and opportunity to protect,
Additionally, keeping wildlife populations healthy and               restore and enhance wetlands on their property. WRP
sustainable minimizes the need for regulatory action to              participants sign an easement or agreement with USDA.
protect threatened and endangered species on privately               CRP protects wetlands using long-term rental agreements.
owned land.
                                                                     In 2003, there were 111 million wetland acres on non-
Challenges for the Future                                            Federal lands in the continental U.S. In 2004, the
The ability of agricultural producers to restore, improve            President set a national goal to go beyond no net loss – to
and protect habitat is impacted by their immediate                   restore, create, enhance and protect 3 million acres of
economic situation, market conditions, weather and                   wetlands by 2010. In support, USDA established a long-
personal cost/benefit analyses. Weakness in the economy              term goal of 1.5 million acres created, restored or enhanced
could affect producers’ abilities to invest their own funds          by 2010. Reaching the target levels established for WRP,
and their willingness to take any risk associated with               CRP, and CTA will contribute significantly toward
changing management. Many wildlife projects are                      meeting the long-term goal. When 2005-2007 results for
supported by a combination of Federal, State and local               this measure are combined, more than 903,000 acres of
funds. State and local budget constraints would impact               wetlands have been restored, representing 60 percent of
project implementation.                                              the USDA goal.




                                                               115
                                           FY 2007 Performance and Accountability Report
                                                           ANNUAL PERFORMANCE REPORT



USDA uses the acreage of wetlands created, restored or                                combination of Federal, State and local funds. State and
enhanced as an indicator of progress toward improved                                  local budget constraints would impact project
habitat for many species. Acreage is used as an indicator                             implementation.
because there is no feasible, widely accepted methodology
                                                                                      USDA, in cooperation with other Federal, State, Tribal
for documenting the quality of habitat developed or the
                                                                                      and local agencies, and private organizations will work to
suitability of the habitat for the target species. The
                                                                                      provide producers with information and other resources to
Department is participating in cooperative efforts to
                                                                                      adopt applicable conservation measures. USDA will also
quantify the results of its conservation practices for wildlife
                                                                                      facilitate the development and implementation of
habitat.
                                                                                      landscape-scale habitat protection plans. These plans
In FY 2007, USDA entered into a partnership agreement                                 would provide at-risk and declining species access to water,
with the U.S. Fish and Wildlife Service and the                                       food, shelter and corridors for seasonal migration.
Association of Fish and Wildlife Agencies. The agreement
is designed to establish and promote habitat credit trading
markets through cooperative cooperation. It features                                          Selected Results in Research, Extension and Statistics
developing uniform standards and establishing multiple                                   Understanding the Importance of Species Diversity in Protecting
pilot projects nationwide to showcase the effectiveness of                               the Nation’s Forests and Wildlife. The species composition of the
these environmental markets. Habitat credit trading uses a                               central hardwood forest in the Appalachian region is changing such that
market-based approach that offers incentives to farmers                                  fewer species are regenerating naturally. This loss of species diversity
                                                                                         influences the quality of wildlife habitat and decreases the economic
and ranchers who agree to set aside and maintain portions                                values of the forest. USDA-funded researchers studied the changes and
of their land for wildlife habitat.                                                      calculated species diversity indices before and after clear-cutting. The
                                                                                         result of this research emphasizes the need for such pre-emptive
The ability of agricultural producers to restore, improve                                treatments as cleaning to maintain species diversity. The research also
and protect habitat is impacted by their immediate                                       shows that cleaning needs to occur at about 10 years post-harvest and
                                                                                         not the previously standard 12-to-20 year time frame.
economic situation, market conditions, weather and
personal cost/benefit analyses. These factors could affect
producers’ abilities to invest their own funds and their
willingness to take any risk associated with changing
management. Many wildlife projects are supported by a

Exhibit 61:   Improved Wildlife Habitat


                                                                                                                    Fiscal Year 2007
                             Annual Performance Goals and Indicators                                     Target           Actual         Result
                6.4.1 Wetlands created, restored or enhanced, acres
                                                                                                                                                  1
                          Conservation Technical Assistance                                                51,300          62,092     Exceeded
                                                                                                                                             2
                          Wetlands Reserve Program                                                        156,000         149,326       Met
                                                                                                                                                3
                          Conservation Reserve Program                                                     58,500          68,834     Exceeded
                1
                  Data assessment metrics to meet the target allow for an actual number in the range 46,170 – 56,430.
                2
                  Data assessment metrics to meet the target allow for an actual number in the range 140,400 – 171,600.
                3
                  Data assessment metrics to meet the target allow for an actual number in the range 52,650 – 64,350.




                                                                                116
                                                        FY 2007 Performance and Accountability Report
                                                    ANNUAL PERFORMANCE REPORT



Exhibit 62:   Trends in Wildlife Habitat Enhancement


                                                                                        Fiscal Year Actual
                                   Trends                           2003         2004             2005       2006    2007
                6.4.1   Wetlands created, restored or enhanced,
                        acres
                           Conservation Technical Assistance      43,525        59,293       53,498     65,345     62,092
                           Wetlands Reserve Program               137,151      123,363      180,358     181,979    149,326
                           Conservation Reserve Program           63,874        57,036       50,934     61,279     68,834




                                                                      117
                                                  FY 2007 Performance and Accountability Report
                                                ANNUAL PERFORMANCE REPORT




Program Assessment Rating Tool (PART) Evaluations
The Program Assessment Rating Tool (PART) was                             to show improvements over time, and allows comparisons
developed to assess and improve program performance so                    between similar programs.
that the Federal government can achieve better results.
                                                                          The summaries below represent programs PARTed in
The PART reviews of USDA programs help identify a
                                                                          fiscal year 2007, including programs that were reassessed
program’s strengths and weaknesses to inform funding and
                                                                          because the programs’ previous ratings were unsatisfactory.
management decisions aimed at making the program more
                                                                          The programs are summarized by Strategic Objective.
effective. The PART therefore looks at all factors that
                                                                          Further detail on USDA’s PARTed programs can be
affect and reflect program performance including program
                                                                          found at http://www.whitehouse.gov/omb/budget/
purpose and design; performance measurement,
                                                                          fy2006/part.html.
evaluations, and strategic planning; program management;
and program results. Because the PART includes a
consistent series of analytical questions, it allows programs

  Strategic Objective 2.3                Provide Risk Management and Financial Tools to Farmers and Ranchers
      Program Name                                            Agricultural Marketing Loan Payments
 Current Rating             •    Adequate
 Lead Agency                •    Farm Service Agency (FSA)
 Major Findings/            •    The Marketing Loan Program has been proven to successfully provide short-term financing, however, the
 Recommendations                 program has a high percentage of improper payments. A large percentage of the improper payments were
                                 caused by noncompliance with administrative procedures. This may not have caused payments to be
                                 disbursed in error, though it is not possible to confirm whether payments are appropriate without proper
                                 documentation.
 Actions Taken/Planned      •    FSA is implementing policies to reduce improper payments while conducting more frequent external audits of
                                 program effectiveness. In addition, the agency is working to make the delivery of services to producers
                                 consistent across county offices.



  Strategic Objective 3.1       Expand Economic Opportunities by Using USDA Financial Resources to Leverage Private
                                              Sector Resources and Create Opportunities for Growth
      Program Name                           Rural Development Broadband Loan and Loan Guarantee Program
 Current Rating             •    Adequate
 Lead Agency                •    Rural Business-Cooperative Service (RBS)
 Major Findings/            •    The Broadband program has a clear purpose, to provide loans for broadband, and good program
 Recommendations                 management. This results in increasing the provision of broadband services to rural residents. However, the
                                 program is flawed as seen by the under utilization of two loan types. Though there are still rural areas that do
                                 not have broadband, neither the 4 percent nor guaranteed loan types are utilized by borrowers.
 Actions Taken/Planned      •    RBS is reviewing program operations and community/constituent/borrower needs to identify program
                                 improvements to increase program efficiency and demand for under utilized loan types. In addition, RBS is
                                 implementing a process for conducting periodic independent reviews that assess the program's performance.




                                                                    118
                                              FY 2007 Performance and Accountability Report
                                              ANNUAL PERFORMANCE REPORT



 Strategic Objective 3.1       Expand Economic Opportunities by Using USDA Financial Resources to Leverage Private
                                             Sector Resources and Create Opportunities for Growth
     Program Name                                          Rural Business Enterprise Grant Program
Current Rating             •    Adequate
Lead Agency                •    Rural Business-Cooperative Service (RBS)
Major Findings/            •    Though the program is well designed, it is not unique. The program targets businesses both by size and
Recommendations                 geography. However, the Economic Development Administration, Appalachian Regional Commission, and
                                Small Business Administration all provide similar economic development grant programs or technical
                                assistance to small businesses in urban and rural areas.
Actions Taken/Planned      •    RBS is creating long term performance measures that will incorporate long term business or job stability.
                           •    USDA is Improving efficiencies within Rural Development administration, decreasing the amount of time it
                                takes to get Notice of Funding Availability documents out and grants awarded
                           •    RBS is increasing the number of RBEG awards to communities that have high rates of poverty or
                                unemployment.


 Strategic Objective 3.2   Improve the Quality of Life Through USDA Financing of Quality Housing, Modern Utilities, and
                                                           Needed Community Facilities
     Program Name                                           Single Family Housing Loan Guarantees
Current Rating             •    Effective
Lead Agency                •    Rural Housing Service (RHS)
Major Findings/            •    The program is well targeted using both income and location for criteria. However, there is redundancy with
Recommendations                 other Federal guaranteed home loan programs. It is not considered extensive, and the Administration has
                                proposed changes to this program's authorization to reduce the redundancy with the other Federal home loan
                                guarantee programs in situations where the lender happens to offer them all.
                           •    The program is free of design flaws. In the past, lenders using the program threatened to not participate if the
                                funding for the program ran out prior to the end of the fiscal year. The program has corrected this flaw by
                                designing controls that will better ensure steady funding and access to the program throughout the fiscal
                                year.
Actions Taken/Planned      •    The Rural Housing Service is working with the Congress to change this program's authorization to help
                                reduce any redundancy with other Federal home loan guarantee programs.
                           •    In addition, RHS is evaluating the controls that ensure steady funding and access to the program by the
                                lenders to make sure they are adequate to retain lenders in the face of limited funding in any given year.



 Strategic Objective 3.2   Improve the Quality of Life Through USDA Financing of Quality Housing, Modern Utilities, and
                                                           Needed Community Facilities
     Program Name                           Rural Distance Learning and Telemedicine Loan and Grant Program
Current Rating             •    Adequate
Lead Agency                •    Rural Utilities Service (RUS)
Major Findings/            •    The program has a clear purpose, to provide loans and grants to improve rural telemedicine and distance
Recommendations                 learning service. This results in increased access to learning opportunities and improved medical care in rural
                                areas.
                           •    Performance measures, baselines and targets have been established and progress in meeting performance
                                goals was demonstrated. However, there are no periodic independent evaluations of the program's
                                performance.
Actions Taken/Planned      •    RUS is determining how and when to implement periodic independent reviews, focusing on how well the
                                program is accomplishing its mission, and meeting its long-term goals. RUS is also collecting and reviewing
                                grantee performance information in order to make adjustments to the assumptions used to develop budget
                                estimates of loan program costs.




                                                                  119
                                             FY 2007 Performance and Accountability Report
                                             ANNUAL PERFORMANCE REPORT



 Strategic Objective 4.2             Reduce the Number and Severity of Agricultural Pest and Disease Outbreaks
     Program Name                                                         Animal Welfare
Current Rating             •   Moderately Effective
Lead Agency                •   Animal and Plant Health Inspection Service (APHIS)
Major Findings/            •   The program has a clearly stated purpose, which is to protect and promote the welfare of animals covered by
Recommendations                the Animal Welfare Act (AWA) and the Horse Protection Act (HPA). It is also the only program that has
                               authority over the interstate movement of animals that are subject to the AWA. APHIS is instituting several
                               new performance measures, but currently does not have baseline data for those measures.
Actions Taken/Planned      •   APHIS is collecting baseline data for new performance measures, and adjusting targets if appropriate. In
                               addition, APHIS is customizing outreach activities provided to licensees and registrants to support the goal of
                               ensuring the humane care and use of animals protected by the Animal Welfare Act.



 Strategic Objective 4.2             Reduce the Number and Severity of Agricultural Pest and Disease Outbreaks
     Program Name                                                     Pesticide Data Program
Current Rating             •   Adequate
Lead Agency                •   Agricultural Marketing Service (AMS)
Major Findings/            •   The Pesticide Data Program supplies data to the Environmental Protection Agency (EPA) to reflect pesticide
Recommendations                residues on fruits and vegetables in the U.S. food supply. This data is used by EPA to assist in regulatory
                               decisions that affect agricultural production and in pesticide registration and re-registration process. The
                               program should develop long-term outcome measures that demonstrate what outcome results from the use of
                               this data.
Actions Taken/Planned      •   AMS is evaluating the methodology used to establish program performance targets for long-term and annual
                               measures. In addition, the agency is developing additional annual and long-term performance measures that
                               demonstrate progress toward a long-term programmatic outcome.



 Strategic Objective 5.2                               Promote Healthier Eating Habits and Lifestyles
     Program Name                                         Food Stamp Program Nutrition Education
Current Rating             •   Results Not Demonstrated
Lead Agency                •   Food and Nutrition Service (FNS)
Major Findings/            •   There are no standardized performance measures across State programs to gauge progress. The scope of
Recommendations                nutrition education efforts varies widely, making it difficult to establish meaningful outcome measures to
                               capture the program's progress. While States collect some data on participation, the data collected is limited
                               and ambiguous and varies across programs.
Actions Taken/Planned      •   FNS is developing efficiency measures to assess program effectiveness related to its goals.
                           •   In addition, FNS is developing a plan to increase the use of evidence-based food and nutrition education
                               initiatives across States.



Strategic Objective 6.1,              Protect and Enhance the Nation’s Natural Resource Base and Environment
        6.2, 6.3
     Program Name                                         Environmental Quality Incentives Program
Current Rating             •   Moderately Effective
Lead Agency                •   Natural Resources Conservation Service (NRCS)
Major Findings/            •   Budget requests are explicitly tied to the accomplishment of goals and objectives and NRCS has
Recommendations                strengthened the program's budget and performance integration. NRCS will make further improvements by
                               revising its state funding allocation formula to better reflect program priorities.
Actions Taken/Planned      •   NRCS is working to improve financial management practices, particularly the timely resolution of open
                               obligations and the consistency of contract modifications.




                                                                  120
                                           FY 2007 Performance and Accountability Report
                                                   ANNUAL PERFORMANCE REPORT




 Strategic Objective 6.3                                               Protect Forests and Grasslands
        Program Name                                          National Forest Improvement and Maintenance
Current Rating                 •    Results Not Demonstrated
Lead Agency                    •    Forest Service
Major Findings/                •    The Forest Service has made strides in meeting program objectives, but cannot demonstrate overall program
Recommendations                     performance in key areas such as safety, condition sustainability and environmental suitability, utilization, and
                                    mission dependency.
                               •    The Forest Service is unable to accurately and completely determine the current condition of facilities, roads,
                                    and trails and the estimated cost to correct any deficiencies. In addition, the Forest Service lacks a strategy to
                                    prioritize program improvements, particularly in a 388,000-mile road system which continues to expand even
                                    as decommissioning is required to reduce large deferred maintenance backlogs.
Actions Taken/Planned          •    The Forest Service is working to improve overall data quality and ensure that accurate condition assessment
                                    surveys drive management decisions regarding construction, use, maintenance or decommissioning, and
                                    disposal of assets.
                               •    In addition, the Forest Service is developing a strategy to prioritize road, facility and trail improvements that
                                    reflect investment strategies as a common criteria for reducing the deferred maintenance backlog.




Program Evaluations
Objective                   Title                          Findings and Recommendations/Actions                               Availability
1.4.1        OIG-05801-03-KC, Financial              Findings: Both OIG and GAO concluded that RMA had not            Report is available at
             Management Controls over                identified the financial deficiencies of the failed reinsured    http://www.usda.gov/oig/rptsa
             Reinsured Companies                     company primarily because RMA emphasized past                    uditsrma.htm
                                                     compliance and financial data, rather than future financial
                                                     forecasts. OIG closed this review without recommendations
                                                     because the problematic issues identified were raised in a
                                                     December 3, 2003, memorandum to RMA prior to its 2005
                                                     SRA negotiations with reinsured companies, and that their
                                                     findings overlapped those reported by GAO in their June 1,
                                                     2004, report.
                                                     Actions: RMA completed actions necessary to address the
                                                     issues identified in the above referenced documents.
             OIG-05601-13-Te, New Crop               Findings: RMA needs to establish written procedures to           Report is available at
             Products Submitted by Companies         monitor and review the implementation and performance of         http://www.usda.gov/oig/rptsa
                                                     section 508(h) products.                                         uditsrma.htm
                                                     Recommendations/Actions: RMA completed the actions
                                                     recommended by OIG to address this matter.
             OIG-05099-11-SF, Prevented              Findings: OIG found none of the cotton producers in their        Report is available at
             Planting Payments For Cotton Due        sample improperly sold their water service rights, and           http://www.usda.gov/oig/rptsa
             to Failure of the Irrigation Water      nothing came to their attention to indicate that the pertinent   uditsrma.htm
             Supply in California and Arizona        controls were not operating as prescribed. However, four
             Crop Year 2003                          cotton producers in California did not meet program
                                                     eligibility requirements.
                                                     Actions: RMA is reviewing the four producers to determine
                                                     whether loss payments were improperly paid to these
                                                     individuals.
3.1.1        Business Programs Assessment            Findings: The BPAR evaluates the Fundamental Risk                While banking information
             Reviews                                 Component characteristics in each State through ongoing          and borrower data are
             (BPARs)                                 on-site and off-site monitoring and review activities. The       protected under Federal
                                                     reviews are completed with the assistance of the Farm            Bank Secrecy Laws,
                                                     Credit Administration, through a memorandum of                   redacted reports are
                                                     understanding, which provides a commissioned bank                available to the public
                                                     examiner’s evaluation and inherent risk. In FY 2007, 10          through the Freedom of
                                                     State office operations and portfolio management were            Information Act.
                                                     reviewed.




                                                                        121
                                                  FY 2007 Performance and Accountability Report
                                                ANNUAL PERFORMANCE REPORT



Objective                 Title                       Findings and Recommendations/Actions                                Availability
                                                 Actions: Findings, causes and recommendations vary
                                                 widely State to State.
                                                 Each State office undertakes corrective actions in response
                                                 to the BPAR.
4.1         Automated Targeting System (ATS)     Findings: The FSIS Office of Program Evaluation,                  Information may be
            evaluation                           Enforcement, and Review (OPEER), Program Evaluation               requested from the USDA
                                                 and Improvement Staff (PEIS) evaluated data from the ATS          Food Safety Inspection
                                                 pilot conducted at the ports of Philadelphia and Houston to       Service—Office of Program
                                                 test the targeting and handling of FSIS regulated shipments       Evaluation, Enforcement and
                                                 potentially at high risk from intentional contamination. The      Review, Program Evaluation
                                                 final report, issued May 29, 2007, contains                       and Improvement Staff
                                                 recommendations for improving the accuracy and efficiency         USDA-FSIS (202) 720-6735
                                                 of the ATS.
                                                 Actions: FSIS continues to take action to improve the ATS.
4.1         Technical Service Center (TSC)       Findings: PEIS collected and analyzed data from FSIS              Information may be
            Customer Service Evaluation          employees and the general public regarding the technical          requested from the USDA
                                                 assistance, advice, and guidance provided by the TSC and          Food Safety Inspection
                                                 made recommendations for improving customer service. The          Service—Office of Program
                                                 final report, issued November 7, contains recommendations         Evaluation, Enforcement and
                                                 for improving TSC customer service.                               Review, Program Evaluation
                                                 Actions: FSIS has taken action to address the findings.           and Improvement Staff
                                                                                                                   USDA-FSIS (202) 720-6735
4.2.2       “Avian Influenza: USDA Has Taken     Findings: While USDA has made important strides,                  The report is available:
            Important Steps to Prepare for       incomplete planning at the Federal and State levels, and          http://www.gao.gov/new.item
            Outbreaks, but Better Planning       several unresolved issues could slow response. First, USDA        s/d07652.pdf
            Could Improve Response”, GAO-07-     is not planning for the lead coordinating role that the
            652, US General Accountability       Department of Homeland Security (DHS) would assume if
            Office, June, 2007                   an outbreak among poultry occurred that is sufficient in
                                                 scope to warrant various Federal disaster declarations.
                                                 GAO’s prior work has shown that roles and responsibilities
                                                 must be defined and understood clearly to facilitate rapid
                                                 and effective decision making. Moreover, USDA response
                                                 plans do not identify the capabilities needed to execute the
                                                 critical tasks associated with an outbreak scenario—that is,
                                                 the entities responsible for executing them, the resources
                                                 needed and the provider of those resources. Additionally,
                                                 some State plans lack important components that could
                                                 facilitate rapid avian influenza (AI) containment. These
                                                 omissions are problematic because States typically lead
                                                 initial response efforts. Finally, there are several unresolved
                                                 issues that, absent advance consideration, could hinder
                                                 response. For example, controlling an outbreak among birds
                                                 raised in backyards, such as for hobby, remains particularly
                                                 difficult because Federal and State officials generally do not
                                                 know the numbers and locations of these birds. USDA also
                                                 has not estimated the amount of antiviral medication that it
                                                 would need during an outbreak or resolved how to provide
                                                 such supplies in a timely manner. According to Federal
                                                 guidance, poultry workers responding to an outbreak of
                                                 highly pathogenic AI should take antiviral medication to
                                                 protect them from infection.
                                                 GAO recommended that USDA and DHS develop a
                                                 memorandum of understanding to clarify their roles during
                                                 certain emergencies. It added that USDA should take
                                                 several steps to improve its planning and that of the States.




                                                                    122
                                               FY 2007 Performance and Accountability Report
                                                     ANNUAL PERFORMANCE REPORT



Objective                  Title                           Findings and Recommendations/Actions                                Availability
                                                      Actions: USDA agreed with all recommendations except for
                                                      the use of a memorandum of understanding to clarify roles.
                                                      The Secretary wrote that, “The report is a comprehensive
                                                      look at our HPAI efforts, but it does not take into account
                                                      several aspects that we believe are critical components of
                                                      successful foreign animal disease planning efforts that are
                                                      the result of our extensive experience with animal disease
                                                      eradication over the course of many decades.” USDA
                                                      believes GAO did not emphasize one of the most important
                                                      aspects of AI surveillance—the veterinary infrastructure that
                                                      is the foundation of USDA’s foreign disease monitoring. The
                                                      complete response can be found on p. 48 of the hard copy in
                                                      the Web site.
4.2.2       “Efforts to Forestall Onset Are Under     Findings: Assessments by U.S. agencies and international          The report is available at:
            Way; Identifying Countries at             organizations have identified widespread environmental and        http://www.gao.gov/new.item
            Highest Risk Entails Challenges”          preparedness-related risks in many countries. While the U.S.      s/d07604.pdf
            GAO-07-604, US General                    has designated priority countries for assistance, gaps in
            Accountability Office, June, 2007         available information limit the capacity for comprehensive,
                                                      well-informed comparisons of risk levels by country.
                                                      Actions: There were no recommendations for USDA. The
                                                      Department found the report accurate in its description of its
                                                      role and involvement in the global strategy.
4.2.2       “National Animal Identification           Findings: USDA has taken some steps to address issues             The report is available at:
            System: USDA Needs to Resolve             identified by livestock industry groups, market operators,        http://www.gao.gov/new.item
            Several Key Implementation Issues         State animal health officials and others. Nonetheless, the        s/d07592.pdf
            to Achieve Rapid and Effective            agency has not addressed effectively several issues that, if
            Disease Traceback” GAO-07-592,            left unresolved, could undermine the program’s ability to
            US General Accountability Office,         achieve the goal of rapid and effective animal disease
            June, 2007                                traceback. GAO made several recommendations.
                                                      Actions: While USDA concurred with most of GAO’s
                                                      recommendations, it also provided points of clarification to
                                                      several and a discussion about parts of recommendations
                                                      that conflict with established Departmental policies. Details
                                                      are provided on pages 78 through 82 of the report available
                                                      on the Web.
5.1         Food Stamp Participation Rates            Findings: This report presents the latest in a series on          Available on the FNS Web
            2005                                      participation rates based on Current Population Survey and        site at
                                                      national participation rates for FY 2005. The findings indicate   http://www.fns.usda.gov/oan
                                                      that 65 percent of the individuals eligible for food stamp        e/menu/Published/FSP/FILE
                                                      benefits choose to participate. The program provided 80
                                                      percent of the benefits that all eligible individuals could       S/Participation/Trends1999-
                                                      receive, suggesting that the Food Stamp Program (FSP)             2005Sum.pdf
                                                      appears to be reaching the neediest eligible individuals.
                                                      Actions: The report contained no recommendations for
                                                      action by USDA.
            Reaching Those In Need: State                                                                               Available on the FNS Web
            Food Stamp                                Findings: This report presents estimates of State                 site at:
                                                      participation rates for eligible low-income households. The
            Participation Rates in 2004
                                                      data shows that the working poor have participated at rates
                                                                                                                        http://www.fns.usda.gov/oan
                                                      substantially below those for all eligible people.                e/menu/Published/FSP/FILE
                                                      Actions: The report contained no recommendations for              S/Participation/reaching200
                                                      action by USDA.                                                   4.pdf




                                                                         123
                                                    FY 2007 Performance and Accountability Report
                                                    ANNUAL PERFORMANCE REPORT



Objective                  Title                           Findings and Recommendations/Actions                              Availability
            Food Stamp Program: Use of               Findings: The report describes States’ use of alternatives to    Available on the GAO Web
            Alternative Methods to Apply for and     the traditional face-to-face FSP application and re-             site at:
            Maintain Benefits Could Be               certification process. These alternatives include mail-in        http://www.gao.gov/new.ite
            Enhanced by Additional Evaluation
            and Information on Promising
                                                     procedures, call centers and on-line services. The               ms/d07573.pdf
                                                     Government Accountability Office (GAO) found that all
            Practices                                States use mail and about half use, or have begun
                                                     developing, on-line services and call centers to provide
                                                     access to FSP. Despite these findings, insufficient
                                                     information is available to determine the results of using
                                                     alternative methods.
                                                     Actions: GAO has recommended that FNS work with ERS
                                                     to determine the effects of alternative FSP methods; analyze
                                                     data from States that have implemented waivers or have
                                                     conducted demonstration projects that waived the face-to-
                                                     face interview; and disseminate and update information on
                                                     promising practices States are using to implement
                                                     alternative methods.
            Food Stamp Program: FNS Could            Findings: In this review, GAO sought to estimate how the         Available on the GAO Web
            Improve Guidance and Monitoring to       elimination of Temporary Assistance to Needy Families            site at:
            Help Ensure Appropriate Use of           (TANF) noncash categorical eligibility might affect Food         http://www.gao.gov/new.ite
            Noncash Categorical Eligibility          Stamp Program (FSP) participation, administration and State      ms/d07219.pdf
                                                     administrative costs. GAO’s analysis shows that a vast
                                                     majority of TANF noncash households potentially would
                                                     remain eligible for food stamps because their income and/or
                                                     assets levels are within FSP eligibility requirements.
                                                     Actions: GAO has recommended that FNS provide
                                                     guidance and technical assistance to States clarifying which
                                                     TANF noncash services they must use to confer categorical
                                                     eligibility for food stamps. States also should monitor their
                                                     compliance with categorical eligibility requirements.
5.2         Nutrition Education Research             Findings: This research review was intended to document          Nutrition Education Research
            Summary: Message Framing, use            how key features of nutrition messages and interventions         Summary: Message
            of Interactive Technology to Tailor      influence the likelihood of promoting more healthful food        Framing, use of Interactive
            Messages and Intervention Intensity      choices as a guide to improve program-based nutrition            Technology to Tailor
                                                     education strategies.                                            Messages and Intervention
                                                     Actions: This report does not contain recommendations for        Intensity
                                                     action by USDA.
            Food Stamp                               Findings: This report presents a comprehensive and               Food Stamp
            Nutrition Education System Review:       systematic national description of food stamp nutrition          Nutrition Education System
            Summary                                  education operations in FY 2004.                                 Review: Summary
                                                     Actions: This report does not contain recommendations for
                                                     action by USDA.
            Middle School Lunch Consumption:         Findings: This report documents the impact of the National       Middle School Lunch
            Impact of National School Lunch          School Lunch Program (NSLP) meal to middle school                Consumption:
            Meal and Competitive Foods               student’s dietary consumption. It also supports findings         Impact of National School
                                                     reported in the first School Nutrition Dietary Assessment        Lunch Meal and Competitive
                                                     Study. This study confirmed that NSLP students consumed          Foods
                                                     significantly more of the nutrients and food groups related to
                                                     healthier choices.
                                                     Actions: This report does not contain recommendations for
                                                     action by USDA.
5.3         The Effect of Simplified Reporting       Findings: This analysis suggests that the simplified reporting   Available on the FNS Web
            on Food Stamp Payment Accuracy           policies adopted by States in 2004 could have lowered error      site at:
                                                     rates by 1.2 to 1.5 percentage points. Thus, if all States       http://www.fns.usda.gov/oan
                                                     adopted the policy of simplified reporting, the payment error    e/MENU/Published/FSP/FIL
                                                     rate might improve further.
                                                                                                                      ES/ProgramIntegrity/Simplifi
                                                     Actions: This report does not contain recommendations for
                                                     action by USDA.                                                  edReporting.pdf




                                                                        124
                                                   FY 2007 Performance and Accountability Report
                                                     ANNUAL PERFORMANCE REPORT



Objective                   Title                           Findings and Recommendations/Actions                                 Availability
            Direct Verification Study: First Year     Findings: In the first year of the study, the process of direct     Available on the FNS Web
            Report                                    verification with Medicaid data is technically feasible. School     site at:
                                                      districts also may verify directly a substantial percentage of      http://www.fns.usda.gov/oan
                                                      sampled NSLP applications.                                          e/menu/Published/CNP/FIL
                                                      Actions: This report does not contain recommendations for           ES/DirectVerificationYear1_
                                                      action by USDA.
                                                                                                                          Summary.pdf
            Food and Nutrition Service Financial      Findings: The Office of the Inspector General (OIG)                 Available on the USDA/OIG
            Statements for Fiscal Years 2005          reviewed FNS’ financial statements for FY 2005 and FY               Web site at:
            and 2006                                  2006. FNS’ statements received an unqualified opinion.              http://www.usda.gov/oig/web
                                                      FNS’ core financial management system was found to be in            docs/27401-31-HY.pdf
                                                      substantial compliance with the Federal Financial
                                                      Management Improvement Act of 1996.
                                                      Actions: The report contains no recommendations.
            Hurricanes Katrina and Rita: Federal      Findings: The report describes the disaster assistance              Available on the GAO Web
            Actions Could Enhance                     provided by the Social Security, SSI, Food Stamp, UI and            site at:
            Preparedness of Certain State-            TANF programs because of Hurricanes Katrina and Rita.               http://www.gao.gov/new.ite
            Administered Federal Support
            Programs
                                                      The report assesses the challenges faced, factors that              ms/d07219.pdf
                                                      helped or hindered programs’ efforts, areas that warrant
                                                      further attention, and actions that are being taken to improve
                                                      programs’ disaster response.
                                                      Actions: The report does not contain recommendations for
                                                      action by USDA.
            Accuracy of SFA Processing of             Findings: The second of series of annual reports assessing          Available on the FNS Web
            School Lunch Applications Regional        administrative errors associated with School Food                   site at:
            Office Review of Applications 2006        Authorities approval of applications for free and reduce-           http://www.fns.usda.gov/oan
                                                      prices school meals. The percentage of students who apply           e/menu/Published/CNP/FIL
                                                      for NSLP free or reduced-price meal benefits and are
                                                      approved or denied incorrectly due to administrative errors         ES/rora2006.pdf
                                                      remains relatively low.
                                                      Actions: This report does not contain recommendations for
                                                      action by USDA.
            Food Stamp Trafficking: FNS Could         Findings: The report states that, while FNS estimates               Available on the GAO Web
            Enhance Program Integrity by Better       suggest trafficking has declined to a low of 1.0 cent on the        site at:
            Targeting Stores Likely to Traffic        dollar (from 3.8) and use of electronic benefits transfer           http://www.gao.gov/new.ite
            and Increasing Penalties                  transaction data is improving efforts to identify and disqualify    ms/d0753.pdf
                                                      trafficking retailers, FSP remains vulnerable to trafficking.
                                                      Actions: GAO has recommended that USDA take additional
                                                      steps to target and monitor those stores most likely to traffic,
                                                      increase penalties for trafficking, work with the OIG as
                                                      needed and promote State efforts to pursue USDA benefit
                                                      recipients suspected of trafficking.
            Special Supplemental Nutrition            Findings: OIG found numerous problems with validation of            Available on the USDA/OIG
            Program for Women, Infants, and           food instruments, vendor monitoring, foods authorized,              website at:
            Children—Puerto Rico                      implementation of vendor cost containment requirements              http://www.usda.gov/oig/web
                                                      and use of in-store credit by vendors. While many of these          docs/27004-04-AT.pdf
                                                      problems had been identified in previous FNS management
                                                      reviews, the Puerto Rico Health Department had not taken
                                                      sufficient corrective action.
                                                      Actions: OIG has recommended that FNS invoke its
                                                      statutory authority to withhold funding if the audit findings are
                                                      not corrected satisfactorily.




                                                                          125
                                                    FY 2007 Performance and Accountability Report
                                                  ANNUAL PERFORMANCE REPORT



Objective                 Title                          Findings and Recommendations/Actions                               Availability
6.3.1       OIG Audit, September 2006, GAO         Findings: Develop and implement specific national                Report is available at
6.3.2       08601-06-AT - FS Implementation of     guidance for assessing the risks from wildland fires and         http://www.usda.gov/oig/web
            Healthy Forest Initiatives
6.3.3                                              determining the benefits of fuels treatment and restoration      docs/08601-6-AT.pdf
                                                   projects. These processes should be able to be applied on a
                                                   consistent basis between regions, forests and districts, so
                                                   the FS may be able to prioritize and fund the most beneficial
                                                   and cost effective fuels reduction projects.
                                                   Actions: Forest Service implemented all OIG audit
                                                   recommendations pending final OIG close-out.
                                                   Findings: Establish controls to ensure that the process and
                                                   methodology to identify and prioritize the most effective
                                                   fuels reduction projects can be utilized at all levels.
                                                   Actions: Forest Service implemented all OIG audit
                                                   recommendations pending final OIG close-out.
                                                   Findings: Establish controls to ensure funds are distributed
                                                   according to where the highest concentrations of priority
                                                   projects are located nationally.
                                                   Actions: Forest Service implemented all OIG audit
                                                   recommendations pending final OIG close-out.

                                                   Findings: Develop and implement a more meaningful and
                                                   outcome-oriented performance measure for reporting
                                                   metrics, such as acres with “risk reduced” or “area
                                                   protected.” FS should also direct that implementing effective
                                                   integrated treatments is more important than solely meeting
                                                   acreage targets. FS should also use annual targets
                                                   assigned as a multi-year average rather than a firm fiscal
                                                   year total.
                                                   Actions: Forest Service implemented all OIG audit
                                                   recommendations pending final OIG close-out.
                                                   Findings: Improve accomplishment reporting by including
                                                   more detailed information, such as breaking down
                                                   accomplishments by region, noting changes in condition
                                                   class, and differentiating between initial and maintenance
                                                   treatments and multiple treatments on the same acres.
                                                   Actions: Forest Service implemented all OIG audit
                                                   recommendations.
6.2 and     OIG Report, November 20, 2006,         Findings: OIG recommends that EPA execute a new                  Report is available at
6.3         OIG/50601-10-Hq – Saving the           Memorandum of Agreement with USDA that identifies                http://www.usda.gov/oig/rpts
            Chesapeake Bay Watershed               specifically tasks and timeframes for meeting mutually           audits.htm
            Requires Better Coordination of        shared goals in the Bay cleanup process. Additionally, the
            Environmental and Agricultural         two agencies should agree to a method to track progress.
            Resources                              Also, EPA, USDA and the States, with assistance from land
                                                   grant universities and agricultural organizations, should
                                                   revisit State tributary strategies to ensure that an effective
                                                   and cost-efficient combination of conservation practices is
                                                   adopted and implemented. USDA should assign a senior-
                                                   level official to coordinate with EPA’s Chesapeake Bay
                                                   Program and review the feasibility of targeting USDA funds
                                                   geographically.
                                                   Actions: USDA secretary has delegated Under Secretary
                                                   for NRE as the USDA Leadership for Chesapeake Bay
                                                   Coordination (signed February 18, 2007). Thus, the
                                                   recommendation is closed.




                                                                      126
                                                 FY 2007 Performance and Accountability Report
        III.




                       Financial Statements, Notes, Supplemental and
                              Other Accompanying Information

Message from the Chief Financial Officer
USDA programs and activities affect every American, every day, by providing a safe and
stable food supply, nutrition assistance, renewable energy, rural economic development,
care for forest and conservation lands, and global opportunities for farm and forest
products. To successfully accomplish its mission, USDA operates more than 300 programs
worldwide through an extensive network of Federal, State, and local cooperators.

USDA is committed to the performance and accountability mandates put forward by the
President and Congress and is keenly aware of the pivotal role of sound financial
management —knowing how resources are spent, having the confidence that programs
and services are operating in efficient ways, and possessing a clear sense of challenges.

This year, USDA’s audit opinion refers to an issue concerning two of the credit models in
Rural Development. The two credit models are for single family housing and the Federal
Financing Bank. This year, these credit models, which produce the subsidy calculation,
received an extensive overhaul that doubled the number of key input variables. In addition, the government-wide cash
calculator for credit programs also received an extensive change. The release of these new, more complex models was
delayed slightly from the original timeline. The additional complexity in the models, changes in the cash calculator, and
sight delays created a myriad of events in which significant lines in the financial statement could not be fully audited to
the complete satisfaction of the auditors. The Office of the Chief Financial Officer did a complete review of the
reasonableness of the current year subsidy amount. This review entailed a five year normalized trend analysis and five year
average of the subsidy amounts; we concluded that the amounts appear to be reasonable. In the same respect, the Office of
the Chief Financial Officer understands that there may be other unique factors which may not be calculated into a credit
subsidy. These include deflation in general home prices due to a slowdown in home sales or an increase in rural property
values due to healthy commodity prices in the world market.

In all cases, we take the management of the eighth largest loan portfolio in the United States and the second largest loan
portfolio in the Federal Government seriously and will take the steps necessary to have a complete evaluation and audit of
the credit models in the next 90 days.

It is important that the audit opinion of the department does not overshadow the individual leadership and collaborative
efforts of USDA managers, employees, business partners and other stakeholders. In 2007, we made significant strides in
advancing the Department’s record of excellence in financial management. Here are some highlights:


                                                              127
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



   Through the A-123 process, USDA reduced or eliminated material weaknesses in Financial Accounting/Reporting
    Accruals and USDA County Office Operations;
   Our A-123 process identified and started the remediation on a management declared material weakness in
    Unliquidated Obligations;
   Transfer of the government-wide financial systems to a new primary computing center from the Hurricane Katrina
    disaster recover site;
   Full evaluation and selection of a core financial system to replace USDA’s nine general ledger systems, which have not
    been supported by their vendors for three years (the new system will provide the financial transactions to facilitate the
    programs);
   Reduction in total improper payments from $4.6 billion in FY 2006 to $4.4 billion in FY 2007 while adding to the
    measurement two additional nutrition assistance programs;
   Development and implementation of a Lean Six Sigma program to facilitate better service to the customer while
    reducing time and resources to execute formal business processes – estimated cost saving equal $13 million which is
    needed to meet the cost of inflation during stable budget years;
   Development and implementation of a “department-wide” Lean Six Sigma processes in the area of vendor transaction
    processing and grants;
   Improvement in financial system security;
   Improvement in controls in the County Offices;
   Review and removal of unobligated balances;
   Detailed analysis and revision of the department’s travel policy to insure greater oversight of travel and conference
    expenditures;
   Increased security and efficiencies in the government-wide financial and information technology services located at
    USDA; and
   Once again reduced the number of open audits.
While we continue to make progress in financial management, we cannot yet give unqualified assurance of compliance
with the Federal Managers’ Financial Integrity Act or the financial systems requirements of the Federal Financial
Management Improvement Act. We continue to make this a focus in the coming year.

Our employees are dedicated to protecting and managing the substantial resources entrusted to them by Congress and the
American people to perform the important work of this Department. We are proud of our accomplishments for FY2007
and the hard working employees at USDA. USDA is committed to providing sound management of the resources under
our stewardship and to communicating the effectiveness of our efforts to all Americans through this Performance and
Accountability Report.




Charles R. Christopherson
Chief Financial Officer
November 15, 2007


                                                               128
                                           FY 2007 Performance and Accountability Report
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Report of the Office of Inspector General




                                                        129
                                    FY 2007 Performance and Accountability Report
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                     CONSOLIDATED BALANCE SHEET
                                  As of September 30, 2007 and 2006
                                              (in millions)

                                                                                    2007           2006
Assets:
Intragovernmental:
    Fund Balance with Treasury (Note 3)                                         $    47,340    $    42,191
    Investments (Note 5)                                                                 94             81
    Accounts Receivable, Net (Note 6)                                                   364            246
  Total Intragovernmental                                                            47,798         42,518

 Cash and Other Monetary Assets (Note 4)                                                218            224
 Investments (Note 5)                                                                     3              3
 Accounts Receivable, Net (Note 6)                                                    8,854          8,635
 Direct Loan and Loan Guarantees, Net (Note 7)                                       80,348         77,791
 Inventory and Related Property, Net (Note 8)                                           185             55
 General Property, Plant, and Equipment, Net (Note 9)                                 4,931          4,905
 Other (Note 11)                                                                        151             98

Total Assets (Note 2)                                                               142,488        134,229

 Stewardship PP&E (Note 10)

Liabilities:
  Intragovernmental:
    Accounts Payable                                                                     12              7
    Debt (Note 13)                                                                   75,101         83,447
    Other (Note 15)                                                                  13,753         14,080
  Total Intragovernmental                                                            88,866         97,534

 Accounts Payable                                                                     4,360          4,170
 Loan Guarantee Liability (Note 7)                                                    1,258          1,296
 Federal Employee and Veterans Benefits                                                 775            808
 Environmental and Disposal Liabilities (Note 14)                                       105             63
 Other (Notes 15 & 16)                                                               19,417         20,082
 Total Liabilities (Note 12)                                                        114,781        123,953

 Commitments and Contingencies (Note 17)

Net Position:
 Unexpended Appropriations - Earmarked Funds (Note 18)                                1,113            976
 Unexpended Appropriations - Other Funds                                             29,824         25,409
 Cumulative Results of Operations - Earmarked Funds (Note 18)                           803            518
 Cumulative Results of Operations - Other Funds                                      (4,033)       (16,627)
 Total Net Position                                                                  27,707         10,276

Total Liabilities and Net Position                                              $ 142,488      $ 134,229




                        The accompanying notes are an integral part of these statements.




                                                     130
                               FY 2007 Performance and Accountability Report
 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                              CONSOLIDATED STATEMENT OF NET COST
                           For the Years Ended September 30, 2007 and 2006
                                              (in millions)


                                                                                     2007         2006

Enhance International Competitiveness
of American Agriculture:
  Gross Cost                                                                     $    2,099   $     1,152
  Less: Earned Revenue                                                                  615           748
    Net Cost                                                                          1,484           404

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
  Gross Cost                                                                         21,424        30,689
  Less: Earned Revenue                                                                6,325         6,231
    Net Cost                                                                         15,099        24,458

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
  Gross Cost                                                                          6,952         7,048
  Less: Earned Revenue                                                                4,750         3,980
    Net Cost                                                                          2,202         3,068

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
 Gross Cost                                                                           3,271         3,629
 Less: Earned Revenue                                                                   762           649
    Net Cost                                                                          2,509         2,980

Improve the Nation's Nutrition and Health:
  Gross Cost                                                                         53,991        53,064
  Less: Earned Revenue                                                                   43            36
    Net Cost                                                                         53,948        53,028

Protect and Enhance the Nation's
Natural Resource Base and Environment:
  Gross Cost                                                                         11,824        12,592
  Less: Earned Revenue                                                                  745         1,104
    Net Cost                                                                         11,079        11,488


Total Gross Costs                                                                    99,561       108,174
Less: Total Earned Revenues                                                          13,240        12,748

Net Cost of Operations (Note 19)                                                 $   86,321   $    95,426



                         The accompanying notes are an integral part of these statements.




                                                      131
                                FY 2007 Performance and Accountability Report
         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                              CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                            For the Year Ended September 30, 2007
                                                          (in millions)

                                                           Earmarked                All Other                          Consolidated
                                                             Funds                   Funds             Eliminations       Total
Cumulative Results of Operations:
 Beginning Balances                                        $        518         $      (16,627)        $          -    $    (16,109)
    Changes in Accounting Principles (Note 30)                      (59)                 1,020                    -             961
    Beginning Balance, as Adjusted                                  459                (15,607)                   -         (15,148)

 Budgetary Financing Sources:
    Appropriations Used                                            4,116                89,175                    -         93,291
    Non-exchange Revenue                                               -                    12                    -             12
    Donations and Forfeitures of Cash and Equivalents                  1                     -                    -              1
    Transfers In (Out) without Reimbursement                         882                 3,504                    -          4,386
 Other Financing Sources (Non-Exchange):
    Transfers In (Out) without Reimbursement                           -                  (460)                   -           (460)
    Imputed Financing                                                 52                 3,480               (2,527)         1,005
    Other                                                              4                     -                    -              4
 Total Financing Sources                                           5,055                95,711               (2,527)        98,239

 Net Cost of Operations                                           (4,711)              (84,137)              2,527          (86,321)

 Net Change                                                         344                 11,574                    -         11,918

    Cumulative Results of Operations, Ending                        803                 (4,033)                   -          (3,230)

Unexpended Appropriations:
 Beginning Balances                                                 976                 25,409                    -         26,385
    Changes in Accounting Principles (Note 30)                        -                   (209)                   -           (209)
    Beginning Balance, as Adjusted                                  976                 25,200                    -         26,176

 Budgetary Financing Sources:
   Appropriations Received                                         4,392                94,999                    -          99,391
   Appropriations Transferred In (Out)                                (5)                   15                    -              10
   Other Adjustments                                                (134)               (1,215)                   -          (1,349)
   Appropriations Used                                            (4,116)              (89,175)                   -         (93,291)
 Total Budgetary Financing Sources                                   137                 4,624                    -           4,761

   Unexpended Appropriations, Ending                               1,113                29,824                    -         30,937

 Net Position                                              $       1,916        $       25,791         $          -    $    27,707




                                    The accompanying notes are an integral part of these statements.




                                                                 132
                                           FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                     CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                 For the Year Ended September 30, 2006
                                                               (in millions)

                                                          Earmarked               All Other                           Consolidated
                                                            Funds                  Funds           Eliminations          Total
Cumulative Results of Operations:
 Beginning Balances                                      $         964        $      (20,476)      $             -    $    (19,512)

 Budgetary Financing Sources:
    Appropriations Used                                          3,184                91,765                     -         94,949
    Non-exchange Revenue                                             -                     2                     -              2
    Donations and Forfeitures of Cash and Equivalents                1                     -                     -              1
    Transfers In (Out) without Reimbursement                       915                 2,694                     -          3,609
 Other Financing Sources (Non-Exchange):
    Transfers In (Out) without Reimbursement                         -                  (544)                    -           (544)
    Imputed Financing                                               43                 3,113                (2,349)           807
    Other                                                            5                     -                     -              5
 Total Financing Sources                                         4,148                97,030                (2,349)        98,829

 Net Cost of Operations                                         (4,594)              (93,181)               2,349          (95,426)

 Net Change                                                       (446)                3,849                     -          3,403

   Cummulative Results of Operations, Ending                       518               (16,627)                    -         (16,109)

Unexpended Appropriations:
 Beginning Balances                                                923                20,567                     -         21,490

 Budgetary Financing Sources:
   Appropriations Received                                       3,308                97,832                     -        101,140
   Appropriations Transferred In (Out)                              (5)                  103                     -             98
   Other Adjustments                                               (66)               (1,328)                    -         (1,394)
   Appropriations Used                                          (3,184)              (91,765)                    -        (94,949)
 Total Budgetary Financing Sources                                  53                 4,842                     -          4,895

   Unexpended Appropriations, Ending                               976                25,409                     -         26,385

 Net Position                                            $       1,494        $        8,782       $             -    $    10,276




                                         The accompanying notes are an integral part of these statements.




                                                                      133
                                                FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                          COMBINED STATEMENT OF BUDGETARY RESOURCES
                                             For the Years Ended September 30, 2007 and 2006
                                                                (in millions)

                                                                                 2007                                         2006
                                                                                     Non-Budgetary                                Non-Budgetary
                                                                                      Credit Reform                                Credit Reform
                                                                  Budgetary        Financing Accounts         Budgetary         Financing Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1                  $     21,282           $      3,715          $    19,170            $    6,828
Recoveries of prior year unpaid obligations                             3,175                  1,445                9,071                   941
Budget Authority -
 Appropriation                                                        108,428                      -              109,856                     -
 Borrowing Authority (Notes 22 & 23)                                   41,185                 12,478               44,465                12,608
 Earned -
   Collected                                                           26,158                  8,513               23,265                 7,864
   Change in receivables from Federal Sources                          (1,069)                     4                 (129)                  (29)
 Change in unfilled customer orders -
   Advances received                                                     (170)                     -                  299                     -
   Without advance from Federal Sources                                    96                      8                   70                    11
 Expenditure transfers from trust funds                                   934                      -                1,050                     -
Nonexpenditure transfers, net, anticipated and actual                    (336)                     -                 (342)                    -
Temporarily not available pursuant to Public Law                          (36)                     -                    -                     -
Permanently not available                                             (57,635)                (6,257)             (55,745)               (8,798)
Total Budgetary Resources                                             142,012                 19,906              151,030                19,425

Status of Budgetary Resources:
Obligations Incurred (Note 21) -
  Direct                                                               83,743                 14,698               87,185                15,710
  Reimbursable                                                         30,513                      -               42,563                     -
Unobligated Balance -
  Apportioned                                                           8,794                  1,917                7,818                 1,625
  Exempt from Apportionment                                             1,351                      5                  771                     -
Unobligated balance not available                                      17,611                  3,286               12,693                 2,090
Total Status of Budgetary Resources                                   142,012                 19,906              151,030                19,425

Change in Obligated Balances:
Obligated Balance, net, brought forward October 1                      26,537                 18,900                26,555                18,202
Obligations incurred                                                  114,256                 14,698               129,748                15,710
Gross outlays                                                        (113,118)               (14,034)             (120,756)              (14,089)
Recoveries of prior year unpaid                                        (3,175)                (1,445)               (9,071)                 (941)
Change in uncollected payments from Federal Sources                       973                    (12)                   59                    18
Obligated balance, net, end of period -
 Unpaid obligations (Note 27)                                          26,844                 18,940               28,881                19,722
 Uncollected customer payments from Federal Sources                    (1,372)                  (833)              (2,344)                 (822)
Obligated Balance, net, end of period                                  25,472                 18,107               26,537                18,900

Net Outlays:
Gross outlays                                                         113,118                 14,034              120,756                14,089
Offsetting collections                                                (26,921)                (8,514)             (24,612)               (7,864)
Distributed offsetting receipts                                        (1,303)                  (464)              (1,708)                 (987)
Net Outlays                                                      $     84,894           $      5,056          $    94,436            $    5,238




                                           The accompanying notes are an integral part of these statements.




                                                                        134
                                                  FY 2007 Performance and Accountability Report
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Notes to the Consolidated Financial Statements
As of September 30, 2007 and 2006
(in millions)


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
Organization
The Department of Agriculture (USDA) provides a wide variety of services in the United States and around the world.
USDA is organized into seven distinct mission areas and their agencies that execute these missions.

Listed below are the missions and the agencies within each mission including four Government corporations:
Farm and Foreign Agricultural Services (FFAS)
   Farm Service Agency (FSA)
     Commodity Credit Corporation (CCC)
   Foreign Agricultural Service (FAS)
   Risk Management Agency (RMA)
     Federal Crop Insurance Corporation (FCIC)
Food, Nutrition, and Consumer Services (FNCS)
   Food and Nutrition Service (FNS)

Food Safety
   Food Safety and Inspection Service (FSIS)

Marketing and Regulatory Programs (MRP)
   Agricultural Marketing Service (AMS)
   Animal and Plant Health Inspection Service (APHIS)
   Grain Inspection, Packers and Stockyards Administration (GIPSA)

Natural Resources and Environment (NRE)
   Forest Service (FS)
   Natural Resources Conservation Service (NRCS)

Research, Education, and Economics (REE)
   Agricultural Research Service (ARS)
   Cooperative State Research, Education, and Extension Service (CSREES)
   Economic Research Service (ERS)
   National Agricultural Statistics Service (NASS)




                                                               135
                                           FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Rural Development
   Rural Development (RD)
     Rural Telephone Bank (RTB) – a corporation
     Alternative Agricultural Research and Commercialization Corporation (AARC)
With the passage of the 2006 Agriculture, Rural Development, Food and Drug Administration, and Related Agencies
Appropriation Act, Public Law No. 109-97, the legal restriction on redeeming Government-owned Class A stock was
removed for RTB. As a result of this change, the process of liquidation and dissolution of the RTB began. During FY
2008 RTB will be dissolved in its entirety and will no longer be a reportable entity.

Consolidation
The financial statements consolidate all the agencies’ results. The effects of intradepartmental activity and balances are
eliminated, except for the Statement of Budgetary Resources that is presented on a combined basis. The financial
statements are prepared in accordance with generally accepted accounting principles for the Federal Government.

Effective for FY 2007, the Statement of Financing will be presented as a note per Office of Management and Budget’s
(OMB) authority under Statement of Federal Financial Accounting Standards (SFFAS) 7 and will no longer be
considered a Basic Statement. The Statement of Financing will now be a display in the notes and referred to as
“Reconciliation of Net Cost of Operations to Budget.”

Reclassifications
Certain reclassifications have been made to prior year amounts to conform to the current year presentation. The FY 2006
Statement of Net Cost was reclassified to reflect the six strategic goals outlined in USDA’s Strategic Plan for FY 2005-
2010. Earmarked funds with total assets less than $50 million were summarized as “other” in the earmarked fund note for
FY 2006.

Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the amounts
reported in the financial statements and accompanying notes. Actual results could differ from those estimates.
Revenue and Other Financing Sources
Revenue from exchange transactions is recognized when persuasive evidence of an arrangement exists, delivery has
occurred or services have been rendered, sales price is fixed or determinable, and collection is reasonably assured. In certain
cases, the prices charged by the Department are set by law or regulation, which for program and other reasons may not
represent full cost. Prices set for products and services offered through the Department’s working capital funds are
intended to recover the full costs incurred by these activities. Revenue from non-exchange transactions is recognized when
a specifically identifiable, legally enforceable claim to resources arises, to the extent that collection is probable and the
amount is reasonably estimable. Appropriations are recognized as a financing source when used. An imputed financing
source is recognized for costs subsidized by other Government entities.

Investments
The Department is authorized to invest certain funds in excess of its immediate needs in Treasury securities. Investments
in non-marketable par value Treasury securities are classified as held to maturity and are carried at cost. Investments in



                                                               136
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



market-based Treasury securities are classified as held to maturity and are carried at amortized cost. The amortized cost of
securities is based on the purchase price adjusted for amortization of premiums and accretion of discounts using the
straight-line method over the term of the securities.

Accounts Receivable
Accounts receivable are reduced to net realizable value by an allowance for uncollectible accounts. The adequacy of the
allowance is determined based on past experience and age of outstanding balances.

Direct Loans and Loan Guarantees
Direct loans obligated and loan guarantees committed after fiscal 1991 are reported based on the present value of the net
cash-flows estimated over the life of the loan or guarantee. The difference between the outstanding principal of the loans
and the present value of their net cash inflows is recognized as a subsidy cost allowance; the present value of estimated net
cash outflows of the loan guarantees is recognized as a liability for loan guarantees. The subsidy expense for direct or
guaranteed loans disbursed during the year is the present value of estimated net cash outflows for those loans or
guarantees. A subsidy expense also is recognized for modifications made during the year to loans and guarantees
outstanding and for reestimates made as of the end of the year to the subsidy allowances or loan guarantee liability for
loans and guarantees outstanding.

Direct loans obligated and loan guarantees committed before fiscal 1992 are valued using the present-value method.
Under the present-value method, the outstanding principal of direct loans is reduced by an allowance equal to the
difference between the outstanding principal and the present value of the expected net cash flows. The liability for loan
guarantees is the present value of expected net cash outflows due to the loan guarantees.

Inventories and Related Property
Inventories to be consumed in the production of goods for sale or in the provision of services for a fee are valued on the
basis of historical cost using a first-in, first-out method. Commodities are valued at the lower of cost or net realizable
value using a weighted average method.

Property, Plant and Equipment
Property, plant and equipment (PP&E) are stated at cost less accumulated depreciation. Depreciation is determined using
the straight-line method over the estimated useful lives of the assets. Useful lives for PP&E are disclosed in Note 9.
Capitalization thresholds for personal property and real property are $25,000 and $100,000 for internal use software.
There are no restrictions on the use or convertibility of PP&E.

Pension and Other Retirement Benefits
Pension and other retirement benefits (primarily retirement health care benefits) expense is recognized at the time the
employees’ services are rendered. The expense is equal to the actuarial present value of benefits attributed by the pension
plan’s benefit formula, less the amount contributed by the employees. An imputed cost is recognized for the difference
between the expense and contributions made by and for employees.

Other Post-employment Benefits
Other post-employment benefits expense for former or inactive (but not retired) employees is recognized when a future
outflow or other sacrifice of resources is probable and measurable on the basis of events occurring on or before the
reporting date. The liability for long-term other post-employment benefits is the present value of future payments.



                                                               137
                                           FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Earmarked Funds
In accordance with SFFAS 27, Identifying and Reporting Earmarked Funds, which became effective in FY 2006, the
Department has reported the earmarked funds for which it has program management responsibility when the following
three criteria are met: (1) a statute committing the Federal Government to use specifically identified revenues and other
financing sources only for designated activities, benefits or purposes; (2) explicit authority for the earmarked fund to
retain revenues and other financing sources not used in the current period for future use to finance the designated
activities, benefits or purposes; and (3) a requirement to account for and report on the receipt, use, and retention of the
revenues and other financing sources that distinguishes the earmarked fund from the Government’s general revenues.
Stewardship PP&E
SFFAS 29, Heritage Assets and Stewardship Land, was issued in July 2005. SFFAS 29 reclassified all heritage assets and
stewardship land information as basic except for condition information, which is classified as RSI. The reclassification as
basic is being phased in per SFFAS 29. Heritage assets and stewardship land information that was previously reported in
RSSI will temporarily shift to RSI until it moves to a note on the balance sheet as basic information. The phase-in of
disclosure requirements being reported as basic information provides that SFFAS 29 will be fully implemented for
reporting periods beginning after September 30, 2008.
Contingencies
Contingent liabilities are recognized when a past event or exchange transaction has occurred, a future outflow or other
sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.
Allocation Transfers
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity and/or a
receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to obligate budget
authority and outlay funds to another department. A separate fund account (allocation account) is created in the U.S.
Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances
are credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this
allocation account as they execute the delegated activity on behalf of the parent entity.
The Department allocates funds, as the parent, to the Department of Transportation, Department of Interior,
Department of Defense, Department of Housing and Urban Development, U.S. Agency for International Development
and the Small Business Agency. The Department receives allocation transfers, as the child, from the Department of
Labor, Department of Transportation, Department of Interior, Economic Development Administration, Appalachian
Regional Commission and the Delta Regional Authority.
Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the entity, pursuant to the requirements
of 31 U.S.C. 3515(b).
While the statements have been prepared from the books and records of the entity in accordance with the formats
prescribed by the OMB, they also are used to monitor and control budgetary resources, which are prepared from the same
books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a sovereign
entity. Thus, liabilities cannot be liquidated without enabling legislation that provides resources to do so.




                                                               138
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 2. NON-ENTITY ASSETS
Non-entity assets include proceeds from the sale of timber payable to Treasury, timber contract performance bonds,
employer contributions and payroll taxes withheld for agencies serviced by the National Finance Center, property taxes
and insurance for single family housing, interest, fines and penalties.
                                                                                           FY 2007                FY 2006
               Intragovernmental:
                 Fund balance with Treasury                                            $           106       $                37
                 Accounts Receivable                                                                     -                    17
               Subtotal Intragovernmental                                                          106                        54

               With the Public:
                 Cash and other monetary assets                                                    109                        98
                 Accounts receivable                                                                 47                       32
               Subtotal With the Public                                                            156                     130

               Total non-entity assets                                                             262                     184

               Total entity assets                                                             142,226               134,045

               Total Assets                                                            $       142,488       $       134,229


NOTE 3. FUND BALANCE WITH TREASURY
Other Fund Types include deposit and clearing accounts. Clearing Account Balances, including suspense accounts are
awaiting disposition or reclassification. Borrowing Authority not yet Converted to Fund Balance represents un-obligated
and obligated amounts recorded at year-end that will be funded by future borrowings.
                                                                                               FY 2007           FY 2006
                   Fund Balances:
                      Trust Funds                                                          $         449     $         551
                      Special Funds                                                                1,498             1,352
                      Revolving Funds                                                              6,395             5,227
                      General Funds                                                               38,977            35,107
                      Other Fund Types                                                                21               (46)
                   Total                                                                          47,340            42,191

                   Status of Fund Balance with Treasury:
                   Unobligated Balance:
                     Available                                                                    12,067            10,213
                      Unavailable                                                                  20,897           14,652
                   Obligated Balance not yet Disbursed                                             43,471           44,451
                   Borrowing Authority not yet Converted to Fund Balance                          (29,162)         (27,141)
                   Non-Budgetary Fund Balance with Treasury:
                      Clearing Account Balances                                                       67                16
                   Total                                                                   $      47,340     $      42,191




                                                                           139
                                                  FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 4. CASH AND OTHER MONETARY ASSETS
In fiscal 2007 and 2006, cash includes Federal crop insurance escrow amounts of $79 million and $90 million, funds held
in escrow for single family housing borrowers of $109 million and $98 million, and other receipts of $30 million and $36
million, respectively.
                                                                                 FY 2007              FY 2006


                    Cash                                                 $               218      $              224




NOTE 5. INVESTMENTS
            FY 2007                                                          Unamortized                                    Market
                                        Amortization                             Premium/         Investments,               Value
                                          Method             Cost                (Discount)           Net                  Disclosure
            Intragovernmental:
              Non-marketable
                Par value                                $          88       $                -   $         88         $                -
                Market-based             Straight Line              6                         -              6                          6
            Total                                        $          94       $                -   $         94         $                6


            With the Public:
              AARC                                       $          3        $                -   $          3         $                3
            Total                                        $          3        $                -   $          3         $                3




            FY 2006                                                          Unamortized                                    Market
                                        Amortization                          Premium/            Investments,              Value
                                          Method             Cost                (Discount)           Net                  Disclosure
            Intragovernmental:
              Non-marketable
                Par value                                $          76       $                -   $         76         $                -
                Market-based             Straight Line              5                         -              5                          5
            Total                                        $          81       $                -   $         81         $                5


            With the Public:
             AARC                                        $          3        $                -   $          3         $                3
            Total                                        $          3        $                -   $          3         $                3




                                                             140
                                         FY 2007 Performance and Accountability Report
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 6. ACCOUNTS RECEIVABLE, NET
                        FY 2007
                                                      Accounts           Allowance for       Accounts
                                                    Receivable,           Uncollectible    Receivable,
                                                       Gross               Accounts            Net
                       Intragovernmental            $       364          $             -   $       364
                       With the Public                    8,899                      45          8,854
                       Total                        $     9,263          $           45    $     9,218

                        FY 2006
                                                      Accounts           Allowance for       Accounts
                                                    Receivable,           Uncollectible    Receivable,
                                                       Gross               Accounts            Net
                       Intragovernmental            $       246          $             -   $       246
                       With the Public                    8,732                      97          8,635
                       Total                        $     8,978          $           97    $     8,881



NOTE 7. DIRECT LOANS AND GUARANTEES, NON-FEDERAL BORROWERS
Direct Loans
Direct loan obligations or loan guarantee commitments made pre-1992 and the resulting direct loans or loan guarantees
are reported at net present value.

Direct loan obligations or loan guarantee commitments made post-1991, and the Federal Credit Reform Act of 1990 as
amended governs the resulting direct loan or loan guarantees. The Act requires agencies to estimate the cost of direct
loans and loan guarantees at present value for the budget. Additionally, the present value of the subsidy costs (i.e. interest
rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows) associated with direct
loans and loan guarantees are recognized as a cost in the year the loan or loan guarantee is disbursed. The net present
value of loans or defaulted guaranteed loans receivable at any point in time is the amount of the gross loan or defaulted
guaranteed loans receivable less the present value of the subsidy at that time.
The net present value of Direct Loan and Loan Guarantees, Net is not necessarily representative of the proceeds that
might be expected if these loans were sold on the open market.

Direct Loan and Loan Guarantees, Net at the end of FY 2007 was $80,348 million compared to $77,791 million at the
end of FY 2006. Loans exempt from the Federal Credit Reform Act of 1990 represent $779 million of the total compared
to $1,381 million in FY 2006. Table 1 illustrates the overall composition of the Department’s credit program balance
sheet portfolio by mission area and credit program for FY 2007 and 2006.

During the fiscal year, the gross outstanding balance of the direct loans obligated post-1991 is adjusted by the value of the
subsidy cost allowance held against those loans. Current year subsidy expense, modifications and reestimates all contribute
to the change of the subsidy cost allowance throughout the year. The subsidy cost allowance moved from $5,090 million
to $4,334 million during FY 2007, a decrease of $756 million. Table 2 shows the reconciliation of subsidy cost allowance
balances from FY 2006 to FY 2007.


                                                               141
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current year,
modifications to existing loans, and interest rate and technical reestimates to existing loans. Total direct loan subsidy
expense in FY 2007 was negative $32 million compared to $717 million in FY 2006. Table 3 illustrates the breakdown of
total subsidy expense for FY 2007 and 2006 by program.

Direct loan volume decreased from $8,875 million in FY 2006 to $8,274 million in FY 2007. Volume distribution
between mission area and program is shown in Table 4.

Guaranteed Loans
Guaranteed loans are administered in coordination with conventional agricultural lenders for up to 95 percent of the
principal loan amount. Under the guaranteed loan programs, the lender is responsible for servicing the borrower's account
for the life of the loan. The Department, however, is responsible for ensuring borrowers meet certain qualifying criteria to
be eligible and monitoring the lender's servicing activities. Borrowers interested in guaranteed loans must apply to a
conventional lender, which then arranges for the guarantee with a Department agency. Estimated losses on loan and
foreign credit guarantees are reported at net present value as Loan Guarantee Liability. Defaulted guaranteed loans are
reported at net present value as Loans Receivable and Related Foreclosed Property, Net.

Guaranteed loans outstanding at the end of FY 2007 were $34,482 million in outstanding principal and $30,648 million
in outstanding principal guaranteed, compared to $33,419 and $29,643 million, respectively at the end of FY 2006. Table
5 shows the outstanding balances by credit program.

During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held against
those loans. Current year subsidy expense, modification and reestimates all contribute to the change of the loan guarantee
liability through the year. The loan guarantee liability is a combination of the liability for losses on pre-1992 guarantees
and post-1991 guarantees. Table 6 shows that total liability moved from $1,296 million to $1,258 million during FY
2007, a decrease of $38 million. The post-1991 liability moved from $1,294 million to $1,256 million, a decrease of $38
million. Table 7 shows the reconciliation of loan guarantee liability post-1991 balances and the total loan guarantee
liability.

Total guaranteed loan subsidy expense is a combination of subsidy expense for new guaranteed loans disbursed in the
current year, modifications to existing loans, and interest rate and technical reestimates to existing loans. Total guaranteed
loan subsidy expense in FY 2007 was negative $192 million compared to negative $64 million in FY 2006. Table 8
illustrates the breakdown of total subsidy expense for FY 2007 and 2006 by program.
Guaranteed loan volume increased from $7,394 million in FY 2006 to $7,434 million in FY 2007. Volume distribution
between mission area and program is shown in Table 9.

Credit Program Discussion and Descriptions
The Department offers direct and guaranteed loans through credit programs in the FFAS mission area through the FSA
and the CCC, and in the RD mission area.
The Farm and Foreign Agricultural Services Mission Area
The FFAS mission area helps keep America's farmers and ranchers in business as they face the uncertainties of weather
and markets. FFAS delivers commodity, credit, conservation, disaster and emergency assistance programs that help




                                                               142
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



strengthen and stabilize the agricultural economy. FFAS contributes to the vitality of the farm sector with programs that
encourage the expansion of export markets for U.S. agriculture.

FSA offers direct and guaranteed loans to farmers who are temporarily unable to obtain private, commercial credit and
nonprofit entities that are engaged in the improvement of the nation's agricultural community. Often, FSA borrowers are
beginning farmers who cannot qualify for conventional loans due to insufficient financial resources. Additionally, the
agency helps established farmers who have suffered financial setbacks from natural disasters, or have limited resources to
maintain profitable farming operations. FSA officials also provide borrowers with supervision and credit counseling.

FSA's mission is to provide supervised credit. FSA works with each borrower to identify specific strengths and weaknesses
in farm production and management, and provides alternatives to address weaknesses. FSA is able to provide certain loan
servicing options to assist borrowers whose accounts are distressed or delinquent. These options include reamortization,
restructuring, loan deferral, lowering interest rate, acceptance of easements, and debt write-downs. The eventual goal of
FSA's farm credit programs is to graduate its borrowers to commercial credit.
CCC's foreign programs provide economic stimulus to both the U.S. and foreign markets, while also giving humanitarian
assistance to the most-needy people throughout the world. CCC offers both credit guarantee and direct credit programs
for buyers of U.S. exports, suppliers, and sovereign countries in need of food assistance.

CCC permits debtor nations to reschedule debt under the aegis of the Paris Club (The Club). The Club is an
internationally recognized organization under the leadership of the French Ministry of Economics and Finance. Its sole
purpose is to assess, on a case-by-case basis, liquidity problems faced by economically disadvantaged countries. The
general premise of the Club's activities is to provide disadvantaged nations short-term liquidity relief to enable them to re-
establish their credit worthiness. The Departments of State and Treasury lead the U.S. Delegation and negotiations for all
U.S. Agencies.

Farm and Foreign Agricultural Service List of Programs
                                   Farm Service Agency                   Commodity Credit Corporation
                             Direct Farm Ownership                   General Sales Manager Guarantee
                             Direct Farm Operating                   Credit Program
                             Direct Emergency Loans                  Facility Program Guarantee
                             Direct Indian Land Acquisition          P.L. 480 Title 1 Program
                             Direct Boll Weevil Eradication          Direct Farm Storage Facility
                             Direct Seed Loans to Producers          Direct Sugar Storage Facilities
                             Guaranteed Farm Operating
                             Subsidized/Unsubsidized
                             Agricultural Resource Demonstration
                             Fund
                             Bureau of Reclamation Loan Fund
                             Guaranteed Farm Ownership
                             Unsubsidized




The Rural Development Mission Area
Each year, RD programs create or preserve tens of thousands of rural jobs and provide or improve the quality of rural
housing. To leverage the impact of its programs, RD is working with State, local and Indian tribal Governments, as well
as private and not-for-profit organizations and user-owned cooperatives.



                                                                   143
                                             FY 2007 Performance and Accountability Report
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Through its rural housing loan and grant programs, RD provides affordable housing and essential community facilities to
rural communities. Rural housing programs help finance new or improved housing for moderate, low, and very low-
income families each year. The programs also help rural communities finance, construct, enlarge or improve fire stations,
libraries, hospitals and medical clinics, industrial parks, and other community facilities.

The Rural Business Program goal is to promote a dynamic business environment in rural America. RD partners with the
private sector and community-based organizations to provide financial assistance and business planning. It also provides
technical assistance to rural businesses and cooperatives, conducts research into rural economic issues, and provides
cooperative educational materials to the public.

The Rural Utilities Program helps to improve the quality of life in rural America through a variety of loan programs for
electric energy, telecommunications, and water and environmental projects. This program leverages scarce Federal funds
with private capital for investing in rural infrastructure, technology and development of human resources.

RD programs provide certain loan servicing options to borrowers whose accounts are distressed or delinquent. These
options include reamortization, restructuring, loan deferral, lowering interest rate, acceptance of easements and debt
write-downs. The choice of servicing options depends on the loan program and the individual borrower.

Rural Development List of Programs
              Rural Housing Program                        Rural Business Program                      Rural Utilities Program
    Home Ownership Direct Loans                        Business and Industry Direct Loans      Water and Environmental Direct Loans
    Home Ownership Guaranteed Loans                    Business and Industry Guaranteed        Water and Environmental Guaranteed
    Home Improvement and Repair Direct Loans           Loans                                   Loans
    Home Ownership and Home Improvement and            Intermediary Relending Program          Electric Direct Loans
    Repair Nonprogram Loans                            Direct Loans                            Electric Guaranteed Loans
    Rural Housing Site Direct Loans                    Rural Economic Development Direct       Telecommunications Direct Loans
    Farm Labor Housing Direct Loans                    Loans                                   Federal Financing Bank-
    Rural Rental and Rural Cooperative Housing Loans                                           Telecommunications Guaranteed
    Rental Housing Guaranteed Loans                                                            Distance Learning and Telemedicine Direct
    Multi-family Housing–Nonprogram–Credit Sales                                               Broadband Telecommunications Services
    Community Facilities Direct Loans
    Community Facilities Guaranteed Loans



Discussion of Administrative Expenses, Subsidy Costs and Subsidy Rates
Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses for FY 2007 and 2006 are shown in Table 10.
Reestimates, Default Analysis, and Subsidy Rates
The Federal Credit Reform Act of 1990 as amended governs the proprietary and budgetary accounting treatment of direct
and guaranteed loans. The long-term cost to the Government for direct loans or loan guarantees is referred to as "subsidy
cost." Under the act, subsidy costs for loans obligated beginning in FY 1992 are recognized at the net present value of
projected lifetime costs in the year the loan is disbursed. Subsidy costs are revalued annually. Components of subsidy
include interest subsidies, defaults, fee offsets, and other cash flows.

RD’s cash flow models are tailored for specific programs based on unique program characteristics. The models utilized
are housing, guaranteed, electric underwriters, FFB modifications and a direct model that covers the remaining portfolio



                                                                   144
                                               FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



with similar characteristics. In FY 2007, reestimates using projected fiscal year activity were recorded in the current fiscal
year. In prior years, several programs used an approximator method for financial statement purposes, which lagged one
year behind actual budgetary reestimates.

The annual reestimate process updates the budget assumptions with actual portfolio performance, interest rates and
updated estimates for future loan performance. The FY 2007 reestimate process resulted in a $397 million reduction in
the post 1991 estimated cost of the direct loan portfolio and a $379 million reduction in the post 1991 estimated cost of
the guaranteed loan portfolio.

Table 3 discloses the direct loan subsidy expense including the $397 million decrease due to reestimates. The decrease was
most affected by a $140 million decrease in the farm program, a $108 million decrease in the telecommunications
program, and a $75 million decrease in the housing program.

Table 8 discloses the loan guarantee subsidy expenses including the $379 million reduction due to reestimate. The
reduction was most impacted by the $389 million reduction in the export programs. After analyzing foreign credits
governmentwide, OMB determined that actual performance on foreign credits was better than had been previously
forecast and therefore mandated a change to the default calculation methodology. This is a major contributor to the
downward subsidy reestimates for the export program.

Based on sensitivity analysis conducted for each cohort or segment of a loan portfolio, the difference between the
budgeted and actual interest for both borrower and Treasury remain the key components for the subsidy formulation and
reestimate rates of many USDA direct programs. USDA uses the Governmentwide interest rate projections provided by
the OMB in order to do its calculations and analysis.

The Inter-agency Country Risk Assessment System is a Federal interagency effort chaired by OMB under the authority
of the Federal Credit Reform Act of 1990 as amended. The system provides standardized risk assessment and budget
assumptions for all direct credits and credit guarantees provided by the Government, to foreign borrowers. Sovereign and
non-sovereign lending risks are sorted into risk categories, each associated with a default estimate.

The CCC delinquent debt is estimated at a 100-percent allowance for losses. When the foreign borrower reschedules
their debt and renews their commitment to repay CCC, the allowance is estimated at less than 100 percent.

Subsidy rates are used to compute each year's subsidy expenses as disclosed above. The subsidy rates disclosed in Tables 11
and 12 pertain only to the FY 2007 and 2006 cohorts. These rates cannot be applied to the direct and guaranteed loans
disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new loans reported in
the current year could result from disbursements of loans from both current year cohorts and prior-year cohorts. The
subsidy expense reported in the current year also includes reestimates.
As a result of new guidance, CCC chose to reflect interest on downward reestimates in the Statement of Changes in Net
Position as other financing sources for FY 2007 and 2006, respectively. The remainder of USDA credit programs chose to
reflect downward reestimates in earned revenue on the Statement of Net Cost. Both methodologies are accepted
alternatives that have been promulgated by Treasury.
Foreclosed Property
Property is acquired largely through foreclosure and voluntary conveyance. Acquired properties associated with loans are
reported at their market value at the time of acquisition. The projected future cash flows associated with acquired
properties are used in determining the related allowance (at present value).



                                                               145
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



As of September 30, 2007 and 2006, foreclosed property consisted of 591 and 530 rural single-family housing dwellings,
with an average holding period of 23 and 27 months, respectively. As of September 30, 2007 and 2006, FSA-Farm Loan
Program properties consist primarily of 61 and 78 farms, respectively. The average holding period for these properties in
inventory for FY 2007 and 2006 was 68 and 58 months, respectively. Certain properties can be leased to eligible
individuals.
Non-performing Loans
Non-performing loans are defined as receivables that are in arrears by 90 or more days, or are on rescheduling agreements
until such time two consecutive payments have been made following the rescheduling.
When RD, FSA and CCC calculate loan interest income, however, the recognition of revenue is deferred. Late interest is
accrued on arrears.
Loan Modifications
A modification is any Government action different from the baseline assumptions that affects the subsidy cost, such as a
change in the terms of the loan contract. The cost of a modification is the difference between the present value of the
cash flows before and after the modification.
In FY 2007, RD modified several loan programs. The multiple-family housing direct loan program modifications related
to the revitalization project, which began in FY 2006, continued throughout FY 2007. The revitalization project is used to
rehabilitate ailing housing developments. In this program, RD determines whether the development owner should be
offered a financial restructuring plan and what type of incentives, if any, should be offered to the owner to rehabilitate an
ailing housing development and to provide affordable rents for tenants.
In FY 2006, electric program direct loans were modified for two borrowers due to damage caused by the hurricanes which
occurred during the 2005 calendar year. One borrower’s loans were modified to defer principal payments for three years
and to extend the loan term for three years. The other modification was made to defer principal and interest for five years
and to extend the maturity by five years. One modification in the direct electric program occurred in FY 2007 related to
the 2005 hurricanes.
In the Federal Financing Bank (FFB) electric program, loan extension modifications were granted for two borrowers in
FY 2007. The maturity dates were extended up to 20 years on selected advances. Interest rates on the advances did not
change. At the time of the modification, the liquidating fund was paid off and the advances were moved to the financing
fund. The post-modification cash flows were discounted at the third quarter net present value discount factor from the
FY 2007 President’s Budget relative to the effective date of the loan extension modifications.
The Debt Reduction Fund is used to account for CCC's "modified debt." Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is "rescheduled," only
the date of payment is changed. Rescheduled debt is carried in the original fund until paid. All outstanding CCC
modified debt is carried in the Debt Reduction Fund and is governed by the Federal Credit Reform Act of 1990 as
amended.
Interest Credit
Approximately $17,800 million and $17,900 million of Rural Housing Service (RHS) unpaid loan principal as of
September 30, 2007, and 2006 were receiving interest credit, respectively. If those loans receiving interest credit had
accrued interest at the full-unreduced rate, interest income would have been approximately $1,000 million higher for FY
2007 and 2006.




                                                               146
                                           FY 2007 Performance and Accountability Report
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Restructured Loans
At the end of FY 2007 and 2006, the RD portfolio contained approximately 76,500 and 81,000 restructured loans with an
outstanding unpaid principal balance of $2,500 million. At the end of FY 2007 and 2006, the farm loan portfolio
contained approximately 22,000 and 23,000 restructured loans with an outstanding unpaid principal balance of $1,200
million and $1,300 million, respectively. Direct credit and credit guarantee principal receivables in the food aid and
export programs under rescheduling agreements as of September 30, 2007 and 2006, were $3,400 million and $4,200
million, respectively.




                                                            147
                                        FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 1. Direct Loan and Loan Guarantees, Net
  FY 2007                                         Loans                                         Present       Value of Assets
  Direct Loans                                  Receivable,     Interest       Foreclosed        Value          Related to
                                                  Gross        Receivable       Property       Allowance       Direct Loans
  Obligated Pre-1992
    Farm                                        $    1,679     $      115      $          10   $      (129)   $        1,675
    Export                                               -              -                  -             -                 -
    Food Aid                                         5,204             31                  -        (2,365)            2,870
    Housing                                         11,014            118                 21        (5,040)            6,113
    Electric                                        10,045             88                  -        (1,373)            8,760
    Telecommunications                               1,047              2                  -           (24)            1,025
    Water and Environmental                          1,438             12                  -          (182)            1,268
    Business and Industry                                -              -                  -             -                 -
    Economic Development                                44              -                  -           (20)               24
  Pre-1992 Total                                    30,471            366                 31        (9,133)           21,735
  Obligated Post-1991
    Farm                                             4,877            161                  4          (440)            4,602
    Export                                               -              -                  -             -                 -
    Food Aid                                         2,414             33                  -        (1,192)            1,255
    Housing                                         16,023             81                 24        (2,090)           14,038
    Electric                                        26,006            170                  -           (42)           26,134
    Telecommunications                               2,936              6                  -           328             3,270
    Water and Environmental                          7,839             70                  -          (638)            7,271
    Business and Industry                               51              -                  -           (38)               13
    Economic Development                               509              2                  -          (168)              343
  Post-1991 Total                                   60,655            523                 28        (4,280)           56,926
  Total Direct Loan Program Receivables             91,126            889                 59       (13,413)           78,661
  Defaulted Guarantee Loans
   Pre-1992
      Farm                                              8                -                 -           (5)                 3
      Export                                          349                5                 -         (114)               240
      Food Aid                                          -                -                 -            -                  -
      Housing                                           -                -                 -            -                  -
      Electric                                          -                -                 -            -                  -
      Telecommunications                                -                -                 -            -                  -
      Water and Environmental                           -                -                 -            -                  -
      Business and Industry                             3                1                 -            -                  4
      Economic Development                              -                -                 -            -                  -
   Pre-1992 Total                                     360                6                 -         (119)               247
    Post-1991
      Farm                                              49              2                  -          (32)                19
      Export                                           630             16                  -         (114)               532
      Food Aid                                           -              -                  -            -                  -
      Housing                                           23              -                  -          (22)                 1
      Electric                                           -              -                  -            -                  -
      Telecommunications                                 -              -                  -            -                  -
      Water and Environmental                            -              -                  -            -                  -
      Business and Industry                            118              3                  -          (12)               109
      Economic Development                               -              -                  -            -                  -
    Post-1991 Total                                    820             21                  -         (180)               661
  Total Defaulted Guarantee Loans                    1,180             27                  -         (299)               908
  Loans Exempt from Credit Reform Act:
    Commodity Loans                                   744              15                  -             -               759
    Other Foreign Receivables                          21               -                  -            (1)               20
  Total Loans Exempt                                  765              15                  -            (1)              779
  Total Direct Loan and Loan Guarantees, Net                                                                  $       80,348




                                                              148
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 1. Direct Loan and Loan Guarantees, Net (cont’d)
  FY 2006                                        Loans                                          Present       Value of Assets
  Direct Loans                                 Receivable,      Interest       Foreclosed         Value         Related to
                                                 Gross         Receivable       Property       Allowance       Direct Loans
  Obligated Pre-1992
    Farm                                       $    1,981      $      133      $          13   $      (174)   $        1,953
    Export                                              -               -                  -             -                 -
    Food Aid                                        5,600              68                  -        (2,570)            3,098
    Housing                                        11,666             101                 16        (5,212)            6,571
    Electric                                       11,969              25                  -        (1,460)           10,534
    Telecommunications                              1,239               2                  -           (79)            1,162
    Water and Environmental                         1,568              16                  -          (216)            1,368
    Business and Industry                               1               1                  -            (1)                1
    Economic Development                               44               -                  -           (22)               22
  Pre-1992 Total                                   34,068             346                 29        (9,734)           24,709
  Obligated Post-1991
    Farm                                            4,692             152                  4          (642)            4,206
    Export                                              -               -                  -             -                 -
    Food Aid                                        2,548              34                  -        (1,249)            1,333
    Housing                                        15,145              87                 16        (2,099)           13,149
    Electric                                       22,237               3                  -          (240)           22,000
    Telecommunications                              2,718               5                  -            77             2,800
    Water and Environmental                         7,104              73                  -          (663)            6,514
    Business and Industry                              70               -                  -           (67)                3
    Economic Development                              488               2                  -          (162)              328
  Post-1991 Total                                  55,002             356                 20        (5,045)           50,333
  Total Direct Loan Program Receivables            89,070             702                 49       (14,779)           75,042
  Defaulted Guarantee Loans
   Pre-1992
      Farm                                              8                -                 -           (6)                 2
      Export                                          516                7                 -         (137)               386
      Food Aid                                          -                -                 -            -                  -
      Housing                                           -                -                 -            -                  -
      Electric                                          -                -                 -            -                  -
      Telecommunications                                -                -                 -            -                  -
      Water and Environmental                           -                -                 -            -                  -
      Business and Industry                             -                -                 -            -                  -
      Economic Development                              4                -                 -            -                  4
   Pre-1992 Total                                     528                7                 -         (143)               392
    Post-1991
      Farm                                             36               1                  -          (22)                15
      Export                                        1,189              20                  -         (406)               803
      Food Aid                                          -               -                  -            -                  -
      Housing                                          17               -                  -          (14)                 3
      Electric                                          -               -                  -            -                  -
      Telecommunications                                -               -                  -            -                  -
      Water and Environmental                           -               -                  -            -                  -
      Business and Industry                           162               2                  -           (9)               155
      Economic Development                              -               -                  -            -                  -
    Post-1991 Total                                 1,404              23                  -         (451)               976
  Total Defaulted Guarantee Loans                   1,932              30                  -         (594)             1,368
  Loans Exempt from Credit Reform Act:
    Commodity Loans                                 1,493                -                 -         (132)             1,361
    Other Foreign Receivables                          62                -                 -          (42)                20
  Total Loans Exempt                                1,555                -                 -         (174)             1,381
  Total Direct Loan and Loan Guarantees, Net                                                                  $       77,791




                                                              149
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 2. Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans
                                                                                                  FY 2007       FY 2006

          Beginning balance of the subsidy cost allowance                                     $    5,080    $    4,674
          Add: Subsidy expense for direct loans disbursed during the year by component
            Interest rate differential costs                                                         (56)         (119)
            Default costs (net of recoveries)                                                        142           120
            Fees and other collections                                                                (3)           (3)
            Other subsidy costs                                                                      286           337
          Total subsidy expense prior to adjustments and reestimates                                 369           335

          Adjustments
            Loan modifications                                                                        (3)           27
            Fees received                                                                             29            22
            Loans written off                                                                       (274)         (276)
            Subsidy allowance amortization                                                          (467)          (78)
            Other                                                                                     (2)           32
          Total subsidy cost allowance before reestimates                                          4,732         4,736

          Add or subtract subsidy reestimates by component
            Interest rate reestimate                                                                  12            97
            Technical/default reestimate                                                            (410)          257
          Total reestimates                                                                         (398)          354
          Ending balance of the subsidy cost allowance                                        $    4,334    $    5,090




                                                                  150
                                              FY 2007 Performance and Accountability Report
                                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 3. Direct Loan Subsidy Expense by Program and Component

     FY 2007
                                                 Interest                  Fees and Other                     Subtotal      Total           Rate          Technical            Total         Total Subsidy
                                                Differential    Defaults     Collections          Other       Subsidy    Modifications   Reestimates     Reestimates        Reestimates        Expense
     Direct Loan Programs
      Farm                                      $         23    $  73      $               -      $ (6)       $  90      $          -    $        (64)   $           (76)   $        (140)   $          (50)
      Export                                               -        -                      -         -            -                 -               -                  -                -                 -
      Food Aid                                             4        1                      -         -            5                 -             (29)               (12)             (41)              (36)
      Housing                                           (154)      61                     (3)      306          210                 1             (76)                 1              (75)              136
      Electric                                           (26)       5                      -       (10)         (31)               (4)            122               (108)              14               (21)
      Telecommunications                                   1        2                      -        (1)           2                 -              16               (124)            (108)             (106)
      Water and Environmental                             75        1                      -        (4)          72                 -              31                (66)             (35)               37
      Business and Industry                                -        -                      -         -            -                 -               -                (13)             (13)              (13)
      Economic Development                                20        -                      -         -           20                 -              12                (11)               1                21
     Total Direct Loan Subsidy Expense          $        (57)   $ 143      $              (3)     $285        $ 368      $         (3)   $         12    $          (409)   $        (397)   $          (32)
                                                                                                    .


FY 2006
                                          Interest                   Fees and Other                     Subtotal      Total           Rate          Technical            Total         Total Subsidy
                                         Differential     Defaults     Collections        Other         Subsidy    Modifications   Reestimates     Reestimates        Reestimates        Expense
Direct Loan Programs
 Farm                                     $      12       $  73      $               -    $ (4)         $  81       $         -    $         5     $         (18)     $       (13)     $         68
 Export                                           -           -                      -       -              -                 -              -                 -                -                 -
 Food Aid                                        18           4                      -       -             22                26              -               (89)             (89)              (41)
 Housing                                       (178)         31                     (3)    360            210                 -            337               461              798             1,008
 Electric                                       (45)          9                      -     (14)           (50)                1           (214)              (39)            (253)             (302)
 Telecommunications                              (1)          2                      -      (1)             -                 -             (6)              (43)             (49)              (49)
 Water and Environmental                         53           1                      -      (3)            51                 -            (29)               (4)             (33)               18
 Business and Industry                            -           -                      -       -              -                 -              3                (9)              (6)               (6)
 Economic Development                            23           -                      -       -             23                 -              -                (2)              (2)               21
Total Direct Loan Subsidy Expense         $    (118)      $ 120      $              (3)   $338          $ 337      $         27    $        96     $         257      $       353      $        717
                                                                                            .




                                                                                                        151
                                                                               FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 4. Total Amount of Direct Loans Disbursed (Post-1991)

                                                                                         FY 2007   FY 2006
                Direct Loan Programs
                  Farm                                                                   $ 1,069   $ 1,041
                  Export                                                                       -         -
                  Food Aid                                                                     9        16
                  Housing                                                                  1,856     1,790
                  Electric                                                                 3,814     4,802
                  Telecommunications                                                         503       485
                  Water and Environmental                                                    969       675
                  Business and Industry                                                        -         -
                  Economic Development                                                        54        66
                Total Direct Loans Disbursed                                             $ 8,274   $ 8,875




                                                             152
                                         FY 2007 Performance and Accountability Report
                                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 5. Loan Guarantees Outstanding
                                                     Pre - 1992      Post - 1991         Total           Pre - 1992         Post - 1991           Total
                                                     Outstanding     Outstanding      Outstanding        Outstanding        Outstanding        Outstanding
                     FY 2007
                                                      Principal,      Principal,       Principal,         Principal,         Principal,         Principal,
                                                     Face Value      Face Value       Face Value         Guaranteed         Guaranteed         Guaranteed
                  Loan Guarantee Programs
                    Farm                             $        66     $     10,045     $     10,111       $        58        $     9,027        $     9,085
                    Export                                      -           2,371            2,371                  -             2,312              2,312
                    Food Aid                                    -               -                 -                 -                  -                 -
                    Housing                                    8           17,872           17,880                 7             16,075             16,082
                    Electric                                 184              218              402               184                218                402
                    Telecommunications                          -               -                 -                 -                  -                  -
                    Water and Environmental                     -              37               37                  -                30                 30
                    Business and Industry                     14            3,667            3,681                10              2,727              2,737
                    Economic Development                        -               -                 -                 -                  -                  -
                  Total Guarantees Disbursed         $       272     $     34,210     $     34,482       $       259        $    30,389        $    30,648



                                                      Pre - 1992     Post - 1991         Total           Pre - 1992     Post - 1991           Total
                                                      Outstanding    Outstanding      Outstanding        Outstanding    Outstanding        Outstanding
                        FY 2006
                                                       Principal,     Principal,       Principal,         Principal,     Principal,         Principal,
                                                      Face Value     Face Value       Face Value         Guaranteed     Guaranteed         Guaranteed
                    Loan Guarantee Programs
                      Farm                           $        86     $     10,069     $    10,155        $       76     $        9,046     $        9,122
                      Export                                    -           3,022           3,022                  -             2,925              2,925
                      Food Aid                                  -                -               -                 -                  -                 -
                      Housing                                 12           15,889          15,901                10             14,286             14,296
                      Electric                               167              222             389               167                222                389
                      Telecommunications                        -                -               -                 -                  -                 -
                      Water and Environmental                   -              34              34                  -                28                 28
                      Business and Industry                   23            3,892           3,915                17              2,863              2,880
                      Economic Development                     3                -               3                 3                  -                  3
                    Total Guarantees Disbursed       $       291     $     33,128     $    33,419        $      273     $       29,370     $       29,643




                                                                             153
                                                         FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 6. Liability for Loan Guarantees (Present Value Method for Pre-1992 Guarantees)

                                                     Liabilities for       Liabilities for Loan
                                                    Losses on Pre-           Guarantees on
                  FY 2007
                                                         1992                  Post-1991
                                                     Guarantees               Guarantees          Total Liabilities for
                                                    Present Value            Present Value        Loan Guarantees
              Loan Guarantee Programs
                Farm                                 $           1          $             126     $              127
                Export                                           -                        184                    184
                Food Aid                                         -                          -                      -
                Housing                                          -                        655                    655
                Electric                                         -                          -                      -
                Telecommunications                               -                          -                      -
                Water and Environmental                          -                          -                      -
                Business and Industry                            1                        291                    292
                Economic Development                             -                          -                      -
              Total Liability for Loan Guarantees    $           2          $           1,256     $            1,258




                                                     Liabilities for       Liabilities for Loan
                                                    Losses on Pre-           Guarantees on
                  FY 2006
                                                         1992                  Post-1991
                                                     Guarantees               Guarantees          Total Liabilities for
                                                    Present Value            Present Value        Loan Guarantees
              Loan Guarantee Programs
                Farm                                 $           1          $             121     $              122
                Export                                           -                        220                    220
                Food Aid                                         -                          -                      -
                Housing                                          -                        624                    624
                Electric                                         -                          -                      -
                Telecommunications                               -                          -                      -
                Water and Environmental                          -                          -                      -
                Business and Industry                            1                        329                    330
                Economic Development                             -                          -                      -
              Total Liability for Loan Guarantees    $           2          $           1,294     $            1,296




                                                                  154
                                              FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 7. Schedule for Reconciling Loan Guarantee Liability

                                                                                            FY 2007      FY 2006
     Beginning balance of the loan guarantee liability                                     $   1,293    $   1,209
     Add:Subsidy expense for guaranteed loans disbursed during the year by component
       Interest rate differential costs                                                           33           35
       Default costs (net of recoveries)                                                         280          290
       Fees and other collections                                                               (126)        (118)
       Other subsidy costs                                                                         -            -
     Total of the above subsidy expense components                                               187          207

     Adjustments
       Loan modifications                                                                          -            -
       Fees received                                                                             105           95
       Interest supplements paid                                                                 (10)          (6)
       Claim payments to lenders                                                                (107)        (154)
       Interest accumulation on the liability balance                                            (29)         127
       Other                                                                                     195           84
     Ending balance of the subsidy cost allowance before reestimates                           1,634        1,562

     Add or subtract subsidy reestimates by component:
       Interest rate reestimate                                                                  (64)          57
       Technical/default reestimate                                                             (315)        (326)
     Total of the above reestimate components                                                   (379)        (269)
     Ending balance of the loan guarantee liability                                        $   1,255    $   1,293




                                                               155
                                           FY 2007 Performance and Accountability Report
                                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 8. Guarantee Loan Subsidy Expense by Program and Component
          FY 2007
                                                                                                                        Interest                                 Total
                                                   Interest          Fees and Other                        Total          Rate     Technical     Total         Subsidy
          Loan Guarantee Programs                Supplement Defaults   Collections   Other     Subtotal Modifications Reestimates Reestimates Reestimates      Expense
            Farm                                  $      21  $ 51     $         (17)  $ -       $ 55     $         -   $         - $     (37)  $     (37)      $     18
            Export                                         -    48               (7)    -          41              -         (95)       (294)       (389)         (348)
            Food Aid                                       -      -               -     -           -              -             -         -           -               -
            Housing                                      12    126              (80)    -          58              -          12         (25)        (13)            45
            Electric                                       -      -               -     -           -              -             -         -           -               -
            Telecommunications                             -      -               -     -           -              -             -         -           -               -
            Water and Environmental                        -      -               -     -           -              -           (1)         1           -               -
            Business and Industry                          -    55              (22)    -          33              -          21          39          60             93
            Economic Development                           -      -               -     -           -              -             -         -           -               -
          Total Loan Guarantee Subsidy Expense    $      33  $ 280    $       (126)  $ -        $ 187    $         -   $     (63)  $    (316)  $    (379)      $ (192)


FY 2006
                                                                                                               Interest                              Total
                                           Interest          Fees and Other                       Total          Rate     Technical     Total      Subsidy
Loan Guarantee Programs                  Supplement Defaults   Collections   Other    Subtotal Modifications Reestimates Reestimates Reestimates   Expense
  Farm                                    $      25  $ 58     $         (17)  $ -      $ 66     $         -   $       1   $      18   $      19    $     85
  Export                                           -    78               (9)    -         69              -          23        (371)       (348)      (279)
  Food Aid                                         -      -               -     -          -              -             -         -           -            -
  Housing                                        10     97              (68)    -         39              -          20          31          51          90
  Electric                                         -      -               -     -          -              -             -         -           -            -
  Telecommunications                               -      -               -     -          -              -             -         -           -            -
  Water and Environmental                          -      -               -     -          -              -             -         -           -            -
  Business and Industry                            -    56              (25)    -         31              -          13          (4)          9          40
  Economic Development                             -      -               -     -          -              -             -         -           -            -
Total Loan Guarantee Subsidy Expense      $      35  $ 289    $       (119)  $ -       $ 205    $         -   $      57   $    (326)  $    (269)   $    (64)




                                                                                      156
                                                                  FY 2007 Performance and Accountability Report
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 9. Guaranteed Loans Disbursed
                                                           FY 2007                                  FY 2006
                                                   Principal,    Principal,            Principal, Face      Principal,
                                                  Face Value    Guaranteed                  Value         Guaranteed
                                                  Disbursed      Disbursed               Disbursed         Disbursed
    Loan Guarantee Programs
        Farm                                       $     2,110       $     1,896       $       2,146     $       1,928
        Export                                           1,086             1,037               1,568             1,451
        Food Aid                                             -                 -                   -                 -
        Housing                                          3,643             3,275               3,187             2,864
        Electric                                             -                 -                   3                 3
        Telecommunications                                   -                 -                   -                 -
        Water and Environmental                              7                 6                   1                 1
        Business and Industry                              588               459                 489               382
        Economic Development                                 -                 -                   -                 -
    Total Guaranteed Loans Disbursed               $     7,434       $     6,673       $       7,394     $       6,629




Table 10. Administrative Expenses
                                                                        FY 2007              FY 2006
                    Direct Loan Programs                              $       527          $       535
                    Guaranteed Loan Programs                                  230                  253
                  Total Administrative Expenses                       $       757          $       788




                                                           157
                                       FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Table 11. Subsidy Rates for Direct Loans (percentage)
                                                                                         Fees and
                 FY 2007                                       Interest                   Other
                                                              Differential   Defaults   Collections    Other     Total
               Direct Loan Programs
                 Farm Operating                                     1.02       10.49            -        0.18    11.69
                 Indian Land Acquisition                            5.49       15.66            -         -      21.15
                 Emergency Disaster                                12.38        0.08            -       (0.69)   11.77
                 Boll Weevil Eradication                            2.85       (0.95)           -         -       1.90
                 Farm Ownership                                     3.88        0.43            -       (0.12)    4.19
                 Farm Storage Facility Loan Program                 0.03        7.27          (0.11)    (6.81)    0.38
                 Sugar Storage Facility Loan Program                0.63        7.40            -      (10.74)   (2.71)
                 Community Facility Loans                           7.04        0.18            -       (0.81)    6.41
                 Water and Waste Disposal Loans                    10.31        0.09            -       (0.44)    9.96
                 Distance Learning and Telemedicine Loans          (0.72)       1.35            -         -       0.63
                 Broadband Treasury Loans                            -          2.19            -       (0.04)    2.15
                 Electric Hardship Loans                            2.25         -              -       (0.11)    2.14
                 Municipal Electric Loans                           1.26         -              -        0.25     1.51
                 FFB Electric Loans                                (1.21)       0.02            -         -      (1.19)
                 Telecommunication Hardship Loans                   0.36        0.01            -         -       0.37
                 FFB Telecommunications Loans                      (1.21)       0.02            -       (0.30)   (1.49)
                 Treasury Telecommunication Loans                    -          0.03            -         -       0.03
                 FFB Guaranteed Underwriting                       (1.24)       0.80            -         -      (0.44)
                 Single-Family Housing Credit Sales               (16.88)       9.56            -        7.80     0.48
                 Multi-Family Housing Credit Sales                (19.19)       0.11            -       64.41    45.33
                 Section 502 Single-Family Housing                (14.99)       5.37            -       19.65    10.03
                 Section 504 Housing Repair                        30.08        1.47            -       (2.00)   29.55
                 Section 515 Multi-Family Housing                 (18.32)       0.07            -       63.92    45.67
                 Section 523 Self-Help Site Development             2.47         -              -         -       2.47
                 Section 524 Site Development                      (2.59)       0.93            -         -      (1.66)
                 Section 514 Farm Labor Housing                    45.52        0.21            -        2.22    47.95
                 Multi-Family Housing Relending Program            47.81         -              -        0.01    47.82
                 Intermediary Relending Program                    44.93         -              -       (0.86)   44.07
                 Rural Economic Development Loans                  23.45        0.18            -       (1.79)   21.84




                                                                  158
                                              FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                                                                                Fees and
                      FY 2006                                       Interest                      Other
                                                                   Differential     Defaults    Collections    Other        Total
                    Direct Loan Programs
                      Farm Operating                                     1.62           8.05            -       0.28          9.95
                      Indian Land Acquisition                            5.87          (1.86)           -        -            4.01
                      Emergency Disaster                                 5.02           6.25            -      (0.33)        10.94
                      Boll Weevil Eradication                            0.51         (18.74)           -       0.14        (18.09)
                      Farm Ownership                                     0.63           2.49            -       2.00          5.12
                      Farm Storage Facility Loan Program                 0.04           6.76          (0.11)   (7.31)        (0.62)
                      Sugar Storage Facility Loan Program                0.36           0.90            -        -            1.26
                      Community Facility Loans                           3.59           0.24            -      (0.48)         3.35
                      Water and Waste Disposal Loans                     7.14           0.09            -      (0.32)         6.91
                      Distance Learning and Telemedicine Loans            -             1.63            -      (0.13)         1.50
                      Broadband 4% Loans                                 5.83           2.13            -      (0.01)         7.95
                      Broadband Treasury Loans                            -             2.22            -      (0.07)         2.15
                      Electric Hardship Loans                            0.69           0.02            -       0.21          0.92
                      Municipal Electric Loans                           4.68           0.02            -       0.35          5.05
                      FFB Electric Loans                                (0.49)          0.02            -      (0.01)        (0.48)
                      Treasury Electric Loans                             -             0.02            -      (0.01)         0.01
                      Telecommunication Hardship Loans                  (1.84)          0.02            -       0.02         (1.80)
                      FFB Telecommunications Loans                      (1.03)          0.02            -      (0.56)        (1.57)
                      Treasury Telecommunication Loans                    -             0.03            -       0.02          0.05
                      Single-Family Housing Credit Sales               (19.35)          1.16            -       3.66        (14.53)
                      Multi-Family Housing Credit Sales                (19.82)          0.12            -      65.10         45.40
                      Section 502 Single-Family Housing                (16.77)          2.32            -      25.84         11.39
                      Section 504 Housing Repair                        27.00           2.45            -      (0.20)        29.25
                      Section 515 Multi-Family Housing                 (17.86)          0.04          (0.05)   63.75         45.88
                      Section 523 Self-Help Site Development             1.03            -              -        -            1.03
                      Section 524 Site Development                      (4.30)          0.79            -        -           (3.51)
                      Section 514 Farm Labor Housing                    44.91           0.03            -      (0.35)        44.59
                      Intermediary Relending Program                    43.84            -              -      (0.82)        43.02
                      Rural Economic Development Loans                  21.40           0.07            -       1.50         22.97
                      Electric Underwriting                             (2.09)          0.83            -        -           (1.26)
                      MFH Preservation                                  46.76            -              -        -           46.76
                      P. L. 480 Direct Credits                          44.39          11.01            -        -           55.40



Table 12. Subsidy Rates for Loan Guarantees (percentage)
                                                                                                Fees and
              FY 2007                                        Interest                             Other
                                                            Differential          Defaults      Collections       Other               Total
         Guaranteed Loan Programs
           CCC Export Loan Guarantee Program                        -                  9.28           (1.35)            -                7.93
           Farm Operating—Unsubsidized                              -                  3.37           (0.90)            -                2.47
           Farm Operating—Subsidized                               7.59                2.48             -               -               10.07
           Farm Ownership—Unsubsidized                              -                  1.48           (0.90)            -                0.58
           Community Facility Loans                                 -                  4.52           (0.86)            -                3.66
           Water and Waste Disposal Loans                           -                   -             (0.90)            -               (0.90)
           Section 502 Single-Family Housing Purchase               -                  3.21           (2.00)            -                1.21
           Section 502 Single-Family Housing Refinance              -                  1.00           (0.50)            -                0.50
           538 Multi-Family Housing-Subsidized                    14.59                0.50           (7.35)            -                7.74
           Renewable Energy                                         -                  8.03           (1.54)            -                6.49




                                                                      159
                                                FY 2007 Performance and Accountability Report
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION


                                                                                         Fees and
             FY 2006                                       Interest                        Other
                                                          Differential     Defaults      Collections    Other       Total
         Guaranteed Loan Programs
           CCC Export Loan Guarantee Program                      -             9.50           (0.57)        -         8.93
           Farm Operating—Unsubsidized                            -             3.93           (0.90)        -         3.03
           Farm Operating—Subsidized                             9.24           3.26             -           -        12.50
           Farm Ownership—Unsubsidized                            -             1.38           (0.90)        -         0.48
           Business and Industry Loans                            -             8.20           (3.41)        -         4.79
           Guaranteed Business & Industry NadBank Loans           -            13.76           (3.28)      (0.01)     10.47
           Community Facility Loans                               -             1.21           (0.85)        -         0.36
           Water and Waste Disposal Loans                         -              -             (0.90)        -        (0.90)
           Electric Guaranteed Loans                              -             0.90             -           -         0.90
           Guaranteed Broadband Loans (Discretionary)             -             3.82             -           -         3.82
           Guaranteed Broadband Loans (Mandatory)                 -             3.82             -           -         3.82
           Section 502 Single-Family Housing Purchase             -             3.16           (2.00)        -         1.16
           Section 502 Single-Family Housing Refinance            -             0.79           (0.50)        -         0.29
           538 Multi-Family Housing-Subsidized                  12.28           0.57           (7.44)       0.01       5.42
           Renewable Energy                                       -             8.20           (1.75)        -         6.45




NOTE 8. INVENTORY AND RELATED PROPERTY, NET
Commodity inventory is restricted for the purpose of alleviating distress caused by natural disasters, providing emergency
food assistance in developing countries and providing price support and stabilization. Commodity loan forfeitures during
the fiscal years ended September 30, 2007 and 2006 were $77 million and $106 million, respectively. Estimated future
commodity donations are expected to be $12 million.




                                                                     160
                                               FY 2007 Performance and Accountability Report
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                                      FY 2007                            FY 2006
Inventories                                                     $      1                           $       1

                                               Volume                             Volume
Commodities:
                                            (in millions)       Amount         (in millions)       Amount
  Corn (In Bushels):
   On hand at the beginning of the year                1               2                  1               2
   Acquired during the year                            4              12                289             561
   Disposed of during the year
      Sales                                            (4)            (12)             (288)           (558)
      Donations                                         -               -                (1)             (3)
      Other                                             -               -                 -               -
   On hand at the end of the year                       1               2                 1               2

  Wheat (In Bushels):
   On hand at the beginning of the year               43             159                 47             171
   Acquired during the year                           35             182                 56             240
   Disposed of during the year
      Sales                                          (30)           (179)               (28)           (134)
      Donations                                       (7)            (12)               (32)           (118)
      Other                                           (2)             (6)                 -               -
   On hand at the end of the year                     39             144                 43             159

  Nonfat Dry Milk (In Pounds):
   On hand at the beginning of the year               49              40                104              94
   Acquired during the year                            -               -                 62              50
   Disposed of during the year
      Sales                                           (1)              (1)              (27)             (25)
      Donations                                      (34)             (36)              (82)             (76)
      Other                                            -               10                (8)              (3)
   On hand at the end of the year                     14               13                49               40

  Other:
    On hand at the beginning of the year                               24                                 37
    Acquired during the year                                        5,274                              5,140
    Disposed of during the year
        Sales                                                     (5,223)                            (5,085)
        Donations                                                    (46)                               (68)
        Other                                                         (4)                                 -
    On hand at the end of the year                                    25                                 24
Allowance for losses                                                   -                               (171)
Total Commodities                                                    184                                 54
Total Inventory and Related Property, Net                       $    185                           $     55




                                                    161
                               FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 9. GENERAL PROPERTY, PLANT, AND EQUIPMENT, NET
             FY 2007                                                  Useful                                            Net
                                                                       Life                         Accumulated        Book
                Category                                             (Years)           Cost         Depreciation       Value

             Land and Land Rights                                                  $         77     $          -   $         77
             Improvements to Land                                    10 - 50              5,028            2,823          2,205
             Construction-in-Progress                                                       884                -            884
             Buildings, Improvements and Renovations                 15 - 30              1,903            1,161            742
             Other Structures and Facilities                         15 - 50              1,685            1,248            437
             Equipment                                                5 - 20              1,687            1,359            328
             Assets Under Capital Lease                               3 - 20                 70               34             36
             Leasehold Improvements                                     10                   63               38             25
             Internal-Use Software                                    5-8                   482              311            171
             Internal-Use Software in Development                                            23                1             22
             Other General Property, Plant and Equipment              5 - 15                  4                -              4
                 Total                                                             $     11,906     $      6,975   $      4,931


             FY 2006                                                  Useful                                            Net
                                                                       Life                         Accumulated        Book
                Category                                             (Years)           Cost         Depreciation       Value

             Land and Land Rights                                                  $         75     $          -   $         75
             Improvements to Land                                    10 - 50              4,986            2,711          2,275
             Construction-in-Progress                                                       828                -            828
             Buildings, Improvements and Renovations                 15 - 30              1,815            1,099            716
             Other Structures and Facilities                         15 - 50              1,604            1,194            410
             Equipment                                                5 - 20              1,711            1,375            336
             Assets Under Capital Lease                               3 - 20                 44               16             28
             Leasehold Improvements                                     10                   50               34             16
             Internal-Use Software                                    5-8                   442              263            179
             Internal-Use Software in Development                                            38                -             38
             Other General Property, Plant and Equipment              5 - 15                  4                -              4
                 Total                                                             $     11,597     $      6,692   $      4,905




NOTE 10. STEWARDSHIP PP&E
Stewardship PP&E consist of assets whose physical properties resemble those of General PP&E that are traditionally
capitalized in the financial statements. Due to the nature of these assets however, valuation would be difficult and
matching costs with specific periods would not be meaningful. Stewardship PP&E include heritage assets and stewardship
land.

Heritage assets are unique and are generally expected to be preserved indefinitely. Heritage assets may be unique because
they have historical or natural significance, are of cultural, educational or artistic importance, or have significant
architectural characteristics. The assets are reported in terms of physical units rather than cost, fair value, or other
monetary values. No amounts are shown on the balance sheet for heritage assets, except for multi-use heritage assets in
which the predominant use of the asset is in general government operations. The costs of acquisition, betterment, or
reconstruction of multi-use heritage assets is capitalized as general PP&E and depreciated, with required supplementary
information providing the physical quantity information for the multi-use heritage assets. The costs of acquiring,
constructing, improving, reconstructing, or renovating heritage assets, other than multi-use is considered an expense in
the period incurred when determining the net cost of operations. Heritage assets are held by the FS, NRCS, and ARS
consisting mainly of buildings and structures.




                                                                        162
                                                    FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Stewardship land is land and land rights not acquired for or in connection with items of general PP&E. Land is defined
as the solid surface of the earth, excluding natural resources. Stewardship land is valued for its environmental resources,
recreational and scenic value, cultural and paleontological resources, vast open spaces, and resource commodities and
revenue provided to the Federal government, states, and counties. These assets are reported in terms of physical units
rather than cost, fair value, or other monetary values. No asset amount is shown on the balance sheet for stewardship
land. The acquisition cost of stewardship land is considered an expense in the period acquired when determining the net
cost of operations. The FS manages public land, the majority of which is classified as stewardship land. The NRCS
manages several conservation easement programs.



NOTE 11. OTHER ASSETS
In fiscal 2007 and 2006, other assets include investments in trust for loan asset sales of $37 million.
                                                                   FY 2007                 FY 2006

                           With the Public:
                             Advances to Others                            114                       60
                             Prepayments                                     -                        1
                             Other Assets                                   37                       37
                           Total Other Assets                  $           151         $             98




NOTE 12. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
In fiscal 2007 and 2006, other intragovernmental liabilities not covered by budgetary resources include accruals for Federal
Employee Compensation Act (FECA) of $162 million and $159 million, respectively, and contract disputes claims
payable to Treasury’s Judgment Fund of $15 million and $13 million, respectively.

In fiscal 2007 and 2006, other liabilities with the public not covered by budgetary resources include, accruals for rental
payments under the Conservation Reserve Program (CRP) of $1,810 million and $1,779 million, unfunded leave of $592
million and $589 million, Payments to States $394 million and $398 million, and contingent liabilities of $48 million and
$15 million, respectively. In fiscal 2007 and 2006, CCC reported a liability in the amount of $5,380 and $6,137 million
under the Tobacco Transition Payment Program (TTPP), respectively. In fiscal 2006, other liabilities included future
funded indemnity costs of $296 million.




                                                               163
                                           FY 2007 Performance and Accountability Report
            FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



                                                                                    FY 2007              FY 2006
         Intragovernmental:
           Other                                                                $           178      $             173
         Subtotal Intragovernmental                                                         178                    173
         With the Public:
          Federal employee and veterans' benefits                                           775                    808
           Environmental and disposal liabilities                                           105                    63
           Other                                                                          8,222               9,216
         Subtotal With the Public                                                         9,102              10,087

         Total liabilities not covered by budgetary resources                             9,280              10,260

         Total liabilities covered by budgetary resources                               105,501             113,693

         Total Liabilities                                                      $       114,781      $      123,953



NOTE 13. DEBT
                                                                Beginning                                Ending
                                                                 Balance            Net Borrowing        Balance
           FY 2007
           Intragovernmental
             Debt to the Treasury                           $         58,187        $     (8,990)    $      49,197
             Debt to the Federal Financing Bank                       25,260                 644            25,904
           Total Intragovernmental                                    83,447              (8,346)           75,101

           Agency Debt:
             Held by the Public                                             -                   -                  -

           Total Debt                                       $         83,447        $     (8,346)    $      75,101


                                                                Beginning                                Ending
           FY 2006
                                                                 Balance            Net Borrowing        Balance
           Intragovernmental
             Debt to the Treasury                           $         60,708        $     (2,521)    $      58,187
             Debt to the Federal Financing Bank                       22,807               2,453            25,260
           Total Intragovernmental                                    83,515                 (68)           83,447

           Agency Debt:
             Held by the Public                                             1                  (1)                 -

           Total Debt                                       $         83,516        $         (69)   $      83,447




                                                                164
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 14. ENVIRONMENTAL AND DISPOSAL LIABILITIES
The Department is subject to the Comprehensive Environmental Response, Compensation, and Liability Act, the Clean
Water Act, and the Resource Conservation and Recovery Act for cleanup of hazardous waste. In FY 2007, the FS and
CCC estimate the liability for total cleanup costs for sites known to contain hazardous waste to be $97 million and $8
million respectively, $53 million for FS and $10 million for CCC in FY 2006, based on actual cleanup costs at similar
sites. These estimates will change as new sites are discovered, remedy standards change and new technology is introduced.
This liability is not covered by budgetary resources.

NOTE 15. OTHER LIABILITIES
As of September 30, 2006, other intragovernmental liabilities include credit reform reestimates of $202 million.

In fiscal 2007, other liabilities with the public include estimated losses on crop insurance claims of $2,579 million,
estimated underwriting gains on crop insurance of $1,509 million, crop insurance premium subsidy deficiency reserve of
$565 million, Payments to States of $394 million, credit reform programs of $12 million, undistributed credits for insured
loans of $11 million and estimated program delivery cost to reinsurer of $9 million.

In fiscal 2006, other liabilities with the public include estimated losses on crop insurance claims of $2,328 million,
estimated underwriting gains on crop insurance of $652 million, crop insurance premium subsidy deficiency reserve of
$431 million, Payments to States of $398 million, credit reform programs of $47 million, undistributed credits for insured
loans of $16 million, peanut/tobacco programs of $10 million and estimated program delivery cost to reinsurer of $3
million.
                 FY 2007                                                             Non-Current         Current         Total
                 Intragovernmental:
                   Other Accrued Liabilities                                     $           15      $      550    $      565
                   Employer Contributions and Payroll Taxes                                   -              45            45
                   Unfunded FECA Liability                                                    -             162           162
                   Advances from Others                                                       -              35            35
                   Liability for Deposit Funds, Clearing Accounts                             -             (29)          (29)
                   Resources Payable to Treasury                                              -          12,921        12,921
                   Custodial Liability                                                        -              54            54
                 Subtotal Intragovernmental                                                  15          13,738        13,753

                 With the Public:
                   Other Accrued Liabilities                                                  -          12,944        12,944
                   Accrued Funded Payroll and Leave                                           -              44            44
                   Unfunded Leave                                                             -             550           550
                   Other Unfunded Employment Related Liability                                -              41            41
                   Advances from Others                                                       -              63            63
                   Deferred Credits                                                           -             406           406
                   Liability for Deposit Funds, Clearing Accounts                             -             205           205
                   Contingent Liabilities                                                    11              37            48
                   Capital Lease Liability                                                   32               4            36
                   Custodial Liability                                                        -               2             2
                   Other Liabilities                                                         20           5,058         5,078
                 Subtotal With the Public                                                    63          19,354        19,417

                 Total Other Liabilities                                         $           78      $   33,092    $   33,170




                                                                         165
                                                     FY 2007 Performance and Accountability Report
FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



  FY 2006                                                             Non-Current         Current         Total
  Intragovernmental:
    Other Accrued Liabilities                                     $           49      $      549    $      598
    Employer Contributions and Payroll Taxes                                   1              44            45
    Unfunded FECA Liability                                                    -             159           159
    Advances from Others                                                       -               8             8
    Liability for Deposit Funds, Clearing Accounts                             -            (136)         (136)
    Liability for Subsidy Related to Undisbursed Loans                         -               9             9
    Resources Payable to Treasury                                              -          13,158        13,158
    Custodial Liability                                                        -              37            37
    Other Liabilities                                                          -             202           202
  Subtotal Intragovernmental                                                  50          14,030        14,080

  With the Public:
    Contract Holdbacks                                                         -               -             -
    Other Accrued Liabilities                                                 23          14,869        14,892
    Accrued Funded Payroll and Leave                                           2              43            45
    Unfunded Leave                                                             8             581           589
    Other Unfunded Employment Related Liability                                -               -             -
    Advances from Others                                                       -              58            58
    Deferred Credits                                                           -             311           311
    Liability for Deposit Funds, Clearing Accounts                             -             231           231
    Contingent Liabilities                                                     5              10            15
    Capital Lease Liability                                                   26               2            28
    Custodial Liability                                                        -              27            27
    Other Liabilities                                                         19           3,867         3,886
  Subtotal With the Public                                                    83          19,999        20,082

  Total Other Liabilities                                         $         133       $   34,029    $   34,162




                                                          166
                                      FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 16. LEASES
USDA activities based in the Washington D.C. area are located in General Services Administration (GSA) leased
facilities, and USDA owned buildings. The USDA Headquarter complex (Whitten Building, South Building and Cotton
Annex) is a government owned facility, which is part of the GSA Federal Buildings Inventory. As the result of a 1998
Agreement between GSA and USDA, a moratorium was placed on the rental billings for the Headquarters complex
beginning in FY 1999.

At current market rate, the estimated yearly rental payment for the above mentioned space would be $57 million. This
agreement is still in effect and as a result, USDA activities located in the Headquarter complex are not billed for rental
costs.

Effective September 30, 2007, the Department released the Cotton Annex to GSA and no longer occupies the building.


       FY 2007
       Capital Leases:
         Summary of Assets Under Capital Leases
           Land and Building                                             $          68
           Machinery and Equipment                                                   2
           Accumulated Amortization                                                 34

         Future Payments Due:
                                                                                                Machinery &
                                                                        Land & Buildings                              Other       Totals
                                                                                                Equipment
           Fiscal Year
           2008                                                                      11                       -               -             11
           2009                                                                      10                       -               -             10
           2010                                                                      10                       -               -             10
           2011                                                                      10                       -               -             10
           2012                                                                      10                       -               -             10
           After 5 Years                                                             65                       -               -             65
       Total Future Lease Payments                                                  116                       -               -            116
       Less: Imputed Interest                                                        55                       -               -             55
       Less: Executory Costs                                                         25                       -               -             25
       Less: Lease Renewal Options                                                    -                       -               -              -
       Net Capital Lease Liability                                                   36                       -   $           -             36

       Lease liabilities covered by budgetary resources                             36

       Operating Leases:
        Future Payments Due:
                                                                                                Machinery &
                                                                        Land & Buildings                              Other       Totals
           Fiscal Year                                                                          Equipment
           2008                                                                      82                       1               -             83
           2009                                                                      73                       -               -             73
           2010                                                                      68                       -               -             68
           2011                                                                      62                       -               -             62
           2012                                                                      56                       -               -             56
           After 5 Years                                                            441                       1               -            442
         Total Future Lease Payments                                     $          782     $                 2   $           -   $        784




                                                                              167
                                                          FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



    FY 2006
    Capital Leases:
      Summary of Assets Under Capital Leases
        Land and Building                                             $          41
        Machinery and Equipment                                                   3
        Accumulated Amortization                                                 16

      Future Payments Due:
                                                                                             Machinery &
                                                                     Land & Buildings                              Other       Totals
                                                                                             Equipment
        Fiscal Year
        2007                                                                      7                        -               -             7
        2008                                                                      7                        -               -             7
        2009                                                                      7                        -               -             7
        2010                                                                      7                        -               -             7
        2011                                                                      7                        -               -             7
        After 5 Years                                                            52                        -               -            52
    Total Future Lease Payments                                                  87                        -               -            87
    Less: Imputed Interest                                                       54                        -               -            54
    Less: Executory Costs                                                         5                        -               -             5
    Less: Lease Renewal Options                                                   -                        -               -             -
    Net Capital Lease Liability                                                  28                        -   $           -            28

    Lease liabilities covered by budgetary resources                             28

    Operating Leases:
     Future Payments Due:
                                                                                             Machinery &
                                                                     Land & Buildings                              Other       Totals
        Fiscal Year                                                                          Equipment
        2007                                                                      80                       -            5                85
        2008                                                                      75                       -            4                79
        2009                                                                      68                       -            4                72
        2010                                                                      61                       -            4                65
        2011                                                                      54                       -            3                57
        After 5 Years                                                            368                       -           42               410
      Total Future Lease Payments                                     $          706     $                 -   $       62      $        768




NOTE 17. COMMITMENTS AND CONTINGENCIES
The Department is subject to various claims and contingencies related to lawsuits as well as commitments under
contractual and other commercial obligations.

For cases in which payment has been deemed probable and for which the amount of potential liability has been estimated,
$48 million and $15 million has been accrued in the financial statements as of September 30, 2007 and 2006, respectively.

No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote. The Department’s potential liability for claims where a judgment
against the Department is reasonably possible ranges from $2,867 million to $2,969 million as of September 30, 2007,
compared to $2,890 million to $2,900 million as of September 30, 2006.
CRP rental payments are estimated to be $1,900 million annually through FY 2016. Commitments to extend loan
guarantees are estimated to be $2,719 million and $2,300 million in fiscal 2007 and 2006, respectively.




                                                                           168
                                                       FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 18. EARMARKED FUNDS
Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources, which
remain available over time. These specifically identified revenues and other financing sources are required by statute to be
used for designated activities, benefits or purposes and must be accounted for separately from the Government’s general
revenues.

Financial information for all significant earmarked funds follows the descriptions of each fund’s purpose shown below.

Risk Management Agency
Federal Crop Insurance Corporation Fund (FCIC)
Resources for the FCIC Fund includes funds collected from the public for insurance premiums and other insurance
related fees that are used with appropriations from Congress and unobligated balances from previous years to fund the
Federal Crop Insurance Program. Funds are available under 7 U.S.C. 1501-1519.

Agricultural Marketing Service
Funds for Strengthening Markets, Income, and Supply
This fund is used to purchase commodities for schools and elderly feeding programs, to provide goods and other
necessities in emergencies and disasters, and to purchase agricultural commodities to stabilize markets. The fund is
permanently financed by statutory transfer of an amount equal to 30 percent of customs receipts collected during each
calendar year and is automatically appropriated for expanding outlets for perishable, non-price supported commodities.
An amount equal to 30 percent of receipts collected on fishery products is transferred to the Food and Nutrition Service
and is used to purchase commodities under section 6 of the National School Lunch Act and other authorities specified in
the child nutrition appropriation. Funds are available under section 32 of the Act of August 24, 1935, as amended (7
U.S.C. 612c).

Expenses and Refunds, Inspection and Grading of Farm Products

The commodity grading programs provide grading, examination, and certification services for a wide variety of fresh and
processed food commodities using federally approved grade standards and purchase specifications. This fund is financed
by the collection of fees charged to producers of various food commodities who request, on a voluntary basis, inspection
and grading of agricultural food commodities. This program is authorized by the Agricultural Marketing Act of 1946 (7
U.S.C. 1621-1627).

Animal Plant Health Inspection Service
Agricultural Quarantine Inspection User Fee Account
This fund is used to record and report expenditures and revenue associated with operating Agricultural Quarantine
Inspection (AQI) activities at ports of entry. The Farm Bill of 1990, as amended by the Federal Agriculture
Improvement and Reform Act of 1996, gave the Animal and Plant Health Inspection Service (APHIS) the authority to
charge user fees for AQI services, and to use the revenue to fund AQI activities. In March of 2003, a portion of the AQI
program was transferred to the Department of Homeland Security (DHS); however, APHIS retained the authority to
collect AQI revenue. APHIS transfers a portion of the revenue to DHS periodically throughout the year to fund their
expenditures. The revenue in the fund is collected from airlines, air passengers, vessels, trucks, and railroad cars that are




                                                               169
                                           FY 2007 Performance and Accountability Report
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



subject to AQI inspection at ports of entry. These user fees are an inflow of revenue from the public that is used to fund
AQI inspections that are required by APHIS and DHS. The authority is codified in 21 U.S.C. 136(a).
Forest Service
Cooperative Work
Cooperative contributions are deposited for disbursement in compliance with the terms and provisions of the agreement
between the cooperator and the Forest Service. Cooperators include timber purchasers, not-for-profit organizations, and
local hunting and fishing clubs. The governing authorities are the Act of June 30, 1914 (16 U.S.C. 498), and the
Knutson-Vandenberg Act.

Land Acquisition

Each fiscal year this fund receives a transfer of recreation user fees from the Department of the Interior’s Land and Water
Conservation Fund, to be used for the acquisition of land or waters, or interest therein, including administrative expenses,
to carry out the provisions of the Land and Water Conservation Fund Act of 1965, as amended (16 U.S.C. 460l-4-11),
pertaining to the preservation of watersheds. The Land Acquisition program is authorized by the Interior and Related
Agencies Appropriations Act of December 30, 1982 (96 Stat. 1983, Public Law 97-394).
Payments to States, National Forest Fund
The Payments to States, National Forest Fund receives receipts from the National Forest Fund. These monies are
generated from the sale of goods and services at the national forests. Annually, revenue-sharing payments are made to the
States in which the national forests are located, for public schools and public roads in the county or counties in which the
national forests are situated. The Act of May 23, 1908, as amended (16 U.S.C. 500), authorized the Payments to States,
National Forest Fund program.

Timber Salvage Sales

The Timber Salvage Sale Fund was established to facilitate the timely removal of timber damaged by fire, wind, insects,
disease, or other events. Amounts collected from the sale of salvaged timber are used on other qualifying salvage sales to
cover the cost of preparing and administering the sales. The Timber Salvage Sales program is authorized by 16 USC
472(a).

Timber Roads, Purchaser Election

The Timber Roads fund receives deposits from small business timber purchasers who elect to pay the USDA Forest
Service to construct or reconstruct any road or bridge required by their respective timber sale. These collections are used
to finance only those forest development roads constructed or reconstructed under the terms and conditions of the timber
sale contract(s) involved, and only to a standard necessary to harvest and remove the timber and other products covered by
the particular sale(s). The Timber Roads, Purchaser Election program is authorized by 16 USC 472(I) (2).

Expenses, Brush Disposal

Deposits from timber purchasers are used to cover the cost required to dispose of slash, brush, and other debris resulting
from timber cutting operations and for supplemental protection of the cutover areas in lieu of actual disposal. The
Expenses, Brush Disposal program is authorized by 16 U.S.C. 490-498.




                                                              170
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



State, Private, and International Forestry Land and Water Conservation Fund

The Fiscal Year 2004 Department of Interior and Related Agencies Appropriation Act (Public Law 108-108) authorizes
the Forest Service to receive a transfer of receipts from the Department of Interior’s Land and Water Conservation Fund
to finance the existing Forest Legacy Program, funded previously by State and Private Forestry general appropriation. To
accommodate the new financing arrangement and at OMB’s request, the U.S. Department of Treasury established a new
special fund, “State, Private and International Forestry Land and Water Conservation Fund”. The program expenditures
include grants and an occasional land purchase, but not real property will be procured or constructed.
Recreation Fee Demonstration Program
The Recreation Fee Demonstration Program fund receives deposits of recreation fees collected from projects that are part
of the Recreation Fee Demonstration Program. These monies are retained and used for backlog repair and maintenance
of recreation areas, sites or projects. These funds are also used for interpretation, signage, habitat or facility enhancement,
resource preservation, annual operation, maintenance, and law enforcement related to public use of recreation areas and
sites. The Recreation Fee Demonstration Program is authorized by 16 U.S.C. 4601-6(a).

Restoration of Forest Lands and Improvements

The Restoration of Forest Lands and Improvements Acts (16 U.S.C. 579(c)) provides that any moneys received by the
United States with respect to lands under the administration of the Forest Service (a) as a result of the forfeiture of a bond
or deposit by a permittee or timber purchaser for failure to complete performance of improvement, protection, or
rehabilitation work required under the permit or timber sale contract or (b) as a result of a judgment, compromise, or
settlement of any claim, involving present or potential damage to lands or improvements, shall be deposited into the
United States Treasury and are appropriated and made available until expended to cover the cost to the United States of
any improvement, protection, or rehabilitation work on lands under the administration of the Forest Service rendered
necessary by the action which led to the forfeiture, judgment, compromise, or settlement: Provided, that any portion of
the moneys received in excess of the amount expended in performing the work necessitated by the action which led to
their receipt shall be transferred to miscellaneous receipts.

Acquisition of Lands to Complete Land Exchanges

As authorized by 7 statutes, this program is funded annually by congressional appropriation action, with forest revenues
generated by the occupancy of public land or from the sale of natural resources other than minerals. All funds
appropriated that remain unobligated at the end of the fiscal year are returned to the receipts of the affected national
forests. These funds are used to purchase land and for related expenditures such as title search, escrow, recording, and
personnel costs when the purchase is considered necessary to minimize soil erosion and flood damage. This appropriation
is available for land acquisition within the exterior boundaries of the national forests.

Cooperative State Research Education and Extension Service
Native American Institutions Endowment Fund

The Native American Institutions Endowment Fund is authorized by Public Law 103-382 (7 U.S.C. 301 note). This
program provides for an endowment for the 1994 land-grant institutions (31 Tribally controlled colleges) to strengthen
the infrastructure of these institutions and develop Indian expertise for the food and agricultural sciences and businesses
and their own communities. At the termination of each fiscal year, the Secretary shall withdraw the income from the




                                                               171
                                           FY 2007 Performance and Accountability Report
                 FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



endowment fund for the fiscal year, and after making adjustments for the cost of administering the fund, distribute the
adjusted income on a formula basis to the 1994 land-grant institutions.
Other
Financial information is summarized for all other earmarked funds with total assets less than $50 million listed below.
Agricultural Marketing Service
Perishable Agricultural Commodities Act

Animal Plant Health Inspection Service
Miscellaneous Contributed Funds
Forest Service
Fees, Operations and Maintenance of Recreation Facilities
Federal Highway Trust Fund
Roads and Trails for States, National Forest Fund
National Forest Fund Receipts
Reforestation Trust Fund
Payments to Counties, National Grasslands
Timber Sales Pipeline Restoration Fund
Southern Nevada Public Lands Management
Operation and Maintenance of Forest Service Quarters
Agricultural Research Service
Miscellaneous Contributed Funds

Rural Development
Alternative Agricultural Research and Commercialization Revolving Fund




                                                              172
                                          FY 2007 Performance and Accountability Report
                                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




Earmarked Funds


                                                 RMA                    AMS                  AMS                APHIS                 FS                  FS                   FS                  FS

                                                                                        Expenses and
                                                                     Funds for             Refunds,            Agricultural
                                             Federal Crop          Strengthening        Inspection and         Quarantine                                                Payments to
                                               Insurance          Markets, Income,     Grading of Farm      Inspection User                                             States, National     Timber Salvage
Balance Sheet As of September 30, 2007      Corporation Fund        and Supply             Products           Fee Account       Cooperative Work   Land Acquisition      Forests Fund            Sales
                                                12X4085              12X5209               12X8015              12X5161            12X8028            12X5004              12X5201              12X5204
Fund Balance with Treasury                 $            2,344    $             560     $             48    $              135   $           338    $             17    $             146     $           77
Investments                                                 -                      -                   -                    -                  -                   -                     -                 -
Other Assets                                            2,459                  296                   35                     5                24                  50                    4                  4
Total Assets                                            4,803                  856                   83                   140               362                  67                  150                 81

Other Liabilities                                      5,196                      2                  58                    8                 58                   1                    74                  8
Total Liabilities                                      5,196                      2                  58                    8                 58                   1                    74                  8

Unexpended Appropriations                                 642                   302                   -                  129                  -                   -                     -                 -
Cumulative Results of Operations                       (1,035)                  552                  25                    3                304                  66                    76                73

Total Liabilities and Net Position                     4,803                    856                  83                  140                362                  67                  150                 81




Statement of Net Cost For the Period
Ended September 30, 2007
Gross program costs                                    4,869                    926                 163                  176                171                  55                    31                62
Less Earned Revenues                                   1,018                      1                 141                  472                 97                   -                   (21)               43
Net Cost of Operations                                 3,851                    925                  22                 (296)                74                  55                    52                19




Statement of Changes in Net Position
For the period Ended September 30, 2007
Net Position Beginning of Period                        (782)                   682                  15                  123                378                  89                  128                 92
Changes in Accounting Principles                           -                      -                   -                    -                  -                   -                    -                  -
Beginning Balance, as Adjusted                          (782)                   682                  15                  123                378                  89                  128                 92

Non-Exchange Revenue                                    4,240                 1,097                   2                 (287)                 -                  32                     -                  -
Other Financing Sources                                     -                     -                  30                    -                  -                   -                     -                  -
Net Cost of Operations                                 (3,851)                 (925)                (22)                 296                (74)                (55)                  (52)               (19)

Change in net Position                                   389                    172                  10                    9                (74)                (23)                  (52)               (19)

Net Position End of Period                 $            (393)    $              854    $             25    $             132    $           304    $             66    $               76    $           73




                                                                                                     173
                                                                           FY 2007 Performance and Accountability Report
                                         FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Earmarked Funds


                                                 FS                 FS                  FS                   FS                  FS                  FS                CSREES
                                                                                  State, Private,
                                                                                 and International
                                                                                  Forestry, Land                                                Acquisition of
                                            Timber Roads,                           and Water          Recreation Fee      Restoration of         Lands to         Native American
                                              Purchaser       Expenses, Brush      Conservation         Demonstration     Forest Lands and    Complete Land           Institutions
Balance Sheet As of September 30, 2007        Elections          Disposal              Fund               Program          Improvements          Exchanges         Endowment Fund           Other            Total
                                               12X5202           12X5206             12X5367              12X5268             12X5215             12X5216              12X5205
Fund Balance with Treasury                  $           29    $            40    $            101     $            149    $            41     $             48     $                9   $       209      $       4,291
Investments                                              -                  -                     -                   -                   -                    -                   88             9                 97
Other Assets                                             2                  1                   2                     5                10                   17                      1            58              2,973
Total Assets                                            31                 41                 103                  154                 51                   65                     98           276              7,361

Other Liabilities                                        -                 1                     3                   3                   -                    1                    -                32           5,445
Total Liabilities                                        -                 1                     3                   3                   -                    1                    -                32           5,445

Unexpended Appropriations                               -                  -                    -                    -                  -                     -                  37               3              1,113
Cumulative Results of Operations                       31                 40                  100                  151                 51                    64                  61             241                803

Total Liabilities and Net Position                     31                 41                  103                  154                 51                    65                  98             276              7,361




Statement of Net Cost For the Period
Ended September 30, 2007
Gross program costs                                      2                13                   41                   57                  (9)                   5                    3            205              6,770
Less Earned Revenues                                     7                10                    -                   60                  16                   20                    5            190              2,059
Net Cost of Operations                                  (5)                3                   41                   (3)                (25)                 (15)                  (2)            15              4,711




Statement of Changes in Net Position
For the period Ended September 30, 2007
Net Position Beginning of Period                       66                 56                   84                  135                 25                    45                  84             274              1,494
Changes in Accounting Principles                        -                  -                    -                    -                  -                     -                   -             (59)               (59)
Beginning Balance, as Adjusted                         66                 56                   84                  135                 25                    45                  84             215              1,435

Non-Exchange Revenue                                   (40)              (13)                  57                   13                  1                     4                  12              18              5,136
Other Financing Sources                                  -                 -                    -                    -                  -                     -                   -              26                 56
Net Cost of Operations                                   5                (3)                 (41)                   3                 25                    15                   2             (15)            (4,711)

Change in net Position                                 (35)              (16)                  16                   16                 26                    19                  14                 29               481

Net Position End of Period                  $          31     $           40      $           100     $            151    $            51     $              64    $             98     $       244      $       1,916




                                                                                                          174
                                                                               FY 2007 Performance and Accountability Report
                                       FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Earmarked Funds


                                                   RMA                    AMS                   AMS                APHIS                  FS                 FS                   FS                  FS


                                                                                           Expenses and
                                                                       Funds for              Refunds,            Agricultural
                                              Federal Crop           Strengthening         Inspection and         Quarantine                                                Payments to
                                                Insurance           Markets, Income,      Grading of Farm      Inspection User                                             States, National     Timber Salvage
Balance Sheet As of September 30, 2006       Corporation Fund         and Supply              Products           Fee Account        Cooperative Work   Land Acquisition     Forests Fund            Sales
                                                 12X4085               12X5209                12X8015              12X5161             12X8028            12X5004             12X5201              12X5204
Fund Balance with Treasury                  $            1,431     $             202      $             58    $              122    $           412    $             40   $             324     $           95
Investments                                                   -                      -                    -                     -                  -                  -                     -                 -
Other Assets                                             1,714                   483                    19                     10                22                  50                   5                  4
Total Assets                                             3,145                   685                    77                   132                434                  90                 329                 99

Other Liabilities                                        3,927                       3                  61                     9                 57                  1                  201                  7
Total Liabilities                                        3,927                       3                  61                     9                 57                  1                  201                  7

Unexpended Appropriations                                   510                   302                    -                  130                   -                  -                    -                  -
Cumulative Results of Operations                         (1,292)                  380                   16                   (7)                377                 89                  128                 92

Total Liabilities and Net Position                       3,145                    685                   77                  132                 434                 90                  329                 99




Statement of Net Cost For the Period
Ended September 30, 2006
Gross program costs                                      4,584                  1,087                  171                  162                 173                 83                  245                 76
Less Earned Revenues                                     1,100                      1                  132                  424                 116                  1                  271                 68
Net Cost of Operations                                   3,484                  1,086                   39                 (262)                 57                 82                  (26)                 8




Statement of Changes in Net Position
For the period Ended September 30, 2006
Net Position Beginning of Period                          (529)                   591                   25                  102                 594                134                  102                100

Non-Exchange Revenue                                      3,230                  1,177                  (3)                (240)               (159)                37                     -                  -
Other Financing Sources                                       -                      -                  31                    -                   -                  -                     -                  -
Net Cost of Operations                                   (3,484)                (1,086)                (39)                 262                 (57)               (82)                   26                 (8)

Change in net Position                                    (254)                    91                  (11)                   22               (216)               (45)                   26                 (8)

Net Position End of Period                  $             (783)    $              682     $             14    $             124     $           378    $            89    $             128     $           92




                                                                                                       175
                                                                            FY 2007 Performance and Accountability Report
                                          FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




                                                  FS                 FS                 FS                   FS                  FS                   FS                CSREES

                                                                                  State, Private,
                                                                                 and International
                                                                                  Forestry, Land                                                 Acquisition of
                                            Timber Roads,                           and Water          Recreation Fee       Restoration of         Lands to         Native American
                                              Purchaser        Expenses, Brush     Conservation         Demonstration     Forest Lands and     Complete Land           Institutions
Balance Sheet As of September 30, 2006         Elections          Disposal             Fund               Program          Improvements           Exchanges         Endowment Fund           Other               Total
                                               12X5202            12X5206            12X5367              12X5268             12X5215              12X5216              12X5205
Fund Balance with Treasury                  $            64    $            55   $             85     $            132    $             21     $             35     $                8   $           254     $           3,338
Investments                                               -                  -                    -                   -                    -                    -                   76                 8                    84
Other Assets                                              2                  1                  2                     7                   4                  11                      -                61                 2,395
Total Assets                                             66                 56                 87                  139                  25                   46                     84               323                 5,817

Other Liabilities                                         -                 -                    3                   4                    -                    1                    -                 49                 4,323
Total Liabilities                                         -                 -                    3                   4                    -                    1                    -                 49                 4,323

Unexpended Appropriations                                -                  -                   -                    -                   -                     -                  24                  10                   976
Cumulative Results of Operations                        66                 56                  84                  135                  25                    45                  60                 264                   518

Total Liabilities and Net Position                      66                 56                  87                  139                  25                    46                  84                 323                 5,817




Statement of Net Cost For the Period
Ended September 30, 2006
Gross program costs                                       1                13                  47                   50                  10                     3                    2                244                 6,951
Less Earned Revenues                                      7                12                   -                   54                  15                    25                    3                128                 2,357
Net Cost of Operations                                   (6)                1                  47                   (4)                 (5)                  (22)                  (1)               116                 4,594




Statement of Changes in Net Position
For the period Ended September 30, 2006
Net Position Beginning of Period                        70                 58                  74                  131                  20                    13                  70                 332                 1,887

Non-Exchange Revenue                                   (10)                 -                  57                    -                    -                   10                  13                   41                 4,153
Other Financing Sources                                  -                  -                   -                    -                    -                    -                   -                   17                    48
Net Cost of Operations                                   6                 (1)                (47)                   4                    5                   22                   1                 (116)               (4,594)

Change in net Position                                   (4)               (1)                 10                    4                    5                   32                  14                  (58)                (393)

Net Position End of Period                  $           66     $           57    $             84     $            135    $             25     $              45    $             84     $           274     $           1,494




                                                                                                              176
                                                                                 FY 2007 Performance and Accountability Report
                                              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 19. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT
      FY 2007                                                             FSA                                       CCC                                       FAS
                                                          Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



      Enhance International Competitiveness and
      the Sustainability of Rural and Farm Economies:
      Gross Cost                                          $                -    $               -   $              176    $       1,537       $              67    $          290
      Less: Earned Revenue                                                 -                    -                  320              232                     106               (44)
      Net Cost                                                             -                    -                 (144)           1,305                     (39)              334

      Enhance the Competitiveness and Sustainability
      of Rural and Farm Economies:
      Gross Cost                                                        918             1,423                    1,482           11,313                        -                    -
      Less: Earned Revenue                                              220               485                       13            4,402                        -                    -
      Net Cost                                                          698               938                    1,469            6,911                        -                    -

      Support Increased Economic Opportunities and
      Improved Quality of Life in Rural America:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Enhance Protection and Safety of the Nation's
      Agriculture and Food Supply:                                         -                    -                    -                    -                    -                    -
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost

      Improve the Nation's Nutrition and Health:
      Gross Cost                                                           -                    -                    -                    -                    -                    -
      Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
      Net Cost                                                             -                    -                    -                    -                    -                    -

      Protect and Enhance the Nation's Natural Resource
      Base and Environment:
      Gross Cost                                                           -                    -                 245             1,913                        -                    -
      Less: Earned Revenue                                                 -                    -                   -                 1                        -                    -
      Net Cost                                                             -                    -                 245             1,912                        -                    -

      Total Gross Costs                                                 918             1,423                    1,903           14,763                      67               290
      Less: Total Earned Revenues                                       220               485                      333            4,635                     106               (44)
      Net Cost of Operations                              $             698     $         938       $            1,570    $      10,128       $             (39)   $          334




                                                                                                        177
                                                                               FY 2007 Performance and Accountability Report
                                     FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2007                                                             RMA                                       FNS                                       FSIS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $                -   $                -   $                -    $                -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                         54             4,904                        -                    -                    -                     -
Less: Earned Revenue                                                1             1,017                        -                    -                    -                     -
Net Cost                                                           53             3,887                        -                    -                    -                     -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                           -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                    -                    -                  275               790
Gross Cost                                                           -                    -                    -                    -                    2               148
Less: Earned Revenue                                                 -                    -                    -                    -                  273               642
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                 838            53,509                        -                     -
Less: Earned Revenue                                                 -                    -                   2                22                        -                     -
Net Cost                                                             -                    -                 836            53,487                        -                     -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Total Gross Costs                                                  54             4,904                     838            53,509                      275               790
Less: Total Earned Revenues                                         1             1,017                       2                22                        2               148
Net Cost of Operations                              $              53    $        3,887       $             836    $       53,487       $              273    $          642




                                                                                          178
                                                                  FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2007                                                             AMS                                      APHIS                                     GIPSA
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $                -   $                -   $              18    $           32
Less: Earned Revenue                                                 -                    -                    -                    -                   -                20
Net Cost                                                             -                    -                    -                    -                  18                12

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                        195             1,046                        -                    -                  17                30
Less: Earned Revenue                                                9               194                        -                    -                   -                19
Net Cost                                                          186               852                        -                    -                  17                11

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                 309             1,132                        -                    -
Gross Cost                                                           -                    -                 131               555                        -                    -
Less: Earned Revenue                                                 -                    -                 178               577                        -                    -
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Total Gross Costs                                                 195             1,046                     309             1,132                      35                62
Less: Total Earned Revenues                                         9               194                     131               555                       -                39
Net Cost of Operations                              $             186    $          852       $             178    $          577       $              35    $           23




                                                                                    179
                                                                FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2007                                                                 FS                                        NRCS                                       ARS
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                   -    $                 -   $                -   $                -   $                -   $                -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Cost                                                                -                      -                    -                    -                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                              -                      -                    -                    -                  85               397
Less: Earned Revenue                                                    -                      -                    -                    -                  29                12
Net Cost                                                                -                      -                    -                    -                  56               385

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                              -                      -                    -                    -                    -                    -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Cost                                                                -                      -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                            -                      -                    -                    -                  82               386
Gross Cost                                                              -                      -                    -                    -                  28                11
Less: Earned Revenue                                                    -                      -                    -                    -                  54               375
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                              -                      -                    -                    -                  18                88
Less: Earned Revenue                                                    -                      -                    -                    -                   6                 3
Net Cost                                                                -                      -                    -                    -                  12                85

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                       1,203                 5,112                     515             2,636                      49               232
Less: Earned Revenue                                               143                   455                      60                93                      17                 7
Net Cost                                                         1,060                 4,657                     455             2,543                      32               225

Total Gross Costs                                                1,203                 5,112                     515             2,636                     234             1,103
Less: Total Earned Revenues                                        143                   455                      60                93                      80                33
Net Cost of Operations                              $            1,060       $         4,657       $             455    $        2,543       $             154    $        1,070




                                                                                         180
                                                                FY 2007 Performance and Accountability Report
                           FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2007                                                           CSREES                                   ERS                                  NASS
                                                    Intragovernmental  With the Public     Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $               -    $            5    $               6    $           10   $                -   $                -
Less: Earned Revenue                                                -                 -                    -                 -                    -                    -
Net Cost                                                            -                 5                    6                10                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                         12               541                   11                18                  37                93
Less: Earned Revenue                                               12                 -                    -                 -                  15                 3
Net Cost                                                            -               541                   11                18                  22                90

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                          5               231                    2                 4                  13                33
Less: Earned Revenue                                                6                 -                    -                 -                   5                 1
Net Cost                                                           (1)              231                    2                 4                   8                32

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                        6               276                    2                 3                   1                 2
Gross Cost                                                          7                 -                    -                 -                   -                 -
Less: Earned Revenue                                               (1)              276                    2                 3                   1                 2
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                          4               182                    7                12                    -                    -
Less: Earned Revenue                                                5                 -                    -                 -                    -                    -
Net Cost                                                           (1)              182                    7                12                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                          5               248                    3                 5                   1                 4
Less: Earned Revenue                                                6                 -                    -                 -                   1                 -
Net Cost                                                           (1)              248                    3                 5                   -                 4

Total Gross Costs                                                  32              1,483                  31                52                  52               132
Less: Total Earned Revenues                                        36                  -                   -                 -                  21                 4
Net Cost of Operations                              $              (4)   $         1,483   $              31    $           52   $              31    $          128




                                                                             181
                                                        FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2007                                                              RD                                        DO                                  TOTAL
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $              14     $          24   $             281    $        1,898
Less: Earned Revenue                                                 -                    -                  20                 -                 446               208
Net Cost                                                             -                    -                  (6)               24                (165)            1,690

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                           -                    -                 152               278                2,963           20,043
Less: Earned Revenue                                                 -                    -                 213                 3                  512            6,135
Net Cost                                                             -                    -                 (61)              275                2,451           13,908

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                       4,120             2,561                      50               93                4,190             2,922
Less: Earned Revenue                                               314             4,431                      71                1                  396             4,433
Net Cost                                                         3,806            (1,870)                    (21)              92                3,794            (1,511)

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                         -                    -                   70              128                 745             2,717
Gross Cost                                                           -                    -                   98                1                 266               715
Less: Earned Revenue                                                 -                    -                  (28)             127                 479             2,002
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                   48               88                 915            53,879
Less: Earned Revenue                                                 -                    -                   69                -                  82                25
Net Cost                                                             -                    -                  (21)              88                 833            53,854

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                  88               162                2,109           10,312
Less: Earned Revenue                                                 -                    -                 123                 2                  350              558
Net Cost                                                             -                    -                 (35)              160                1,759            9,754

Total Gross Costs                                                4,120             2,561                    422               773              11,203            91,771
Less: Total Earned Revenues                                        314             4,431                    594                 7               2,052            12,074
Net Cost of Operations                              $            3,806   $        (1,870)     $            (172)    $         766   $           9,151    $       79,697




                                                                                     182
                                                                FY 2007 Performance and Accountability Report
                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2007                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $             (80)   $      2,099
Less: Earned Revenue                                              (39)            615
Net Cost                                                          (41)          1,484

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                     (1,582)         21,424
Less: Earned Revenue                                             (322)          6,325
Net Cost                                                       (1,260)         15,099

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                       (160)          6,952
Less: Earned Revenue                                              (79)          4,750
Net Cost                                                          (81)          2,202

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:                                     (191)          3,271
Gross Cost                                                       (219)            762
Less: Earned Revenue                                               28           2,509
Net Cost

Improve the Nation's Nutrition and Health:
Gross Cost                                                       (803)         53,991
Less: Earned Revenue                                              (64)             43
Net Cost                                                         (739)         53,948

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                       (597)         11,824
Less: Earned Revenue                                             (163)            745
Net Cost                                                         (434)         11,079

Total Gross Costs                                              (3,413)         99,561
Less: Total Earned Revenues                                      (886)         13,240
Net Cost of Operations                              $          (2,527)   $     86,321




                                                                                        183
                                                                   FY 2007 Performance and Accountability Report
                                                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                               FSA                                       CCC                                       FAS
                                                      Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                            $                -   $                -   $             197    $           654      $               64    $         252
Less: Earned Revenue                                                   -                    -                 237                433                      75               14
Net Cost                                                               -                    -                 (40)               221                     (11)             238

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                          901               1,266                  1,604             21,222                      -                    -
Less: Earned Revenue                                                314                 378                      9              4,316                      -                    -
Net Cost                                                            587                 888                  1,595             16,906                      -                    -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                             -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                   -                    -                    -                    -                    -                    -
Net Cost                                                               -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                             -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                   -                    -                    -                    -                    -                    -
Net Cost                                                               -                    -                    -                    -                    -                    -

Improve the Nation's Nutrition and Health:
Gross Cost                                                             -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                   -                    -                    -                    -                    -                    -
Net Cost                                                               -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                             -                    -                 284               2,082                      -                    -
Less: Earned Revenue                                                   -                    -                   -                  35                      -                    -
Net Cost                                                               -                    -                 284               2,047                      -                    -

Total Gross Costs                                                   901               1,266                  2,085             23,958                     64              252
Less: Total Earned Revenues                                         314                 378                    246              4,784                     75               14
Net Cost of Operations                                $             587    $            888     $            1,839   $         19,174     $              (11)   $         238




                                                                                                    184
                                                                               FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                             RMA                                       FNS                                       FSIS
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental    With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $                -   $                -   $                -    $                -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                         45             4,626                        -                    -                    -                     -
Less: Earned Revenue                                                -             1,100                        -                    -                    -                     -
Net Cost                                                           45             3,526                        -                    -                    -                     -

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                           -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                           -                    -                    -                    -                  273               801
Less: Earned Revenue                                                 -                    -                    -                    -                    3               125
Net Cost                                                             -                    -                    -                    -                  270               676

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                 785            52,666                        -                     -
Less: Earned Revenue                                                 -                    -                   3                18                        -                     -
Net Cost                                                             -                    -                 782            52,648                        -                     -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                    -                    -                    -                     -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                     -
Net Cost                                                             -                    -                    -                    -                    -                     -

Total Gross Costs                                                  45             4,626                     785            52,666                      273               801
Less: Total Earned Revenues                                         -             1,100                       3                18                        3               125
Net Cost of Operations                              $              45    $        3,526       $             782    $       52,648       $              270    $          676




                                                                                    185
                                                                FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                             AMS                                      APHIS                                     GIPSA
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $                -   $                -   $              15    $           29
Less: Earned Revenue                                                 -                    -                    -                    -                   1                20
Net Cost                                                             -                    -                    -                    -                  14                 9

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                        467               929                        -                    -                  14                27
Less: Earned Revenue                                                9               190                        -                    -                   -                19
Net Cost                                                          458               739                        -                    -                  14                 8

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                           -                    -                 271             1,483                        -                    -
Less: Earned Revenue                                                 -                    -                 400               471                        -                    -
Net Cost                                                             -                    -                (129)            1,012                        -                    -

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                    -                    -                    -                    -
Less: Earned Revenue                                                 -                    -                    -                    -                    -                    -
Net Cost                                                             -                    -                    -                    -                    -                    -

Total Gross Costs                                                 467               929                     271             1,483                      29                56
Less: Total Earned Revenues                                         9               190                     400               471                       1                39
Net Cost of Operations                              $             458    $          739       $            (129)   $        1,012       $              28    $           17




                                                                                    186
                                                                FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                                 FS                                        NRCS                                       ARS
                                                    Intragovernmental        With the Public       Intragovernmental   With the Public       Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                   -    $                 -   $                -   $                -   $                -   $                -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Cost                                                                -                      -                    -                    -                    -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                              -                      -                    -                    -                  84               403
Less: Earned Revenue                                                    -                      -                    -                    -                  24                10
Net Cost                                                                -                      -                    -                    -                  60               393

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                              -                      -                    -                    -                    -                    -
Less: Earned Revenue                                                    -                      -                    -                    -                    -                    -
Net Cost                                                                -                      -                    -                    -                    -                    -

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                              -                      -                    -                    -                  84               403
Less: Earned Revenue                                                    -                      -                    -                    -                  24                10
Net Cost                                                                -                      -                    -                    -                  60               393

Improve the Nation's Nutrition and Health:
Gross Cost                                                              -                      -                    -                    -                  16                78
Less: Earned Revenue                                                    -                      -                    -                    -                   5                 2
Net Cost                                                                -                      -                    -                    -                  11                76

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                       1,106                 5,831                     540             2,472                      49               235
Less: Earned Revenue                                               386                   649                     119               (15)                     14                 6
Net Cost                                                           720                 5,182                     421             2,487                      35               229

Total Gross Costs                                                1,106                 5,831                     540             2,472                     233             1,119
Less: Total Earned Revenues                                        386                   649                     119               (15)                     67                28
Net Cost of Operations                              $              720       $         5,182       $             421    $        2,487       $             166    $        1,091




                                                                                         187
                                                                FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                           CSREES                                  ERS                                   NASS
                                                    Intragovernmental  With the Public    Intragovernmental   With the Public    Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $               -    $           4    $               5     $          10    $                -   $                -
Less: Earned Revenue                                                -                -                    -                 -                     -                    -
Net Cost                                                            -                4                    5                10                     -                    -

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                         11              367                   13                22                   35               100
Less: Earned Revenue                                                9                -                    1                (1)                  11                 3
Net Cost                                                            2              367                   12                23                   24                97

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                          5              160                    3                 5                   10                27
Less: Earned Revenue                                                4                -                    -                 -                    3                 1
Net Cost                                                            1              160                    3                 5                    7                26

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                          8              268                    2                 3                    1                 3
Less: Earned Revenue                                                7                -                    -                 -                    -                 -
Net Cost                                                            1              268                    2                 3                    1                 3

Improve the Nation's Nutrition and Health:
Gross Cost                                                          4              123                    4                 7                     -                    -
Less: Earned Revenue                                                3                -                    -                 -                     -                    -
Net Cost                                                            1              123                    4                 7                     -                    -

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                          6              189                    4                 7                    1                 4
Less: Earned Revenue                                                5                -                    -                 -                    -                 -
Net Cost                                                            1              189                    4                 7                    1                 4

Total Gross Costs                                                  34             1,111                  31                54                   47               134
Less: Total Earned Revenues                                        28                 -                   1                (1)                  14                 4
Net Cost of Operations                              $               6    $        1,111   $              30     $          55    $              33    $          130




                                                                                    188
                                                                FY 2007 Performance and Accountability Report
                                    FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                              RD                                        DO                                  TOTAL
                                                    Intragovernmental   With the Public       Intragovernmental   With the Public   Intragovernmental   With the Public



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $                -   $                -   $              10     $          16   $             291    $          965
Less: Earned Revenue                                                 -                    -                  12                 -                 325               467
Net Cost                                                             -                    -                  (2)               16                 (34)              498

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                           -                    -                 171               286                3,345           29,248
Less: Earned Revenue                                                 -                    -                 201                 6                  578            6,021
Net Cost                                                             -                    -                 (30)              280                2,767           23,227

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                       3,133            3,709                       58               94                3,209            3,995
Less: Earned Revenue                                               348            3,632                       69                1                  424            3,634
Net Cost                                                         2,785               77                      (11)              93                2,785              361

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                           -                    -                  86               140                 725             3,101
Less: Earned Revenue                                                 -                    -                 103                 3                 537               609
Net Cost                                                             -                    -                 (17)              137                 188             2,492

Improve the Nation's Nutrition and Health:
Gross Cost                                                           -                    -                  49                79                 858            52,953
Less: Earned Revenue                                                 -                    -                  57                 1                  68                21
Net Cost                                                             -                    -                  (8)               78                 790            52,932

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                           -                    -                 112               181                2,102           11,001
Less: Earned Revenue                                                 -                    -                 135                 1                  659              676
Net Cost                                                             -                    -                 (23)              180                1,443           10,325

Total Gross Costs                                                3,133            3,709                     486               796              10,530           101,263
Less: Total Earned Revenues                                        348            3,632                     577                12               2,591            11,428
Net Cost of Operations                              $            2,785   $           77       $             (91)    $         784   $           7,939    $       89,835




                                                                                    189
                                                                FY 2007 Performance and Accountability Report
                                      FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                             Intradepartmental
                                                       Eliminations      GRAND TOTAL



Enhance International Competitiveness and
the Sustainability of Rural and Farm Economies:
Gross Cost                                          $            (104)   $      1,152
Less: Earned Revenue                                              (44)            748
Net Cost                                                          (60)            404

Enhance the Competitiveness and Sustainability
of Rural and Farm Economies:
Gross Cost                                                     (1,904)         30,689
Less: Earned Revenue                                             (368)          6,231
Net Cost                                                       (1,536)         24,458

Support Increased Economic Opportunities and
Improved Quality of Life in Rural America:
Gross Cost                                                       (156)          7,048
Less: Earned Revenue                                              (78)          3,980
Net Cost                                                          (78)          3,068

Enhance Protection and Safety of the Nation's
Agriculture and Food Supply:
Gross Cost                                                       (197)          3,629
Less: Earned Revenue                                             (497)            649
Net Cost                                                          300           2,980

Improve the Nation's Nutrition and Health:
Gross Cost                                                       (747)         53,064
Less: Earned Revenue                                              (53)             36
Net Cost                                                         (694)         53,028

Protect and Enhance the Nation's Natural Resource
Base and Environment:
Gross Cost                                                       (511)         12,592
Less: Earned Revenue                                             (231)          1,104
Net Cost                                                         (280)         11,488

Total Gross Costs                                              (3,619)        108,174
Less: Total Earned Revenues                                    (1,271)         12,748
Net Cost of Operations                              $          (2,348)   $     95,426




                                                                                        190
                                                                   FY 2007 Performance and Accountability Report
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 20. COST OF STEWARDSHIP PP&E
The acquisition cost of stewardship land in FY 2007 and FY 2006 was $236 million and $291 million, respectively.


NOTE 21. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

             FY 2007
                                                                          Direct             Reimbursable           Total
             Apportionment by Fiscal Quarter                          $     69,018       $            932       $     69,950
             Apportionment for Special Activities                           28,400                  29,573            57,973
             Exempt from Apportionment                                       1,023                          8          1,031
             Total Obligations Incurred                               $     98,441       $          30,513      $   128,954



             FY 2006
                                                                          Direct             Reimbursable           Total
             Apportionment by Fiscal Quarter                          $     70,503       $           1,336      $     71,839
             Apportionment for Special Activities                           30,857                  41,166           72,023
             Exempt from Apportionment                                       1,535                     61              1,596
             Total Obligations Incurred                               $    102,895       $          42,563      $   145,458




NOTE 22. AVAILABLE BORROWING AUTHORITY, END OF PERIOD
Available borrowing authority at September 30, 2007 and 2006 was $44,200 million and $29,700 million, respectively.


NOTE 23. TERMS OF BORROWING AUTHORITY USED
The Secretary of Agriculture has the authority to make and issue notes to the Secretary of Treasury for the purpose of
discharging obligations for RD’s insurance funds and CCC’s nonreimbursed realized losses and debt related to foreign
assistance programs. The permanent indefinite borrowing authority includes both interest bearing and non–interest
bearing notes. These notes are drawn upon daily when disbursements exceed deposits. Notes payable under the permanent
indefinite borrowing authority have a term of one year. On January 1 of each year, USDA refinances its outstanding
borrowings, including accrued interest, at the January borrowing rate.

In addition, USDA has permanent indefinite borrowing authority for the foreign assistance and export credit programs to
finance disbursements on post-credit reform, direct credit obligations, and credit guarantees. In accordance with the
Federal Credit Reform Act of 1990 as amended, USDA borrows from Treasury on October 1, for the entire fiscal year,
based on annual estimates of the difference between the amount appropriated (subsidy) and the amount to be disbursed to
the borrower. Repayment under this agreement may be, in whole or in part, prior to maturity by paying the principal
amount of the borrowings plus accrued interest to the date of repayment. Interest is paid on these borrowings based on
weighted average interest rates for the cohort, to which the borrowings are associated. Interest is earned on the daily




                                                                   191
                                               FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



balance of uninvested funds in the credit reform financing funds maintained at Treasury. The interest income is used to
reduce interest expense on the underlying borrowings.

USDA has authority to borrow from the Federal Financing Bank (FFB) in the form of Certificates of Beneficial
Ownership (CBO) or loans executed directly between the borrower and FFB with an unconditional USDA repayment
guarantee. CBO’s outstanding with the FFB are generally secured by unpaid loan principal balances. CBO’s outstanding
are related to pre-credit reform loans and no longer are used for program financing.

FFB’s CBO’s are repaid as they mature and are not related to any particular group of loans. Borrowings made to finance
loans directly between the borrower and FFB mature and are repaid as the related group of loans become due. Interest
rates on the related group of loans are equal to interest rates on FFB borrowings, except in those situations where an FFB
funded loan is restructured and the terms of the loan are modified.

Prepayments can be made on Treasury borrowings without a penalty; however, they cannot be made on FFB CBO’s,
without a penalty.

Funds may also be borrowed from private lending agencies and others. USDA reserves a sufficient amount of its
borrowing authority to purchase, at any time, all notes and other obligations evidencing loans made by agencies and
others. All bonds, notes, debentures, and similar obligations issued by the Department are subject to approval by the
Secretary of the Treasury. Reservation of borrowing authority for these purposes has not been required for many years.


NOTE 24. PERMANENT INDEFINITE APPROPRIATIONS
USDA has permanent indefinite appropriations available to fund 1) subsidy costs incurred under credit reform programs,
2) certain costs of the crop insurance program, (3) certain commodity program costs and 4) certain costs associated with
FS programs.

The permanent indefinite appropriations for credit reform are mainly available to finance any disbursements incurred
under the liquidating accounts. These appropriations become available pursuant to standing provisions of law without
further action by Congress after transmittal of the Budget for the year involved. They are treated as permanent the first
year they become available, as well as in succeeding years. However, they are not stated as specific amounts but are
determined by specified variable factors, such as cash needs for liquidating accounts, and information about the actual
performance of a cohort or estimated changes in future cash flows of the cohort in the program accounts.

The permanent indefinite appropriation for the crop insurance program is used to cover premium subsidy, delivery
expenses, losses in excess of premiums and research and delivery costs.

The permanent indefinite appropriation for commodity program costs is used to encourage the exportation of agricultural
commodities and products, to encourage domestic consumption of agricultural products by diverting them, and to
reestablish farmers’ purchasing power by making payments in connection with the normal production of any agricultural
commodity for domestic consumption.

The permanent indefinite appropriation for FS programs is used to fund Recreation Fee Collection Costs, Brush
Disposal, License programs, Smokey Bear and Woodsy Owl, Restoration of Forest Lands and Improvements, Roads and
Trails for States, National Forest Fund, Timber Roads, Purchaser Elections, Timber Salvage Sales and Operations, and




                                                              192
                                          FY 2007 Performance and Accountability Report
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Maintenance of Quarters. Each of these permanent indefinite appropriations is funded by receipts made available by law,
and is available until expended.

NOTE 25. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are provided on
an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of availability and is no
longer available for new obligations. Unobligated balances retain their fiscal-year identity in an expired account for an
additional five fiscal years. The unobligated balance remains available to make legitimate obligation adjustments, i.e., to
record previously unrecorded obligations and to make upward adjustments in previously underestimated obligations for
five years. At the end of the fifth year, the authority is canceled. Thereafter, the authority is not available for any purpose.

Any information about legal arrangements affecting the use of the unobligated balance of budget authority is specifically
stated by program and fiscal year in the appropriation language or in the alternative provisions section at the end of the
appropriations act.

NOTE 26. DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY RESOURCES AND THE BUDGET OF THE UNITED STATES
GOVERNMENT
The differences between the fiscal 2006 Statement of Budgetary Resources and the fiscal 2006 actual numbers presented
in the fiscal 2008 Budget of the United States Government (Budget) are summarized below.

The Budget excludes expired accounts that are no longer available for new obligations. Adjustments were made
subsequent to the Budget submission as follows:

NRCS –Correction of errors on intra departmental entries for recording the wrong fiscal year on a transfer document and
making a duplicate entry for an un-obligated balance transfer.

CCC – Difference in the net outlays is a result of a timing difference of a Parent-child relationship with another
governmental agency.

AMS – A recovery of prior year unpaid obligations was incorrectly recorded as a de-obligation of a prior year obligation.

Unavailable collections for the Native American Institution Endowment Fund were included as budgetary resources in the
Statement of Budgetary Resources.

The Budget includes the Milk Market Orders Assessment Fund since employees of the Milk Market Administrators
participate in the Federal retirement system, though these funds are not available for use by the Department.

Other items mainly consist of balances in suspense accounts and differences due to rounding that are excluded from the
Budget.

A comparison between the fiscal 2007 Statement of Budgetary Resources and the fiscal 2007 actual numbers presented in
the fiscal 2009 Budget cannot be performed as the fiscal 2009 Budget is not yet available. The fiscal 2009 Budget is
expected to be published in February 2008 and will be available from the Government Printing Office.




                                                                193
                                            FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



             FY 2006
                                                                                                                   Distributed
                                                                        Budgetary            Obligations            offsetting
                                                                        Resources             incurred               receipts         Net Outlays


             Combined Statement of Budgetary Resources                  $    170,455     $       145,458       $          2,695      $          99,674
             Reconciling items:
              Expired accounts                                                (7,911)             (3,007)                        -                  -
              Adjustment - NRCS                                                     -                  70                        -                   -
              Adjustment - CCC                                                      -                      -                     -                 47
              Adjustment - AMS                                                    60                   60                        -                   -
              Native American Institutions                                        (29)                 (4)                       -                  (2)
              Milk Market Orders Fund                                             72                   72                        -                 27
              Other                                                                 8                  (1)                       5                  (5)
             Budget of the United States Government                 $        162,655     $       142,648       $         2,700       $          99,741




NOTE 27. UNDELIVERED ORDERS AT THE END OF THE PERIOD
Budgetary resources obligated for undelivered orders as of September 30, 2007 and 2006 was $34,878 million and $35,204
million, respectively.

NOTE 28. INCIDENTAL CUSTODIAL COLLECTIONS
Custodial collections represent National Forest Fund receipts from the sale of timber and other forest products,
miscellaneous general fund receipts such as collections on accounts receivable related to canceled year appropriations, civil
monetary penalties and interest, and commercial fines and penalties. Custodial collection activities are considered
immaterial and incidental to the mission of the Department.



               Revenue Activity:                                                                       FY 2007                   FY 2006
                      Sources of Collections:
                      Miscellaneous                                                                $               75       $              65
               Total Cash Collections                                                                              75                      65
               Accrual Adjustments                                                                                 (4)                   (11)
               Total Custodial Revenue                                                                             71                      54
               Disposition of Collections:
               Transferred to Others:
                      Treasury                                                                                 (63)                      (46)
               ( Increase )/Decrease in Amounts Yet to be Transferred                                              (8)                     (8)
               Net Custodial Activity                                                              $                -       $               -




                                                                            194
                                                 FY 2007 Performance and Accountability Report
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




NOTE 29. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY) TO BUDGET (FORMERLY THE STATEMENT OF
FINANCING)

                                                                                                                        2007           2006
          Resources Used to Finance Activities:
          Budgetary Resources Obligated -
             Obligations Incurred                                                                                   $ 128,954      $ 145,458
             Less: Spending authority from offsetting collections and recoveries                                       39,094         42,413
             Obligations net of offsetting collections and recoveries                                                  89,860        103,045
             Less: Offsetting receipts                                                                                  1,767          2,695
             Net Obligations                                                                                           88,093        100,350

          Other Resources -
             Transfers in(out) without reimbursement                                                                      (460)           (544)
             Imputed financing from costs absorbed by others                                                             1,005             807
             Other                                                                                                           4               5
             Net other resources used to finance activities                                                                549             268

             Total resources used to finance activities                                                                 88,642         100,618

          Resources Used to Finance Items not Part of the Net Cost of Operations:
             Change in undelivered orders                                                                                  501            (840)
             Resources that fund expenses recognized in prior periods                                                     (649)           (812)
             Budgetary offsetting collections and receipts that do not affect net cost of operations -
              Credit program collections which increase liabilities for loan guarantees or allowances for subsidy        13,534         12,067
              Change in Unfilled Customer Orders                                                                            967            320
              Decrease in exchange revenue receivable from public                                                         6,810          6,866
              Other                                                                                                        (287)           625
             Resources that finance the acquisition of assets                                                           (27,000)       (28,444)
             Other resources or adjustments to net obligated resources that do not affect net cost of operations         (1,412)        (1,860)

             Total resources used to finance items not part of the net cost of operations                                (7,536)       (12,078)

             Total resources used to finance the net cost of operations                                                 81,106          88,540

          Components of the Net Cost of Operations that will not Require or Generate
          Resources in the Current Period:
          Components Requiring or Generating Resources in Future Periods -
             Increase in annual leave liability                                                                              3              43
             Increase in environmental and disposal liability                                                               44              35
             Upward/Downward reestimates of credit subsidy expense                                                        (293)            650
             Increase in exchange revenue receivable from the public                                                         -            (377)
             Other                                                                                                         926              95
             Total components of Net Cost of Operations that will require or generate
               resources in future periods                                                                                 680            446

          Components not Requiring or Generating Resources -
            Depreciation and amortization                                                                                  433            375
            Revaluation of assets or liabilities                                                                          (176)           (53)
            Other Components not Requiring or Generating Resources:
              Bad Debt Expense                                                                                           (1,256)          (495)
              Cost of Goods Sold                                                                                          5,413          5,340
            Other                                                                                                           121          1,273
            Total components of Net Cost of Operations that will not require or generate resources                        4,535          6,440

             Total components of Net Cost of Operations that will not require or generate
              resources in the current period                                                                            5,215           6,886

             Net Cost of Operations                                                                                 $   86,321     $    95,426




                                                                              195
                                                     FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



NOTE 30. CHANGES IN ACCOUNTING PRINCIPLES

Effective for FY 2007, OMB Circular A-136, requires the parent to report all budgetary and proprietary allocation
transfer activity in its financial statements, whether material to the child, or not. The cumulative effect of the change on
prior periods should be reported as a “change in accounting principle”, consistent with SFFAS 21 Reporting Corrections of
Errors and Changes in Accounting Principles.

Adjustments of $961 million to the beginning balance of Cumulative Results of Operations and negative $209 million to
the beginning balance of Unexpended Appropriations reflected in the Statement of Changes in Net Position were made
to comply with reporting requirements for allocation transfers.




                                                               196
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Required Supplementary Stewardship Information
STEWARDSHIP INVESTMENTS
Stewardship investments are substantial investments made by the Federal Government for the benefit of the nation but
are not physical assets owned by the Federal Government. When incurred, they are treated as expenses in determining the
net cost of operations. However, these items merit special treatment so that users of Federal financial reports know the
extent of investments that are made for long-term benefit. Such investments are measured in terms of expenses incurred
for non-federal physical property, human capital, and research and development.

Stewardship Investments (in millions)
                                                                            FY 2007     FY 2006     FY 2005   FY 2004   FY 2003
                                                                            Expense     Expense     Expense   Expense   Expense
             Non-Federal Physical Property:
             Food and Nutrition Service
                 Food Stamp Program                                         $     20    $   21      $   22    $   36    $   39
                 Special Supplemental Nutrition Program                           15        12          17         8        16
             Cooperative State Research, Education, and Extension Service
                 Extension 1890 Facilities Program                                17        17          17        15        15
             Total Non-Federal Property                                     $     52    $   50      $   56    $   59    $   70

             Human Capital:
             Cooperative State Research, Education, and Extension Service
                  Higher Education and Extension Programs                   $     524   $   525     $   507   $   502   $   511
             Food and Nutrition Service
                  Food Stamp Program                                              51        66          49        75        99
             Agricultural Research Service
                  National Agricultural Library                                   22        22          21        21        21
             Risk Management Agency
                  Risk Management Education                                        11        10          10         7         4
             Total Human Capital                                            $     608   $   623     $   587   $   605   $   635

             Research and Development:
             Agricultural Research Service
                  Plant Sciences                                            $       -   $     -     $     -   $     -   $   394
                  Commodity Conversion and Delivery                                 -         -           -         -       185
                  Animal Sciences                                                   -         -           -         -       194
                  Soil, Water, and Air Sciences                                     -         -           -         -       110
                  Human Nutrition                                                  86        85          84        83        78
                  Integration of Agricultural Systems                               -         -           -         -        43
                  Collaborative Research Program                                    3         7           6         5         6
                  Product Quality/Value Added                                     106       107         105       104         -
                  Livestock Production                                             85        85          84        82         -
                  Crop Production                                                 202       201         197       194         -
                  Food Safety                                                     105       105         103        96         -
                  Livestock Protection                                             83        90          78        64         -
                  Crop Protection                                                 198       199         193       183         -
                  Environmental Stewardship                                       224       223         219       216         -
                  Homeland Security                                                 -         -           -        21         -
             Cooperative State Research, Education, and Extension Service
                  Land-grant University System                                    661       661         645       610       601
             Forest Service                                                       261       318         295       312       233
             Economic Research Service
                  Economic and Social Science                                      75       75          74        71        69
             National Agricultural Statistics Service
                  Statistical                                                     6           5           5         5         5
             Total Research and Development                                 $ 2,095     $ 2,161     $ 2,088   $ 2,046   $ 1,918




                                                                            197
                                                    FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Non-Federal Physical Property
Food and Nutrition Service
FNS’ non-Federal physical property consists of computer systems and other equipment obtained by State and local
governments for the purpose of administering the Food Stamp Program. The total Food Stamp Program Expense for
ADP Equipment & Systems has been reported as of the date of FNS’ financial statements. FNS’ non-Federal physical
property also consists of computer systems and other equipment obtained by the State and local governments for the
purpose of administering the Special Supplemental Nutrition Program for Women, Infants and Children.
Cooperative State Research, Education and Extension Service
The Extension 1890 facilities program supports the renovation of existing buildings and the construction of new facilities
that permit faculty, students, and communities to benefit fully from the partnership between USDA and the historically
African-American land-grant universities.

Human Capital
Cooperative State Research, Education and Extension Service
The Higher Education programs include graduate fellowship grants, competitive challenge grants, Secondary/2-year Post
Secondary grants, Hispanic serving institutions education grants, a multicultural scholars program, a Native American
institutions program, a Native American institutions endowment fund, an Alaska Native Serving and Native Hawaiian
Serving institutions program, a resident instruction grant program for insular areas, and a capacity building program at the
1890 institutions. These programs enable universities to broaden their curricula, increase faculty development and student
research projects, and increase the number of new scholars recruited in the food and agriculture sciences. CSREES also
supports extension-related work at 1862 and 1890 land-grant institutions throughout the country through formula and
competitive programs. CSREES supported the Outreach and Assistance for Disadvantaged Farmers Program for the first
time in fiscal 2003. The purpose is to enhance the ability of minority and small farmers and ranchers to operate farming or
ranching enterprises independently to assure adequate income and maintain reasonable lifestyles.
Food and Nutrition Service
FNS’ human capital consists of employment and training (E&T) for the Food Stamp Program. The E&T program
requires recipients of food stamp benefits to participate in an employment and training program as a condition to food
stamp eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T program
has placed 703,927 work registrants subject to the 3 - month Food Stamp Program participant limit and 1,152,744 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.
Agricultural Research Service
As the Nation's primary source for agricultural information, the National Agricultural Library (NAL) has a mission to
increase the availability and utilization of agricultural information for researchers, educators, policymakers, consumers of
agricultural products, and the public. The NAL is one of the world's largest and most accessible agricultural research
libraries and plays a vital role in supporting research, education, and applied agriculture.

The NAL was created as the departmental library for USDA in 1862 and became a national library in 1962. One of four
national libraries of the U.S. (with the Library of Congress, the National Library of Medicine, and the National Library
of Education), it is also the coordinator for a national network of State land-grant and USDA field libraries. In its



                                                               198
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



international role, the NAL serves as the U.S. center for the international agricultural information system, coordinating
and sharing resources and enhancing global access to agricultural data. The NAL collection of over 3.5 million items and
its leadership role in information services and technology applications combine to make it the foremost agricultural library
in the world.
Risk Management Agency
In response to the Secretary’s 1996 Risk Management Education (RME) initiative, and as mandated by the Federal
Agricultural Improvement and Reform Act of 1996, the FCIC has formed new partnerships with the CSREES, the
Commodity Futures Trading Commission, the USDA National Office of Outreach, Economic Research Service, and
private industry to leverage the federal government’s funding of its RME program by using both public and private
organizations to help educate their members in agricultural risk management. The RME effort was launched in 1997
with a Risk Management Education Summit that raised awareness of the tools and resources needed by farmers and
ranchers to manage their risks. RMA has built on this foundation since 2003 by expanding State and Regional education
partnerships; encouraging the development of information and technology decision aids; supporting the National Future
Farmers of America (FFA) foundation with an annual essay contest; facilitating local training workshops; and supporting
Cooperative Agreements with Educational and outreach organizations.

During fiscal years 2007 and 2006, the RME worked toward the goals by funding risk management sessions, most of
which targeted producers directly. The number of producers reached through these sessions is approximately 49,000 in
fiscal year 2007 and 48,000 in fiscal year 2006. Additionally, some training sessions helped those who work with
producers, such as lenders, agricultural educators, and crop insurance agents, better understand those areas of risk
management with which they may be unfamiliar. Total RME obligations incurred by the FCIC were approximately $11
million for fiscal year 2007 and $10 million for fiscal year 2006. The following table summarizes the RME initiatives
since fiscal year 2003:

                          (dollars in millions)                   2007       2006           2005   2004     2003
                RME Obligations                              $     11          10        9.4         10        9
                Number of producers attending RME sessions       49,000      48,000     47,000     46,000   62,000


One of the directives of the Agricultural Risk Protection Act (ARPA) is to step up the FCIC’s educational and outreach
efforts in certain areas of the country that have been historically underserved by the Federal crop insurance program. The
Secretary determined that fifteen states met the underserved criteria. These states are Maine, Massachusetts,
Connecticut, Wyoming, New Jersey, New York, Delaware, Nevada, Pennsylvania, Vermont, Maryland, Utah, Rhode
Island, New Hampshire, and West Virginia.

Research and Development
Agricultural Research Service
The ARS mission is to conduct research to develop and transfer solutions to agricultural problems of high national
priority and provide information access and dissemination to: ensure high quality, safe food, and other agricultural
products; assess the nutritional needs of Americans; sustain a competitive agricultural economy; enhance the natural
resource base and the environment; and provide economic opportunities for rural citizens, communities, and society as a
whole.




                                                                 199
                                            FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



ARS is in the process of revising its Strategic Plan to align it with the Department’s new Strategic Plan. ARS’ major
program areas are being aligned as follows:
GOAL: Enhance the Competitiveness and Sustainability of Rural and Farm Economies.
   Product Quality/Value Added—Many agricultural products are marketed as low value commodities; harvested
    commodities often suffer losses due to spoilage or damage during shipping, storage, and handling. Biobased products
    represent a small fraction of the market for industrial products and their performance is often uncertain. Biofuels and
    some biobased products are not yet economically competitive with petroleum-based products. Healthy foods are
    often not convenient and/or are not widely accepted by many consumers. Currently, the agency has active research
    programs designed to address these new product/product quality issues and concerns.
   Livestock Production—Producers need new scientific information and technologies to increase production efficiency;
    safeguard the environment; improve animal well-being; reduce production risks and product losses; and understand
    the relationships between nutrients, reproduction, growth, and conversion to and marketability of animal products. In
    addition, new research is needed to identify genes that are responsible for economically important traits; to maintain
    and develop improved germplasm and use genetic resources to optimize and safeguard genetic diversity; to understand
    biological mechanisms; and to promote viable, vigorous production systems. Currently, ARS has active research
    programs designed to address these livestock production issues and concerns.
   Crop Production—Producers need new scientific information and technologies to increase production efficiency;
    safeguard the environment; reduce production risks and product losses; and understand the relationships between
    nutrients, reproduction, growth, and conversion to and marketability of plant products. In addition, new research is
    needed to identify genes that are responsible for economically important traits; to maintain and develop improved
    germplasm and use genetic resources to optimize and safeguard genetic diversity; to understand biological
    mechanisms; and to promote viable, vigorous production systems. Currently, ARS has active research programs
    designed to address these crop production issues and concerns.
GOAL: Enhance Protection and Safety of the Nation’s Agriculture and Food Supply.
   Food Safety—For the Nation to have affordable and safe food, the food system must be protected at each step from
    production to consumption. The production and distribution system for food in the United States has been a diverse,
    extensive, and easily accessible system. This open system is vulnerable to the introduction of pathogens and toxins
    through natural processes, global commerce, and by intentional means. The food supply must be protected during
    production, processing, and preparation from pathogens, toxins, and chemical contamination that cause diseases in
    humans. Currently, the agency has active research programs designed to develop new on-farm preharvest systems,
    practices, and products to reduce pathogen and toxin contamination of animal and plant derived foods; and to develop
    and transfer to Federal and State agencies and the private sector technologies that rapidly and accurately detect,
    identify, and differentiate the most critical and economically important foodborne pathogenic bacteria and viruses.
   Livestock Protection—Economic sustainability of livestock production systems in domestic and global markets is limited
    by the disease status of the animals. Many factors affect the likelihood of diseases in livestock. These include
    globalization and international commerce, presence of pathogen vectors, industrialization of agriculture, availability of
    vaccines and protection systems, movements of animals during production, emergence of new diseases, genetic
    resistance, and the availability of trained animal health specialists. Livestock production systems are in transition from
    open and extensive systems to more closely monitored intensive management systems which remain vulnerable to
    accidental and intentional exposure to pathogens. Many of these pathogens are zoonotic and impact public health.
    Currently, the agency has active research programs designed to protect animals from pests and infectious diseases;


                                                               200
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



    identify, develop, and release to the U.S. agricultural community genetic markers, genetic lines, breeds, or germplasm
    that result in food animals with improved pest and disease resistance traits; and to provide producers of agriculturally
    important animals, scientific information and technologies to control, monitor, and manage invasive insects and
    pathogens.
   Crop Production—Economic sustainability of agricultural crop production in domestic and global markets is limited by
    the disease status of crops. Many factors affect the likelihood of diseases to crops including, globalization and
    international commerce, presence of pathogen vectors, availability of protection systems, emergence of new diseases,
    genetic resistance, and the availability of trained plant health specialists. Crop systems have limited diversity and
    remain more vulnerable to intentional exposure to pathogens. Currently, the agency has active research programs
    designed to protect plants from pests (including weeds) and diseases; identify, develop, and release to the U.S.
    agricultural community genetic markers, genetic lines, or germplasm that result in plants with improved pest and
    disease resistance traits; to provide producers of agriculturally important plants, scientific information and
    technologies to control, monitor, and manage invasive insects, weeds, and pathogens; and to conduct biologically-
    based integrated and area-wide management of key invasive species.

GOAL: Improve the Nation’s Nutrition and Health.
   Human Nutrition—Improving the Nation’s health requires enhancing the quality of the American diet. The United
    States is experiencing an obesity epidemic resulting from multifaceted causes including a “more is better” mindset, a
    sedentary lifestyle, and the selection of readily available high calorie foods. Four of the top ten causes of death in the
    United States – cardiovascular disease, cancer, stroke, and diabetes – are associated with the quality of our diets, diets
    too high in calories, total fat, saturated fat, cholesterol, or too low in fiber. Americans want fresh foods that taste
    good, are convenient to prepare and consume, and yet, offer nutrition and health benefits. Building a strong
    connection between agriculture and human health is an important step to providing a nutritionally enhanced food
    supply. Promoting healthier food choices and educating Americans to balance caloric intake with sufficient daily
    physical activity are vital steps to preventing obesity and decreasing risk for chronic disease.
    Currently, the agency has active research programs designed to address food consumption patterns; and dietary
    intervention strategies and programs to prevent obesity and promote healthy dietary behavior. Research is being
    conducted to implement the combined "What We Eat in America" dietary survey; and to update and revise Dietary
    Reference Intake and the National Nutrient Database of nutrient content of foods. Research is also being conducted
    to provide information, technology, services, and data from the National Nutrient Database, and from the “What We
    Eat in America” survey to USDA agencies and the private sector to support revision of the Dietary Guidelines.
GOAL: Protect and Enhance the Nation’s Natural Resource Base and Environment.

   Environmental Stewardship— Agriculture relies on a natural resource base whose sustainability depends on sound,
    science-based production practices. The management of the Nation’s renewable natural resources often seems to be a
    continuous balancing of conflicting and competing goals and concerns. While this is often the case, particularly in the
    short-term, longer-term management strategies combined with adequate knowledge of the complex natural systems
    can yield maximum sustainable benefits from the country’s resources that can satisfy most competing concerns. ARS
    research in the broad area of environmental stewardship is designed to address specific issues relating to agriculture’s
    impact on the environment and the environment’s impact on agriculture. EPA estimates that only 70 percent of the
    rivers, 68 percent of the estuaries, and 60 percent of the lakes now meet legislatively mandated goals. Dust emissions
    from agricultural operations and ammonia emissions from animal feeding operations pose a threat to environmental



                                                               201
                                           FY 2007 Performance and Accountability Report
                FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



    quality and human health. Approximately half of the rangelands have been significantly degraded by fire, invasive
    weeds, environmental changes, and poor grazing management. Approximately 500 million acres of cropland and
    grazing land have been degraded by various causes, including erosion, loss of organic matter, compaction, salinity, and
    soil acidification. Increases in the atmospheric concentration of greenhouse gases and related increases in weather
    variability affect the physiology and ecology of plants on croplands and rangelands in often unpredictable ways.
    Currently, ARS has active research programs designed to respond to these environmental issues and concerns.

Management Initiative: Provide Agricultural Library and Information Services to USDA and the Nation via the National
Agricultural Library.
The National Agricultural Library (NAL), the world’s primary agricultural library, has two legislative mandates, to serve
the Nation as one of four national libraries of the United States, and to be USDA’s library. NAL, whose vision statement
is “advancing access to global information for agriculture,” serves its customers by identifying, collecting, providing access
to, and preserving agricultural information. NAL’s collections, programs, and services support USDA agencies as well as
multiple client audiences which include scientists, researchers, practitioners, policymakers, teachers, and students.
Management Initiative: Provide Adequate Federal Facilities Required to Support the Research Mission of ARS.
ARS has over 100 laboratories, primarily located throughout the United States. ARS’ facilities program is designed to
meet the needs of its scientists and support personnel to accomplish the agency’s mission
Cooperative State Research, Education, and Extension Service Program
CSREES participates in a nationwide land-grant university system of agriculture related research and program planning
and coordination between State institutions and USDA. It assists in maintaining cooperation among the State
institutions, and between the State institutions and their Federal research partners. CSREES administers grants and
formula payments to State institutions to supplement State and local funding for agriculture research.
Forest Service
FS Research and Development (R&D) provides reliable, science-based information that is incorporated into natural
resource decision making. Responsibilities include developing new technology and then adapting and transferring this
technology to facilitate more effective resource management. Some major research areas include the following:
   Fire
   Invasives
   Recreation
   Research Management and Use
   Water and Air
   Fish and Wildlife
   Research Data and Analysis
   Research staff is involved in all areas of the FS, supporting agency goals by providing more efficient and effective
    methods where applicable.

A representative summary of FY 2007 accomplishments include the following:
   41 new interagency agreements and contracts
   17 interagency agreements and contracts continued


                                                               202
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



   1,336 articles published in journals
   1,846 articles published in all other publications
   3 patents granted
Economic Research Service
ERS provides economic and other social science research and analysis for public and private decisions on agriculture, food,
natural resources, and rural America. Research results and economic indicators on these important issues are fully
disseminated through published and electronic reports and articles; special staff analyses, briefings, presentations, and
papers; databases; and individual contacts. ERS’ objective information and analysis helps public and private decision
makers attain the goals that promote agricultural competitiveness, food safety and security, a well-nourished population,
environmental quality, and a sustainable rural economy.
National Agricultural Statistics Service
Statistical research and service is conducted to improve the statistical methods and related technologies used in developing
U.S. agricultural statistics. The highest priority of the research agenda is to aid the NASS estimation program through
development of better estimators at lower cost and with less respondent burden. This means greater efficiency in sampling
and data collection coupled with higher quality data upon which to base the official estimates. In addition, new products
for data users are being developed with the use of technologies such as remote sensing and geographic information
systems. Continued service to users will be increasingly dependent upon methodological and technological efficiencies.




                                                               203
                                           FY 2007 Performance and Accountability Report
               FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Required Supplementary Information
STEWARDSHIP PROPERTY, PLANT AND EQUIPMENT
Heritage Assets
Forest Service
The Forest Service estimates that more than 350,000 heritage assets are on land that it manages. Some of these assets are
listed on the National Register of Historic Places, and some are designated as National Historic Landmarks. Collection
assets held at museums and universities are managed by those entities, and not the Forest Service.
The historic structures are works consciously created to serve some human purpose, such as buildings, monuments,
logging and mining camps, and ruins.
Heritage assets designated as National Historic Landmarks are sites, buildings, or structures that possess exceptional value
in commemorating or illustrating the history of the United States, and exceptional value or quality in illustrating and
interpreting the heritage of the United States. The Secretary of the Interior is the official designator of National Historic
Landmarks.
Heritage assets listed in the National Register of Historic Places include properties, buildings, and structures that are
significant in U.S. history, architecture, and archaeology, and in the cultural foundation of the Nation. Sites formally
determined as eligible for the National Register by the Keeper of the National Register, or documented through
consultation with State Historic Preservation Offices, are considered potentially eligible for the National Register.
The Forest Service heritage resource specialists on the 155 national forests maintain separate inventories of heritage assets.
Most assets not used for administrative or public purposes receive no annual maintenance. A long-term methodology to
better assess the extent and condition of these assets is being formulated to comply with Executive Order 13287, Preserve
America. Most heritage asset data is captured and managed in INFRA’s heritage module, before being used for
management decisions on heritage assets. A smaller number of heritage assets are reported through FRPP or are in the
INFRA buildings module.
Recent changes in accounting standards for heritage assets have altered the reporting timeline from that of calendar
yearend—as mandated by the annual DOI report to Congress—to fiscal yearend.
In the past Performance and Accountability Reports, the Forest Service reported the previous calendar year’s additions,
withdrawals, and total assets. For FY 2006 the agency reported a calendar year 2005 total. In FY 2007, the column
labeled, “2006 Final Sites” is actually the 2005 total, with additions and withdrawals occurring in FYs 2006 and 2007.
Major FS heritage assets by category and condition for FY 2007 are shown below:

                                                                 2006                                   FY 2007
                                                                 Final                                  Ending
                              Category                           Sites     Additions Withdrawals        Balance    Condition
          Total heritage assets                                342,361         6,591                0    348,952   Poor – Fair
          Eligible for the National Register of Historic
          Places                                                53,962          603                 0     54,565   Poor – Fair
          Listed on the National Register                        3,478            5                 0      3,483      Fair
          Sites with structures listed on the National
          Register                                               1,956             0                0      1,956   Poor – Fair
          National Historic Landmarks                               20             0                0         20   Fair – Good




                                                                         204
                                                    FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



The Forest Service generally does not construct heritage assets, although in some circumstances important site-structural
components may be rehabilitated or reconstructed into viable historic properties to provide forest visitors with use and
interpretation. Heritage assets can be acquired through the procurement process, but this rarely occurs. Normally, heritage
assets are part of the land acquisition and inventory process. Withdrawal occurs through land exchange or natural
disasters. Most additions occur through inventory activities, where previously undocumented sites are discovered and
added to the total. Although not technically additions—they already existed on NFS lands—they do represent an
increased management responsibility commensurate with the spirit of “additions.”
Natural Resources Conservation Service
NRCS currently owns one heritage asset, the Tucson Plant Materials Center (TPMC). It was listed in the National
Register of Historic Places (NRHP) on July 2, 1997. The TPMC develops and evaluates native plants and addresses an
array of resource issues in the areas of rangeland, mined land, urban lands, cropland riparian areas, and desert lands. It
provides technical assistance to NRCS field offices, RC& D groups, Conservation districts, federal, state, and tribal
agencies, and private landowners throughout the greater Southwest.
Agricultural Research Service
ARS has approximately 60 heritage assets at three locations under its custody and control. These locations include: (1)
the U.S. National Arboretum, Washington, D.C.; (2) the Grazinglands Research Laboratory (GRL), El Reno,
Oklahoma; and (3) the Fort Keogh Livestock and Range Research Laboratory, Miles City, Montana.
Established in 1927 by an Act of Congress, the mission of the U.S. National Arboretum is to serve the public need for
scientific research, education, and gardens that conserve and showcase plants to enhance the environment.
GLR was established by Public Law 80-494, 62 Stat. 197 on April 21, 1948, and includes 6,737-acres of withdrawn
public land. The mission of the GRL is to provide new technologies and management strategies which increase the
profitability of forage and livestock production, reduce risks associated with management decisions, promote
sustainability, and conserve the productivity of grazing land resources of the Great Plains.
The Fort Keogh Livestock and Range Research Laboratory was established by an Act of Congress in 1924 and includes
55,767 acres within the original area of the Fort Keogh Military Reservation just west of Miles City, Montana. The
mission of the Fort Keogh Livestock and Range Research Laboratory is to research and develop ecologically and
economically sustainable range animal management systems that ultimately meet consumers’ needs. The Fort Keogh
Military Reservation, which was established by an Act of Congress in 1876, was placed on the National Register of
Historic Places in March of 1978.
The National Agricultural Library (NAL) is the largest collection of materials devoted to agriculture in the world. NAL
houses and provides access to over 3.5 million volumes of books and periodicals. The overwhelming number of these
items were published more than 25 years ago and almost all of them are out-of-print and unavailable for purchase.
Special Collections of the NAL collects, preserves and provides access to manuscripts, rare books, photographs, posters,
oral histories and other unique materials. The collection includes approximately 15,000 rare books and over 340
manuscript collections.




                                                              205
                                          FY 2007 Performance and Accountability Report
                  FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Stewardship Land
Description                                              FY 2007 Balance     Additions (+)   Withdrawals (-)   FY 2006 Balance
National Forest System Land (In acres):
     National Forests                                        143,933,175               -         (123,140)         144,056,315
     National Forests Wilderness Areas                        34,872,673          56,445                -           34,816,228
     National Forests Primitive Areas                            173,762               -                -              173,762
     National Wild and Scenic River Areas                        931,314               -                -              931,314
     National Recreation Areas                                 2,912,762             186                -            2,912,576
     National Scenic–Research Areas                              265,840         128,354                -              137,486
     National Game Refuges and Wildlife Preserve Areas         1,198,099               -                -            1,198,099
     National Monument Areas                                   3,834,106              65                -            3,834,041
     National Grasslands                                       3,843,037           5,167                -            3,837,870
     Purchase Units                                              374,593               -             (156)             374,749
     Land Utilization Projects                                     1,876               -                -                1,876
     Other Areas                                                 453,436               -          (59,061)             512,497
Total National Forest System Land                            192,794,673         190,217         (182,357)         192,786,813
Conservation Easements (In acres):
    Natural Resources Conservation Service
         Wetlands Reserve Program                              1,680,374         149,189                 -           1,531,185
         Grassland Reserve Program                                88,853          45,951                 -              42,902
         Emergency Wetlands Reserve Program                       92,159               -                 -              92,159
         Emergency Wetlands Reserve Program                      120,242          25,843                 -              94,399
         Farm and Ranch Land Protection Program                   24,882          24,882                 -                   -
Total Conservation Easements                                   2,006,510         245,865                 -           1,760,645


Description                                              FY 2006 Balance     Additions (+)   Withdrawals (-)   FY 2005 Balance

National Forest System Land (In acres):
     National Forests                                        144,056,315               -         (403,999)         144,460,314
     National Forests Wilderness Areas                        34,816,228               -         (140,850)          34,957,078
     National Forests Primitive Areas                            173,762               -                -              173,762
     National Wild and Scenic River Areas                        931,314             681                -              930,633
     National Recreation Areas                                 2,912,576          94,308                -            2,818,268
     National Scenic–Research Areas                              137,486             196                -              137,290
     National Game Refuges and Wildlife Preserve Areas         1,198,099               -                -            1,198,099
     National Monument Areas                                   3,834,041               -                -            3,834,041
     National Grasslands                                       3,837,870               -             (296)           3,838,166
     Purchase Units                                              374,749           4,718                -              370,031
     Land Utilization Projects                                     1,876               -                -                1,876
     Other Areas                                                 512,497           2,640                -              509,857
Total National Forest System Land                            192,786,813         102,543         (545,145)         193,229,415
Conservation Easements (In acres):
    Natural Resources Conservation Service
         Wetlands Reserve Program                              1,531,185         135,486                 -           1,395,699
         Grassland Reserve Program                                42,902          29,190                 -              13,712
         Emergency Wetlands Reserve Program                       92,159               -                 -              92,159
         Emergency Watershed Protection Program                   94,399              50                 -              94,349
Total Conservation Easements                                   1,760,645         164,726                 -           1,595,919




                                                                           206
                                                     FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



National Forest System
The FS manages an estimated 193 million acres of public land, most of which are classified as stewardship assets. These
stewardship assets are valued for the following reasons:
   Environmental resources;
   Recreational and scenic values;
   Cultural and paleontological resources;
   Vast open spaces; and
   Resource commodities and revenue they provide to the Federal Government, States, and counties.

The Land and Water Conservation Fund (L&WCF) Land Acquisition Program acquires land for the National Forest
System of the Forest Service. The program coordinates with a variety of partners, including State, local, and Tribal
governments, and private landowners through statewide planning for development of a land-adjustment strategy.

The Land Acquisition Program preserves, develops, and maintains access to NFS lands and waters for the public and
provides permanent access to public lands for recreation, commodity production, resource management, public safety, and
community economic viability.

The L&WCF statutory authority specifically defines the purpose to also include protecting the quality of scientific, scenic,
historical, ecological, environmental, air and atmospheric, water resource, archeological values as well as food and habitat
for fish and wildlife; and managing the public lands for minerals, food, timber and fiber.

From these several allowable uses of program funding, the program concentrates on protecting habitat for priority species
identified in the national forest and grassland’s LMPs and enhancing recreational opportunities for areas with high
demand for recreation. The program focuses acquisitions on inholdings and areas adjacent to existing NFS lands.

The Forest Legacy program also protects environmentally sensitive forestlands, but such lands remain in private
ownership.
National Forests
The national forests are formally established and permanently set aside and reserved for national forest purposes. The
following categories of NFS lands have been set aside for specific purposes in designated areas:
   National Wilderness Areas. Areas designated by Congress as part of the National Wilderness Preservation System.
   National Primitive Areas. Areas designated by the Chief of the Forest Service as primitive areas. They are
    administered in the same manner as wilderness areas, pending studies to determine sustainability as a component of
    the National Wilderness Preservation System.
   National Wild and Scenic River Areas. Areas designated by Congress as part of the National Wild and Scenic River
    System.
   National Recreation Areas. Areas established by Congress for the purpose of assuring and implementing the
    protection and management of public outdoor recreation opportunities.
   National Scenic Research Areas. Areas established by Congress to provide use and enjoyment of certain ocean
    headlands and to ensure protection and encourage the study of the areas for research and scientific purposes.




                                                              207
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



   National Game Refuges and Wildlife Preserve Areas. Areas designated by Presidential proclamation or Congress for
    the protection of wildlife.
   National Monument Areas. Areas including historic landmarks, historic and prehistoric structures, and other objects
    for historic or scientific interest, declared by Presidential proclamation or Congress.
National Grasslands
National Grasslands are designated by the Secretary of Agriculture and permanently held by the USDA under Title III of
the Bankhead-Jones Farm Tenant Act.
Purchase Units
Purchase units are land designated by the Secretary of Agriculture or previously approved by the National Forest
Reservation Commission for purposes of Weeks Law acquisition. The law authorizes the Federal Government to
purchase lands for stream flow protection and maintain the acquired lands as national forests.
Land Utilization Projects
Land utilization projects are reserved and dedicated by the Secretary of Agriculture for forest and range research and
experimentation.
Research and Experimental Areas
Research and experimental areas are reserved and dedicated by the Secretary of Agriculture for forest and range
research experimentation.
Other Areas
There are areas administered by the FS that are not included in one of the above groups.
Condition of NFS Lands
The condition of NFS lands varies by purpose and location. The FS monitors the condition of NFS lands based on
information compiled by two national inventory and monitoring programs—Forest Inventory and Analysis (FIA) and
Forest Health Monitoring (FHM).

The FIA program conducts annual inventories of forest status and trends. FIA has historic inventory data in all 50 States
and is currently collecting annual inventory data in 46 States, including 38 of the 41 States containing NFS land. Active
throughout all 50 States, FHM provides surveys and evaluations of forest health conditions and trends.

Although most of the estimated 193 million acres of NFS forest lands continue to produce valuable benefits (i.e., clean
air, clean water, habitat for wildlife, and products for human use), significant portions are at risk to pest outbreaks or
catastrophic fires. There are 25 million acres of NFS forestlands at risk to future mortality from insects and diseases, based
on the 2007 Insect and Disease Risk Map. Invasive species of insects, diseases, and plants continue to affect our native
ecosystems by causing mortality to, or displacement of, native vegetation. The FS completed insect and disease
prevention and suppression treatments on over 43,300 acres of NFS lands in FY 2007.

By 2009, a map of fire fuels conditions across the United States will be provided by LANDFIRE. LANDFIRE is a set of
over 20 digital layers of vegetation, fuels and departure from historic conditions covering all ownerships at a 30-meter
pixel resolution. LANDFIRE creates standardized comprehensive products across the United States as it integrates
relational databases, remote sensing, systems ecology, gradient modeling, and landscape simulation. Products will be
delivered incrementally through 2009, although layers are currently available for the 11 western States, Florida, North


                                                               208
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Carolina, Alabama, Mississippi and parts of Texas. The project is on schedule and within budget for completion of the
continental United States in FY 2008, with Alaska and Hawaii completed in FY 2009.
Conservation Easements
The Natural Resources Conservation Service (NRCS) agency mission statement is “Helping people help the land”. This
mission statement reflects that NRCS’ products and services enable people to be better stewards of the Nation’s soil, water
and related natural resources. NRCS provides cost share and monetary incentives to encourage the adoption of new and
cost prohibitive land treatment practices that have been proven to provide significant public benefits. Financial assistance
is awarded to participants who voluntarily enter into easements to conserve natural resources. NRCS easement purchase
programs include Wetlands Reserve Program, Emergency Wetlands Reserve Program, Emergency Watershed Protection
Program – Floodplain Easements, Grassland Reserve Program, Farm and Ranch Land Protection Program, and Healthy
Forest Reserve Program. NRCS is recorded on the deed for the purchase of these easements. For financial statement
reporting purposes, the acres represent acres perfected.
Wetlands Reserve Program
The Wetlands Reserve Program (WRP) is authorized under Section 1237 of the Food Security Act of 1985 (P.L. 99-
198), as amended, by the Food, Agriculture, Conservation and Trade Act of 1990 (P.L. 101-624), the Federal Agriculture
Improvement and Reform Act of 1996 (P.L. 104-127), and the Farm Security and Rural Investment Act of 2002 (P.L.
107-171) (“2002 Farm Bill”). The Secretary of Agriculture delegated the authority for WRP to the Chief of the Natural
Resources Conservation Service (NRCS), who is a vice president of the Commodity Credit Corporation (CCC). WRP is
a voluntary program offering landowners the opportunity to restore, protect, and enhance wetlands on agricultural land.
Participants in the program may sell a conservation easement with CCC/NRCS in order to restore and protect wetlands.
The program provides many benefits for the entire community, such as better water quality, enhanced habitat for wildlife,
reduced erosion, reduced flooding, and better water supply.
To be eligible for WRP, land must be restorable and suitable for wildlife benefits. Once land is enrolled in the program,
the landowner continues to control access to the land-and may lease the land- for hunting, fishing, and other undeveloped
recreational activities. Easements can be either permanent or 30-year duration. Once enrolled, the land is monitored to
ensure compliance with program requirements. At any time, a landowner may request the evaluation of additional
activities (such as cutting hay, grazing livestock, or harvesting wood products) to determine if there are other compatible
uses for the site. Compatible uses are allowed if it is fully consistent with the protection and enhancement of the wetland.
The condition of the land is immaterial as long as the easement on the land meets the eligibility requirements of the
program.

Withdrawals from the program are rare. The Secretary of Agriculture has the authority to terminate contracts, with
agreement from the landowner, after an assessment of the effect on public interest, and following a 90-day notification
period of the House and Senate agriculture committees.
Grassland Reserve Program
The Grassland Reserve Program (GRP) is authorized by Section 1238n or Title XII, of Food Security Act of 1985, as
amended by section 2401 of the 2002 Farm Bill. The Secretary of Agriculture delegated the authority for GRP to the
Chief of the Natural Resources Conservation Service (NRCS), who is a vice president of the Commodity Credit
Corporation (CCC). GRP assists landowners in restoring and protecting grassland; including rangeland, pastureland, and
certain other lands, while maintaining the lands suitability for grazing. The emphasis of the program is to support grazing



                                                              209
                                          FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



operations, plant and animal biodiversity, and grassland and land containing shrubs or forbs under the greatest threat of
conversion.

Land is eligible if it is privately owned or tribal land and it is: 1) grassland that contains forbs or shrubs (including
rangeland and pastureland); or 2) located in an area that has been historically dominated by grassland, forbs, or shrubs;
and has potential to provide habitat for animal or plant populations of significant ecological value if the land is retained in
the current use; or restored to a natural condition. Incidental lands may be included to allow for the efficient
administration of an agreement or easement.

NRCS develops a conservation plan with the landowners eligible for the program. The plan specifies the management
options available on the grasslands with the goal of maintaining the viability for the grassland’s resources. Easements can
be permanent, 30-year, or the maximum duration permitted based on State or Tribal law. NRCS continues to provide
assistance to the landowner after the acres are enrolled. GRP easements prohibit the production of crops (other than
hay), fruit trees, and vineyards that require breaking the soil surface and other activity that would permanently disturb the
surface of the land, except for appropriate land management activities included in the grassland conservation plan.
Withdrawals from the program are not permitted.
Emergency Wetlands Reserve Program
The Emergency Wetlands Reserve Program (EWRP) administered by NRCS was established as part of the emergency
restoration package following the flooding of the Mississippi River and its tributaries in 1993. EWRP provides
landowners an alternative to restoring agricultural production lands that previously were wetlands. The program is
patterned after the WRP. Participants in the program sell a conservation easement to USDA in order to restore and
protect wetlands. The landowner voluntarily limits the future use of the land, yet retains private ownership.

To be eligible, the land must have been damaged by a natural disaster and be restorable as a wetland. Once the land is
enrolled in the program, the landowner continues to control access to the land. Easements purchased under EWPR are
permanent in duration. The land is monitored to ensure that the wetland is in compliance with contract requirements,
including compatible uses, such as recreational activities or grazing livestock.

Easements purchased under this program meet the definition of stewardship land. NRCS records an expense for the
acquisition cost of purchasing easements plus any additional costs such as closing, survey, and restoration costs. In
exchange for establishing a permanent easement, the landowner receives payment based on agricultural value of the land, a
geographic land payment cap, or the landowner offer. Easement values are assessed on pre-disaster conditions. The
landowner may receive up to 100 percent of restoring the wetland. There are no provisions in the easement to terminate
the purchase.
Emergency Watershed Protection Program – Floodplain Easements
The Emergency Watershed Protection Program (EWP) Floodplain Easements is authorized by the Federal Agriculture
Improvement and Reform Act of 1996, (P.L. 104-127) and administered by NRCS. Floodplain easements restore,
protect, manage, maintain, and enhance the functions and values of the floodplains for runoff retardation and soil erosion
prevention. The purpose of the easements is to conserve natural values including fish and wildlife habitat, water quality,
flood water retention, ground water recharge, and open space; and safeguard lives and property from floods, drought, and
products of erosion. A floodplain easement is purchased on flood prone lands to provide a more permanent solution to
repetitive disaster assistance payments and achieve greater environmental benefits where the situation warrants when the
affected landowner is willing to participate in the easement approach.



                                                               210
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Farm and Ranch Land Protection Program
Farm and Ranch Land Protection Program (FRPP) is authorized by the Food Security Act of 1985, and reauthorized by
Section 2503 of the 2002 Farm Bill. The Secretary of Agriculture delegated the authority for FRPP to the Chief of the
Natural Resources Conservation Service (NRCS), who is a vice president of the Commodity Credit Corporation (CCC).
FRPP is a voluntary program that helps farmers and ranchers keep their land in agriculture and prevents conversion of
agricultural land to non-agricultural uses.

The CCC, through NRCS, requests proposals from federally recognized Indian Tribes, States, units of local government,
and non governmental organizations to cooperate in acquisition of conservation easements on farms and ranches. Once
the entity is selected NRCS enters into a cooperative agreement with and obligates the money to the entity. The entity
works with the landowner, processes the easement acquisition, and holds, manages, and enforces the easement.
Beginning in FY 2006 NRCS is now included on the easement deed. In prior years, FRPP was not reported as
Stewardship Land because NRCS did not hold the easements with the landowners.

NRCS establishes partnerships with State, Tribal, or local governments or non-governmental organizations to leverage
their purchase of development rights by providing matching funds not to exceed 50 percent of the appraised fair market
value. They may apply for the FRPP funds if they have a farmland protection program that purchases conservation
easements for the purpose of protecting topsoil by limiting conversion to nonagricultural uses of land, and if they have
pending offers to potential landowners. Potential participating entities must provide written evidence of: Participants’
commitment to long-term conservation of agricultural lands through the use of legal instruments (i.e., right-to-farm laws,
agricultural districts, zoning, or land use plans); the use of voluntary approaches to protect farmland from conversion to
nonagricultural uses; the capability to acquire, manage, and enforce easement rights or other interests in land; and funds
availability. The participating entity must provide a minimum of 25 percent, in cash, of the appraised fair market value, or
50 percent of the conservation easement’s purchase price. Withdrawals from the program are not permitted.
Healthy Forest Reserve Program
The Healthy Forest Reserve Program (HFRP) is authorized by Title V of the Healthy Forests Restoration Act of 2003
(P.L. 108-148). HFRP is a voluntary program established to assist landowners in restoring and enhancing forest
ecosystems to promote the recovery of threatened and endangered species, improve biodiversity, and enhance carbon
sequestration. The program contributes positively to the economy of our nation, providing biodiversity of plant and
animal populations, and improves environmental quality.

To be eligible to enroll an easement in the HFRP, a person must be the landowner of eligible private land for which
enrollment is sought and also agree to provide such information to the Natural Resources Conservation Service (NRCS)
as the agency deems necessary or desirable to assist in its determination of eligibility for program benefits and for other
program implementation purposes.

NRCS in coordination with the Fish and Wildlife Service (FWS) and/or the National Marine Fisheries Service (MNFS),
shall determine whether land is eligible for enrollment and whether, once found eligible, the lands may be included in the
program based on the likelihood of successful restoration, enhancement, and protection of forest ecosystem functions and
values when considering the cost of acquiring the easement and the restoration, protection, enhancement, maintenance,
and management costs.

Land shall be considered eligible for enrollment in the HFRP only if NRCS determines that such private land is capable
of supporting habitat for a selected species listed under Section 4 of the Endangered Species Act of 1973 (ESA); and such



                                                               211
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



private land is capable of supporting habitat for a selected species not listed under Section 4 of the ESA but is candidate
for such listing, or the selected species is State-listed species, or is a species identified by the Chief for special
consideration for funding.

NRCS may also enroll land adjacent to the restored forestland if the enrollment of such adjacent land would contribute
significantly to the practical administration of the easement area, but not more than it determines is necessary for such
contribution.

To be enrolled in the program, eligible land must be configured in a size and with boundaries that allow for the efficient
management of the area for easement purposes and otherwise promote and enhance program objectives. Withdrawals
from the program are not permitted.




                                                               212
                                           FY 2007 Performance and Accountability Report
             FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



DEFERRED MAINTENANCE

                                                        Cost to Return to          Cost of Critical   Cost of Non-critical
         FY 2007
                                                      Acceptable Condition          Maintenance         Maintenance
   Asset Class
     Forest Service
       Bridges                                       $                    123       $          29     $               94
       Buildings                                                          543                 114                    429
       Dam                                                                 21                   7                     14
       Minor Constructed Features                                          90                   -                     90
       Fence                                                              324                 324                      -
       Handling Facility                                                   23                  23                      -
       Heritage                                                            17                   5                     12
       Road                                                             8,134               3,675                  4,459
       Trail Bridge                                                         9                   3                      6
       Wastewater                                                          32                  17                     15
       Water                                                               89                  54                     35
       Wildlife, Fish, TES                                                  6                   4                      2
       Trails                                                             224                   2                    222
       General Forest Area                                                  -                   -                      -
   Total Forest Service                              $                  9,635       $       4,257     $            5,378


                                                        Cost to Return to          Cost of Critical   Cost of Non-critical
         FY 2006
                                                      Acceptable Condition          Maintenance         Maintenance
   Asset Class
     Forest Service
       Bridges                                       $                    116       $          27     $               89
       Buildings                                                          483                 106                    377
       Dam                                                                 21                   8                     13
       Minor Constructed Features                                          88                   -                     88
       Fence                                                              403                 403                      -
       Handling Facility                                                   24                  24                      -
       Heritage                                                            32                   9                     23
       Road                                                             4,054                 748                  3,306
       Trail Bridge                                                        10                   4                      6
       Wastewater                                                          31                  17                     14
       Water                                                               85                  47                     38
       Wildlife, Fish, TES                                                  6                   4                      2
       Trails                                                             243                  19                    224
       General Forest Area                                                  -                   -                      -
   Total Forest Service                              $                  5,596       $       1,416     $            4,180



Deferred maintenance is maintenance that was scheduled to be performed but was delayed until a future period. Deferred
maintenance represents a cost that the Federal Government has elected not to fund and, therefore, the costs are not
reflected in the financial statements.


                                                            213
                                        FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



Maintenance is defined to include preventive maintenance, normal repairs, replacement of parts and structural
components, and other activities needed to preserve the asset so that it continues to provide acceptable service and achieve
its expected life. Maintenance excludes activities aimed at expanding the capacity of an asset or otherwise upgrading it to
service needs different from, or significantly greater than, those originally intended.

Deferred maintenance is reported for general Property, Plant, and Equipment (PP&E), heritage assets, and stewardship
assets. It is also reported separately for critical and noncritical amounts of maintenance needed to return each class of asset
to its acceptable operating condition. Critical maintenance is defined as a serious threat to public health or safety, a
natural resource, or the ability to carry out the mission of the organization. Noncritical maintenance is defined as a
potential risk to the public or employee safety or health (e.g., compliance with codes, standards, or regulations) and
potential adverse consequences to natural resources or mission accomplishment.

The FS uses condition surveys to estimate deferred maintenance on all major classes of PP&E. No deferred maintenance
exists for fleet vehicles and computers that are managed through the agency’s working capital fund (WCF). Each fleet
vehicle is maintained according to schedule. The cost of maintaining the remaining classes of equipment is expensed.

Currently, no comprehensive national assessment of FS property exists. Estimates of deferred maintenance for all assets
are based on condition surveys. The agency’s deferred maintenance for roads is determined from surveys of an annual
random sample of a sufficient number of roads to achieve estimates of 95 percent accuracy and 95 percent confidence.
Five hundred roads were included in the FY 2007 sample.
Deferred maintenance needs for all other asset groups are determined from surveys of all individual assets on a revolving
schedule where the interval between visits does not exceed 5 years.

In previous years, the FS reported deferred maintenance estimates for General Forest Areas (GFA) and Developed Sites
(Minor Constructed Features) in this exhibit. The new Heritage Assets and Stewardship Lands Standard (SFFAS 29)
provides the FS the means to report these land units’ deferred maintenance by their respective individual asset, although
deferred maintenance for the Minor Constructed Features located on the Developed Sites will remain in this exhibit.

The overall condition of major asset classes range from poor to good depending on the location, age, and type of property.
The standards for acceptable operating condition for various classes of general PP&E, stewardship, and heritage assets are
as follows.
Conditions of roads and bridges within the National Forest System (NFS) road system are measured by various standards:
   Federal Highway Administration regulations for the Federal Highway Safety Act;
   Best management practices (BMP) for the nonpoint source provisions of the Clean Water Act from Environmental
    Protection Agency and States;
   Road management objectives developed through the National Forest Management Act (NFMA) forest planning
    process;
   Forest Service Directives—Forest Service Manual (FSM) 7730, Operation and Maintenance (January 2003
    amendment was superseded with August 25, 2005, revision); Forest Service Handbook (FSH) 7709.56a, Road
    Preconstruction, and FSH 7709.56b, Transportation Structures Handbook.

Dams shall be managed according to FSM 7500, Water Storage and Transmission, and FSH 7509.11, Dams
Management Handbook, as determined by condition surveys. The overall condition of dams is below acceptable. The



                                                               214
                                           FY 2007 Performance and Accountability Report
              FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



condition of a dam is acceptable when the dam meets current design standards and does not have any deficiencies that
threaten the safety of the structure or public. For dams to be rated as in acceptable condition, the agency needs to restore
the dams to the original functional purpose, correct unsightly conditions, or prevent more costly repairs.

Buildings shall comply with the National Life Safety Code, the Forest Service Health and Safety Handbook, and the
Occupational Safety Health Administration as determined by condition surveys. These requirements are found in FSM
7310, Buildings and Related Facilities, revised November 19, 2004. The condition of administrative facilities ranges from
poor to good, with approximately 34 percent needing major repairs or renovations; approximately 11 percent of in fair
condition; and 55 percent of the facilities in good condition.

Recreation facilities include developed recreation sites, general forest areas, campgrounds, trailheads, trails, water and
wastewater systems, interpretive facilities, and visitor centers. These components are included in several asset classes of the
deferred maintenance exhibit. All developed sites are managed in accordance with Federal laws and regulations (CFR 36).

Detailed management guidelines are contained in FSM 2330, Publicly Managed Recreation Opportunities, and forest-
level and regional-level user guides. Quality standards for developed recreation sites were established as Meaningful
Measures for health and cleanliness, settings, safety and security, responsiveness, and the condition of the facility.
The condition assessment for range structures (fences and stock handling facilities) is based on (1) a determination by
knowledgeable range specialists or other district personnel of whether the structure would perform the originally intended
function, and (2) a determination through the use of a protocol system to assess conditions based on age. A long-standing
range methodology is used to gather this data.

Heritage assets include archaeological sites that require determinations of National Register of Historic Places status,
National Historic Landmarks, and significant historic properties. Some heritage assets may have historical significance,
but their primary function in the agency is as visitation or recreation sites and, therefore, may not fall under the
management responsibility of the heritage program.

Trails and trail bridges are managed according to Federal law and regulations (CFR 36). More specific direction is
contained in FSM 2350, Trail, River, and Similar Recreation Opportunities, and the FSH 2309.18, Trails Management
Handbook.

Deferred maintenance of structures for wildlife, fish, and threatened and endangered species (TES) is determined by field
biologists using their professional judgment. The deferred maintenance is considered critical if resource damage or species
endangerment would likely occur if maintenance were deferred much longer.




                                                               215
                                           FY 2007 Performance and Accountability Report
                                                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




STATEMENT OF BUDGETARY RESOURCES

FY 2007                                                               FSA                         CCC                   FAS            RMA           FNS            FSIS          AMS           APHIS
                                                                     Non-Budgetary               Non-Budgetary
                                                                       Financing                   Financing
                                                           Budgetary   Accounts        Budgetary   Accounts         Budgetary      Budgetary     Budgetary      Budgetary     Budgetary     Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:           $     370     $     781     $    1,165     $   1,627     $     296      $    1,269    $   12,418     $       41    $     248     $      358
Recoveries of prior year unpaid obligations                       40            84            717            15           132               3           761            104           15            156
Budget Authority:
  Appropriation                                                4,480             -         25,873             -           346           4,456        51,313            901         7,262          1,341
  Borrowing Authority (Notes 22 & 23)                              -         1,351         41,185           281             -               -             -              -             -              -
  Earned -
    Collected                                                    808         1,342         16,885         1,188               58        1,364              86          135          187            189
    Change in receivables from Federal Sources                     6             -           (963)            4                6            -               -            6           (3)             9
  Change in unfilled customer orders -
    Advances received                                              -             -            (181)           -             -               -            (2)             -             -             (5)
    Without advance from Federal Sources                           -             -               -            -            62               -            (1)             -             -              -
  Expenditure transfers from trust funds                           -             -             934            -             -               -             -              -             -              -
Nonexpenditure transfers, net, anticipated and actual              -             -          (1,831)           -             8              (6)        5,746             (1)       (5,812)          (235)
Temporarily not available pursuant to Public Law                   -             -               -            -             -               -             -              -             -              -
Permanently not available                                       (419)         (286)        (51,934)         (69)           (3)             (3)       (1,034)           (17)         (120)            (4)
 Total Budgetary Resources                                     5,285         3,272          31,850        3,046           905           7,083        69,287          1,169         1,777          1,809

Status of Budgetary Resources:
Obligations Incurred (Note 21):
   Direct                                                      1,707         1,452          2,894           907           357           4,820        54,372            976         1,111          1,054
  Reimbursable                                                   413             -         27,352             -           161               1            24            136            63            393
Unobligated Balance:
  Apportioned                                                  3,045           396            401         1,083           107           2,260           639             22            37            330
  Exempt from Apportionment                                        -             -            808             5             -               -             -              -           539              -
Unobligated balance not available                                120         1,424            395         1,051           280               2        14,252             35            27             32
Total Status of Budgetary Resources                            5,285         3,272         31,850         3,046           905           7,083        69,287          1,169         1,777          1,809

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                 245           462          8,006          (99)            38            276          4,165            96           107            449
Obligations incurred                                            2,120         1,452         30,246          907            518          4,821         54,396         1,112         1,174          1,447
Gross outlays                                                  (2,104)       (1,398)       (30,764)        (843)          (346)        (4,914)       (53,648)         (961)       (1,155)        (1,324)
Recoveries of prior year unpaid                                   (40)          (84)          (717)         (15)          (132)            (3)          (761)         (104)          (15)          (156)
Change in uncollected payments from Federal Sources                (6)            -            963           (4)           (68)             -              1            (6)            3             (9)
Obligated balance, net, end of period -
 Unpaid obligations (Note 27)                                    235           446          8,046           125            117           180          4,154            160          115            436
 Uncollected customer payments from Federal Sources              (20)          (14)          (312)         (178)          (106)            -              -            (23)          (3)           (29)
 Obligated balance, net, end of period                           215           432          7,734           (53)            11           180          4,154            137          112            407

Net Outlays:
 Gross outlays                                                 2,104          1,398       30,764             843          346           4,914        53,648            961         1,155          1,324
 Offsetting collections                                         (808)        (1,343)     (17,637)         (1,189)         (58)         (1,364)          (84)          (135)         (187)          (184)
 Distributed offsetting receipts                                 (89)             -            -            (464)           -               -             3             (7)         (140)           (25)
 Net Outlays                                               $   1,207 $           55    $ 13,127 $           (810)   $     288      $    3,550    $   53,567     $      819    $      828    $     1,115




                                                                                                                    216
                                                                                            FY 2007 Performance and Accountability Report
                                                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2007                                                       GIPSA         FS            NRCS             ARS         CSREES            ERS             NASS                 RD                     DO                 TOTAL
                                                                                                                                                                              Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                Financing                                  Financing
                                                         Budgetary      Budgetary     Budgetary        Budgetary       Budgetary     Budgetary       Budgetary      Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:          $        9    $   1,809     $      864       $     308       $     133     $          1    $          3   $   1,818     $    1,307     $     172     $    21,282     $    3,715
Recoveries of prior year unpaid obligations                       10          112            564              98             213                5               6         169          1,346            70           3,175          1,445
Budget Authority:
  Appropriation                                                   38        5,586            874            1,148          1,208               75          148          2,821              -           558         108,428              -
  Borrowing Authority (Notes 22 & 23)                              -            -              -                -              -                -            -              -         10,846             -          41,185         12,478
  Earned -
    Collected                                                     39          525            173                 83           31                1           23          4,797          5,983           774          26,158          8,513
    Change in receivables from Federal Sources                     1          (44)           (21)                (3)           -                -            1            (44)             -           (20)         (1,069)             4
  Change in unfilled customer orders -
    Advance received                                               -            5              -                -             13                -            -               -             -             -            (170)             -
    Without advance from Federal Sources                           -           (5)             6               (1)            13                -           (6)              -             8            28              96              8
   Expenditure transfers from trust funds                          -            -              -                -              -                -            -               -             -             -             934              -
Nonexpenditure transfers, net, anticipated and actual              -           21          1,747                3              5                -            -              14             -             5            (336)             -
Temporarily not available pursuant to Public Law                   -            -              -                -            (36)               -            -               -             -             -             (36)             -
Permanently not available                                          -            -             (1)              (6)            (2)               -            -          (4,086)       (5,902)           (6)        (57,635)        (6,257)
 Total Budgetary Resources                                        97        8,009          4,206            1,630          1,578               82          175           5,489        13,588         1,581         142,012         19,906

Status of Budgetary Resources:
Obligations Incurred (Note 21):
  Direct                                                          45        6,048          3,000            1,336          1,388               78          151          3,790         12,339           616          83,743         14,698
 Reimbursable                                                     39          289            159               84             64                1           19            517              -           798          30,513              -
Unobligated Balance:
 Apportioned                                                       7          840            234              189            117                1            4            427            438           134           8,794          1,917
 Exempt from Apportionment                                         -            -              4                -              -                -            -              -              -             -           1,351              5
Unobligated balance not available                                  6          832            809               21              9                2            1            755            811            33          17,611          3,286
Total Status of Budgetary Resources                               97        8,009          4,206            1,630          1,578               82          175          5,489         13,588         1,581         142,012         19,906

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                  9         1,950          3,484             538           1,365           30               13          5,652         18,537           114          26,537         18,900
Obligations incurred net                                          84         6,337          3,159           1,420           1,452           79              170          4,307         12,339         1,414         114,256         14,698
Gross outlays                                                    (78)       (6,366)        (2,918)         (1,387)         (1,181)         (74)            (166)        (4,452)       (11,793)       (1,280)       (113,118)       (14,034)
Recoveries of prior year unpaid                                  (10)         (112)          (564)            (98)           (213)          (5)              (6)          (169)        (1,346)          (70)         (3,175)        (1,445)
Change in uncollected payments from Federal Sources               (1)           49             15               4             (12)           -                4             44             (7)           (8)            973            (11)
Obligated balance, net, end of period
 Unpaid obligations (Note 27)                                     10        2,243          3,244             555           1,488               31           20          5,410         18,369           400          26,844         18,940
 Uncollected customer payments from Federal Sources               (6)        (384)           (68)            (77)            (77)               -           (6)           (29)          (641)         (232)         (1,372)          (833)
 Obligated Balance, net, end of period                             4        1,859          3,176             478           1,411               31           14          5,381         17,728           168          25,472         18,107

Net Outlays:
 Gross outlays                                                    78        6,366          2,918            1,387          1,181               74          166           4,452        11,793         1,280      113,118            14,034
 Offsetting collections                                          (39)        (530)          (173)             (83)           (44)              (1)         (23)         (4,798)       (5,982)         (773)      (26,921)          (8,514)
 Distributed offsetting receipts                                   -         (500)             6              (19)            (3)               -            -            (488)            -           (41)       (1,303)            (464)
 Net Outlays                                              $       39    $   5,336     $    2,751       $    1,285      $   1,134     $         73    $     143      $     (834) $      5,811     $     466     $ 84,894 $           5,056




                                                                                                                                217
                                                                                                     FY 2007 Performance and Accountability Report
                                                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION




FY 2006                                                                 FSA                         CCC                   FAS            RMA           FNS            FSIS          AMS             APHIS
                                                                       Non-Budgetary               Non-Budgetary
                                                                         Financing                   Financing
                                                             Budgetary   Accounts        Budgetary   Accounts         Budgetary      Budgetary     Budgetary      Budgetary     Budgetary       Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:             $     343     $   2,146     $    1,299     $   2,699     $     175      $    1,358    $    7,108     $       71    $     378       $      316
Recoveries of prior year unpaid obligations                         43            77          4,945             4           754               4           797            177           20              338
Budget Authority:
  Appropriation                                                  1,884             -         28,112             -           341           3,372        53,813            844         6,719            1,335
  Borrowing Authority (Notes 22 & 23)                                -         1,746         44,465           824             -               -             -              -             -                -
  Earned -
    Collected                                                      979         1,483         15,068         1,174               81        1,208              85          132              60           477
    Change in receivables from Federal Sources                     (15)            -             54           (29)              10            -               -          (10)             (1)          (24)
  Change in unfilled customer orders -
    Advances received                                                -              -            259             -             -              -             -             (2)            -               23
    Without advance from Federal Sources                            (1)             1              -             -             -              -             1              -             -                -
  Expenditure transfers from trust funds                             -              -            891             -             -              -             -              -             -                -
Nonexpenditure transfers, net, anticipated and actual              (38)             -         (1,872)            -            14             (5)        5,203              -        (5,265)            (180)
Permanently not available                                         (541)        (2,862)       (50,153)       (1,690)           (3)            (2)       (1,032)           (23)          (40)             (17)
 Total Budgetary Resources                                       2,654          2,591         43,068         2,982         1,372          5,935        65,975          1,189         1,871            2,268

Status of Budgetary Resources:
Obligations Incurred (Note 21):
   Direct                                                        1,801         1,810          2,970         1,355           965           4,666        53,530            999         1,565            1,229
  Reimbursable                                                     483             -         38,933             -           111               -            27            149            58              681
Unobligated Balance:
  Apportioned                                                      260           361            363           748            101          1,266         3,160              7            20              314
  Exempt from Apportionment                                          -             -            533             -              1              -             -              1           178               13
Unobligated balance not available                                  110           420            269           879            194              3         9,258             33            50               31
Total Status of Budgetary Resources                              2,654         2,591         43,068         2,982          1,372          5,935        65,975          1,189         1,871            2,268

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                   168           483          8,428          (153)           77            268          3,940            82           119              479
Obligations incurred                                              2,284         1,810         41,903         1,355         1,076          4,666         53,557         1,148         1,623            1,910
Gross outlays                                                    (2,180)       (1,752)       (37,326)       (1,325)         (350)        (4,653)       (52,533)         (968)       (1,616)          (1,627)
Recoveries of prior year unpaid                                     (43)          (77)        (4,945)           (4)         (754)            (4)          (797)         (177)          (20)            (338)
Change in uncollected payments from Federal Sources                  16            (1)           (53)           29           (10)             -             (1)           10             1               24
Obligated balance, net, end of period -
 Unpaid obligations (Note 27)                                      259           476           9,281           75             77           276          4,166            113          112              468
 Uncollected customer payments from Federal Sources                (14)          (14)         (1,275)        (174)           (39)            -             (1)           (17)          (5)             (19)
 Obligated balance, net, end of period                             245           462           8,006          (99)            38           276          4,165             96          107              449

Net Outlays:
 Gross outlays                                                   2,180          1,752       37,326           1,325          350           4,653        52,533            968         1,616            1,627
 Offsetting collections                                           (979)        (1,483)     (16,217)         (1,174)         (81)         (1,208)          (85)          (130)          (60)            (501)
 Distributed offsetting receipts                                  (396)             -            -            (987)           2              (3)           (1)           (12)         (148)             (11)
 Net Outlays                                                 $     805 $          269    $ 21,109 $           (836)   $     271      $    3,442    $   52,447     $      826    $    1,408      $     1,115




                                                                                                                218
                                                                                         FY 2007 Performance and Accountability Report
                                                        FINANCIAL STATEMENTS, NOTES, SUPPLEMENTAL AND OTHER ACCOMPANYING INFORMATION



FY 2006                                                        GIPSA           FS            NRCS           ARS         CSREES            ERS             NASS                RD                     DO                 TOTAL
                                                                                                                                                                              Non-Budgetary                              Non-Budgetary
                                                                                                                                                                                Financing                                  Financing
                                                           Budgetary       Budgetary     Budgetary      Budgetary       Budgetary     Budgetary       Budgetary     Budgetary   Accounts         Budgetary     Budgetary   Accounts
Budgetary Resources:
Unobligated balance, brought forward, October 1:           $           8   $   2,429     $      468     $     412       $     128     $          1    $       5     $   4,498     $    1,983     $     173     $    19,170     $    6,828
Recoveries of prior year unpaid obligations                            7          78            721           295             444               13           29           304            860           102           9,071            941
Budget Authority:
  Appropriation                                                    38          5,362          1,358          1,330          1,221               76          141         3,298              -           612         109,856              -
  Borrowing Authority (Notes 22 & 23)                               -              -              -              -              -                -            -             -         10,038             -          44,465         12,608
  Earned -
    Collected                                                      42            665            151               84           33                1           20         3,410          5,207           769          23,265          7,864
    Change in receivables from Federal Sources                     (2)           (21)           (48)              (9)          (8)              (2)          (2)          (26)             -           (25)           (129)           (29)
  Change in unfilled customer orders -
    Advance received                                                -             19              -              -              -                -            -              -             -             -             299              -
    Without advance from Federal Sources                            -             37             30             13              7                -            2              2            10           (21)             70             11
   Expenditure transfers from trust funds                           -            159              -              -              -                -            -              -             -             -           1,050              -
Nonexpenditure transfers, net, anticipated and actual               -              3          1,741              6              5                -            -             37             -             9            (342)             -
Permanently not available                                          (1)           (65)           (28)           (20)           (20)              (1)          (2)        (3,755)       (4,246)          (42)        (55,745)        (8,798)
 Total Budgetary Resources                                         92          8,666          4,393          2,111          1,810               88          193          7,768        13,852         1,577         151,030         19,425

Status of Budgetary Resources:
Obligations Incurred (Note 21):
   Direct                                                          45          6,382          3,363          1,690          1,630               86          169         5,427         12,545           668          87,185         15,710
  Reimbursable                                                     38            475            166            113             47                1           21           523              -           737          42,563              -
Unobligated Balance:
  Apportioned                                                       1          1,052            527            278            104                -            1           244            516           120           7,818          1,625
  Exempt from Apportionment                                         -              -              3             15             25                -            -             -              -             2             771              -
Unobligated balance not available                                   8            757            334             15              4                1            2         1,574            791            50          12,693          2,090
Total Status of Budgetary Resources                                92          8,666          4,393          2,111          1,810               88          193         7,768         13,852         1,577         151,030         19,425

Change in Obligated Balances:
Obligated balance, net, brought forward October 1                   7           1,561          3,565           442           1,268           28               16         6,022         17,872            85          26,555         18,202
Obligations incurred net                                           83           6,857          3,529         1,803           1,677           87              190         5,950         12,545         1,405         129,748         15,710
Gross outlays                                                     (76)         (6,375)        (2,907)       (1,408)         (1,136)         (74)            (163)       (6,041)       (11,012)       (1,323)       (120,756)       (14,089)
Recoveries of prior year unpaid                                    (7)            (78)          (721)         (295)           (444)         (13)             (29)         (304)          (860)         (102)         (9,071)          (941)
Change in uncollected payments from Federal Sources                 2             (15)            17            (4)              1            2               (1)           24            (10)           46              59             18
Obligated balance, net, end of period
 Unpaid obligations (Note 27)                                      13          2,383          3,567           619           1,430               30            23        5,725         19,171           339          28,881         19,722
 Uncollected customer payments from Federal Sources                (4)          (433)           (83)          (81)            (65)               -           (10)         (73)          (634)         (225)         (2,344)          (822)
 Obligated Balance, net, end of period                              9          1,950          3,484           538           1,365               30            13        5,652         18,537           114          26,537         18,900

Net Outlays:
 Gross outlays                                                     76          6,375          2,907          1,408          1,136               74          163          6,041        11,012         1,323      120,756            14,089
 Offsetting collections                                           (42)          (844)          (151)           (84)           (33)              (1)         (20)        (3,410)       (5,207)         (766)      (24,612)          (7,864)
 Distributed offsetting receipts                                    -           (457)           (19)           (22)            (4)               1            -           (688)            -            50        (1,708)            (987)
 Net Outlays                                               $       34      $   5,074     $    2,737     $    1,302      $   1,099     $         74    $     143     $    1,943 $       5,805     $     607     $ 94,436 $           5,238




                                                                                                                            219
                                                                                                FY 2007 Performance and Accountability Report
      IV.




                         Other Accompanying Information


Appendix A—Management Challenges




                                                  220
                              FY 2007 Performance and Accountability Report
                                    OTHER ACCOMPANYING INFORMATION




                        UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL

                                            Washington, D.C. 20250
August 1, 2007

MEMORANDUM FOR THE SECRETARY

FROM:           Phyllis K. Fong          /signed/
                Inspector General

SUBJECT:        Management Challenges

The Reports Consolidation Act of 2000 requires the Department of Agriculture (USDA), Office of
Inspector General, to identify and report annually the most serious management challenges USDA and
its agencies face.

To identify Departmental challenges, we routinely examine issued audit reports where corrective
actions have yet to be taken, assess ongoing investigative and audit work to identify significant
vulnerabilities, and analyze new programs and activities that could pose significant challenges due to
their range and complexity. We discussed our current challenges with USDA officials and considered
all comments received.

Last year we reported six major crosscutting challenges that we believed were the most significant
management issues facing USDA. This year we removed one management challenge, as well as
specific issues identified under three other challenges in recognition of the progress made or actions
taken by the agencies. We found that, generally, USDA’s response to the 2005 hurricanes was timely
and effective; therefore, we no longer consider it a management challenge. We have also incorporated
the challenge relating to genetically engineered organisms into a new global trade challenge and added
two additional challenges dealing with food safety and forest management. Unfortunately, because
expected progress did not materialize, Civil Rights has again been identified as a challenge for USDA.

In recognition of the actions taken by the agencies, the specific issues that will no longer be highlighted within
our challenges are beef exports to Japan (Interagency Communications), the need for strengthened program risk
assessments (Improper Payments), the development of an information system to track specified risk material
noncompliance (Homeland Security), and security and accountability of explosives and munitions (Homeland
Security). Further descriptions of actions taken on those issues no longer considered a Departmental challenge
are noted on pages 4-5 of this report.




                                                         221
                                     FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




Memorandum for the Secretary                                                                2



We look forward to working with the Department to address these management challenges. If you
have any questions or would like to discuss these issues, please contact me at (202) 720-8001, or have
a member of your staff contact either Mr. Robert W. Young, Assistant Inspector General for Audit, at
(202) 720-6945 or Ms. Karen Ellis, Assistant Inspector General for Investigations, at (202) 720-3306.

Attachment

cc:
Subcabinet Officials
Agency Administrators




                                                     222
                                 FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




                              OFFICE OF INSPECTOR GENERAL
                           MAJOR USDA MANAGEMENT CHALLENGES
                                       (August 2007)

Current Challenges - Synopsis

(1)    Interagency Communications, Coordination, and Program Integration Need Improvement
       − Integrate the information management systems used to implement the crop insurance, conservation,
           and farm programs.
       − Increase organizational communication and understanding among the agencies that administer the
           farm and conservation programs.

(2)    Implementation of Strong, Integrated Management Control (Internal Control) Systems Still
       Needed
       − Develop Rural Housing Service controls over administering disaster housing assistance programs
          to ensure aid is provided to those in need and to avoid duplication of benefits.
       − Strengthen quality control, publish sanction procedures, and perform required reconciliation in the
          Federal Crop Insurance Program.
       − Prepare complete, accurate financial statements without extensive manual procedures and
          adjustments.
       − Improve Forest Service internal controls and management accountability in order to effectively
          manage its resources, measure its progress towards goals and objectives, and accurately report its
          accomplishments.
       − Capitalize on Farm Service Agency compliance activities to improve program integrity.

(3)    Continuing Improvements Needed in Information Technology (IT) Security Agencies need to:
       − Emphasize security program planning and management oversight and monitoring.
       − Establish an internal control program throughout a system’s lifecycle.
       − Identify, test, and mitigate IT security vulnerabilities (risk assessments).
       − Improve access controls.
       − Implement appropriate application and system software change control.
       − Develop disaster contingency (service continuity) plans.
       − Address computing problems and mitigate the impact to users.

(4)    Implementation of Improper Payments Information Act Requirements Needs Improvement
       − Provide management oversight at all levels, programmatically within agencies and operationally at
          the State offices, in the improper payments elimination process.
       − Develop a supportable methodology/process to detect and estimate the extent of improper
          payments.
                                                                                                          1




                                                       223
                                   FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




      −   Continue efforts to coordinate with the Department of Homeland Security in implementing
          effective control systems to ensure the safety and security of agricultural products entering the
          country.
      −   Work with States in preparing for and handling avian influenza occurrences in live bird markets or
          other “off-farm” environments.
      −   Ensure animal disease surveillance testing protocols are based on emerging science.
      −   Continue to work with other USDA agencies to ensure effective coordination and implementation
          of Homeland Security Presidential Directive-9; e.g., develop animal and plant diagnostic and
          tracking networks.

(6)   Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
      − Develop a plan to process complaints timely and effectively.
      − Ensure integrity of complaint data in the system.
      − Develop procedures to control and monitor case file documentation and organization.

      NOTE: This issue was removed from the 2005 challenge list because a time-phased plan was
      developed to correct the weaknesses in Civil Rights management and complaint processing.
      However, expected improvements did not occur and material weaknesses continue to exist.

(7)   NEW CHALLENGE: USDA Needs To Develop a Proactive, Integrated Strategy To Assist
      American Producers To Meet the Global Trade Challenge
      − Continue to strengthen genetically engineered organism field testing controls to prevent inadvertent
        genetic mixing with agricultural crops for export.
      − Develop a global market strategy.
      − Strengthen trade promotion operations.

(8)   NEW CHALLENGE: Better Forest Service Management and Community Action Needed to
      Improve the Health of the National Forests and Reduce the Cost of Fighting Fires
      − Develop methods to improve forest health.
      − Establish criteria to reduce the threat of wildland fires.




                                                                                                           2




                                                      224
                                  FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




(9)   NEW CHALLENGE: Improved Controls Needed for Food Safety Inspection Systems
      −   Complete corrective actions on prior recommendations.
      −   Develop a time-phased plan to complete assessments of establishment food safety system control
          plans and production processes, including a review program that includes periodic reassessment.
      −   Develop a process to accumulate, review, and analyze all data available to assess the adequacy of
          food safety systems.
      −   Improve the accuracy of data available in the systems.
      −   Continue to develop and implement a strategy for hiring and training inspectors.




                                                                                                              3




                                                      225
                                  FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




Challenges Removed From the Fiscal Year 2006 List
One Departmental management challenge reported last year, Challenge 7 on the 2005 hurricane
season, was removed from this year’s list. Another, Challenge 6 on genetically engineered
organisms, was incorporated into the new Global Trade Challenge.

(Last Year’s Challenge 6) Departmentwide Efforts and Initiatives on Genetically Engineered Organisms
Need To Be Strengthened
In 2006, the United States was still the global leader in the number of acres grown with genetically
engineered (GE) crops – 135 million acres or 53 percent of the global biotech area. In 2006,
89 percent of the total soybean acreage in the United States was planted with GE crops; for corn,
61 percent of the total acreage was planted with GE crops. These two agricultural commodities
constitute a major part of the American agricultural commodities exported to other nations. One of
the significant challenges facing American agriculture is the refusal by many nations to import GE
crops due to the perceived health concerns involving the commodities. To add to this dilemma, in the
last few years, GE strains not yet approved for commercial production or sale either in the United
States or in importing nations were found in U.S. corn and rice crop productions, resulting in returned
shipments or lost sales. Because of the challenges posed by GE agricultural commodities on trade and
the economic risk of non-GE crops being exposed to GE strains, the Office of Inspector General
(OIG) will track the Department’s action on genetically engineered organism (GEO) field permits in
our new challenge on Global Trade because inadvertent exposure of GE traits to non-GE crops may
have significant adverse trade impact. For example, the recent incident of unapproved GE rice strains
in seeds for production impacted potential foreign markets worth around $247 million.

(Last Year’s Challenge 7) USDA’s Response to the 2005 Hurricanes Needs Ongoing Oversight
Since the hurricanes struck the Gulf Coast in September of 2005, OIG has performed audits and
conducted oversight monitoring of USDA’s response to the devastation caused by the hurricanes. We
have also conducted investigations of Government benefit fraud stemming from these disasters. OIG
initiated 15 audits in response to this effort, the first of which began on October 31, 2005. As of
August 1, 2007, six audit reports have been issued. The remaining audits and an overall assessment of
lessons learned as a result of the 2005 hurricane season are scheduled to be released by the end of
fiscal year (FY) 2007. These audits covered a myriad of agency programs providing assistance to
those areas impacted by Hurricanes Katrina, Rita, and Wilma. They address housing relief, disaster
food stamps, various producer disaster programs, controls over mission assignments, and conservation
concerns. We found that, generally, USDA’s response to the hurricanes was timely and effective. We
did, however, identify areas that can be improved in future disaster responses, such as developing
more comprehensive disaster plans, sharing data to avoid duplicate payments, and improving overall
coordination among the agencies and departments.

                                                                                                      4




                                                     226
                                 FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




There has also been some significant progress in addressing specific issues identified under the
following Departmental management challenges.

Challenge (1)—Interagency Communications, Coordination, and Program Integration Need
Improvement

Improve communication and strengthen controls for beef exported to Japan. Both the Agricultural
Marketing Service and the Food Safety and Inspection Service (FSIS) formulated and implemented
procedures and controls to address the 12 actions announced by the Secretary and the
recommendations made in our report to ensure compliance with the Beef Export Verification Program
for Japan. The actions taken by the Department resulted in the resumption of trade with Japan.

Challenge (4)—Implementation of Improper Payments Information Act Requirements Needs
Improvement

Strengthen program risk assessment methodology to identify and test the critical internal controls
over program payments totaling over $100 billion. During FY 2006, USDA completed risk
assessments for all programs. In addition, USDA is developing plans to measure improper payments
for all high-risk programs and receive Office of Management and Budget approval. USDA agencies
are in agreement with OIG’s findings and recommendations and corrective action plans are being
developed to reduce improper payments and establish both reduction and recovery targets for all high-
risk programs.

Challenge (5)—Departmental Efforts and Initiatives in Homeland Security Need To Be
Maintained

Develop an information system to better track noncompliance violations related to specified risk
materials. This challenge area was removed based on actions taken by FSIS in response to our review
of the controls over specified risk materials (SRM). FSIS developed and implemented an
enhancement to its Performance Based Inspection System that records noncompliance related to SRM
control requirements. FSIS began analyzing SRM noncompliance data in January 2006.

Improve security and accountability of explosives and munitions. This challenge area was removed
based on actions taken by the Forest Service (FS) in response to our followup review of security over
explosives and munitions. FS officials concurred with our findings and have initiated actions to
address previous open recommendations. FS has designated its Director of Safety and Occupational
Health as having responsibility for the overall safety and security of the FS’ explosives/munitions
program. OIG will continue to monitor FS’ progress in completing agreed-upon actions.


                                                                                                        5




                                                     227
                                 FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




CHALLENGE:            INTERAGENCY COMMUNICATIONS, COORDINATION, AND
                      PROGRAM INTEGRATION NEED IMPROVEMENT

SUMMARY: USDA’s work crosses jurisdictional lines within the Department and with other
Federal agencies. USDA’s challenge is to develop and foster a unified approach to accomplishing the
Department’s mission; the various agencies of the Department must understand and appreciate the
interrelationships of their programs and work together to create a unified and integrated system of
program administration that is greater than a simple totaling of the individual parts. Such an approach
would increase organizational communication and information sharing, thus streamlining operations,
reducing expenditures, and improving program efficiency, compliance, and integrity. This approach
would enable USDA to speak with one cohesive voice and realize its vision of being “recognized as a
dynamic organization that is able to efficiently provide the integrated program delivery needed to lead
a rapidly evolving food and agriculture system.”
OIG AUDIT/INVESTIGATION ACTIONS:
USDA Could Improve Crop Insurance, Conservation, and Farm Program Integrity and
Efficiency Through Integration of the Agencies’ Information Management Systems. The
Agricultural Risk Protection Act (ARPA) of 2000 requires the Farm Service Agency (FSA) and the
Risk Management Agency (RMA), beginning with the 2000 crop year, to annually reconcile data
received by the agencies from producers. In our September 2003 report on the implementation of
ARPA, we reported that Departmental data reconciliation efforts on the 2001 crop data were
effectively negated by the hundreds of thousands of disparate records that were identified between the
two agencies. Differences in the agencies’ definitions of basic terms, such as “producer” vs. “insured”
and “farm” vs. “unit,” hamper any data reconciliation as well as data sharing. To date the agencies
have been unable to complete the legislatively mandated data reconciliation for a single year.
Since ARPA was enacted, section 10706 of the Farm Security and Rural Investment Act of 2002
directed the Secretary of Agriculture to develop a comprehensive information management system
(CIMS) to be used in implementing the programs administered by RMA and FSA. Under section
10706, all current RMA and FSA information is to be combined, reconciled, redefined, and
reformatted in such a manner that the agencies can use the information management system. It was
the sense of Congress that CIMS would lay valuable groundwork for further modernization of
information technology systems of USDA agencies in the future and for the incorporation of those
systems into CIMS.
Since 1998, FSA’s ad hoc crop disaster programs (CDP) have been predicated on crop production
data that is managed by RMA and downloaded to FSA. OIG’s audits of the 1998-2002 CDPs have
shown that FSA and RMA need to reconcile and redefine their data to better meet the needs of FSA in
the administration of the CDPs. FSA and RMA are beginning to address inconsistencies in their data
in the CIMS project. Specifically, our audits of CDP have disclosed instances in which improper
payments occurred because data downloaded from RMA were not properly interpreted or used by
FSA. In addition, FSA’s 2005 Hurricane Indemnity

                                                                                                      6




                                                     228
                                 FY 2007 Performance and Accountability Report
                                     OTHER ACCOMPANYING INFORMATION




Program (HIP), implemented in FY 2006, relied in part upon data provided by RMA: eligible
producers who received a crop insurance indemnity for crop losses suffered due to the 2005
hurricanes were eligible to receive HIP benefits equal to 30 percent of the crop insurance indemnity.
(Note: HIP also provided benefits to producers who received FSA Noninsured Crop Disaster
Assistance Program payments for production losses due to the hurricanes.) The necessary RMA data
files for administering HIP were downloaded weekly to FSA. Since RMA data may change due to
updated information, FSA manually generated periodic discrepancy reports to identify RMA data that
no longer matched HIP data. The question remains as to how FSA will identify and handle such
“mismatches” where RMA changes data after FSA has discontinued the RMA downloads1. If RMA’s
and FSA’s systems were integrated, the downloads of data from RMA to FSA would be unnecessary;
data necessary to properly administer the programs would be available in real time and with reduced
risk of improper payment. In addition, more than just the crop insurance and disaster programs would
benefit from such an integrated system—for example, production data in the system could also be
used to determine whether quantities reported by producers for FSA price support program purposes
were reasonable.
USDA Could Reduce Improper Payments in Conservation and Farm Programs Through
Improved Coordination Between Agencies. The Natural Resources Conservation Service (NRCS)
purchases conservation easements on land in association with its conservation programs, while FSA
provides farm subsidy payments on crop base acres under its Direct and Counter-Cyclical Payment
Program (DCP). Producers are generally prohibited from receiving payments for both DCP and
conservation easement on the same piece of ground.
In our August 2005 audit of NRCS’ Wetland Reserve Program (WRP), we found that, even though
the law required the owners and operators of land subject to WRP conservation easements to agree to
the permanent retirement of any existing crop base acres for such land under any USDA program,
NRCS occasionally purchased easements on land with base acres without ensuring that landowners
permanently retire that base for FSA’s programs. NRCS had not issued any instructions requiring
landowners to notify FSA to retire federally purchased crop base. In addition, we found that NRCS
did not consistently notify FSA of conservation easements purchased. In reaching management
decision, NRCS and FSA agreed to work together to develop mutually agreeable procedures to
overcome these deficiencies. They anticipated achieving final action by September 2005. In an
ongoing audit of crop bases on land with conservation easements in California, we continue to find
examples where NRCS did not consistently notify FSA of a variety of conservation easements
purchased. In 33 of the 53 WRP and Emergency Watershed Protection Program easements reviewed,
FSA made $1.3 million in improper farm subsidy payments for crop bases on easement-encumbered
lands. We have discussed this issue with both agencies. Because of weaknesses in interagency
communication and program integration, USDA both compensated the producers for the value of the
base acres under conservation programs and issued farm program payments on the base acres to the
producers under the DCP. The need for a more collaborative approach to the programs and better
coordination between NRCS and FSA becomes more critical as Congress enacts more
1
  The last RMA download for HIP was initially scheduled for May 7, 2007, but was subsequently extended to continue
indefinitely when, as a result of our audit of HIP, reinsurance companies began reviewing and, in some cases,
removing/correcting the causes of loss that made the crops eligible under HIP.
                                                                                                                     7




                                                          229
                                      FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




conservation programs in lieu of farm subsidies. Improved interagency communication and
understanding of the linkages, interactions, and processes between the agencies and their programs
will reduce instances in which one agency’s action adversely affects the other’s programs.
DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: RMA and FSA established a
working group to develop CIMS, which will combine the agencies’ separate program data (e.g.,
acreage, type of crop, producer, past claims, etc.). In addition to developing an integrated
comprehensive information management system, this effort includes redefining data common to, and
needed by, both agencies and data unique to each agency and developing a common format for such
data. In January 2004, USDA awarded a contract to assist in the development of CIMS. The first
component of CIMS to be developed is a database that contains select RMA and FSA data. This
component will enable agency management, FSA county offices, RMA compliance and regional
offices, approved insurance providers, company approved agents, and loss adjusters to access
applicable producer information and crop acreage information from a single source. Users may then
generate discrepancy and discovery reports of differences in RMA and FSA crop acreage data. RMA
reports that, since July 2006, CIMS weekly has been loading selected RMA and FSA data. According
to RMA, the system currently provides RMA and FSA electronic access to a centralized source of
some common information and compares and identifies any differences in business entity types and
acreage reported by a producer to both RMA and FSA. FSA has provided access to only its national
office and a select few State and county offices to test applications. FSA State and county office
employees will be granted access once the applications have been tested and a policy has been issued
for CIMS. Approved insurance providers will have access to the system once the applicable System
of Records is published, and, in the long term, NRCS will be invited to participate in CIMS. The
success of this effort critically depends on a unified, integrated approach to program administration,
information collection, and systems development.
In response to our WRP audit, NRCS and FSA agreed to correct agency-specific findings and
establish a working group to identify and remove all impairments that have prevented them from
ensuring that landowners permanently reduce their existing crop base acres where appropriate. All
parties agreed that these actions, when completed, along with implementation of the other
recommendations, would significantly strengthen the program. NRCS and FSA both reported the
working group created a mutually agreeable process, complete with forms and a clear delineation of
responsibilities. On February 22, 2006, NRCS issued Circular 31, which, in addition to modifying
real estate appraisal instructions, also mandated NRCS staff secure from the landowner a completed
FSA form used to reduce crop base. On August 4, 2006, FSA, in consultation with NRCS, issued an
amendment to its permanent directives regarding the reduction of base acres and when it was to occur.
In addition to the FSA internal distribution, NRCS transmitted the FSA amendment (1-DCP,
Amendment 38) to all the NRCS State offices for immediate coordination. Moreover, in a March
2007 conference call that included the FSA and NRCS National and State offices, it was reiterated
that each agency should share with the other information about jointly administered programs. During
the call, NRCS agreed to provide to the FSA national office NRCS National Bulletins that affect work
with FSA. The FSA national office will, in turn, provide the NRCS Bulletins to FSA county offices through
FSA Common Management Notices. While issuance and sharing of procedures are positive steps,
                                                                                                       8




                                                      230
                                  FY 2007 Performance and Accountability Report
                                  OTHER ACCOMPANYING INFORMATION




both NRCS and FSA need to assure communication and coordination are implemented at their field
office locations.

ACTIONS NEEDED TO ADDRESS THE CHALLENGE: Top Departmental leadership is critical
to effecting the cultural changes necessary to the success of a unified approach to USDA program
administration. The Department must foster improved interagency communication and data sharing in
order to increase efficiency and to preclude the agencies from inadvertently working at odds with one
another.

Farm Programs. To preclude errors and irregularities in one program from impacting program
payments in another:

   •   RMA, FSA, and NRCS should implement a comprehensive information management system to better
       share program data and eliminate duplicate reporting by producers.
   •   RMA and FSA should implement a more effective data reconciliation process, as mandated by ARPA.
       Even if a comprehensive information management system is implemented, validity checks, i.e., data
       reconciliation, should be employed in that system, to the extent practicable, to identify apparent
       discrepancies in related data; and steps should be taken to resolve such discrepancies.
   •   RMA, FSA, and NRCS should incorporate data mining techniques up front in the design of software
       used for program administration to detect data anomalies and potential improper payments. (Through
       data mining RMA has estimated $487 million in potential savings from crop year 2001 through crop
       year 2006. In 2006, to better identify fraud, waste, and abuse in the crop insurance program, FSA
       began sharing with RMA information on policyholders’ ownership interests. However, the agencies
       temporarily have since stopped sharing this information while issues related to producer privacy are
       resolved. NRCS could also benefit from data mining in its direct administration of conservation
       programs.)
   •   NRCS and FSA should continue to integrate interagency communication and coordination in its
       program activities to ensure one agency’s actions do not adversely affect the other agency’s programs.




                                                                                                                9




                                                       231
                                   FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




CHALLENGE:             IMPLEMENTATION OF STRONG, INTEGRATED MANAGEMENT
                       CONTROL (INTERNAL CONTROL) SYSTEMS STILL NEEDED

SUMMARY: Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, was revised and became effective in FY 2006. The circular
requires that agencies and individual Federal managers take systematic and proactive measures to
develop and implement appropriate, cost-effective internal controls. USDA agencies have a history of
reacting to individual control issues rather than addressing the overall weaknesses of their internal
control systems. Some of the internal control weaknesses identified by OIG and discussed below are
specific to individual agencies, while others represent Departmentwide weaknesses.
Rural Housing Service Needs To Improve Controls Over Housing Assistance Provided to
Victims of National Disasters. We reviewed the Rural Housing Service’s (RHS) response to
Hurricanes Katrina and Rita and found that the agency needed to improve controls over the disaster
assistance it was providing victims. We reviewed the assistance the agency provided through both its
multifamily and single-family housing programs. While the agency should be commended for its
quick response to these disasters, we found that the agency lacked internal controls to address the
assistance it provides for major disasters. As a result of these weaknesses, we found cases where
victims participating in the multifamily housing program received duplicate aid from multiple sources,
including other Federal agencies and private charitable organizations. We also found cases in the
single-family housing program where Rural Development (RD) was funding repairs to residences that
were not related to hurricane damage. Since the funding RD receives for disasters is limited, it is
critical RD provide funds to only those victims that were adversely impacted by the disaster. We
noted in our audit of funds provided for single-family housing that sufficient funds were not available
to fund all victims’ requests.
Long-standing Issues Remain Uncorrected in Federal Crop Insurance Programs Regarding
Quality Control Issues, Sanctions, and Reconciliation of Data. For the 2006 crop year, indemnity
payments totaled approximately $3.4 billion, and Government subsidies of insurance premiums
totaled approximately $2.7 billion. To ensure quality and integrity in its programs, RMA relies on a
number of complementary and/or independent control systems; these include quality control (QC)
reviews by the approved insurance companies (AIP) and compliance activities by its own staff. Our
audits and investigations have reported the need for RMA to strengthen its quality assurance and
compliance activities to ensure compliance with program requirements. We have found through our
audits and investigations that there is no reliable QC review system to evaluate private sector delivery
of the Federal Crop Insurance Programs. As part of ARPA, RMA was provided expanded sanction
authority for program noncompliance and fraud. Sanctions include civil fines; producer
disqualification for up to 5 years; and disqualification of other persons (agent, loss adjuster, AIP) for
up to 5 years. Although RMA has utilized sanctions to a limited degree, it has not issued a final rule
on its expanded sanction authority. (However, RMA did issue a proposed rule on May 18, 2007, and
the comment period closed on June 18, 2007.) Also, beginning with the 2001 crop year, ARPA


                                                                                                       10




                                                      232
                                  FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




required that RMA and FSA reconcile producer-derived information at least annually in order to
identify and address any discrepancies. RMA has not attempted to performed this reconciliation of
RMA and FSA data since crop year 2001. RMA believes that the development of CIMS, jointly with
FSA, will meet the reconciliation requirements of ARPA.However, CIMS will not assist RMA in
reconciling data from the 2001 crop year until CIMS is fully implemented, which is expected in 2012.
Agencies Need To Improve Their Response to Audit Recommendations. USDA agencies need to
improve their timeliness in developing and implementing corrective action plans in response to audit
recommendations. As of August 1, 2007, there were 23 audit reports where OIG and the agencies had
not reached management decision on the actions necessary to address the recommendations within the
required 6-month time period. In addition, there were approximately 120 audits where agencies had
not completed final action within 1 year of agreeing to implement corrective actions. Also, as of
August 1, 2007, the U.S. Government Accountability Office’s (GAO) Website lists 74 audits with
open recommendations for USDA. This includes 11 audits released in FY 2007 and 63 in prior years,
with the oldest GAO audit being open since FY 2002. Developing and implementing effective
corrective actions in response to audit recommendations is a key component to enhancing agency
internal control systems. Many OIG and GAO findings deal directly with weaknesses in agencies’
internal control structures.
Improved Controls Needed Over USDA Financial Processes. Although the Department has obtained
unqualified audit opinions for 4 consecutive years, control weaknesses continue to impair the utility of
the financial information reported. For example, OIG identified three reportable conditions, two of
which—(1) needed improvements in overall financial management across USDA and (2) needed
improvements in information technology security—were significant enough to warrant being reported
as material weaknesses for the Department. Furthermore, agency stand alone financial audits
identified 6 material weaknesses and 16 reportable conditions. Although significant improvements
have been made in this area, it nonetheless continues to represent a management challenge to the
Department.
Forest Service Needs Improvement in Policy, Process, and Internal Control Issues. Management
issues within FS have proven resistant to change. We attribute part of this to the agency’s
decentralized management structure. The agency delegates broad authority to its field units (regions,
forests, and ranger districts) without having an adequate system of internal controls to ensure policies
established by top management are followed. The use and accuracy of performance management
information is severely limited. The usefulness of performance measures and the accuracy of
reporting processes within FS are often flawed. This lack of timely and accurate information deprives
FS management of tools needed to effectively measure the direction and progress of the agency. It
also prevents oversight bodies and the public from being able to make informed decisions regarding
the agency. These conclusions are based upon findings in OIG and GAO reports with which FS has
concurred.
Another internal control issue discovered through OIG work is the need for FS to have better controls
to ensure adequate oversight of national firefighting contract crews. Specific issues identified
included the lack of adequate controls to monitor and ensure oversight in training
                                                                                                      11




                                                      233
                                  FY 2007 Performance and Accountability Report
                                  OTHER ACCOMPANYING INFORMATION




continuity—ensuring adequate training of contract firefighters—and administration of vendors (i.e.,
vendors using illegal workers on the firefighting crews who may have language barriers), as well as
contract crew member qualifications.

FSA Needs To Use the Results of Its Compliance Reviews To Improve Internal Controls. Our
audit of FSA compliance activities showed FSA generally does not capture or analyze the results of its
various compliance and internal review activities to identify program weaknesses. Most of FSA’s
compliance review results were not communicated beyond the individual FSA county offices that
performed the reviews. FSA at the national level should collect and analyze the review results to (1)
identify program weaknesses that FSA can remedy to preclude future improper payments and (2)
identify systemic noncompliance trends and direct its limited compliance resources to known problem
areas.

OIG AUDIT/INVESTIGATION ACTIONS: OIG has taken specific actions to assist Departmental
agencies in improving the overall management control structure.

   •   OIG audit work has identified weaknesses in RHS internal controls when the agency is providing
       assistance during national disasters. Events of this magnitude provide significant challenges for the
       agency both in providing assistance to victims as well as ensuring only those individuals impacted by
       the disasters receive the assistance. We are working with RHS to identify internal control processes
       that can ensure that victims of disasters receive the appropriate level of assistance.
   •   Our audit work has disclosed that RMA lacks an effective quality control review system to evaluate
       private sector delivery of the Federal Crop Insurance Program. We have an ongoing audit to evaluate
       RMA’s overall compliance activities. Additionally, through our investigative work, we will continue
       to address allegations of fraudulent schemes by insurance agents and adjusters.
   •   OIG continues to work with USDA agencies to reach management decision on actions needed to
       address our audit recommendations. One of our primary goals is to ensure that the actions that are
       agreed to by the agency and OIG are achievable within the required 1-year period.
   •   We continue to focus our audits on the management control structure within FS. OIG audits, along
       with those from GAO and special reviews from outside contractors, find FS management has not
       implemented effective corrective action on reported problems. Some of these issues have been
       reported in multiple reports for over a decade, but their solutions are still in the study and evaluation
       process by FS. We plan to conduct an audit of the overall structure of FS management control systems.
       We hope to begin this work in FY 2007, depending on other priorities.
DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: Some of the actions being taken
by the Department and USDA agencies to address management control weaknesses include the
following.


                                                                                                             12




                                                       234
                                   FY 2007 Performance and Accountability Report
                                  OTHER ACCOMPANYING INFORMATION




   •   RD is actively engaged in discussions with the Federal Emergency Management Agency and other
       departments to develop working agreements in providing housing assistance to disaster victims to
       prevent and detect duplicate payments. RD is also developing procedures to monitor field office
       actions following disasters.
   •   RMA has begun conducting AIP operations reviews to develop a “rolling” Program Error Rate. RMA
       plans to complete a review of all participating AIPs once every 3 years. These operational reviews are
       to assess the company’s compliance with Appendix IV (quality control) and other provisions in the
       Standard Reinsurance Agreement. The review guide has been developed, and the first round of these
       national operations reviews has been completed for the 2004 reinsurance year.
   •   USDA has continued to strengthen its financial management process. The Office of the Chief
       Financial Officer (OCFO) has worked closely with the agencies to improve control measures to
       mitigate errors in financial data and to improve the Department’s financial systems.
   •   FS has reemphasized its management review process to assess its operations and provide management
       with information on how the agency’s internal controls are operating. The size and complexity of the
       FS operation will require a long-term commitment by agency management.
   •   In response to our compliance audit, FSA formed a task force in August 2005 to examine its
       compliance activities. As part of its duties, the FSA compliance task force will make recommendations
       on how FSA can use the results of its compliance reviews to strengthen internal controls.
ACTIONS NEEDED TO ADDRESS THE CHALLENGE: RD needs to complete working
agreements with other agencies that provide disaster response and relief. It also needs to complete
new RD procedures to monitor and control assistance in response to disasters. RMA needs to
continue its effort to establish a consistent and comprehensive QC process for all reinsured
companies, including a system to evaluate the overall effectiveness and reliability of QC reviews
performed by the companies. USDA and its agencies need to ensure that their proposed management
actions address audit recommendations and are structured so that they can be achieved within
reasonable timeframes. USDA agencies need to continue to improve their financial systems with the
goal that the financial information produced by these systems will allow them to prepare complete,
accurate financial statements without extensive manual procedures and adjustments. FS needs to
improve its management controls in order to effectively manage its resources, measure its progress
towards goals and objectives, and accurately report its accomplishments. FSA needs to implement
policies and procedures to analyze its compliance review results and use those results to identify
program weaknesses and improve the corresponding systems of internal controls.




                                                                                                           13




                                                       235
                                   FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




CHALLENGE:            CONTINUING IMPROVEMENTS NEEDED IN INFORMATION
                      TECHNOLOGY SECURITY

SUMMARY: Like most entities throughout the Federal government, securing USDA’s vast array of
networks and information technology (IT) resources is a major challenge coupled with significant risk.
USDA depends on IT to efficiently and effectively deliver its programs and provide meaningful and
reliable financial reporting. Despite progress, the Department’s systems and networks continue to be
vulnerable. Furthermore, since FY 2003, the Department has consistently obtained a grade of “F” on
the Report Card on Computer Security at Federal Departments and Agencies published by the House
Committee on Oversight and Government Reform. Audits of the Department’s systems have
continued to identify weaknesses that could seriously jeopardize operations and compromise the
confidentiality, integrity, or availability of sensitive information.

OIG AUDIT/INVESTIGATION ACTIONS: OIG continues to conduct IT security audits to
monitor agencies’ compliance with Federal mandates as well as perform investigations of IT security
breaches involving such activities as IT intrusions and equipment thefts. Our audits of compliance
with the Federal Information Security Management Act, lost and stolen computers, and Office of the
Chief Information Officer (OCIO) IT General Controls have found that, despite strong guidance
provided by the OCIO, agencies’ implementation of IT security requirements continues to be
problematic. We found inaccurate systems inventories; inadequate security plans, disaster recovery
plans, and risk assessments; noncompliance with certification and accreditation requirements;
inadequate change and patch management and nonperformance of vulnerability scans. Most recently,
Departmental servers containing personal identity information in one agency were compromised
through hacker intrusion. Although agencies have accelerated efforts to comply with Federal
information security requirements, IT management and security continues to be a material weakness
within USDA.

DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: According to USDA’s OCIO,
significant accomplishments to address IT security have been implemented. These accomplishments
include an increased management focus via a newly implemented security program scorecard,
improved information systems and information technology inventories, improved plan of action and
milestone processes, automated information systems risk categorization, system and program reviews,
and other actions.

ACTIONS NEEDED TO ADDRESS THE CHALLENGE: Agency-level managers should
continue to consider IT security a top priority and display greater commitment and attention to
assuring compliance with federally mandated IT security requirements to reduce the level of
vulnerability. Specifically, agencies need to ensure that the requirements of OMB
Circular No. A-130, Management of Federal Information Resources, are fully met.
                                                                                                   14




                                                     236
                                 FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




CHALLENGE:            IMPLEMENTATION OF IMPROPER PAYMENTS INFORMATION
                      ACT REQUIREMENTS NEEDS IMPROVEMENT

SUMMARY: USDA still faces many challenges in implementing the Improper Payments
Information Act (IPIA) of 2002. The Act requires agency heads to annually review all programs and
activities that they administer and identify those that may be susceptible to significant improper
payments. If the estimate exceeds $10 million, agencies are to report the causes of the improper
payments and corrective actions taken. In FY 2005, eliminating improper payments became a
President’s Management Agenda initiative. On August 10, 2006, Governmentwide guidance was
consolidated into OMB Circular No. A-123, Management’s Responsibility for Internal Control,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments.
Within USDA, OCFO is designated as the lead agency for coordinating and reporting the
Department’s efforts to implement IPIA. For FY 2007, OCFO has designated compliance with IPIA
as a top priority. OIG considers this to be a major challenge for USDA because of the number and
complexity of USDA programs and activities that meet the Act’s criteria.

OIG AUDIT/INVESTIGATION ACTIONS: During FY 2006, OIG initiated audits of FSA, FS,
RHS, and NRCS efforts to quantify improper payment error rates for high-risk programs and
establishment of related corrective actions. The audits revealed significant findings relating to
compliance with IPIA. For example, OIG determined that valid statistical samples had not been
performed and that improper payments reported in FY 2005 were not properly calculated. Similarly,
OIG found that estimated improper payments reported in FY 2005 did not always include payments
made to ineligible recipients. Furthermore, OIG felt that the corrective actions were too narrow in
scope and ineffective in addressing previously reported findings. Lastly, OIG identified one audited
agency that did not have a process in place for recovering improper payments. In response to these
findings, OIG recommended that agency officials need to develop and implement controls to ensure
statistical sampling processes comply with all OMB and OCFO requirements. This includes using the
entire universe, reviewing all payments selected, accounting for payment variables, and maintaining
documentation to support results reported in the Performance and Accountability Report (PAR). In
addition, agencies should include a quality assurance review of its sampling design, second-party
reviews of data accumulated for the sampling process, and sampling guidance.

OIG investigations have identified millions of dollars of benefits obtained fraudulently in some of the
Department’s largest programs. Such programs include the food stamp, FSA loan, crop insurance,
and rural development programs. Over the past 5 fiscal years, our investigations led to total monetary
results of $635 million, of which $443 million was restitution ordered by courts to repay the amount
of losses directly due to criminal activity. The focus of our investigations is on specific subjects and
specific allegations of criminal violations. Thus, the results achieved in individual investigations
pertain directly to individuals, rather than identifying broad agencywide problems in benefit delivery.
However, our investigative findings assist in identifying problem areas, such as common schemes
used to obtain undeserved payments.
                                                                                                      15




                                                      237
                                  FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




For FY 2007, OIG is conducting an audit of FSA with the objective of evaluating the criteria used to
identify improper payments and the statistical process used to select and estimate the extent of
improper payments. Additionally, OIG plans to assess FSA’s corrective actions for its improper
payments.

DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: In FY 2006, USDA
consolidated small and similar programs for improved focus in the risk assessment process. This
consolidation caused USDA to move from 286 programs in FY 2005 to 146 programs in FY 2006.
USDA’s FY 2006 sampling identified that the Department had an estimated $7.05 billion of improper
payments. USDA has identified 15 programs susceptible to improper payments, which is an increase
from 13 programs identified in FY 2005.

During FY 2006, USDA completed risk assessments for all programs. Also, USDA is in the process
of developing plans to measure improper payments for all high risk programs and receiving OMB
approval. Corrective action plans are being developed to reduce improper payments and establish
both reduction and recovery targets for all high-risk programs. The Department is working towards
fully complying with reporting standards, including reporting component error rates for the first time
for three Food and Nutrition Service programs (National School Lunch and School Breakfast
Programs and the Special Supplemental Nutrition Program for Woman, Infants, and Children) and
reporting statistical error rates for four newly declared high-risk programs administered under FSA’s
Commodity Credit Corporation. These four programs are the Direct and Counter Cyclical Payments
Program, Conservation Reserve Program, Disaster Assistance Programs, and Noninsured Crop
Disaster Assistance Programs.

ACTIONS NEEDED TO ADDRESS THE CHALLENGE: Major challenges remain for USDA in
meeting the goals of the IPIA and ultimately improving the integrity of payments. USDA agencies
need to continue to implement and fully follow the requirements of OMB and OCFO’s revised
direction. Analyses of the internal control structure of all major programs must be performed, and
weaknesses that could create vulnerabilities for improper payments need to be identified and
remedied. Due to the breadth and complexity of the undertaking, successful implementation of the
IPIA poses a significant management challenge to the Department.




                                                                                                     16




                                                      238
                                  FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




CHALLENGE:             DEPARTMENTAL EFFORTS AND INITIATIVES IN HOMELAND
                       SECURITY NEED TO BE MAINTAINED

SUMMARY: Continuing concern about potential terrorist threats have added a new dimension to
USDA’s missions and priorities—in particular, its missions to ensure the safety and abundance of the
Nation’s food supply from the farm to the table and to protect the health of American agriculture from
the introduction of foreign animal and plant pests and diseases. The National Strategy for Homeland
Security provides a framework for prioritizing the use of Federal resources based on the highest
threats and risks. Critical mission areas are defined as intelligence and warning, border and
transportation security, domestic counterterrorism, protecting critical infrastructure and key assets,
defending against catastrophic threats, and emergency preparedness and response.
For FY 2007 the USDA homeland security missions were funded at over $536 million. The USDA
Homeland Security Office (HSO) and agencies concentrate on selected areas called the Food and
Agriculture Defense Initiative. For FY 2007, the initiative was funded at $28.9 million for food
defense and $156.6 million for agriculture defense. Many of these initiatives were mandated under
the Public Health and Bioterrrorism Preparedness and Response Act of 2002; for example, enhancing
the capability to respond in a timely manner to bioterrorist threats to the food and agricultural system
and developing an agricultural bioterrorism early warning surveillance system.
USDA agencies must continue to work together to develop a better understanding of changing risks
and threats. USDA must continue to foster effective coordination and communication across agency
and other Department lines to ensure effective implementation of ongoing and future homeland
security initiatives. For example, the Department is coordinating and monitoring efforts to implement
the animal and plant disease diagnostic and reporting networks required by Homeland Security
Presidential Directive-9.
OIG AUDIT/INVESTIGATION ACTIONS: Building on its earlier progress, USDA must continue
its efforts to identify its assets, conduct thorough security risk assessments, and establish appropriate
safeguards to prevent or detect deliberate acts to contaminate the food supply, disrupt or destroy
American agriculture, or harm U.S. citizens. At the same time, USDA and the Department of
Homeland Security (DHS) must continue to address weaknesses in their border inspection activities to
guard against the unintentional introduction of pests, diseases, and contaminants on imported
products.
Commodity Inventories. In our February 2004 audit of homeland security issues regarding USDA
commodity inventories, OIG reported that FSA needs to conduct vulnerability and risk assessments to
determine the appropriate levels of protection for these agricultural commodities. We also reported
that FSA needs to formulate clear directions on food safety and security for the commodities that it
manages, handles, transports, stores, and distributes. Although FSA agreed with our
recommendations, preliminary resource and budgetary constraints delayed actions to address this
concern.

                                                                                                      17




                                                      239
                                  FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




Select Agents and Toxins. In January 2006, OIG issued an audit of the Animal and Plant Health
Inspection Service’s (APHIS) implementation of the Agricultural Bioterrorism Protection Act of
2002, which provides for the regulation of agents and toxins that could pose a severe threat to animal
and plant health or to animal and plant products. We reported that APHIS had not ensured that
entities were fully complying with regulations regarding security plans; restricting access to select
agents or toxins; training individuals authorized to possess, use, or transfer select agents or toxins; and
maintaining current and accurate inventories.

Agriculture Quarantine Inspection Activities. OIG audits conducted prior to the transfer of APHIS
inspection duties to DHS disclosed serious control weaknesses at American borders or ports of entry
for agriculture and other food products. Although the inspection function at borders and ports of entry
was transferred to DHS, APHIS retains functions such as quarantine, risk analysis, destruction and
re-exportation, user fees, and adjudication of violations. USDA-OIG and DHS-OIG issued a report in
February 2007, which assessed how well U.S. Customs and Border Protection (CBP) communicated
and cooperated with USDA on issues relating to agricultural inspection policies and procedures,
complied with established procedures for agricultural inspections of passengers and cargo, and
accurately tracked agricultural inspection activities. The audit also reviewed whether CBP had taken
corrective action on USDA-OIG issues reported on prior to the transition of the responsibilities to
CBP. We were able to resolve many of the prior issues/recommendations; however, we found other
issues had not been fully addressed.

In May 2006, GAO reported that CBP and APHIS continue to experience difficulty sharing
information such as key policy changes and urgent inspection alerts. GAO recommended that DHS
and USDA work together to establish processes and procedures for sharing urgent information,
assessing inspection effectiveness, and identifying major risks posed by foreign pests and diseases at
ports of entry. GAO also recommended developing and implementing a national staffing model to
ensure that agriculture staffing levels at each port are sufficient to meet those risks.

Avian Influenza. In our June 2006 review of APHIS’ oversight of avian influenza (AI), we
concluded that APHIS has made commendable progress in developing plans and establishing the
networks necessary to prepare for, and respond to, outbreaks of AI.

With regard to its National AI Preparedness and Response Plan (Response Plan), we reported that
APHIS needed to provide additional guidance on preparing and responding to highly pathogenic AI
(HPAI) or notifiable AI outbreaks in live bird markets or other “off farm” environments. Also,
APHIS needed to finalize interagency coordination on the process and procedures for notifying
owners of susceptible animals of the current infectivity risks, and the necessary protective actions they
should take when an outbreak of AI occurs. In its response, APHIS described a number of initiatives
planned and in-process to address our concerns.

                                                                                                        18




                                                       240
                                   FY 2007 Performance and Accountability Report
                                  OTHER ACCOMPANYING INFORMATION




DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: Currently, as stated in the FY
2006 PAR, the Departmental efforts and initiatives in Homeland Security include:
   •   hosting bi-weekly homeland security discussions with mission area representatives;
   •   requiring bi-weekly updates on homeland security projects from component agencies and quarterly
       status reports on Homeland Security Presidential Directive-9 tasks from mission areas;
   •   conducting risk assessments to determine appropriate levels of security needed for USDA-owned
       agricultural commodities; and
   •   analyzing risk assessment findings and identifying changes needed to existing policies and procedures.
In response to our select agent audit, APHIS coordinated with the Department of Health and Human
Service’s (HHS) Centers for Disease Control and Prevention to develop and implement procedures to
share responsibilities for inspecting registered entities handling agents. APHIS established formal
procedures for performing security inspections at the registered entities to ensure that the inspections
are consistent and thorough. APHIS is requiring that its inspections of registered entities in
possession of select agents verify that these entities base their security plans on a site-specific risk
analysis and address all critical areas identified in the regulations.

In response to the President’s National Strategy for Pandemic Influenza, APHIS developed its
Response Plan to address the threat of AI. APHIS has characterized it as a “living document,” subject
to revision, that establishes a comprehensive approach to the management of an outbreak of HPAI on
a large commercial poultry operation. APHIS is also coordinating and establishing AI surveillance
networks with other Federal, State, and private entities. APHIS is working with Federal and State
cooperators in developing strategies for monitoring migratory birds, as well as working internationally
to provide outreach, education, and technical assistance. APHIS clarified actions that employees
should take in obtaining and administering necessary vaccines and anti-virals in the event that a
culling operation for HPAI occurs. APHIS has performed and documented an analysis that identifies
gaps in sampling surveillance. APHIS issued the National Avian Influenza Surveillance Plan, dated
June 29, 2007, which included goals, objectives, case definitions, data collection and analysis
methodologies, reporting of surveillance results, and assessment of surveillance programs.

In response to our review of homeland security issues pertaining to USDA commodity inventories,
FSA generally agreed with our recommendations and agreed to work with HSO to complete risk and
vulnerability assessments and to develop appropriate guidelines and procedures. However, actions
were delayed as FSA initially sought to hire a contractor to guide FSA through the risk assessment
process, but was unable to obtain funding. To assist in protecting the Nation’s food supply, the
Federal Bureau of Investigation (FBI), DHS, USDA, and Food and Drug Administration (FDA) have
since developed a joint assessment program, the Strategic Partnership Protection Agroterrorism
(SPPA) Initiative. The purpose of this initiative is to conduct a series of assessments of the food and
agricultural sector in collaboration with private industry and State volunteers.
                                                                                                           19




                                                       241
                                   FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




Together with the FBI, DHS, FDA, and other USDA agencies, FSA will participate in a
summer 2007, SPPA grain facility risk assessment. The assessment will identify vulnerabilities and
develop corrective measures for the handling and storage of agricultural commodities. FSA has also
tentatively scheduled for the fall of 2007, a second SPPA facility risk assessment that would address
certain processed commodities that FSA and the Commodity Credit Corporation purchase and store
for the Food and Nutrition Service and the Agricultural Marketing Service. According to FSA, for
both SPPA risk assessments, HSO has requested FSA to facilitate and lead the group discussions.
Where applicable, FSA plans to use the results of the risk assessments in responding to the audit
recommendations.

ACTIONS NEEDED TO ADDRESS THE CHALLENGE:
Commodity Inventories. FSA needs to complete its planned risk and vulnerability assessments of
grain and commodity storage facilities and use the results of such assessments to develop guidelines
and procedures to protect commodity inventories.

Select Agents and Toxins. APHIS needs to implement its new procedures for inspecting registered
entities in possession of select agents and verify that these entities conduct and document annual
performance tests of their security plans; and update those plans based on the results of performance
tests, drills, or exercises. APHIS also needs to verify that adequate security is maintained over select
agent inventories. Registered entities need to be re-inspected to ensure compliance with regulations,
using formal written procedures to ensure that the inspections are consistent and thorough.

Agriculture Quarantine and Inspection Activities. USDA and DHS need to work together to
strengthen controls and communication, develop the necessary processes and procedures to assess
inspection effectiveness, and identify major risks posed by foreign pests and diseases at ports of entry.
Also, staffing models need to be developed to address those risks.

AI Surveillance Activities. APHIS needs to revise its Response Plan to include detailed instructions
for handling HPAI occurrences in live bird market systems and other “off-farm” environments. In
addition, APHIS needs to coordinate with other USDA agencies and States to develop and formalize
producer notification and action procedures when an outbreak of AI occurs, to include identification
of the roles and responsibilities of personnel involved, specific timeframes for action, and linkage to
the Standard Operating Procedures set forth in the Response Plan.




                                                                                                       20




                                                      242
                                  FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




CHALLENGE:            MATERIAL WEAKNESSES CONTINUE TO PERSIST IN CIVIL
                      RIGHTS CONTROL STRUCTURE AND ENVIRONMENT (Reinstated
                      Challenge)

SUMMARY: In 2005, OIG removed the challenge for Civil Rights (CR) from the list of
management challenges facing the Department. The premise behind the challenge was that
complaints were not timely addressed and there was a backlog of old complaints. Two reports issued
in 2005 documented that the Assistant Secretary for Civil Rights (ASCR) had developed 13 initiatives
to address these long-standing problems, including the backlog. In a report issued in May 2007,
however, we found that although CR’s processing time to complete a case has fallen from 3 years in
1997 to slightly under 1.5 years in 2006, its efforts have not been sufficient to ensure that employee
civil rights complaints are effectively tracked and timely processed. The risk to employees’ rights
could reduce the public’s confidence in USDA’s ability to administer and address civil rights
activities.
OIG AUDIT/INVESTIGATION ACTIONS: We found that material weaknesses continued to
persist in CR’s control structure and environment. Specifically, CR had not (1) established the
necessary framework to monitor the processing of complaints and to intervene when established
timeframes were not met, (2) sufficiently strengthened its controls over the entry and validation of
data in its information system, and (3) established adequate controls to ensure case files could be
timely located and the files contained the required documentation. As a result, CR cannot effectively
track and timely process employee civil rights complaints.
DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: We found that in 2006, CR’s
processing time to complete a case averaged 504 days or just under 1.5 years, a significant
improvement over the processing time of 3 years reported in 1997. In February 2005, CR began
implementation of the Civil Rights Enterprise System (CRES), a Web-based application that allows
USDA agencies and CR to use one automated system for processing and tracking equal employment
opportunity (EEO) complaints at both the informal and formal stages. In a report issued in 2000, we
had reported that CR had its tracking system and the agencies had their own systems, with CR
tracking EEO complaints that were not in the agencies’ systems and the agencies having complaints
that were not in CR’s system. Prior to the implementation of CRES, agencies did not have an
enterprise system to track informal EEO complaints.
ACTIONS NEEDED TO ADDRESS THE CHALLENGE: CR should develop a detailed formal
plan to process employment complaints timely and effectively. CR should also implement a
monitoring framework to track the processing of complaints and intervene when timeframes are not
being met. To strengthen controls over the entry and validation of data in CRES, CR needs to identify
the business rules and implement a plan for testing and applying these rules. In addition, CR needs to
implement a process for validating the accuracy of information entered in CRES. CR needs to
develop procedures to control and monitor case file documentation and organization, including
procedures to document which CR divisions or units are responsible for receiving, transferring, filing,
and safeguarding documents in the file folder.
                                                                                                    21




                                                     243
                                 FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




CHALLENGE:             USDA NEEDS TO DEVELOP A PROACTIVE, INTEGRATED
                       STRATEGY TO ASSIST AMERICAN PRODUCERS TO MEET THE
                       GLOBAL TRADE CHALLENGE (NEW CHALLENGE)
SUMMARY: The agricultural sector plays a major role in the overall U.S. economy, and the
availability of global markets for agricultural products is critical to the long-term economic health and
prosperity of the food and agricultural sector. Expanding global markets should increase demand for
agricultural products and, therefore, lead to greater economic stability and prosperity for America’s
producers. In the Department’s strategic plan for FY 2002-2007 and for FY 2007-2010, increasing
export opportunities for U.S. agriculture was listed at the top of the Department’s strategic goals.
Between 1990 and 2005, the dollar value of U.S. agricultural exports rose by 39 percent (from $59.4
billion to $82.7 billion), but due to larger export gains by foreign competitors, the U.S.’ market share
of global exports declined by 32 percent over the same period. In 1990, the U.S. market share was
14.3 percent; by 2005, it had declined to 9.7 percent. In a review conducted by the Department, U.S.
market share was described at the lowest level in 30 years, due to “over-reliance on slow growth
commodities, mature markets, and rising competition.”
Concurrently, the share of American crop land devoted to cultivating biotechnology derived or
genetically engineered (GE) crops has grown significantly. In 2006, American producers had planted
around 135 million acres with GE crops; this amounted to 53 percent of the total global biotechnology
derived acreage. For agricultural commodities such as soybeans and corn, U.S. production has largely
become GE-based: the percentage of GE soybeans planted in the United States increased from 54
percent in 2001 to 89 percent in 2006; during the same period, the percentage of GE corn planted in
the United States increased from 25 percent to 61 percent.
Recognizing the importance of American agriculture in trade to foreign markets and the increasing
importance of GE crops to the American agricultural sector, the 2002 Farm Bill mandated a number of
general and specific trade initiatives in these areas. The 2002 legislation required a long-range
agricultural global market strategy building on the policies of the 1996 Farm Bill, which established
an “agricultural export promotion strategy” to take into account new market opportunities for
agricultural products. Furthermore, under the general trade provisions, the 2002 Farm Bill extended
the Export Credit Guarantee Program, encouraged multi-year and multi-country agreements, and
extended funding for the Export Enhancement Program. The 2002 Farm Bill also included specific
provisions on biotechnology—developing a biotechnology and agricultural trade program, funding
biotechnology use in developing countries, and educating consumers about the benefits and safety of
these products.
Other countries—especially countries that have long been traditional markets for American
agricultural commodities—have not always been eager to import GE crops. Even though the Food
and Agriculture Organization of the United Nations has acknowledged the benefits and
wholesomeness of GE crops, the European Union has instituted labeling and traceability requirements
for biotechnology derived imports, requirements that negatively affect U.S. producers’ ability to
compete in European markets and effectively act as trade barriers.
                                                                                                       22




                                                      244
                                  FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




Because of the sensitivity and concern that GE traits, particularly regulated or non-approved traits,
inadvertently appear in agricultural commodities sold to these foreign markets, the need for
strengthened monitoring and oversight over field trials is critical. Recently, the Department faced a
number of legal challenges to its issuance of these field-testing permits; for example, on March 12,
2007, the Federal district court for the Northern District of California ruled that GE alfalfa seed had
been approved for commercial release illegally, because there had been no Environmental Impact
Statement. Earlier, in August 2006, the Federal district court for Hawaii ruled that the Department
had violated the Endangered Species Act as well as the National Environmental Policy Act in
allowing drug-producing GE crops to be cultivated without conducting preliminary investigations on
the environmental impact prior to approval for planting.
The threat of inadvertent release and incorporation of GE crop traits that are regulated or not approved
for human consumption into agricultural commodities can have a potentially devastating impact on
American agricultural exports. For example, last summer the discovery of unapproved GE traits in
certain rice varieties destabilized U.S. rice exports and resulted in the closing of markets in the
European Union and other destinations to U.S. rice. Just this winter, Government tests confirmed the
presence of unapproved GE traits in planting seeds for rice production, again resulting in temporary
disruptions in the foreign markets for the U.S. rice industry. According to the U.S. Rice Federation,
the $1.2 billion foreign market for U.S. rice exports could be significantly impacted or entirely closed
off by such inadvertent releases of GE traits to crop production.
Given the new importance of GE crops to American agriculture, USDA faces significant challenges
not only in monitoring and providing oversight to field trials of such crops (to preclude inadvertent
release to other crop production), but also in promoting trade of all American agricultural
commodities, overcoming trade barriers in well-established markets, educating the public as to the
safety concerns and benefits of agricultural biotechnology, and cultivating new markets more
receptive to importing biotech crops.
To meet these challenges, USDA must balance several goals, including (1) developing, expanding,
and implementing business processes to formulate marketing strategies at a worldwide level,
including those of its program participants; (2) maintaining adequate accountability for GE seeds and
crops; (3) preserving the integrity of non-GE seeds and crops; and (4) educating the public as to the
health and safety of the American food supply, particularly agricultural biotechnology.
OIG AUDIT/INVESTIGATION ACTIONS:
Strengthening Controls Over Field Trials. During our review of USDA’s monitoring of GE crops,
we evaluated how USDA issues genetically engineered organism (GEO) release notifications and
permits, which are required to ship or field test regulated GEOs. We found that the Department needs
to strengthen its controls over the entire process, from how it handles permit and notification
applications to how it oversees the devitalization of GE crops under approved notifications and
permits. Based on the latest response from the Department, we were still unable to reach management
decision on 5 of the 28 recommendations reported. These

                                                                                                        23




                                                      245
                                  FY 2007 Performance and Accountability Report
                                  OTHER ACCOMPANYING INFORMATION




unresolved recommendations include requiring written protocols for notifications as well as permits
prior to approval of the field testing, providing such written protocols to inspectors in conducting
inspections of field tests, clarifying the number of field site inspections for permits and notifications,
clarifying the term “termination of the field test,” and requiring applicants to provide specific
timetables for disposition of GE pharmaceutical and industrial harvests.
Implementation of the Trade Title of the 2002 Farm Bill. During this review, we found that the
Department had implemented most of the 2002 Farm Bill amendments relating to trade programs,
except that it had not developed a business process to ensure that the Global Market Strategy
requirements of the Farm Bill are being met on a global level. Specifically, the Department needed to
coordinate its resources and programs with those of other departments to identify opportunities for
agricultural exports, and to remove trade barriers. Also, although the Department had reported that it
had met the Farm Bill’s mandate to direct at least 35 percent of the agency’s export credit dollars to
high-value and processed products, we found that this determination was based on product
classifications that were inconsistent with existing definitions.
Strengthening Trade Promotion Operations. This review, which was initiated in response to a
request from Congress, examined the extent to which the Department—through its market
development programs—fosters expanded trade activities in the exporting of U.S. agricultural
products. We found that the Department does not formally track its efforts to expand trade activities
in exporting U.S. agricultural commodities or outreach to U.S. exporters. The Department has relied
on its traditional industry trade groups and other partners to disseminate the information to foster trade
activities.
In our ongoing review of the export of GE crops, we are assessing how the Department has promoted
the export of GE crops to remain competitive in the global agricultural market.
DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: OIG and USDA agencies
continue to work to reach management decision on our recommendations concerning the oversight of
GE crops. To address most of the outstanding recommendations, the Department has stated that it is
eliminating the current notification-and-permit system in favor of a multi-tier permit system and that
the proposed system needs to be published in the Federal Register and commented on before being
finalized. APHIS hopes to complete this process by late 2009. However, the Department also needs
to clarify policies and procedures involving “termination of the field test” and to require that
participants provide timetables for the actual disposition and devitalization of regulated GE crops.
Relating to our report on the implementation of the trade title of the 2002 Farm Bill, the Department
stated that it has undertaken several initiatives to support the development, implementation,
monitoring, and evaluation of a USDA global strategy. Specifically, the Foreign Agricultural Service
(FAS) initiated a comprehensive review and reorganization of its mission and operational structure
with an aim to enhance the competitiveness of U.S. agricultural producers and to be in line with
USDA’s strategic objectives. Starting in 2006, FAS introduced a process to develop an integrated
strategy to synthesize not only priorities from within the agency and the Department, but also from
private sector stakeholders and other non-government

                                                                                                         24




                                                       246
                                   FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




entities, other governments, and multilateral organizations. Through such a process, FAS hopes to
link the priorities of all stakeholders to USDA goals and objectives, and from there to produce a truly
global strategy. The Department has proposed that the 35 percent threshold involving high-value and
processed commodities be eliminated with the new farm bill.

In its response to our trade promotion report, the Department stated that it has begun to catalogue the
existing information and reporting systems that support the mission to expand U.S. agricultural
exports. The Department also stated that it will be reviewing the mechanisms needed to support
existing Government Performance and Results Act reporting related to market access issues. The
Department hopes to complete its review of other data and reporting mechanisms by the end of
calendar year 2007.

ACTIONS NEEDED TO ADDRESS THE CHALLENGE: In its response to our Farm Bill Trade
Title report, FAS expressed general disagreement with the conclusions reached citing the use of
questionable data and “misunderstandings or misrepresentations” of the export strategies used to make
funding decisions for market access programs. Regardless of the data used, there is a trend of steadily
declining U.S. market share. USDA should—in consultation with Congress—analyze and reassess
its strategic goals and marketing strategies as a whole in order to regain, to the extent possible, U.S.
competitiveness in global agricultural exports. To better promote the export of agricultural crops,
USDA needs to develop a coordinated and consolidated global market strategy, including guidelines
and strategies to deal with countries reluctant to import GE crops and to open new markets willing to
import American agricultural products, particularly high-value and processed products.

To improve USDA’s oversight of regulated GE crops, the Department needs to provide the specific
corrective action plans to address the outstanding audit recommendations, such as clarifying the
number of field site inspections for permits and notifications and defining the term “termination of the
field test.”




                                                                                                      25




                                                      247
                                  FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION




CHALLENGE:             BETTER FOREST SERVICE MANAGEMENT AND COMMUNITY
                       ACTION NEEDED TO IMPROVE THE HEALTH OF THE NATIONAL
                       FORESTS AND REDUCE THE COST OF FIGHTING FIRES (NEW
                       CHALLENGE)

SUMMARY: In recent years, the average costs to fight wildfires have exceeded more than $1 billion
per year. In 2006, more than 9.87 million acres of public and private land were burned by wildland
fire (15,427 square miles). In 2006, FS spent more than $1.5 billion for wildland fire suppression. FS
efforts to contain firefighting costs are impacted by several issues: climate change, the increase in
hazardous fuels occurring on Federal lands, and the population growth in rural communities in the
wildland urban interface (WUI). Addressing these key issues is critical if FS is going to be successful
in reducing both the severity of wildland fires and the cost of fighting these fires. An additional
challenge facing FS is fire safety; as the intensity of fires increases and the agency is called upon to
suppress fires in urban areas, the dangers to firefighters has increased.
OIG AUDIT/INVESTIGATION ACTIONS: We completed our audit of large fire suppression
costs in November 2006. Our review identified that the major cost driver of suppression costs has
been unregulated development in the WUI. Improperly planned and unregulated growth in the WUI
significantly increases the risks these communities face from wildfires. Because of the increased risk,
FS must spend more money to prevent wildfires from reaching these areas and more money protecting
the communities when wildfires do reach them. If not for the threat to the WUI, FS could use less
expensive fire suppression tactics or even let the fires burn naturally. It is critical that FS work with
local communities to ensure that private landowners take steps to reduce the risk of fire on private
property adjacent to Federal land. In addition, we found FS needs to modify its policies that unduly
restrict use of fire to reduce hazardous fuels on FS land. We also found that the agency lacked
effective cost containment controls: managers’ and incident commanders’ decisions and oversight
were neither tracked nor evaluated, agency performance measures and reporting mechanisms did not
allow FS management to assess the effectiveness of its wildfire suppression cost containment efforts,
and cost containment reviews had limited effectiveness.
Our audit of FS’ implementation of the Healthy Forest Initiative evaluated the agency’s efforts in
reducing hazardous fuels on Federal land. Deteriorating forest health has resulted in the unnaturally
heavy accumulation of hazardous fuels. While FS’ 2005 budget for hazardous fuels reduction was
$276 million, it has been estimated that hazardous fuels are accumulating at three times the rate that
they can currently be treated. FS has allocated hazardous fuel reduction funds based, in part, on
historical funding allocations and accomplishing the most acres of treatment. These factors do not
necessarily address areas that may have the most risk of major wildfires. Treatment of high risk areas
may cost more for fewer acres, but it may do more to reduce the potential for catastrophic fires than
treatment of a large number of acres. FS needs to change its funding approach for fuel reduction
projects to recognize the potential risk to forest resources and private property. This will help ensure
that the limited funds are better targeted to reduce the potential for catastrophic fires.


                                                                                                      26




                                                      248
                                  FY 2007 Performance and Accountability Report
                                      OTHER ACCOMPANYING INFORMATION




Other audits that we have recently completed related to fire suppression activities concluded that FS
needed to improve its controls over the use of firefighting contract crews and the use of Emergency
Equipment Rental Agreements (EERA). The audit related to contract crews concluded that significant
improvements were needed in safety training for these crews. Our review of EERA found that by
using a combination of best practices, FS can lower costs for equipment and supplies it obtains
through the EERA process.

DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: In response to audit
recommendations, FS has implemented policies and procedures designed to contain wildfire
suppression expenditures and to increase accountability for suppression operations. FS has developed
new strategic performance measures and increased the emphasis on cost accountability. Also, FS has
increased the level of management oversight on large fires and initiated significant changes in its
wildfire cost containment reviews. The agency has implemented a formal training program for
personnel who conduct cost containment reviews with the emphasis focusing on cost drivers and the
impact of fire suppression strategies. Incident commanders will have performance standards that
include whether the tactics employed represented cost effective use of resources. FS is also placing
more emphasis on wildland fire use (WFU). Also, FS practices will allow managers to switch
between suppression tactics and WFU as each situation evolves. In the past, once a strategy of
suppression was chosen the manager was not allowed to change even if the situation warranted. FS is
developing a fire program system to economically allocate resources and a LANDFIRE2 system to
provide data to use in order to target fire and resource projects more effectively.

ACTIONS NEEDED TO ADDRESS THE CHALLENGE: Top Department and FS management
needs to work with Congress and other land management agencies to find ways to convince State and
local governments to enact and vigorously enforce building and zoning codes in areas threatened by
wildland fire. FS also needs to work with other land management agencies and State and local
governments to conduct hazardous fuels reduction projects in those areas where they will have the
greatest impact on reducing risk. FS also needs to continue to improve its internal controls over
wildland fire expenditures and the delivery of systems to help managers improve cost containment
decisions. FS needs to ensure that it structures its human and physical resources in a manner to meet
the changing environment of forest health and the expanding of WUI.




2
  LANDFIRE, also known as the Landscape Fire and Resource Management Planning Tools Project, is a 5-year, multi-
partner project producing consistent and comprehensive maps and data describing vegetation, wildland fuel, and fire
regimes across the United States. It is a shared project between the wildland fire management programs of the Department
of Agriculture’s Forest Service and the U.S. Department of the Interior.
                                                                                                                      27




                                                           249
                                       FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




CHALLENGE:            IMPROVED CONTROLS NEEDED FOR FOOD SAFETY INSPECTION
                      SYSTEMS (New Challenge)

SUMMARY: The safety of the Nation’s food supply and the adequacy of its Federal inspection
systems is a major concern of consumers, Congress, and other stakeholders due to recent food-borne
illnesses and food contamination events. FSIS must demonstrate that its information and data
systems, management controls, and inspection processes are adequate to support its assessments of the
adequacy of slaughter and processing hazard controls and production processes.
The Federal meat and poultry inspection program is operated under the Hazard Analysis and Critical
Control Point (HACCP) system (HACCP was implemented in 1998). Under HACCP, each slaughter
and processing establishment is responsible for designing a food safety system that complies with
sanitation standards and procedures, HACCP requirements, and pathogen reduction requirements.
FSIS is responsible for verifying that each establishment’s food safety system is operating in
compliance with the regulations and in a way that will result in safe and wholesome products. FSIS is
moving towards a risk-based inspection system as its next step to modernize the inspection process
and has stated that HACCP is the foundation of this risk-based initiative.
Since 2000, OIG has reported that FSIS had not analyzed and/or verified the adequacy of
establishment HACCP plans. Also, we reported that FSIS did not have an effective management
control structure that would ensure that adequate systems and processes were in place to accumulate,
review, and analyze available data to monitor and assess compliance with HACCP and inspection
requirements. We recommended that FSIS develop a written time-phased plan for completing its
reviews of HACCP plans, to include periodic reassessments, and to establish a strategy for hiring and
training staff. We also made numerous recommendations to improve FSIS information technology
systems, inspection oversight, and data quality.
OIG AUDIT/INVESTIGATION ACTIONS: OIG issued a series of food safety audits in 2000 that
assessed the effectiveness of FSIS’ meat and poultry inspection program under HACCP. We
concluded that while FSIS had taken positive steps in its implementation of the science-based HACCP
program, FSIS needed to have a more aggressive presence in the inspection and verification process.
FSIS had, in our assessment, reduced its oversight short of what was prudent and necessary for the
protection of the consumer. The conditions noted in our 2003 review of the ConAgra recall (18
million pounds of ground beef and beef products suspected of being contaminated with E. coli
O157:H7) again led us to question the adequacy of establishment HACCP plans and FSIS’ oversight
and verification programs that identify and control hazards in the production process.
In our 2004 audit of application controls for the Performance Based Inspection System (PBIS), we
evaluated the adequacy and effectiveness of FSIS’ controls over the input, processing, and output of
PBIS data. PBIS is a software application designed by FSIS to manage its HACCP inspection
assignments, specific inspection procedures, and data reporting. We found that FSIS

                                                                                                       28




                                                     250
                                 FY 2007 Performance and Accountability Report
                                OTHER ACCOMPANYING INFORMATION




had not implemented adequate controls to ensure the integrity of PBIS data and concluded that this
ultimately could affect FSIS’ ability to adequately manage its inspection activities.

In response to both GAO and OIG audits and recommendations, FSIS developed a management
control system to provide assurance that the agency is accomplishing its mission of protecting
consumers from unsafe and unwholesome food products. A key component of FSIS’ management
control system is the In-Plant Performance System (IPPS), which was established to strengthen
supervision and improve inspector accountability. Our 2006 audit of IPPS found that FSIS’ policies
and procedures were generally adequate and that the system improved supervision and inspector
accountability. However, we did find that the review process could be strengthened in the areas of
written guidance and management oversight; not all inspection activities identified as critical had been
assessed.

In 2007, GAO designated three new high-risk areas in its annual high risk report. One of the high-risk
areas is Federal oversight of food safety because of its importance to the economy and public health
and safety. Any food contamination could undermine consumer confidence in the Government’s
ability to ensure the safety of the U.S. food supply, as well as cause severe economic consequences.
GAO believed the current fragmented Federal system (15 agencies collectively administering at least
30 laws related to food safety) has caused inconsistent oversight, ineffective coordination, and
inefficient use of resources.

DEPARTMENTAL/AGENCY ACCOMPLISHMENTS/PLANS: FSIS developed and recently
implemented a management control system that is to provide multi-layered management oversight of
its inspection activities. FSIS has focused on strengthening supervisory oversight of its in-plant
inspection personnel through the use of IPPS. FSIS has also recently implemented AssuranceNet, a
Web-based system, which will pull inspection data from five databases to facilitate analysis. The goal
of AssuranceNet is to allow FSIS to monitor the agency’s inspection activities.

ACTION NEEDED TO ADDRESS THE CHALLENGE: Although FSIS agreed to implement
corrective actions to address prior audit concerns, some actions are not complete. FSIS needs to fully
address prior weaknesses before it can ensure risks to public health from adulterated meat and poultry
products processed under the proposed risk-based inspection process are minimized. FSIS must
demonstrate that it has adequate information and data systems, controls, and processes in place and
operational to support its ongoing assessments of the adequacy of establishment HACCP plans and
production processes, and its inspection activities. Most critical, FSIS needs to develop a written,
time-phased plan for completing reviews of HACCP plans. The time-phased plan should include a
strategy for hiring and training staff. FSIS also needs to develop a review program that includes
periodic (1 to 2-year) reassessment of HACCP plans.


                                                                                                     29




                                                      251
                                  FY 2007 Performance and Accountability Report
                           OTHER ACCOMPANYING INFORMATION




                     ACRONYMS USED IN THIS DOCUMENT
AI              avian influenza
AIP             approved insurance companies
APHIS           Animal and Plant Health Inspection Service
ARPA            Agricultural Risk Protection Act of 2000
ASCR            Assistant Secretary for Civil Rights
CBP             Customs and Border Protection
CDP             crop disaster programs
CIMS            comprehensive information management system
CR              Civil Rights
CRES            Civil Rights Enterprise System
DCP             Direct and Counter-Cyclical Payment Program
DHS             Department of Homeland Security
EEO             equal employment opportunity
EERA            Emergency Equipment Rental Agreements
FAS             Foreign Agricultural Service
FBI             Federal Bureau of Investigations
FDA             Food and Drug Administration
FS              Forest Service
FSA             Farm Service Agency
FSIS            Food Safety and Inspection Service
FY              fiscal year
GAO             Government Accountability Office
GE              genetically engineered
GEO             genetically engineered organisms
HACCP           Hazard Analysis and Critical Control Point
HHS             Health and Human Services
HIP             Hurricane Indemnity Program
HPAI            highly pathogenic avian influenza
HSO             [USDA] Homeland Security Office
IPIA            Improper Payments Information Act of 2002
IPPS            In-Plant Performance System
IT              information technology
NRCS            Natural Resources Conservation Service
OCFO            Office of the Chief Financial Officer
OCIO            Office of the Chief Information Officer
OIG             Office of Inspector General
OMB             Office of Management and Budget
PAR             Performance and Accountability Report
PBIS            Performance-Based Inspection System
QC              quality control
RD              Rural Development
Response Plan   National Avian Influenza Preparedness and Response Plan
RHS             Rural Housing Service
RMA             Risk Management Agency
SPPA            Strategic Partnership Protection Agroterrorism Initiative
SRM             Specified Risk Materials
USDA            U.S. Department of Agriculture
WFU             wildland fire use
WRP             Wetland Reserve Program
                                                                             30




                                                 252
                             FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION




Appendix B—Improper Payment and Recovery Auditing Details
Since 2000, agencies have reported efforts to reduce erroneous payments through the Office of Management and Budget’s
(OMB) Circular A-11. Under the Improper Payments Information Act (IPIA), executive agencies must identify any of its
programs that may be susceptible to significant improper payments, estimate the annual amount of improper payments
and submit those estimates to Congress. Section 831 of the Defense Authorization Act for FY 2002 requires recovery
auditing. In this process, agencies entering into contracts worth more than $500 million in a fiscal year must execute a cost
effective program for identifying errors made in paying contractors and for recovering amounts erroneously paid to the
contractors. In FY 2005, Eliminating Improper Payments became a President’s Management Agenda (PMA) initiative.
On August 10, 2006, government-wide guidance was consolidated into OMB Circular A-123, Management's
Responsibility for Internal Control, Appendix C. Under this guidance, USDA has 5 programs required to report under
Section 57 of A-11 and has identified an additional 11 at risk of significant improper payments through the risk
assessment process.
USDA is taking steps to implement IPIA fully and achieve a “green” rating for the Eliminating Improper Payments PMA
initiative. During FY 2007, USDA maintained “yellow” status. Accomplishments this year include:
   Completing risk assessments for all programs;
   Developing plans to measure improper payments for all high risk programs and receiving OMB approval;
   Developing corrective action plans to reduce improper payments and establishing both reduction and recovery targets
    for all high risk programs;
   Fully complying with reporting standards; and
   Reporting error rates for National School Lunch and School Breakfast programs for the first time.
USDA’s improper payment rate of 6.11% for FY 2007 is a reduction from the 6.97% rate reported for FY 2006. The
estimated improper payments amount of $4.4 billion for FY 2007 is a reduction from the $4.6 billion for FY 2006. The
Farm Service Agency (FSA), with seven high risk programs, showed significant improvement in the reduction of
improper payments. FSA reduced their overall estimated improper payments from $2.9 billion (11.18%) in FY 2006 to
$563 million (2.49%) in FY 2007. Since many of FSA’s corrective actions were implemented late in FY 2007,
improvements may not be shown until the FY 2008 review results are reported.
FSA’s improvements were related to:
   direct senior management involvement and support to reduce improper payments;
   agency-wide training on improper payments awareness and responsibilities;
   inclusion of improper payment payments reduction in FSA strategic planning documents;
   implementation of program checklists;
   integrating reducing improper payments into employee’s performance plans; and
   publication of notices providing new instructions.
USDA will be able to move to “green” status when error rates are available for all programs and it demonstrates that
reduction and recovery goals are being met. Due to budget and program constraints, this process can be complicated. For
the programs without an estimated error rate, USDA worked with OMB to develop interim methods to establish and
track erroneous payment percentages.
Additionally, USDA is taking steps to implement recovery auditing fully. Using an independent recovery audit contractor
working on contingency, USDA identified $206,000 of potentially recoverable improper payments. Of this amount,
USDA recovered $146,000 in FY 2007.



                                                              253
                                          FY 2007 Performance and Accountability Report
                                              OTHER ACCOMPANYING INFORMATION



OMB provided a reporting template for IPIA in OMB Circular A-136. The template requires responses to specific
issues. USDA’s response to these issues follows.

I. Describe your agency’s risk assessments, performed subsequent to compiling your full program
inventory.
List the risk-susceptible programs identified through your risk assessments.
OCFO issued detailed guidance for the risk assessment process including templates and extensive reviews of drafts.
Programs with larger outlays were required to perform more detailed assessments than smaller programs. For USDA’s
largest programs, the risk assessment process required the following:
    The amount of improper payments needed to meet the reporting standards;
    A description of the program including purpose and basic eligibility requirements;
    Definition of improper payments specific to the program;
    Program vulnerabilities linked to improper payments;
    Internal controls designed to offset the program vulnerabilities;
    Internal controls testing;
    Listing of significant reviews and audits;
    Final determination of risk level;
    Planned future enhancements (optional); and
    Description of how improper payments are recovered (optional).

USDA has identified the following 16 programs as susceptible to improper payments.

        Selection Methodology                        Agency                                            Program
    Section 57 of OMB Circular A-11     Farm Service Agency (FSA),            Marketing Assistance Loan Program (MAL)
                                        Commodity Credit Corporation (CCC)
                                        Food Nutrition Service (FNS)          Food Stamp Program
                                                                              National School Lunch Program (NSLP)
                                                                              School Breakfast Programs (SBP)
                                                                              Special Supplemental Nutrition Program for Woman, Infants
                                                                              and Children
    USDA Identified as Susceptible to   Farm Service Agency (FSA),            Milk Income Loss Contract Program
    Significant Improper Payments       Commodity Credit Corporation (CCC)    Loan Deficiency Payments
                                                                              Direct and Counter-Cyclical Payments
                                                                              Conservation Reserve Program
                                                                              Miscellaneous Disaster Programs
                                                                              Noninsured Assistance Program
                                        Food Nutrition Service (FNS)          Child and Adult Care Food Program
                                        Forest Service (FS)                   Wildland Fire Suppression Management
                                        Rural Development (RD)                Rental Assistance Program
                                        Risk Management Agency (RMA)          Federal Crop Insurance Corporation Program Fund
                                        Natural Resources Conservation        Conservation Security Program
                                        Service (NRCS)




                                                                    254
                                                FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION




II. Describe the statistical sampling process conducted to estimate the improper payment rate for each
program identified.

 Agency           Program                                                    Sampling Process
 FSA/CCC   Marketing Assistance    A statistical sample of high risk programs is conducted by the Farm Service Agency’s (FSA) County Office
           Loan Program (MAL)      Review Program (CORP) under the direction of the Operations Review and Analysis Staff (ORAS).
                                   Testing is conducted using statistically sound samples drawn from the total population of program
                                   payments being tested. A professional statistician, under contract to FSA, is used to design the sampling
                                   approach, define the sample size and identify the sample items. Sample size is chosen to achieve a 95
                                   percent confidence level.
                                   Once the universe of the program is determined for the target fiscal year, a stratified two-stage sampling
                                   approach is used. County offices (COFs) making payments for the target program are selected in the first
                                   stage and individual payments made or contracts reviewed by COFs are selected in the second stage.
                                   That sample list of individual contracts or payments is provided to the members of the CORP staff
                                   covering the respective States. The CORP staff visits each of the COFs shown on the list and reviews the
                                   individual contracts or payments identified in the statistically sound sample. The CORP reviewers use a
                                   list of program division provided criteria that is drawn from legal and program administrative guidance.
                                   Findings of non-adherence to the criteria related to the individual contracts or payments in the sample will
                                   identify potential improper payments made. The results of that review are summarized and submitted to
                                   the CORP national office staff to be analyzed by the contractor statistician. That contractor determines
                                   the rate of improper payments based on the data provided by the CORP staff that visited the COFs and
                                   completed the actual review of documents
 FNS       Food Stamp Program      Statistical sampling
           (FSP)
                                   Each month, States select a statistically random sample of cases from a universe of all households
                                   receiving FSP benefits for that given month. Most States draw the samples using a constant sampling
                                   interval. There are some which employ simple random and/or stratified sampling techniques. Required
                                   annual sample sizes range from 300 for State agencies with small FSP populations to more than 1,000 for
                                   larger States. The average is approximately 950 per State. States are required to complete at least 98
                                   percent of selected cases deemed to be part of the desired FSP universe. Federal sub-samples are
                                   selected systematically by FNS from each State’s completed reviews. These sample sizes range from 150
                                   to 400 per State.
                                   Error Rate Calculation
                                   The National payment error rate is calculated using a multi-step process:
                                   •    Each State agency conducts quality control (QC) reviews of the monthly sample of cases. The QC
                                        review measures the accuracy of eligibility and benefit determinations for each sampled case against
                                        FSP standards. State agencies are required to report to FNS the findings for each case selected for
                                        review.
                                   •    FNS then sub-samples completed State QC reviews and re-reviews selected individual case findings
                                        for accuracy. Based on this sub-sample, FNS determines each State agency’s official error rate using
                                        a regression formula.
                                   •    The national payment error rate then is computed by averaging the error rate of the active cases for
                                        each State weighted by the amount of issuance in the State.
 FNS       National School Lunch   USDA makes use of periodic studies to assess the level of error in program payments because detailed
           Program (NSLP)          information on the circumstances of the National School Lunch Program (NSLP) and School Breakfast
                                   Program (SBP) participating households are not collected administratively. The current study – NSLP/SBP
                                   Access, Participation, Eligibility and Certification (APEC) Study – makes use of a national probability
                                   sample of school food authorities (SFAs), schools, certified students and their households, and
                                   households that applied and were denied for program benefits in School Year 2005-06.
                                   A stratified random sample of 78 unique public SFAs was selected in the first stage of sampling.
                                   Stratification variables included geographic region, prevalence of schools having a School Breakfast
                                   Program and those using Provision 2/3, and a poverty indicator. For SFAs that do not have Provision 2/3
                                   schools, three schools, on average, were selected for inclusion in the studying the second stage of
                                   sampling. Schools were stratified into two groups: (1) elementary schools and (2) middle- and high-
                                   schools. The school sample included both public and private schools. A total of 264 schools participated in
                                   the study (216 non-Provision 2/3 schools, 24 Provision 2/3 schools in their base year, and 24 Provision
                                   2/3 schools not in their base year). For the third stage of sampling, samples of households were selected
                                   in 240 of these schools to yield completed interviews for about 3,000 students certified for free and
                                   reduced-price meals and 400 denied applicant households.




                                                                255
                                          FY 2007 Performance and Accountability Report
                                           OTHER ACCOMPANYING INFORMATION



Agency          Program                                                         Sampling Process
                                     The sample of approved and denied applicant households was augmented by sampling of applications
                                     from Provision 2/3 schools in which household surveys were not conducted. Application reviews of about
                                     6,800 students approved for free and reduced-price meals and over 1,000 denied applicants were
                                     conducted to estimate the case error rate due to administrative error.
                                     Data on counting and claiming errors were collected in all schools selected for application reviews. On
                                     randomly selected school days, field staff observed approximately 100 lunch transactions at each of the
                                     245 schools participating in the NSLP as well as 50 breakfast transactions at each of the 218 schools
                                     participating in the School Breakfast Program. Cashier error was estimated using information from these
                                     meal transactions. Data on school-recorded daily meal totals across all points of sale. Aggregated meal
                                     counts reported to the district and total meals submitted to the State Agency for reimbursement were
                                     examined to determine claiming errors.
FNS      School Breakfast Program    The statistical sampling process for this program is similar to the FNS National School Lunch Program
         (SBP)                       (NSLP). See the NSLP description.
FNS      Special Supplemental        FNS plans to continue periodic examinations of WIC certification and vendor error.
         Nutrition Program for
         Women, Infants and
                                     Certification Error— The 1998 WIC Income Verification Study was designed to provide information on the
         Children (WIC)              characteristics of a nationally representative sample of WIC participants in the contiguous United States,
                                     certified for WIC during spring 1998. The sample was based on a multi-stage sample design, with 50
                                     geographic primary sampling units (PSUs) selected at the first stage, 79 local WIC agencies selected at
                                     the second stage, and 178 WIC service sites selected at the third stage. WIC participants were randomly
                                     sampled for the study at the 178 WIC service sites as they appeared for WIC certification. In-person
                                     interviews were completed with 3,114 WIC participants at the 178 WIC service sites. The estimate of
                                     improper payments comes from a follow-up in-home survey that was conducted with approximately one
                                     out of every three persons selected for the in-person interviews. The in-home survey was designed to
                                     verify income information through review of household income documents. In-home interviews were
                                     completed with 931 respondents.
                                     FNS’ intent is that the 2008 decennial income verification study will use a similar sampling strategy that
                                     provides a nationally representative estimate of erroneous payments within the IPIA-specified precision
                                     parameters. The certification error rate will be reported in FY 2009.
                                     Vendor Error—The 2005 vendor error study employed a nationally representative probability sample of
                                     WIC vendors. A two-stage clustered design was developed to facilitate over-sampling of WIC-only stores.
                                     Current lists of authorized WIC vendors were collected from the 45 States plus the District of Columbia
                                     that use retail vendors from delivery of benefits. These lists were used to establish the retail vendors for
                                     delivery of benefits. These lists were sued to establish the national sample frame of vendors active during
                                     the study period. Geographic Information System software was used to form 365 PSUs in contiguous
                                     counties. Most PSUs had at least 80 vendors. The study selected 100 PSUs using probability non-
                                     replacement sampling with probabilities proportional to the size of the PSU. About 16 vendors and 4
                                     reserve vendors were selected from each of the 100 PSUs. The final sample size (unweighted) was 1,768
                                     vendors. The study compared the purchase price paid by the compliance buyer with (i) observed shelf
                                     prices and (ii) the purchase amount the vendor reported to the State in order to yield estimates of
                                     overcharge and undercharge.
FNS      Child and Adult Care Food   The national estimate of erroneous payments for the sponsor error component is based on a nationally
         Program (CACFP)             representative sample of sponsor files for 3,150 Family Daycare Homes (FDCHs) in 95 distinct sponsors
                                     in 14 States. Data collectors went to each sampled sponsor with randomly drawn lists of 30 to 90 FDCHs
                                     and extracted documents necessary to establish eligibility for reimbursements from the sponsors’ files.
FSA      Milk Income Loss Contract   See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above.
         Program (MILC)              The same process was used for this program.
FSA      Direct and Counter-         See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above.
         Cyclical Payments (DCP)     The same process was used for this program.
FSA      Conservation Reserve        See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above.
         Program (CRP)               The same process was used for this program.
FSA      Miscellaneous Disaster      See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above.
         Programs (CDP)              The same process was used for this program.
FSA      Noninsured Assistance       See the process described in the Marketing Assistance Loan Program (MAL) discussion shown above.
         Program (NAP)               The same process was used for this program.
FS       Wildland Fire Suppression   Wildland Fire Suppression Fund (WFSU) transactions were analyzed and a stratified sampling method
         Management                  was employed to select transactions. FS used a package of statistical software tools designed to assist
                                     the user in selecting random samples and evaluating the audit results. The goal behind the software




                                                                  256
                                            FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



Agency          Program                                                         Sampling Process
                                    package was to develop valuable analytical tools that could be easily used by auditors. The statistical
                                    audit tool has been used by the Office of Inspector General since the 1970’s.
                                    The sample size was determined using a 90% confidence level, anticipated rate of occurrence of 2.9%
                                    and a desired precision range of +/-2.5%. The transactions were selected using a random number
                                    generator, selecting the corresponding record number in the universe of payments.
                                    The population was broken down into four categories: Travel, Payroll, Purchase Card Management
                                    System (PCMS), and Contracts. Separate statistical samples were selected using the criteria required by
                                    OMB. An exception occurred when a transaction met the criteria for an improper payment as defined by
                                    the Improper Payment Improvement Act (IPIA). We categorized errors that were improper as errors that
                                    were either insufficiently documented or were improperly paid.
RD       Rental Assistance          The agency reviewed the sampling plan developed by the U.S. Department of Housing and Urban
         Program                    Development for its studies. It engaged Rural Development (RD) statisticians to prepare a similar plan for
                                    this report. This report is based on a review of tenants receiving rental assistance (RA) during FY 2006.
                                    The sampling plan consisted of 666 RA payments from a universe of 3,333,206 or .019 percent. The
                                    methodology produced a sample with a 99-percent confidence level. The study required field staff to
                                    evaluate tenant files and income calculations. The agency did not test if RD’s deputy chief finance office
                                    paid appropriately on the borrower’s request for subsidy due to the minuscule error rate from the FY 2004
                                    report and the implementation of an automation enhancement to improve data entry.
                                    The universe of rental assistance payments FY 2006, was 3,333,206. The only parameter used to
                                    determine the eligible universe was the RA payment. No other data element, such as location, size of
                                    property, number of units and availability of other rental assistance (such as Section 8) was a
                                    consideration. The statisticians were provided a data extract from the Multi-Family Housing Information
                                    System (MFIS). The extract contained a list of all tenants receiving RA during FY 2006. The data included
                                    month of payment, project name, project identifier (case number/project number) and tenant name and
                                    unit number. From the data extract, the statisticians selected the sample by a systematic sample
                                    technique. Once the sample was identified, an unnumbered letter dated March 20, 2007, was issued to
                                    RD field staff that explained the process (including detailed instructions), provided the list of tenant
                                    payments to be reviewed and provided the data currently maintained in MFIS. These data were used as
                                    the baseline review of the tenant data comparison between the Agency records and the management
                                    agent’s tenant files. The study asked State office staff to complete the survey for the selected tenant
                                    payments. There was to be no substitution of the selected payment and, if the management agent was
                                    unable to submit the file, the payment would be considered improper.
RMA      Federal Crop Insurance     RMA drew 600 random 2004 and 2005 crop year indemnities to review during 2005 and 2006. It will
         Corporation Program Fund   repeat this process for three years to compile 900 random indemnity reviews that will be used to identify
                                    the RMA program-error rate. Samples are drawn by the compliance staff which oversees the compliance
                                    review data base and is responsible for data quality control. Limited resources make it impractical to
                                    conduct a statistically valid program review each year. Despite these limits, in combination with the
                                    National Operations Reviews conducted by RMA compliance personnel, these random reviews of paid
                                    indemnities should provide the program with sufficient data to establish an acceptable error rate for the
                                    purposes of the IPIA.
NRCS     Conservation Security      A risk assessment was developed with the Financial Management Division and the National Program
         Program                    Manager. Using last year’s risk assessments and corrective action plans, NRCS identified any new risks
                                    and internal controls to test. It reviewed internal and external reviews and audits to eliminate duplication of
                                    effort and incorporated testing of any new internal controls implemented as a result of the reviews and
                                    audits. Statutory and program changes as they related to IPIA were considered.
                                    Samples were drawn by a contractor statistician from the universe of payments made to participants
                                    during fiscal year 2006. The anticipated error rate was based on the actual target rate of .50%. NRCS
                                    used a rigorous confidence level of 95% and precision range of +/-2.5% to select the number of samples.
                                    A total of 95 samples were selected.




                                                                  257
                                           FY 2007 Performance and Accountability Report
                                           OTHER ACCOMPANYING INFORMATION



 Agency           Program                                                       Sampling Process
                                      A questionnaire was developed with the program manager. Sample payment data were merged into the
                                      questionnaire. The questionnaire was sent to State and field offices to complete and return with
                                      supporting documentation. The questionnaire is a tool for re-enforcing program rules and a means to
                                      obtain verification of items which would not be readily available in a contract file.
                                      NRCS implemented individual program review checklists. These were created by the Financial
                                      Management Division based on the risk assessments and internal controls selected for testing. As
                                      samples were returned, the agency used the review checklist to test the effectiveness of the selected
                                      internal controls. This ensured testing consistency by the review team. NRCS also tested payment
                                      calculations, contracting policy adherence, and issues from last year’s sampling. Person and land
                                      eligibility was verified as described in the Farm Bill statutory language.




III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments. Include in
this discussion what is seen as the cause of errors and the corresponding steps necessary to prevent future
occurrences.
If efforts are already underway, and/or have been ongoing for some length of time, it is appropriate to
include that information in this section.

 Agency                   Program                                                  Corrective Actions Planned
 FSA/CCC   Marketing Assistance Loan program (MAL)     The three most significant causes for payments being identified as improper were as
                                                       follows:
                                                       •    A lien search for Federal or State Tax liens was not conducted.
                                                       •    The Financing Statement was not filed.
                                                       •    The loan quantity is not supported by a producer certification, measurement
                                                            service, or warehouse receipt.
                                                       Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                                                       a.   Broad Scope Actions Taken:
                                                       •    FSA is making every effort to lower the improper payment rate and to reduce
                                                            program weaknesses contributing to improper payments. Regardless of the
                                                            reasons improper payments are made, FSA is taking the issue of improper
                                                            payments very seriously.
                                                       •    The Agency has taken actions to correct its deficiencies in many areas and has
                                                            incorporated the priority of reducing improper payments into its strategic planning
                                                            documents.
                                                       •    The Administrator has personally participated in an online training module on
                                                            performance and accountability. This presentation explains the importance of
                                                            managing payments, the impact of the improper payment results from FY 2006,
                                                            and how every employee within FSA is accountable for doing their share in
                                                            reducing improper payments. FSA issued a program Notice making it mandatory
                                                            for all FSA employees working with or making policy decisions to view the training
                                                            module and require the State Executive Directors (SEDs) to certify that those
                                                            employees viewed the training module before August 27, 2007.
                                                       b.   Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                                       The actions taken were completed late in FY 2006 or early FY 2007 so the impact would
                                                       not be realized until review of the FY 2007 payment activity. The FY 2007 payment
                                                       activity will be sampled as part of the FY 2008 review cycle.




                                                                   258
                                             FY 2007 Performance and Accountability Report
                                 OTHER ACCOMPANYING INFORMATION



Agency                 Program                                         Corrective Actions Planned
                                          •    Issued various National Notices to State and COFs providing them with instructions
                                               related to training, proper processing of payments, and the new checklist for
                                               processing loans.
                                          •    Provide training on improper payments to field personnel and educate them on the
                                               importance of control procedures as well as the potential risks of noncompliance.
                                               Training was delivered through various means including in person and via Ag
                                               Learn, a Department of Agriculture enterprise-wide learning management system,
                                               and is being followed up with communications and job aid to help facilitate
                                               compliance controls.
                                          •    Integrate the employee’s individual performance results related to reducing
                                               improper payments into his/her annual performance rating.
                                          •    Developed a new checklist, the CCC-770 MAL, MAL Checklist, for COF employees
                                               to use. By completing the CCC-770 MAL, the COF employee is certifying that the
                                               applicable program provisions have, or have not been met. Handbook 8-LP was
                                               amended on December 13, 2006, to include policy that a CCC-770 MAL or CCC-
                                               770 eLDP/LDP must be completed before a loan or LDP is issued.

                                          c.   Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                                          •    FSA is implementing a new compliance review process for the 2007 crop year.
                                               The new compliance spot check review process will allow FSA to (1) conduct a
                                               more meaningful and comprehensive spot check/compliance review and; (2) utilize
                                               a better mechanism for reporting spot check results. The new reporting
                                               mechanism will allow the National Office to monitor improper payments discovered
                                               as result of a spot check.
                                          •    Provide a Notice to State and COFs providing the detail findings discovered during
                                               the FY 2007 MAL Statistical Sample including established policy and procedure
                                               references for each finding.
                                          •    Based on sample results, amend the CCC-770 MAL checklist, as appropriate, to
                                               ensure that COFs are reminded of the necessary policies and procedures for
                                               program compliance.
                                          •    Contact State Office managers where the majority of improper payments were
                                               identified, according to the statistical sample, to determine possible training and/or
                                               job aids the State and county staff may need to assist in facilitating compliance to
                                               controls.
                                          •    Re-enforce current program policies regarding program compliance through the
                                               issuance of National notices to State and COF personnel.
                                          •    Review existing policy and procedures to determine program compliance
                                               inefficiencies and eliminate inadequate program compliance controls.

                                          d. Actions That Will be Taken that Impact Lien Searches for Federal or State Tax Liens
                                          Not Conducted:
                                          FSA will clarify current policies associated with conducting Federal and State Tax liens,
                                          conducting lien searches and perfecting security interest in program notices, handbook
                                          procedures and regulations, if necessary. These notices, in addition to conference calls
                                          to the specific State and COFs that were identified in the statistical sample, should help
                                          to reduce the number of improper payments.
FNS      Food Stamp Program               Causes of improper payments
                                          An improper payment occurs when a participating household is certified for too many or
                                          too few benefits compared to the level for which they are eligible. This can result from
                                          incomplete or inaccurate reporting of income and/or assets by participants at the time of
                                          certification. It also can occur from changes subsequent to certification or errors in
                                          determining eligibility or benefits by caseworkers. Eligibility worker delays in action or
                                          inaction taken on client reported changes also can cause of improper payments.
                                          An analysis of the FY 2005 completed statistical sample revealed that approximately
                                          74.5 percent of all variances occurred before or at the most recent
                                          certification/recertification. Additionally, 68.5 percent of the errors were State agency




                                                     259
                                 FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                  Corrective Actions Planned
                                                   caused. About half of the errors (50.8 percent) were income related and caused by client
                                                   misreporting or the agency misapplying the reported income. Misreporting or
                                                   misapplying deductions was the second largest source of errors at 28.0 percent.
                                                   The analysis of the FY 2006 data is scheduled for release in early 2008.
                                                   Steps that are (or will be) taken to address specific findings in the last statistical sample
                                                   Program regulations require State agencies to analyze data to develop corrective action
                                                   plans to reduce or eliminate program deficiencies. A State with a high error rate must
                                                   develop a QC corrective action plan to address deficiencies revealed through an
                                                   analysis of its own QC data. A State with an excessive error rate will be required to
                                                   invest a specified amount (depending on its error rate and size) designated specifically
                                                   to correct and lower its error rate. The State also will face further fiscal penalties if it fails
                                                   to lower its error rate in a future fiscal year.
                                                   Steps that are (or will be) taken to improve the overall control environment and improper
                                                   payments
                                                   FNS, through its regional offices, works directly with States to impart the importance of
                                                   payment accuracy and correct payments to State leadership. The agency also helps
                                                   those leaders develop effective corrective action strategies to reduce payment errors.
                                                   Regional offices provide many forms of technical assistance to States, such as:
                                                   •    Analyzing data;
                                                   •    Reviewing and monitoring corrective action plans;
                                                   •    Developing strategies for error reduction and corrective action;
                                                   •    Participating on boards and in work groups; and
                                                   •    Hosting, attending and supporting payment accuracy conferences.
                                                   FNS administers a State Exchange Program that provides funds to States to facilitate
                                                   travel for obtaining, observing and sharing information on best practices and effective
                                                   techniques for error reduction. Coalitions have been formed among States to promote
                                                   partnerships, information exchange and collaborative efforts. These efforts address
                                                   mutual concerns and support development of effective corrective action.
FNS      National School Lunch Program (NSLP)      FNS has worked closely with OMB, Congress, the States, schools, and advocacy
                                                   partners for two decades to gain a better understanding of erroneous payments, and to
                                                   develop and implement initiatives to address them:
                                                   Strengthened the Certification Process through Legislative Program Reauthorization
                                                   FNS worked with Congress to develop the Child Nutrition and WIC Reauthorization Act
                                                   of 2004 (CNR) to enact program changes that address school meals certification
                                                   problems. The act strengthened the certification process by:
                                                   •    Requiring food stamp direct certification for free meals in all school districts, and
                                                        continuing authority for optional direct certification using data from the Temporary
                                                        Assistance for Needy Families (TANF) and the Food Distribution Program on
                                                        Indian Reservations (FDPIR);
                                                   •    Simplifying the certification process by requiring a single application for all eligible
                                                        children in a household;
                                                   •    Requiring eligibility determinations to be in effect for the entire school year;
                                                   •    Modifying verification requirements, and adding authority for optional direct
                                                        verification of children’s eligibility;
                                                   •    Requiring State agencies to conduct additional administrative reviews of school
                                                        districts with higher rates of error;
                                                   •    Expanding authority for the use of public records for verification of applications; and




                                                               260
                                          FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                Corrective Actions Planned
                                                   •    Requiring increased efforts to obtain household response to application verification
                                                        requests; requiring districts with high rates of non-response to verification to target
                                                        subsequent year verification activity toward error-prone applications.
                                                   FNS is engaged in continuing efforts to fully implement all the provisions of the CNR
                                                   designed to improve program accountability.
                                                   Improved State and Federal Oversight and Technical Assistance
                                                   FNS conducted the following to improve oversight and technical assistance:
                                                   Since 2004, required annual training for schools on certification and accountability
                                                   issues;
                                                   •    Secured funding from Congress in 2004 for FNS technical assistance to help State
                                                        and local partners reduce administrative errors and improve program integrity;
                                                   •    Provided ongoing guidance and training materials to State agencies to improve
                                                        monitoring of schools; and
                                                   •    Since 1995, provided ongoing guidance and training materials to States on the
                                                        School Meals Initiative (SMI), to help schools improve compliance with program
                                                        nutrition and menu planning standards in order to increase the accuracy of meal-
                                                        counting.
                                                   Expanded National Data Collection and Analysis to Inform Policy
                                                   FNS conducted the following to collect and disseminate program data:
                                                   •    Initiated an annual measure of administrative errors in the certification process in
                                                        school year 2004-2005;
                                                   •    As early as the 1990s, tested alternative approaches to the existing school meals
                                                        certification and verification processes to assess their impact on accuracy and
                                                        program access;
                                                   •    Highlighted the results of the data collections at numerous briefings with State and
                                                        Federal partners and Congressional staff; and
                                                   •    Developed the Access, Participation, Eligibility and Certification (APEC) study,
                                                        which provides the first comprehensive national estimate of erroneous school meal
                                                        payments for the PAR, as required by the IPIA.
                                                   Additional Action Planned
                                                   FNS proposes to expand training, technical assistance, and other efforts to reduce
                                                   payment errors that result from operational problems. Planned efforts include:
                                                   •    Working with the National Food Service Management Institute to provide web-
                                                        based training to States and schools on certification and other accountability
                                                        issues;
                                                   •    Delivering training to States on improving their oversight of local schools (fiscal
                                                        year 2008), which will lead to States’ conduct of more rigorous and robust local-
                                                        level oversight;
                                                   •    Emphasizing to State agencies that annual verification data must be used to
                                                        ensure that corrective action is taken by school districts to address error rates;
                                                   •    Partnering with the School Nutrition Association to coordinate efforts on training
                                                        and technical assistance to its membership on accountability issues; and
                                                   •    Working on strategies to continue the APEC study, which would enable FNS to
                                                        estimate and measure changes in erroneous payments over time, and would help
                                                        inform FNS, Congress, the States, and advocacy partners on the development of
                                                        additional guidance, training, and policy options.
FNS      School Breakfast Program (SBP)            •    The corrective actions planned for this program are similar to the FNS National
                                                        School Lunch Program (NSLP). See the NSLP description.




                                                              261
                                          FY 2007 Performance and Accountability Report
                                             OTHER ACCOMPANYING INFORMATION



Agency                   Program                                                  Corrective Actions Planned
FNS      Special Supplemental Nutrition Program for   •    Certification Error:
         Women, Infants and Children (WIC)            FNS plans to continue periodic examinations of certification error in the WIC Program.
                                                      The Child Nutrition Act was amended in 1998 to require income documentation for WIC
                                                      Program applicants in all States. The Final WIC Policy Memorandum #99-4,
                                                      Strengthening Integrity in the WIC Certification Process, February 24, 1999, the WIC
                                                      Certification Integrity Interim Rule (65 FR 3375, January 21, 2000) and the WIC
                                                      Certification Integrity Final Rule (65 FR 77245, December 11, 2000) implemented this
                                                      requirement. The WIC Food Delivery Final Rule (65 FR 83248, December 29, 2000)
                                                      mandated one-year disqualifications for the most serious participant violations, including
                                                      dual participation and misrepresentation of income. The WIC Miscellaneous Final Rule
                                                      (71 FR 56708, September 27, 2006) required State agencies to prevent conflicts of
                                                      interest such as clinic staff certifying themselves, close friends, or relatives, and also
                                                      required State agencies to maintain information on participant and employee fraud and
                                                      abuse.
                                                      FNS will measure the level of improper payments due to certification error in Fiscal
                                                      Years 2008-09.
                                                      •    Vendor Error:
                                                      Overall rates for vendor error are very low in relation to the volume and value of
                                                      transactions. Nevertheless, FNS will annually estimate and report improper payments to
                                                      vendors based on information on vendor investigations routinely conducted by the state
                                                      WIC Agencies and reported to FNS. The Child Nutrition Act was amended in 1996 to
                                                      require the disqualification of WIC vendors who had been disqualified by the Food
                                                      Stamp Program (FSP), and was amended in 1998 to require permanent disqualification
                                                      of vendors who had been convicted of trafficking and illegal sales. The WIC/FSP
                                                      Vendor Disqualification Final Rule (64 FR 13311, March 18, 1999) implemented these
                                                      requirements and also mandated three-year disqualifications for overcharging and
                                                      charging for food not received. The WIC Food Delivery final Rule (65 FR 83248,
                                                      December 29, 2000) mandated nationwide standards for vendor authorization, training,
                                                      and monitoring.
FNS      Child and Adult Care Food Program            CACFP has three distinct parts: Child Care Centers, Adult Daycare facilities and Family
         (CACFP)                                      Daycare Homes (FDCHs). Overall program funding is provided to state agencies which
                                                      provide funds to sponsoring organizations to pay for claims for reimbursable meals
                                                      served at provider sites. Sites can be as large as an institution or as small as a
                                                      household. Each part of CACFP has its own reimbursement structure.
                                                      Payments and claim information are transferred among FNS, State agencies, program
                                                      sponsors and program sites; each such transaction represents a risk for improper
                                                      payment. Because requirements vary significantly for each different type of program
                                                      sponsor and site, a full and rigorous assessment of the rate of improper payments is
                                                      extremely complex.
                                                      The original plan was to develop a program-wide study which would examine
                                                      reimbursements for meals served and develop program error measurements that
                                                      complied with the requirements of the IPIA. Because of the complexities of the program,
                                                      FNS estimated that it would cost $20 million to measure improper payments at the
                                                      precision required by IPIA. This amount has not been provided.
                                                      In lieu of funding for a program-wide measurement, FNS has identified the FDCH
                                                      component of this program as potentially high risk. FDCHs participate in CACFP through
                                                      public or private nonprofit sponsoring organizations. FDCH improper payments are most
                                                      likely caused by sponsor error in determining a participating home’s reimbursement tier
                                                      (tiering error) or by FDCH error in reporting the number of meals which are eligible for
                                                      reimbursement (claiming error).
                                                      Two activities are underway which provide information on improper payments in the
                                                      FDCH component of CACFP. A third activity was pilot tested during FY2007.
                                                      •    CCAP — In the Spring of 2004, FNS began the Child Care Assessment Project
                                                           (CCAP). This project was designed to measure the effectiveness of efforts to
                                                           improve the integrity of CACFP family daycare homes and provide information from
                                                           a broadly representative national sample of sponsors and providers. Over a four -
                                                           year period, FNS is conducting comprehensive on-site assessments of a sample of
                                                           participating family daycare home sponsors. These assessments are designed to
                                                           analyze the effectiveness of FNS regulatory and policy initiatives on program
                                                           performance. They will also offer insights on the control points in the claiming and




                                                                 262
                                             FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                 Corrective Actions Planned
                                                         reimbursement process that most frequently cause or contribute to improper
                                                         payments. This information will also help to support the effort to develop
                                                         measurement strategies to estimate CACFP erroneous payments pursuant to IPIA.
                                                         Data collection for this activity will conclude at the end of FY 2007 and the final
                                                         results will be presented in the USDA PAR for FY 2008.
                                                    •    Sponsor error — FNS has developed an annual sponsor tiering error measure and
                                                         tested it. CACFP sponsors are responsible for determining whether family daycare
                                                         homes receive meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2).
                                                         In FY 2007, the second annual data collection was conducted to determine a
                                                         nationally representative sponsor tiering determination error rate. The findings are
                                                         reported above.
                                                    •    Claiming error — FNS has identified two potential methods of estimating the risk of
                                                           claiming error:
                                                    1. State data approach: Use data from State monitoring visits of FDCHs.
                                                    2. Sponsor data approach: Federal staff select a random sample of sponsoring
                                                    organizations and from each use a random selection of the sponsor’s monitoring visits of
                                                    FDCHs.
                                                    Both approaches compare the number of participants observed during a monitoring visit
                                                    to the average number of meals claimed for reimbursement for the meal or snack
                                                    closest to the time of the visit. FNS pilot tested both approaches in conjunction with the
                                                    CCAP reviews in FY 2007. The pilot sample size included approximately 220 FDCHs.
                                                    Data collection has been completed and results will be reported in the FY 2008 PAR.
                                                    FNS has contracted with Mathematica Policy Research, Inc. (MPR) to evaluate the
                                                    feasibility of four different data collection methods for validating family daycare homes
                                                    (FDCHs) meal reimbursement claims. FNS is currently reviewing the results of MPR's
                                                    pretest of the four possible data collection methods. The next step is for MPR to conduct
                                                    a pilot test of the data collection method(s) which are perceived to have the greatest
                                                    likelihood of producing valid comparison between the true number of reimbursable
                                                    meals and the number claimed by FDCHs for reimbursement. Results of MPR's
                                                    evaluation will be available in FY 2008.
FSA      Milk Income Loss Contract Program (MILC)   The three most significant causes for payments being identified as improper were as
                                                         follows:
                                                    •      Information on the contract does not support payment eligibility.
                                                    •      Payment is based on incorrect production.
                                                    •      Payee’s share is incorrect.
                                                    Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                                                    a.   Broad Scope Actions Taken:
                                                    •    FSA is making every effort to lower the improper payment rate and to reduce
                                                         program weaknesses contributing to improper payments. Regardless of the
                                                         reasons improper payments are made, FSA is taking the issue of improper
                                                         payments very seriously.
                                                    •    The Agency has taken actions to correct its deficiencies in many areas and has
                                                         incorporated the priority of reducing improper payments into its strategic planning
                                                         document.
                                                    •    The FSA Administrator has personally participated in an online training module on
                                                         performance and accountability. The presentation explains the importance of
                                                         managing payments, the impact of the improper payment results from FY 2006,
                                                         and how every employee within FSA is accountable for doing their share in
                                                         reducing improper payment.
                                                    b.    Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                                    •    Provide training on improper payments to field personnel and educate them on the
                                                         importance of control procedures as well as the potential risks of noncompliance.
                                                         Training will be delivered through various means including in person and via Ag
                                                         Learn, a Department of Agriculture enterprise-side learning management system,
                                                         and is being followed up with communications and job aid to help facilitate
                                                         compliance controls.




                                                               263
                                           FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                     Corrective Actions Planned
                                                   •        Integrate the employee’s individual performance results related to reducing
                                                            improper payments into his/her annual performance rating.
                                                   •        Beginning in December 2006, FSA required COF employees to re-check eligibility
                                                            for every MILC applicant to verify and ensure that all MILC applicants met all
                                                            eligibility requirements before the application is approved. After eligibility is verified
                                                            for a MILC applicant, COF employees are required to complete a processing
                                                            checklist before disbursing payment to the eligible applicant. The payment
                                                            processing checklist requires the COF employee to certify that they reviewed
                                                            production evidence against the data entered in the eMILCX automated software
                                                            application and that a second party review was completed before each monthly
                                                            payment is issued to the producers in a dairy operation. Both the eligibility
                                                            checklist and the MILCX checklist address the primary reasons for improper
                                                            payments for the MILC program; payment based on incorrect production and
                                                            information on contract does not support payment eligibility. County Executive
                                                            Directors and a State Committee Designee are required to randomly spot check
                                                            checklists to ensure they are completed.
                                                   c.       Actions that Will be Taken that Impact All Causes of Improper Payments Identified:
                                                   •        Provide a Notice to State and COFs providing the detail findings discovered during
                                                            the FY 2007 MILC Review including established policy and procedure references
                                                            for each finding.
                                                   •        Based on sample results, amend the CCC-770 MILCX checklist, as appropriate, to
                                                            ensure that COFs are reminded of the necessary policies and steps for program
                                                            compliance.
                                                   •        Re-enforce current MILC policies regarding program policy and compliance
                                                            through issuance of National notices to State and COF personnel. Contact State
                                                            Office managers where the majority of improper payments were identified,
                                                            according to the statistical sample, to determine possible training and/or job aids
                                                            the State and county staff may need to assist in facilitating compliance controls.
                                                   •        FSA implemented a new compliance review process for Fiscal Year 2007. The
                                                            new compliance review spot check process will allow FSA to conduct a more
                                                            meaningful and comprehensive sport check/compliance review and utilize a better
                                                            mechanism for reporting spot check results. The new reporting mechanism will
                                                            allow the National Office to monitor improper payments discovered as a result of a
                                                            spot check.
                                                   •        Clarification amendments have been made to 11-D, in addition to answering
                                                            questions received from COF employees pertaining to completing spot checks and
                                                            implementing new corrections functionality in the eMILCX automated software
                                                            released May 16, 2007.
                                                   COC Dairy Operation Reconstitution Reviews – A dairy operation that reorganizes or
                                                   restructures the constitution or makeup of their operations into another organization
                                                   framework is subject to a review by FSA to determine legitimacy. This ensures that
                                                   dairy operations reorganize according to State requirements for a single dairy operation
                                                   so that payments are not issued to multiple dairy operations erroneously.
FSA      Loan Deficiency Payments (LDP)                 The three most significant causes for payments being identified as improper were as
                                                        follows:
                                                        •


                                                        •      The LDP quantity is not supported by a producer certification, measurement
                                                               service, warehouse receipt, or other acceptable production evidence.
                                                        •      Late payment interest was not paid.
                                                        •      The LDP application was not on file.
                                                        Actions taken or that will be taken to reduce the weaknesses identified are as
                                                        follows:
                                                        a.     Broad Scope Actions Taken:
                                                        See the actions described in the Marketing Assistance Loan Program (MAL) shown
                                                        above. The same actions apply to this program.
                                                        b.     Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                                        The actions taken were completed late in FY 2006 or early FY 2007 so would have
                                                        their impact on the FY 2007 payment activity. The FY 2007 payment activity will be




                                                                  264
                                          FY 2007 Performance and Accountability Report
                                           OTHER ACCOMPANYING INFORMATION



Agency                   Program                                                      Corrective Actions Planned
                                                           sampled as part of the FY 2008 review cycle.
                                                           •       Issued various National Notices to State and COFs providing them with
                                                                   instructions related to training, proper processing of payments, and the new
                                                                   checklist for processing loans.
                                                           •       Provide training on improper payments to field personnel and educate them on
                                                                   the importance of control procedures as well as the potential risks of
                                                                   noncompliance. Training was delivered through various means including in
                                                                   person and via Ag Learn, a Department of Agriculture enterprise-wide learning
                                                                   management system, and is being followed up with communications and job
                                                                   aid to help facilitate compliance controls.
                                                           •       Integrate the employee’s individual performance results related to reducing
                                                                   improper payments into his/her annual performance rating.
                                                           •       Developed a new checklist, the CCC-770 LDP/eLDP, LDP/eLDP Checklist, for
                                                                   COF employees to use. By completing the CCC-770 LDP/eLDP, the COF
                                                                   employee is certifying that the applicable program provisions have, or have not
                                                                   been met. Handbook 8-LP was amended on December 13, 2006, to include
                                                                   policy that a CCC-770 MAL or CCC-770 LDP/eLDP must be completed before
                                                                   a loan or LDP is issued.
                                                           c.      Actions That Will be Taken that Impact All Causes of Improper Payments
                                                                   Identified:
                                                           •       FSA is implementing a new compliance review process for the 2007 crop year.
                                                                   The new compliance spot check review process will allow FSA to (1) conduct a
                                                                   more meaningful and comprehensive spot check/compliance review and; (2)
                                                                   utilize a better mechanism for reporting spot check results. The new reporting
                                                                   mechanism will allow the National Office to monitor improper payments
                                                                   discovered as result of a spot check.
                                                           •       Provide a Notice to State and COFs providing the detail findings discovered
                                                                   during the FY 2007 LDP Statistical Sample including established policy and
                                                                   procedure references for each finding.
                                                           •       Based on sample results, amend the CCC-770 LDP/eLDP checklist, as
                                                                   appropriate, to ensure that COFs are reminded of the necessary policies and
                                                                   procedures for program compliance.
                                                           •       Contact State Office managers where the majority of improper payments were
                                                                   identified, according to the statistical sample, to determine possible training
                                                                   and/or job aids the State and county staff may need to assist in facilitating
                                                                   compliance to controls.
                                                           •       Re-enforce current program policies regarding program compliance through the
                                                                   issuance of National notices to State and COF personnel.
                                                           •       Review existing policy and procedures to determine program compliance
                                                                   inefficiencies and eliminate inadequate program compliance controls.
                                                           •       Enhance current financial systems and security issues in order to use Treasury
                                                                   Offset Program System to verify Debt Collection Improvement Act compliance.
FSA      Direct and Counter-Cyclical Payments              The results of DCP’s FY 2007 statistical sample of improper payments were based
         (DCP)                                             on FY 2006 DCP payment data. DCP’s FY 2007 sample results indicate that the
                                                           most significant error for FY 2006 DCP payments was that the payee’s interest in
                                                           base acres on the farm did not support the claimed payment share.

                                                     Actions taken or that will be taken to reduce the weakness identified are as follows:

                                                      a.        Broad Scope Actions Taken:

                                                                See the actions described in the Marketing Assistance Loan Program (MAL)
                                                                shown above. The same actions apply to this program.

                                                      b.        Actions Already Taken that Impact Situations where the Payee’s Interest in Base
                                                                Acres on the Farm Did Not Support the Claimed Payment Share:

                                                      The actions taken were completed late in FY 2006 or early FY 2007 so the impact
                                                      would not be realized until review of the FY 2007 payment activity. The FY 2007




                                                                     265
                                            FY 2007 Performance and Accountability Report
                                        OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                    Corrective Actions Planned
                                                    payment activity will be sampled as part of the FY 2008 review cycle.

                                                    •        Integrate the employee’s individual performance results related to reducing
                                                             improper payments into his/her annual performance rating.

                                                    •        Provide training on improper payments to field personnel and educate them on
                                                             the importance of control procedures as well as the potential risks of
                                                             noncompliance. Training was delivered through various means including in
                                                             person and via Ag Learn, a Department of Agriculture enterprise-wide learning
                                                             management system, and is being followed up with communications and job aid
                                                             to help facilitate compliance controls.

                                                   Developed a new checklist, the CCC-770 DCP, DCP Contract Checklist, for COF
                                                   employees to use. By completing the CCC-770 DCP, the COF employee is certifying
                                                   that the applicable program provisions have, or have not, been met. Handbook 1-DCP
                                                   was amended on December 11, 2006, to include policy that a CCC-770 DCP must be
                                                   completed before DCP payment is issued.

                                                    c.       Actions That Will be Taken that Impact Situations where the Payee’s Interest in
                                                              Base Acres on the Farm Did Not Support the Claimed Payment Share:

                                                    •        Provide a Notice to State and COFs providing the detail findings discovered
                                                             during the FY 2007 DCP Statistical Sample including established policy and
                                                             procedure references for each finding.

                                                    •        Based on sample results, amend the CCC-770 DCP checklist, as appropriate, to
                                                             ensure that COFs are reminded of the necessary policies and procedures for
                                                             program compliance.

                                                    •        Re-enforce current program policies regarding program compliance through the
                                                             issuance of National notices to State and COF personnel.

                                                    •        Review existing policy and procedures to determine program compliance
                                                             inefficiencies and eliminate inadequate program compliance controls.

                                                    •   If possible, develop automated tools to assist COF staff with the identification of
                                                         problematic situation.
FSA      Conservation Reserve Program (CRP)         The three most significant causes for payments being identified as improper ere as
                                                      follows:

                                                         •      Incorrect payment rates.
                                                         •      Performance not certified on an AD-862 (Practice Certification)
                                                         •      Compliance not certified on a FSA-578 (Report of Acreage) or CRP-817U
                                                                (Certification of Compliance for CRP)


                                                    Actions taken or that will be taken to reduce the weaknesses identified are as follows:

                                                    a.       Broad Scope Actions Taken:

                                                             See the actions described in the Marketing Assistance Loan Program (MAL)
                                                             shown above. The same actions apply to this program.


                                                    b.       Actions Already Taken that Impact All Causes of Improper Payments Identified:

                                                    The actions taken were completed late in FY 2006 or early FY 2007 so the impact
                                                    would not be realized until review of the FY 2007 payment activity. The FY 2007
                                                    payment activity will be sampled as part of the FY 2008 review cycle.

                                                    •        Issued various National Notices to State and County Offices providing them with
                                                             instructions related to training, proper processing of payments, and the new
                                                             checklist for processing loans.




                                                                  266
                                          FY 2007 Performance and Accountability Report
                   OTHER ACCOMPANYING INFORMATION



Agency   Program                                        Corrective Actions Planned
                             •    Provide training on improper payments to field personnel and educate them on
                                  the importance of control procedures as well as the potential risks of
                                  noncompliance. Training was delivered through various means including in
                                  person and via Ag Learn, a Department of Agriculture enterprise-wide learning
                                  management system, and is being followed up with communications and job aid
                                  to help facilitate compliance controls.


                             •    Integrate the employee’s individual performance results related to reducing
                                  improper payments into his/her annual performance rating.

                             •    Developed a new checklist, the CCC-770-CRP, which is the CRP Contract
                                  Approval and Payment Checklist, for COF employees to use. By completing the
                                  CCC-770-CRP, the COF employee is certifying that the applicable program
                                  provisions have, or have not been met. Handbook Agricultural Resource
                                  Conservation Program, 2-CRP (Revision 4), Amendment 10, paragraph 7 was
                                  revised on December 13, 2006, to include provisions for CCC-770 CRP.
                                  Additionally, subparagraphs 253, A-B, 372 B-E and 496 A have been amended to
                                  update provisions for CCC-770 CRP. Exhibit 26 has been amended to include a
                                  revised copy of CCC-770 CRP. The CCC-770-CRP is a tool for employees to use
                                  to confirm that all necessary requirements for payment readiness have been
                                  completed before payment is issued. The CCC-770 form was developed to
                                  reduce COR findings and improper payments.

                             c.   Actions That Will be Taken that Impact All Causes of Improper Payments
                                      Identified:

                             •    FSA is implementing a new compliance review process for the 2007 crop year.
                                  The new compliance spot check review process will allow FSA to (1) conduct a
                                  more meaningful and comprehensive spot check/compliance review and; (2)
                                  utilize a better mechanism for reporting spot check results. The new reporting
                                  mechanism will allow the National Office to monitor improper payments
                                  discovered as result of a spot check.

                             •    Provide a Notice to State and COFs providing the detail findings discovered
                                  during the FY 2007 CRP Statistical Sample including established policy and
                                  procedure references for each finding.

                             •    Based on sample results, amend the CCC-770-CRP checklist, as appropriate, to
                                  ensure that COFs are reminded of the necessary policies and procedures for
                                  program compliance.

                             •    Contact State Office managers where the majority of improper payments were
                                  identified, according to the statistical sample, to determine possible training and/or
                                  job aids the State and COF staff may need to assist in facilitating compliance to
                                  controls.

                             •    Re-enforce current program policies regarding program compliance through the
                                  issuance of National notices to State and COF personnel.

                             •    Review existing policy and procedures to determine program compliance
                                  inefficiencies and eliminate inadequate program compliance controls.

                             •    Continuation of training efforts related to improper payments for field personnel to
                                  educate them on the importance of control procedures as well as the potential
                                  risks of noncompliance. The conservation training will consist of two levels and
                                  will be conducted through out FY 2008; and beyond if needed. The following
                                  criteria is being used by CEPD to identify the level of training needed:

                             Basic Course: This course is strongly recommended for State Office personnel with
                             less than 5 years of State Office Conservation Reserve Program (CRP) experience
                             who possess the basic knowledge, skills, and abilities to administer CRP. The
                             participant will elevate their basic level of understanding of CRP policy and procedures,




                                       267
                   FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                Corrective Actions Planned
                                                    raising their performance level through practical exercises, case studies, and
                                                    examples.
                                                    In order to provide some very efficient CRP training, the Conservation and
                                                    Environmental Programs Division will survey State Office program knowledge of CRP
                                                    policies and provisions.
                                                    Advanced Course: This course is designed for State Office personnel with 5 years or
                                                    more of State Office CRP experience that wish to elevate their level of quality for
                                                    managing and understanding of the CRP within their state.
                                                    This course will provide advanced CRP policy and procedure training in addition to in-
                                                    depth area specific training for experienced State Office Conservation personnel.
                                                        d.   Actions That Will be Taken that Impact the Incorrect Payment Rates:
                                                    •    Enhancing existing web-based software and retiring legacy systems in order to
                                                         more closely tie all program payments to a single contract file. This migration will
                                                         reduce the potential that contract payment documents and records will contain
                                                         inconsistent or out-of-date information. (See Section 7 for delivery schedule).
                                                    •    Requiring COF with potential improper payments identified to review the payment
                                                         and determine if the payment was proper had the procedures been followed. If
                                                         not, the COF will be required to establish a receivable, and take action to recover
                                                         the overpayment, and afford appropriate appeal rights.

FSA      Miscellaneous Disaster Programs (CDP)     The results of Miscellaneous Disaster Programs FY 2007 Statistical Sample for
                                                   improper payments were based on FY 2006 payment data for the following programs:
                                                   •    Crop Disaster Program
                                                   •    Livestock Assistance Program
                                                   •    Crop Disaster Program – VA
                                                   •    Tree Assistance Program – Orchard
                                                   •    Hurricane Indemnity Program
                                                   •    Florida Nursery
                                                   •    Feed Indemnity Program
                                                   •    Feed Program – American Indian
                                                   •    Florida Citrus
                                                   •    TAP – Timber
                                                   •    Florida FAV Disaster
                                                   •    TAP – Pecan Producers
                                                   •    Tree Indemnity Program.
                                                   It is important to note that none of these are permanent programs. Therefore, each
                                                   fiscal year’s payment data represents different disaster response programs based on
                                                   authorities provided by legislation passed by the Congress.
                                                   For Miscellaneous Disaster Program, the four most significant causes for payments
                                                   being identified as improper in the statistical sample were as follows:
                                                   •    Payment amount is incorrect.
                                                   •    Information on disaster application does not support payment.
                                                   •    Required acreage report is not on file.
                                                   •    Late payment interest is not paid or the amount paid was incorrect.




                                                              268
                                          FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                 Corrective Actions Planned
                                                   Actions taken or that will be taken to reduce the weaknesses identified are as follows:
                                                   a.    Broad Scope Actions Taken:
                                                   •     FSA is making every effort to lower the improper payment rate and to reduce
                                                         program weaknesses contributing to improper payments. Regardless of the
                                                         reasons improper payments are made, FSA is taking the issue of improper
                                                         payments very seriously.
                                                   •     The Agency has taken actions to correct its deficiencies in many areas and has
                                                         incorporated the priority of reducing improper payments into its strategic planning
                                                         documents.
                                                   •     The FSA Administrator has personally participated in an online training module on
                                                         performance and accountability. The presentation explains the importance of
                                                         managing payments, the impact of the improper payment results from FY 2006,
                                                         and how every employee within FSA is accountable for doing their share in
                                                         reducing improper payments.
                                                   b.    Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                                   The actions taken were completed late in FY 2006 or early FY 2007 so the impact would
                                                   not be realized until review of the FY 2007 payment activity. The FY 2007 payment
                                                   activity will be sampled as part of the FY 2008 review cycle.
                                                   •     Provide training on improper payments to field personnel and educate them on the
                                                         importance of control procedures as well as the potential risks of noncompliance.
                                                         Training was delivered through various means including in person and via Ag
                                                         Learn, a Department of Agriculture enterprise-wide learning management system,
                                                         and is being followed up with communications and job aid to help facilitate
                                                         compliance controls.
                                                   •     Integrate the employee’s individual performance results related to reducing
                                                         improper payments into his/her annual performance rating.
                                                   c.    Actions That Will be Taken that Impact All Causes of Improper Payments Identified:
                                                   •     Provide a Notice to State and COFs providing the detail findings discovered during
                                                         the FY 2007 Miscellaneous Disaster Programs Statistical Sample including
                                                         established policy and procedure references for each finding.
                                                   •     Contact State Office managers where the majority of improper payments were
                                                         identified, according to the statistical sample, to determine possible training and/or
                                                         job aids the State and COF staff may need to assist in facilitating compliance to
                                                         controls.
                                                   •     Re-enforce current disaster programs’ policies regarding program compliance
                                                         through the issuances of National notices to State and COF personnel.
                                                   •     In September 2007, the National Office will hold the 2005-2007 Crop Disaster
                                                         Program National Training for State and COF employees. Training will provide
                                                         State and COF personnel with program policy and procedure, impacts of improper
                                                         payments, and include software training.
                                                   •     Based on the FY 2007 Miscellaneous Disaster Programs Statistical Sample results,
                                                         the National Office will develop a Checklist for the 2005-2007 Crop Disaster
                                                         Program or any other new disaster program being implemented, if determined
                                                         necessary.
                                                   •     FSA implemented a new compliance review process for the 2007 crop year. The
                                                         new compliance spot check review process will allow FSA to (1) conduct a more
                                                         meaningful and comprehensive spot check/compliance review and; (2) utilize a
                                                         better mechanism for reporting spot check results. The new reporting mechanism
                                                         will allow the National Office to monitor improper payments discovered as a result
                                                         of a spot check.
FSA      Noninsured Assistance Program (NAP)            The six most significant causes for payments being identified as improper were as
                                                        follows:
                                                        •      Incorrect total production used to calculate payment
                                                        •      Unit’s yield is not properly calculated
                                                        •      Acceptable production evidence is not filed when required
                                                        •      Notice of loss not timely filed




                                                               269
                                          FY 2007 Performance and Accountability Report
                   OTHER ACCOMPANYING INFORMATION



Agency   Program                                        Corrective Actions Planned
                                •     Information on the payment application does not support the payment
                                •     Notice of loss does not support the payment.

                                Actions taken or that will be taken to reduce the weaknesses identified are as
                                follows:
                                a. Broad Scope Actions Taken:
                                      See the actions described in the Marketing Assistance Loan Program (MAL)
                                      shown above. The same actions apply to this program.
                                b.   Actions Already Taken that Impact All Causes of Improper Payments Identified:
                                The actions taken were completed late in FY 2006 or early FY 2007 so the impact
                                would not be realized until review of the FY 2007 payment activity. The FY 2007
                                payment activity will be sampled as part of the FY 2008 review cycle.
                                •    Provide training on improper payments to field personnel and educate them on
                                     the importance of control procedures as well as the potential risks of
                                     noncompliance. Training was delivered through various means including in
                                     person and via Ag Learn, a Department of Agriculture enterprise-wide learning
                                     management system, and is being followed up with communications and job
                                     aid to help facilitate compliance controls.
                                •    Integrate the employee’s individual performance results related to reducing
                                     improper payments into his/her annual performance rating.
                                •    Issued various National Notices to State and County Offices providing them
                                     with instructions related to training, proper processing of payments, and the
                                     new checklist for processing loans.
                                •    Developed a new checklist, the CCC-770-NAP, Noninsured Crop Disaster
                                     Assistance Program Payment Checklist, for County Office employees to use.
                                     By completing the CCC-770-NAP, the County Office employee is certifying that
                                     the applicable program provisions have, or have not been met. Handbook 1-
                                     NAP was amended on December 11, 2006, to include policy that a CCC-770-
                                     NAP Checklist must be completed before a payment is issued.
                                c.   Actions That Will be Taken that Impact All Causes of Improper Payments
                                     Identified:
                                •    FSA is implementing a new compliance review process for the 2007 crop year.
                                     The new compliance spot check review process will allow FSA to (1) conduct a
                                     more meaningful and comprehensive spot check/compliance review and; (2)
                                     utilize a better mechanism for reporting spot check results. The new reporting
                                     mechanism will allow the National Office to monitor improper payments
                                     discovered as result of a spot check.
                                •    Provide a Notice to State and County Offices providing the detail findings
                                     discovered during the FY 2007 NAP Statistical Sample including established
                                     policy and procedure references for each finding.
                                •    Based on sample results, amend the CCC-770-NAP checklist, as appropriate,
                                     to ensure that County Offices are reminded of the necessary policies and
                                     procedures for program compliance.
                                •    Contact State Office managers where the majority of improper payments were
                                     identified, according to the statistical sample, to determine possible training
                                     and/or job aids the State and county staff may need to assist in facilitating
                                     compliance to controls.
                                •    Re-enforce current program policies regarding program compliance through the
                                     issuance of National notices to State and county office personnel.
                                •    Review existing policy and procedures to determine program compliance
                                     inefficiencies and eliminate inadequate program compliance controls.




                                       270
                   FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



Agency                   Program                                                     Corrective Actions Planned
         Wildland Fire Suppression Management          Insufficient documentation was detected in the travel and purchase card management
                                                       processes and not in the payroll or contractual payment processes. Insufficient
                                                       documentation included: lost travel vouchers, or just incomplete documentation (for
                                                       example, some receipts missing for Purchase Card Management System (PCMS)
                                                       cards). Insufficient documentation did not result in an improper payment. The cause and
                                                       subsequent correction action plan for insufficient and or improper documentation will be
                                                       addressed during the OMB A-123 testing Corrective action plans. Several payment
                                                       processes are used in the Wildland Fire Suppression Fund so control systems vary by
                                                       process consequently corrective action will vary by process. For PCMS, FS has
                                                       implemented stricter monitoring over purchase card transactions with monthly audits
                                                       which should improve documentation problems.
                                                       In some cases prompt payment interest was not computed correctly because the
                                                       incorrect log dates were input thereby causing the Foundation Financial Information
                                                       System to underpay interest to vendors. The Lean Sigma Transaction Processing
                                                       Initiative should implement new control systems to ensure correct log dates which will
                                                       improve timely payment and ensure proper computation of prompt payment interest.
RD       Rental Assistance Program                     The overall number of errors is less than the prior report, although the combined dollar
                                                       amount is higher. This year, 19% of the overpayments were attributed to tenant
                                                       certifications that were either not signed by the tenant or not in the file. This caused the
                                                       total amount of rental assistance paid to be considered as improper. This accounts for
                                                       78% of the overpayments identified. In FY 2006, the overpayments attributed to tenant
                                                       certifications not signed by the tenant or not in the file was 7%.
                                                       Corrective actions include:
                                                       •    Errors found in this report must be followed up by Loan Servicers for corrective
                                                            actions;
                                                       •    State offices, with an error rate of 2% or higher of the total errors, must develop a
                                                            corrective action plan. The plan will include procedures to train field staff,
                                                            borrowers and property managers in appropriate required documentation and
                                                            follow-up with tenants and income-verifiers;
                                                       •    Issue an unnumbered letter to the State Offices regarding the findings from this
                                                            report.
                                                       •    Management companies, with an error rate of 5% or higher of the total errors, must
                                                            provide a corrective action plan indicating actions they will undertake to improve
                                                            internal controls for reviewing tenant file documentation.
                                                       •    The national office will continue to pursue access to the U.S. Department of Health
                                                            and Human Services new hires data to be shared with State offices.
                                                       •    Add to HB-2-3560, Multi-Family Housing (MFH) Asset Management Handbook,
                                                            Chapter 6 – Project Occupancy, a check sheet for property management agents to
                                                            review when verifying assets, income and adjustments to income;
                                                       •    Add to HB-2-3560, MFH Asset Management Handbook, Chapter 6 – Project
                                                            Occupancy, a check list of required tenant file documentation; and
                                                       •    Develop a “Fact Sheet” for MFH tenants explaining their responsibilities and rights
                                                            regarding income disclosure and verification.
RMA      Federal Crop Insurance Corporation            RMA is in the third year of the three-year review cycle established to determine the
         Program Fund                                  improper payment rate for the Federal Crop Insurance Program. The agency identified a
                                                       lower-than-expected rate in the first round of random sampling, 1.92 % absolute error,
                                                       and a slightly higher aggregate 2.68% absolute error rate for the 2007 PAR report.
                                                       Despite these findings, the agency will not have a completed benchmark established
                                                       until the review of 2006 crop year indemnities has been completed and reported in 2008.
                                                       The strategy for bringing the error rate down includes identifying error trends and policy
                                                       concerns, then correcting them. However, in the first 600 policies reviewed no definitive
                                                       trends, or underlying policy or underwriting issues have become apparent. This is due
                                                       in part to the diversity of crops being reviewed. This suggests it will be several years
                                                       before RMA would amass sufficient numbers of samples on any particular crop to draw
                                                       meaningful comparisons in the error identified.




                                                                  271
                                              FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION



Agency                  Program                                                 Corrective Actions Planned
                                                  RMA negotiated and executed a new Standard Reinsurance Agreement starting in
                                                  2005. That agreement emphasizes improved quality controls and enhanced penalties
                                                  that together should encourage participating companies who sell and service Federal
                                                  crop insurance policies to improve the improper payments rate.
NRCS     Conservation Security Program            Causes of improper payments identified in NRCS’ risk assessments for Farm Bill
                                                  programs can be categorized into four areas; statutory compliance, program
                                                  compliance, eligibility and payment calculation. Findings from prior year audits as they
                                                  applied to IPIA were incorporated into the review. Specific internal controls resulting
                                                  from these audits would not have been in effect for its sample period but will be tested
                                                  once implemented.
                                                  Participant eligibility was a target area for this year’s testing. Specifically, Highly Erodible
                                                  Land/Wetland Compliance (HEL/WC) and Adjusted Gross Income determinations.
                                                  ProTracts has automated eligibility determinations for contracts and payments made
                                                  through that tool by using the Farm Service Agency eligibility data base. NRCS used tax
                                                  returns and certified accountant statements to verify Adjusted Gross Income. Field
                                                  personnel perform HEL/WC compliance checks.
                                                  After reviewing the samples we found a total of 10 improper payments. Documentation
                                                  issues for program compliance continue to be a source of improper payments. Four of
                                                  the ten improper payments were related to the inability to produce supporting
                                                  documentation. Three were due to a lack of documentation to demonstrate control of the
                                                  land and the fourth was a lack of receipts to support a payment for use of Biofuels.
                                                  Starting with FY 2005, Conservation Security Program (CSP) payments were initiated
                                                  through our contracting tool called ProTracts. Business rules and internal controls built
                                                  into Protracts helped eliminate many of the types of improper payments we found in
                                                  prior years. This year we tested the internal controls that relate to program
                                                  documentation, eligibility and payment calculation. We found no instances of errors
                                                  made by the software for program documentation and eligibility. We did find one
                                                  payment calculation error due to the rounding routine under certain conditions. The
                                                  software has been modified to prevent this error in the future.
                                                  One of the samples was identified by the field as a cross over duplicate payment. The
                                                  Farm Bill prohibits payments for the same practice from different programs on the same
                                                  tract of land in the same fiscal year. An external audit issued by the General Accounting
                                                  Office on CSP dated April 28, 2006 highlighted this issue. Program Management
                                                  developed a plan to identify possible cross over payments and guidance to collect these
                                                  duplicate payments. The payment in this sample we selected was made prior to the
                                                  GAO audit and collection activity had been started. ProTracts now has a business rule
                                                  edit in place which should prevent this error from happening in the future.
                                                  The remaining four improper payments were the result of human errors in entering
                                                  incorrect information into Protracts. These errors were unique and highlight the need for
                                                  stronger quality assurance testing, training and/or internal controls. We are addressing
                                                  with Program Leadership adding additional internal control edits in Protracts to prevent
                                                  them where practical.
                                                  The results of this years sampling will be reported to leadership. Action items will be
                                                  developed including a timeline of milestones and individual responsible for its
                                                  completion. This information will be passed down to all State offices so that all may
                                                  benefit from weaknesses found or where improvements can be made. Where specific
                                                  action is needed to correct an error or where recovery is warranted, the State
                                                  conservationist will be contacted.




                                                              272
                                         FY 2007 Performance and Accountability Report
                                                 OTHER ACCOMPANYING INFORMATION




IV. Based on the Rate(s) Obtained in Step III, Set Annual Improvement Targets through FY 2010.
Improper Payment Reduction Outlook FY 2006 – FY 2010
Below is a summary level table for all high risk programs outlining improper payment rates for the last two years and
future reduction targets. When a number cannot be provided, an explanation is provided in the notes below. Amounts
represent when the sampling results are reported. USDA programs report results the year following sampling activity. For
example, results reported during FY 2007 represent measures of FY 2006 outlays and program activity.

                                              Improper Payment Sampling Results ($ in millions)
                                                                                    Results                            Results
                                                                               Reported in FY 2006                Reported in FY 2007
                                 Program                             Outlays        IP%          IP$     Outlays       IP%       IP$
 Marketing Assistance Loan Program, FSA/CCC [Note #12]                 7,950       20.26%        1,611    6,306       7.52%      458
 Food Stamp Program, FNS                                              28,160       5.84%         1,645   29,942       5.99%      1,794
 National School Lunch Program, FNS [Note #1]
    Total Program                                                       N/A         N/A          N/A      8,602      16.30%      1,402
    Certification Error                                                                                   8,602       9.42%      810
    Counting/Claiming Error                                                                               8,602       6.88%      592
 School Breakfast Program, FNS [Note #1]
    Total Program                                                       N/A         N/A          N/A      2,086      24.94%      520
    Certification Error                                                                                   2,086       9.15%      191
    Counting/Claiming Error                                                                               2,086      15.79%      329
 Women, Infants and Children, FNS [Note #2]
    Total Program                                                      3,525        N/A          N/A      3,598        N/A       N/A
    Certification Error Component                                      3,525        N/A          N/A      3,598        N/A       N/A
    Vendor Error Component                                             3,525       0.60%          21      3,598       0.69%       25
 Child and Adult Care Food Program, FNS [Note #2]
    Total Program                                                      2,065        N/A          N/A      2,187        N/A       N/A
    FDC Homes – Tiering Decisions                                      864         1.80%          16      738         1.69%       12
    FDC Homes – Meal Claims                                             864         N/A          N/A      738          N/A       N/A
 Milk Income Loss Contract Program, FSA [Note #3]                        9          N/A          N/A      351         2.17%       8
 Loan Deficiency Payments, FSA                                         4,790       9.25%         443      4,071       0.45%       18
 Direct and Counter-Cyclical Payments, FSA [Note #12]                  8,546       4.96%         424      9,550       0.37%       37
 Conservation Reserve Program, FSA [Note #12]                          1,815       3.53%          64      1,851       0.45%       9
 Miscellaneous Disaster Programs, FSA                                  2,365       12.30%        291      368         6.76%       25
 Noninsured Assistance Program, FSA                                    109         22.94%         25       64        13.14%       8
 Wildland Fire Suppression Management, FS [Note #4]
    Total Program                                                       725         N/A          N/A      1,412       0.95%       13
    Component Sampled                                                   285        2.49%          7       N/A          N/A       N/A
 Rental Assistance Program, RD [Note #5]                               569         3.49%          22      855         3.07%       26
 Federal Crop Insurance Corporation Program Fund, RMA                  3,206       1.92%          62      2,364       2.68%       63
 Conservation Security Program, NRCS [Note #9]                         1,375       0.22%          3       227         0.47%       1




                                                                     273
                                                 FY 2007 Performance and Accountability Report
                                                  OTHER ACCOMPANYING INFORMATION



                                      Detailed Breakout of Improper Payment Reported in FY 2007
                                          Total                                    Under-
                                        Payments                     Over-                                   Incorrect    Incomplete
                                           $ in                    Payments       Payments         Other   Disbursement   Paperwork
                                         millions        IP %         %              %              %           %             %
Marketing Assistance Loan Program,
                                           6,306         7.52%        7.52%           N/A           N/A       0.39%         7.13%
FSA/CCC
Food Stamp Program, FNS
                                          29,942         5.99%        4.82%          1.17%          N/A       5.99%          N/A
[Note #6]
National School Lunch Program,
                                           8,602        16.30%       12.36%          3.93%          N/A       16.30%         N/A
FNS [Note #1and #6]
School Breakfast Program, FNS
                                           2,086        24.94%       21.52%          3.42%          N/A       24.94%         N/A
[Note #1and #6]
Women, Infants and Children, FNS
                                           3,598         0.69%        0.24%          0.45%          N/A       0.69%          N/A
[Note #6]
Child and Adult Care Food Program,
                                            738          1.69%        1.67%          0.02%          N/A       1.69%          N/A
FNS [Note #6]
Milk Income Loss Contract Program,
                                            351          2.17%        1.73%          0.44%          N/A       2.13%         0.04%
FSA [Note #7]
Loan Deficiency Payments, FSA              4,071         .45%          .43%          .02%           N/A       0.45%          N/A
Direct and Counter-Cyclical
                                           9,550         0.37%        0.37%           N/A           N/A       0.37%          N/A
Payments, FSA
Conservation Reserve Program, FSA          1,851         0.45%        0.23%          0.22%          N/A       0.23%         0.22%
Miscellaneous Disaster Programs,
                                            368          6.76%        5.07%          1.69%          N/A       6.02%         0.74%
FSA [Note #7]
Noninsured Assistance Program,
                                            64          13.14%       10.97%         2. 17%          N/A       12.41%        0.74%
FSA
Wildland Fire Suppression
                                           1,412         0.95%        0.29%          0.09%         0.57%      0.38%         0.57%
Management, FS
Rental Assistance Program, RD               855          3.07%        2.42%          0.65%          N/A       1.92%         1.16%
Federal Crop Insurance Corporation
                                           2,364         2.68%        2.64%          0.04%          N/A       2.68%          N/A
Program Fund, RMA
Conservation Security Program, NRCS         227          0.47%        0.47%          0.00%          N/A       0.23%         0.24%
Total                                     72,385         6.11%        4.99%                                   5.47%         0.64%




                                                                       274
                                                   FY 2007 Performance and Accountability Report
                                            OTHER ACCOMPANYING INFORMATION




                                          Improper Payment Reduction Outlook ($ in millions)
                                              FY 2008 Reporting                 FY 2009 Reporting          FY 2010 Reporting
                Program                    Outlays      IP%        IP$      Outlays       IP%    IP$     Outlays   IP%     IP$
 Marketing Assistance Loan Program,
 FSA/CCC                                   10,660      7.00%       746       8,749       5.00%   438      9,119    2.50%   228
 Food Stamp Program, FNS [Note #6]         30,376      5.80%      1,762      31,351      5.70%   1,787   31,961    5.60%   1,790
 National School Lunch Program, FNS
 [Note #1and #6]                            8,761       TBD        TBD       9,115        TBD    TBD      TBD      TBD     TBD
 School Breakfast Program, FNS
 [Note #1and #6]                            2,226       TBD        TBD       2,371        TBD    TBD      TBD      TBD     TBD
 Women, Infants and Children, FNS
 [Note #6]                                  4,158      0.64%        27       4,093       0.59%      24    TBD      TBD     TBD
 Child and Adult Care Food Program, FNS
 [Note #6]                                   702       1.64%        12        725        1.59%      12    TBD      TBD     TBD
 Milk Income Loss Contract Program, FSA
 [Note #7]                                   200       2.00%         4        N/A         N/A    N/A      N/A       N/A    N/A
 Loan Deficiency Payments, FSA               189       0.50%         1        149        0.50%      1      33      0.50%    1
 Direct and Counter-Cyclical Payments,
 FSA [Note #10]                             6,899      0.41%        28       6,293       0.41%      26    6592     0.41%    27
 Conservation Reserve Program, FSA
 [Note #11]                                 1,890      0.50%        10       1,926       0.50%      10    1,879    0.50%    9
 Miscellaneous Disaster Programs, FSA
 [Note #7]                                  1,496      5.00%        75       1,403       3.50%      49    N/A       N/A    N/A
 Noninsured Assistance Program, FSA          154       10.00%       15        325        5.00%      16    325      2.50%    8
 Wildland Fire Suppression Management,
 FS                                         1,410       .90%        13       1,406       0.85%      11    1,500    0.80%    9
 Rental Assistance Program, RD               888       3.00%        27        924        2.90%      27    961      2.80%    27
 Federal Crop Insurance Corporation
 Program Fund, RMA [Note #8]                3,421      3.80%       130       3,500       3.70%   130      3,500    3.60%   126
 Conservation Security Program, NRCS
 [Note #9]                                   272       0.40%         1        388        0.30%      1     496      0.20%    1


Note #1: The NSLP and SBP are reporting error rates for the first time in the FY 2007 report based on the 2005-2006
school year. The study methodology derived separate estimates of erroneous payments from each source of error for the
NSLP and SBP. Interaction between sources of error can affect the actual erroneous payment that results from any single
transaction in the two programs. The estimate of erroneous payments for each source is the error that would result if the
other sources were free of error. Adding the certification error and non-certification error erroneous payments estimates
together tends to inflate the overall estimate; therefore, this combined estimate should be considered an upper bound of
an overall estimate of payment error for the NSLP and SBP.

Note #2: WIC and CACFP tested components of their total program. WIC tested a component of the payment process
on a sample of all outlays. CACFP tested a component of the payment process of a component of the total outlays. FNS
intends to report a WIC certification error in FY 2009.

Note #3: MILC was not tested in FY 2006 due to very low outlays during FY 2005. Testing resumed in FY 2007
reviewing outlays during FY 2006. MILC expires, September 30, 2007. Thus, no outlays are expected beyond FY 2007.



                                                                  275
                                              FY 2007 Performance and Accountability Report
                                         OTHER ACCOMPANYING INFORMATION



Note #4: The entire Wildland Fire Suppression Management program was sampled for the FY 2007 report, including
payroll, travel and purchase card transactions. For FY 2005 and FY 2006, only the portion of the program related contract
payments were sampled.

Note #5: For FY 2007 reporting, the Rental Assistance statistical sample is based on the entire FY 2006. The FY 2006
results were based on a partial sample period September 1, 2005 to May 31, 2006. The results reported in both FY 2006
and FY 2007 contain eight months of overlapping FY 2006 outlays.

Note #6: The NSLP and SBP are reporting error rates for the first time in FY 2007. Since the study results were recently
announced, FNS is just beginning to address NSLP and SBP reduction targets for FY 2008 and FY 2009. FNS will
provide OMB the NSLP and SBP reduction targets with the next few months. The only FNS program with a reduction
target available for FY 2010 is the Food Stamp program. Other FNS programs will develop FY 2010 estimated outlay
projections and reduction targets as part of the FY 2010 budget process. Corrective action plans were developed for these
programs addressing the causes and identifying initiatives to reduce improper payments.

Note #7: The program currently is not authorized in FY 2009 and does not have any estimated outlays.
Note #8: RMA has completed the second year of a three year testing cycle. In FY 2008, RMA will report the third year of
a thee year cycle and provide more informed out-year projections for FY 2009, FY 2010 and FY 2011.
Note #9: The Conservation Security program is one of six Farm Security and Rural Investment (Farm Bill) programs. For
FY 2006, all Farm Bill programs were reviewed. For FY 2007, only the Conservation Security program was sampled. For
the FY 2008 review, USDA added all Farm Bill programs due to concerns over eligibility data. Those programs will
remain as part of the review process until the concerns are mitigated or the improper payments statistical results are
proven to be below the high risk standards.
Note #10: Current program authority for the Direct & Counter-Cyclical program ends September 30, 2007. Future
reduction target rates assume current program policies and procedures will continue in effect. It is anticipated that
program policies and procedures will change due to new Farm Bill proposals under consideration. The impact of those
changes is unknown and affect on improper payment rates cannot be estimated a this time. Until all proposals are
finalized and the Farm Bill is signed into law, future performance targets are being based on assumption that current
program polices and procedures are continuing.

Note #11: Current program authority for the Conservation Reserve program ends December 31, 2007. Future reduction
target rates assume current program policies and procedures will continue in effect. It is anticipated that program policies
and procedures will change due to new Farm Bill proposals under consideration. The impact of those changes is unknown
and affect on improper payment rates cannot be estimated at this time. Until all proposals are finalized and the Farm Bill
is signed into law, future performance targets are being based on the assumption that current program polices and
procedures are continuing.

Note #12: The FY 2007 estimated improper payment dollar amounts for the Marketing Assistance Loan program, Direct
& Counter-Cyclical Payments and the Conservation Reserve program reflect a slight variance from the relationship
between the improper payment percentage and the outlays amount. These variances result from the complex, multi-stage
statistical sampling methodology used to calculate the independent projections of the dollars/percentages in error. The
variances are not an attribute measurement, but rather a complex ratio estimate weighted with respect to the payments
within their applicable county stratification.



                                                              276
                                          FY 2007 Performance and Accountability Report
                                             OTHER ACCOMPANYING INFORMATION




V. Discussion of your Agency’s Recovery Auditing effort, if applicable, including any contract types
excluded from review and the justification for doing so; actions taken to recoup improper payments, and
the business changes and internal controls instituted and/or strengthened to prevent further occurrences.
In addition, complete the table below.
USDA continued its recovery audit program with seven agencies in FY 2007. All agencies used independent recovery
audit firms working on contingency.

Steps taken to reduce future errors include strengthening internal controls by providing information related to all
recovered monies and the underlying transactions to management. The most successful method of identifying funds to be
recovered has been the review of vendor statements. Most amounts identified during FY 2007 were due to the vendor
statements reviews started in FY 2006.

                                           FY 2007 Recovery Auditing Results ($ in Million)
                                                                                                             Cumulative
                   Amount        Actual       FY 2007                                                         (Current &     Cumulative
                  Subject to    Amount       Amounts                        Prior Years                      Prior Years)     (Current &
                  Review for   Reviewed      Identified     FY 2007          Amounts          Prior Years      Amounts       Prior Years)
     Agency        FY 2007        and           for         Amounts        Identified for      Amounts      Identified for    Amounts
  Component       Reporting    Reported      Recovery      Recovered         Recovery         Recovered        Recovery      Recovered
 Forest Service   1,207.115    1,207.115       0.131         0.071              .338             0.353           .469          0.424
 Natural
 Resources
 Conservation
 Service           830.732     830.732         0.026          0.026            0.000            0.000           0.026           0.026
 Agricultural
 Research
 Service           457.351     457.351         0.000          0.000            0.000            0.000           0.000           0.000
 Animal Plant
 Health
 Inspection
 Service           439.600     439.600         0.000          0.000            0.374            0.374           0.374           0.374
 Farm Service
 Agency            114.087     114.087         0.047          0.047            0.000            0.000           0.047           0.047
 Food Safety
 and Inspection
 Service           34.985       34.985         0.000          0.000            0.000            0.000           0.000           0.000
 Rural
 Development       66.899       66.899         0.000          0.000            0.000            0.000           0.000           0.000
 Agricultural
 Marketing
 Service           32.176       32.176         0.002          0.002            0.000            0.000           0.002           0.002
 All Others       2,083.754      0.000         0.000          0.000              N/A             N/A              N/A            N/A
 USDA Total       5,266.699    3,182.945       0.206          0.146             .712            0.727            .918           0.873




                                                                  277
                                              FY 2007 Performance and Accountability Report
                                           OTHER ACCOMPANYING INFORMATION




VI. Describe the steps the agency has taken and plans to take (including time line) to ensure that agency
managers (including the agency head) are held accountable for reducing and recovering improper payments.
FSA
The following are steps that have or will continue to be taken to ensure agency managers are held accountable for reducing
and recovering improper payments:

The National Office will continue supporting the use of the program checklists for eligibility and program policy by local
offices processing program applications. By completing the program Checklists, the County Office (COF) employee is
certifying that the applicable program provisions have, or have not been met. The County Executive Director (CED) and
State Committee (STC), or their designated representative, are required to spot check a certain number of program
checklists. The CED, or their designated representative, must report to County Office Committee (COC) and the STC
representative any checklists in which CED does not concur with the preparer’s determination. The STC, or their
designee, shall submit the results of the spot checks to the (State Executive Director (SED). SEDs are required to provide
the National Office with a report of FSA programs spot checked.

     FSA has a performance management program in place to improve individual and organizational effectiveness in
      accomplishing the Agency’s mission and goals. This program provides for improper payments to be included in the
      SED Performance Plan, element 5 titled “Program Management.”
     National and State Office (STO) managers are held accountable for ensuring that program policies and procedures are
      provided to the STO and COF employees accurately and on a timely basis. National Office managers are also held
      accountable, as reflected in the performance based rating measures, for overall program administration at the National
      level. FSA employees’ performance elements are directly related to FSA’s Strategic Plan.
     COF employees, including the CED, are responsible for making payments to producers and following all
      administrative steps in doing so. Employees will be evaluated on program delivery and their compliance with
      regulations, policies, and procedures through their performance plans.
     Deputy Administrator of Field Operations will facilitate meetings with the program areas to discuss any additional
      action necessary for senior management to address accountability.
     Employees at all levels of the Agency will be held accountable for efficient and accurate delivery of all FSA programs.

FNS
An agency priority is to improve stewardship of Federal funds. Within this priority are specific goals applicable to
programs at high risk for erroneous payments. The goal for the Food Stamp Program, Special Supplemental Nutrition
Program for Women Infants and Children, and Child and Adult Care Food Program is to reduce the error rates. The
agency goals and priorities are incorporated into each manager’s performance plan.

FS
The entire Albuquerque Service Center management team is held accountable by performance metrics that include
compliance with the Improper Payments Information Act. Additionally, the agency chief financial officer will provide
disbursement performance information to the agency head as part of the performance appraisals for senior leadership.




                                                                278
                                            FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



RD
RD State Offices with an error rate of two percent or higher must develop a corrective action plan. The plan will include
procedures to train field staff, borrowers and property manager in appropriate required documentation and follow-up with
tenants and income-verifiers.

RMA
RMA revised its strategic plan to provide results to enhance accountability. It also has established procedures to ensure
RMA management takes future corrective actions to address program vulnerabilities. Additionally, every employee’s
performance plan agreement contained a position-corresponding strategic objective element since FY 2005.

NRCS
NRCS has incorporated all of PMA’s goals and objectives, including IPIA, in the performance standards for all senior
executive service positions. These also are planned to be included in the regional assistant chiefs and state conservationist
performance plans.

VII A. Describe whether the agency has the information systems and other infrastructure it needs to
reduce improper payments to the levels the agency has targeted.
VII B. If the agency does not have such systems and infrastructure, describe the resources the agency
requested in its FY 2007 budget submission to Congress to obtain the necessary information systems and
infrastructure.
While USDA is creating information systems and infrastructure to reduce improper payments, especially for programs
susceptible to significant risk, efforts in some programs are constrained by limited resources. USDA has worked closely
with OMB to develop action plans that focus available resources on the most critical needs with regard to improper
payment measurement and risk reduction.

VIII. Describe any statutory or regulatory barriers which may limit the agencies’ corrective actions in
reducing improper payments and actions taken by the agency to mitigate the barriers’ effects.
FSA/CCC
The Department of Agriculture Reorganization Act of 1994, Section 281 provides that “[E]ach decision of a State,
county, or area committee or an employee of such a committee, made in good faith in the absence of misrepresentation,
false statement, fraud, or willful misconduct shall be final not later than 90 calendar days after the date of filing of the
application for benefits, [and] ...no action may be taken...to recover amounts found to have been disbursed as a result of
the decision in error unless the participant had reason to believe that the decision was erroneous.” This statue commonly
is referred to the “Finality Rule.”

FNS
The 2002 Farm Bill restricts the liability levels States can be sanctioned due to high error rates. It also restricts the amount
of bonus funding available to States that do a good job reducing and maintaining a low error rate. In many instances the
goal of providing easy access to benefits must be balanced with the goal of reducing improper and erroneous payments.
While the risks involved vary by program, some general characterizations can be made:




                                                               279
                                           FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



    Program administration is decentralized and can involve a myriad of governmental and non-governmental
     organizations;
    States and localities tend to focus on managing local funds, rather than Federal funds; and
    Proper implementation of nutrition assistance programs requires a high degree of accuracy.

RD
The RD program does not have the statutory requirements similar to the Department of Housing and Urban
Development to gain access to data from the Department of Health and Human Service’s New Hire Database, Internal
Revenue Service, Social Security Administration, and the Department of Labor to be shared with field offices and
management agents.

IX Additional comments, if any, on overall agency efforts, specific programs, best practices, or common
challenges as a result of IPIA implementation.
Under the Recovery Auditing Act (P.L. 107-107), USDA agencies listed in Section V. of this report engaged recovery
auditing firms to perform recovery auditing reviews of contracts to identify improper payments. One recovery auditing
firm, as part of its 2006 review process, sent a form letter to vendors requesting information in an effort to help identify
and recover improper payments. Without a prior Federal Register notice, solicitation of comments and assessment of the
information collection burden, such a letter to vendors raised concerns whether or not the process is subject to the
provisions of the Paperwork Reduction Act. For future years, USDA will request recovery auditing firms to not sent form
letters to vendors but solely rely on the review of documentation provided by USDA to perform the improper payments
reviews.

USDA has no additional comments.




                                                               280
                                           FY 2007 Performance and Accountability Report
                                                OTHER ACCOMPANYING INFORMATION




Appendix C—Table of Exhibits

      Exhibit 1:    Headquarters Organization ............................................................................................................ 3
      Exhibit 2:    FY 2006 and 2005 USDA Program Obligations Dedicated to Strategic Goals ............................ 5
      Exhibit 3:    FY 2006 and 2005 USDA Staff Years Dedicated to Strategic Goals............................................. 6
      Exhibit 4:    USDA Scorecard for FY 2007........................................................................................................ 7
      Exhibit 5:    Summary of Material Weaknesses................................................................................................ 36
      Exhibit 6:    Summary of Management Assurances.......................................................................................... 36
      Exhibit 7:    Initiatives To Be Completed ........................................................................................................ 40
      Exhibit 8:    Decrease in Total Open Audit Inventory ..................................................................................... 41
      Exhibit 9:    Inventory of Audits with Disallowed Costs.................................................................................. 41
      Exhibit 10:   Distribution of Adjustments to Disallowed Costs........................................................................ 41
      Exhibit 11:   Inventory of Audits with Funds To Be Put to Better Use............................................................ 42
      Exhibit 12:   Decrease in Audits Open One or More Years Past Management Decision Date........................ 42
      Exhibit 13:   Distribution of Audits Open One or More Years Past the Management Decision Date, Disallowed
                    Costs and FTBU........................................................................................................................... 43
      Exhibit 14:   Audits Open One Year or More Past the Management Decision Date and Behind Schedule ... 43
      Exhibit 15:   Key Performance Measures .......................................................................................................... 46
      Exhibit 16:   Increase U.S. Export Opportunities ............................................................................................. 51
      Exhibit 17:   Trends in Expanding and Retaining Market Access .................................................................... 51
      Exhibit 18:   Support Foreign Food Assistance................................................................................................. 56
      Exhibit 19:   Support Foreign Food Assistance................................................................................................. 56
      Exhibit 20:   Increase U.S. Export Opportunities ............................................................................................. 59
      Exhibit 21:   Trends in Expanding and Retaining Market Access .................................................................... 59
      Exhibit 22:   Increase the Use of Biobased Products ......................................................................................... 62
      Exhibit 23:   Agricultural Statistics Reports Released On-Time ...................................................................... 64
      Exhibit 24:   Trends in Agricultural Statistics Reports Released On-Time...................................................... 64
      Exhibit 25:   Percent of Market-Identified Quality Attributes for which USDA Has Provided
                    Standardization............................................................................................................................. 64
      Exhibit 26:   Trends in Market-Identified Quality Attributes for which AMS/GIPSA Has Provided
                    Standardization............................................................................................................................. 65
      Exhibit 27:   Providing Tools to Help Farmers and Ranchers Stay Economically Viable ................................ 69
      Exhibit 28:   Trends in Providing Tools To Keep Farmers and Ranchers Economically Viable...................... 70
      Exhibit 29:   Strengthen Rural Businesses......................................................................................................... 73
      Exhibit 30:   Trends in Creating or Saving Jobs................................................................................................ 73
      Exhibit 31:   Improving Rural Quality of Life Through Homeownership Opportunities ................................ 78
      Exhibit 32:   Trends in Rural Home Ownership............................................................................................... 78
      Exhibit 33:   Improving Rural Quality of Life Through Water and Waste Disposal Facilities ........................ 78
      Exhibit 34:   Trends in Water and Waste Disposal Service .............................................................................. 78
      Exhibit 35:   Improving Rural Quality of Life Through Community Facilities................................................ 79
      Exhibit 36:   Trends in Community Facilities................................................................................................... 79
      Exhibit 37:   Improving Rural Quality of Life Through Electric Facilities....................................................... 79
      Exhibit 38:   Trends in Electric Facilities .......................................................................................................... 79



                                                                             281
                                                  FY 2007 Performance and Accountability Report
                                          OTHER ACCOMPANYING INFORMATION



Exhibit 39:   Improving Rural Quality of Life Through Telecommunications Facilities.................................. 79
Exhibit 40:   Trends in Telecommunications Facilities..................................................................................... 80
Exhibit 41:   Pathogen Reduction (Food Inspection)........................................................................................ 83
Exhibit 42:   Trends in Pathogen Reduction (Food Inspection) ....................................................................... 83
Exhibit 43:   Ensure the Capabilities of Plant and Diagnostic Laboratories are Improved............................... 85
Exhibit 44:   Trends Improving the Capabilities of Diagnostic Laboratories ................................................... 85
Exhibit 45:   Strengthen the Effectiveness of Pest and Disease Surveillance and Detection Systems............... 88
Exhibit 46:   Trends in Strengthening the Effectiveness of Pest and Disease Surveillance and
              Detection Systems ........................................................................................................................ 88
Exhibit 47:   Improve Access to Nutritious Food.............................................................................................. 95
Exhibit 48:   Trends in Improving Access to Nutritious Food........................................................................... 95
Exhibit 49:   Promoting Healthier Eating Habits and Lifestyles ...................................................................... 97
Exhibit 50:   Trends to Promote Healthier Eating Habits and Lifestyles......................................................... 97
Exhibit 51:   Increase Efficiency in Food Management .................................................................................... 99
Exhibit 52:   Trends in Increased Efficiency in Food Management................................................................ 100
Exhibit 53:   Healthy Watersheds, High Quality Soils and Sustainable Ecosystems...................................... 104
Exhibit 54:   Trends in Application of Comprehensive Nutrient Management Plans and CRP
              Riparian and Grass Buffers......................................................................................................... 104
Exhibit 55:   Enhanced Soil Quality................................................................................................................ 107
Exhibit 56:   Trends in Soil Quality Protection............................................................................................... 107
Exhibit 57:   Hazardous Fuel Reduction ......................................................................................................... 113
Exhibit 58:   Trends in Treatment of Hazardous Fuel .................................................................................... 113
Exhibit 59:   Sustainable Forests and Grasslands ............................................................................................ 113
Exhibit 60:   Trends in Protection of Non-federal Forests and Grasslands .................................................... 114
Exhibit 61:   Improved Wildlife Habitat ......................................................................................................... 116
Exhibit 62:   Trends in Wildlife Habitat Enhancement.................................................................................. 117




                                                                       282
                                            FY 2007 Performance and Accountability Report
                                               OTHER ACCOMPANYING INFORMATION




Appendix D—Acronyms

ACSI – American Customer Satisfaction Index                              CYFAR – Children, Youth, and Families at Risk Program
AETI – Agribusiness Education, Training and Incubator Project            ERS – Economic Research Service
AFB – American Foul Brood                                                ERS – Enterprise Reporting System
AGOA – African Growth and Opportunity Act                                EU – European Union
AHMS – Animal Health Monitoring and Surveillance                         FACTS – Forest Service Activity Tracking System
AI – Avian Influenza                                                     FAD – Foreign Animal Disease
AKI – Agricultural Knowledge Initiative                                  FB4P – Federal Biobased Products Preferred Procurement Program
ALB – Asian Longhorned Bettle                                            FDPIR – Food Distribution Program on Indian Reservation
AMP – Asset Management Plan                                              FFIS – Foundation Financial Information System
ANNH – Alaska Native-Serving and Native Hawaiian-Serving Institutions    FFMIA – Federal Financial Management Improvement Act
Education Grants Program
                                                                         FISMA – Federal Information Security Management Act
ART – Account Relationship Tool
                                                                         FLP – Farm Loan Programs
ARS – Agricultural Research Service
                                                                         FMMI – Financial Management Modernization Initiative
ASB – Agricultural Statistics Board
                                                                         FRPC – Federal Real Property Council
ATS – Automated Targeting System
                                                                         FS – Forest Service
B&I – Business and Industry
                                                                         FS R&D – Forest Service Research and Development
BBP – Building Block Plans
                                                                         FSA – Farm Service Agency
BSE – Bovine Spongiform Encephalopathy
                                                                         FSA – Food Safety Assessment
CCD – Collapsing Colony Disorder
                                                                         FSP – Food Stamp Program
CDC – U.S. Centers for Disease Control and Prevention
                                                                         FSRE – Food Safety Regulatory Essentials
CDL – Cropland Data Layers
                                                                         FSRIA – Farm Security and Rural Investment Act of 2002
CEM – Contagious Equine Metritis
                                                                         FTA – Free Trade Agreement
CHRP – Citrus Health Response Plan
                                                                         FTE – Full-Time Employee
CIA – Conjugated Inoleic Acid
                                                                         FY – Fiscal Year
CIMS – Comprehensive Information Management System
                                                                         GAO – Government Accountability Office
CNMP – Comprehensive Nutrient Management Plans
                                                                         GE – Genetically Engineered
CPI – Consumer Price Index
                                                                         GIS – Geographic Information System
CRP – Conservation Reserve Program
                                                                         GPS – Global Positioning System
CSFP – Commodity Supplemental Food Program
                                                                         GWSS – Glassy-winged Sharpshooter
CSREES – Cooperative State Research, Education and Extension
Service                                                                  HACCP – Hazard Analysis and Critical Control Point

CTA – Conservation Technical Assistance Program                          HFI – Healthy Forest Initiative

CWPP – Community Wildlife Protection Plans                               HFRA – Healthy Forest Restoration Act




                                                                     283
                                                 FY 2007 Performance and Accountability Report
                                                  OTHER ACCOMPANYING INFORMATION




                                                                          NAIS – National Animal Identification System
DA – The Department of Agriculture of the Philippines
                                                                          NAP – Noninsured Crop Disaster Assistance Program
DDG – Distiller Grain
                                                                          NCP – National Conservation Planning Database
DHS – The United States Department of Homeland Security
                                                                          NDB – National Data Bank
DOI – United States Department of the Interior
                                                                          NITC – National Information Technology Center
DR – Dominican Republic/*
                                                                          NPP – National Posted Price
DR-CAFTA – Dominican Republic-Central American Free Trade
Agreement                                                                 NRI – National Research Institute
EA – Enterprise Architecture                                              NSLP – National School Lunch Program
EAB – Emerald Ash Borer                                                   NVAP – National Veterinary Accreditation Program
ECMM – Enterprise Correspondence Management Module                        NVSL – National Veterinary Services Laboratories
EDI – Electronic Data Interchange                                         OCFO – Office of the Chief Financial Officer
EFCRP – Emergency Forestry Conservation Reserve Program                   OEPNU – Office of Energy Policy and New Uses
EFNEP – Expanded Food and Nutrition Education Program                     OIE – World Organization of Animal Health
EFT – Electronic Funds Transfer                                           OIG – Office of the Inspector General
END – Exotic Newcastle Disease                                            OMB – United States Office of Management and Budget
EPP – Emerging Plant Pest                                                 OPM – Office of Personnel Management
EPPO – European & Mediterranean Plant Protection Organization             PART – Program Assessment Rating Tool
EQIP – Environmental Quality Incentives Program                           PBIS – Performance-Based Inspection System
HSDP-9 – Homeland Security Presidential Directive 9                       PC – Plum Curculio
IAER – Iraq Agricultural Extension Revitalization Project                 PEIS – Program Evaluation and Improvement Staff
IGP – IT Governance Process                                               PHDCIS – Public Health Data Communication Infrastructure Systems
IPIA – Improper Payments Information Act                                  PHICP – Public Health Information Consolidation Projects
IPPC – International Plant Protection Center                              PMA – President’s Management Agenda
IS – Information System                                                   PRA – Pest Risk Assessment
IT – Information Technology                                               ProTacts – Program Contracts System
Lm – Listeria Monocytogenes                                               PRS – Performance Results System
LSTP – Lean Six Sigma Transaction Process                                 PRT – Provincial Reconstruction Team
MID-SIPP – Monthly Income Dynamics, Survey of Income and Program          QC – Quality Control
Participation
                                                                          R&D – Research and Development
MIDAS – Modernize and Innovate the Delivery of Agricultural Systems
                                                                          RND – Results Not Demonstrated
MITS – Management Initiatives Tracking System
                                                                          RTE – Ready to Eat
MOA – Memorandum of Agreement
                                                                          SAM – State Agency Model
NAFTA – North American Free Trade Agreement
                                                                          SBP – School Breakfast Program
NAHSS – National Animal Health Surveillance System




                                                                       284
                                                   FY 2007 Performance and Accountability Report
                                            OTHER ACCOMPANYING INFORMATION




                                                                       TRQ – Tariff Rate Quota
SCN – Soybean Cyst Nematode
                                                                       TSC – Technical Service Center
SEBAS – Socio-Economic Benefit Assessment System
                                                                       USDA – United States Department of Agriculture
SOD – Sudden Oak Death
                                                                       USTR – United States Trade Representative
SPOTS – Strategic Placement of Treatments
                                                                       VENA – Value-Enhanced Nutrition Assessment
SPS – Sanitary and Phytosanitary
                                                                       WFP – World Food Program
SSA – Sub-Saharan African
                                                                       WIC – Special Supplemental Nutrition Program for Women, Infants and
TANF – Temporary Assistance to Needy Families                          Children
TFP – Thrifty Food Plan
                                                                       WRP – Wetland Reserve Program
TPA – Trade Policy Authority
                                                                       WTO – World Trade Organization




                                                                    285
                                                FY 2007 Performance and Accountability Report
